<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2012 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 112-80, Part 6]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 112-80, Pt. 6

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 6

                               PERSONNEL

                               ----------                              

                       APRIL 13; MAY 4, 11, 2011


         Printed for the use of the Committee on Armed Services
















DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
      2012 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 6  PERSONNEL




















                                                   S. Hrg. 112-80 Pt. 6
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                       APRIL 13; MAY 4, 11, 2011

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

68-089 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                   






















                       COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

                       Subcommittee on Personnel

                      JIM WEBB, Virginia, Chairman

JOSEPH I. LIEBERMAN, Connecticut     LINDSEY GRAHAM, South Carolina
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana

                                  (ii)
























                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
        Active, Guard, Reserve, and Civilian Personnel Programs
                             april 13, 2011

                                                                   Page

Nelson, Hon. Bill, U.S. Senator from the State of Florida........     3
Chandler, SGM Raymond F., III, Sergeant Major of the Army, USA...     6
Kent, Sgt. Maj. Carlton W., Sergeant Major of the Marine Corps, 
  USMC...........................................................    10
West, MCPON Rick D., Master Chief Petty Officer of the Navy, USN.    25
Roy, CMSAF James A., Chief Master Sergeant of the Air Force, USAF    33
Barnes, Master Chief Joseph L., USN (Ret.).......................    68
Strobridge, Col. Steven P., USAF (Ret.), Director of Government 
  Relations, Military Officers Association of America............    76
Moakler, Kathleen B., Government Relations Director, National 
  Military Family Association....................................   106
Puzon, CAPT Ike, USN (Ret.)......................................   132
Roth-Douquet, Kathy, Chairman, Blue Star Families................   146

 Continuation of Testimony on the Active, Guard, Reserve, and Civilian 
                           Personnel Programs
                              may 4, 2011

Stanley, Hon. Clifford L. Under Secretary of Defense for 
  Personnel and Readiness........................................   189
Hale, Hon. Robert F., Under Secretary of Defense, Comptroller, 
  and Chief Financial Officer....................................   225
McCarthy, Hon. Dennis M., Assistant Secretary of Defense for 
  Reserve Affairs................................................   232
Woodson, Hon. Jonathan, M.D., Assistant Secretary of Defense for 
  Health Affairs, Director of TRICARE Management Activity........   248

 Continuation of Testimony on the Active, Guard, Reserve, and Civilian 
                           Personnel Programs
                              may 11, 2011

Lamont, Hon. Thomas R., Assistant Secretary of the Army for 
  Manpower and Reserve Affairs...................................   308
Bostick, LTG Thomas P., USA, Deputy Chief of Staff G-1, U.S. Army   320
Garcia, Hon. Juan M., III, Assistant Secretary of the Navy for 
  Manpower and Reserve Affairs...................................   321
Ferguson, VADM Mark E., III, USN, Chief of Naval Personnel, U.S. 
  Navy...........................................................   345
Milstead, Lt. Gen. Robert E., Jr., USMC, Deputy Commandant for 
  Manpower and Reserve Affairs, U.S. Marine Corps................   346

                                 (iii)

Ginsberg, Hon. Daniel B., Assistant Secretary of the Air Force 
  for Manpower and Reserve Affairs...............................   347
Jones, Lt. Gen. Darrell D., USAF, Deputy Chief of Staff for 
  Manpower, Personnel, and Services, U.S. Air Force..............   355


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

        ACTIVE, GUARD, RESERVE, AND CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 1:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Blumenthal, and 
Ayotte.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Christine 
G. Lang.
    Committee members' assistants present: Juliet Beyler and 
Gordon Peterson, assistants to Senator Webb; Lindsay Kavanaugh, 
assistant to Senator Begich; Jeremy Bratt, assistant to Senator 
Blumenthal; Charles Prosch, assistant to Senator Brown; and 
Brad Bowman, assistant to Senator Ayotte.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. The subcommittee will come to order.
    I would like to begin by saying we are awaiting the arrival 
of Senator Nelson, who is scheduled to be the first witness, 
but we're going to go ahead and proceed. If he has not arrived 
by the time I finish with my opening statement, if he arrives 
while you're testifying, then we will interrupt the testimony 
and take his statement.
    The subcommittee meets today to receive testimony on the 
Active, Guard, Reserve, and civilian personnel programs in 
review of the National Defense Authorization Request for Fiscal 
Year 2012 and the Future Years Defense Program.
    Today, we hear from the senior enlisted advisor of each 
military Service, as well as representatives from 
servicemember-oriented beneficiary groups.
    The Committee on Armed Services is an authorizing committee 
with the responsibility to examine and oversee all Department 
of Defense (DOD) programs and budgets. The Subcommittee on 
Personnel is responsible for oversight of all personnel 
programs, to include military personnel policy, pay, and 
benefits for Active Duty, Reserve, and retired military 
personnel and their families, military healthcare, and civilian 
personnel policy for DOD civilian employees.
    I am delighted to be serving with Senator Graham, as the 
ranking member, of this subcommittee. I don't believe he's 
going to be able to make the hearing today. But, for the 
record, and again, I'd point out that his experiences as a 
member of this subcommittee and as an Air Force Reserve officer 
adds a valuable perspective to our considerations. I've really 
enjoyed working with Senator Graham during my first year as 
chair of this subcommittee, and I know we're going to have that 
same cooperation again.
    I'd like to also welcome Senators Blumenthal and Ayotte to 
the subcommittee. I think it's the first time we've met this 
year. We have a really great group of people here on these 
issues. I think we're very bipartisan in looking to the well-
being of our men and women in uniform.
    In the event that the past few weeks and months have not 
made it obvious, Congress is taking a very careful look at 
budgets and spending levels; and DOD is not immune. Secretary 
Gates has embarked on an ambitious effort to realize 
efficiencies and save taxpayer dollars within the Department. 
As Joint Chiefs Chairman Admiral Mullen has said, the national 
debt may be our biggest national security threat as we move 
forward.
    In this spirit during our hearings this year on this 
subcommittee, I intend to take a closer look at department 
programs, the justifications, what they cost, and whether they 
are achieving their stated goals. To ensure that DOD obtains 
the greatest return on investment for every dollar it spends, 
Congress must do its part to make sure that funded programs are 
effective and efficient. Those that are not should be 
eliminated, and those that are should be sustained properly or 
perhaps even expanded, if necessary. This approach is fully in 
keeping with our roles as stewards of the public trust and 
taxpayer dollars. It's also a practice that was in place in the 
1980s, when I was Assistant Secretary of Defense and Secretary 
of the Navy.
    Our witnesses today do not have responsibility for 
developing the Department's budget. What they do have, 
collectively, is more than 120 years of military service among 
them, an acute sense of the challenges that our soldiers, 
sailors, airmen, marines, and their families face as we enter, 
now, the 10th year of sustained combat operations. I will look 
to each of our witnesses today, as the senior enlisted advisors 
of their Services, to give their frank advice regarding the 
health of the enlisted force, what programs and activities 
work, and which of them might need to be eliminated, expanded, 
or changed to ensure that we are properly attending to the 
well-being of our enlisted servicemembers and their families.
    In reading past testimony, it's clear that all of these 
senior advisors rightly focus on quality of life in military 
families. Our military families, while by and large handling 
the stress of frequent and lengthy deployments, continue to 
face serious challenges.
    Having served in combat as a marine in Vietnam, I know what 
it's like to be deployed. Having grown up in a military family, 
I know what it's like to have a parent deployed. As a father 
and father-in-law of enlisted infantry marines, I also know 
what it's like to have a child deployed, although I don't think 
either of those marines would appreciate the fact that I just 
called them a ``child.'' [Laughter.]
    Senator Webb. I am acutely mindful of our special 
obligation to see to the needs of servicemembers and their 
families and I take that responsibility very seriously.
    In this regard, I have, in the past, declined to support 
the administration's proposed fee increase for military 
healthcare for certain military retirees. I think most of you 
know that. I start from the presumption that lifetime 
healthcare for career military personnel is part of a moral 
contract between our government and those who step forward to 
serve. In my view, they have earned this benefit through their 
years of service, and it would be wrong to change that benefit 
after they've held up their end of a moral contract. I'll keep 
an open mind about discussion on this and other initiatives to 
improve the efficiency and effectiveness of our military 
healthcare benefits. I'm interested in what our witnesses today 
might have to say about these and other proposals.
    Finally, I'd like to acknowledge the work done by the First 
Lady, Michele Obama, and Dr. Jill Biden in support of military 
families. Yesterday, they launched Joining Forces, a program 
that seeks to bring together the private and public sectors to 
ensure that military families have the support they need. I 
know that Blue Star Families and the National Military Family 
Association (NMFA), represented on the second panel, have 
worked with the White House on this promising effort, and I 
look forward to hearing more about it.
    Before introducing our witnesses, I would like to welcome 
Senator Bill Nelson to the hearing and back to the Armed 
Services Committee, on which he spent many years. He has asked 
to appear before us to deliver a statement, relative to a piece 
of legislation that he has introduced--I believe he has 
introduced it every year over the past decade--to repeal the 
offset of the Survivor Benefit Plan (SBP) Annuity by Dependency 
and Indemnity Compensation (DIC).
    Senator Nelson, welcome. We appreciate your presence today.

 STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson. Mr. Chairman, thank you for your long 
service to the country and for your continued service. Even 
though you've announced your retirement from the Senate, that 
service that has been, as we say in the south, ``in your 
bones,'' will continue, and we appreciate it very much.
    I want to come and speak about this legislation, that you 
accurately noted that we have filed every year, about the 
inequity in the treatment of military survivors.
    There's a longstanding problem in our military survivor 
benefit system. The requirement for a dollar-for-dollar 
reduction in the SBP annuity by the amount--and offset by the 
amount of the Dependency and Indemnity Compensation received by 
the Department of Veterans Affairs--it's that inequity that I 
want to address and that I have addressed each year that I have 
been here. Over the years, we have chipped away at it, but the 
basic inequity is still there.
    Obviously, we are in a tough fiscal environment, and 
obviously, there are many worthy pieces of legislation to be 
funded. I realize that, in this environment, we are going to 
have to find an offset. What has typically happened, we always 
pass this in the Senate and it goes to the conference. Because 
of the cost of this legislation, it's dropped in the conference 
or it is whittled away at in a minor way.
    Interestingly, the cost is dropping. As the survivors 
increasingly diminish in number, the cost of this, actuarially 
projected, is dropping.
    But, nevertheless, I am here to say to your subcommittee, 
Mr. Chairman, that I am committed to finding an offset.
    I don't want to tell you what the offset ought to be, 
because what I learned from last week's experience is that you 
can be very creative in finding offsets and new sources of 
revenue, as we found in the negotiations that went on between 
the President and the Majority Leader and the Speaker of the 
House last week.
    This benefit plan is an optional program for military 
retirees, offered by DOD. The military retirees pay a premium 
out of their retirement pay to ensure that their survivors will 
have income, upon their death. It's reasonably priced 
insurance. But, from the public marketplace, that's not 
necessarily available, reasonably priced, usually because there 
are service-connected disabilities and health issues. So, SBP 
is a way for retirees to provide income insurance for their 
survivors, their family, and it pays them 55 percent of their 
retired pay. SBP is also paid to survivors when a servicemember 
dies on Active Duty. So, it's an insurance program.
    On the flipside, DIC is a survivor benefit administered by 
the Department of Veterans Affairs (VA). When military service 
caused the servicemember's death, either due to service-
connected disability or illness or Active-Duty death, survivors 
are entitled to monthly compensation of just over $1,100 a 
month from the VA.
    Of the 270,000 survivors receiving SBP, about 54,000 of 
them are subject to the offset. According to the Defense 
actuary, for 31,000 survivors, SBP is completely offset by DIC; 
meaning that the survivor receives no SBP and must live on that 
$1,100, alone. Retirees bought into the Survivors Benefit Plan 
in good faith, they paid good money. These military families 
planned for the future, and the government offsets it.
    There are other complications to the existing offset, 
including a court decision, in 2009. It requires surviving 
widows to remarry after age 57 in order to eliminate the 
offset. I can't figure that one out, and obviously, this 
shouldn't be tolerated.
    Mr. Chairman, I had a little bit of experience in 
insurance, before I came to the Senate, as the elected 
insurance commissioner of Florida. This offset is troubling 
when somebody buys an insurance policy and there's another 
government program over here, called Disability Indemnity. I 
know of no purchased annuity that would deny payment based on 
the receipt of a different payment.
    You are not only a student of history, Mr. Chairman, you 
are a historian and you are a great writer. You certainly 
recall those immortal words of President Lincoln, in his second 
inaugural address, in which he said, ``Finish the work we are 
in to bind up the Nation's wounds, to care for him who shall 
have borne the battle, and for his widow and his orphan.'' That 
encapsulates what I am trying to say here, and have been trying 
to say for over a decade. To honor these servicemembers, the 
government should take care of the veterans, their widows, and 
their orphans.
    Since 2005, the Senate has supported this almost every 
year. Then we go, in the provision being offset when we get 
into conference.
    We made some steps in the right direction. I hope that we 
can find mandatory spending offsets to pay for this 
legislation, which is always the reason that is given to ax it.
    The Congressional Budget Office informs me that it will 
cost roughly $6.6 billion to completely eliminate the offset 
over 10 years. When I started out on this, a decade ago, the 
cost was upwards of $12- and $15 billion for a 10-year period. 
I would ask you all, in this subcommittee, to consider that as 
we put the legislation together for the authorization bill.
    I would just conclude, Mr. Chairman, by saying that, as the 
President, in his second inaugural address, in the midst of the 
Civil War, said, ``To take care of him, his orphan, and his 
widow is a cost of war,'' one of the costs of war is not only 
what we buy in the way of equipment and salaries, but a cost of 
war is taking care of our veterans and their survivors.
    I humbly submit this to the committee for your 
consideration.
    Senator Webb. It's very compelling testimony. I thank the 
Senator very much.
    Senator Nelson. By the way, Mr. Chairman, there are several 
members of this subcommittee that are cosponsors of the 
legislation.
    Senator Webb. Just as a matter of historical record, my 
father paid into SBP from 1969 to 1997 in order to be able to 
have my mother have an annuity when he passed away. When he 
passed away, there was another problem in this program that 
you're aware of, where they offset out of her Social Security 
when she started receiving the SBP annuity in 1997.
    So, this is a program that's had kind of a complicated 
history, and we'll certainly take a strong consideration of 
your legislation, as has been done in the past. We thank you 
very much for your testimony today.
    Senator Nelson. Thank you very much.
    Senator Webb. I'd like to now welcome the first panel of 
witnesses for this hearing: Sergeant Major of the Army, Raymond 
Chandler III; Master Chief Petty Officer of the Navy, Rick B. 
West; Sergeant Major of the Marine Corps, Carlton W. Kent; and 
Chief Master Sergeant of the Air Force, James Roy.
    We welcome all of you, look forward to hearing your frank 
and candid testimony, which I have no doubt we will be 
receiving.
    I'll have to get advice from counsel, is there a protocol 
done by Services? I'm a little partial to the Marine Corps. 
[Laughter.]
    Okay. We're going to start with the Army and move over to 
the Air Force.
    Sergeant Major Chandler, welcome.

STATEMENT OF SGM RAYMOND F. CHANDLER III, SERGEANT MAJOR OF THE 
                           ARMY, USA

    Sergeant Major Chandler. Good afternoon.
    Senator Webb. I would ask that you summarize your 
statements in 5 minutes, and your full statements will be 
entered into the record as if read.
    Sergeant Major Chandler. Thank you, Mr. Chairman.
    Chairman Webb, members of this committee, thank you for 
your invitation to testify today on our Army's quality of life. 
I truly appreciate this committee's commitment to our 1.1 
million soldiers, their families, and our Department of the 
Army civilians.
    I'm still relatively new to this job, but after being 
around the Army for almost 30 years, I have seen first-hand the 
important decisions this committee makes on behalf of our 
military every day.
    I pledge to always be a point of contact, should you ever 
have any questions or comments about our soldiers, equipment, 
training, or quality-of-life programs.
    Our top priorities will be to continue to maintain our 
combat edge while reconstituting our force and building 
resilience in our soldiers and families. During the last 
several years, we have made significant progress in restoring 
balance to our four imperatives: sustain, prepare, reset, and 
transform.
    Increasing the dwell time between deployments is the single 
most important component of restoring balance. Most of our 
Active Duty soldiers deploying in October 2011 have the 
expectation that, after 1 year of deployment, they will be able 
to spend 2 years at home. Most of our Army National Guard and 
Army Reserve soldiers will be home for 4 years before possibly 
deploying again.
    I truly appreciate all the work Congress has done for our 
soldiers in the areas of behavioral health, wounded warrior 
care, and TRICARE. With your help, we have provided our 
soldiers, families, and civilians the best possible care, 
support, and services.
    Our focus continues to be improving access to, and 
predictability for, our services. We continue to enhance 
support for our wounded, families of our fallen, victims of 
sexual assault, and those with behavioral health issues.
    Our soldiers have also begun chain-teaching to prepare for 
the repeal of Don't Ask, Don't Tell. We are currently 
conducting chain-teaching classes, with a completion date of 
mid- to late August.
    One of the main reasons our soldiers are so successful 
around the world is our diversity. The Army offers 
opportunities to men and women of all backgrounds to be an 
integral part of our All-Volunteer Force. In this time of 
globalization, our Army needs diverse leaders in order to 
successfully interact with different cultural groups.
    The women of our Army continue to serve this Nation with 
honor and distinction. The Army has reviewed our assignment 
policies and regulations to ensure they are relevant and meet 
the needs of current conditions and emerging requirements. This 
ensures all soldiers, regardless of gender, are offered the 
opportunity to reach their highest potential.
    Financial responsibility is everyone's business. We must 
serve as good stewards of the financial resources we receive 
from our Nation. As part of our efficiencies review, we are 
currently looking at removing redundant programs while 
streamlining those that serve a vital purpose. I welcome your 
ideas on this process.
    In closing, I want to stress the amazing work done every 
day by our Army team. As Sergeant Major of the Army, the best 
part of my job is visiting our soldiers, families, and 
civilians across the world. The professionalism, dedication, 
and sacrifice they display every day is the reason our Army, 
your Army, is the envy of every other in the world.
    I appreciate this opportunity to speak before you today to 
tell the Army's story. I welcome your questions at this time.
    Thank you, and Army Strong.
    [The prepared statement of Sergeant Major Chandler 
follows:]
         Prepared Statement by SGM Raymond F. Chandler III, USA
                              introduction
    Chairman Webb, Senator Graham, and members of this subcommittee, 
thank you for your invitation to testify today on our Army's quality of 
life. I truly appreciate this committee's commitment to the 1.1 million 
soldiers, their families, and the Department of Army civilians. I am 
still relatively new in this job, but after being around the Army for 
almost 30 years, I have seen first-hand the important decisions this 
committee makes on behalf of our military every day.
    This subcommittee has a tremendous responsibility, ensuring we have 
the correct end strength and policies in place for our soldiers today 
and in the foreseeable future. I pledge to always be a point of contact 
should you ever have any questions or comments about our soldiers, 
training, or quality of life programs.
    The Army recognizes that it is our responsibility to serve as good 
stewards of the financial resources we receive from our Nation. As part 
of our efficiencies review, we are currently looking at removing 
redundant or underperforming programs while streamlining those that 
serve a vital purpose and we welcome your ideas on this process.
    The Army continues to prevail against insurgents around the world 
while protecting our country and the rights of our citizens. We have 
completed combat operations in Iraq by transitioning to Operation New 
Dawn, continuing to provide much needed support to the people and 
government of Iraq. We have also surged soldiers into Afghanistan to 
support a new strategic direction. We have reshaped our Army to better 
align ourselves for the challenges of tomorrow. We have accomplished 
much over the last year, but there is still much to do.
    Our top priorities will be to continue to maintain our combat edge 
while reconstituting our force and building resilience in our soldiers 
and families. During the last several years, we have made significant 
progress in restoring balance through our four imperatives: sustain, 
prepare, reset, and transform.
    Increasing the dwell time between deployments is the single most 
important component of restoring balance. A recent study said that 
soldiers require at least 2 to 3 years to fully recover mentally and 
physically from the stresses of a 1-year deployment. As we continue to 
draw down our forces in Iraq, we have been able to continually increase 
our dwell time. Soldiers deploying in October 2011 have the expectation 
that after 1 year of deployment they will be home for 2 years in the 
Active component. After October, our Army National Guard (ARNG) and 
U.S. Army Reserve (USAR)soldiers can expect to see 1 year deployed and 
4 years at home.
    In order to meet the demands of today's strategic environment, we 
had to responsibly grow the Army, which we accomplished ahead of 
schedule in 2009. But even with this growth, we were not able to meet 
the high demands during this era of persistent conflict. As a result, 
Congress and the Secretary of Defense approved an additional 22,000, 
with the last 7,000 added during 2010. The Army's goal is to return to 
our approved active strength of 547,400 by the end of fiscal year 2013. 
It is imperative that as we begin to draw down, we do not sacrifice our 
combat experience and unit cohesion by cutting large numbers of 
soldiers. The Army is in the planning phase of this deliberate process.
    I truly appreciate all the work Congress has done for our soldiers 
in the areas of Behavioral Health, Wounded Warrior Care and TRICARE. 
With your help, we have provided our soldiers, families, and civilians 
the best possible care, support and services. Our focus continues to be 
improving access to and predictability of services. We continue to 
enhance support for our wounded, Families of our Fallen, victims of 
sexual assault and those with mental health issues.
    The Army continues to provide top care for our wounded warriors and 
their families through 29 Warrior Transition Units (WTU) across the 
United States and Europe. Currently, WTUs provide healing, 
rehabilitation, and reintegration to more than 10,000 wounded, ill, or 
injured soldiers, up about 11.5 percent from last year. In addition to 
the WTUs, nine Community Based Warrior Transition Units allow 
recuperating soldiers to utilize health care facilities in their home 
communities, while working at local U.S. Army armories and Reserve 
centers. To better support the housing of our wounded warriors, the 
Army has completed 6 Warrior Transition Complexes with 18 currently 
under construction.
    Through the U.S. Army Wounded Warrior Program (AW2), the most 
severely wounded, ill, and injured soldiers receive personalized 
support, regardless of location or length of care. More than just 
medical care, AW2 advocates assist warriors and their families with 
career and education opportunities, benefit information, and local 
resources. There are more than 8,000 soldiers enrolled in the program, 
up 24 percent from last year.
    Our Army Medical Command continues to meet the increased behavioral 
health demand of our soldiers and families. Even with the influx of 
behavioral health providers, the Army has seen a range of operational-
related stress reactions including post-traumatic stress disorder, 
depression, anxiety, alcohol and substance abuse, family and 
relationship problems, increased risk taking behavior, compassion 
fatigue and suicide behaviors.
    Our soldiers receive top-notch behavioral health care, but access 
to this care is impacted by shortages of behavioral health 
professionals. Since 2005, the number of behavioral health visits has 
doubled, from 900,000 to more than 1.8 million. We continue to maximize 
the use of authorities that Congress has provided us to attract both 
military and civilian behavioral health providers to the Army. We have 
had some success hiring behavioral health professionals, increasing our 
staff by 65 percent, but we are still about 400 professionals short of 
our goal. Between fiscal year 2012-2017, we aim to hire 1,000 
additional behavioral health care providers.
    Finally, the Army has lacked a standardized resiliency promotion 
program, which is a key component of psychological health. Through 
three key plans, the Comprehensive Soldier Fitness, the Army's Campaign 
Plan for Health Promotion, Risk Reduction and Suicide Prevention, and 
Warrior and Community resiliency training, the Army is closer than ever 
to standardizing resiliency for soldiers from all three components.
    Overall, the Army has implemented over 45 initiatives to fix or 
change access to care, resiliency, quality of care and surveillance. We 
have shifted our focus to providing care and support for those serving 
in Operation Enduring Freedom and have expanded our telebehavioral 
health and automated behavioral health clinics. We are working hard to 
increase our behavioral health care providers for all components by 
approximately 1,000 across all components between 2012 and 2017.
    TRICARE is the health care program for active duty servicemembers, 
ARNG, USAR, retirees, family members, survivors, and certain former 
spouses worldwide. This program is a network of military and civilian 
health care professionals working together to foster, protect, sustain, 
and restore health for those entrusted to their care. Over the last 
year, TRICARE has introduced several new programs to provide care to 
those soldiers and families who need it most.
    The TRICARE Reserve Select (TRS) program continues to be a huge 
success for our ARNG and USAR soldiers and families. TRS gives these 
citizen-soldiers and their families access to an affordable benefit 
while serving in part-time status. TRS offers a health care plan 
similar to the TRICARE Standard and TRICARE Extra programs with a 
monthly premium. These rates did rise a little for fiscal year 2011. 
Single soldier rates increased from $49.62 to $53.16 and the family 
rate from $197.65 to $197.76. In addition to the TRS program, eligible 
ARNG and USAR soldiers and families can begin receiving TRICARE 
benefits up to 180 days before activating for a contingency operation. 
Under the Transitional Assistance Management Program, soldiers from all 
three components can receive an extra 180 days of TRICARE health 
benefits after separating from the Army.
    The TRICARE Retired Reserve (TRR) is a premium-based, worldwide 
health plan that provides care for USAR and USARNG soldiers and their 
families who have retired but are not yet eligible for TRICARE for Life 
coverage. TRR offers comprehensive health coverage from any TRICARE-
authorized provider. Costs for TRR Member-Only coverage is $408.01 and 
TRR member and family coverage runs $1,020.05.
    TRICARE plans to roll out its new Young Adult Program this spring 
to extend parent's health care benefits to their children up to the age 
of 26. This program is for young adults who do not have access to 
employer-sponsored health care coverage. TRICARE is still working out 
the details for the Young Adult program including eligibility, coverage 
criteria, costs, etc.
    We are in our final year of our 5-year effort to improve work and 
training facilities for our soldiers and civilians, as well as new or 
improved housing, medical, and child care facilities for our families. 
Under the base realignment and closure program, we have disposed of 
more than 24,000 acres and closed 3 Active installations and 5 U.S. 
Army Reserve Centers. We are on track to complete BRAC in fiscal year 
2011.
    The Army's Child, Youth, and School Services program supports the 
readiness and well-being of Army families by reducing the conflict 
between on-the-job military missions and parental responsibilities. 
Generally, Army families are younger than the average American family 
and more geographically dispersed from extended families in their 
hometown and communities.
    The Army has added 128 child development centers and 24 youth 
centers since fiscal year 2008. Last year, we were able to meet and 
maintain the DOD standard of 80 percent of the child care demand and 35 
percent of the youth program demand.
    The modernization of Army Family Housing and Soldier Barracks is 
critical to maintaining our All-Volunteer Force. The Army continues to 
make huge strides for both, expanding housing services and creating a 
secure and affordable environment for all of our soldiers and families.
    As part of the fiscal year 2012 budget, the Army has asked for 
$681.8 million for Army family housing. With this funding, the Army 
hopes to eliminate all inadequate family housing worldwide by replacing 
inadequate homes, improving existing homes and leasing where 
appropriate. This funding will be used to construct 128 new homes, 
renovate 276 homes, and operate and maintain the government-owned 
homes.
    We are on schedule to finish our barracks modernization plan for 
the 35 percent of our single soldiers by the end of fiscal year 2013. 
The Army is planning to fund 14 projects to construct 3,880 spaces at 9 
garrison locations for fiscal year 2012.
    The Army continues to fix and build all Army Initial Entry and 
Advanced Individual Training Barracks by 2015. Many of our outdated 
training barracks range in age from 40 to 100 years old. By the end of 
fiscal year 2011, the Army will only have funded 55.2 percent of the 
required spaces. During fiscal year 2012, we are planning to fund 3 
military construction projects and 14 OMA funded modernization 
projects. We also plan to allocate funding to eliminate inadequate 
training barracks by fiscal year 2015 and complete new barracks by 
fiscal year 2017. We ask for your continued support to help us complete 
this important program.
    One of the main reasons our soldiers are so successful around the 
world is our diversity. The Army offers opportunities to men and women 
of all backgrounds to be an integral part of our All-Volunteer Force. 
In this time of globalization, our Army needs diverse leaders in order 
to successfully interact with different cultural groups from across the 
world.
    Women in the Army continue to serve this Nation with honor and 
distinction in the roles, positions, units, and specialties in which we 
allow them to serve. Since 2002, more than 100 women have been killed 
in combat due to enemy contact and more than 14,000 are currently 
serving in Iraq and Afghanistan. It is no secret that women are an 
integral part of our force. They are on the front line, engaging the 
enemy, and making a difference.
    The Army has reviewed our assignment policies and regulations to 
ensure they are relevant and meet the needs of current conditions and 
emerging requirements. This ensures all soldiers, regardless of gender, 
are afforded the opportunity to reach their highest potential.
    Our soldiers have also begun chain-teaching to prepare for the 
repeal of ``Don't Ask, Don't Tell.''The Secretary of Defense has said 
that certification and the repeal must be accomplished across the 
entire Department at the same time. He added that this should be done 
consistent with the standards of military readiness, military 
effectiveness, unit cohesion, and recruiting and retention.
    For the Army, the guiding principles for implementation are: 
leadership matters most; minimize management; communicate and educate; 
and implement consistent with Army Core values. These principles have 
been instituted in our training and education efforts. The training and 
education has been implemented in three tiers beginning last month with 
Tier 1. We are currently conducting chain teaching classes with our 
Tier 2 and Tier 3 soldiers. Our goal is to have all three tiers 
complete by mid to late August.
    In closing, I want to stress the amazing work being done every day 
by our Army Team. As the Sergeant Major of the Army, the best part of 
my job is visiting our soldiers, families, and civilians across the 
world. The professionalism, dedication and sacrifice they display every 
day is the reason our Army is the envy of every other in the world. Our 
soldiers are the best trained, best manned, best equipped, and best led 
force in our history. I appreciate this opportunity to speak before you 
today to tell the Army story. I welcome your questions at this time. 
Thank you and Army Strong.

    Senator Webb. Thank you, Sergeant Major.
    Sergeant Major Kent.
    I should have pointed out earlier that I believe this would 
be Sergeant Major Kent's final appearance before this 
subcommittee before his retirement.
    Sergeant Major Kent. Yes, sir.
    Senator Webb. I'd like to add my own personal appreciation 
for all your years of service, Sergeant Major, and for the 
terrific job that you have done in your position as Sergeant 
Major of the Marine Corps.
    Sergeant Major Kent. Thank you, sir.
    Senator Webb. Welcome.

 STATEMENT OF SGT. MAJ. CARLTON W. KENT, SERGEANT MAJOR OF THE 
                       MARINE CORPS, USMC

    Sergeant Major Kent. Thank you, sir.
    Thank you, Chairman Webb, members, for the opportunity to 
testify for the last time as a United States marine on Active 
Duty on the important issues that directly impact the quality 
of life of our marines and families.
    I am leaving the active ranks, but ``once a marine, always 
a marine.'' So, these will continue to be important issues to 
all marines who have served.
    First of all, I'd like to report that your marines are 
honored to serve this great Nation and happy to be doing what 
marines do best, fighting and winning our Nation's battles. 
They are truly living up to the great warfighting legacy of our 
Corps that was founded in 1775. Your marines, including their 
spouses and family members who support them, remain our most 
valuable asset and our number one priority.
    As our Commandant, General James F. Amos, has said, ``We 
will keep faith with marines, sailors, and our families.'' I'm 
proud to report to you that we're keeping the faith with all 
marines, sailors, and their families. We invest in the marines, 
sailors, and our family, to include housing, Bachelor Enlisted 
Quarters (BEQs), wounded warriors, ill and injured, and also 
families of our fallen warriors.
    Both the Commandant and I receive feedback from our marines 
and their families as we travel the globe and look them eye-to-
eye. They notice and they appreciate the much-needed 
improvements in quality of life, but they also have no problem 
looking us in the eye and telling us we have additional work to 
do. As we move forward, we will continue to keep the faith with 
marines, sailors, and families by assessing the effect of our 
support services and demonstrating, through our direct actions 
that we are committed to improving them.
    We are grateful for the support of the Senate and the 
American people who continue to provide for the men and women 
who proudly wear our uniform. We're also grateful for the 
increased attention placed on support for our families. It is 
true that, while we recruit marines, we retain families. Their 
readiness is directly linked to the readiness of our Corps.
    Again, thank you very much for this opportunity to testify 
for my last time. I am available for questions.
    [The prepared statement of Sergeant Major Kent follows:]
           Prepared Statement by SgtMaj Carlton W. Kent, USMC
                              introduction
    Chairman Webb, Senator Graham, and distinguished members of the 
subcommittee, as I finish my last tour of duty, I want to thank you for 
this final opportunity to report to you on the state of your Marine 
Corps and our families' personal and family readiness.
    Throughout the last 10 years of war, our marines and their families 
have faced many challenges and made great sacrifices. Their endurance 
has been bolstered by your generous and sustained support which has 
enabled our continued success, on the battlefield and at home, and 
ensured our ability to maintain a high state of personal and family 
readiness. As we continue to serve this great Nation, we are grateful 
to you and the American people and thank you for your unwavering 
support.
    As our Commandant, General James F. Amos, has said, our marines and 
their families are our greatest and most valuable assets and caring for 
their welfare will be one of our top priorities. My testimony today 
will outline the progress we have made as well as the actions we are 
taking to fulfill that mandate.
                           your marine corps
    Today, through your ongoing support and that of the American 
people, your Marine Corps is a cohesive, total force of 202,100 Active 
Duty marines; 39,600 Selected Reserve marines; and 25,000 civilian 
marines. At any given time, approximately 30,000 marines are forward 
deployed in ongoing global operations in support of our Nation's 
defense. Your Marine Corps is also the youngest, most junior, and least 
married of the four military Services.

        <bullet> Sixty-five percent of marines are 25 or younger;
        <bullet> Twenty-one percent of marines are not old enough to 
        legally consume alcohol;
        <bullet> Forty percent of marines are lance corporal or below 
        (other Services are between 20 to 24 percent);
        <bullet> Forty-nine percent of marines are married (next 
        closest is Navy at 54 percent); and
        <bullet> Has 1 officer per 8.3 marines (next closest is Navy 
        with 1 officer per 5.1 sailors).

    In addition, the Marine Corps has approximately the same number of 
active duty personnel as family members. There are 207,194 family 
members: 90,566 spouses, 116,335 children, and 293 parents. This close 
relationship, 49:51, is unique among the military Services. The active 
duty to family member ratios of the Army, Navy, and Air Force are all 
approximately 40 percent servicemembers to 60 percent family members.
                          personnel readiness
    For our deployed and next-to-deploy forces, personnel readiness is 
extremely high. We continue to source our best-trained and most ready 
marines and sailors to meet geographic combatant commander requirements 
in Afghanistan and around the globe. The Marine Corps is prepared to 
sustain this for as long as the Nation requires.
                        operation iraqi freedom
    This past year, we completed our mission in Iraq, effecting the 
retrograde of more than 25,000 marines; 382,000 items of equipment; 
10,800 short tons of aviation support equipment; and nearly 11,000 
containers from al Anbar province via Jordan and Kuwait to the United 
States and elsewhere. At present, approximately 100 marines remain in 
Iraq serving in individual augment, transition team and other 
miscellaneous billets.
                       operation enduring freedom
    In Afghanistan, the mission has expanded. Over the past year, we 
increased our force strength in Afghanistan from 10,600 in December 
2009, to 20,700 in December 2010. We will continue to provide forces in 
Afghanistan capable of full-spectrum, counterinsurgency operations 
while balancing our capabilities to perform what the Nation will likely 
ask of us in the future.
                              end strength
    Current authorized end strength is 202,100 marines in the Active 
component and 39,600 marines in the Selected Reserve. During fiscal 
year 2012, the Marine Corps will concentrate on sustaining and shaping 
the Active Force. Our success can be attributed to four factors: 
quality recruiting, exceptional retention, reduced personnel attrition, 
and a great young generation of Americans who want to serve their 
country during wartime. Also, key to sustaining the force is an 
effective Enlistment Bonus and Selective Reenlistment Bonus programs 
which allow us to access and retain quality marines to sustain the 
Active Force. The Marine Corps Reserve is a full partner of the Marine 
Corps' Total Force. The Marine Corps Reserve continues to provide 
critical support for overseas contingency operations and noncontingency 
combatant commander requirements. At home, Marine Forces Reserve 
maintains marines and assets prepositioned throughout the country who 
are ready to assist with not only national defense missions, but also 
civil-military missions such as providing disaster relief.
                               dwell time
    In light of our operational demands, and through the support of 
Congress in authorizing our end strength of 202,100 Active-Duty Forces, 
our combat units are beginning to realize an approximate 1-to-2 dwell 
time. Other units vary at more favorable dwell time levels depending on 
their mission. We anticipate the 1:2 dwell ratio for combat units to 
remain relatively stable provided current deployed force levels are not 
increased; however, increased operational demands in Afghanistan or 
elsewhere may result in dwell times inconsistent with fostering a 
resilient Total Force. We are actively working to recruit, promote, and 
retain the right number of marines in the right occupational 
specialties to promote resiliency of our Total Force and reduce the 
stress on our families.
           keeping faith with marines, sailors, and families
    Just as our marines are required to be in a constant state of 
readiness, so must our families. Our Nation has been at war for a 
decade, placing unprecedented burdens on marines, sailors, their 
families, wounded warriors, and the dependents of the fallen. They have 
all made tremendous sacrifices in the face of danger. We owe them all a 
reciprocal level of loyalty.
    Our approach to caring for their needs is based on the same 
unwavering faithfulness they have demonstrated to the Marine Corps. We 
will ensure their needs are met during times of deployment and in 
garrison by providing the services, facilities, and programs to develop 
the strength and skills to thrive on the challenges of operational 
tempo. When needed, we will restore them to health. We will also 
transition them back to civilian life, and in the cases of our fallen 
marines, we will support and protect their surviving spouses and 
dependents. We know that in order to develop, maintain, and sustain 
their personal and family readiness and resiliency, we must provide 
innovative programs and services that are timely and relevant. We will 
do this by focusing on several key areas during this fiscal year.
    In his 2010 Planning Guidance, our 35th Commandant directed us to 
``look across the entire institution and identify areas that need 
improvement and effect positive change.'' Specifically, he asked us to 
evaluate all of our family readiness programs, to determine which 
require enhancement and/or expansion and which can be streamlined to 
reduce redundancy. This is not just about efficiencies; it is also 
about effectiveness. As part of that mandate, we have been directed to 
continue our behavioral health program integration; institutionalize 
resiliency training; and reorganize our Transition Assistance 
Management Program. My testimony today will outline the progress we 
have made and the actions we are taking in these and other critical 
areas.
                            family readiness
    In 2010, the Marine Corps increased baseline funding for family 
support programs by $110 million to ensure an appropriate wartime 
footing. Programs benefitting from this measure include: Unit, Personal 
and Family Readiness Program; Marine Corps Family Team Building 
Program; Exceptional Family Member Program; School Liaison Program; and 
other miscellaneous Marine Corps Community Services Programs supporting 
remote and isolated commands, deployed marines, and independent duty 
marines and families. As we continue the process of providing marines 
and their families with the most effective and relevant services, we 
are assessing all of our family support programs, identifying gaps and 
overlapping or duplicative efforts, and looking for opportunities to 
develop partnership programs and share resources with other agencies. 
Some of our notable accomplishments include the following:

        <bullet> Established over 400 full-time civilian Family 
        Readiness Officers to facilitate family contact and provide 
        critical information and referral services to support the 
        resiliency needs of marines and their families.
        <bullet> Developed an inventory of Deployed Support and Life 
        Skills Education and Training courses that address the 
        challenges of military life, as well as personal and family 
        life.
        <bullet> Transformed the Exceptional Family Member Program to 
        ensure that enrolled family members are provided a continuum of 
        care, while providing the sponsor opportunity for a successful 
        career.
        <bullet> Established school liaisons who form strong 
        partnerships with schools and other supporting agencies to 
        improve access and availability to quality education.
        <bullet> Implemented program and infrastructure enhancements at 
        remote and isolated commands, including investments in child 
        care, single marine programming, fitness and recreation 
        centers, and recreational equipment to support deployed 
        marines.
        <bullet> Increased Marine Corps child care capability from 64 
        percent to 73 percent with projection to meet 80 percent of 
        potential need by fiscal year 2012.
                      deployed and warrior support
    Deployed support is one of the most important services we provide. 
Our Exchange; Recreation and Fitness; and Communication services not 
only boost and maintain morale but also help to reduce mission-related 
stress.

        <bullet> Exchange. Ongoing missions in Afghanistan include the 
        operation of two Direct Operation Exchanges at Camps 
        Leatherneck and Dwyer, and one Tactical Field Exchange at Camp 
        Delaram II.
        <bullet> Recreation and Fitness. We assist in providing sports, 
        recreational, and fitness equipment to units throughout Helmand 
        Province with the joint support of USFOR-AJI. This 
        transportable equipment includes sports/recreation cooler kits 
        filled with sports gear and board games, electronic game kits, 
        Theater-in-a-Box kits, and functional fitness equipment for use 
        in austere environments. Reading materials, both electronic and 
        paperback, are also distributed.
        <bullet> Communication. Morale satellite services are available 
        to forward operating bases, combat outposts, and other austere 
        locations. We have delivered 13 satellite communications 
        systems to units in Afghanistan. Each system has 2 phones that 
        provide 6,000 free minutes per month and 5 laptops that allow 
        internet browsing, social networking and chat/video 
        capabilities to deployed marines.
                          family care programs
Exceptional Family Member Program
    The most tender of our families, those enrolled in the Marine Corps 
Exceptional Family Member Program (EFMP), have strongly endorsed the 
improvements made to their level of support and our focus on providing 
a continuum of care. Year after year since our program expansion, we 
have gained the trust of our families. This is demonstrated in our 
increasing enrollments and reduction in issues experienced by families 
relocating to new duty stations. I am proud to state that the 
Department of Defense (DOD) and the other Services recognize our EFMP 
as a premier, full-service program based on the quality and efficiency 
of program operations.
    Our EFMP sponsors will always be an advocate for their special 
needs family member, but when they need legal help, our EFMP attorneys 
are ready to assist families with obtaining benefits and services under 
Federal and State education and disability laws, special needs trusts, 
landlord-tenant issues and other legal areas.
    In 2001, EFMP had only 4,500 enrolled family members. This number 
has grown to over 9,850 today. In the past year, we have taken multiple 
actions to transform the program, including:

        <bullet> Utilizing Family Case Workers, at ratio of 1 FCW: 225 
        sponsors, to support families during relocation, deployments, 
        and life events and assist families with gaining access to 
        medical, educational, and financial support services.
        <bullet> Establishing installation-level Training Education 
        Outreach specialists to provide training and support for 
        families and the programs that support them.
        <bullet> Utilizing a Continuation on Location policy that 
        ensures the assignment and relocation process is sensitive to 
        EFMP family needs and meets statutory stabilization 
        requirements.

    In addition, the Marine Corps continues to underwrite the cost of 
up to 40 hours of short-term respite care per month for EFMP enrolled 
families. To date, we have provided more than 450,000 hours of respite 
care. Since the cost is underwritten by the Marine Corps, families are 
able to use their TRICARE Extended Care Health Option benefit for 
needed therapies and equipment. Nevertheless, challenges remain, such 
as:

        <bullet> the lack of portability of services for adults with 
        autism;
        <bullet> the inability of military families to gain access to 
        Medicaid; and
        <bullet> national economic impacts and subsequent State budget 
        cuts, particularly at local and State levels, which impede 
        school districts' abilities to provide special education 
        services and impact access and availability to critical 
        services.

    To address some of the State access issues, we have partnered with 
the National Council on Disabilities to study this problem. Results are 
under review.
Children, Youth, and Teen Programs
    Whether parents are working, experiencing family emergencies, or 
needing respite from single parent responsibilities connected to 
deployments, child care services remain a high priority quality of life 
requirement. In 2010, we provided 13,431 child care spaces and met 73 
percent of potential need requirements. Within these totals, we are 
caring for approximately 2,500 special needs children.
    The Marine Corps, with your support, is executing an aggressive 
Military Construction program and is opening six Child Development 
Centers in fiscal year 2011 and five more in fiscal year 2012. 
Nevertheless, as you might expect, the demand for quality child care 
on- and off-installation continues to grow and outweighs the 
availability of resources. To address this growing demand and help 
further define requirements, we have contracted for the development of 
a Child Development Program and Facility Master Plan. Using market 
assessments and analysis tools, the plan will evaluate on- and off-base 
access, unmet need, and will provide prioritized recommendations for 
meeting the need across the Marine Corps. We anticipate results this 
summer.
    In 2011, we will work with Marine Forces Reserve and Marine Corps 
Recruiting Command to identify opportunities to enhance availability of 
child care for Marines and their families serving on independent duty 
and at locations that are separated from military bases and stations. 
In addition, we are partnering with Boys & Girls Clubs of America for 
developmental youth programs, and working to identify ways to better 
support our youth and teens affected by a parent's deployment. We have 
reviewed the results of the National Military Family Association and 
RAND Study related to impacts on youth from deployments and are 
considering ways to address this situation.
School Liaison Program
    To help school-age children of marines flourish in new school 
environments, our School Liaison Program partners with Local Education 
Agencies (LEAs) to raise the educational capacity and standard of our 
military children. Supporting more than 80 school districts surrounding 
major Marine Corps installations, our school liaisons provide LEAs with 
information on Marine Corps families' needs and access to beneficial 
training and counseling services to support teachers and students. 
Marine parents have the comfort of talking with and being supported by 
a local education expert who provides meaningful insight and support to 
new transfers and those with questions on local education policies. In 
addition, school liaisons provide Marine parents with connections to 
online curricular resources that are linked to State standards, 
permanent change of station checklists to assist parents with pre-
relocation planning and registration in the receiving school districts, 
on-line tutoring and other resources.
                 personal and professional development
    Throughout the Nation, veterans aged 18-24 have experienced 
traditionally higher unemployment rates than their non-veteran 
counterparts. Our Commandant is focused on this problem and has 
directed the Marine Corps to conduct a thorough ``bottom up'' 
assessment of our Transition Assistance Management Program to 
revolutionize the process, embrace best practices, and ensure we are 
providing the right educational and career assistance to marines 
leaving the Corps. We believe transition assistance should be a process 
not an event. We have established a goal to make the Marine Corps 
Transition Assistance Management Program more value added for our 
departing marines.
    From 2009 to 2010, we conducted functionality assessments of the 
Transition Assistance Management Program and the Lifelong Learning 
Program and noted many deficiencies. In response, we established two 
Transition Assistance Operational Planning Teams in 2010 to assess 
existing programs. These teams identified issues, stakeholders and a 
conceptual framework for improved services and ways in which we will 
integrate Marine Corps Community Services transition assets. Key 
stakeholders involved in this process include servicemember recruiters, 
commanders, unit transition coordinators, and most importantly--our 
marines and their family members.
    With our predominately first-term force, we are committed to 
reaching our marines at designated touch points, helping them develop 
roadmaps that support their Marine careers, and better equipping them 
to reintegrate back into civilian life upon leaving active duty 
service. We have developed an ``end to end'' process improvement plan 
that will begin at the point of initial accession into the Marine Corps 
and continue through post separation.
    Marines have expressed a desire for assistance navigating 
Department of Veterans Affairs benefit processes such as in cases of 
enrollment for and access to education benefits. We will modify 
existing websites to improve access and enhance opportunity for 
separating marines to speak directly to Marine Corps support personnel 
who are trained to remove administrative benefit processing barriers. 
In addition, we will adapt our current job fairs to support increased 
networking opportunities that will allow marines to meet mentors and 
employers and find meaningful employment.
    Marines have also asked for an opportunity to connect with 
employers and learn how to translate their intangible and tangible 
attributes. Our transition workshops will be overhauled to address 
these needs. Marines are also seeking help to simplify enrollment 
processes for the Post-9/11 GI Bill and to gain access to academic 
institutions that will provide the quality and level of business 
education and skills private industry demands. We have initiated a 
Leader-Scholar Program, which includes academic institutions who value 
marines' service commitment and pledge special enrollment 
consideration. While the support varies from school to school, we now 
have 75 participating institutions with the goal of an additional 25 by 
the end of this year. We are initiating actions and integrating 
existing capabilities that will most directly improve the quality of 
support provided to marines 6 months prior to separation as well as the 
support provided to marines who have been separated at least 6 months.

        <bullet> Establishing formal processes to initiate periodic 
        lifecycle contact to offer education, career, and financial 
        advice/counseling to marines and their families.
        <bullet> Creating an Individual Development Plan for each 
        marine, with execution and delivery of required transition 
        services.
        <bullet> Improving the current Active-to-Reserve transition 
        process to better educate marines on Reserve opportunities to 
        retain the best talent. An enhanced, streamlined transition 
        process will increase the number of valuable, trained marines 
        who consciously choose to affiliate with the Reserves.

    As we gain momentum, we will continue to change the transition 
assistance program from its current event focus to that of a process 
that reintegrates marines into the civilian sector with the knowledge, 
skills, and abilities to leverage and communicate their Marine Corps 
time and experience. We believe this effort will result in an 
innovative program that addresses the Commandant's concerns, assists 
our families with their education and career goals, and meets the needs 
of our marines as they progress through their military life cycle, 
whether a single enlistment or a lifetime of military service, and 
transition to a successful post-military career.
                     behavioral health integration
    Since September 11, behavioral health needs have become 
increasingly complex with individuals often requiring assistance in a 
number of areas at one time. Marines with three or more deployments 
have been identified as particularly at risk. As a result of risk 
factors, our Combat Operational Stress Control (COSC) Program is 
currently developing a policy that will direct commanders to conduct 
face-to-face interviews with marines who have had three or more 
deployments. These commanders' interviews will identify marines at some 
level of elevated risk; allow commanders to engage their marines (pre- 
and-post-deployment); and provide an opportunity for intervention 
(medical and non-medical).
    As directed by the Commandant, we continue to move forward with the 
integration of our prevention and intervention programs--Family 
Advocacy, COSC, Suicide Prevention, Sexual Assault Prevention and 
Response, and Substance Abuse--initiated in 2009. We have established a 
new Behavioral Health Branch at our headquarters for Marine and Family 
Programs, Manpower & Reserve Affairs which will assess common 
behavioral health trends, risk factors, training needs, and protective 
factors to ensure maximum use of resources and to enhance existing 
prevention capabilities. We are also more fully utilizing the Institute 
of Medicine's ``Behavioral Health Prevention Intervention Spectrum'', 
which establishes common definitions, to focus our prevention efforts 
on marines and families.
    Through collaboration of services, we will deliver effective, 
evidence-based practices and behavioral health programs that are 
seamlessly woven into the larger support network of Marine Corps 
command structures, health and human services, and are in concert with 
building resilience and strengthening marines and their families.
Sexual Assault Prevention and Response
    Marine Corps leadership has initiated aggressive actions to elevate 
and highlight the importance of the Sexual Assault Prevention and 
Response (SAPR) Program and institutionalize a zero-tolerance policy. 
SAPR is focused on several key initiatives:

        <bullet> Prevention: Commanders are accountable for creating a 
        climate of respect in which sexual assault will not be 
        tolerated and building trust within their units that enables 
        victims of sexual assault to report the crime. Bystander 
        intervention training has been identified as an evidence-based 
        best practice for engaging marines in their role in sexual 
        assault prevention. New video-based bystander intervention 
        training is in development with a completion date of April 
        2011.
        <bullet> Risk Reduction: Alcohol has a tremendous impact on the 
        prevalence of sexual assault. Research on best practices for 
        addressing risk reduction, consent, and raising awareness 
        within the Marine Corps is forthcoming in 2011.
        <bullet> Victim Advocacy: During 2010, SAPR Program Managers 
        were hired at 18 installations to heighten sexual assault 
        prevention efforts by serving as master trainers and reporting 
        coordinators. A 24/7 helpline was established across all 
        installations to provide victims with emotional support, 
        information on reporting options, and critical resources.
        <bullet> Offender Accountability: The Trial Counsel Assistance 
        Program (TCAP) and a Joint Mobile Training Team were 
        implemented in 2010 to provide training for 40 Marine Corps 
        investigators and prosecutors on best practices in handling sex 
        crimes. Following-up on the success of the Case Review Project 
        in 2009, the Judge Advocate Division Military Law Branch is 
        reviewing closed cases of sexual assault to develop lessons 
        learned. This information will be disseminated in the form of 
        training techniques for investigators and prosecutors.
Suicide Prevention
    During calendar year 2010, we saw a nearly 30 percent decrease in 
the number of suicides within our Total Force (52 in calendar year 
2009; 37 in calendar year 2010). We are too early in our suicide 
studies to identify what specific initiative(s) have resulted in this 
dramatic turnaround. However, we have implemented a number of measures 
on multiple fronts. Some of these include the following:

        <bullet> Evocative Peer-led Training Program: ``Never Leave a 
        Marine Behind'' suicide prevention program for noncommissioned 
        officers and Junior Marines. We are expanding this training to 
        include staff noncommissioned officers and commissioned 
        officers this year.
        <bullet> DSTRESS Line Pilot Program with TRICARE West: ``By 
        Marines--For Marines'' call center designed to assist with 
        problems at an early stage. The call center is staffed by 
        veteran marines, providing anonymous service to all current 
        marines, veteran marines, their families, and loved ones.
        <bullet> Combat and Operational Stress Control and Operational 
        Stress Control and Readiness Teams: Utilizing unique training 
        programs across the Total Force and ensuring the presence of 
        mental health professionals in front-line units as a primary 
        prevention tool to help marines identify and mitigate stress.
        <bullet> Marine Resilience Study to Assess Risk and Resilience: 
        We are participating in a longitudinal research study that will 
        examine risk across three domains: biological, psychological, 
        and social. The outcome of this study will inform our work in 
        the area of building and maintain resiliency across the Corps.
        <bullet> Unit-Level Prevention Officer Training: Working with 
        the American Association of Suicidology to develop effective 
        training programs for these officers.

    We believe our training and other prevention efforts will help our 
marines and their family members maintain readiness and win their 
personal battles.
Combat and Operational Stress Control--Resiliency Training
    Stress issues affect all marines and families regardless of 
deployment. Assisting marines who show signs of stress and preventing 
combat and operational stress is one of our highest leadership 
priorities. To improve their resilience, we are working aggressively 
and creatively to build a training continuum that better prepares them 
for the inevitable stress of combat operations and to equip them with 
the necessary skills required cope with the challenges of life as a 
marine.
    Instruction founded and focused on our core values helps provide 
some of this resilience, especially in irregular warfare and complex 
environments. A program combining the ''best practices'' of mental, 
spiritual and physical fitness will best instill in our marines the 
resiliency to endure the stressors of combat and enhance their ability 
to perform effectively across the range of military operations.
    Our COSC program's goal is to help Commanders and Marine leaders 
maintain their warfighting capabilities and, with assistance from 
medical personnel, reduce the impact of negative stress reactions. By 
providing tools and resources to assist Marines with coping with the 
challenges of combat and the rigor of life as a marine, our COSC 
program implements activities focusing on force preservation and 
readiness and the long-term health and well-being of our marines and 
their families. COSC, with other behavioral health initiatives, 
aggressively combats these problems by strengthening marines, 
mitigating stress, identifying those who are at risk, and providing 
treatment when necessary, with the goal of re-integrating marines back 
into the force.
    Our Operational Stress Control and Readiness Program (OSCAR) embeds 
mental health professionals in operational units and provides training 
that helps the OSCAR team identify and mitigate negative stress 
reactions. The OSCAR team is comprised of 3 different groups: Providers 
(mental health professionals), Extenders (other medical and religious 
personnel), and Mentors (selected unit marines) who are trained to 
quickly intervene when marines show signs of stress reactions 
Currently, over 1,700 marines are trained as mentors.
    In fiscal year 2011, COSC will sustain and improve the OSCAR 
training by conducting a RAND evaluation, working with units who 
utilized OSCAR training while in combat environments and providing 
refresher training to OSCAR trainers. Extenders began receiving formal 
OSCAR training at Field Medical Schools in January 2011, which also 
supports institutionalizing OSCAR enhancing resiliency training.
    Our COSC program continues to show positive results as indicated by 
outside evaluations and assessments. The Joint Mental Health Advisory 
Team-7 reports that marines surveyed in Afghanistan in July 2010 show 
increased exposure to heavy combat. Marines also indicate increased 
protective factors including unit resilience, small-unit cohesion, 
perceived readiness, and improved climate in asking for help. This 
assessment also shows increased training effectiveness in managing 
combat/deployment stress and significant reduction in stigma associated 
with seeking behavioral health treatment.
                 post-traumatic stress and brain injury
    We will continue advocating to the medical community for better 
diagnostic and increased treatment options for marines with severe 
injuries including post-traumatic stress and traumatic brain injury. In 
collaboration with the other Services, we developed a set of events-
based parameters, mandating that our leaders search out marines who 
have experienced a concussive event. This measure no longer relies on 
identification of impacted servicemembers solely on their willingness 
to seek help on their own initiative. These protocols are in place now 
in Afghanistan, and we are already seeing a culture change in the 
attitude of marines about being treated early for a traumatic brain 
injury.
    We have established an in-theater Restoration Center that brings 
comprehensive concussion diagnosis and management as close to the front 
lines as possible to ensure that appropriate care is available as 
quickly as possible. We are currently developing policy and 
applications to track traumatic brain injury from ``point of injury'' 
to ``return to full duty'' separately but in parallel with medical 
documentation. These measures will empower commanders with the 
information they need to monitor the health of a marine who has 
suffered a concussive event and intervene appropriately for the 
duration of a marine's career and long after the initial injury.
                        wounded warrior regiment
    I am pleased to report on the progress of the Marine Corps' Wounded 
Warrior Regiment (WWR) and the determined spirit of our Nation's 
wounded warriors and their families. The WWR stood up in April 2007 and 
was built on a compressed timetable--it was essentially built in 
progress. Early efforts involved the identification of immediate 
requirements and the design and sourcing of a scalable organization 
that could expand or contract as needed. The initial focus was on a 
Marine's and his or her family's immediate needs, construction 
projects, basic administrative support, the stand-up of the Sergeant 
Merlin German Wounded Warrior Call Center, and the establishment of the 
Marine Corps' Recovery Coordination Program. When the WWR was 
established, long recovery times were not expected and long-term 
recovery support requirements were not anticipated. Since then, the WWR 
has continually assessed changing requirements, its organizational 
structure, and resourcing needs. We are now adjusting our structure 
based upon confirmed requirements, sound assumptions, and findings in 
warrior care that will allow for the enduring care of wounded, ill, and 
injured (WII) marines and their families.
    In his 2010 Planning Guidance, General Amos stated his commitment 
to ``enhance the capabilities of the WWR to provide added care and 
support to our wounded, ill, and injured.'' Moreover, he affirmed the 
need to sustain the Regiment for the long term given the wounds of the 
war and the fact that the WWR also provides care for our young Marines 
who are not combat wounded, but are injured in training or other 
accidents, suffer from diseases, and other tragedies.
    The WWR will continue to meet the Commandant's intent by refining 
our support capabilities and growing our care model to ensure we work 
toward healing the ``whole'' marine. Through synchronization of our 
programs and resources and external programs, the WWR is striving to 
help each WII marine focus on their abilities to heal medically while 
strengthening their mind, body, spirit, and family. The WWR works to 
ensure marines' medical treatments are harmonized with non-medical 
needs to optimize their recovery through their continuous engagement in 
productive activities.
    These activities include pursuing and reaching goals in areas that 
will improve readiness for return to duty or reintegration to 
communities, such as education, employment, physical fitness, and 
building strong families. For WII marines who are unable to continue 
their service, the Marine Corps has a moral obligation to them, their 
families, and this country to help them live productive and fulfilling 
lives and be good citizens.
WWR Programs and Services
    The non-medical care needs of our WII marines and their families 
can be extensive, and vary in type and intensity throughout the 
recovery process. The WWR assists active duty, Reserve, retired, and 
veteran WII marines and their families with their non-medical care 
needs through all phases of care from recovery to rehabilitation and to 
community reintegration. Each phase brings new challenges for the 
marine, their family, and the support staff. The complexity of their 
care does not allow for isolated decisionmaking and it requires a 
heightened level of coordination between medical and non-medical care 
providers. There is no ``one-size-fits-all'' approach to care. The WWR 
has a cross-section of services and resources to ensure WII marines and 
families are provided for.
Sergeant Merlin Gennan Wounded Warrior Call Center
    Our call center extends support to marines and families through 
advocacy, resource identification and referral, information 
distribution, and care coordination. Located at the call center are 
clinical services staff who provide immediate assistance and referral 
for marines with psychological health issues and/or traumatic brain 
injury. Outreach is an important aspect of the Regiment's non-medical 
care delivery and management. The call center also conducts outreach 
calls to offer assistance on a wide variety of issues, such as service 
disability ratings, awards, employment, financial assistance, 
education, and benevolent organizations.
Administrative Support
    The WWR stresses at all levels that WII care is a relationship, not 
just an administrative process. With this in mind, the WWR provides WII 
marines and their families with one-on-one education on available 
benefits and compensation.

        <bullet> WWR staff strives to proactively track the progress of 
        paperwork and keep marines and families informed on the status 
        of claims, reimbursements, and any changes in benefits.
        <bullet> A family member's funded travel to the bedside of 
        their wounded marine is of particular concern to the WWR. The 
        USMC issues Invitation Travel Orders (ITOs) that can authorize 
        up to three individuals designated by a very seriously or 
        seriously WII marine to travel to the medical facility 
        providing care.
        <bullet> When on ITOs, travel to and from the hospital, hotel 
        costs, meals, and incidental expenses are reimbursed by the 
        government.
        <bullet> Additionally, for WII marines who require extended, 
        outpatient care, the USMC may authorize Non Medical Attendant 
        (NMAs) Orders. One person is typically authorized NMA travel 
        entitlements similar to ITOs which provide per diem and lodging 
        costs.
        <bullet> The WWR works to ensure that these types of 
        entitlements are tracked and monitored so that reimbursements 
        or compensation are provided in a timely manner.
Family Support
    The care needs of families of WII marines are of particular concern 
to the WWR and the Marine Corps.

        <bullet> The WWR strives to proactively identify and solve the 
        often unique family support needs of our WII marines, their 
        families, and caregivers.
        <bullet> Families of WII marines have a heightened requirement 
        for communication, information, and referral services to help 
        them navigate through the various phases of recovery.
        <bullet> The WWR has family support staff in place at all 
        locations to address immediate needs, provide a one-on-one 
        orientation to the many resources available to support them, 
        and to serve as subject matter experts on family support 
        requirements for regimental staff.
Medical Cell
    WWR headquarters has a Medical Section that advises the commanding 
officer regarding medical issues and emerging technologies/treatments 
impacting WII marines.

        <bullet> The section includes: a Regimental Surgeon, a Mental 
        Health Advisor, a Nurse Case Manager, a Psychological Health 
        Program Coordinator, a Traumatic Brain Injury Program 
        Coordinator, and Licensed Clinical Consultants.
        <bullet> Together, this team works with public and private 
        medical providers to ensure the best care for WII marines, 
        particularly in the areas of post-traumatic stress and 
        traumatic brain injury.
Recovery Care Coordinators
    As WII marines transition through the phases of recovery, it is 
important that they have a consistent contact in place to help them 
navigate the system. The WWR has Recovery Care Coordinators who are 
assigned to WII marines to help them and their families develop 
Comprehensive Transition Plans to define and meet their individual 
goals for recovery, rehabilitation, and reintegration.
Warrior Athlete Reconditioning Program
    Under this program, (which is mandatory for all marines joined to 
the WWR, but tailored to accommodate their medical limitations), 
marines engage in both physical and cognitive activities outside the 
traditional therapy setting. Activities are individualized to the WII 
marine's needs, and encompass over 18 areas--from aquatic training to 
yoga. Supporting WII marines in individual or team settings, the 
program greatly improves overall physical and mental fitness and helps 
to improve their self-esteem.
Transition Support
    Many WII marines will not return to duty and will pursue careers in 
their communities. The WWR recognizes its commitment and moral 
obligation to marines who are unable to continue their service to help 
them live productive and fulfilling lives and understands the 
challenges associated with reintegration and obtaining a rewarding 
career. To enhance community reintegration, the WWR's Transition 
Support Cell, manned by marines and representatives from the 
Departments of Labor and Veterans Affairs, proactively reaches out to 
identify employers and job training programs that help WII marines 
obtain positions in which they are most likely to succeed and enjoy 
promising and fulfilling careers.
District Injured Support Cells
    District Injured Support Cells, consisting primarily of mobilized 
Reserve marines, are located throughout the country to conduct face-to-
face visits and telephone outreach to WII marines and their families 
within their assigned region. They maintain oversight of the welfare 
and quality of life of all WII Reserve marines, Active Duty marines 
convalescing at home, and all OEF/OIF WII marine veterans.
Reserve Support
    The WWR makes a special effort to ensure that WII Reserve marines 
do not fall through the cracks. The majority of the WWR's staff 
consists of Reserve marines with a high level of subject matter 
expertise that allows for heightened advocacy with regard to Reserve-
specific issues. Our staff is dedicated to supporting WII reservist 
needs. The WWR's Reserve Medical Entitlements Determination Section 
maintains oversight of all cases of reservists who require medical care 
beyond their contract period for service-connected ailments. The 
Regiment also has Reserve specific Recovery Care Coordinators who 
provide the one-on-one support and resource identification needed to 
support reservists who are often times residing in remote and isolated 
locations away from base and station support.
Integrated Disability Evaluation System (IDES) Support
    The WWR has Regional Limited Duty Coordinators to help marines 
processing through the IDES and Wounded Warrior Attorneys, to advise 
and support WII marines through this process. The WWR also published a 
pocket guide (via the web and hard copy) to help marines and families 
understand the Disability Evaluation System.
Enduring Commitment to Wounded, Ill, and Injured Marines
    The Marine Corps is committed to the long-term care of its wounded 
warriors and their families. As warrior care evolves and innovates, the 
WWR will continue to adjust to ensure we are providing the best support 
possible. The WWR will continue to assess its current programs and 
support structure to evolve to meet the long-term recovery requirements 
of our WII marines and their families.

        <bullet> The USMC is proud to report that the results of our 
        assessments thus far are positive.
        <bullet> The assessments have substantiated that the creation 
        of the WWR has had a positive impact on the support offered WII 
        marines and families.
        <bullet> Additionally, our assessments have shown positive 
        satisfaction levels in important areas, such as our Recovery 
        Care Coordination Program (executed by the WWR's Recovery Care 
        Coordinators) and our family support staff.

    Your WII marines are highly motivated, focused on their abilities, 
and remain in the fight. The Marine Corps is grateful for the 
exceptional support that you have provided to them and the families who 
support them.
                          casualty assistance
    The Marine Corps Casualty Assistance Program is committed to 
ensuring that families of our fallen marines are always treated with 
the utmost compassion, dignity, and honor. Our Casualty Assistance 
Program actively seeks opportunities to improve survivor assistance and 
has a demonstrated record of taking quick, effective action as needed.
    The Headquarters Casualty Section is a 24-hour-per-day operation 
manned by Marines trained in casualty reporting, notification, and 
casualty assistance procedures. Next-of-kin (NOK) are notified in-
person by a marine in uniform--Casualty Assistance Calls Officer 
(CACO)--and a chaplain whenever possible. Notifications are typically 
completed within 4 hours of receipt of the casualty report. Marine 
CACOs are there for the NOK--to assist with burial arrangements, 
applications for benefits and entitlements, contact with benevolent and 
philanthropic organizations, and obtaining reports of investigation. 
Within days of the incident, families are connected to representatives 
from the Tragedy Assistance Program for Survivors (TAPS), a nationally 
recognized provider of comfort and care to those who have suffered the 
loss of a military loved one and are experts at ``taking care of the 
heart''. TAPS services are no cost and available 24/7. Approximately 60 
days following the death, we reach out to the NOK to help resolve any 
residual issues and let them know we are available to them for as long 
as they need us.
                             infrastructure
    The Marine Corps continues to strive for a prolonged commitment to 
facilities and infrastructure that supports operations and quality of 
life for our marines and their families.

        <bullet> The fiscal year 2012 budget request includes $4.6 
        billion (military construction, family housing construction and 
        operations, sustainment, base operating support, and 
        restoration and modernization) which continues our efforts to 
        operate, maintain, and improve our infrastructure. This funding 
        provides critical Military Construction and Facilities support 
        for our Active and Reserve Forces.
        <bullet> For many years, we have funded only our most critical 
        facility needs. As a result, our installations were in a poor 
        position to properly house and operate with the additional 
        forces required to meet our planned end strength increase.
        <bullet> In fiscal year 2007-2010, the Marine Corps received 
        $6.9 billion in new construction and design. With this funding, 
        we are providing new quality of life facilities, improved 
        operational and training facilities, and more up-to-date 
        utility infrastructure systems.
        <bullet> Your generous assistance in the past has provided 
        critical support that allows us to improve our installations. 
        However, it is critical that Congress provide necessary 
        legislative language in order to allow us to proceed with 
        approximately $2.9 billion of military construction and family 
        housing efforts in fiscal year 2011 to support the operational 
        and quality of life needs of our marines.
        <bullet> Plans for fiscal year 2011 include construction of 
        5,000 new barracks spaces, improvements to existing family 
        housing units, critical aviation facilities to support next 
        generation aircraft, improvement of Professional Military 
        Education, replacement of outdated and inadequate facilities, 
        other quality of life facilities, and correction of safety and 
        encroachment issues.
        <bullet> The USMC has four major funding areas where 
        recapitalization and modernization initiatives in 
        infrastructure and facilities are programmed: Bachelor and 
        Family Housing; Facility Sustainment, Restoration and 
        Modernization; Military Construction; and Military 
        Construction, Navy Reserve.
Bachelor Housing
    Bachelor enlisted housing is the Commandant's top Military 
Construction priority. The Marine Corps currently maintains over 
100,000 bachelor enlisted housing spaces worldwide.

        <bullet> In fiscal year 2012, the Marine Corps is requesting 
        $58 million to support this program and we are working towards 
        constructing approximately 800 new barracks spaces.
        <bullet> This investment, along with nearly 25,000 new spaces 
        programmed since fiscal year 2008, will provide much needed 
        support to have all single marines adequately housed.
        <bullet> Barracks are a critical element in supporting our 
        warfighters. The Bachelor-Enlisted-Quarters initiative focuses 
        on our enlisted troops and their quality of life within our 
        barracks.
        <bullet> The USMC is the youngest, most junior, and least 
        married of the four military Services. Providing appropriate 
        and comfortable living spaces that positively impact the morale 
        and development of these young men and women makes sense.
        <bullet> We are also committed to funding whole room barracks 
        furnishings on a 7-year replacement cycle and prioritizing 
        barracks repair projects to preempt a backlog of repairs.
        <bullet> The Marine Corps' goal is to provide a 2+0 room 
        standard that allows two junior enlisted marines (E1-E3) to 
        share a room and bath. We believe that assigning two junior 
        marines to a room is the correct balance between the privacy 
        desired by the marines and the Marine Corps' goals of providing 
        companionship, camaraderie, and unit cohesion.
        <bullet> This balance provides the atmosphere we believe is 
        necessary to motivate, train, and develop marines, while 
        fostering unit integrity. Noncommissioned officers (E4 and E5) 
        are provided a private room with bath in a 2+0 room.
        <bullet> With your continued support, the Marine Corps is on 
        track to obtain our goal to achieve the 2+0 standard for all of 
        our marines by 2014.
Family Housing
    Marine Corps families are an integral component of readiness. We 
must always remember that marines and their families serve out of a 
sense of duty and loyalty to our country and, as they do so, face the 
difficulties of the military lifestyle--frequent relocations often far 
from extended family and frequent deployments that separate families 
for months at a time. We have a responsibility to provide adequate 
family housing to our families.

        <bullet> We continue to increase both the quantity and quality 
        of our family housing inventory through public private ventures 
        (PPVs) and military construction where necessary.
        <bullet> In addition to PPV initiatives for family housing, 
        continued support for full funding of the Basic Allowance for 
        Housing (BAH) allows more families to access quality, 
        affordable housing in the local community. This is important 
        since more than two-thirds of servicemembers do not live on a 
        military installation.
        <bullet> However, many families continue to prefer to live in 
        military or PPV housing for a number of reasons, including 
        economics, safety, schools, and community support. PPVs, 
        combined with traditional military construction, will continue 
        to build and improve the homes necessary to supplement local 
        community housing.
        <bullet> We have over 24,000 owned, leased, or PPV family 
        housing units worldwide.
        <bullet> Thanks to your support over the last year, we were 
        able to award projects for additional privatized housing at 
        Marine Corps Base Camp Lejeune, NC; Marine Corps Air Ground 
        Combat Center Twentynine Palms, CA; and at Marine Corps Base, 
        HI. We were also able to continue progress on our series of 
        planned renovations to our housing in Iwakuni, Japan.
        <bullet> In 2001, the Marine Corps had nearly 17,700 inadequate 
        housing units, with the majority of those units requiring 
        significant revitalization or replacement.
        <bullet> Based on contracts in place by the end of fiscal year 
        2007, the USMC has met DOD's goal to eliminate inadequate 
        housing by 2007 and will complete the build-out by 2014.
        <bullet> The funding provided by Congress in fiscal year 2010 
        provided almost $128 million for public private venture (PPV) 
        seed money, operations, maintenance, sustainment and 
        restoration for family housing. This request included $79 
        million for PPV seed money, $15 million for traditional 
        military construction, and $34 million for family housing 
        operations.
        <bullet> Your support for this request allowed us to continue 
        to address the requirement for additional family housing 
        resulting from Grow the Force increases and sustaining and 
        modernizing our remaining government-owned housing.
        <bullet> This PPV seed money will permit construction of 
        approximately 230 new units and a DOD Dependent school addition 
        at Marine Corps Base Camp Lejeune, NC.
        <bullet> Our PPV program continues to allow the Marine Corps to 
        leverage private sector funds. In addition to government 
        financing, the private sector contributed development capital 
        for PPV projects in fiscal year 2010. We are using traditional 
        military construction to sustain and restore mid-rise units for 
        marines at Marine Corps Air Station Iwakuni, Japan and restore 
        the National Historic Landmark Home of the Commandants on the 
        Marine Barracks in Washington, DC.
        <bullet> Our fiscal year 2012 family housing budget request of 
        $53 million includes $26 million for improvements to 76 homes 
        at MCAS Iwakuni, Japan and for the operations, maintenance, and 
        leasing of 1,100 units located worldwide.
Public Private Ventures
    We have privatized over 97 percent of our worldwide inventories to 
date and continue to see success from our PPV projects across Marine 
Corps installations in Arizona, California, Georgia, Hawaii, 
Massachusetts, Missouri, New York, North and South Carolina, and 
Virginia. PPVs have not only improved the homes in which our families 
live, they are also providing community support facilities such as 
community centers, playgrounds, and greenscapes that help create 
neighborhoods and a sense of community for our marines and their 
families. Resident satisfaction with both the quality of their home and 
the service provided continues to increase every year. With almost our 
entire domestic inventory privatized, we will continue to build on our 
prior successes and use PPVs to help us address most of our remaining 
housing requirement.
Facility Sustainment, Restoration, and Modernization
    Facility sustainment funding is critical to keeping our buildings 
ready to support the mission and provide an acceptable quality of life. 
In the past, our infrastructure could not be replaced at an appropriate 
rate, causing portions of it to deteriorate. As a consequence, the 
Marine Corps has had to use an increasing percentage of its facility 
sustainment funds to bind together old, inadequate buildings throughout 
the course of their service life, rather than maintaining newer, more 
economical structures resulting in significant numbers of facility 
sustainment projects being deferred due to a lack of funds. This 
directly impacted the living and working conditions in barracks, mess 
halls, and other facilities, in highly visible and negative ways. In 
addition, we suffered a ``quiet crisis'' with respect to less obvious 
repairs to steam plants, airfields, sewer lines, and roads. These 
requirements are no longer being ignored.

        <bullet> A few years ago, the Office of the Secretary of 
        Defense (OSD) developed a model to determine the amount of 
        funding we need to sustain our facilities. This model continues 
        to be refined and strengthened.
        <bullet> Since inception of the model, and because of the 
        funding standards put in place by OSD, we have done very well 
        in programming and execution of sustainment.
        <bullet> In fact, in fiscal years 2006, 2007, and 2008 our 
        sustainment rate is over 100 percent. In 2009 and out, however, 
        OSD set our programmed sustainment rate at 90 percent of the 
        model.
        <bullet> This equates to $592 million in fiscal year 2012. This 
        level allows for a slow degradation of our facilities and 
        allows the remaining 10 percent to move to meet more urgent 
        operational needs elsewhere.
        <bullet> This, along with low Operation and Maintenance (O&M) 
        recapitalization funding in fiscal year 2012 of $49 million, 
        over the next few years will take us back to where we were 
        prior to the implementation of the sustainment model.
        <bullet> However, since we now have metrics and tools that will 
        alert us to the coming degradation, corrections can be made 
        accordingly in future budgets.
Military Construction
    For the fourth year in a row, the fiscal year 2010 funding provided 
by Congress represented a significant increase from historical funding 
levels. In 2010, over $2.7 billion in funding will provide facilities 
that address longstanding requirements at our bases and stations and 
support the increased end strength across the Marine Corps. It is 
always a pleasure to visit our installations and hear young marines 
talk about the work they perform in these new facilities.

        <bullet> Our fiscal year 2012 budget request of $1.4 billion 
        continues to support our marines. Funds are being requested to 
        support Bachelor Enlisted Quarters, Joint Strike Fighter and 
        MV-22 support facilities, quality of life improvements, such as 
        a child development center and fitness facility at Twentynine 
        Palms, utilities and infrastructure improvements, and training 
        and professional military education facility improvements.
        <bullet> Additionally, the fiscal year 2012 budget request 
        includes funding to support the relocation of marines to Guam.
        <bullet> Our Military Construction program is a key to success 
        in achieving and sustaining our new force structure and 
        maintaining the readiness of our marines.
Marine Corps Exclusive, Military Construction, Navy Reserve
    The Marine Forces Reserve is an integral and vital portion of our 
Marine Corps total force. Marine Forces Reserve is comprised of almost 
39,600 Select Marine Corps Reserve personnel at approximately 183 
sites, dispersed throughout 48 States, Washington DC, and Puerto Rico. 
The Military Construction, Navy Reserve program for exclusive Marine 
Corps construction must effectively allocate limited funding to address 
at least $140 million in deferred construction projects. As these 
numbers suggest, maintenance of adequate Marine Corps Reserve 
facilities presents a considerable challenge:

        <bullet> Over 57 percent of the Reserve centers our marines 
        train in are more than 30 years old and of these, 44 percent 
        are more than 50 years old.
        <bullet> The equipment our marines use today is bigger, 
        heavier, wider, and longer, creating support requirements that 
        these antiquated facilities cannot meet.
        <bullet> The electrical demand on our facilities because of 
        modem equipment has increased significantly.
        <bullet> Appropriately constructed or modified maintenance 
        facilities, as well as adequate electrical power and other 
        support infrastructure upgrades, are necessary to maintain 
        combat readiness.
        <bullet> We still continue to use facilities built to 
        accommodate manual typewriters, M151 jeeps, and M-48 tanks.

    To help us address these challenges, the fiscal year 2012 budget 
request includes $8 million for Military Construction, Navy and Marine 
Corps Reserves. This program addresses pressing requirements and will 
provide a new Reserve Training Center and a vehicle maintenance 
facility in Memphis, TN. Additionally, we and the Navy are working 
together with the Army to fund a joint Reserve complex in Indianapolis, 
IN.
                               conclusion
    Whether serving in combat or in garrison, marines are guided by 
honor, courage and commitment. These core values have been the compass 
for every marine's service throughout our rich history. Leadership, 
hard training, and a willingness to sacrifice have forged our Corps 
into one of the most capable fighting forces the world has ever known. 
Our Marine Corps has remained true to these values for 235 years. As we 
continue to transition and align our programs and services to meet 
current and future challenges, we will continue to be fiscally 
responsible and frugal with taxpayers' dollars. As always, we are 
grateful for your sustained support.
                                 ______
                                 
           Executive Summary by SgtMaj Carlton W. Kent, USMC
    Chairman Webb, Senator Graham, and distinguished members of the 
subcommittee, as I finish my last tour of duty, I want to thank you for 
the support you and the American people have given the men and women 
who proudly serve and wear our uniform, especially over the last 10 
years of war. Although I am leaving the active duty ranks, once a 
Marine, always a Marine. The quality of life issues we discuss today 
will continue to be important to all marines and their families.
    I am pleased to report that your marines are honored to serve this 
great Nation and are happy to be doing things that marines do best, 
fighting and winning our Nation's battles. They are truly living up to 
the great warfighting legacy that marines have built since 1775. Your 
marines, including their spouses and family members who support them, 
continue to remain a valuable asset and our number one priority.
    Throughout the last 10 years of war, our marines and their families 
have faced many challenges and made great sacrifices. Their endurance 
has been bolstered by your generous and sustained support which has 
enabled our continued success, on the battlefield and at home, and 
ensured our ability to maintain a high state of personal and family 
readiness. It is true, that while we recruit marines, we retain 
families, and their readiness is directly linked to the readiness of 
our Corps. As we continue to serve this great Nation, we are grateful 
to you for the increased attention placed on the support of our 
families.
    As our Commandant, General James F. Amos has said, ``We will keep 
faith with our marines, our sailors, and their families.'' I am proud 
to report to you that we are keeping faith by providing the kinds of 
programs and services that are critical to their quality of life and 
overall well-being. Our approach to caring for their needs is based on 
the same unwavering faithfulness they have demonstrated to the Marine 
Corps. We will ensure their needs are met during times of deployment 
and in garrison by providing the services, facilities, and programs to 
develop the strength and skills to thrive in the challenges of 
operational tempo. When needed, we will restore them to health. We will 
also transition them back to civilian life, and in the cases of our 
fallen heroes, we will support and protect their surviving spouses and 
dependents. As both the Commandant and I travel the globe to visit our 
marines and their families, they provide us valuable feedback and let 
us know that they notice and appreciate the much improved quality of 
life programs, such as transitioning our single marine and family 
readiness programs from a peacetime model to a wartime footing; 
expanding support to our wounded, ill, and injured marines; and 
investing in our infrastructure such as housing and bachelor enlisted 
quarters. However, our families also have no problem telling us that we 
have additional work to do. We know that in order to develop, maintain, 
and sustain their personal and family readiness and resiliency, we must 
provide innovative programs and services that are timely and relevant. 
We will do this by focusing on several key areas during this fiscal 
year.
    In his 2010 Planning Guidance, our 35th Commandant directed us to: 
``Review and Improve Family Readiness--Evaluate all Marine Corps Family 
Team Building Programs and make recommendations on optimum span of 
control, where we require further assistance to our families, and where 
we should streamline to erase redundancy.'' To respond to the 
Commandant's concerns, we have developed a deliberate process and are 
taking the following actions:

    1.  Launching a web-based Program Prioritization Tool that will be 
sent, via email, to Active and Reserve Unit Commanders and Sergeants 
Major to ask them to prioritize our Marine Corps Family Programs based 
on the value to marines and their families.
    2.  Initiating Operational Planning Teams to review the structure 
of the Unit, Personal and Family Readiness and Marine Corps Family Team 
Building Programs to redefine staffing requirements.
    3.  Conducting focus groups with unit commanders, associated 
sergeants major, and respective spouses to obtain their insights on the 
effectiveness of Marine Corps Family programs; identify unmet needs of 
marines and families; and acquire recommendations to fix identified 
deficiencies.

    Based on the feedback we receive, we will develop recommendations 
for funding current and future programs. This is not just about 
efficiencies; it is also about effectiveness. As part of that mandate, 
we have been directed to continue our behavioral health program 
integration; institutionalize resiliency training; and reorganize our 
Transition Assistance Management Program.
    As we move forward, we will continue to keep faith with our marines 
and families by assessing the effectiveness of our support services, 
transitioning and aligning our programs to meet their current and 
future challenges, and demonstrating, through our direct actions, that 
we are committed to improving them. As always, we will continue to be 
fiscally responsible with taxpayers' dollars. My testimony today will 
outline the progress we have made and the actions we are taking in 
these and other critical areas. Thank you.

    Senator Webb. Thank you, Sergeant Major.
    Master Chief Petty Officer of the Navy, Rick West.
    Welcome, Master Chief.

STATEMENT OF MCPON RICK D. WEST, MASTER CHIEF PETTY OFFICER OF 
                         THE NAVY, USN

    Master Chief Petty Officer West. Thank you very much, sir.
    Mr. Chairman, distinguished members of the subcommittee, I 
appreciate the opportunity to appear before you to discuss the 
health of our Navy's enlisted force.
    Your steadfast support of our men and women in uniform has 
had a tremendous impact on their quality of life and quality of 
work. Both are vital to operational readiness and mission 
effectiveness.
    As I speak today, approximately 60 percent of our ships are 
underway, with 40 percent being on deployment worldwide. Other 
than our global presence, traditional maritime operations, and 
developing partnership capacity through worldwide engagement, a 
snapshot across our global Navy would look like the following:
    More than 14,000 sailors are on the ground and more than 
14,000 sailors at sea in Central Command, supporting operations 
in Iraq and Afghanistan.
    Our Navy is executing counterpiracy missions off the coast 
of Africa.
    As part of our global reach, we are at the forefront of 
providing humanitarian assistance and disaster relief support 
to the victims of natural disasters, wherever they occur.
    Our Navy, America's Navy, has no boundaries. We are a 
global force for good.
    In my travels this past year, I have enjoyed the visits 
I've had with the sailors who defend America every day. In 
these visits, I have taken a special note of the quality of 
life and the many programs that support our sailors and their 
families. Current operational demands and high operational 
tempo have placed added stress on the force. Our many personnel 
and family readiness programs remain one of our Navy's highest 
priorities.
    One area that has a recent significant impact on the 
quality of life for our families that I feel a need to 
highlight is the Continuing Resolution (CR) for 2011. Under the 
CR, physical constraints, considerable delays, and permanent 
change-of-station orders occurred, resulting in more than 
20,000 sets of orders being deferred. For those transfers that 
we were able to execute, we have reduced transfer times to 2 
months or less. While relief is on the way, lingering effects 
of the CR will continue to place emotional and economic strain 
on our sailors and their families as they attempt to sell 
homes, seek follow-on employment for family members, enroll 
children in schools and complete necessary screening and 
training requirements prior to transfer.
    Though leadership has been resourceful in mitigating the 
impact, the CR has also affected our ability to execute 
contract for phased new construction and facility sustainment 
in our barracks while, at the same time, forcing us to curtail 
contracts for base operating support and delay necessary 
civilian hiring.
    Despite these challenges, our leadership remains focused on 
providing support to our sailors and their families to foster 
resiliency as well as family readiness.
    Our Navy team will accomplish any mission or task we ask 
them. They do this, knowing their families will be well 
supported and cared for when we go over the horizon into harm's 
way.
    In closing, on behalf of our sailors and their families 
serving throughout the world, thank you for your continued 
support of our great Navy and the programs that support the 
quality of life of all personnel. I look forward to your 
questions, sir.
    Hooyah Navy.
    [The prepared statement of Master Chief Petty Officer West 
follows:]
             Prepared Statement by MCPON Rick D. West, USN
                              introduction
    Chairman Webb, Ranking Member Graham, and distinguished members of 
the Personnel Subcommittee of the Senate Committee on Armed Services, 
thank you for the opportunity to testify before you. As the Enlisted 
representative of the Navy, I am honored and privileged to speak before 
you on behalf of more than 430,000 Active and Reserve sailors who make 
the finest Total Force in the history of our great Navy.
    Last year, I visited many commands around the world and most 
recently I traveled with our Chief of Naval Operations (CNO) to 
Afghanistan, Iraq, Kuwait, Bahrain, and Landstuhl, during which I was 
impressed by the quality of sailors serving with such great enthusiasm 
and devotion. I am constantly amazed and truly awed by the daily 
sacrifices and outstanding capabilities and resiliency of our sailors 
who serve with distinction on ships, squadrons, submarines and on land. 
No matter where they are in the world or what they do for our great 
Navy, everything they do is very important and it all plays part in our 
Navy's Maritime Strategy. Our sailors are the best we have ever seen as 
a Navy; they are performing their missions well and I am very proud of 
what they do everyday.
Sailors in Action
    America's Navy is a global force for good on station around the 
world, around the clock building partnerships through maritime security 
cooperation and spanning the core capabilities of our Maritime Strategy 
of forward presence, deterrence, power projection, sea control, 
maritime security, and humanitarian assistance, and disaster response. 
Our Navy's responsibilities have increased because the challenges our 
country faces are so unpredictable and diverse. We need to be ready to 
confront these challenges, and we are.
    In addition to our traditional maritime mission, below, on or above 
our world's oceans, we are boots-on-ground alongside our brothers and 
sisters in the Army and Marine Corps in places like Iraq and 
Afghanistan. In fact today, we have the second largest force operating 
in that Area of Responsibility (AOR).
    The Navy's contribution in support of Overseas Contingency 
Operations (OCO) has been a vital component of our national effort to 
secure a safer world. At any given time, there are more than 15,000 
sailors in the Individual Augmentee (IA) pipeline worldwide, either 
with orders, in training, or deployed, filling almost 11,000 IA 
requirements. The Navy has almost 25,000 Active and Reserve sailors on 
the ground and at sea in the U.S. Central Command (CENTCOM) AOR 
supporting Navy, Joint Force, and combatant commander requirements in 
support of OCO.
    Using skills traditional to the Navy, our sailors continue to fill 
combat support and combat service support missions. These missions 
include medical support, Joint Task Force and headquarters staff, base 
operating support, detainee operations, engineering, intelligence and 
surveillance, embedded training teams and provincial reconstruction 
teams.
    To date, there have been more than 90,000 IAs in support of OCO 
with more than two-thirds of these sailors mobilized from the Navy 
Reserve. Most IAs are concentrated in the CENTCOM region, which 
includes Iraq, Afghanistan, Kuwait, and Bahrain. But there are also IAs 
serving in other regions to include, but not limited to, Germany, 
Philippines, Cuba, Horn of Africa, and Japan. I assure you that your 
sailors are ready to take on any challenge necessary to protect our 
great nation by providing a constant, well-trained forward presence 
throughout the world.
    With more than 40 percent of our ships deployed daily, America's 
Navy is making the world a better place. Our Navy has conducted counter 
piracy operations in the Indian Ocean and deployed ships to provide 
proactive humanitarian assistance with global partners in missions such 
as Pacific Partnership and Continuing Promise 2010 in the Caribbean. 
Our sailors perform remarkable and selfless feats every day out of 
devout patriotism and commitment to helping others. Last year, our 
sailors responded compassionately while providing humanitarian 
assistance and disaster relief following the earthquake in Haiti and 
flood in Pakistan, and today they are providing assistance in strength 
to the people of Japan after the devastating earthquake and tsunami. 
With all the events and coverage by our Navy worldwide we conducted the 
world's largest maritime exercise, which brought together 14 nations 
and more than 20,000 military personnel, to improve coordination and 
trust in multi-national operations in the Pacific. Our Nation's Navy 
has a global presence and are the first responders when the Nation and 
the world calls.
                          personnel readiness
    We have been very successful in our recruiting and retention 
efforts over the past 3 years. However, we are encountering challenges 
in recruiting health professionals, nuclear operators and special 
warfare operators in both the Active and Reserve components. To meet 
increased demands for these skills, we maintained bonus levels for 
nuclear officers and health professionals and continue to offer 
enlisted accession bonuses to special warfare/special operations and 
other critical ratings.
    In fiscal year 2010, Navy recruiting achieved all enlisted goals, 
including nuclear field, Naval Special Warfare/Special Operations and 
all OCO ratings, as well as total female and women in nontraditional 
ratings. We continue to exceed Department of Defense (DOD) quality 
standards in all recruit categories. For new contract quality in fiscal 
year 2010 we achieved 97.4 percent High School Diploma Graduates (HSDG) 
and 83 percent scored 50 or higher on their ASVAB (Test Score Category 
I-IIIA). We expect this trend to continue into fiscal year 2011.
    America's Navy has transitioned from a posture of reducing end 
strength to one of shaping the force. Our force shaping efforts remain 
focused on maintaining a balanced force in terms of seniority, 
experience and skills, while staying within our congressionally 
authorized end strength limits. We are projected to meet our fiscal 
year 2011 authorized Active end strength of 328,700 and Reserve end 
strength of 65,500 by the end of the fiscal year.
    We are training and retaining superb sailors who are dedicated to 
serving our Nation. In particular, we remain focused on retaining 
sailors with critical skills in high demand in civilian sector and 
specialties that continue to experience high operation tempo in support 
of OCO. Key to sustaining the force are effective Enlistment and 
Selective Reenlistment Bonus programs which allow us to access and 
retain quality sailors to sustain the Active Force.
    We are finding ways to provide flexible service options and levels 
of participation to maximize each individual sailor's ability to serve 
in the Navy over the course of a lifetime.
    Our Perform-to-Serve program which includes a Selected Reserve 
option, gives us the opportunity to retain our fully-qualified sailors 
within the Reserve component before they separate from active duty. We 
recently incorporated a Fleet Rating Identification Engine (Fleet RIDE) 
application with our Perform-To-Serve initiative. This tool provides a 
comprehensive assessment of sailors' qualifications for alternate Navy 
enlisted ratings so we can transition them to an undermanned technical 
specialty. It further facilitates the Reserve affiliation process by 
providing each Active component sailor with information about Reserve 
opportunities and the ability to apply for a Reserve component quota.
    The Continuum of Service concept looks to develop programs that 
provide sailors with flexible career options within Navy's Total Force 
construct. Our goal for the continuum of service initiative is to 
achieve a seamless transition between the active and Reserve 
components, and civilian work force, to meet mission requirements and 
encourage a lifetime of service. Since the establishment of the Career 
Transition Office (CTO) in May 2009, average transition time has 
decreased from more than 30 days to 4 days. Transition from Active Duty 
to Reserve creates a ``Recruit Once, Retain for Life'' culture. We view 
a sailor's career similar to driving down a highway. Sailors need the 
ability to make ``lane changes'' to meet life-work needs, and the CTO 
is there to make the ``lane change'' as seamless as possible.
    Existing transition assistance programs to facilitate sailors' 
relocation to the civilian sector are robust but would benefit from 
expansion. In the last 5 years, more than 300,000 sailors have 
separated from Navy service while our end strength dropped by 
approximately 35,000 personnel. Although we expect this rate to plateau 
as we satisfy end strength requirements and shape our force, properly 
preparing our sailors for this transition will remain critical so that 
they are able to plan for and become equally productive citizens of 
society.
                           navy reserve force
    Since 1915, Navy reservists have played an integral part in service 
to our Nation. From World War I to World War II, through Operation 
Desert Shield and Operation Desert Storm, to September 11, and to 
Overseas Contingency Operations (OCO), Navy reservists have continually 
stepped up, supported and defended our Nation against enemies, foreign 
and domestic. Since September 11, our Navy Reserve has filled more than 
63,000 mobilization requirements. As of October 2010, more than 7,000 
reservists were mobilized to support of OCO. Our Navy Reserve makes up 
slightly more than 50 percent of the IA force, with slightly less than 
50 percent being Active component sailors. Our Navy Reserve warriors 
continually prove they are more than capable of meeting any challenge 
and conducting any mission, anytime, anywhere.
    As I travel the world to meet and talk with sailors, I could not be 
more proud of the day-to-day efforts and tenacity of our sailors. I'm 
amazed at the integration that has taken shape over the years between 
our Active and Navy Reserve. We are one Force working side-by-side in 
all corners of the world; a Total Force integrated and executing the 
Navy's mission wherever and whenever called.
    Even though we have always had an operational Navy Reserve, since 
the terrorist attacks on September 11 we have relied heavily on our 
Strategic Reserve Force in order to meet various Naval and joint 
military missions. Our Sailor's Creed begins with ``I am a United 
States Sailor'' and that is exactly what I see when I travel throughout 
our Navy; Active and Reserve sailors from all walks of life working 
side-by-side as one team, one family and one Navy.
    We ensure that billets are filled and missions are manned properly, 
but our Navy families are top priority, and we remain committed to 
balancing mission requirements with family needs.
                      sailor and family readiness
    As our Navy evolves and we continue to have the most advanced 
equipment, technology, weapons systems and platforms, one thing remains 
the same: The engine that truly drives our Navy and the reason we are 
the best is our people.
    I greatly enjoy every opportunity I get to travel around the world 
to meet and talk with sailors and their families. When I see our hard-
working, high-spirited and amazingly capable sailors, it makes me very 
proud and humbled. Now, that I am toward the end of my career, I am 
entering a new career field, that of being a Navy family member. My 
oldest son, Zach, is a Navy Diver and my wife Bobbi and I know what it 
is like to watch our son deploy in harm's way, waiting, wondering and 
praying that everything will be alright and he will return home safely. 
I also know what it feels like to be the spouse at home watching your 
loved one deploy. I experienced this first-hand this past year when my 
wife was deployed to Afghanistan with the Naval Criminal Investigative 
Service. As we all know, we certainly could not do our jobs and 
probably would not be where we are today without the love and support 
from our families and spouses.
    I could not be more proud of our Navy families for their remarkably 
selfless dedication and steadfast support of our sailors. Our families 
have sacrificed so much as they have supported their sailors and our 
great Navy. We are the greatest Navy in the world and a big part of 
that is our sailors being ready and able to focus on the mission and 
their individual jobs because they have the confidence that our Navy is 
taking care of their families.
    Deployments are an integral part of Navy life. We have been 
deploying our forces since we formed our great Navy during times of 
both peace and conflict, but it is important not to underestimate or 
take for granted the incredible strain that a long deployment imposes 
on our sailors and their families. Multiple deployments, frequent 
relocations and the stresses associated with being part of a military 
family all impact the overall readiness of the unit, the readiness of 
the individual sailor, and the readiness of their family.
    Keeping our Navy families informed about resources available to 
them to mitigate the strain of deployment and provide support is 
instrumental to their peace of mind while waiting for their sailors to 
return from year-long assignments in the Middle East or 6-month 
deployments safeguarding our seas. Through resources such as `Navy for 
Moms,' `Navy Dads,' Military OneSource, Navy.mil and various other web 
sites, our sailors and their families are more informed today about the 
resources available to them than they have ever been in the history of 
our Navy. Another success in communication has been the use of smart 
phone applications such as `Navy Life' and `Navy IA' as well as social 
media web sites such as Facebook and Twitter to connect with sailors 
and families. Both CNO and I are committed to using social media 
because it is a great opportunity to remain connected with our sailors 
Navy-wide and a great tool in our outreach efforts for getting 
information out in a timely manner to our entire Navy family, which 
includes Active and Reserve sailors, families, retirees, and Department 
of the Navy civilians.
    Morale, Welfare, and Recreation (MWR) programs are also 
instrumental in our commitment to addressing Sailor and Family 
Readiness. The Navy has embraced a ``Culture of Fitness'' through 
incorporation of programs such as the Navy Operational Fitness and 
Fueling Series and Family Fitness Opportunities. We facilitate these 
and other initiatives through access to modern facilities and evolving 
approaches to holistic health. Sailors are required to meet physical 
fitness and body composition standards that necessitate a regimented 
approach regardless of environment, climate or other limitations. 
Ashore, our sailors and families also rely on MWR to strike a balance 
between the demands of military service and the importance of off-duty 
pursuits with loved ones.
                           continuum of care
    Health care is one of our top recruiting and retention tools for 
our sailors, and I continuously hear just how important access to 
health care is for them and their family members. Navy Medicine 
continues to focus on developing an economic and quality-centric 
strategy for the delivery of top-quality health care to our 
beneficiaries, and the recruitment and retention of providers in 
critical specialties allowing the fulfillment of the wartime mission, 
while sustaining the benefit here at home.
    Operational tempo of the force remains at very high levels. To 
ensure the behavioral health needs of our sailors is met, we are 
seeking ways to refine existing programs, as well as exploring new 
opportunities to address future demands. In particular, our Navy's 
Operational Stress Control Program, Navy Reserve Psychological Health 
Outreach Program, Warrior Transition Program, Returning Warrior 
Workshop, Navy Safe Harbor, and our Medical Home Port Program are 
critical elements of our comprehensive continuum of care and we must 
continue to support the expansion of these programs as the need 
requires.
    The Navy's Safe Harbor Program is the Navy's lead organization for 
providing the highest quality non-medical care to all seriously 
wounded, ill, and injured sailors, coastguardsmen, and their families. 
Using a holistic approach, Navy Safe Harbor offers a lifetime of 
individually tailored assistance designed to optimize the success of a 
sailor's or coastguardsmen's recovery, rehabilitation and reintegration 
activities. Since January 2008, Safe Harbor has grown from 9 personnel 
supporting 145 sailors and families at 6 locations to serving a case 
load of more than 1,200 wounded, ill, or injured servicemembers at 16 
locations. Safe Harbor's goal is to return sailors and coastguardsmen 
to duty and when not possible, work collaboratively with Federal and 
nongovernmental agencies, including the Department of Veteran Affairs 
and State and local organizations, to ensure their successful 
reintegration back into their communities.
    Through our Fleet and Family Support Centers we offer a number of 
personnel and family support programs to reduce life stressors 
including, but not limited to physical readiness, life skills 
education, financial management, health promotion, and religious 
ministries. Furthermore, our family readiness programs promote healthy 
and resilient families, focusing on areas such as the prevention of 
suicide and domestic violence, and providing developmental child care 
and youth programs and services. We make every effort to reach 
servicemembers and families no matter how remote their location through 
webinars, monthly electronic newsletters and deployment preparedness 
handbooks.
    The Bureau of Medicine and Surgery implemented Medical Home Port 
(MHP) throughout Navy Medicine in 2010 as a new model of healthcare 
delivery in primary care. Care delivered in the MHP model includes, but 
is not limited to, readiness, prevention, wellness, behavioral health, 
and disease management. This model enables sailors to be treated in the 
settings in which they feel most comfortable and reduces the stigma 
associated with the care they receive. MHP increases access to care, 
improves clinical quality and patient outcomes, enhances patient 
satisfaction, promotes a healthier and fit force, and reduces 
healthcare utilization, resulting in a reduction in overall healthcare 
costs.
    Combat casualty care is provided by Navy medical personnel assigned 
to and serving with Marine Corps units, in Expeditionary Medical 
Facilities, aboard casualty receiving/treatment ships and hospital 
ships, and in military and Department of Veteran Affairs hospitals. 
Recent advances in force protection, battlefield medicine, combat and 
operation stress control, medical evacuation, and family support 
programs have led to improved survival rates, healthier family 
functioning and enhanced operational effectiveness.
    The Navy continues to provide support to sailors and their families 
through a variety of programs that increase medical and non-medical 
assistance to wounded, ill, and injured servicemembers utilizing a 
comprehensive approach designed to optimize their recovery, 
rehabilitation and reintegration. Navy Case Management is the link that 
connects resources and services which allow injured servicemembers to 
reach their optimum goals in healthcare. Case Management provides the 
critical support servicemembers need during this challenging time in 
their lives. Case Management will continue to be at the forefront of 
providing optimal care to our servicemembers with war-related injuries. 
Navy Medicine has 192 Medical Case Managers providing service to our 
wounded, ill, and injured sailors in Military Treatment Facilities and 
ambulatory care clinics.
                 suicide and sexual assault prevention
    We continue our suicide prevention efforts through a multi-faceted 
system of communication, training and command support designed to 
foster resilience and promote psychological health among sailors. In 
calendar year 2010, the Navy had 38 sailor suicides compared to 46 in 
2009.
    The Navy continues to develop and enhance programs designed to 
mitigate suicide risk factors and improve the resilience of the force. 
These programs focus on substance abuse prevention, financial 
management, positive family relationships, physical readiness, and 
family support with the goal of reducing individual stress. We continue 
to work toward a greater understanding of the issues surrounding 
suicide to ensure that our policies, training programs, interventions, 
and communication efforts are meeting their intended objectives.
    More and more shipmates, leaders, and family members are noting 
signs of concern and are reaching out to get sailors the help they 
need. We recognize that long before thoughts of suicide occur, we have 
opportunities to build resilience, intervene early when risk factors 
are present, and create the connections that help sustain us in times 
of challenge. Most of these efforts fall within our broader family 
readiness and health promotion activities.
    The Navy has expanded the surveillance and analysis system for Navy 
active and Reserve suicide deaths and attempts; supported command 
prevention and stress control programs with printed resource and 
interactive training materials; provided training world-wide to suicide 
prevention coordinators and first responders; and provided Navy 
representation in DOD, VA, and other cooperative efforts.
    For most sailors, suicide prevention is more than just a training 
topic. About half have personally known someone in their lives who was 
lost to suicide. Sailors and leaders genuinely care and have shown it 
in the way they have engaged vigorously in focus groups, put forth 
tremendous creativity in developing suicide prevention posters and 
materials, and enthusiastically embraced new hands-on training 
materials. Their caring shows in the dozens of times each month someone 
assists a struggling shipmate to get some help. This past year, we 
implemented programs such as the Coalition of Sailors Against 
Destructive Decisions (CSADD) which is gaining momentum with our 
younger sailors.
    CSADD's mission is to provide military members of all branches with 
the best prevention and intervention tools possible to deal with the 
issues of drinking, reckless driving, and other destructive decisions 
while maintaining good order and discipline, to assist sailors in 
making life decisions that will maintain positive lifestyles in keeping 
with the Navy's core values, to guide sailors away from making poor and 
destructive decisions by providing them with positive and dynamic 
training and to show sailors how to make quick positive decisions and 
put their training to use in moments of high stress and peer pressure.
    The Navy has a `zero' tolerance policy for sexual assault; it is a 
criminal act. The majority of sexual assaults are servicemember-on-
servicemember and it is incomprehensible that a sailor would commit 
such a horrible crime against another shipmate. It undermines teamwork, 
morale, unit cohesion, and operational readiness.
    At the close of calendar year 2010, reports of sexual assault 
increased from 2009. This increase could be attributed to victims' 
increased willingness to report the crime. This demonstrates that our 
education and prevention efforts are showing progress, but we 
acknowledge sexual assaults are still occurring in our Navy. The 
highest risk group for victims over the past several years remains E-1 
to E-4, ages 20 to 24, with most incidents occurring during the 
weekends. In most sexual assault incidents, alcohol was a major factor 
impairing the judgment of offenders, victims, and bystanders.
    In order to remove sexual assault from our Navy, we are ensuring 
commands have a strong partnership with Sexual Assault Response 
Coordinators (SARCs) and a robust Sexual Assault Prevention and 
Response (SAPR) Program which fosters an environment where `shipmates 
help shipmates' by not allowing destructive behavior to occur.
    The SAPR program, established in 2004, promotes training, builds 
awareness and provides advocacy and supportive services for victims of 
sexual assault. It is a victim-focused program that focuses on response 
and offender accountability. The SAPR program is conducting a 
comprehensive review of training curriculum for those entering the 
Service ranks and attending professional military schools. The Navy 
embraces bystander intervention as the core of our strategy to protect 
sailors from sexual assault. Bystander intervention is key to 
preventing sexual assaults before they occur. Our goals include 
reducing the incidents of sexual assault, improving support for victims 
of sexual assault, and building prevention based upon insights from 
data-driven critical assessments. We will continue to revise and 
improve the SAPR program to create an environment free of sexual 
assault for all Navy personnel.
                               child care
    In today's military, many of our sailors have working spouses or 
have the responsibility of being single parents who depend heavily on 
our military child and youth system of care, which includes Child 
Development Centers (CDC), to provide quality child care. Due to 
frequent relocations and the length of deployments, many of our sailors 
do not have the option, like civilian families, to rely on family 
members and friends to assist with taking care of their children when 
they are away.
    An important facet that stands out in the quality of our child care 
programs is the continuity of service from location to location as we 
operate a standardized worldwide program. Sailors and their children 
can count on the same quality of care whether they are stationed in 
Chinhae, Korea, or San Diego, CA. Additionally, our programs are among 
the most affordable. Commercial programs charge parent fees based on 
the age of the child while our programs base fees on total family 
income. This model is critical to the economic viability of our 
families. Children under the age of three are the most costly to care 
for due to the lower child-to-staff ratios, and typically our most 
junior enlisted families have children in this age group.
    This fiscal year, we will complete an expansion of approximately 
7,000 new child care spaces meeting the Office of the Secretary of 
Defense guidance to provide 80 percent of potential need for child care 
spaces (54,000 total spaces for children ages infant to 12th grade, 
including 19,000 CDC spaces). With the construction of these spaces, we 
will reduce the waiting time for child care to 3 months or less Navy-
wide with first priority given to single parents.
    Our continuing expansion initiatives are not only meeting the needs 
of our families living on or near our installations, but also those 
living and working throughout the United States, including Reserve 
members. Our contract programs ``Military Child Care in Your 
Neighborhood'' and ``Mission Youth Outreach'' provide subsidized child 
and youth services from commercial programs that meet community quality 
standards. We continue to work with communities, assisting them with 
raising the quality of their standards.
           homeport ashore, bachelor and navy family housing
    Thanks to the support of Congress, through military construction 
and housing privatization, we have made significant strides in 
improving the living conditions of our sailors and their families. Our 
Homeport Ashore program continues to provide adequate off-ship quarters 
to junior sailors who are not entitled to a Basic Allowance for Housing 
and would normally live aboard ships. This effort marks the most 
dramatic quality of life improvement initiative for our single sailors 
that I have seen over the course of my career.
    Still, one of my biggest quality of life concerns is that we have 
approximately 5,400 single sailors, E-1 to E-4 with less than 4 years 
of service living aboard ship while in their homeport. The Navy has 
made considerable progress toward achieving the Homeport Ashore goal 
through military construction, privatization, and intensified use of 
existing barracks capacity (based on an interim assignment policy 
standard 55 square feet of space per person). Moving our single sailors 
off ships remains a priority and requires us to assign two or more 
sailors per room. Although housing these sailors does not meet the DOD 
requirement of 90 square feet per person, our sailors are very thankful 
for this initiative and know that we will continue to work to meet this 
requirement.
    Our Bachelor Housing provides permanent party personnel, students, 
and mobilized Sailors with suitable, affordable, and safe environments 
in community, privatized, or Navy-owned housing. It supports 
unaccompanied permanent party personnel, students, and mobilized units 
worldwide. The fiscal year 2012 Bachelor Housing program is focused on 
completing Homeport Ashore by 2016 and eliminating substandard Bachelor 
Housing conditions. With respect to addressing the condition, the Navy 
has increased its investment in the restoration and modernization of 
bachelor housing across the Future Years Defense Program to bring 90 
percent of the inventory to Q1/Q2 (or adequate) standards by 2022.
    In fiscal year 2011, the Navy would begin this initiative through 
the renovation of barracks in Milton, FL; Atsugi, Japan; Ventura, 
Lemoore, and San Diego, CA; Whidbey Island and Bremerton, WA; and Pearl 
Harbor, HI.
    The Navy owns approximately 10,000 family housing units worldwide. 
Based on revised Office of the Secretary of Defense criteria directing 
the use of Q-ratings, the Navy has identified approximately 3,700 Navy-
owned homes as inadequate. The revised definition is based on the 
physical condition of the home as a function of its replacement value. 
The previous inadequate definition was identified as a building in need 
of more than $50,000 of repairs. We have privatized approximately 
40,000 homes in the CONUS and Hawaii inventory. The privatization of 
the remaining 870 homes in the northwest is scheduled for the end of 
2013. The privatization of the remaining 226 homes in the southwest is 
under review. When the Public Private Venture (PPV) transition is 
complete, the Navy will own less than 100 homes in CONUS and Hawaii, 
but will retain ownership and management of all foreign assets.
    Thanks to the support of this committee and Members of Congress, we 
have improved the housing available to our sailors through PPV. Sailors 
cite the PPV initiative as one of the most effective quality of life 
improvements in recent years.
    Quality of life does affect retention and recruiting. PPV and 
Homeport Ashore are examples of initiatives that have had a direct 
impact on the retention, morale and the quality of life of our men and 
women. They are shining examples of our covenant with sailors to 
recognize their service through tangible improvements to their welfare, 
and represent ideal opportunities for expanded utilization.
                               conclusion
    America's Navy is very much a global force for good on station 
around the world and around the clock, deterring aggression, keeping 
the sea lanes open for free trade, projecting power and maritime 
security, and delivering humanitarian assistance and disaster response 
where needed. Sailors are the key element in our Navy's future force.
    Our Navy family members share our sacrifices while providing 
support. They have courage, strength and deep devotion to our country. 
Our Navy families endure the challenges of multiple deployments and 
moves, spend holidays and life milestones apart, juggle everyday tasks 
while a spouse, parent, son, or daughter is in harm's way, and honor 
the service of their loved ones and memories of those lost.
    We must continue to ask hard questions and make hard decisions that 
will enable us to provide a quality of life commensurate to the 
sacrifices our sailors and their families make. The Continuing 
Resolution (CR) for 2011 has affected us in several areas including 
various military construction projects that have been delayed and may 
not be executed. But most of all, it has had a negative effect on our 
ability to properly support quality of life for sailors and their 
families.
    Due to the way resources are phased and allocated under the CR, the 
Navy does not have sufficient manpower funding to allow for normal lead 
times for sailors to receive Permanent Change of Station (PCS) orders 
as funds must be allotted to cover pay and benefits. Average lead times 
have been reduced from 4 to 6 months to approximately 2 months or less. 
This places great emotional and economic stress on sailors and their 
families. In today's economy, there is a great possibility that if they 
own a house, they will not be able to sell it or have enough time for 
the spouse to be able to find a job in the new location. Our Navy 
families affected by these constraints are often forced to live apart. 
The impact of Navy's PCS funding level is being felt across the force, 
and will continue until funding is resolved.
    On behalf of our sailors who sacrifice daily and their families who 
faithfully support them, I want to extend my sincere appreciation for 
your unwavering support for our U.S. Navy. Thank you.

    Senator Webb. Thank you, Master Chief.
    Chief Master Sergeant of the Air Force, James Roy, welcome.

 STATEMENT OF CMSAF JAMES A. ROY, CHIEF MASTER SERGEANT OF THE 
                        AIR FORCE, USAF

    Chief Master Sergeant Roy. Chairman Webb, members of the 
subcommittee, thank you for the opportunity to tell you about 
America's Air Force and our families.
    It's an honor and a distinct privilege to join my fellow 
senior enlisted advisors here today to represent one of the 
finest air forces in the world and, of course, those young men 
and women that make up our U.S. Air Force.
    There are more than 702,000 who make up the total force 
team: Active Duty, Guard, Reserve, and civilians. Two members 
of the total force team join me today: Chief Master Sergeant 
Denise Jalinski-Hall, a senior enlisted leader for the National 
Guard Bureau, and Chief Master Sergeant Chris Muncey, the 
command Chief Master Sergeant for the Air National Guard.
    We appreciate the unwavering support of the members here 
and from the entire Senate, which is a vital part of our 
success. We are greatly appreciative of your efforts, actions, 
and legislation that have led to the expansion of 
servicemembers' and veterans' pay and benefits. We also 
appreciate the visits by the Senators to our servicemembers in 
the field and to the wounded warriors in healthcare facilities.
    To represent all the Air Force wounded warriors, I am 
joined here today by Technical Sergeant Chris Frost, an 
explosives ordinance disposal technician who lost both legs 
below the knee when his vehicle struck a 700-pound improvised 
explosive device in Iraq in 2008. The blast killed one soldier 
and injured two others in his vehicle. Sergeant Frost has since 
returned to duty, mentored other wounded warriors and cycled 
3,500 miles across America. Sergeant Frost inspires all of us. 
It is an absolute pleasure serving with him, and I salute his 
resiliency.
    Senator Webb. Sergeant, where are you? Thanks for what 
you've been doing, and we are really proud of how you've come 
back from your wounds. You bounced right out of that chair. 
That's very impressive.
    Chief Master Sergeant Roy. Our airmen are on our front 
lines in a variety of theaters of operation, including 
America's recent missions over Libya and on the ground for 
humanitarian missions in Operation Tomodachi. They are also 
providing airmanship skills to combatant commanders around the 
world, and they are constantly deployed, leaving behind 
families and friends.
    We must ensure our airmen and their families are safe, 
healthy, and resilient. Building resiliency among airmen and 
their families is a key focus area. Our warriors have been in 
Iraq and Afghanistan for nearly 10 years, and in the Middle 
East for over 20 years.
    We are deliberately increasing the focus on building 
stronger, resilient families because of our continued high 
operational tempo at home and abroad, as well as the unique 
role of airmen, such as remotely piloted aircraft operators, 
who affect the battlespace each and every day. Resilient airmen 
are better equipped to withstand, recover, and continue to grow 
in the face of stressors and the changing demands, while 
continuously getting the job done.
    It is my distinct honor to be with you here today and tell 
you about America's Air Force and what we do on a daily basis.
    Thank you again. I look forward to any questions.
    [The prepared statement of Chief Master Sergeant Roy 
follows:]
             Prepared Statement by CMSAF James A. Roy, USAF
                              introduction
    Chairman Webb, Senator Graham, members of the subcommittee, thank 
you for this opportunity to share with you information important to 
America's airmen, their families, and our U.S. Air Force. It is an 
honor and distinct privilege for me to join my fellow Service Senior 
Enlisted Advisors and represent our Nation's finest men and women.
    This fiscal year, we have a programmed Total Force end strength of 
702,367 which includes 332,200 active duty, 192,267 civilians, 71,200 
Reserve, and 106,700 Air National Guard personnel. In the fiscal year 
2012 budget, we have requested a Total Force end strength that will 
decrease to 693,099. While active duty end strength will only increase 
by 600 airmen to 332,800, our civilian end strength will decrease by 
just over 10,000 to 182,199 civilians. We will also increase the 
Reserve end strength by 200 to 71,400 while the Air National Guard 
remains unchanged at 106,700.
                            force management
    Fiscal constraints and 16-year record high retention rates compel 
the Air Force to develop voluntary and involuntary programs to manage 
our end strength levels. We must operate within our budget and we are 
committed to meeting our end strength. To do so, we have made tough 
decisions that will impact airmen across the 30-year continuum of 
service. For new airmen who fail to complete their initial skills 
training, we established a Limited Initial Skills Training process that 
considers these airmen for either retention or separation based on the 
needs of the Air Force. We encourage voluntary separations and 
retirements for more seasoned airmen by offering both limited active 
duty service commitment waivers and time-in-grade waivers. They may 
also voluntarily apply to complete their service commitment in the Air 
Reserve component through our Palace CHASE Program or continue service 
in the Army through the Blue-to-Green Program.
    In an effort to manage the enlisted force within authorized end 
strength, we are continuing the Date of Separation (DOS) Rollback 
Program. This initiative separates airmen early who have already chosen 
to transition from the Air Force. It also provides an avenue to 
accelerate the removal of airmen who possess negative quality force 
indicators.
    Our force management strategy is not a quick fix, but a tailored, 
multi-year effect designed to manage the force along a 30-year 
continuum of service.
                               accessions
    We must protect accessions while taking care of our people as the 
impact of under-accessing airmen is felt for the next 20 years. As 
previously mentioned, our force management efforts include reducing 
accessions. Although below desired sustainment levels, reductions are 
manageable within the short- and long-term health of the force. For 
fiscal year 2011, this included 2,135 enlisted accession reductions and 
439 officer reductions. In fiscal year 2012, our reductions are deeper. 
Enlisted accession reductions are set at 2,407 while officer reductions 
are set at 639.
           recruiting, retention, bonuses, and incentive pays
    America deserves the very best Air Force in the world, and it takes 
recruiting, developing, and retaining the highest quality airmen to 
maintain that status. To do so, our fiscal year 2012 budget request 
includes $30.5 billion in military personnel funding, to include a 1.6 
percent pay increase. Although our recruiting quality and retention 
levels are at the highest in 16 years, we are obligating $630 million 
for bonuses to recruit the right skill sets and retain experienced 
airmen for today's fight and the emerging missions of tomorrow. Without 
these funds we will handicap our commanders in their ability to 
efficiently and effectively carry out the full range of missions 
America demands of its Air Force.
    Air Force recruiting continues to need high quality recruits, even 
during periods of high retention. Higher quality recruits increase the 
probability of success during their initial training. Basic Military 
Training attrition went from a high of 10.7 percent in fiscal year 2007 
down to 6.8 percent in fiscal year 2010 due to higher caliber recruits. 
Additionally, as a Service, we need a continuing flow of high quality 
recruits to fill entry-level positions as current airmen progress into 
advanced positions and eventually separate or retire. Continued support 
for maintaining high quality now will allow the Air Force to compete 
for the best and brightest along a broad spectrum, especially when 
unemployment improves and current retention returns to normal levels.
    The Air National Guard (ANG) is focusing its recruiting efforts on 
precision recruiting to existing vacancies. The ANG is currently 
projecting to be at or near its authorized end strength of 106,700 at 
the end of fiscal year 2011.
    The Air Force Reserve uses its bonus program to meet the demand for 
critical skills deemed vital to Air Force Reserve mission. Its bonus 
program has been pivotal to recruiting and retaining the right people 
to meet combatant commander requirements. Development of these skills 
usually requires long training courses. Members with these skills are 
normally in high demand within the private sector. With continued 
funding, the Reserve will be able to offer the appropriate combination 
of bonuses for enlistment, reenlistment, affiliation and health 
professionals. Current indications illustrate the bonus program is 
positively benefitting recruiting and retention.
    The Air Force has a relatively small budget for recruiting special 
skills into the Service. On the enlisted side, these skills range from 
ground and airborne cryptologic language analyst; combat control; 
tactical air control party; survival, evasion, resistance, and escape; 
pararescue; special operations weather; and explosive ordnance 
disposal.
    A 16-year high in active duty enlisted retention has necessitated 
moderate reductions in accessions and additional force management 
actions including rollbacks of Dates of Separation (DOS), separations 
for initial skills training failures, waivers for active duty service 
commitments, time-in-grade requirements and enlistment contracts which 
will continue through fiscal year 2012. Without these actions in fiscal 
year 2010, our overall retention would have exceeded the goal by more 
than 4 percent. The Air Force finished fiscal year 2010 at 100 percent 
of its retention goal in Zone A, 17 months through 6 years of service 
(YOS), exceeded the goal in Zone B, 6 YOS through 10 YOS at 109 
percent, and was under its retention goal in Zone C, 10 YOS through 14 
YOS at 93 percent. Based on current economic forecasting, the Air Force 
is expected to experience consistent retention rates over the next few 
years.
    Selective Reenlistment Bonuses (SRB) are our most effective, 
responsive and measurable tool for targeted retention. The fiscal year 
2012 budget for new SRB contracts does change from fiscal year 2011's 
budget of $145.9 million as we expect to offer SRBs to fewer than 90 
enlisted specialties in fiscal year 2012.
    The Air Force uses Cumulative Continuation Rates (CCR) to track 
retention by AFSC and by reenlistment zones. The CCR shows the expected 
rate an airman is likely to remain in the Service from year-to-year or 
zone-to-zone. SRBs are also an effective tool for addressing targeted 
retention by AFSC and by zone. In fiscal year 2009, SRB costs were 
$227.6 million of the total Air Force budget of which $70.4 million 
were comprised of anniversary payments, $156 million in new bonuses, 
and $1.2 million in accelerated payments. Conversely, in fiscal year 
2010 funding for new bonuses fell from $156 million to $141 million and 
fell even further in fiscal year 2011 and is now down to $129.9 
million. Currently, 89 AFSCs are receiving SRBs in fiscal year 2011.
    Our Service will continue to experience high retention through 
fiscal year 2012 and likely into fiscal year 2013. However, we must 
still overcome several skill imbalances as a result of previous actions 
to reduce end strength by deliberately under-accessing in fiscal year 
2005 and building larger AFSCs for new and emerging mission sets. 
Additionally, the Air Force will continue using CSRBs and SRBs to 
manage retention and address shortfalls in critical skills and levels 
of skill in various AFSCs while also implementing force management 
tools to target losses in overage skill sets as we appropriately shape 
the force.
                               diversity
    In a Nation where only 25 percent of our youth are eligible to 
serve in an All-Volunteer Military, it is necessary to maintain a 
diverse Air Force to overcome today's increasingly complex challenges.
    In the fall of 2010, we published strategic guidance to include a 
diversity policy directive and Diversity Roadmap, which provides 
priorities, goals and specific actions for implementation of diversity 
initiatives. Formalizing the Diversity Roadmap into an Air Force 
Instruction will provide the Total Force its final piece of strategic 
guidance. Woven into the instruction will be vetted recommendations of 
the Military Leadership Diversity Commission. We anticipate completion 
of the instruction by the end of September 2011.
    We furthered the institutionalization of diversity by holding the 
inaugural Diversity Senior Working Group in October 2010. Showcasing 
senior leader commitment, the Chairman of the Joint Chiefs, Secretary 
and Chief of Staff of the Air Force, in addition to 60 senior leaders 
from the major commands and the Pentagon participated. Participants 
were challenged to promote diversity within their sphere of influence. 
For example, leaders can make diversity a personal commitment by 
participating in two outreach events per year, adding a diversity 
message in speeches, identifying key positions and implementing hiring 
practices with a diversity lens, analyzing mentoring programs and 
determining how to resource diversity within the major commands and 
wings.
                         human capital strategy
    Deliberately developing airmen is a key focus area. Our airmen must 
have the right mix of skills so the Air Force can continue providing 
combat-ready, expeditionary forces to combatant commanders now and in 
the future.
    The Air Force is focused on providing the right expeditionary 
combat skills needed for our airmen to fly, fight, and win. It is 
critical that our airmen have the experience, education, and training 
to think with a global perspective and operate in an expeditionary 
environment.
    Airmen must be specifically trained, educated, and experienced 
through professional development initiatives designed to create the 
capabilities and capture current and future mission demands. We 
implemented several new initiatives to enhance the development of our 
airmen focusing on their experience, education and training to ensure 
they are prepared to fill current and future leadership positions. 
Central to our efforts is the shift to assigning the most ``qualified'' 
airman versus the most ``eligible'' airman for our key billets.
    Our new approach to managing enlisted talent gives us the 
capability to evaluate Senior Noncommissioned Officers (SNCOs) and 
select the right airmen for critical jobs, while also ensuring they are 
vectored in the proper career sequence and that we are preparing them 
for future leadership roles. This new approach, coupled with our new 
special experience identifier tracking codes, give our assignment teams 
the tools to identify airmen with the requisite training and experience 
for key positions.
    We start by focusing our attention on the Air Force's No. 1 
priority--Nuclear Enterprise. Our 2W2 (Nuclear Weapons Maintenance) and 
21M (Munitions, Missile Maintenance) career fields have developed 
prioritization lists to ensure we assign the most qualified airmen to 
positions by order of importance within the Nuclear Enterprise.
             continue to strengthen the nuclear enterprise
    The Air Force continues to strengthen the nuclear enterprise, 
placing increased focus on ensuring the nuclear deterrence mission is 
executed with precision and reliability every single day. Secretary of 
the Air Force Michael B. Donley, Air Force Chief of Staff General 
Norton A. Schwartz, and I have all visited the nuclear missile fields. 
We had the opportunity to speak with the amazing airmen who provide the 
same round-the-clock nuclear deterrence as their predecessors have for 
over 50 years. These airmen are working diligently to achieve the 
standard of perfection the nuclear mission demands and the American 
public expects.
    I'm happy to report that Air Force Global Strike Command reached 
Full Operational Capable status in September 2010. This change provides 
the needed oversight and advocacy of the Air Force's Intercontinental 
Ballistic Missile (ICBM) and nuclear-capable bomber forces.
    The demand of the nuclear mission requires discipline and 
compliance with the highest standards. It is imperative that airmen at 
every level are focused on upholding our core values of Integrity 
First, Service Before Self and Excellence in All We Do.
                airmen in the joint and coalition fight
    More than 94,400 Total Force airmen are currently forward stationed 
or deployed worldwide supporting combatant commanders. Another 133,000 
provide daily strategic mobility, space and missile capabilities, 
command and control, and intelligence, surveillance, and reconnaissance 
to joint warfighters. In all, 42 percent of the Total Force directly 
supports combatant commander requirements every day.
    Almost 29,000 airmen are deployed to the U.S. Central Command area 
of operations, with more than 3,700 filling joint expeditionary 
taskings. Airmen are on the frontlines with their fellow soldiers, 
sailors, and marines in roles such as detainee operations, convoy 
employment and protection, explosive ordnance disposal, police training 
teams, military transition teams, civil engineering, security, 
communications, fuels, medical services, logistics, intelligence, and 
base operating support. They are part of the joint team, serving in 
whatever capacity needed by the combatant commander. Together with our 
sister services, we are training and augmenting both Iraqi and Afghan 
security forces, rebuilding critical infrastructure, and providing 
medical services to these war-torn countries.
    Our remotely piloted aircraft (RPA) platforms continue to increase 
the support to joint and coalition warfighters on the ground. Airmen 
are finding, tracking, and attacking our enemies using Air Force 
Predators, Reapers and Global Hawk RPA aircraft. Our Predator 
operations alone have increased from 12 combat air patrols in 2007 to 
48 today to support combatant commanders and warfighters. By growing 
the number of RPA operators and increasing the number of combat air 
patrols to 58 by the end of fiscal year 2012, we are protecting joint 
and coalition interests around the globe from bases within the United 
States.
                              deployments
    As of 1 March 2011, we have more than 38,000 deployed personnel, 
approximately 5,000 of which are fulfilling Joint Expeditionary 
Taskings working with our sister Services. In order to meet the growing 
demands of combatant commanders, Air Force 179-day tours increased from 
12 percent of all deployments in calendar year 2004 to 60 percent 
today. In October 2010, the Chief of Staff of the Air Force established 
the Air Force's baseline deployment tour length to be 179-days, 
normalizing this for all airmen by October 2012. Still, approximately 
1,800 of our deployment requirements, or 7 percent of all deployments, 
call for airmen to be deployed for 365 days.
    Continuing to fill both the deployed and home-station mission 
continues to take its toll on our units. The end-result of the new 179-
day deployment standard will keep airmen on typical deployments for an 
additional 60 days but will also provide them and their families more 
time at home between deployments. Additionally, the longer standard 
deployment will reduce the amount of pre-deployment training required 
over a career.
    In total, more than 216,000 Total Force airmen support daily 
combatant commander operations.
                      airman and family resilience
    Building resiliency among airmen and their families is another key 
focus area. Our warriors have been in Iraq and Afghanistan for nearly 
10 years and in the Middle East for over 20 years. Continued high 
operations tempo at home and abroad stress to us the need to 
deliberately increase the focus on building strong, resilient families. 
Resilient airmen are better equipped to withstand, recover and/or grow 
in the face of stressors and changing demands, and continuously get the 
job done. Many of our programs are designed to continue to build 
resilient airmen and families.
    We are committed to strengthening the resilience of our airmen and 
their families. Our goal is to improve leadership commitment toward 
building resilient airmen who have the ability to withstand, recover, 
and grow in the face of stressors and changing demands--regardless of 
time, challenge, or location.
                   exceptional family member program
    The Exceptional Family Member Program (EFMP) is how we assist 
airmen and their families who have special needs, balancing mission 
requirements with family care responsibilities. We continue to focus 
attention this year on supporting our 17,000 airmen with exceptional 
family members.
    Two facets of EFMP are assignments, managed through the Air Force 
Personnel Center and Special Needs Identification and Assignment 
Coordination, administered by the Air Force Medical Service. We 
recently added a third element, EFMP-Family Support, which provides 
information and referral services available in the base and local 
community.
    These airmen and their families require more comprehensive support 
beyond the identification and assignment process. To address this gap, 
we have designated a staff member from the Airman and Family Readiness 
Center at each installation to provide information, referral and 
assistance to families with special needs. We have hired additional 
staff at 35 installations with 175 or more special needs families to 
provide targeted focus on family member support. Additionally, to 
improve on the coordination of care for high-risk families, the Air 
Force will add 36 active duty social work billets beginning in fiscal 
year 2012. Furthermore, we have increased our communication and 
marketing efforts at our Airman and Family Readiness Centers and 
Medical Treatment Facilities to ensure airmen and families are aware of 
the enhanced resources available to them.
                            quality of life
    We thank Congress for its steadfast funding for quality of life 
initiatives. We look forward to continued support to enable us to 
retain skilled airmen and develop them into the leaders we need for the 
future.
    The quality of life airmen and their families receive is an 
overwhelming factor in how long they will serve. During the Year of the 
Air Force Family (YoAFF), we focused on four main pillars: health and 
wellness; airmen and family support; education, development and 
employment; and airmen and family housing. Among the many initiatives 
resulting from the YoAFF, we implemented the Family Health Initiative 
at 32 Medical Treatment Facilities, convened a Single Airman Summit in 
April 2010, provided each installation funding to support spouse 
employment programs, and developed the Building Thriving Housing 
Communities Strategy.
    Whether working on the installation or deployed fighting the 
Nation's wars, our airmen deserve buildings and facilities of a high 
standard commensurate with the outstanding service they provide their 
country. Since 2000, and with the very generous support of Congress, 
the Air Force funded many military construction projects for child 
development centers, youth centers and fitness centers. While this 
represents a significant investment by the Air Force, many requirements 
remain.
    Our fitness centers continue to be an important on-base facility 
where airmen and their families gather to participate in numerous 
activities that help to improve their overall heath and build strong, 
resilient families. The Air Force has funded dozens of fitness center 
projects over the last 10 years. These projects have included add-ons 
to existing centers and replacing old and undersized facilities. With 
your continued funding support, we hope to construct and expand our 
facilities to meet the needs of our airmen and their families.
    Last year, we transformed the way the Air Force delivers food 
service. We focused on a campus-style food service for airmen and their 
families while improving efficiency and providing significant savings. 
Our food transformation initiative addresses changing lifestyles, needs 
and preferences while improving program and facility standards. This 
initiative offers a variety of healthy options while keeping our 
warfighting capabilities at the forefront. The transformation was 
implemented at six bases, where operating hours increased while costs 
decreased an estimated 27 percent. Since the initiative began, the 
customer count is up 22 percent and satisfaction has increased 8 
percent.
                   wounded warrior and survivor care
    We remain fully committed to caring for our brave airmen who are 
wounded in battle, who contract serious illnesses or are injured while 
defending the Nation's freedoms. We also recognize the importance of 
family to the healing process and continue to embrace the families of 
our brave men and women in uniform. The Air Force continues to provide 
non-medical case management, support, and assistance through the Air 
Force Survivor Assistance Program, the Recovery Care Program, and the 
Air Force Wounded Warrior Program--and will do so for as long as needed 
in partnership with our medical community. With your support, our 
Warrior and Survivor Care programs continue to prosper. As of March 31, 
2011, we have 1,008 Air Force members enrolled in the Air Force Wounded 
Warrior Program. In keeping pace with our growing Wounded Warrior 
population, the Air Force has hired 33 Recovery Care Coordinators to 
support 31 locations across the Air Force. We have also increased our 
Air Force Wounded Warrior Program consultants from 12 to 21 positions.
    Our Family Liaison Officers, Recovery Care Coordinators, Air Force 
Wounded Warrior Program consultants, and Community Readiness 
Consultants provide immediate and direct care for our airmen and their 
families through recovery, rehabilitation and reintegration. Our 
partnerships with the Department of Defense and the Veteran Affairs are 
improving opportunities for our airmen to continue as active duty 
airmen or as civilians within the Air Force and Department of Defense. 
These partnerships support education and employment opportunities 
geared toward successful reintegration within the civilian communities.
    Once again, we will celebrate the achievements of our Wounded 
Warriors during the 2011 Warrior Games scheduled for May 17-21, 2011 at 
the Olympic Training Center and U.S. Air Force Academy in Colorado 
Springs, CO. The Warrior Games provide a focal point for our recovering 
airmen to incorporate athletics back into their day-to-day lives by 
preparing them mentally and physically to get back to their military 
service.
            post-traumatic stress and traumatic brain injury
    The Air Force has engaged an aggressive and proactive approach to 
track airmen who may have post-traumatic stress (PTS) symptoms or a 
traumatic brain injury (TBI). Airmen learn about PTS, TBI, and other 
deployment-related health issues through education programs both before 
and after they deploy.
    In addition to training, airmen are also screened for TBI before 
and after deployment. Airmen receive a computerized assessment that 
measures cognitive abilities including reaction time and memory. The 
member is reassessed in theater if they sustain a head injury. Scores 
are compared with baseline in order to aid with return-to-duty 
determinations, in conjunction with a clinical assessment.
    Airmen who receive help for deployment-related stress also have the 
option to receive treatment through primary care channels as the Air 
Force increases the mental health presence within the primary care 
setting. At this time, 57 percent of Air Force medical treatment 
facilities have integrated behavioral health services into primary care 
clinics. This program enables airmen to feel more comfortable seeking 
behavioral health assistance.
    Airmen with common symptoms including sleep, energy, mood, or 
concentration difficulties simply see their primary care manager, just 
as they would for any other treatment. The primary care manager then 
refers the servicemember to the behavioral health consultant who can 
provide screening, education and focused intervention in the primary 
care clinic. This process helps to normalize minor behavioral health 
treatment alongside other, more routine care. The goal is to reduce the 
stigma behind seeing a provider for stress, helping airmen feel less 
isolated and more willing to ask for help.
                           key spouse program
    The Key Spouse Program is an effective way to communicate with 
family members and is akin to the Navy Ombudsman Program and the Army 
Family Readiness Group. We aim to bridge the gap between the military 
spouse and the military chain of command to help build a greater sense 
of community within units, especially where families are separated or 
deployed.
    Currently, 97 percent of units have trained key spouses, and we 
have more than 4,121 trained volunteers. We hope increased emphasis and 
continued standardization will make this program become even more 
helpful.
                           spouse employment
    Spouse employment in the military is a constant challenge for our 
military families. Overall, 48 percent of Air Force spouses seek 
employment with each military move. For our junior airmen, the added 
income is often a large part of the quality of life their family 
enjoys. Military spouses report that their work income constitutes 
about 48 percent of total family income.
    We appreciate your support and the administration's effort to 
strengthen our military families by removing barriers that currently 
prevent military spouses from maintaining a career or employment 
because of relocation.
    This support helps ensure our family members have access to careers 
and are not adversely affected when our service calls upon us to 
relocate.
                       unemployment compensation
    When States support unemployment compensation, this also allows 
spouses to take reasonable time to find suitable employment at the new 
location as well as resources necessary to obtain any new licensing or 
credential requirements. Currently, 38 States plus the District of 
Columbia provide unemployment compensation to spouses who leave because 
of a military move, nearly triple the number since 2004. We remain 
hopeful the remaining States, despite the current challenging fiscal 
environment, can provide similar compensation benefits to improve the 
employment outlook of military spouses.
    One of the greatest challenges facing our Nation right now is 
unemployment and underemployment, and we remain especially concerned 
about the challenges facing those in the Guard and Reserve or those 
leaving active military service as they look for work.
    Although the national unemployment rate was 8.9 percent in February 
2011, the unemployment rate for the younger segments of the workforce, 
which includes those veterans who joined the military after September 
11, 2001, remains elevated. As a result, we are committed to assisting 
our separating members in making a successful transition to employment 
in the civilian workforce and in encouraging their continuing education 
through the use of the post-9/11 GI Bill.
                               child care
    Child care continues to be an important quality of life factor for 
our airmen and their families. Quality child care facilities are a key 
component in assuring airmen that their family is being cared for while 
they defend our country. With your continued support, we are striving 
to eliminate our shortfall in child development center spaces by the 
end of fiscal year 2012. While we have addressed the facilities and 
personnel needed, we are still trying to fund supplies and equipment.
    Our child care programs also include reservists and Air National 
Guardsmen by providing child care during scheduled drill weekends and a 
child care subsidy when activated. While we face funding challenges in 
meeting every child care requirement, we are striving to provide 
quality child care options to all our airmen.
                    education for military children
    Military life, frequent moves and extended separation during 
deployments present a host of challenges for our families. Nearly half 
of all servicemembers are married and have children. Consequently, 
military families often weigh assignment decisions based on the quality 
of education from the local school systems for their children.
    Thirty-five States have passed legislation to establish an 
Interstate Compact On Educational Opportunity For Military Children to 
address educational solutions at the State, local, and school district 
levels. These compact States are working to solve issues dealing with 
class placement, records transfer, graduation requirements, 
immunizations, exit testing and allowing late entry to extra-curricular 
activities and sports teams. Another eight States (Montana, Wyoming, 
Nebraska, Maryland, Vermont, Pennsylvania, New York, and West Virginia) 
have proposed their respective bills, and the final six States and the 
District of Columbia (Oregon, Arkansas, Wisconsin, Georgia, New 
Hampshire, Maine, and the District of Columbiar) have indicated this 
issue is a ``priority.'' The Interstate Compact ensures children in 
military families are not penalized in school for their families' 
service to the Nation.
    We are making great strides in support for Air Force-connected 
students attending public, private, DOD Dependent Schools, home and 
virtual schools. Currently 84 Air Force bases have civilian school 
liaison officer positions. In addition, staff in the Airman and Family 
Readiness Centers provide school liaison support to leadership and 
families. Major commands and installations continue to work creative 
initiatives such as providing webcasts of graduations so parents can 
share these occasions while deployed. Additionally, a senior military 
officer or DOD civilian has been designated at each installation to 
advocate with local and State school administration and school boards 
for the interest of Air Force families.
                     airmen education opportunities
    The U.S. Air Force enlisted force is highly educated. Since April 
25, 1977, more than 303,500 airmen have earned a fully accredited 
associate degree, corresponding to their career field, through the 
Community College of the Air Force (CCAF). In fact, about 153,000 of 
our enlisted airmen have at least 12 college credits; of that more than 
51,500 have associates degrees, almost 18,000 have bachelor's degrees 
or higher and 18 have earned their doctorate degrees.
    The General Education Mobile program is making education more 
accessible for our airmen. This program offers general education 
courses required for a CCAF degree through distance learning courses. 
This program is intended to attract those students who are struggling 
to get their general education credits filled because of numerous 
reasons, primarily the Air Force's high operations tempo. There are 26 
participating schools offering 511 courses of which over 700 airmen are 
enrolled.
    Our Associate-to-Baccalaureate Cooperative program is helping CCAF 
graduates apply credits toward a bachelor's degree at military-friendly 
schools. This program has grown to 44 civilian higher-education 
institutions and offers 219 bachelor's degree programs. These 
institutions take an airman's CCAF credits and apply them toward a 
bachelor's degree. More than 17,000 airmen are participating in the 
program, and since its inception in June 2007, 464 bachelor's degrees 
have been awarded.
    We've also had an overwhelming number of airmen who have 
transferred their G.I. Bill benefits to their dependents. This benefit 
helps families, and it also helps the Air Force retain our airmen 
through the associated service commitment. We continue to recruit and 
retain airmen who value educational opportunities for themselves and 
their families.
    CCAF also offers a Professional Manager Certification, a credential 
award that formally recognizes an individual's advanced level of 
education and experience in leadership and management, as well as 
professional accomplishments. The program provides a structured 
professional development track that supplements Enlisted Professional 
Military Education and the Career Field Education and Training Plan.
                sexual assault, prevention and response
    Sexual Assault Prevention and Response remains a top priority as we 
work toward providing safe environments for our airmen and families to 
work and live. We are focused on instilling a prevention-based program 
so these sexual offenses cannot and do not occur.
    As part of our approach, consistent top-down messaging is critical. 
These messages continue to emphasize Air Force Core Values and the need 
for active wingmen watching out for one another. Likewise, we have 
spent the last year building community empowerment through bystander 
intervention education. We provide training that ensures airmen 
understand when to act if they observe behaviors or actions that may 
lead to sexual assault. An additional prevention effort includes the 
development of a risk reduction guide which will be provided to senior 
commanders by fall of this year to assist them in providing safe 
environments.
    As a Service, from our most senior leaders to our newest airmen, we 
remain committed to a zero-tolerance standard of sexual assault.
                               conclusion
    Our airmen are doing incredible work, ranging from providing 
humanitarian aid to the Japan earthquake and tsunami victims for 
Operation Tomodachi to supporting recent NATO operations in Libya and 
daily U.S. Central Command missions in Iraq and Afghanistan. More than 
two-thirds of airmen entered the Air Force after September 11, 2001, 
which means the majority of our force has been at war their entire 
careers. They deploy longer than ever before and some need a second 
hand to count the number of combat tours they have been on. Despite 
this pace, our airmen have shown amazing resiliency.
    Finally, this is a team effort and the contributions of Air Force 
families continue to be amazing. Our families are the ones who deal 
with an empty seat at the dinner table when our warfighting mission 
takes us away. They stand tall when extraordinary challenges attempt to 
knock them down. They keep the faith and their support is critical to 
airmen fulfilling their mission requirements.
    Thank you again for your continued support of our brave airmen and 
their supportive families.

    Senator Webb. I thank all of you for your testimony. As I 
said, your full statements will be entered into the record as 
if read.
    Let me make a comment and ask one question, then I know 
Senator Blumenthal has another meeting he has to go to, and I'd 
like to give Senator Blumenthal an opportunity to jump in, 
here.
    First, let me say, Sergeant Major Chandler, how comforting 
it was to hear you talk about dwell time the way that you did. 
When I got here to the Senate, in 2007, the dwell time was 
0.75. When I was called, by the Chief of Staff of the Army, 
when he told me that they were going to 15 month deployments 
and 12 months at home, I could not believe what I was hearing, 
as someone who's been around the military my entire life and as 
someone who also worked on veterans programs in the House, as a 
young committee counsel, after I finished law school, when I 
left the Marine Corps. The downstream emotional price that a 
lot of people have to pay for those types of deployments were 
predictable.
    I introduced legislation that would have required a minimum 
one-to-one dwell time. Some people thought it was political at 
the time. I said, basically, this is just a safety net. This is 
something that Congress, as the stewards of the people who go 
into the military, should be able to put into law. We had a big 
debate up here. You may have seen something about it, because 
people were saying that Congress wanted to get in the way of 
the Commander in Chief's prerogative. But, there are many 
different situations like this in history, where Congress has 
weighed in, and we lost. We got 56 votes twice, but we did get 
60 to break the filibuster on this.
    But, I think we successfully caused people to really start 
thinking seriously about the need to put a safety net under our 
people. You step forward, you say you're going to serve your 
country, and you're at the mercy of your leadership, quite 
frankly.
    The fact that we have gotten this thing to a point where 
we're back to historical standards of two-to-one, really 
gratifies me to hear you say that.
    I would like to ask a question to all of you to give me 
your thoughts on, and then I'm going to yield to Senator 
Blumenthal.
    One of the areas that I was not hearing very much about 
when I first came to the Armed Services Committee this time was 
our responsibility for non-career military members. We had lots 
of testimony about, you recruit the individual, retain the 
family, the retention issues, we got a career--we have an all 
volunteer system. It took me a year of asking questions before 
I got the data on this, but there are a lot of people who think 
that, because we have an All-Volunteer Force, we have an all 
career force. We don't.
    The numbers that I got back after asking the questions 
were: 75 percent of the Army, 70 percent of the Marine Corps, 
and about half of the Navy and the Air Force were leaving the 
military on or before the end of their first enlistment. Which 
is healthy for the country; we're a citizen soldiery. But, 
those people weren't getting the right kind of focus up here, 
in terms of what happens when ones leave. I introduced the GI 
Bill to try to give a first-class readjustment opportunity for 
the people who were leaving at the end of their first 
enlistment; come in, serve your country, go home.
    But, I'm curious as to what other kind of transitional 
programs you're working on, Service-by-Service, to make sure 
that these people who step forward, they're not going to be 
career military--but, the people who step forward have the 
assistance they need to get back into their civilian 
environment.
    Sergeant Major Chandler. Senator, from the Army's 
perspective, we have the Army Career and Alumni Program, which 
you may be familiar with. That program helps to transition 
soldiers out of the Service as they continue to look for other 
opportunities in life. That program provides some resume-
building experience, some job interview experience. It 
introduces them to some different Web sites that are out there, 
whether you want to continue service in the government or if 
you're going into the private sector.
    General Chiarelli, the Vice Chief of Staff of the Army, 
directed the Army to take a comprehensive review of that 
program to ensure that we are, in fact, meeting the needs of 
transitioning soldiers. Not to say that we have a problem, but, 
can we do better than we already are? That's our Army program, 
sir.
    Senator Webb. Thank you.
    Sergeant Major?
    Sergeant Major Kent. Sir. First of all, thank you for the 
GI Bill, because we get a lot of positive feedback from the 
marines that have transitioned out, and it is working, sir. So, 
truly, thank you for that.
    Our Commandant has tasked manpower to figure out how we can 
have a one-stop shop, as far as marine transitioning. Sometimes 
we can wait until the last few months and we'll send these 
marines through a week of transitioning class, which don't mean 
anything really, sir. They sit there and we lecture them, 
instead of having a one-stop shop. We want to do it early, like 
a year out. So, the Commandant said, ``This is what I want. I 
want a one-stop shop where a marine can come to do this 
transition course, and you can say, ``Door number one, would 
you like to go to college? Door number two, what type of job? 
Door number two, if you like that job, this is where we would 
transition you to that job.''
    So, he is revamping the whole transition program right now, 
sir. It will work because the Commandant says it will work. So, 
everybody's getting on board. [Laughter.]
    Senator Webb. Master Chief?
    Master Chief Petty Officer West. Sir, from the Navy 
perspective, as well, I would like to say thank you very much 
for that GI Bill. It is very well received, not only in the 
fleet, but with many of the family members that are able to 
take advantage of that.
    Sir, also we have taken a look at many of our transition 
programs--in particular, the Transition Assistance Program 
(TAP), those type of programs for our sailors that are exiting 
the Navy. Also, with that said, sir, our Fleet and Family 
Support Centers have geared--similar to the--some of the same 
things you've heard from my counterparts, to my right, 
regarding the resumes and those type things. It's something we 
keep an eye on. We have to continue to keep that at the 
forefront, especially as all of the Services start about some 
of the downsizing that we are going to be doing. The Navy, sir, 
we've downsized, now, for the past approximately 5 to 6 years. 
So, we had to have that at the front.
    That's where we are, sir. I take a good hard look at that. 
Matter of fact, my EA had just went through the transition 
piece, as well, and he was very pleased with the process that 
we have.
    Chief Master Sergeant Roy. Again, Senator, I want to, just 
like my peers, say how important the Post-9/11 GI Bill was; and 
that transferability piece to it, as well, certainly has helped 
both our airmen and their families.
    One of the other items of note on the same theme is that of 
education. One of the things that the U.S. Air Force has is a 
Community College of the Air Force. As you said, we will retain 
about 55 percent of first-term airmen. Which means that others 
will transition out of the Air Force. I believe the educational 
aspect and the push that we put behind education, really helps 
these airmen in their transition, because there's an awful lot 
of them that transition out of the Air Force with at least an 
associate degree and then go on to bachelors and others.
    Like others, we have an Airmen Family Readiness Center--
it's mandatory for our airmen to go to TAPs. Just like other 
programs, resume-building, interviewing, along with other 
areas, leads to different jobs, if you will. So, it really 
helps. It's kind of an area of resources that our airmen and 
their families can continue to use. It's one that I believe has 
paid us very well.
    Master Chief Petty Officer West. Sir, can I have a re-
attack?
    Senator Webb. Yes, sure.
    Master Chief Petty Officer West. Sir, just one thing I 
would like to highlight, it wasn't brought up. Our Safe Harbor 
Program--and I know many of the Wounded Warrior Programs are 
geared and have put a big emphasis on this transition piece, as 
well, for our folks. In particular, we partner with the Coast 
Guard, as far as the Safe Harbor. We receive a lot of good 
feedback from that, sir.
    Senator Webb. Well, thank you for those observations.
    You know that there are two great reasons for doing this. 
One is, stewardship lasts a lifetime, when people step forward 
and serve. The other is there's no better recruiter than a 
veteran who goes back to his or her home community, and is 
proud of what they did.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I would like to join in, as Senator Nelson did, thanking 
you for your service here and in the U.S. Marine Corps, and 
also for your role on the GI Bill that's been mentioned.
    I want to thank the leaders of our enlisted men and women 
who are here today, for your service and for the extraordinary 
sacrifice and service of the enlisted men and women around the 
globe who serve in our U.S. military. I don't need to tell 
anyone in this room, but I think the Nation needs reminding 
that never in our history have so few borne so much of the 
burden of war for so long. I think that's reflected in the 
numbers that you've given us about dwell time, about the men 
and women who have given so much so that we would be free and 
safe and strong. So, thank you for your service, and thank you 
for your testimony here today.
    I want to say a particular thank you to Sergeant Major 
Kent, and, regretfully, on the occasion of your last testimony 
as an Active Duty Marine. But, I am hopeful that we'll see you 
here in these halls in the future.
    Sergeant Major Kent. Yes, sir, thank you.
    Senator Blumenthal. Because, as you say, ``once a marine, 
always a marine.'' We will really welcome your advice and 
counsel as we go forward on this committee and in the U.S. 
Congress.
    I want to drill down a little bit on the excellent question 
that the Chairman asked, and talk about this transition; in 
particular, an area of injury that I think is extraordinarily 
important, often undiagnosed or misdiagnosed: traumatic brain 
injury (TBI) and post-traumatic stress disorder (PTSD) and 
mental health problems that may be even less visible. I know 
that the statistics are that as much as 30 percent of all TBI 
or PTSD may be completely missed or undiagnosed. If you could 
tell us, because I know you care so much about the people who 
serve with you, perhaps what is being done to improve the 
diagnosis and treatment, and what you would recommend we do, if 
you have those kinds of recommendations for us today.
    Sergeant Major Chandler. Well, Senator, I'll start off.
    I'll tell you, first of all, I sit before you as a person 
who has participated in the Army's Behavioral Health Program. 
For the last 2 years, I personally have been treated by 
counselors, because of some behavioral health issues related to 
my deployment. What you have done, by providing us the support, 
has made a difference in the Army.
    My job as a senior leader of the Army is to continue to 
talk about it and reduce the stigma of coming forward and 
saying, ``I need some help.'' It's made me a better man, a 
better husband, a better father, and, at the end of the day, a 
better soldier.
    Within our force, we have soldiers, over 100,000, who have 
been diagnosed with some TBI, and over 40,000 that have been 
diagnosed with some PTSD. We know, based off of studies that 
we've commissioned, that a soldier, in the first 6 years of his 
career, will experience a lifetime of stress. We don't 
completely know what that means. But, we do know that we have 
to do a better job in diagnosis and treatment.
    It first starts with saying and being observant, as a 
leader and as your fellow soldier or battle buddy, that 
something may not be right with Johnny or Jill. Then, as a 
leader, what do you do about it? You act.
    Now, for all of us, we are action-oriented people. So by 
saying something about it and then getting that soldier to help 
will make a difference for the Army.
    Sergeant Major Kent. I'm on the same lines, sir. But, I'd 
just like to add, no marine ever wants to get pulled out of 
combat. They can get hit and they'll say, ``Nothing's wrong 
with me,'' although the possibility that they were knocked out. 
So, leadership is engaging, now, telling marines, ``Hey, it's 
okay. We're going to take you out of the fight for about 24 
hours, and we're just going to observe you. If you're okay, 
we're going to put you back in the fight.'' But, we have to let 
them know that we have to take care of them, also. So, if 
they're hit and they're knocked out, it's our job, as leaders, 
to pull them out of the fight, sir. We're doing a lot better in 
that.
    The Sergeant Major touched on it, sir. The stigma is where 
we need to really push that down and say, ``It's okay to come 
forward. We just need to get you fixed and get you in the 
fight.'' I mean, any one of us up here that have been to 
combat, we can have the same issues, sir. So, we need to tell 
marines, ``Hey, even we can have issues, as senior leaders.'' I 
think, as long as we tell them that, it will be okay.
    Master Chief Petty Officer West. Sir, thank you very much 
for the question and opportunity to comment on that.
    I just got back recently from a trip with our Chief of 
Naval Operations to Afghanistan. I have to tell you, you've 
been at this a long time and from where we started to where we 
are now, we have made absolutely huge gains. If I were to ask 
anything of this panel it would be, we have to keep that 
momentum. It's something that we haven't figured out yet, 
completely, what we need to figure out, but we're getting there 
every single day.
    Not only have I walked it back, I went from the ``Role-3'' 
hospitals. What Sergeant Major Kent talks about, about taking 
them offline; that is one of the things that we've been able to 
do, out with our young corpsmen out in the field, and marines, 
soldiers, and airmen. But, I walked it back through Landstuhl 
and then over here to Bethesda. Some of the new facilities that 
we've opened up, for example the TBI Clinics are absolutely 
what we need to continue to do. We owe that to our men and 
women that are out there.
    We are aggressive in our training. Like everyone up here, 
it's something that leadership not only has to take on, but 
those young folks, as well. Those who are standing beside those 
young sailors, who are out there, they need to be able to 
recognize the signs and the symptoms of some of these things so 
they can say, ``Hey, it's time out. It's okay.'' As leaders 
come forward, and the more we talk about it the more it really 
pushes out to those young sailors or those young people out 
there, that are doing their country's work, that it's okay to 
come forward. That is a huge step.
    In my eyes, I think that, again, sir, we're making headway. 
Are we where we need to be? No, sir. But, we sure do need you 
in that area.
    Chief Master Sergeant Roy. I'd just like to add just a few 
other things. A couple of other things that I believe we're all 
doing is pre- and post-assessments on all of our service men 
and women, before they go and then after they come back. 
Another thing you did, through the National Defense 
Authorization Act (NDAA) last year, was to bump up our mental 
health technicians and our doctors within our forces. The Air 
Force, the Army, and the Navy, we've bumped that up. That has 
helped tremendously.
    Though, there's a national shortage of that skill-set, and 
we need to continue. We all have similar problems trying to 
recruit those individuals with that skill-set, so it's a 
challenge for us.
    The other thing I would just add to that is, as we talked 
about stigma, a couple of other things that it has helped us do 
through the last NDAA is this idea of placing the mental health 
doctors within the family practices, so it's not a separate 
ward, it's within the family practice. That has helped us 
tremendously.
    Then one other thing that we have done, internally to the 
Air Force, just like we've done with chaplains for years, is 
placing a chaplain representative within each individual unit. 
We've done similar to that with our mental health technicians 
and our doctors inside our units so that it's easy for a 
servicemember to access that particular skill, if you will, 
when needed; so that they don't have to go to the clinic.
    Senator Blumenthal. I want to thank each of the Services 
for the great work you're doing on these issues and, Sergeant 
Major Chandler, your frankness and candor in talking about your 
own situation, because I think it takes a kind of courage that 
will lead others to avoid the stigma, and eventually ease it or 
remove it, which I think, as each of you have said, is 
absolutely critical to addressing this problem effectively.
    I apologize that I have another hearing that I have to 
attend. I'm a little bit late getting to it. But, in terms of 
continuing the momentum, as you put it, anything that I can do, 
and that I can ask my colleagues to do, and any other 
observations, I would be really honored to continue on this 
work. I'm honored to be here today with you. I'm going to try 
to get back after the next hearing. But, again, I really very 
much thank you for this excellent testimony today.
    Thank you, Senator.
    Senator Webb. Thank you, Senator Blumenthal.
    Thank all of you for the service that you're giving and for 
the candid nature of your responses to this committee. It's 
very, very valuable for people up here to hear the perspectives 
that you have, and particularly the journeys that all of you 
have had, literally, from the bottom up inside our military 
system. So, we appreciate very much you coming and testifying 
today.
    Sergeant Major Kent, best of luck to you as you step 
forward toward retirement.
    Sergeant Major Kent. Thank you, sir.
    Senator Webb. Thank you.
    Our second panel, we have members of The Military Coalition 
(TMC), a consortium of nationally prominent uniformed service 
and veteran's organizations: Retired Master Chief Joseph 
Barnes, the National Executive Director of the Fleet Reserve 
Association (FRA); Ms. Kathleen Moakler, the Government 
Relations Director for the NMFA; Retired Colonel Steven P. 
Strobridge, the Director of Government Relations for the 
Military Officers Association of America (MOAA); Retired 
Captain Ike Puzon, the Director of Government Affairs and 
Legislation of the Association of the U.S. Navy; and Ms. Kathy 
Roth-Douquet, the Chairman of Blue Star Families.
    We'd like to welcome all of you.
    Before our panel begins its testimony, at this time, 
without objection, I will enter into the record the witness 
statement of Senator Graham, who, unfortunately, can't be here 
today. We have also received statements for the record from the 
Reserve Officers Association, the Gold Star Wives of America, 
and the National Guard Association of the United States. 
Without objection, they will be included in the record, as 
well.
    [The prepared statement of Senator Graham follows:]
              Prepared Statement by Senator Lindsey Graham
    Thank you, Senator Webb. I join you in welcoming Senator Ayotte and 
Senator Blumenthal to the subcommittee. I look forward to working with 
you in the 112th Congress and continuing the bipartisan approach that 
this subcommittee has always employed on behalf of the men and women of 
the Armed Forces. It's all about the men and women in uniform and their 
families, and it's a privilege to serve with you on this subcommittee.
    To the Senior Enlisted Advisors on the first panel, welcome, and 
thank you for your service in these key leadership positions. Sergeant 
Major Kent, I understand your relief has been named and you are nearing 
the end of your active-duty service. All the best to you and your 
family as you approach retirement.
    The threat of a government shutdown last week and the effect it 
would have had on military personnel was very unfortunate, but it's a 
reflection of the difficult financial situation we are in right now as 
a Nation.
    I hope we will be able this week to wrap up funding the government 
for the rest of fiscal year 2011 , and get on with legislation for 
fiscal year 2012. It's pretty clear, however, that we have some 
difficult issues to work through. I'm all for efficiencies when it 
comes to saving taxpayer dollars and reducing the cost of government--
including the Department of Defense (DOD).
    For example, according to the Congressional Budget Office, medical 
care will consume nearly 16.5 percent of DOD's topline by the year 2028 
based on recent trends. What that tells me is that unless we take steps 
now to control the rate of growth, medical care costs will nearly 
double as a percentage of the DOD top line in less than 20 years, and 
that is not sustainable.
    While we have troops deployed in harm's way, however, it has to be 
our priority to make sure that military personnel and their families 
get the support they need--including their pay on time.
    I think we are all in agreement with respect to the goal of keeping 
the National Guard and the Reserves as an Operational Reserve in the 
future. Even before September 11, we were relying heavily on the 
dedicated service of national guardsmen and reservists, but 10 years of 
combat operations and the continuing need for strong Homeland Defense 
have demonstrated both the essential capabilities or the Reserve 
components and the imperative to provide the services, programs, 
equipment, and training opportunities they require. I endorse the 
Department's attention to enhancing the continuum of service--and I 
look forward to hearing your ideas about how to make the best use of 
our Reserve and Guard forces.
    Again, I thank all our witnesses for their ideas and 
recommendations, and I look forward to their testimony.

    [The information referred to follows:]
 Prepared Statement by the Reserve Officers Association of the United 
                States and Reserve Enlisted Association
                              introduction
    On behalf of our members, the Reserve Officers Association (ROA) 
and the Reserve Enlisted Association (REA) thank the committee for the 
opportunity to submit testimony on military personnel issues. ROA and 
REA applaud the ongoing efforts by Congress to address readiness, 
recruiting and retention issues.
    The amount of dollars being authorized to the Department of Defense 
(DOD) has peaked. Included in the Budget release is a statement that 
the president has moved $73 billion from the Overseas Contingency 
Operations (OCO) to the base budget (pg. 61). While the budget at $553 
billion appears as a gross increase of $22 billion above fiscal year 
2010, this shift from OCO to the base budget is a de facto cut of $51 
billion with spending on certain items being trimmed down below the 
fiscal year 2010 base budget.
    The Hon. Christine Fox, DOD Director of Cost Assessment and Program 
Evaluation Office briefed that to sustain the current force structure 
and need modernization requires a two to three percent real growth in 
the Defense budget. Secretary of Defense Robert Gates department-wide 
review was intended to provide a series of assessment initiatives to 
improve efficiency and reduce costs.
    Unfortunately, a lot of the needs and requirements of serving 
members and their families were not included in these studies. Too 
often, personnel costs are viewed as competing for resources for other 
DOD programs.
    The ROA and the REA will be doing a separate paper on additional 
efficiencies.
                           executive summary
    The Reserve Officers Association Calendar Year 2011 Legislative 
Priorities are:

        <bullet> Recapitalize the Total force to include fully funding 
        equipment and training for the National Guard and Reserves.
        <bullet> Assure that the Reserve and National Guard continue in 
        a key national defense role, both at home and abroad.
        <bullet> Provide adequate resources and authorities to support 
        the current recruiting and retention requirements of the 
        Reserves and National Guard.
        <bullet> Support warriors, families, and survivors

    Issues supported by the Reserve Officers and Reserve Enlisted 
Associations are to:
Changes to retention policies:
        <bullet> Permit service beyond the current Reserve Officers 
        Personnel Management Act (ROPMA) limitations.
        <bullet> Support incentives for affiliation, reenlistment, 
        retention and continuation in the Reserve component.
        <bullet> Advocate against cuts in Reserve component; support 
        Reserve commissioning programs
        <bullet> Reauthorize yellow ribbon program to support 
        demobilized Guard and Reserve members.
Health Care:
    See end of Executive Summary
Pay and Compensation:
        <bullet> Reimburse a Reserve component member for expenses 
        incurred in connection with round-trip travel in excess of 50 
        miles to an inactive training location, including mileage 
        traveled, lodging and subsistence.
        <bullet> Obtain professional pay for Reserve component medical 
        professionals, consistent with the Active component.
        <bullet> Eliminate the 1/30th rule for Aviation Career 
        Incentive Pay, Career Enlisted Flyers Incentive Pay, Diving 
        Special Duty Pay, and Hazardous Duty Incentive Pay.
        <bullet> Simplify the Reserve duty order system without 
        compromising drill compensation.
        <bullet> Reauthorize the Reserve Income Replacement Program for 
        mobilized Reserve components that expired in 2010.
Education:
        <bullet> Include Title 14 Coast Guard Reserve duty in 
        eligibility for the Post-9/11 GI Bill.
        <bullet> Exempt earned benefit from GI Bill from being 
        considered income in need based aid calculations.
        <bullet> Develop a standard nation-wide payment system for 
        private schools.
        <bullet> Re-examine qualification basis for yellow ribbon 
        program, rather than first come first serve.
        <bullet> Increase MGIB-Selected Reserve (MGIB-SR) to 47 percent 
        of MGIB-Active.
        <bullet> Include 4-year reenlistment contracts to qualify for 
        MGIB-SR.
Employee Support:
        <bullet> Permit delays or exemptions while mobilized of 
        regularly scheduled mandatory continuing education and 
        licensing/certification/promotion exams.
        <bullet> Continue to support a law center dedicated to USERRA/
        SCRA problems of deployed Active and Reserve servicemembers.
Mobilization:
        <bullet> Oversee service sections' policies to reimburse 
        mobilized reservists on Temporary Duty Orders orders with 
        lengths over 179 days.
        <bullet> Provide differential pay for deployed Federal 
        employees permanently.
Spouse Support:
        <bullet> Expand eligibility of surviving spouses to receive 
        Survivor Benefit Plan-Dependency Indemnity Clause payments with 
        no offset.
        <bullet> Provide employment protection and provide family leave 
        for spouses and family care-givers of mobilized Guard and 
        Reserve for a period of time prior to or following the 
        deployment of the military member.
Deferred Benefits and Retirement:
        <bullet> Extend current early retirement legislation 
        retroactively to September 11, 2001.
        <bullet> Promote improved legislation on reducing the Reserve 
        component retirement age.
        <bullet> Permit mobilized retirees to earn additional 
        retirement points with less than 2 years of activated service, 
        and codify retirement credit for serving members over age 60.
        <bullet> Modify U.S. Code that requires repayment of separation 
        bonuses if an individual receives a Uniformed Service 
        retirement annuity.
        <bullet> Change U.S. Code to eliminate the fiscal year barrier 
        toward full credit toward early retirement.
        <bullet> Continue to protect and sustain existing retirement 
        benefits for currently retired.
Voting:
        <bullet> Ensure that every deployed servicemember has an 
        opportunity to vote by:

                <bullet> Working with the Federal Voting Assistance 
                Program.
                <bullet> Supporting electronic voting.

        <bullet> Ensure that every military absentee ballot is counted.
Health Care:
    ROA and REA positions include that:
    TRICARE Prime:
        <bullet> The proposed $30 increase for individuals and $60 for 
        families is a modest proposal.
        <bullet> If indexed, adjustments to the enrollment fee should 
        be population based rather than industry-based.
        <bullet> It is important to independently verify the current 
        total cost of DOD health care benefits. Such an audit will 
        permit Congress to validate proposals based on cost-sharing 
        percentages.
        <bullet> Annual increases should not be tied to the market-
        driven Federal Employee Health Benefits Plan or a commercial 
        plan.
    On Pharmacy Co-payments:
        <bullet> ROA and REA believe higher retail pharmacy co-payment 
        should not apply on initial prescriptions, but on maintenance 
        refills only.
        <bullet> ROA and REA support DOD efforts to enhance the mail-
        order prescription benefit.
    Sole Community Hospitals:
        <bullet> Fee adjustments must be approached with caution 
        because of inconvenience to beneficiaries.
    U.S. Family Health Plan--Medicare coverage:
        <bullet> ROA and REA support continuation of the Medicare 
        coverage as part of the U.S. Family Health Plan.
        <bullet> To maintain the program, a mandatory Part ``B'' 
        payment might be considered.
    Reserve Health Care Initiatives:
        <bullet> Improve continuity of health care for all drilling 
        reservists and their families by:

                <bullet> GR members should qualify for Transitional 
                Assistance Management Program (TAMP) coverage when 
                separated from Active Duty.
                <bullet> Having Government Accountability Office (GAO) 
                Audit the assumptions used for TRICARE Retired Reserve 
                (TRR) premiums.
                <bullet> Creating a self plus one premium for TRR.
                <bullet> Providing Continuing Health Benefit Plan to 
                traditional Drilling reservists who are beneficiaries 
                of TRICARE Reserve Select (TRS) but are separated from 
                the Selected Reserve to provide Consolidated Omnibus 
                Budget Reconciliation Act (COBRA) protections.
                <bullet> Permitting active members in the Individual 
                Ready Reserve (IRR) to buy-into TRS.
                <bullet> Allowing demobilized retirees and reservists 
                involuntarily returning to IRR to qualify for 
                subsidized TRS coverage.
                <bullet> Providing TRS coverage to mobilization ready 
                IRR members; levels of subsidy would vary for different 
                levels of readiness.
                <bullet> Improving post deployment medical and mental 
                health evaluations and access to care for returning 
                Reserve component members.
                <bullet> Providing an option for reservists where DOD 
                pays a stipend to employers.

        <bullet> Extend military coverage for restorative dental care 
        following deployment to 90 days.
        <bullet> Permit beneficiaries of Federal Employee Health 
        Benefit plan the option of subscribing to TRS.
                          readiness discussion
Operational versus strategic missions for the Reserve component
    The Reserve Forces are no longer a part-time strategic force but 
are an integral contributor to our Nation's operational ability to 
defend our soil, assist other countries in maintaining global peace, 
and fight in OCO.
    National security demands both a strategic and an Operational 
Reserve. The Operational Reserve requires a more significant investment 
of training and equipment resources, and places greater demands on its 
personnel as compared to the Strategic Reserve. Those serving in 
Operational Reserve units must be fully aware of the commitment 
required to maintain the expected level of readiness. A similar 
awareness and commitment is necessary for those responsible for 
providing resources to the Operational Reserve.
    Planners also must recognize that few individuals can remain in the 
Operational Reserve for an entire career. There will be times when 
family, education, civilian career, and the other demands competing for 
their time and talents take priority. Such an approach requires the 
ability to move freely and without penalty between the operational and 
strategic elements of the Reserve component as a continuum of service.
    Each Service has its own force generation models and the Services 
organize, train, and equip their Reserve components to a prescribed 
level of readiness prior to mobilization to limit post-mobilization 
training and to maximize operational deployment time. ROA and REA urge 
Congress to continue to support and fund each Service's authority to 
manage the readiness of its own Reserve Forces as one model does not 
fit all.
    In an era of constrained budgets, a capable and sustainable Reserve 
and National Guard is a cost-effective element of national security.
Junior Officer and Enlisted Drain
    As an initial obligated period draws to the end, many junior 
officers and enlisted choose to leave, creating a critical shortage of 
experienced young people in the leadership conduit.
    Yet, as the Services face pending end strength reduction, they 
approach this challenge with an inverse solution, by riffing out junior 
people, as the Air Force and Marine Corps are doing. Cutting the most 
junior people does not provide the same amount of savings in that it 
creates an older top heavy organization and does not make room for the 
newest generation of combat veterans. These cuts also reduce a fresh 
prospective brought by younger members.
    Another DOD solution to reduce the end strength is to slow down the 
input into the system. Both ROA and REA are concerned that Reserve 
Officers' Training Corps (ROTC) scholarships and commissioning are 
being reduced. Last year, the Chief of Naval Operations announced a 30 
percent reduction in Navy ROTC scholarships. The U.S. Air Force will be 
screening this year's sophomore class, only allowing 60 percent of the 
class to advance as juniors; next year only 45 percent will be allowed 
to advance.
End Strength and Preparedness
    Part of the President's budget includes planned reductions for both 
the Army and Marine Corps, by 27,000 and 15,000, respectively. It 
should be remembered that individuals cannot be brought quickly on to 
active duty on a temporary basis, but it is an accumulation of 
experience and training that is acquired over years that becomes an 
asset for the military. Reducing the force will also foreshorten dwell 
time.
    Before cuts to the U.S. Army and U.S. Marine Corps are made, ROA 
and REA hope that Congress requests a report from Services and DOD on 
the effect in the short and long term. These cuts need to be carefully 
evaluated to ensure that it is not based on budgetary concerns, but on 
capability.
    Without external threats, the U.S. Army has traditionally reduced 
the size of its Armed Forces. Since the 1990s, the Pentagon has 
recommended proportional cuts be taken in the Reserve component when 
taken in the Active Force. This reasoning fails in many ways. It 
results in a hollowing out of the force and preparedness, undermines 
morale, and undercuts retention. National security is put at risk.
    Yet, it has been the Reserve component that has provided the 
temporary surge to fill-in the active duty numbers. The end strengths 
included in the President's budget appear to maintain current numbers. 
As end strengths are cut, ROA and REA support transferring both 
manpower and equipment into the National Guard and Reserve to provide 
operational flexibility in the future.
    ROA and REA are concerned that the ongoing cuts to the Navy's 
Reserve will continue and this is a trend that needs to be reversed. 
The reported end strength of the Navy Reserve is just above 64,000 
members. A new manpower study needs to be done and published by the 
Navy Reserve to calculate the actual manning level requirements: this 
study should be driven by readiness and not budgetary requirements. In 
the President's budget, the Navy Reserve will face another 2,900 cut.
                          proposed legislation
Retirement
    Fixing early retirement--the concept whereby reservists and 
guardsmen can subtract time from age 60 when they would otherwise begin 
drawing their Reserve retirement--has been at the front of ROA's and 
REA's advocacy agenda for a number of years.
    The National Defense Authorization Act for Fiscal Year 2008 
established an early retirement reduction of 90 days for every 
consecutive 90 day period of active duty. However, the one major flaw 
in the law neglects the operational reservists who mobilized prior to 
that date.
    Newly acquired data supports backdating early retirement to 2001. 
Those who served prior to 2008, when the law was established, faced 
higher risks and took more casualties. Between 2001 and the date the 
law took effect, 82 percent (926 deaths) of National Guard and Reserve 
deaths had already occurred. Unfortunately, Congress overlooked this 
early sacrifice by not yet correcting the early retirement statute to 
include those who served between 2001 and 2008.

    1.  ROA and REA endorse a corrective measure to Section 
12731(t)(2)(A) of title 10, U.S.C. Over 600,000 members were unfairly 
excluded. We realize the expense of this corrective measure scored by 
CBO is $1.3 billion over 10 years, but hope that offset dollars can be 
found or the correction can be phased-in.
    2.  ROA and REA don't view this congressional solution as the final 
retirement plan. The Commission on the National Guard and Reserve 
recommends that Congress should amend laws to place the active and 
Reserve components into the same retirement system. Secretary of 
Defense Robert Gates refers to the Tenth Quadrennial Review of Military 
Compensation's comprehensive review of the military retirement systems 
for suggested reform. The latter report suggests a retirement pay equal 
to 2.5 percent of basic pay multiplied by the number of years of 
service.
        ROA and REA agree that a retirement plan, at least for the 
Reserve component, should be based on accruement of active and inactive 
duty. Early retirement should not be based on the type of service, but 
on the aggregation of duty. It shouldn't matter if a member's 
contributions were paid or non-paid; inactive duty, active duty for 
training, special works or for mobilization. Under a continuum of 
service, this approach would provide both the Active or Reserve 
component members with an element of personal control to determine when 
they retire and will encourage increased frequency of service beyond 20 
years within the Reserve.
    3.  Despite efforts by Congress, it appears that DOD will not be 
altering how it credits days toward early retirement that overlap the 
beginning of the new fiscal year. ROA and REA endorse no-cost 
legislation introduced by Sen. Mark Pryor (D-Ark.), S.491, to correct 
existing Section 12731(f)(2)(A) of title 10, U.S.C.
    4.  With an ongoing need for mid-grade officers Congress should 
reexamine the DOPMA and ROPMA laws to:

      a.  Permit 0-3s without prior enlisted service to be able to 
retire at 20 years of service. Many of badly needed skills that the 
Services would like to retain, yet must be discharged if passed over 
for promotion to often.
      b.  Allow 0-4 officers who, after a break in service from active 
duty, return to the Reserve component to retire. After being encouraged 
to return a number of officers find they are not eligible for non-
regular retirement. When reaching 20 years of commissioned service they 
find they may have only 15 good Federal years.
Education
    1.  Montgomery ``GI'' Bill-Selected Reserve (MGIB-SR): To assist in 
recruiting efforts for the Marine Corps Reserve and the other uniformed 
services, ROA and REA urge Congress to reduce the obligation period to 
qualify for MGID-SR (section 1606) from 6 years in the Selected Reserve 
to 4 years in the Selected Reserve plus 4 years in the IRR, thereby 
remaining a mobilization asset for 8 years.
    2.  Extending MGIB-SR eligibility beyond Selected Reserve Status: 
Because of funding constraints, no Reserve component member will be 
guaranteed a full career without some period in a non-pay status. 
Whether attached to a volunteer unit or as an individual mobilization 
augmentee (IMA), this status represents periods of drilling without 
pay. MGIB-SR eligibility should extend for 10 years beyond separation 
or transfer from a paid billet.
Leadership
    ROA and REA urges Congress to change sections 5143 and 5144 of U.S. 
Code Title 10 to only permit appointments from the Navy or Marine 
Corps' Reserve component.
    Both the Army and Air Force Reserve Chiefs may only be selected 
from general officers from that component's reserve, yet the Navy and 
the Marine Corps can select its Reserve leadership from either Active 
or Reserve flag officers. The Reserve Chief of a Service's Reserve 
needs to have an understanding of both the citizen warriors who are 
reporting to him or her, and the system through which they report. 
Draft legislation can be found at www.roa.orgldraftleg.
Military Voting
    ROA and REA thank Congress for the improvements made to absentee 
voting in the National Defense Authorization Act for Fiscal Year 10. 
Military personnel, overseas citizens, and their families residing 
outside their election districts deserve every reasonable opportunity 
to participate in the electoral process. Yet, studies by Congressional 
Research Service show that 25 percent of military member and family 
votes were not counted in the 2008 election. During the 2010 elections 
there were at least a dozen States that had one or more counties that 
failed to comply with the MOVE Act.
    ROA and REA urge Congress to direct the Government Accountability 
Office to report further on the effectiveness of absentee voting 
assistance to Military and Overseas Citizens for the 2010 General 
Election and determine how Federal Voting Assistance Program's efforts 
to facilitate absentee voting by military personnel and overseas 
citizens differed between the 2008 and 2010 national elections.
    ROA and REA hope that Congress encourages the Secretary of Defense, 
in conjunction with States and local jurisdictions, to gather and 
publish national data about the 2010 election by voting jurisdiction on 
disqualified military and overseas absentee ballots and reasons for 
disqualification.
                         health care discussion
Military Health Care--a shaky foundation
    The global war on terror is a protracted engagement that will not 
end with the withdrawal of troops from Iraq and Afghanistan and will 
continue, as will military response to crisis spots such a Libya. Yet, 
there are members on both sides of the aisle that are saying if cuts 
are made then Defense should not be exempt. Lawmakers are talking 
openly about TRlCARE fees not having been increased since 1995.
    For a number of years, the Pentagon has spoken out about the rising 
costs of health care and the need for reform. This can be noted by 
statements illustrating that military health costs have increased such 
as ``DOD medical costs have shot up from $19 billion in fiscal year 
2001 to $52.5 billion in fiscal year 2012,'' as made by Deputy 
Secretary of Defense William J. Lynn III at a Senate Budget hearing 
last month.
    Health care costs now consume 9 percent of the DOD budget. Yet 
comparisons of health care costs are distorted by beginning with a 
peacetime starting point followed by a decade of war. Many in the 
Pentagon are attributing the increases in military health care to its 
retirees, especially those working second careers.
    Unfortunately, many retirees are blaming much of this additional 
health care costs on National Guard and Reserve members for being 
included under TRlCARE.
    The Pentagon's public campaign for health care reform has undercut 
its credence by serving members, retirees, and beneficiary associations 
in what has been said, what has been budgeted, and what still might be 
planned.
                            health care cost
    The Reserve Officers Association and the Reserve Enlisted 
Association are disappointed in how the DOD Health Affairs has in the 
past attempted to address such an emotionally laden issue unilaterally. 
While this year, the Pentagon has made efforts to meet with beneficiary 
associations, these gatherings have been more briefings rather than 
discussions to seek solutions. ROA and REA applaud the efforts by 
Congress to address the issue of increasing DOD health care costs and 
its interest to initiate dialogue and work with both the Pentagon and 
the beneficiary associations to find the best solution. The time has 
come to examine the cost of TRICARE and the level of beneficiary 
contribution.
    It is important to sustain the DOD health care as a deferred 
benefit for our serving Active and Reserve component members and their 
families. While retired, these beneficiaries have accepted risks and 
made sacrifices in their earlier military careers that have not been 
asked of the remaining 99 percent of the Nation's population. TRICARE 
fulfills an ongoing promise by the government for continued health care 
to those who have served or are serving.
    ROA and REA are committed to our membership to sustain this health 
care benefit. We fear that Congress will be unable to continue 
prohibitions on health care fees. DOD, Congress, and the beneficiary 
associations need to work together to find a fair and equitable 
solution that protects our beneficiaries and ensures the financial 
viability of the military health care system for the future. Some 
associations seek to continue a freeze on premium fees permanently; 
others are joining ROA and REA by admitting that some increases are 
necessary.
    Conversely, DOD and this Nation cannot afford to carry the full 
burden of health care costs. The operational Active and Reserve Force 
and their families deserve the best, both while serving and into 
retirement. To preserve the top health care program in the Nation as a 
DOD benefit, ROA and REA are open to discussions on cost-sharing.
    Beneficiary medical expense totals have not yet been provided by 
DOD. Congress should ask the Pentagon for a financial breakdown. An 
independent audit by GAO or another agency would allow Congress an 
opportunity to validate proposals based on financial benchmark.
    ROA and REA agree that the proposed $30 increase for individuals 
and $60 for families is a modest proposal, and can accept this as a 
first step.
    Of concern is a proposal to index future increases. Having some 
formula in place seems appropriate, following a similar approach to 
what was taken by Congress to calculate cost-of-living allowances for 
social security and military retirement pay. But the challenge is, what 
index to select?
    ROA and REA agree with other beneficiary associations that it 
should not be a Medicare Index, because a Medicare-based index 
penalizes those retirees under age 65 who don't suffer from the same 
ailments as retirees in the older age group. ROA also found that 
contracted commercial indexes tend to maximize health care growth, 
likely justifying the higher premium increases associated with 
commercial health insurance and should not be used. Comparisons between 
commercial and military health care plans are not justified. ROA is 
continuing to explore indices, but the challenge is that even 
government matrixes are based on an industry and not actual beneficiary 
health care costs.
    ROA and REA share the concern that any process used should be a 
fair and equitable approach where retiree's won't be overburdened. 
Should an index be agreed upon, it should be codified.
                           health care reform
    The beneficiary associations were invited to the Pentagon for a 
meeting with Dr. Clifford L. Stanley, Under Secretary of Defense for 
Personnel and Readiness, about the health reform proposals. At this 
meeting, it was stated that the fiscal year 2012 proposal was enough to 
cover what was needed in the fiscal year 12 budget, and if more was 
needed the next year, DOD would submit additional proposals. During the 
first week of March, the Pentagon also announced that John Baldacci, 
former Governor of Maine, has been hired into in a newly created 
position to recommend to Dr. Stanley ``necessary reforms for the 
military health care system.''
    Statements like these combined with the DOD public relations health 
care costs campaign makes both retirees and beneficiary associations 
nervous.
    In anticipation of less modest proposals in the future ROA and REA 
include the following:
TRICARE:
        <bullet> Catastrophic Cap of $3,000 should not be changed, nor 
        indexed.
TRICARE Standard:
        <bullet> ROA and REA do not endorse an annual enrollment fee 
        for either DOD or VA beneficiaries.
        <bullet> Should DOD suggest increasing deductible levels, the 
        total cost of Standard needs to be evaluated, because . . .
        <bullet> Standard has large co-payments of 25 percent after the 
        deductible, and the cost of TRlCARE standard automatically 
        adjust to changes in medical costs.
        <bullet> For individuals or families relying on Standard for 
        medical treatment, it is a more expensive health plan than 
        TRlCARE Prime.
TRICARE Reserve Select
        <bullet> DOD should stop viewing TRS as a health insurance, but 
        as a health program.
TRICARE Retired Reserve (TRR)
        <bullet> Premiums are too high, and for TRR to be viable, 
        premiums need to be reduced.
TRICARE for Life (TFL)
        <bullet> No enrollment or separate premium should be 
        introduced. Retirees over 65 are already paying more than 
        younger retirees.
                     reserve component health care
    The Pentagon views TRlCARE as a health care plan, and Reserve 
TRICARE as a health care insurance. Because words create paradigms, 
Reserve health care is treated by DOD entirely different than active 
duty health care. The differences are easily noted: Active duty members 
enroll in a benefit with deductibles and co-payments; Guard and Reserve 
members ``purchase'' a premium based health plan. The following are 
suggested improvements.
1. ROA and REA hold concerns over premium rates for TRICARE for gray 
        area retirees.
    Because DOD treated Reserve gray area retirees as a separate health 
care risk group, health care premiums proved higher than expected. 
Because of the expense, enrollment is low. It is likely just being used 
by those with health care problems, who can't afford health care from 
other sources. If the program is not changed it will have a similar 
success to mobilization insurance.
    ROA and REA hope that the committee will request a Government 
Accountability Office review of the process that determined the 
published premium levels.
2. Seamless Transition.
    Servicemembers should not have to navigate through bureaucracy to 
receive care or benefits. Every time a Reserve component member 
transitions into a new category of health care, he or she is required 
to reenroll in the new program. Even those who are beneficiaries of TRS 
need to do an administrative transition between TRS, TRlCARE once 
mobilized, into TAMP and back onto TRS. And once retired, there is 
additional transition into TRlCARE Retired Reserve, and the latter 
TRICARE retiree health care. Add to this the additional health care 
provided by the Department of Veteran Affairs, and there are gaps in 
health care as a Reserve component or family member moves between 
programs.
3. Access to TAMP.
    It has come to ROA's attention that some Guard and Reserve members 
who have returned from deployment may not be provided TAMP coverage. In 
a number of cases, individuals who were placed in a wounded warrior 
company, after being found fit, were told that they would not qualify 
for transitional health care upon discharge because TAMP coverage was 
started upon the day they returned to the United States and they had 
been in the wounded warrior program for over 180 days.
    ROA and REA feel that TAMP should only begin upon separation from 
Active duty.
4. Sustaining Reserve Health Care.
    Continued Health Care Benefit Plan continues to be shown as only 
allowing members of the Selected Reserve who have had a tour of active 
duty within the previous 18 months by DOD. This is denying COBRA 
protections for TRS beneficiaries who haven't been activated, and 
doesn't support the Secretary of Defense's directive to mobilize 
National Guard and Reserve members 1 year out of 6, which would be a 
dwell time of 60 months. There is little cost as the beneficiary pays a 
premium of 102 percent of TRlCARE cost.
    As even discharged active servicemembers have the benefit of the 
Continuing Health Care Benefit Plan, those Guard and Reserve members 
who have signed up for TRlCARE Reserve Select need to have protections 
when they leave the Selected Reserve.
    ROA and REA encourage Congress to work with the Pentagon to open up 
Reserve component member access to the Continued Health Care Benefit 
Plan to any TRS beneficiary separating from the Selected Reserve under 
conditions that are not punitive in nature.
5. Employer health care option.
    DOD pays a stipend to employers of deployed Guard and Reserve 
members to continue employer health care during deployment. G-R family 
members are eligible for TRlCARE if the members' orders to Active Duty 
are for more than 30 days; but some families would prefer to preserve 
the continuity of their own health insurance. Being dropped from 
private sector coverage adversely affects family morale and military 
readiness and discourages some from reenlisting. Many G-R families live 
in locations where it is difficult or impossible to find providers who 
will accept new TRlCARE patients. This stipend would be equal to DOD's 
contribution to Active Duty TRlCARE.
    ROA and REA continue to support an option for individual reservists 
where DOD pays a stipend to employers.
6. Dental Readiness.
    Currently, dental readiness has one of the largest impacts on 
mobilization. The action by Congress in the NDAA for Fiscal Year 2010 
was a good step forward, but still more needs to be done.
    The Services require a minimum of Class 2 (where treatment is 
needed, however no dental emergency is likely within 6 months) for 
deployment. Current policy relies on voluntary dental care by the Guard 
or Reserve member. Once alerted, dental treatment can be done by the 
military, but often there isn't adequate time for proper restorative 
remedy. Reserve and Guard Dentists could support reducing costs.
    ROA and REA continues to suggest that the services are responsible 
to restore a demobilized Guard or Reserve member to a Class 2 status to 
ensure the member maintains deployment eligibility.
    Because there are inadequate dental assets at Military Treatment 
Facilities for active members, active families, and reservists, ROA and 
REA further recommend that dental restoration be included as part of 
the 6 month TAMP period following demobilization. DOD should cover full 
costs for restoration, but it could be tied into the TRICARE Dental 
program for cost and quality assurance.
7. Utilization of TRS.
    ROA and REA support efforts by the Pentagon to encourage enrollment 
in TRS. We share a concern that the numbers being published by the 
Pentagon understate the actual level of participation by Guard and 
Reserve members who are eligible. A survey should be taken of TRICARE 
contractors to compare their participation measures with those of DOD.
8. IRR Access to TRS.
    Not everyone who drills is eligible for TRS. All Services offer 
drilling for points without pay. These members are in the IRR. The Navy 
has Voluntary Training Units. The Air Force and Army have non-paid IMA. 
The Army also has a group within the IRR body that has agreed to 
mobilization during their first 2 years.
    The Army, the Marine Corps, and the Navy have mobilized reservists 
out of the IRR. Under current law, unless these RC members are given an 
opportunity to join the Selected Reserve, they are not eligible to 
purchase TRS following their return.
    ROA and REA feel that IRR members should be eligible for TRS. They 
could qualify if they sign an agreement of continued service and 
complete a satisfactory year of training and satisfy physical 
standards. A satisfactory year could be defined either by points or by 
training requirements, as defined by each Reserve Chief.
    ROA and REA recommend legislation to allow IRR buy-in to TRS.
                               conclusion
    ROA and REA reiterate our profound gratitude for the progress 
achieved by this committee by providing parity on pay and compensation 
between the Active and Reserve components, with the subcommittee also 
understanding the difference in service between the two components.
    ROA and REA look forward to working with the personnel subcommittee 
where we can present solutions to these and other issues, and offers 
our support in anyway.
                                 ______
                                 
       Prepared Statement by the Gold Star Wives of America, Inc.
    Chairman Webb, Ranking Member Graham, and members of this 
committee, I am pleased to submit testimony on behalf of Gold Star 
Wives on legislative issues pertinent to our Nation's military widows 
and widowers. My name is Vivianne Wersel, Chair of the Gold Star Wives' 
Government Relations Committee. I am the widow of Lt. Col. Richard 
Wersel, Jr., USMC, who died suddenly on February 4, 2005, 1 week after 
returning from his second tour of duty in Iraq.
    Gold Star Wives of America, Incorporated (GSW), founded in 1945, is 
a congressionally chartered organization of widows and widowers of 
military members who died while serving on active duty or as a result 
of a service-connected disability. GSW is an all-volunteer organization 
encompassing approximately 10,000 members.
    Our primary mission is to support gold star wives after the death 
of their loved one and a place to connect with other widows. We also 
provide information about military survivor benefits and assist widows 
experiencing difficulties accessing their benefits. We strive to raise 
the awareness of Congress, the public, the military community and Gold 
Star Wives to the many inequities existing in our survivor programs and 
benefits. Many of our members volunteer in Department of Veterans 
Affairs (VA) hospitals and clinics and also visit servicemembers 
hospitalized at Department of Defense (DOD) medical treatment 
facilities.
    GSW's current members are widows and widowers of military members 
who served during World War II, the Korean War, the Vietnam War, the 
Gulf War, the conflicts in both Iraq and Afghanistan, and every period 
in between. For this written testimony, we will refer to all of members 
as widows.
    I am honored to submit testimony for the record today, but am very 
saddened my testimony will show no changes since last year. None of our 
issues passed the last congressional session. GSW's most important 
legislative issues that pertain to this committee are as follows:
   i. elimination of the dependency and indemnity compensation (dic) 
               offset to the survivor benefit plan (sbp)
    GSW strongly supports the complete elimination of the SBP/DIC 
offset. We are grateful for the support of many Members of Congress, 
including most of you here, as this issue has been brought before 
Congress for 11 years. We are also grateful to Senator Bill Nelson his 
sponsorship of S. 260 to remove the SBP/DIC offset. We respectfully 
request Congress eliminate the SBP/DIC offset immediately.
Two Survivor Programs
    Congress created two programs for survivors of our military 
members. In 1956, Dependency and Indemnity Compensation (DIC) was 
established by the Servicemen's and Veteran's Survivor Benefit Act. The 
purpose of DIC is an indemnity payable to survivors when a military 
member dies as a result of a service-connected cause.
    In 1972, Congress created the Survivor Benefit Plan (SBP). The 
purpose of SBP is to insure that a portion of the military member's 
retirement will be provided to the widow after the military member's 
death.
    Two different plans, two very different purposes, one paid by 
retiree premiums or an active duty military member's life and the other 
paid by the Department of Veterans Affairs.
GSW Membership and SBP/DIC OFFSET
    GSW encompasses approximately 10,000 DIC recipients. Some of our 
members are eligible for and receive SBP. For those surviving spouses 
who receive SBP, either their retired military servicemember chose to 
purchase SBP at their retirement or their military member died while on 
active duty.
    When a widow is eligible for both SBP and DIC, the widow becomes 
subject to the ``widow's tax''--a dollar-for-dollar reduction in the 
SBP by the amount of DIC received. Military members who died on active 
duty did not pay premiums. (Prior to September 11, a servicemember who 
died on active duty had to be retirement eligible for his survivor to 
receive SBP without payment of premiums.) Their widows became eligible 
for SBP on the date of their active duty death. Retired military 
members chose to purchase SBP and pay premiums with hard-earned 
retirement. Until 2005 and the implementation of concurrent receipt, 
some disabled retirees received no retirement pay with which to pay 
premiums. Many were forced to pay from disability compensation. The 
offset, never mentioned to the military member, only becomes visible to 
their widow once the military member has died. Including GSW members, 
approximately 54,000 surviving spouses are eligible for both SBP and 
DIC.
    Widows who are impacted by the offset are quite often shocked to 
learn they are subject to an offset. Completely unaware of the offset 
and how it would affect them financially forces them to make many hard 
adjustments in their day-to-day lives to accommodate the offset's 
effects.
Band-Aid Fixes
    Congress has chosen not to eliminate the offset for eleven years 
for the small group of widows impacted by the offset. Instead, Congress 
further divided and subdivided this small group with Band-Aid fixes for 
the offset. Three of the Band-Aid fixes, also called options, create 
even more confusion about benefits and who is eligible and often do 
little to eliminate the financial distress initially. Even reporting 
these options and their consequences to congressional members is 
difficult as they do not understand the impact, ramifications and end-
result these options caused. The options are below.
    First, the reassignment of a spouse's SBP to her children. In 2003, 
a new law passed, P.L. 108-136, authorizing active duty widows to 
assign the SBP annuity to their children, if any, permanently 
forfeiting any right the widow had to SBP. This reassignment allows 
full receipt of SBP by the child(ren) without offset until they reach 
the age of majority, when the benefit terminates. The widow is forced 
to make this decision very soon after notification of her spouse's 
death and her decision then becomes irrevocable. Complications from 
this new law often require that the widow be granted guardianship of 
her own child(ren) by a court of law. A widow whose husband died in 
retirement is not eligible for this option.
    Second, remarriage. In August 2009, the U.S. Court of Appeals in 
the matter of Sharp, et.al. v. The United States, 82 Fed. Cl. 222 
(2008), ruled that DIC payments may not be deducted from SBP annuities 
if a person entitled to both benefits has remarried after age 57. It 
does not make sense to have two separate standards in the law, one that 
allows payment of full SBP and DIC for widows who remarry after age 57 
and another forcing a dollar-for-dollar offset between the SBP and DIC 
for all others. GSW is concerned that the Federal Government now 
requires a remarriage in order for an annuity to be paid in full.
    Third, Special Survivor Indemnity Allowance (SSIA). The NDAA for 
Fiscal Year 2008 established a Special Survivor Indemnity Allowance for 
widows who are the beneficiary of the SBP annuity and their SBP annuity 
is partially or fully offset by the DIC. The SSIA also applies to the 
widows of members who died on active duty whose SBP annuity is 
partially or fully offset by their DIC. SSIA began at $50 per month and 
increases each fiscal year until 2017, when the SSIA terminates.
    A GSW member inquired recently whether the SBP/DIC offset would be 
removed within her lifetime. She is quite elderly and she stated that 
the odds of her remarrying are not favorable. She knows there are band-
aid fixes, but stated she was from the old culture and married once for 
a lifetime. For her, the thought of dating or remarrying at the age of 
94 is completely out of the question. The only response we could give 
her is to have faith and hope Congress will eliminate this offset soon.
Veterans Disability Benefits Commission and Concurrent Receipt
    The Veterans Disability Benefits Commission (VDBC), created by 
Congress in 2004 to review the benefits provided to the disabled and 
their surviving spouses, recommended the elimination of the DIC offset 
to SBP as one of their top priorities for Congress--and they referred 
to this issue as ``survivor concurrent receipt.'' Six years ago, 
concurrent receipt was applied to military members who are 100 percent 
disabled, enabling them to receive both VA compensation and military 
retirement pay in full. Logically, this should have applied to the 
surviving spouse at the same time--death should have been included in 
the 100 percent disabled category for survivor concurrent receipt as 
well.
    GSW understands that Congress does not permit the private sector or 
other Federal benefit programs to reduce or terminate retired annuities 
because the survivor is also eligible for DIC. So it begs to question, 
how can the full receipt of SBP and DIC be considered double dipping 
when in 2004 it was determined by Congress that the 100 percent 
disabled would receive their full retirement and disability 
compensation payments? Survivor compensation is provided to widows 
based on the military member who is rated at 100 percent disabled. 
There is no greater disability than death.
SBP/DIC Offset Conclusion
    Senator Bill Nelson stated simply for the record before the Senate 
Armed Services Committee Subcommittee on Personnel Hearing on March 10, 
2010, ``To truly honor our servicemembers, we all agree that the U.S. 
Government must take care of our veterans, their widows and orphans. In 
keeping with that moral principle, we must repeal the unjust offset 
that denies widows and orphans the annuity their deceased loved ones 
have earned on active duty or purchased for them. . . . Our efforts 
have been important steps in the right direction, but they are not 
enough. We must meet our obligation to the widow and orphan with this 
same sense of honor as was the service their loved one had rendered. We 
must completely eliminate the SBP/DIC offset.''
    GSW is heartened by all the support and legislation introduced to 
fix the ``widow's tax'' over the past 11 years; however, we are 
perplexed that none of it has led to the necessary change--the complete 
elimination of the SBP/DIC offset. Even the Veterans Disability 
Benefits Commission, chartered by Congress, recommended the elimination 
of the offset in its top six priorities for Congress. Military widows 
have done all that is asked of them over the years and have worked 
tirelessly to educate the government, the public and military 
communities and new members to our own membership. They followed all 
the advice provided by Congress to get the word out to the public, 
garner support within Congress and have had numerous champions sponsor 
legislation to end this offset but to no avail. Our champions retire, 
widows die, and the offset still remains. We watch as other programs 
are easily funded that do not impact the quality of life for their 
recipients. We wait and wait. It is time to do the right thing, 
eliminate the DIC offset to the SBP this session.
    Gold Star Wives would like to thank Senator Bill Nelson for 
introducing S. 260 and the 30 plus cosponsors supporting this effort to 
eliminate the SBP/DIC Offset.
                             ii. education
    GSW is greatly encouraged by the Gunnery Sergeant John David Fry 
Scholarship Program and request this program be included in the Yellow 
Ribbon Education Program. The Yellow Ribbon Education Program does not 
currently apply to children of the fallen, yet it would help ensure 
these children have a brighter future. We believe this was an oversight 
when the Fry Scholarship was created with the intention of matching 
education benefits to mirror the New GI Bill.
      iii. tricare dental plan for children of active duty fallen
    GSW is thankful for this needed piece of legislation for active 
duty children to continue to receive dental care but we are perplexed 
and concerned at the length of time which has passed without 
implementation. Time is of the essence for many of these children who 
are at an age when dental is pertinent for their optimal well-being. 
Eighteen months is more than sufficient and should have been 
implemented but has not.
                            iv. other issues
Caregiver/Family Support Services
    While the TMC supports caregiver services, the surviving spouses 
who provided care for their husbands 8 or more years have this 
``caregiver'' allowance incorrectly included in the DIC check and 
therefore additionally offset from their SBP.
TRICARE Premiums
    Approximately 33,000 Surviving Spouses of Active Duty and Service 
Connected deaths receive NO RETIRED SBP due to the offset with which to 
pay any TRICARE Premiums.
                     v. recognizing gold star wives
    Gold Star Wives thanks Senator Burr, NC, for sponsoring legislation 
for a Gold Star Wives Day in April 5, 2011 and 2012. The recognition of 
widows' service to our Nation was truly appreciated. These same widows 
and widowers served beside their military member silently, determined 
and unwavering despite hazardous duty, multiple deployments, numerous 
family moves, serving as both parents to their children, and through 
the loss of longevity in their own chosen careers. Many widows and 
widowers were full-time caregivers for their military members. Often 
back-breaking work and enduring financial hardships, these caregivers 
saved the government untold hundreds of thousands of dollars in nursing 
and hospital care, usually to the detriment of their own health. It is 
a shame these same selfless widows and widowers rarely receive 
accolades or honorable mentions in speeches or written statements made 
by our political or military leaders. We ask that you include survivors 
in your speeches, written statements and honorable mentions today and 
into the future.
    This testimony began with one of GSW's most critical issues--the 
elimination of the SBP/DIC offset. Included are several other priority 
issues for GSW that are not unfamiliar to Congress. We request your 
support in caring for our widows and widowers as they look to GSW as 
their support and their voice in Congress. We are the vanguards for 
changing the inequities in military survivor benefits, educating the 
public and military communities, as well as, educating Congress on the 
needs of our members.
    Our husbands would be appalled at the lack of action taken by 
Congress to care for their widows and children. They would be shocked 
to learn their wives and children had to walk the halls of Congress and 
beg for the benefits they had worked so hard for on the battlefield. No 
other group of widows and children are forced to be paraded for all to 
see. These families should be heralded as heroes themselves for 
surviving the life of a military family. I believe that you who serve 
on this committee feel similarly. Let us work to make this statement 
one of action and not just rhetoric.
    I appreciate the opportunity to submit testimony for the record. 
Thank you.
                                 ______
                                 
Prepared Statement by Peter J. Duffy of the National Guard Association 
                          of the United States
    Chairman Jim Webb, Ranking Member Lindsey Graham, and members of 
the subcommittee: Thank you for the opportunity to present written 
testimony on behalf of the National Guard Association of the United 
States to address critical personnel issues facing members of the 
National Guard and their families. This brief submission will provide 
factual background, analysis, and corrective recommendations for the 
committee to consider.
                    the unique citizen servicemember
    The National Guard is unique among components of the Department of 
Defense (DOD) in that it has the dual State and Federal mission. While 
serving operationally overseas on Title 10 active duty status, National 
Guard units are under the command and control of the President. 
However, upon release from active duty, members of the National Guard 
return to the far reaches of their states under the command and control 
of their governors where as a special branch of the Selected Reserves 
they train not just for their Federal missions but for their potential 
state active duty missions such as protecting the border and airspace, 
fire fighting, flood control, and providing assistance to civil 
authorities in a variety of possible disaster scenarios.
    Activation numbers for the National Guard as of April 5, 2011 are 
as follows:

        Guardsmen Currently Activated in Support of Operations Noble 
        Eagle/Enduring Freedom/New Dawn (as of April 5):
          ARNG: 43,288
          ANG: 5,637

        Total Guardsmen Activated in Support of Operations Noble Eagle/
        Enduring Freedom/New Dawn (Since September 11)
          ARNG: 342,446
          ANG: 87,103

    While serving in their States, members are scattered geographically 
with their families as they hold jobs, own businesses, pursue academic 
programs and participate actively in their civilian communities. 
Against this backdrop, members of the National Guard remain ready to 
uproot from their families and civilian lives to serve their governor 
domestically or their President in distance parts of the globe as duty 
calls and to return to the same communities when their missions are 
accomplished.
    Military service in the National Guard is uniquely community based. 
The culture of the National Guard remains little understood outside of 
its own circles. When DOD testifies before Congress stating its 
programmatic needs, it will likely recognize the indispensable role of 
the National Guard as a vital operational force in the current wars but 
it will say little and seek less to address the benefit disparities, 
training challenges and unmet medical readiness issues that exist for 
National Guard members and their families at the State level before, 
during and after deployment. The National Guard Association of the 
United States asks this subcommittee to please understand that the 
personnel issues of the National Guard are different from those of the 
Active Forces, and in some cases radically so. We ask that they be 
given a fresh look with the best interests of the National Guard 
members and their families in mind, in reviewing the recommendations 
set forth below.
             support for individual medical readiness needs
    According to The Task Force on the Future of Military Health Care, 
``Today's Operational Tempo raises the importance of all responsible 
parties doing their part to ensure the Individual Medical Readiness 
(IMR) requirements are satisfied to facilitate maximum deployability of 
our forces.''
    DOD requires all members of the National Guard to be medically 
ready as a condition for deployment. IMR must address the medical and 
dental needs of those members deploying for the first time as well as 
those subject to redeployment whose mental health care needs arising 
from prior service in OIF and OEF have become paramount. However, using 
the National Guard as an operational force requires more accessible 
health care particularly mental health care for members and their 
families pre and post deployment in order to maintain the necessary 
medical readiness required by deployment cycles. It cannot be a simple 
post deployment send off by the active military of ``Good job. See you 
in 3 years.''
    DOD must do more to bring the National Guard to a constant state of 
medical readiness to better support the short notice deployments that 
occur regularly within the National Guard. For example, the Air 
National Guard must maintain constant dental and medical readiness 
because of the short notices they receive for deployments, which 
sometimes can be as little as 72 hours. Short notice deployments also 
occur regularly with cross leveled members who, with as little as 2 or 
3 weeks notice, must fill in for members from other deploying units who 
for various reasons become disqualified for deployment. Members in the 
pool of Individual Mobilization Augmentees whose files are kept at the 
Human Resources Command in St. Louis can also be assigned to fill 
positions in deploying units on short notice without the benefit of the 
premobilization preparations taking place in the deploying unit.
    The Army National Guard currently has the highest suicide rate in 
the military yet there remains no authority in Title 10 to authorize 
the Service Secretaries to provide mental health care for our members 
during dwell time to maintain readiness. In fact, outside of the 
deployment windows which extend from the issuance of an alert order to 
the close of the 6 month Transitional Assistance Management Program 
(TAMP) period following deployment, there is no authority for the 
Service Secretaries to provide any care beyond fixing dental readiness 
issues identified in annual screenings.
    Commanders currently lack the tools during dwell periods to fix 
medical and behavioral readiness issues identified during annual 
screenings identifies. The government pays good money to identify 
treatable medical and behavioral readiness conditions but no money to 
fix them during dwell time. This heightens the risks that members with 
untreated conditions that otherwise could have been fixed will be 
deployed only to be released from active duty at the mobilization 
stations because of the untreated condition. This in turn sets into 
motion the difficult cross leveling process with the unit losing key 
personnel at the worst time and a surrogate stepping in on very short 
notice at great hardship to the member and the member's family. This 
problem is solvable but Congress must act by giving the Service 
Secretaries discretionary authority to correct treatable medical and 
behavioral readiness deficiencies discovered during dwell time 
screenings. Members with conditions that cannot be corrected can be 
separated or reassigned in a more timely manner outside of deployment 
windows. This would allow for a more medically and dentally ready 
deployable force even before the issuance of alert notices. This in 
turn would help to limit the time diverted for treatment during the 
training intensive alert periods.
Recommendation:
    The National Guard Association of the United States recommends that 
the National Guard Bureau, DOD, and the Congress of the United States 
support authorization and appropriations for programs that will:

        <bullet> Amend 10 U.S.C. 1074 a(f)(l) to authorize Service 
        Secretaries provide the treatment needed to correct treatable 
        readiness deficiencies identified during dwell time screenings.
 post-deployment health assessments and medical screenings at the home 
                                station
    It is imperative post deployment that our members while still on 
active duty deployment orders be examined confidentially at the home 
station by a qualified health care provider in order to address the 
under reporting of physical and mental health conditions that is 
occurring on the self-administered Post-Deployment Health Assessment 
(PDHA). The PDHA is currently being completed by a homeward bound 
member in theater or at the demobilization site often several States 
away from home.
    When the PDHA is completed, it is accompanied with the instruction 
that the self-assessing member maybe medically held on active duty at 
the demobilization site if he or she reports a medical condition 
requiring that action. To avoid the risk of being held at the 
demobilization site after a long deployment, members are simply not 
fully reporting their physical and behavioral injuries. This 
underreporting not only delays treatment but can prejudice later claims 
with the VA for service connected disabilities arising from conditions 
not previously reported on the PDHA.
    What is needed forthwith is a free and confidential reporting of 
physical and mental health conditions at the home station by all 
members, stigma free, to a health care provider trained to elicit that 
information and to screen for those conditions without the fear of 
being medically held far from home. If medically holding the member is 
advisable, it should be done as close to home as possible.
    The irony in the current PDHA under reporting phenomenon is that a 
medical hold is usually in the best interest of the member and his or 
her family as it allows pay and benefits to continue during treatment 
for a condition that may well render the member unemployable once 
discharged. The medical hold should not cynically be administered as a 
threat to discourage reporting of injuries when, if properly 
administered in a friendly environment, it offers substantial benefits 
to the members and his or her family.
    The PDHA needs to be completed by returning members at home in the 
presence of a trained health care professional who can screen, observe, 
and ask with the skill necessary to elicit medical issues either 
unknown to the self-reporting member or unreported for fear of being 
retained at far removed demobilization site. Insurance companies in 
performing their due diligence before the issuance of an insurance 
policy do not allow individuals to self-assess their health. Neither 
should the military. If geographical separation from families is 
causing under reporting and non reporting of physical and psychological 
combat injuries on the PDHA, then moving this process to the home 
station would likely produce a better yield at a critical time when 
this information needs to be captured in order for prompt and effective 
treatment to be administered. If necessary and appropriate, the 
examining health care provider in coordination with the National Guard 
J-1 and State's Surgeon General can cause the member to be retained on 
active duty locally for further treatment and evaluation.
    This is especially critical in screening for behavioral conditions. 
At all stages of post-traumatic stress disorder (PTSD) and depression, 
treatment is time sensitive but this is particularly so after onset as 
the illness could persist for a lifetime if not promptly and adequately 
treated and could render the member permanently disabled. The effects 
of this permanent disability on the member's entire family can be 
devastating. It is absolutely imperative that members returning from 
deployment be screened with full confidentiality at the home station 
while still on active duty by trained and qualified mental health care 
providers from VA staff and/or qualified health care providers from the 
civilian community that could include primary care physicians, 
physician assistants and nurse practitioners who have training in 
assessing psychological health presentations. Prompt diagnosis and 
treatment will help to mitigate the lasting effects of mental illness.
    Please see the copy of a November 5, 2008, electronic message to 
NGAUS from Dr. Dana Headapohl set forth in the Appendix which strongly 
recommends a surveillance program for our members before they are 
released from active duty. Dr. Headapohl opines the obvious in stating 
that inadequate medical screening of our members before they are 
released from active duty is ``unacceptable to a group that has been 
asked to sacrifice for our country.'' (emphasis added)
Recommendation:
    The National Guard Association of the United States recommends that 
Congress support authorization and appropriations for programs that 
will:

        <bullet> Require the PDHA for National Guard members to be 
        administered at the home station before releasing members from 
        active duty
        <bullet> Mandate medical and behavioral screening of all 
        National Guard members returning from deployment by health care 
        professionals at the home station before releasing the members 
        from active duty.
  embed mental health care providers in armories and reserve centers 
                              during drill
    National Guard and Reserve suicides nearly doubled from 80 deaths 
in 2009 to 145 deaths in 2010. This highest suicide rate in the 
military underscores the need to provide the National Guard and Reserve 
with convenient access to mental health care providers in a command 
supported local setting.
    Using the National Guard and Reserve as an operational force in the 
current war requires a funded mental health readiness care program 
during dwell time in order to maintain an important component of 
medical readiness required by deployment cycles.
    As our members reintegrate into their civilian communities or 
prepare for future deployments, many show no signs of physical injury 
but suffer from the psychological effects of traumatic stress requiring 
treatment. These psychological effects may range in severity from 
behavioral readjustment concerns to PTSD with some conditions not 
manifesting themselves until months or even years after returning from 
deployment. Early referral and treatment of behavioral and PTSD issues 
are essential for positive outcomes.
    DOD must provide better access for all National Guard and Reserve 
members during duty hours to seek the assistance of mental health care 
professionals in a convenient stigma free environment. Increased access 
would more thoroughly and expeditiously identify members in need of 
treatment.
    Embedding mental health care providers in armories and Reserve 
training centers during drill would enable on site self referrals or 
mandatory unit wide referrals which would mitigate the perceived stigma 
associated with National Guard members individually seeking mental 
health counseling. This would also eliminate the need for our members 
to take medical leave and drive potentially great distances to seek 
similar services during the work week. As states with piloted programs 
attest, the embedded mental health care provider program works.
    Tri-West with its own funds has instituted a pilot program in 
California that supports 27 mental health care providers as embedded 
screeners with 40 California National Guard units to provide support 
and referral assistance during drill weekends and family readiness 
events. These providers can earn the trust of soldiers and build 
relationships through regular contact in a familiar environment. For 
those National Guard and Reserve members and their families who may not 
have access to the support and resources more commonly found in active 
duty military communities, this outreach is particularly important. The 
pilot program offers soldiers a greater access to the type of care they 
are most comfortable seeking.
    S. 325, The Embedded Mental Health Providers for Reserves Act of 
2011 introduced by Senators Patty Murray and Claire McCaskill, now 
before the 112th Congress would require the Service Secretaries to 
provide to any and all members of the Reserve components performing 
inactive-duty unit training access to mental health assessments and 
treatment with a licensed mental health professional who would be 
available for referrals during duty hours on the premises of the 
principal duty location of the member's unit.
    The Congressional Budget Office has preliminarily estimated the 5 
year outlay for S. 325 to be $109 million. Secretary Gates has 
requested $677 million in the President's fiscal year 2012 budget for 
treatment of PTSD and TBI. A fair allocation of this sum and future 
requests should more than cover the cost of S. 325. In light of the 
recent GAO castigation of the waste and lack of direction in the 
Defense Center of Excellence, the embed program offers a bargain in 
caring for the mental health needs of deserving members of the 
military. Congress needs to require DOD to fairly share mental health 
appropriations with the National Guard and Reserve who can apply those 
funds efficiently with an embedded provider program.
    Our young men and women deserve appropriate and timely mental 
health care assessments and care as they attempt to reintegrate into 
civilian life and maintain medical readiness for future deployments.
Recommendation:
    Support the passage of S. 325.
equitably amend the 2008 national defense authorization act in reducing 
the age for members of the reserve components to collect retirement pay
    Having transitioned to an operational force, the National Guard of 
the United States is spending more time on active duty as it shares 
responsibility for the current wars.
    More than 60 years ago, the Congress of the United States 
established the age limit for receipt of retired pay by Reserve 
component members. That law, most recently amended in the 2008 National 
Defense Authorization Act (NDAA), states that a retired Reserve 
component member can begin to draw military retired pay upon reaching 
60 years of age regardless of number of years served. A National Guard 
member who enlists after high school at age 18 and retires after 20 
years of service at age 48 must wait 22 years before drawing a 
retirement check.
                             retroactivity
    Led by the efforts of Senator Saxby Chambliss, the NDAA for Fiscal 
Year 2008 reduced the 60 year eligibility age for retired members of 
the Ready Reserve to collect retirement pay 3 months for each aggregate 
of 90 days per fiscal year of active duty performed in Title 10 status 
in support of a contingency operation or in Title 32 status in 
responding to a national emergency. Unfortunately, these historic 
provisions applied only to service after January 28, 2008, the date of 
enactment of the 2008 NDAA. Making these changes fully retroactive to 
September 11 is the number one benefit issue in the Guard and Reserve.
    Since September 11, 2001 members of the Reserve component have 
continued to serve as an ``operational'' force with their active 
counterparts in Iraq, Afghanistan, and other dangerous locations around 
the globe. If active duty service of the Reserve components in wartime 
and national emergencies after January 28, 2008 is now recognized in 
reducing the age to collect military retirement pay, it is inequitable 
to not credit retroactively all otherwise qualifying service performed 
after September 11, 2001. Those members currently deployed who fought 
in OIF/OEF before January 28, 2008 know painfully that their earlier 
service is not truly respected. Our members who so bravely risked their 
lives in service to our country deserve that respect.
    The Congressional Budget Office last year estimated the cost of a 
bill to provide retroactivity be 1.353 billion over 10 years. NGAUS 
understands that Reserve retirement is considered mandatory spending 
which would require passage of a retroactivity bill to have an offset 
commensurate with its estimated cost.
    In the event the Senate fields a bill this session that would 
establish the subject retroactivity, NGAUS urges Congress to please 
search for an offset to fund this necessary legislation, or in the 
event a War Supplemental Bill should be introduced this session, to 
fund such a bill as an emergency spending measure.
   eliminating the fiscal year requirement for 90 days of qualifying 
                                service
    The NDAA for Fiscal Year 2008 requires the aforementioned 90 days 
of qualifying service to occur within a single fiscal year thereby 
unfairly not crediting otherwise qualifying service spread over 2 
fiscal years.
    For example, if one served 90 days in OIF from September 1, 2008 
through November 29, 2008, that service would not be credited in 
reducing the retirement eligibility age. However, if the person served 
90 days in OIF from October 1, 2008 through December 29, 2008, that 
service would be fully credited. This distinction unfairly penalizes 
those who serve bravely with orders spanning 2 fiscal years.
    NGAUS urges Congress to correct this inequity by fully crediting 
each aggregate of 90 days of qualifying service irrespective of the 
fiscal year in which it is served.
Recommendation:
    The National Guard Association of the United States recommends that 
the Congress of the United States support legislation to make the 
Reserve retirement law changes in the NDAA for Fiscal Year 2008 
retroactive to September 11 and to eliminate the fiscal year 
requirement for the 90 days of qualifying service to reduce the 
eligibility age.
    space available travel priority on parity with the active force
    A popular misconception on the Hill holds that Space Available 
(Space A) aircraft travel is governed exclusively by DOD Joint Travel 
Regulations (JTR). Although the JTRs establish the priority categories, 
Congress does intervene with statutory corrections from time to time to 
redirect the Secretary of Defense to reestablish equitable travel 
priorities. Attached to this written testimony is a copy of 110 U.S.C. 
Section 2641b which did just that relative to travel to receive 
specialty care.
    Another statutory change in Space Priorities is in order to bring 
members of the National Guard and Reserve and their dependents on level 
Space A priority with the Active Forces and their dependents. DOD would 
still establish priority categories in the JTR but whatever priority 
category assigned to the Active Forces on leave and their dependents 
would by law apply to the National Guard and Reserve members and their 
dependents.
    The National Guard has established itself as an indispensable 
operational force in defending our country in a most cost effective 
manner. Serving shoulder to shoulder with the Active component 
worldwide, members of the National Guard as citizen soldiers remain 
ready to uproot from their families and civilian lives to serve their 
governor domestically or their President in distant parts of the globe 
as duty calls and to return to the same communities when their missions 
are accomplished.
    In recognition of this service, Congress has worked hard since 
September 11, 2010 to establish Federal legislation to close the 
benefit gap that exists for our deserving members and their families. 
Expanding space-available travel for our members and gray area retirees 
would be a significant step in that direction. It appears that the 
bills would also be budget neutral.
    S. 542 introduced by Senator Mark Begich would provide space-
available travel on defense department aircraft for members of the 
Reserve components on the same basis as active members of the Armed 
Forces; retired members of the Reserve component eligible to receive 
retirement pay but for age on the same basis as retired members of the 
Armed Forces entitled to receive retirement pay; widows of retired 
members entitled or eligible to receive retirement pay; and the 
accompanying dependents of these members, retired members or widows. 
This legislation is likely budget neutral.
Recommendation:
    Please support the passage of S. 542.
             extend tamp coverage with tricare prime remote
    Post-deployment care for members under the TAMP and their families 
must be for a period equal to the period of deployment but not less 
than 6 months. The TAMP program allows members to obtain at government 
expense up to 6 months of TRICARE coverage that is similar, but not 
identical, to the TRICARE Prime coverage they had been receiving on 
active duty.
    Effective TAMP coverage is a medical readiness issue for the 
overwhelming majority of our returning members who are subject to 
redeployment and must maintain their medical and dental readiness. 
Unfortunately, many are slipping through the cracks post deployment 
with undiagnosed medical conditions, particularly behavioral 
conditions, which may not be reported by the returning members when 
they self-assess their medical condition on the PDHA administered at 
the demobilization site. Unreported conditions cannot be treated. As 
these conditions become known over time, a reasonable period is needed 
for proper treatment. The current 6 month TAMP period is proving to be 
inadequate either because of other demands on the returning members' 
time or the late disclosure of a service connected injury.
    The coverage available under TAMP does not include access to the 
provider network under TRICARE Prime Remote, the rural active duty 
coverage available to family beneficiaries while the military sponsor 
is deployed. This breaks provider continuity for rural beneficiaries 
switching to TAMP post deployment who had been treating under the 
TRICARE Prime Remote program while the military sponsor was deployed. 
This requires many of our rural families who had been using TRICARE 
Prime Remote during the deployment to search for a new provider and 
hopefully find one. The TAMP program needs adjusting to expand its 
provider network and to specifically allow rural beneficiaries to have 
access to the same TRICARE Prime Remote providers they had been using.
Recommendation:
    It is the recommendation of the National Guard Association of the 
United States that the Congress of the United States support funding 
and authority for:

        <bullet> Extending post-deployment TAMP coverage for a period 
        equal to the period of deployment but not less than 6 months.
        <bullet> To include access to the TRICARE Prime Remote provider 
        network as part of the TAMP coverage benefit.
        <bullet> To expand the TRICARE provider network.
                               conclusion
    In conclusion, we at NGAUS hope that we have both reinforced and 
amplified this subcommittee's understanding of personnel needs of the 
National Guard. Thank you again for the opportunity to submit testimony 
to this subcommittee and for all that you do for our Nation's 
servicemembers.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Webb. Having just gone through this on the last 
hearing, I think we'll start from your right, and my left, and 
move this way. If you could summarize your statements in 5 
minutes, the full statements will be entered into the record as 
read.
    Mr. Barnes welcome.

     STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, USN (RET.)

    Mr. Barnes. Thank you, Mr. Chairman.
    Members of the subcommittee, thank you for the opportunity 
to appear before you today.
    My name is Joe Barnes, and I have the privilege of serving 
as FRA's national executive director and also as cochair of 
TMC. I'll be addressing several priority personnel issues. My 
colleagues will do likewise in the areas of family and survivor 
issues, healthcare, and Guard and Reserve issues.
    Military service is unlike any other career or occupation. 
Associated with this is ensuring adequate pay and benefits for 
Active and Reserve personnel, and their families and survivors, 
and fulfilling commitments to provide healthcare and other 
benefits for career personnel after retirement.
    Thanks to the strong support from this distinguished 
subcommittee, there have been significant pay and benefits 
improvements enacted since 2000.
    The Coalition appreciates the exemption of military 
personnel from the Federal pay freeze and strongly supports the 
administration's proposed 1.6 percent 2012 Active Duty pay 
adjustment, which is based on the employment cost index data 
used in preparing the budget request.
    Pay is a major concern for military personnel. If approved, 
this would be the second smallest pay increase in nearly 50 
years, behind the 1.4 percent pay increase this year.
    Adequate end strengths are essential to maintaining 
readiness, prosecuting war efforts, and supporting other 
operations throughout the world, including the recent Libya 
operations and disaster relief in Japan. End-strength levels 
are also related to sufficient dwell time between deployments, 
and debilitating stress on repeatedly deployed servicemembers 
and their families. An article in this week's Navy Times cites 
stresses on Navy personnel and references longer deployments, 
shorter dwell times, and a 15 percent increase in underway days 
over the past decade, with 10 percent fewer ships.
    There are other troubling indicators of the impact of 
stress on personnel and their families after 10 years of war 
and other demanding operational requirements. These include 
increased drug usage, alarming suicide rates, and divorces.
    The Coalition strongly supports the military resale system 
to ensure access to commissaries and exchanges for all 
beneficiaries and provide important support for Morale, 
Welfare, and Recreation (MWR) programs. The pending 
implementation of the Tax Increase Prevention and 
Reconciliation Act will require a 3-percent withholding on 
payments to vendors, and likely result in higher costs being 
passed on to beneficiaries, and reduced MWR program support. 
Accordingly, TMC urges an exemption to the law for the military 
resale system.
    The Coalition supports legislation sponsored by Senator 
Mark Begich that would authorize shipment of a second private-
owned vehicle to Alaska, Hawaii, and Guam, and increase certain 
permanent change-of-station mileage reimbursement rates.
    Finally, the Coalition supports authorization of full 
concurrent receipt of military retired pay and disability 
compensation for all disabled retirees. This includes phasing 
out the disability offset for all Chapter 61 retirees, as 
previously endorsed by the President and this subcommittee. We 
also urge support for Senator Reid's legislation on this issue.
    Thank you again for the opportunity to present our views on 
these issues.
    [The prepared statement of Chief Barnes follows:]
          Prepared Statement by The Fleet Reserve Association
                     the fleet reserve association
    The Fleet Reserve Association (FRA) is a leading advocate on 
Capitol Hill for enlisted active duty, Reserve, retired and veterans of 
the Navy, Marine Corps, and Coast Guard. It is Congressionally 
Chartered, recognized by the Department of Veterans' Affairs (VA) as an 
accrediting Veteran Service Organization (VSO) for claim representation 
and entrusted to serve all veterans who seek its help. In 2007, FRA was 
selected for full membership on the National Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. The Association also sponsors a National 
Americanism Essay Program and other recognition and relief programs. In 
addition, the newly established FRA Education Foundation oversees the 
Association's scholarship program that presented awards totaling nearly 
$120,000 to deserving students last year.
    The Association is also a founding member of The Military Coalition 
(TMC), a 33-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA's motto is: ``Loyalty, Protection, and Service.''
             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any Federal grant or contract during the 
current fiscal year or either of the 2 previous fiscal years.
                                overview
    The Fleet Reserve Association (FRA) is an active participant and 
leading organization in TMC and strongly supports the extensive 
recommendations addressed in the TMC testimony prepared for this 
hearing. The intent of this statement is to address issues of 
particular importance to FRA's membership and the Sea Services enlisted 
communities.
                              introduction
    Mr. Chairman, the FRA salutes you, members of the subcommittee, and 
your staff for the strong and unwavering support of programs essential 
to Active Duty, Reserve component, and retired members of the uniformed 
services, their families, and survivors. The subcommittee's work has 
greatly enhanced care and support for our wounded warriors, improved 
military pay, eliminated out-of-pocket housing expenses, improved 
health care, and enhanced other personnel, retirement and survivor 
programs. This support is critical in maintaining readiness and is 
invaluable to our Armed Forces engaged throughout the world fighting 
the global War on Terror, supporting the NATO effort in Libya, 
assisting Japan with recovery efforts, sustaining other operational 
requirements and fulfilling commitments to those who've served in the 
past.
    A huge budget deficit, the reduction of troops in Iraq and a 
planned drawdown in Afghanistan increases pressure to slash the defense 
budget. But as the increased hostility on the Korean peninsula last 
November and the recent political instability in the Middle East shows, 
there are many potential conflicts around the world that requires the 
military to be prepared not only in terms of new weapons systems but 
also with adequate personnel strength that is well trained and not 
stressed from continued deployments.
                                tricare
    Ensuring adequate funding the Military Health System (MHS) and VA 
health care is FRA's top legislative priority and important to every 
segment of our membership, Auxiliary and widows. Our members appreciate 
Chairman Webb's comments that the TRICARE fee increase proposal 
``violates a moral contract that the government has with those who 
served in the military.'' The importance of health care is reflected in 
responses to the Association's 2011 online survey completed in 
February, which revealed that over 90 percent of all Active Duty, 
Reserve, retired, and veteran respondents cited health care access as a 
critically important quality-of-life benefit associated with their 
military service.
    Higher health care costs are not unique to the military, and FRA 
appreciates the subcommittee's opposition to past proposals to 
drastically increase TRICARE fees and pharmacy co-pays. Our membership 
believes there are management efficiencies and cost saving initiatives 
that can significantly offset higher costs--something first referenced 
in FRA's 2006 testimony on these issues before this distinguished 
subcommittee. An example is the expanded use of the more economical 
pharmacy home delivery option for prescriptions, which saved the 
department over $30 million in 2010.
    FRA also notes recommendations in recent Government Accountability 
Office (GAO) testimony before the House Committee on Oversight and 
Government Reform which identified Federal programs, agencies, offices 
and initiatives that have duplicative goals or activities. Number two 
on a list of 81 areas for consideration is realigning DOD's military 
medical command structures and consolidating common functions to 
increase efficiency which would result in projected savings of from 
``$281 million to $460 million'' annually. In addition, GAO cites 
opportunities for DOD and the Department of Veterans' Affairs (VA) to 
jointly modernize their respective electronic health record systems, 
and also control drug costs by increasing joint contracting.
    Identifying a permanent solution to pending cuts in Medicare 
physician reimbursement rates is integral to ensuring access to care 
for all beneficiaries seeking care outside the MHS or under TRICARE for 
Life. Congress has repeatedly punted on this matter and the latest 
extension preventing cumulative reimbursement rate cuts now totaling 
29.5 percent expires on December 31, 2011. The Association supports a 
further 2-year extension included in the administration's 2012 budget, 
however, a permanent fix is sorely needed.
                       health care fees proposal
    Regarding the administration's 2012 health care fees proposal, the 
Association believes first and foremost that military service is unlike 
any other civilian career or occupation. Associated with this reality 
and maintaining readiness, are commitments to provide health care and 
other benefits for career personnel after their service careers. As 
stated in the Senate testimony referenced above, ``Providing and 
funding health care benefits for all beneficiaries is part of the cost 
of defending our Nation.'' It's also important to remember that only 
about 1 percent of the population is currently serving in the uniformed 
services to defend our freedoms and prosecute the continuing war 
efforts.
    The Department of Defense's lax management of health care fees 
since TRICARE was established in 1995 led to drastic fee hike proposals 
from 2006 to 2008 including a TRICARE Standard enrollment fee which 
would not enhance access to care for beneficiaries in that program.
    Bipartisan legislation was subsequently introduced in successive 
Congresses that would shift oversight responsibilities from DOD to 
Congress (H.R. 1092 sponsored by Reps. Walter Jones and Dan Boren was 
recently introduced in the 112th Congress), and a Senate bill in the 
110th Congress (S.604 sponsored by Senators Lautenberg and Hagel). If 
enacted, the Senate bill would have prohibited health care fee 
adjustments from exceeding the annual Consumer Price Index (CPI), which 
determines military retired pay adjustments and other Federal benefits 
pegged to inflation. FRA supports (supported) these and related bills 
in the current and previous Congresses.
    Compared to past proposals, the 2012 TRICARE fee changes are more 
reasonable--however, the 2012 adjustments characterized by DOD as 
``modest'' are only part of the plan and the Association is very 
concerned about the yet-to-determined annual adjustment index for 
TRICARE Prime fees in 2013 and beyond.
    FRA supports other aspects of the proposal including the 
elimination of co-pays for generic drugs dispensed via TRICARE's Home 
Delivery pharmacy program to encourage expanded use of this program--
and survivors and medically retired personnel are not impacted by the 
proposal. There are also no active duty fee increases, no changes to 
TRICARE Standard--and something especially important to Medicare 
eligible retirees--no additional TRICARE for Life fees.
                         health care inflation
    The Bureau of Labor Statistics' Consumer Price Index (CPI) is the 
basis for annual retired pay adjustments and absent a baseline 
statutory measure for determining health care costs, this index is 
integral to examining proposals to adjust TRICARE Prime enrollment and 
other health care related fees.
    DOD cites a 6.2 percent assumption with regard to adjustments for 
2013 and beyond while acknowledging a number of health care inflation 
indexes. FRA's research found that 1-year Standard & Poor's (S&P) 
Healthcare Economic Indices through November 2010 ranged from 2.71 
percent (S&P Healthcare Hospital Medicare Index) to 6.27 percent (S&P 
Healthcare Economic Composite Index), to 9.04 percent (S&P Healthcare 
Economic Commercial Index). A January 20, 2011 press release on this 
data states that ``Average per capita cost of healthcare services 
covered by commercial insurance and Medicare programs rose 6.27 
(percent),'' which is perhaps the benchmark DOD actuaries used in 
conjunction with projected multi-year savings associated with annual 
health care fee adjustments for military retirees.
              usfhp and community hospitals reimbursements
    The plan also would require new Uniformed Services Family Health 
Plan (USFHP) beneficiaries to enroll in Medicare Part B and shift to 
Medicare as primary provider at age 65--a change that would impact 
future enrollees to this highly regarded program which serves 
approximately 115,000 beneficiaries in 6 areas throughout the United 
States.
    Although the FRA does not have expertise on the proposed adoption 
of Medicare payment rules at over 400 Sole Community Hospitals over 4 
years, we understand that perhaps 20 of the facilities are near 
military bases and request consideration and/or analysis of the impact 
of these changes with regard to ensuring future access to care for 
TRICARE beneficiaries at these hospitals.
     continued attention to improved service and cost efficiencies
    FRA continues its strong advocacy regarding the need to improve 
service, streamline operations and further identify and implement cost 
saving measures within DOD, all of which are essential to maintaining 
readiness and fulfilling commitments made to all beneficiaries. The 
Association notes the elimination of 780 contract positions in 
conjunction with streamlining TRICARE Management Activity functions 
along with increasing inter-service cooperation and co-locating medical 
headquarters operations.
                          wounded warrior care
    FRA appreciates the extraordinary efforts by this subcommittee to 
help our wounded warriors. Last year this subcommittee authorized a 
monthly stipend under the DOD family caregiver program for 
catastrophically injured or ill wounded warriors that is equal to the 
caregiver stipend provided by the Department of Veterans' Affairs (VA). 
Unfortunately, this program of which the Veterans' Affairs Committees 
have jurisdiction has yet to be implemented.
    A recent Navy Times survey on wounded warrior care (November 29, 
2010) indicates that 77 percent of caregivers have no life of their 
own; 72 percent feel isolated; and 63 percent suffer from depression. 
The new program will help many caregivers, however, the enactment and 
implementation of the legislation is only the first step and effective 
oversight and sustained funding are also critical to ensuring future 
support for these caregivers.
    FRA supports additional changes detailed in the full TMC statement 
which include establishing a permanent independent office for the DOD/
VA Interagency program with expanded authority to include oversight of 
all components of achieving a true seamless transition; authorizing 
active duty TRICARE benefits, regardless of accessibility of VA care, 
for 3 years after medical retirement to help ease transition from DOD 
to VA; and extending and making permanent the charter of the ``Special 
Oversight Committee'' to ensure improved and enduring coordination with 
DOD and VA initiatives to help wounded warriors.
                                  des
    In response to the Dole/Shalala Commission Report a pilot program 
was created (NDAA for Fiscal Year 2008--Public Law 110-181) known as 
the Disability Evaluation System (DES). The pilot provides a single 
disability exam conducted to VA standards that will be used by both VA 
and DOD and a single disability rating by VA that is binding upon both 
Departments. The program, now called the Integrated Disability 
Evaluation System (IDES) recently became permanent and is being 
implemented at military medical facilities. This is a common-sense 
approach that FRA believes will reduce bureaucratic red-tape and help 
streamline the process throughout the entire disability rating system. 
Despite jurisdictional concerns, the Association urges the subcommittee 
to provide oversight as the IDES is implemented. According to a recent 
GAO report the new system takes 10 months to traverse as compared to 
the current system that on average takes about 18 months.
    Achieving an effective delivery system between DOD and VA to 
guarantee seamless transition and quality services for wounded 
personnel, particularly those suffering from Post Traumatic Stress 
(PTS) and Traumatic Brain Injuries (TBI) is very important to our 
membership. DOD should also make every effort to de-stigmatize mental 
health conditions that should include outreach, counseling, and mental 
health assessment for all servicemembers returning from the combat 
zone.
                             suicide rates
    FRA is deeply concerned about military suicide rates. Active duty 
suicides have been reduced or at least leveled off, but suicides for 
non-active duty Reserve component are increasing.
    For example, the Marine Corps ended calendar year 2010 with 
suicides at a 3-year low. The Service reported 37 confirmed or 
suspected suicides in 2010 as compared to 52 in 2009, and 173 marines 
attempted suicide in 2010, which is 9 more than the previous year. The 
Navy reports a decline from 46 per 100,000 personnel in 2009 to 38 in 
2010. Despite this, attempted suicides have increased since 2006.
    Intervention has been helpful for active duty personnel but 
suicides for the Reserve component (RC) not on active duty are 
increasing. Regarding these, (all Services and Guard), 145 suicides 
were reported for 2010 which reflects a significant increase from 80 
suicides the previous year. A March 30, 2011 Fox News segment indicated 
that Guard and Reserve suicides are increasing and that 85 percent of 
those committing suicide in the Guard and Reserve had jobs. A common 
theme also appears to be marriage problems (see USFSPA section below 
for related information.) FRA supports legislation (H.R. 208) sponsored 
by Rep. Thomas Rooney that authorizes reimbursement for mental health 
counseling under TRICARE.
                             defense budget
    FRA supports a defense budget of at least 5 percent of GDP that 
will adequately fund both people and weapons programs. The current 
level of defense spending (4.7 percent including supplemental spending 
in fiscal year 2010) is significantly lower than past wartime periods 
as a percentage of GDP and the Association is concerned that the 
administration's 5-year spending plan of 1 percent above inflation may 
not be adequate in maintaining readiness and associated support for 
both people programs and weapon systems.
                            active duty pay
    FRA appreciates that the military has been excluded from the pay 
freeze for Federal employees announced by President Obama on November 
29, 2010 and supports the proposed 1.6 percent pay increase that equals 
the 2010 Employment Cost Index (ECI). The United States however, is in 
the 10th year of war and there is no more compelling issue for our 
current warriors than adequate pay.
    A total of 92 percent of active duty personnel who responded to 
FRA's recent quality of life issues survey consider pay as ``very 
important,'' which was the highest rating. The Association appreciates 
the strong support from this distinguished subcommittee in reducing the 
13.5 percent pay gap to 2.4 percent since 1999 and reiterates the fact 
that the ECI lags 15 months behind the effect date of pay adjustments 
due to budget preparation and associated congressional action on annual 
authorizing and appropriations legislation. The enacted fiscal year 
2011 1.4 percent pay increase and proposed fiscal year 2012 adjustment 
are equal the ECI, are the smallest pay increases in recent memory, and 
do not further reduce the pay gap.
    The Association recommends that this distinguished subcommittee 
authorize an active duty pay increase at least equal to the ECI so as 
not to increase the pay gap between civilian and military pay.
                             end strengths
    Sufficient military end strengths are vital for success in 
Afghanistan and to sustaining other operations vital to our national 
security. FRA is concerned about calls for reducing end strength in the 
out years to save money on the Defense budget while we're still engaged 
in war in Iraq and Afghanistan. The strain of repeated deployments 
continues and is reflected in troubling stress-related statistics that 
include alarming suicide rates, prescription drug abuse, alcohol use, 
and military divorce rates. These are also related to the adequacy of 
end strengths and the need for adequate dwell time between 
deployments--issues that have been repeatedly addressed in 
congressional oversight hearings.
                           concurrent receipt
    FRA's recent survey indicates that nearly 70 percent of military 
retirees cite concurrent receipt as ``very important.'' The Association 
supports Senate Majority Leader, Harry Reid's ``Retired Pay Restoration 
Act'' (S. 344) and Rep. Sanford Bishop's ``Disabled Veterans Tax 
Termination Act'' (H.R. 333). Both proposals would authorize 
comprehensive concurrent receipt reform, and Rep. Gus Bilirakis' 
``Retired Pay Restoration Act'' (H.R. 303) would authorize current 
receipt for retirees receiving CRDP with a disability rating of 50 
percent or less.
    The Association is disappointed that the administration failed to 
address concurrent receipt reform in its budget request as it has for 
the last 2 years, but strongly supports House Personnel Subcommittee 
Chairman Joe Wilson's bill (H.R. 186), that expands concurrent receipt 
for servicemembers who were medically retired with less than 20 years 
of service (Chapter 61 retirees) and would be phased-in over 5 years. 
This proposal mirrors the administration's proposal from the 110th 
Congress. In 2008, Congress voted to expand eligibility for Combat-
Related Special Compensation (CRSC) coverage to Chapter 61 retirees and 
the proposed legislation would, in effect, extend eligibility for 
Concurrent Retirement and Disability Pay (CRDP) to all Chapter 61 
retirees over 5 years.
                                 usfspa
    FRA again urges Congress to take a serious look at the Uniformed 
Services Former Spouses Protection Act (USFSPA) with a goal of 
addressing inequities in the law and amending language therein to 
ensure that the Federal Government is adequately protecting 
servicemembers against State courts that ignore provisions of poorly 
written law. As noted above, marriage problems may also be associated 
with suicide rates.
    The USFSPA was enacted 29 years ago, the result of congressional 
maneuvering that denied the opposition an opportunity to express its 
views in open public hearings. The last hearing, in 1999, was conducted 
by the House Veterans' Affairs Committee rather than the Armed Services 
Committee which has oversight authority for amending the law.
    Few provisions of the USFSPA protect the rights of the 
servicemember, and none are enforceable by the Department of Justice or 
DOD. If a State court violates the right of the servicemember under the 
provisions of USFSPA, the Solicitor General will make no move to 
reverse the error. Why? Because the act fails to have the enforceable 
language required for Justice or the Defense Department to react. The 
only recourse is for the servicemember to appeal to the court, which in 
many cases gives that court jurisdiction over the member. Some State 
courts also award a percentage of veterans' compensation to ex-spouses, 
a clear violation of U.S. law; yet, the Federal Government does nothing 
to stop this.
    Other provisions weigh heavily in favor of former spouses including 
divorce decrees in which the former spouse is awarded a percentage of 
the servicemember's retired pay which should be based on the member's 
pay grade at the time of the divorce--not at a higher grade that may be 
held upon retirement.
    FRA believes that the Pentagon USFSPA study recommendations strike 
a balance providing needed improvements for the former spouse and 
servicemember and are a reasonable starting point for reform.
                        reserve early retirement
    The Reserve retirement age provision in the NDAA for Fiscal Year 
2008 reduces the age requirement by 3 months for each cumulative 90-
days ordered to active duty is effective upon the enactment of the 
legislation (January 28, 2008) and NOT retroactive to October 7, 2001. 
Accordingly the Association supports ``The National Guardsmen and 
Reservists Parity for Patriots Act '' (H.R. 181) sponsored by Chairman 
Wilson, to authorize reservists mobilized since October 7, 2001, to 
receive credit in determining eligibility for receipt of early retired 
pay. Since September 11, 2001 the Reserve component has changed from a 
Strategic Reserve to an Operational Reserve and the Association urges 
the subcommittee to support this important legislation.
              retention of final full month's retired pay
    FRA urges the subcommittee to authorize the retention of the full 
final month's retired pay by the surviving spouse (or other designated 
survivor) of a military retiree for the month in which the member was 
alive for at least 24 hours. FRA strongly supports ``The Military 
Retiree Survivor Comfort Act'' (H.R. 493), introduced by Rep. Walter 
Jones.
    Current regulations require survivors of deceased Armed Forces 
retirees to return any retirement payment received in the month the 
retiree passes away or any subsequent month thereafter. Upon the demise 
of a retired servicemember in receipt of military retired pay the 
surviving spouse is to notify the department of the death. Without 
consideration of the survivor's financial status, the Defense Finance 
and Accounting Service (DFAS) then stops payment on the retirement 
account, recalculates the final payment to cover only the days in the 
month the retiree was alive, forwards a check for those days to the 
surviving spouse (beneficiary) and, if not reported in a timely manner, 
recoups any payment(s) made covering periods subsequent to the 
retiree's death.
    The measure is related to a similar Department of Veterans' Affairs 
pay policy enacted in 1996 that allows a surviving spouse to retain the 
veteran's disability and VA pension payments issued for the month of 
the veteran's death. FRA believes military retired pay should be no 
different.
                         military resale system
    FRA strongly supports adequate funding for the Defense Commissary 
Agency (DeCA) to ensure access to the commissary benefit for all 
beneficiaries. As noted by Thomas T. Gordy, President of the Armed 
Forces Marketing Council, at a recent oversight hearing by the House 
Armed Services Personnel Subcommittee, ``Since 2000, DeCA's budget has 
remained flat in real dollars, meaning they have done more with less 
for the past 11 years.'' He also reported that ``With the $1.31 billion 
DeCA received in 2010, it generated savings to military families in the 
amount of $2.69 billion.''
    The Association also strongly supports the military exchange 
systems (AAFES, NEXCOM, and MCX), and urges against revisiting the 
concept of consolidation. FRA instead urges a thorough review of the 
findings of an extensive and costly ($17 million) multi-year study 
which found that this is not a cost-effective approach to running these 
important systems.
    Our members are also concerned about the impact of the ``Tax 
Increase Prevention and Reconciliation Act'' (P.L. 109-222) on the 
Military Resale System. Withholding 3 percent on payments to vendors 
that provide products sold in exchanges and commissaries will result in 
part to higher costs being passed on to beneficiaries and reduce 
resources to support MWR programs. Accordingly, FRA asks for support to 
exempt the Military Resale System from the law which becomes effective 
on January 1, 2012.
                         fit but not deployable
    FRA appreciates the inclusion of Section 571 in the National 
Defense Authorization Act for Fiscal Year 2010 which addresses the 
discredited practice of finding a servicemember fit but nondeployable 
who is then given an administrative discharge without benefits. This 
provision requires approval by a Physical Evaluation Board (PEB) and 
requires the Secretary of Defense to make the final adjudication. The 
Association urges this subcommittee to provide continued oversight to 
ensure disabled servicemembers are adequately compensated for their 
injuries and illnesses incurred while serving our country.
                               pcs reform
    A recent Navy Times poll indicates that nearly 41 percent of 
servicemembers had more than one problem with their most recent 
permanent change of station move (PCS). FRA supports legislation 
sponsored by Sen. Mark Begich entitled ``The Servicemembers Permanent 
Change of Station Relief Act'' (S. 472) which would authorize 
reimbursement for shipping a second POV to Alaska, Hawaii, and Guam; 
and increase PCS mileage rates from 24 to 51 cents per mile.
                       travel cost reimbursement
    FRA appreciates the NDAA for Fiscal Year 2008 provision (section 
631) that permits travel reimbursement for reservist's weekend drills, 
not to exceed $300, if the commute is outside the normal commuting 
distance. The Association urges the subcommittee to make this a 
mandatory provision. This is a priority issue for many enlisted 
reservists who must travel long distances to participate in weekend 
drills without reimbursement for travel costs. Providing this travel 
reimbursement would assist with retention and recruitment of 
reservists--particularly during the current period of increased 
reliance on these personnel to sustain the war effort and other 
operational commitments.
                       flexible spending accounts
    Many military families need flexible spending accounts that are 
available to most civilian employees and to Federal civilian workers. 
The accounts allow servicemembers to invest their earnings that are 
matched dollar-for-dollar by the Federal Government up to a specific 
amount. DOD has authority to implement flexible spending accounts but 
has elected not to do so which is why FRA supports legislation (S. 387) 
sponsored by Sens. Barbara Boxer, Richard Burr, and Kristin Gillibrand, 
and legislation (H.R. 791) sponsored by Rep. Loretta Sanchez. These 
proposals would mandate that DOD set up flexible spending accounts 
within 6 months after enactment and would require the Pentagon to study 
the feasibility of flexible spending accounts for the Reserve 
component.
                               conclusion
    FRA is grateful for the opportunity to present these 
recommendations to this distinguished subcommittee.

    Senator Webb. Thank you very much, Master Chief Barnes.
    Colonel Strobridge, welcome.

 STATEMENT OF COL. STEVEN P. STROBRIDGE, USAF (RET.), DIRECTOR 
   OF GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF 
                            AMERICA

    Mr. Strobridge. Thank you very much, Mr. Chairman.
    We very much appreciate this opportunity to present our 
views. My portion of the Coalition's testimony will cover 
healthcare issues.
    Our primary concern is protection of military beneficiaries 
against dramatic budget-driven fluctuations in this vital 
element, a servicemember's career compensation package. One 
example is the Deficit Commission's proposal to reduce the 
value of TRICARE for Life by $3,000 per year for a retiree, 
$6,000 for a couple, for older and disabled beneficiaries, 
through deductible and copayment increases. That would be a 
major about-face from what Congress saw as ``earned coverage'' 
when TRICARE for Life was enacted 10 years ago. We hope the 
subcommittee would oppose inclusion of any such change in the 
budget resolution.
    We also urge the subcommittee to continue its oversight of 
wounded warrior and caregiver issues. Although we believe both 
DOD and VA are pursuing seamless transition initiatives in good 
faith, we urge joint hearings by the Armed Services and 
Veterans' Affairs Committees to track progress and any 
stumbling blocks on a wide variety of ongoing issues.
    The Coalition continues to be concerned about the adequacy 
of provider participation in TRICARE, especially for TRICARE 
Standard beneficiaries. We're grateful to the subcommittee for 
establishing statutory surveys of participation adequacy, but 
that requirement expires this year. We hope you'll renew the 
requirement and establish more specific actions to ensure 
compliance with participation standards.
    On the issue of TRICARE fees, the Coalition has a diversity 
of views, but believes strongly that the DOD proposed indexing 
methodology is inappropriate. Speaking for MOAA and the 13 
other associations that endorsed our statement, we haven't 
taken the position that TRICARE fees should never rise, but 
that Congress should establish principles in that regard to 
explicitly recognize that the bulk of what military people pay 
for their healthcare isn't paid in cash, but is paid upfront 
through decades of service and sacrifice. We're encouraged that 
the new DOD proposal does a far better job of acknowledging 
that than did those of several years ago.
    Our principal objection is to DOD's plan to index future 
TRICARE prime increases to some undetermined healthcare index 
they project to rise at 6.2 percent per year. In our view, the 
main problem is that current law leaves much of the fee-setting 
process to the Secretary's discretion. DOD went years proposing 
no changes, making beneficiaries believe there wouldn't be any. 
Then a new Secretary with a new budget situation proposed 
tripling fees, which upset beneficiaries and implied they 
hadn't earned their healthcare.
    We have statutory guidelines for setting and adjusting 
basic pay, retired pay, survivor benefits, and most other 
military compensation elements. We believe strongly that the 
law should specify several principles on military healthcare.
    First, it should acknowledge, if only as a Sense of 
Congress, that the military retirement and healthcare package 
is the primary offset for the extraordinary demands and 
sacrifices inherent in a multidecades military career.
    Second, it should acknowledge that those decades of service 
and sacrifice constitute a very large prepaid premium for their 
healthcare and retirement, over and above what they pay in 
cash. Finally, it should explicitly acknowledge that 
extraordinary upfront premium in the adjustment process by 
limiting the percentage growth in TRICARE fees in any year to 
the percentage growth in military retired pay.
    In the meantime, MOAA and TMC pledge our support to work 
with DOD and the subcommittee to find other ways to hold down 
military healthcare cost growth. We believe much more can be 
done to encourage voluntary use of the mail-order pharmacy 
system, reduce costs of chronic conditions, reduce systemic 
duplications, and cut contract and procurement costs, to name a 
few.
    Thank you. That concludes my portion of the statement.
    [The prepared statement of Mr. Strobridge follows:]
              Prepared Statement by The Military Coalition
    Mr. Chairman and distinguished members of the subcommittee, on 
behalf of The Military Coalition (TMC), a consortium of nationally 
prominent uniformed services and veterans' organizations, we are 
grateful to the committee for this opportunity to express our views 
concerning issues affecting the uniformed services community. This 
testimony provides the collective views of the following military and 
veterans' organizations, which represent approximately 5.5 million 
current and former members of the 7 uniformed services, plus their 
families and survivors:

        <bullet> Air Force Association
        <bullet> Air Force Sergeants Association
        <bullet> Air Force Women Officers Associated
        <bullet> AMVETS (American Veterans)
        <bullet> Army Aviation Association of America
        <bullet> Association of Military Surgeons of the United States
        <bullet> Association of the U.S. Army
        <bullet> Association of the U.S. Navy
        <bullet> Chief Warrant Officer and Warrant Officer Association, 
        U.S. Coast Guard
        <bullet> Commissioned Officers Association of the U.S. Public 
        Health Service, Inc.
        <bullet> Enlisted Association of the National Guard of the 
        United States
        <bullet> Fleet Reserve Association
        <bullet> Gold Star Wives of America, Inc.
        <bullet> Iraq and Afghanistan Veterans of America
        <bullet> Jewish War Veterans of the United States of America
        <bullet> Marine Corps League
        <bullet> Marine Corps Reserve Association
        <bullet> Military Chaplains Association of the United States of 
        America
        <bullet> Military Officers Association of America
        <bullet> Military Order of the Purple Heart
        <bullet> National Association for Uniformed Services
        <bullet> National Guard Association of the United States
        <bullet> National Military Family Association
        <bullet> Naval Enlisted Reserve Association
        <bullet> Noncommissioned Officers Association
        <bullet> Reserve Enlisted Association
        <bullet> Reserve Officers Association
        <bullet> Society of Medical Consultants to the Armed Forces
        <bullet> The Retired Enlisted Association
        <bullet> U.S. Army Warrant Officers Association
        <bullet> U.S. Coast Guard Chief Petty Officers Association
        <bullet> Vietnam Veterans of America

    The Military Coalition, Inc. does not receive any grants or 
contracts from the Federal Government.
                           executive summary
Deficit Reduction Proposals
    Cost-of-Living Adjustments (COLAs)
    A top Coalition priority is to guard against any discriminatory 
treatment of retired members of the uniformed services compared to 
other Federal COLA-eligibles and to ensure continued fulfillment of 
congressional COLA intent ``to provide every military retired member 
the same purchasing power of the retired pay to which he was entitled 
at the time of retirement [and ensure it is] not, at any time in the 
future . . . eroded by subsequent increases in consumer prices.''
    Military Pay
    The Coalition urges against short-sighted proposals to freeze or 
cap uniformed services pay raises below private sector pay growth, and 
recommends a 2012 raise of at least 1.6 percent to match Employment 
Cost Index (ECI) growth.
    Health Care Fees
    Coalition member associations hold a diversity of views concerning 
the Department of Defense (DOD)-proposed TRICARE fee adjustments for 
fiscal year 2012.
    However, the Coalition strongly objects to the DOD-proposed 
adjustment methodology that would tie TRICARE Prime fee increases for 
nondisabled military beneficiaries aged 38 to 64 in future years to an 
as-yet-unspecified measure of health cost growth for the broader 
population that DOD actuaries assume would grow at an average of 6.2 
percent per year.
    The Coalition believes that military beneficiaries from whom 
America has demanded decades of extraordinary service and sacrifice 
have earned coverage that is the best America has to offer, consistent 
with their extraordinarily high pre-paid premiums of decades of service 
and sacrifice.
    Congress needs to protect military beneficiaries against dramatic 
budget-driven fluctuations in this vital element of servicemembers' 
career compensation incentive package.
    Reducing the value of TRICARE for Life by $3,000 per year ($6,000 
for a couple) as recommended by the Deficit Commission would be 
inconsistent with military beneficiaries' sacrifices and would 
undermine Congress' intent when it authorized TFL in 2001--less than 10 
years ago.
    Reducing military retirement benefits would be particularly ill-
advised when an overstressed force already is at increasing retention 
risk despite the current downturn of the economy and current recruiting 
successes.
    TMC believes:

        <bullet> All retired servicemembers earned equal health care 
        coverage by virtue of their service.
        <bullet> Means-testing has no place in setting military health 
        fees.
        <bullet> Congress should direct DOD to pursue any and all 
        options to constrain the growth of health care spending in ways 
        that do not disadvantage beneficiaries.
        <bullet> TRICARE Prime enrollment fees for nondisabled retirees 
        under 65 should not be adjusted based on health cost increases 
        for the broader population, as proposed by DOD.
        <bullet> It should be Congress' responsibility, not the Defense 
        Secretary's, to establish appropriate and stable parameters 
        governing crucial career retention programs such as the 
        healthcare package for currently serving and retired military 
        members and their families and survivors.
    Military Retirement
    The Coalition strongly opposes initiatives that would 
``civilianize'' the military retirement system and inadequately 
recognize the unique and extraordinary demands and sacrifices inherent 
in a military career.
    Reducing incentives for serving arduous careers of 20 years or more 
can only undermine long-term retention and readiness, with particularly 
adverse effects in times of war. Simultaneously increasing compensation 
for those who leave short of fulfilling a career would only compound 
those adverse effects.
    DOD Schools
    The Coalition opposes closing or curtailing DOD dependent schools 
based primarily on budget concerns. The need for the schools should 
continue to be evaluated based on the capacity of local school 
districts to provide quality educational opportunities for military 
students.
    Consolidation of DOD Retail Operations
    The Coalition supports continuing efforts to improve commissary and 
exchange program efficiency, but objects to initiatives that reduce 
benefit value for patrons and the associated retention value for the 
uniformed services.
Wounded Warrior Care
    Institutional Oversight
    The Coalition urges joint hearings by the Armed Services and 
Veterans Affairs Committees to assess the effectiveness of current 
seamless transition oversight efforts and systems and to solicit views 
and recommendations from DOD, VA, the military Services, and 
nongovernmental organizations concerning how joint communication, 
cooperation, and oversight could be improved. In addition, the hearings 
should focus on implementation progress concerning:

        <bullet> Single separation physical;
        <bullet> Single disability evaluation system;
        <bullet> Bidirectional electronic medical and personnel records 
        data transfer;
        <bullet> Medical centers of excellence operations and research 
        projects;
        <bullet> Coordination of care and treatment, including DOD-VA 
        Federal/recovery care coordinator clinical and non-clinical 
        services and case management programs; and
        <bullet> Consolidated government agency support services, 
        programs, and benefits.
    Continuity of Health Care
    The Coalition recommends:

        <bullet> Authorizing service-disabled members and their 
        families to receive active-duty-level TRICARE benefits, 
        independent of availability of VA care for 3 years after 
        medical retirement to help ease their transition from DOD to 
        VA.
        <bullet> Ensuring Guard and Reserve members have adequate 
        access and treatment in the DOD and VA health systems for Post 
        Traumatic Stress Disorder and Traumatic Brain Injury following 
        separation from active duty service in a theatre of operations.
    Caregiver/Family Support Services
    The Coalition recommends:

        <bullet> Providing enhanced training of DOD and VA medical and 
        support staff on the vital importance of involving and 
        informing designated caregivers in treatment of and 
        communication with severely ill and injured personnel.
        <bullet> Providing health and respite care for non-dependent 
        caregivers (e.g., parents and siblings) who have had to 
        sacrifice their own employment and health coverage while the 
        injured member remains on active duty, commensurate with what 
        the VA authorizes for medically retired or separated members' 
        caregivers.
        <bullet> Authorizing up to 1 year of continued residence in on-
        base housing facilities for medically retired, severely 
        wounded, ill, and injured servicemembers and their families.
Active Forces and Their Families
    End Strength
    The Coalition urges the subcommittee to:

        <bullet> Sustain or increase end strength as needed to sustain 
        the war and other operational requirements and enhance dwell 
        time for servicemembers and families; and
        <bullet> Sustain adequate recruiting and retention resources to 
        enable the uniformed services to achieve required optimum-
        quality personnel strength.
    Family Readiness and Support
    The Coalition recommends that the subcommittee:

        <bullet> Encourage DOD to assess the effectiveness of programs 
        and support mechanisms designed to assist military members and 
        their families with deployment readiness, responsiveness, and 
        reintegration.
        <bullet> Fully fund effective programs and ensure their costs 
        are included in the annual budget process.
        <bullet> Expand child care availability and funding to meet the 
        needs of the total force uniformed services community.
        <bullet> Monitor and continue to expand family access to mental 
        health counseling.
        <bullet> Promote expanded opportunities for military spouses to 
        further educational and career goals, such as the My Career 
        Advancement Account (MyCAA) program.
        <bullet> Promote implementation of flexible spending accounts 
        to enable military families to pay health care and child care 
        expenses with pre-tax dollars.
    Permanent Change-of-Station (PCS) Allowances
    The Coalition recommends the subcommittee:

        <bullet> Authorize shipment of a second privately-owned vehicle 
        at government expense to Alaska, Hawaii, and U.S. territories.
        <bullet> Authorize reimbursement of house-hunting expenses, as 
        is done for Federal civilians.
        <bullet> Authorize payment of a dislocation allowance to 
        servicemembers making their final change of station upon 
        retirement from the uniformed services.
        <bullet> Increase PCS mileage rates to more accurately reflect 
        actual transportation costs.
        <bullet> Further modify the PCS weight allowance tables for 
        personnel in pay grades E-7, E-8, and E-9 to coincide with 
        allowances for officers in grades O-4, O-5, and O-6 
        respectively. The allowance for a senior E-9 enlisted leader 
        without dependents remains the same as for a single O-3, 
        despite the normal accumulation of household goods over the 
        course of a career.
National Guard and Reserve
    Operational Reserve Retention and Retirement Reform
    TMC recommends:

        <bullet> Authorizing early retirement credit to all Guard and 
        Reserve members who have served active duty tours of at least 
        90 days, retroactive to September 11, 2001.
        <bullet> Eliminating the fiscal year limitation which 
        effectively denies full early retirement credit for active duty 
        tours that span the October 1 start date of a fiscal year.
        <bullet> Modernizing the Reserve retirement system to 
        incentivize continued service beyond 20 years and provide fair 
        recognition of increased requirements for active duty service.
    Health Care Access Options
    The Coalition recommends:

        <bullet> Requiring DOD to justify the seven-fold increase in 
        TRICARE rates for individual TRR premiums for reservists who 
        immediately enroll in TRR upon retirement from the Selected 
        Reserve and have TRS coverage until separation.
        <bullet> Authorizing TRICARE for early Reserve retirees who are 
        in receipt of retired pay prior to age 60
        <bullet> Permitting employers to pay TRS premiums for 
        reservist-employees as a bottom-line incentive for hiring and 
        retaining them.
        <bullet> Authorizing an option for the government to subsidize 
        continuation of a civilian employer's family coverage during 
        periods of activation, similar to FEHBP coverage for activated 
        Guard-Reserve employees of Federal agencies.
        <bullet> Extending corrective dental care following return from 
        a call-up to ensure G-R members meet dental readiness 
        standards.
        <bullet> Allowing eligibility in Continued Health Care Benefits 
        Program (CHCBP) for Selected reservists who are voluntarily 
        separating and subject to disenrollment from TRS.
        <bullet> Allowing beneficiaries of the FEHBP who are selected 
        reservists the option of participating in TRICARE Reserve 
        Select.
    Yellow Ribbon Reintegration Program
    The Military Coalition urges the subcommittee to hold oversight 
hearings and direct additional improvements in coordination, 
collaboration, and consistency of Yellow Ribbon services between 
States.
    Reserve Compensation System
    TMC recommends:

        <bullet> Crediting all inactive duty training points earned 
        annually toward Reserve retirement.
        <bullet> Parity in special incentive pay for career enlisted/
        officer special aviation incentive pay, diving special duty 
        pay, and pro-pay for Reserve component medical professionals.
        <bullet> Authorizing recalculation of retirement points after 1 
        year of mobilization. A recent law change allowed certain flag 
        and general officers to recalculate retirement pay after 1 year 
        of mobilization. TMC believes this opportunity should be made 
        available to all ranks.
    Guard/Reserve GI Bill
    TMC recommends:

        <bullet> Restoring basic Reserve MGIB benefits for initially 
        joining the Selected Reserve to the historic benchmark of 47-50 
        percent of active duty benefits.
        <bullet> Integrating Reserve and active duty MGIB laws in Title 
        38.
        <bullet> Enacting academic protections for mobilized Guard and 
        Reserve students including refund guarantees and exemption of 
        Federal student loan payments during activation.
    Family Support Programs
    TMC recommends:

        <bullet> Ensuring programs are in place to meet the special 
        information and support needs of families of individual 
        augmentees or those who are geographically dispersed.
        <bullet> Funding joint programs among military and community 
        leaders to support servicemembers and families during all 
        phases of deployments.
        <bullet> Providing preventive counseling services for 
        servicemembers and families and training so they know when to 
        seek professional help related to their circumstances.
        <bullet> Authorizing and funding child care, including respite 
        care, family readiness group meetings and drill time.
        <bullet> Improving the joint family readiness program to 
        facilitate understanding and sharing of information between all 
        family members.
Health Care
    TRICARE Reimbursement Rates
    TMC urges reversal of the 30 percent cut in Medicare/TRICARE 
payments to doctors scheduled for January 2012 and a permanent fix for 
the flawed formula that mandates these recurring annual threats to 
seniors' and military beneficiaries' health care access.
    TRICARE Cost Efficiency Options
    TMC continues to believe strongly that DOD has not sufficiently 
investigated options to make TRICARE more cost-efficient without 
shifting costs to beneficiaries.
    TRICARE Prime
    The Military Coalition urges the subcommittee to:

        <bullet> Require reports from DOD and the managed care support 
        contractors on actions being taken to improve Prime patient 
        satisfaction, provide assured appointments within Prime access 
        standards, reduce delays in preauthorization and referral 
        appointments, and provide quality information to assist 
        beneficiaries in making informed decisions.
        <bullet> Require increased DOD efforts to ensure consistency 
        between the MTF and purchased care sectors in meeting Prime 
        access standards.
        <bullet> Ensure timely notification of and support for 
        beneficiaries affected by elimination of Prime service areas 
        under the new TRICARE contracts.
    TRICARE Standard
    The Coalition urges the subcommittee to:

        <bullet> Insist on immediate delivery of an adequacy threshold 
        for provider participation, below which additional action is 
        required to improve such participation.
        <bullet> Require a specific report on participation adequacy in 
        the localities where Prime Service Areas will be discontinued 
        under the new TRICARE contracts.
        <bullet> Oppose establishment of a TRICARE Standard enrollment 
        fee, since Standard does not entail any guaranteed access to 
        care.
        <bullet> Increase locator support to beneficiaries seeking 
        providers who will accept new Standard patients, particularly 
        for mental health specialties.
        <bullet> Seek legislation to eliminate the limit when TRICARE 
        Standard is second payer to other health insurance (OHI): e.g., 
        return to the policy where TRICARE pays up to the amount it 
        would have paid, had there been no OHI.
        <bullet> Bar any further increase in the TRICARE Standard 
        inpatient copay for the foreseeable future.
    TRICARE For Life
    The Coalition urges the subcommittee to:

        <bullet> Resist initiatives to establish an enrollment fee for 
        TFL, as many beneficiaries already experience difficulties 
        finding providers who will accept Medicare patients.
        <bullet> Seek ways to include TFL beneficiaries in DOD programs 
        to incentivize compliance with preventive care and healthy 
        lifestyles.
        <bullet> Resolve the discrepancy between TRICARE and Medicare 
        treatment of the shingles vaccine.
    Survivors' Coverage
    The Coalition recommends restoration of TRICARE benefits to 
previously eligible survivors whose second or subsequent marriage ends 
in death or divorce.
    Pharmacy
    The Coalition urges the subcommittee to:

        <bullet> Advance the use of the mail order option by lowering 
        or waiving copays, enhancing communication with beneficiaries, 
        and using technological advances to ease initial signup.
        <bullet> Require DOD to include alternate packaging methods for 
        pharmaceuticals to enable nursing home, assisted living, and 
        hospice care beneficiaries to utilize the pharmacy program. 
        Packaging options should additionally include beneficiaries 
        living at home who would benefit from this program because of 
        their medical condition (for example beginning stages of 
        Alzheimer's).
        <bullet> Create incentives to hold down long-term health costs 
        by eliminating copays for medications for chronic conditions, 
        such as asthma, diabetes, and hypertension or keeping copays at 
        the lowest level regardless of drug status, brand or generic.
Retiree Issues
    Concurrent Receipt
    The Coalition's continuing goal is to fully eliminate the deduction 
of VA disability compensation from earned military retired pay for all 
disabled retirees. In pursuit of that goal, the Coalition's immediate 
priorities include:

        <bullet> Phasing out the VA disability offset for all chapter 
        61 (disability) retirees, as previously endorsed by the 
        President and the subcommittee;
        <bullet> Clarifying the law to resolve technical disparities 
        that inadvertently cause underpayment of certain eligibles for 
        Combat Related Special Compensation (CRSC); and,
        <bullet> Clarifying the law to ensure a disabled retiree's CRSC 
        payment is not reduced when the retiree's VA disability rating 
        increases, until the retiree is afforded the opportunity to 
        elect between CRSC or CRDP.
    Disability Severance Pay
    The Coalition recommends:

        <bullet> Further expanding eligibility to include all combat-
        related injuries, using the same definition as CRSC; and 
        ultimately
        <bullet> Expanding eligibility to include all service-connected 
        disabilities, consistent with TMC view that there should not be 
        a distinction between the treatment of members disabled in 
        combat vice members with non-combat, service-caused 
        disabilities.
    Former Spouse Issues
    The Coalition supports legislative action to:

        <bullet> Base the award amount to the former spouse on the 
        grade and years of service of the member at time of divorce 
        (not time of retirement);
        <bullet> Prohibit the award of imputed income while on active 
        duty, which effectively forces active duty members into 
        retirement;
        <bullet> Extend 20/20/20 benefits to 20/20/15 former spouses;
        <bullet> Permit the designation of multiple Survivor Benefit 
        Plan (SBP) beneficiaries with the presumption that SBP benefits 
        must be proportionate to the allocation of retired pay;
        <bullet> Eliminate the ``10-year Rule'' for the direct payment 
        of retired pay allocations by the Defense Finance and 
        Accounting Service (DFAS);
        <bullet> Permit SBP premiums to be withheld from the former 
        spouse's share of retired pay if directed by court order;
        <bullet> Permit a former spouse to waive SBP coverage;
        <bullet> Repeal the 1-year deemed election requirement for SBP; 
        and
        <bullet> Assist DOD and Services with greater outreach and 
        expanded awareness to members and former spouses of their 
        rights, responsibilities, and benefits upon divorce.
Survivor Issues
    SBP-DIC Offset
    The Coalition recommends:

        <bullet> Repeal of the SBP-DIC offset.
        <bullet> Reinstating SBP for survivors who previously 
        transferred payments to children when the youngest child 
        attains majority, or upon termination of a remarriage.
        <bullet> Allowing SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death.
    Special Needs Trust
    The Coalition recommends authorizing payment of SBP annuities for 
disabled survivors into a Special Needs Trust.
    Final Retired Paycheck
    TMC recommends authorizing survivors of retired members to retain 
the final month's retired pay for the month in which the retiree dies, 
as VA survivors are allowed to retain a disabled veteran's final-month 
disability paycheck.
Morale, Welfare, and Recreation and Quality of Life Programs
    TMC urges the subcommittee to:

        <bullet> Seek report updates from DOD and the Services to 
        ensure delivery of needed MWR and quality of life program 
        support at gaining and losing locations affected by Base 
        Realignment and Closure (BRAC) and rebasing.
        <bullet> Direct DOD to report to Congress on all DOD and 
        Service Active and Reserve component MWR Category A, B, and C 
        Programs and Family Support/Readiness (Quality of Life [QoL] 
        Programs), including the Yellow Ribbon Program.
        <bullet> Protect recreational and alternative therapy programs 
        that integrate MWR, fitness and other quality of life programs 
        and infrastructure to facilitate warrior treatment and care and 
        to promote psychological health and welfare of troops and their 
        families.
Military Construction
    The Coalition recommends the subcommittee:

        <bullet> Support military construction projects that modernize 
        or replace the following infrastructure to meet increased 
        personnel and operational deployment requirements:

                <bullet> child development centers (CDCs) and youth 
                centers;
                <bullet> defense schools;
                <bullet> bachelor and family housing; and,
                <bullet> other traditional QoL program facilities.

        <bullet> Encourage full funding of military housing repair and 
        maintenance accounts to reduce backlogs and provide for safe, 
        well-maintained housing units.
        <bullet> Ensure that military housing privatization initiatives 
        meet expected DOD-Service outcome goals and positively impact 
        servicemember and family needs.
        <bullet> Support a Health Facilities Program that modernizes or 
        replaces Military Treatment Facilities (MTFs) and supports 
        world-class health care delivery capability and capacity for 
        all eligible beneficiaries.
        <bullet> Ensure MWR, MILCON, housing, and family support 
        construction policies and projects improve access for persons 
        with disabilities.
                                overview
    Mr. Chairman, The Military Coalition extends our thanks to you and 
the entire subcommittee for your strong support of our Active Duty, 
Guard, Reserve, retired members, and veterans of the uniformed services 
and their families and survivors. Your efforts have had a significant 
and positive impact in the lives of the entire uniformed services 
community.
    This past year was extremely arduous, with servicemembers still at 
war on two separate fronts in southwest Asia and the Nation slowly 
recovering from the recent economic crisis. Congress and the 
administration have had difficult choices to make as they attempted to 
stimulate the economy while facing record-breaking budget deficits.
    We are grateful that both the Defense Department and Congress 
placed top priority on personnel issues last year. As we enter the 10th 
year of intense wartime operations, the Coalition believes that this 
prioritization should continue for fiscal year 2012.
    Despite the extraordinary demands, men and women in uniform are 
still answering the call--thanks in no small measure to the 
subcommittee's strong and consistent support--but only at the cost of 
ever-greater sacrifices.
    Dramatic increases in suicide rates reflect the long-term effects 
of requiring the same people to return to combat again and again--and 
yet again.
    In these times of growing political and economic pressures, the 
Coalition relies on the continued good judgment of the Armed Services 
Committees to ensure the Nation allocates the required resources to 
sustain a strong national defense, and in particular, to properly meet 
the pressing needs of the less than 1 percent of the American 
population--servicemembers and their families--who protect the freedoms 
of the 99 percent.
    In this testimony, The Coalition offers our collective 
recommendations on what needs to be done to meet these essential needs.
                      deficit reduction proposals
    The National Commission on Fiscal Responsibility and Reform and 
several less publicized deficit-reduction panels have proposed a wide 
range of spending cuts, including proposed cutbacks in Federal cost-of-
living adjustments (COLAs); defense spending, including military pay 
and retirement; and Federal health care programs, including TRICARE and 
TRICARE for Life.
    The Coalition agrees with the fiscal commission's key premise: 
``America cannot be great if we go broke.'' The rapidly growing debt 
problem facing our country is all too real, and there is no easy fix. 
Solving this problem for the long term will involve shared pain by all 
Americans.
    Congress has improved retention and readiness by addressing a 
number of quality of life issues for the military community over the 
last decade, authorizing TRICARE For Life and TRICARE Senior Pharmacy 
coverage, establishing concurrent receipt for most severely disabled 
and combat-disabled retirees, improving pay and allowances for 
currently serving personnel, upgrading health coverage for the Guard 
and Reserve community, passing major GI Bill improvements, and 
eliminating the age-62 SBP reduction for military widows, among other 
important initiatives.
    Now, ironically, critics decry the growth in personnel and health 
care spending since 2000. To put that in context, it's important to 
recall that there were compelling reasons why all of those changes 
needed to be enacted.
    Twelve years ago, military leaders were complaining of retention 
problems as decades of pay raise caps had depressed military pay nearly 
14 percent below private sector pay. Military retirees and their 
spouses were being unceremoniously dumped from military health coverage 
at age 65 and all disabled retirees were forced to fund their own VA 
disability compensation from their service-earned retired pay. Survivor 
Benefit Program (SBP) widows suffered a 34-percent benefit cut at age 
62, and GI Bill benefits had eroded dramatically, among many other 
challenges.
    Congress' actions to address those problems were spurred in no 
small part by national concern to protect the interests of military 
people whose severe and extended wartime sacrifices have been 
highlighted on every front page and every evening newscast for nearly a 
decade.
    A more extended view of history demonstrates that public and 
congressional support for protecting military people programs can fade 
quickly in times of strained budgets or when a period of extended 
military conflict is (or is expected to be) coming to an end. That was 
true in the 1940s, 1950s, 1970s, 1980s and 1990s.
    As Congress assesses how to fairly allocate necessary sacrifices 
among the various segments of the population, the Coalition urges that 
you bear in mind that:

        <bullet> Assertions about personnel and health cost growth 
        since 2000 are highly misleading, because 2000 is not an 
        appropriate baseline for comparison. As mentioned above, that 
        was the nadir of the erosion of benefits era, when military pay 
        was nearly 14 percent below private sector pay, currently 
        serving members had suffered a major retirement cutback, older 
        retirees and their families were being jettisoned from any 
        military health coverage, disabled retirees and survivors were 
        suffering dramatic financial penalties, and retention and 
        readiness were suffering as a result. Congressional action (and 
        spending) to fix those problems was a necessary thing, not a 
        bad thing.
        <bullet> No segment of the population has been called upon for 
        more sacrifice than the military community. Currently serving 
        military members have been asked to bear 100 percent of our 
        Nation's wartime sacrifice while the broader population was 
        asked to contribute to the war effort by ``going shopping.''
        <bullet> Retired servicemembers, their families and survivors 
        also have been no stranger to sacrifice. Hundreds of thousands 
        of today's retirees served in multiple wars, including Iraq and 
        Afghanistan, Gulf War I, Vietnam, Korea, and WWII eras, and the 
        multiple conflicts and cold wars in between. Older retirees 
        endured years when the government provided them no military 
        health coverage, and those under 65 already have forfeited an 
        average 10 percent of earned retired pay because they retired 
        under pay tables that were depressed by decades of capping 
        military pay raises below private sector pay growth.
        <bullet> There is a readiness element to military compensation 
        decisions beyond the budgetary element. Regardless of good or 
        bad budget times, a military career is a unique and arduous 
        calling that cannot be equated to civilian employment. 
        Sufficient numbers of high-quality personnel will choose to 
        pursue a career in uniform only if they perceive that the 
        extreme commitment demanded of them is reciprocated by a 
        grateful nation, and the unique rewards for completing such a 
        career are commensurate with the unique burden of sacrifice 
        that they and their families are required to accept over the 
        course of it.
        <bullet> Military members' and families' sacrifices must not be 
        taken for granted by assuming they will continue to serve and 
        endure regardless of significant changes in their career 
        incentive package.
        <bullet> History shows clearly that there are unacceptable 
        retention and readiness consequences for short-sighted budget 
        decisions that cause servicemembers to believe their steadfast 
        commitment to protecting their nation's interests is poorly 
        reciprocated.
Cost-of-Living Adjustments (COLAs)
    The Fiscal Commission has proposed adjusting the Consumer Price 
Index (CPI) methodology to the so-called ``chained CPI'' calculation as 
a means of holding down COLA growth for military and Federal civilian 
retired pay, Social Security, and all other Federal annuities over 
time.
    Proponents of the chained CPI say it more accurately reflects 
changes in annuitants' cost of living by recognizing that their 
purchasing behavior changes as prices change. If the price of beef 
rises, for example, consumers may purchase more chicken and less beef.
    The real issue with the chained CPI is whether one is measuring 
changes in prices or changes in quality of life. If one continues the 
logical progression of the argument, consumers might find themselves 
substituting hot dogs or pasta for chicken, etc.
    The Bureau of Labor Statistics has estimated that implementation of 
the chained CPI would depress COLAs by about one-quarter of a 
percentage point per year.
    The DOD actuary estimates that inflation will average 3 percent per 
year over the long term.
    Using those two estimates, applying chained-CPI COLAs for a 
servicemember retiring at age 42 would yield about 10 percent less in 
his or her retired paycheck at age 80 relative to the current COLA 
system.
    Some members of the deficit commission previously have proposed 
delaying any COLAs on military retired pay until age 60 or later, 
barring COLAs on annuity levels above some set dollar amount, or 
reducing the CPI by one-half percent or a full percentage point per 
year.
    The Coalition believes such initiatives would constitute a major 
breach of faith with military people and constitute a grossly 
disproportional penalty.
    COLAs are particularly important to military retirees, disabled 
retirees, and survivors because they start drawing their annuities at 
younger ages than most other COLA-eligibles and thus experience the 
compounding effects over a greater number of years. To the extent that 
COLAs fail to keep up with living costs, real purchasing power 
continues to decline ever more dramatically as long as one lives.
    A top Coalition priority is to guard against any discriminatory 
treatment of retired members of the uniformed services compared to 
other Federal COLA-eligibles and to ensure continued fulfillment of 
congressional COLA intent ``to provide every military retired member 
the same purchasing power of the retired pay to which he was entitled 
at the time of retirement [and ensure it is] not, at any time in the 
future . . . eroded by subsequent increases in consumer prices.''
Military Pay
    The Fiscal Commission's co-chairs proposed freezing ``non-combat'' 
military pay and allowances for 3 years.
    The Coalition is grateful that the President exempted the uniformed 
services community from the fiscal year 2011 Federal pay freeze, and 
thanks the subcommittee for its consistent commitment to restoring and 
sustaining pay comparability with the private sector--a fundamental 
underpinning of the All-Volunteer Force.
    History has shown that capping military raises is a slippery slope 
that has never ended well.
    Throughout the 1980s and 1990s, military pay raises were 
consistently capped below private sector pay growth, causing a ``pay 
comparability gap'' which reached 13.5 percent in 1998-99, and 
contributed significantly to serious retention problems.
    Congress has made great strides in the intervening years paring the 
gap by approving military raises that have been at least .5 percent 
above private sector pay growth.
    Now that significant progress has been made and the ``erosion of 
pay and benefits'' retention-related problems have abated, some have 
renewed calls to cut back on military raises, create a new 
comparability standard, or substitute more bonuses for pay raises in 
the interests of deficit reduction.
    The Defense Department is advocating a new comparability standard 
under which each pay and longevity cell would represent the 70th 
percentile of compensation for similarly-educated civilians. A 2010 
Congressional Budget Office report asserted that, considering 
adjustments in housing allowances, military people actually are paid 10 
percent more than their civilian counterparts in terms of Regular 
Military Compensation (RMC), composed of basic pay, food and housing 
allowances, and the tax advantage that accrues because the allowances 
are tax-free.
    The Coalition believes these assertions are fundamentally flawed.
    First, the RMC concept was developed in the 1960s, when all 
servicemembers received the same allowances, regardless of location, 
and the allowances were arbitrary figures that weren't actually based 
on anything. In the interim, Congress has transformed the allowances 
into reimbursements for actual food costs and median locality-based 
housing costs.
    If one were to use the RMC comparability methodology in this 
scenario, basic pay--the largest element of military compensation and 
the one that drives retired pay--would become a ``flex'' compensation 
element. With tax rates and allowances figures set independently, a 
year in which average housing allowances rose (e.g., based on growth in 
high-cost areas) and taxes increased could actually yield a requirement 
to cut basic pay (and future retirement value) to restore 
comparability.
    Second, the Coalition is not convinced that the civilian comparison 
cohort or percentile comparison points proposed by DOD are the proper 
ones, given that the military:

        <bullet> Recruits from the top half of the civilian aptitude 
        population;
        <bullet> Finds that only about 25 percent of America's youth 
        qualify for entry;
        <bullet> Requires career-long education and training 
        advancement; and
        <bullet> Enforces a competitive ``up-or-out'' promotion system 
        to ensure progressive quality enhancements among those with 
        longer service.

    A fundamental requirement for any pay comparability standard is 
that it should be transparent and understandable. The Coalition has 
asked for, but has never been provided by DOD, any data on what 
civilian comparison cohort was selected and why, and what rationale was 
used to establish a specific percentile comparison point.
    Third, the Coalition believes it is essential to recognize that 
compensation is not simply the amount one is paid. It is pay divided by 
what's required of the recipient to earn that pay. If we increase pay 
25 percent but require 100 percent more sacrifice to earn it, that's 
not a pay raise.
    In that context, today's conditions of service are far more arduous 
than anything envisioned 40 years ago by the creators of the All-
Volunteer Force, who believed a protracted war would require 
reinstitution of the draft.
    The Coalition agrees with the approach the subcommittee has 
consistently taken--that the best comparability measure is a comparison 
of the military basic pay raise percentage with the percentage growth 
private sector pay, as measured by the Bureau of Labor Statistics' 
Employment Cost Index (ECI).
    The government uses the ECI for every other measure of private pay 
growth, and it's very transparent to government leaders and 
servicemembers alike.
    The statutory ECI-based pay raise for 2012 is 1.6 percent--the 
second-smallest raise in nearly 50 years, exceeding only the 1.4 
percent raise for 2011. The Coalition believes this is the least a 
grateful nation should do to acknowledge the continuing, extraordinary 
wartime sacrifices of currently serving members and families.
    The Coalition urges against short-sighted proposals to freeze or 
cap uniformed services pay raises below private sector pay growth, and 
recommends a 2012 raise of at least 1.6 percent to match ECI growth.
Heath Care Fees
    The Fiscal Commission embraced the concept put forth by the Defense 
Department in past years that TRICARE benefits for retired 
beneficiaries should be brought more in line with civilian coverage by 
significantly increasing fees for retired beneficiaries and family 
members under 65. While no specific fee increases were cited, the 
implication is that they envisioned fee levels similar to those 
proposed by the Defense Department in past years, which Congress 
rejected as excessive.
    The Commission also recommended significant cutbacks in coverage by 
all Medicare supplements, including TRICARE For Life. Specifically, it 
proposed establishing a $500 annual deductible and limiting coverage to 
50 percent of the next $5,000 after the deductible--effectively 
increasing annual out-of-pocket costs for TFL-eligibles by up to $3,000 
per person per year ($6,000 for a married couple).
    The Coalition appreciates the subcommittee's consistent support in 
recent years to protect beneficiaries from disproportional health care 
fee increases.
    We continue to object strongly to simple comparisons of military 
vs. civilian cash fees, which we see as ``apple to orange'' comparisons 
that ignore most of the very great price career military members and 
families pay for their coverage in retirement.
    The unique package of military retirement benefits--of which a key 
component is a superior health care benefit--is the primary offset 
provided uniformed servicemembers for enduring a career of unique and 
extraordinary sacrifices that few Americans are willing to accept for 1 
year, let alone 20 or 30. It is an unusual and essential compensation 
package which a grateful Nation provides to a relatively small fraction 
of the population who agree to subordinate their personal and family 
lives to protecting our national interests for so many years. This 
sacrifice, in a very real sense, constitutes a pre-paid premium for 
their future healthcare.
    For all practical purposes, those who wear the uniform of their 
country are enrolled in a 20- to 30-year prepayment plan that they must 
complete to earn lifetime health coverage. In this regard, military 
retirees and their families pay enormous ``up-front'' premiums for such 
coverage through decades of service and sacrifice. Once that prepayment 
is already rendered, the government cannot simply ignore it and focus 
only on post-service cash payments--as if the past service, sacrifice, 
and commitments had no value.
    DOD and the Nation--as good-faith employers of the trusting members 
from whom they demand such extraordinary commitment and sacrifice--have 
a reciprocal health care obligation to retired servicemembers and their 
families and survivors that far exceeds any civilian employer's.
    The Coalition also believes the recent fee controversy is caused in 
part by the lack of any statutory record of the purpose of military 
health care benefits and the specific benefit levels earned by a career 
of service in uniform. Under current law, the Secretary of Defense has 
broad latitude to make administrative adjustments to fees for TRICARE 
Prime and the pharmacy systems. Absent congressional intervention, the 
Secretary can choose not to increase fees for years at a time or choose 
to quadruple fees in 1 year.
    Until a few years ago, this was not a particular matter of concern, 
as no Secretary had previously proposed dramatic fee increases.
    The experience of the recent past--during which several Secretaries 
proposed no increases and then a new Secretary proposed doubling, 
tripling, and quadrupling various fees--has convinced the Coalition 
that current law leaves military beneficiaries excessively vulnerable 
to the varying budgetary inclinations of the incumbent Secretary of 
Defense.
    The Coalition believes the law should be changed to reflect that it 
should be Congress' responsibility, not the Defense Secretary's, to 
establish appropriate and stable parameters governing crucial career 
retention programs such as the healthcare package for currently serving 
and retired military members and their families and survivors.
    The reciprocal obligation of the government to maintain an 
extraordinary benefit package to offset the extraordinary sacrifices of 
career military servicemembers is a practical as well as moral 
obligation. Mid-career military losses cannot be replaced like 
civilians can.
    Eroding benefits for career service can only undermine long-term 
retention/readiness. Today's servicemembers are very aware of Congress' 
actions toward those who preceded them in service. One reason Congress 
enacted TRICARE For Life in 2000 is because the Joint Chiefs of Staff 
at that time said inadequate retiree health care was affecting 
attitudes among active duty servicemembers.
    It's true that many private sector employers are choosing to shift 
an ever-greater share of health care costs to their employees and 
retirees, and that's causing many still-working military retirees to 
fall back on their service-earned TRICARE coverage. Fallout from the 
recession has reinforced this trend.
    In the bottom-line-oriented corporate world, many firms see their 
employees as merely another form of capital, from which maximum utility 
is to be extracted at minimum cost, and those who quit are replaceable 
by similarly experienced new hires. But that perception simply cannot 
exist in the culture of the military's All-Volunteer Force, whose long-
term effectiveness is dependent on establishing a sense of mutual, 
long-term commitment between the servicemember and the Nation.
    The Coalition believes it's essential to bear other considerations 
in mind when considering the extent to which military beneficiaries 
should share in military health care costs.
    First and foremost, the military health system is not built for the 
beneficiary, but to sustain military readiness. Each Service maintains 
its unique facilities and systems to meet its unique needs, and its 
primary mission is to sustain readiness by keeping a healthy force and 
to be able to treat casualties from military actions. That model is 
built neither for cost efficiency nor beneficiary welfare. It's built 
for military readiness requirements.
    When military forces deploy, the military medical force goes with 
them, and that forces families, retirees and survivors to use the more 
expensive civilian health care system in the absence of so many 
uniformed health care providers.
    These military-unique requirements have significantly increased 
readiness costs. But those added costs were incurred for the 
convenience of the military, not for any beneficiary consideration, and 
beneficiaries should not be expected to bear any share of military-
driven costs--particularly in wartime.
    Coalition member associations hold a diversity of views concerning 
the DOD-proposed TRICARE fee adjustments for fiscal year 2012.
    However, the Coalition strongly objects to the DOD-proposed 
adjustment methodology that would tie TRICARE Prime fee increases for 
nondisabled military beneficiaries aged 38 to 64 in future years to an 
as-yet-unspecified measure of health cost growth for the broader 
population that DOD actuaries assume would grow at an average of 6.2 
percent per year.
    The Coalition believes that military beneficiaries from whom 
America has demanded decades of extraordinary service and sacrifice 
have earned coverage that is the best America has to offer, consistent 
with their extraordinarily high pre-paid premiums of decades of service 
and sacrifice.
    Congress needs to protect military beneficiaries against dramatic 
budget-driven fluctuations in this vital element of servicemembers' 
career compensation incentive package.
    Reducing the value of TRICARE for Life by $3,000 per year ($6,000 
for a couple) as recommended by the Deficit Commission would be 
inconsistent with military beneficiaries' sacrifices and would 
undermine Congress' intent when it authorized TFL in 2001--less than 10 
years ago.
    Reducing military retirement benefits would be particularly ill-
advised when an overstressed force already is at increasing retention 
risk despite the current downturn of the economy and current recruiting 
successes.
    TMC believes:

        <bullet> All retired servicemembers earned equal health care 
        coverage by virtue of their service.
        <bullet> Means-testing has no place in setting military health 
        fees.
        <bullet> Congress should direct DOD to pursue any and all 
        options to constrain the growth of health care spending in ways 
        that do not disadvantage beneficiaries.
        <bullet> TRICARE Prime enrollment fees for nondisabled retirees 
        under 65 should not be adjusted based on health cost increases 
        for the broader population, as proposed by DOD.
        <bullet> It should be Congress' responsibility, not the Defense 
        Secretary's, to establish appropriate and stable parameters 
        governing crucial career retention programs such as the 
        healthcare package for currently serving and retired military 
        members and their families and survivors.
Military Retirement
    Although the Deficit Commission did not make specific 
recommendations to revamp the uniformed services retirement system, 
they did recommend creating yet another commission to develop 
initiatives aimed at bringing military retirement ``more in line with 
standard practices from the private sector.''
    The Coalition's experience is that such efforts to ``civilianize'' 
the military retirement program and wring budget savings from it pose a 
significant threat to long-term retention and readiness by decreasing 
the attractiveness of serving for two or three decades in uniform, with 
all of the extraordinary demands and sacrifice inherent in such 
extended career service.
    Too often, critics ignore the reality that uniformed service is 
fundamentally different from civilian employment, and a unique package 
of powerful incentives is essential to induce top-quality people to 
serve for 20 to 30 years under conditions the majority of Americans are 
unwilling to endure even for one term of service.
    In this regard, the deficit commission suggests changes such as 
those recommended by the 10th Quadrennial Review of Military 
Compensation (QRMC), which the Coalition believes fail utterly to 
recognize the fundamental purpose of the military retirement system in 
offsetting service conditions that are radically more severe than those 
experienced by the civilian workforce.
    The QRMC proposed converting the military retirement system to a 
civilian-style plan under which full retired pay wouldn't be paid until 
age 57-60; vesting retirement benefits after 10 years of service; and 
using flexible ``gate pays'' and separation pay at certain points of 
service to encourage continued service in certain age groups or skills 
and encourage others to leave, depending on service needs for certain 
kinds of people at the time.
    Reduced to its essence, this plan would take money from people who 
stay for a career in order to pay additional benefits to those who 
leave the military short of a career.
    If this system were in place today, a 10-year infantryman facing 
his or her fourth combat tour would be offered a choice between (a) 
allowing immediate departure with a vested retirement vs. (b) 
continuing under current service conditions for another 10-20 years and 
having to wait until age 57 for immediate retired pay.
    The Coalition believes strongly that, if such a system existed for 
today's force under today's service conditions, the military Services 
would already be mired in a deep and traumatic retention crisis.
    Further, the QRMC proposal is so complicated that people evaluating 
career decisions at the 4- to 10-year point would have no way to 
project their future military retirement benefits. Gate pays available 
at the beginning of a career could be cut back radically if the force 
happened to be undergoing a strength reduction later in a member's 
career.
    In contrast, the current military retirement system makes it very 
clear from the pay table what level of retired pay would be payable, 
depending how long one served and how well one progressed in grade.
    The sustained drawing power of the 20-year retirement system 
provides an essential long-term moderating influence that keeps force 
managers from over-reacting to short-term circumstances. Had force 
planners had such a system in effect during the drawdown-oriented 
1990s, the services would have been far less prepared for the post-
September 11 wartime environment.
    Many such proposals have been offered in the past, and have been 
discarded for good reasons. The only initiative to substantially 
curtail/delay military retired pay that was actually enacted--the 1986 
REDUX law--had to be repealed 13 years later after it was demonstrated 
to inhibit retention.
    The Coalition strongly opposes initiatives that would 
``civilianize'' the military retirement system and inadequately 
recognize the unique and extraordinary demands and sacrifices inherent 
in a military career.
    Reducing incentives for serving arduous careers of 20 years or more 
can only undermine long-term retention and readiness, with particularly 
adverse effects in times of war. Simultaneously increasing compensation 
for those who choose to leave short of fulfilling a career would only 
compound those adverse effects.
DOD Schools
    Last November, the plan endorsed by Fiscal Commission Co-Chairs 
Simpson and Bowles recommended closing DOD Dependent and Domestic 
Elementary and Secondary Schools (DDESS) and integrating the serviced 
children into local school districts to secure savings estimated at 
$1.1 billion by 2015.
    DDESS operates some 64 schools on 16 installations and services 
more than 26,000 students of military servicemembers as well as DOD 
civilian employees.
    The schools are provided at locations where civilian schools have 
been deemed inadequate to meet the needs of military students.
    The Coalition opposes closing or curtailing DOD dependent schools 
based primarily on budget concerns. The need for the schools should 
continue to be evaluated based on the capacity of local school 
districts to provide quality educational opportunities for military 
students.
Consolidation of Commissaries and Exchanges
    In November, the plan endorsed by Fiscal Commission Co-Chairs 
Simpson and Bowles recommended consolidating all DOD retail activities 
and raising prices in those facilities to achieve expected savings of 
$800 million by 2015.
    The Coalition has supported multiple previous initiatives to 
improve retail program efficiencies while recognizing there are unique 
service needs to be accommodated as well in operations of the exchange 
and MWR systems. Creation of the Defense Commissary Agency and 
consolidation of some ``back room'' functions among the service 
exchanges have been productive.
    The key to the Coalition has been that the benefit to store patrons 
should not be reduced. Several past efforts to reduce the commissary 
subsidy have been rejected because they failed to recognize the 
extraordinary benefit value of this key program, which delivers several 
dollars in savings to patrons for each dollar of the Federal subsidy. 
That's a very powerful ``benefit bang for the Federal buck.''
    Raising store prices can only lead to a counterproductive spiral of 
reduced benefit value, lower patronage, and eventual undermining of one 
of the Defense Department's most cost-effective benefit programs.
    The Coalition supports continuing efforts to improve commissary and 
exchange program efficiency, but objects to initiatives that reduce 
benefit value for patrons and the associated retention value for the 
uniformed services.
                          wounded warrior care
    As the Pentagon marks a decade at war, seamless transition between 
the Departments of Defense (DOD) and Veterans Affairs (VA) continues to 
be problematic in many cases for our wounded, ill, injured troops; 
disabled veterans; and their family caregivers. TMC acknowledges the 
significant progress that has been made in caring for our Nation's 
heroes and thanks the subcommittee for its leadership and oversight on 
these pressing issues, particularly in the last 4 years since the 
Walter Reed scandal that brought to light the flaws and inadequacies of 
both DOD and VA health care and benefits systems.
    But complex challenges remain in overseeing and validating massive 
policy and program changes among the military services; the DOD; the 
VA; several Centers of Excellence; a multitude of civilian contractors 
and nongovernmental agencies; and at least six congressional oversight 
committees.
    The Coalition looks forward to continued work with the subcommittee 
to address the remaining issues and fully establish systems of seamless 
care and benefits that support our transitioning wounded warriors and 
family members.
DOD-VA Seamless Transition
    Institutional Oversight
    While many legislative changes have improved the care and support 
of our wounded warriors, the Coalition is concerned that the sunset in 
law of the DOD-VA Senior Oversight Committee (SOC) poses significant 
risks for effective day-to-day leadership and coordination of DOD and 
VA seamless transition efforts. While an informal SOC exists, the 
Pentagon has relegated responsibility and authority to lower levels of 
the agency, making it difficult for senior official involvement and 
oversight on these matters and limiting the Department's ability to 
fully establish a synchronized, uniform and seamless approach to care 
and services.
    Previously, the Coalition has expressed concern that the change of 
administration posed a significant challenge to the two departments' 
continuity of joint effort, as senior leaders whose personal 
involvement had put interdepartmental efforts back on track left their 
positions and were replaced by new appointees who had no experience 
with past problems and no personal stake in ongoing initiatives.
    Unfortunately, those concerns were realized, as many appointive 
positions in both departments went unfilled for long periods, requiring 
reorganization of responsibilities and entry of new people with little 
or no background or authority to engage systems and continue to move 
forward.
    While many well-meaning and hard working military and civilians are 
doing their best to keep pushing progress forward, leadership, 
organization and mission changes have left many leaders frustrated with 
the process.
    The Coalition urges joint hearings by the Armed Services and 
Veterans Affairs Committees to assess the effectiveness of current 
seamless transition oversight efforts and systems and to solicit views 
and recommendations from DOD, VA, the military Services, and 
nongovernmental organizations concerning how joint communication, 
cooperation, and oversight could be improved.
    In addition, the hearings should focus on implementation progress 
concerning:

        <bullet> Single separation physical;
        <bullet> Single disability evaluation system;
        <bullet> Bi-directional electronic medical and personnel 
        records data transfer;
        <bullet> Medical centers of excellence responsibilities vs. 
        authority, operations, and research projects;
        <bullet> Coordination of care and treatment, including DOD-VA 
        Federal/recovery care coordinator clinical and non-clinical 
        services and case management programs; and
        <bullet> Consolidated government agency support services, 
        programs, and benefits.
    Continuity of Health Care
    Transitioning between DOD and VA health care systems remains 
challenging and confusing to those trying to navigate and use these 
systems. Systemic, cultural, and bureaucratic barriers often prevent 
the servicemember or veteran from receiving the continuity of care they 
need to heal and have productive and a high level of quality of life 
they so desperately need and desire.
    Servicemembers and their families repeatedly tell us that DOD has 
done much to address trauma care, acute rehabilitation, and basic 
short-term rehabilitation. They are less satisfied with their 
transition from the military health care systems to longer-term care 
and support in military and VA medical systems.
    We hear regularly from members who have experienced significant 
disruptions of care upon separation or medical retirement from service.
    One is in the area of cognitive therapy, which is available to 
retired members under TRICARE only if it is not available through the 
VA. Unfortunately, members are caught in the middle because of 
differences between DOD and VA authorities on what constitutes 
cognitive therapy and the degree to which effective, evidenced-based 
therapy is available.
    Action is needed to further protect the wounded and disabled. The 
subcommittee has acted previously to authorize 3 years of active-duty-
level TRICARE coverage for the family members of those who die on 
active duty. The Coalition believes we owe equal transition care 
continuity to those whose service-caused illnesses or injuries force 
their retirement from service.
    The Coalition recommends:

        <bullet> Authorizing service-disabled members and their 
        families to receive active-duty-level TRICARE benefits, 
        independent of availability of VA care for 3 years after 
        medical retirement to help ease their transition from DOD to 
        VA.
        <bullet> Ensuring Guard and Reserve members have adequate 
        access and treatment in the DOD and VA health systems for Post 
        Traumatic Stress Disorder and Traumatic Brain Injury following 
        separation from active duty service in a theatre of operations.
    DOD-VA Disability Evaluation System (DES)
    One of the most emotional issues that emerged from the Walter Reed 
scandal was the finding that Services were ``low-balling'' disabled 
servicemembers' disability ratings, with the result that many 
significantly disabled members were being separated and turned over to 
the VA rather than being medically retired (which requires a 30 percent 
or higher disability rating)--a trend that continues today, especially 
for those in the Guard and Reserves.
    Congress has taken positive steps to address this situation, 
including establishment of the Physical Disability Board of Review 
(PDBR) to give previously separated servicemembers an opportunity to 
appeal too-low disability ratings.
    A jointly executed DOD-VA DES pilot has been implemented and 
expanded, with positive feedback from participants that it has 
simplified the process and provided a more standardized disability 
rating outcome.
    TMC was further encouraged that wounded, ill, and injured members 
would benefit from the Dec. 19, 2007 Under Secretary of Defense 
(Personnel and Readiness) Directive Type Memorandum (DTM) which added 
``deployability'' as a consideration in the DES decision process--
permitting medical separation/retirement based on a medical condition 
that renders a member non-deployable.
    Unfortunately, several cases surfaced indicating the Services 
failed to incorporate the DTM in their DES process. In this regard, 
many members found ``fit'' by the PEB have been deemed by the service 
to be ``unsuitable'' for continued service--and administratively 
separated--because the member's medical condition prevents them from 
being able to deploy or maintain their current occupational skill. The 
Coalition is grateful to the subcommittee for including a provision in 
the National Defense Authorization Act for Fiscal Year 2011 prohibiting 
this practice.
    Unfortunately, some services still use other loopholes, such as 
designating disorders as ``existing prior to service''--even though the 
member was deemed fit enough to serve in a combat zone. The Coalition 
believes strongly that once we have sent a soldier, sailor, airman, or 
marine to war, the member should be given the benefit of the doubt that 
any condition subsequently found should not be considered as existing 
prior to service.
    The Coalition believes strongly that all ``unfitting'' conditions 
members should be included in the DOD disability rating, and any member 
determined by the parent service to be 30 percent or more disabled 
should continue to be eligible for a military disability retirement 
with all attendant benefits, including lifetime TRICARE eligibility for 
the member and his/her family. We do not support efforts to disconnect 
health care eligibility from disability retired pay eligibility.
    The Coalition also agrees with the opinion expressed by Secretary 
Gates that a member forced from service for wartime injuries should not 
be separated, but should be awarded a high enough rating to be retired 
for disability.
    The Coalition recommends:

        <bullet> Preserving the statutory 30 percent disability 
        threshold for medical retirement in order to provide lifetime 
        TRICARE coverage for those who are injured while on active 
        duty.
        <bullet> Reforming the DOD disability retirement system to 
        require inclusion of all unfitting conditions.
        <bullet> Ensuring any restructure of the DOD and VA disability 
        and compensation systems does not inadvertently reduce 
        compensation levels for disabled servicemembers.
        <bullet> Eliminating distinctions between disabilities incurred 
        in combat vs. non-combat when determining benefits eligibility 
        for retirement.
        <bullet> Revision of the VA schedule for rating disabilities 
        (VASRD) to improve the care and treatment of those wounded, ill 
        and injured, especially those diagnosed with PTSD and TBI.
        <bullet> Barring designation of disabling conditions as 
        ``existing prior to service'' for servicemembers who have been 
        deployed to a combat zone.
    Caregiver/Family Support Services
    The sad reality is that, for the most severely injured 
servicemembers, family members or other loved ones are often required 
to become full-time caregivers. Many have lost their jobs, homes, and 
savings in order to meet caregiver needs of a servicemember who has 
become incapacitated due to service-caused wounds, injuries or illness.
    The Coalition believes the government has an obligation to provide 
reasonable compensation and training for such caregivers, who never 
dreamed that their own well-being, careers, and futures would be 
devastated by military-caused injuries to their servicemembers.
    In 2009, the subcommittee authorized a special payment to an active 
duty servicemember to allow compensation of a family member or 
professional caregiver. The authorized payment was in the same amount 
authorized by the VA for veterans' aid-and-attendance needs, reflecting 
the subcommittee's thinking that caregiver compensation should be 
seamless when the member transitions from active duty to VA care, as 
long as the caregiver requirements remain the same.
    The Coalition appreciates the subcommittee's effort to sustain that 
principle in the National Defense Authorization Act for Fiscal Year 
2011 in terms of caregiver support, and urges additional steps to 
ensure that non-dependent caregivers (e.g., parents and siblings) who 
have had to sacrifice their own employment and health coverage are 
provided health and respite care while the injured member remains on 
active duty, commensurate with what the VA authorizes for medically 
retired or separated members' caregivers.
    In a similar vein, many wounded or otherwise-disabled members 
experience significant difficulty transitioning to medical retirement 
status. To assist in this process, consideration should be given to 
authorizing medically retired members and their families to remain in 
on-base housing for up to 1 year after retirement, in the same way that 
families are allowed to do when a member dies on active duty.
    Another important care continuity issue for the severely wounded, 
ill and injured is the failure to keep caregivers of these personnel 
involved in every step of the care and follow-up process. Again and 
again, we are told of clinicians and administrative people who seek to 
exclude caregiver participation and talk only to the injured member--
despite the reality that the injured member may not be capable of 
remembering instructions or managing their appointments and courses of 
care. In many cases, this occurs even when the caregiver has a power of 
attorney and other responsibilities documented in the member's records.
    Just as Congress, DOD, and the VA have worked to get essential 
information to the wounded and their caregivers, similar efforts are 
urgently needed to educate medical providers and administrative staff 
at all levels that the final responsibility for ensuring execution of 
prescribed regimens of care for severely injured members typically 
rests with the caregivers, who must be kept involved and informed on 
all aspects of such members' treatment, appointments, and evaluations.
    The Coalition recommends:

        <bullet> Providing enhanced training of DOD and VA medical and 
        support staff on the vital importance of involving and 
        informing designated caregivers in treatment of and 
        communication with severely ill and injured personnel.
        <bullet> Providing health and respite care for non-dependent 
        caregivers (e.g., parents and siblings) who have had to 
        sacrifice their own employment and health coverage while the 
        injured member remains on active duty, commensurate with what 
        the VA authorizes for medically retired or separated members' 
        caregivers.
        <bullet> Authorizing up to 1 year of continued residence in on-
        base housing facilities for medically retired, severely wounded 
        servicemembers and their families.
                    active forces and their families
    In our overview, the Coalition expressed our collective concern 
over the stressors our servicemembers and their families are 
experiencing due to the long, repeated deployments and unrelenting 
operations tempo. In order to sustain a sufficient, highly trained and 
highly capable Active Force, the continuing overriding requirement is 
to find additional ways to ease the terrible burden of stress on 
servicemembers and their families.
Military End Strength
    Increased end strength is the only effective way to reduce stress 
on forces and families as long as deployment requirements not only 
continue, but actually increase.
    The creators of the All-Volunteer Force never envisioned that the 
force would be deployed into combat 1 year out of 3--let alone every 
other year, as has been the case with many ground units.
    Regrettably, the scenario faced by today's forces is not unlike the 
World War II ``Catch-22'' situation described by Joseph Heller, in 
which aircrews braving horrendous enemy flak had their wartime mission 
requirements increased again and again, until they perceived that the 
sacrifices being demanded of them would never end.
    Unfortunately, many in government and among the public seem to have 
become desensitized to the truly terrible sacrifices that the current 
mismatch between missions and force levels has already imposed on those 
in uniform. They acknowledge the problem, but most assume that 
servicemembers and families will simply continue to accept these--or 
even greater--levels of sacrifice indefinitely.
    Many point to the achievement of service recruiting and retention 
goals as indicators that all is well.
    Such perceptions grossly underestimate the current stresses on the 
force and the risk that poses for readiness and national security. The 
Coalition believes any complacency about retention is sadly misplaced, 
and that the status of the current force should be viewed in the 
context of a rubber band that has been stretched to its limit. The fact 
that it has not yet broken is of little comfort.
    Well-respected studies have shown that 20 to 30 percent of combat 
returnees have experienced PTSD, TBI, or depression, and that the 
likelihood of a servicemember returning as a changed person rises with 
each subsequent deployment. Other studies have shown that rising 
cumulative family separations are having significant negative effects 
on servicemembers' children.
    These are not mere academic exercises. They are hard facts of life 
to those actually experiencing them.
    A far truer, and truly tragic, indicator of these extremely 
troubling circumstances has been the significant rise in 
servicemembers' suicide rates.
    So the Coalition is very grateful for the subcommittee's support 
for end strength increases for all services in the National Defense 
Authorization Act for Fiscal Year 2010, and for fending off the efforts 
of those who proposed cutting force levels to fund hardware needs.
    But we must not understate the reality that the increases approved 
to date will not significantly improve dwell time for military families 
anytime in the near future, given increasing operational requirements 
in Afghanistan, and recurring demands for humanitarian relief for 
natural and other disasters around the globe, whether in foreign lands 
or on home soil.
    The Coalition urges the subcommittee to:

        <bullet> Sustain or increase end strength as needed to sustain 
        the war and other operational requirements and enhance dwell 
        time for servicemembers and families; and
        <bullet> Sustain adequate recruiting and retention resources to 
        enable the uniformed services to achieve required optimum-
        quality personnel strength.
Family Readiness and Support
    A fully funded, robust family readiness program continues to be 
crucial to overall readiness of our military, especially with the 
demands of frequent and extended deployments.
    Resource issues continue to plague basic installation support 
programs. At a time when families are dealing with increased 
deployments, they often are being asked to do without in other 
important areas. We are grateful that the subcommittee included a 
provision in last year's defense bill that will help improve family 
readiness and support through greater outreach. The Department's 
establishment of a comprehensive benefits website for servicemembers 
and their families will help provide virtual assistance regardless of 
their physical proximity to installation-supported networks.
    Additionally, we urge the subcommittee to continue to press the 
Defense Department to exercise their authority to establish flexible 
spending accounts (FSAs) for servicemembers so they can participate in 
the same pre-tax program available to all other Federal employees for 
their out-of-pocket health and dependent care expenses.
    Quality education is a top priority for military families. 
Servicemembers are assigned all across the United States and the world. 
Providing appropriate and timely funding of Impact Aid through the 
Department of Education is critical to ensuring quality education 
military children deserve, regardless of where they live.
    The Coalition recommends that the subcommittee:

        <bullet> Encourage DOD to assess the effectiveness of programs 
        and support mechanisms designed to assist military members and 
        their families with deployment readiness, responsiveness, and 
        reintegration.
        <bullet> Fully fund effective programs and ensure their costs 
        are included in the annual budget process.
        <bullet> Expand child care availability and funding to meet the 
        needs of the total force uniformed services community.
        <bullet> Monitor and continue to expand family access to mental 
        health counseling.
        <bullet> Promote expanded opportunities for military spouses to 
        further educational and career goals, such as the My Career 
        Advancement Account (MyCAA) program.
        <bullet> Promote implementation of flexible spending accounts 
        to enable military families to pay health care and child care 
        expenses with pre-tax dollars.
Permanent Change of Station (PCS) Allowances
    It's an unfortunate fact that servicemembers and their families are 
forced to incur significant out-of-pocket expenses when complying with 
government-directed moves.
    For example, the current Monetary Allowance in Lieu of 
Transportation (MALT) rate used for PCS moves still fall significantly 
short of meeting members' actual travel costs. The current rate of 24 
cents per mile is less than half the 51 cents per mile authorized for 
temporary duty travel. Also, military members must make any advance 
house-hunting trips at personal expense, without any government 
reimbursements such as Federal civilians receive.
    DOD states that the MALT rate was not intended to reimburse 
servicemembers for travel by automobile, but simply a payment in lieu 
of providing transportation in-kind.
    The Coalition believes strongly that the MALT concept is an 
outdated one, having been designed for a conscripted, single, non-
mobile force.
    Travel reimbursements should be adjusted to reflect the reality 
that today's all-volunteer servicemembers do, in fact, own cars and 
that it is unreasonable not to reimburse them for the cost of driving 
to their next duty stations in conjunction with PCS orders.
    Simply put, PCS travel is no less government-ordered than is TDY 
travel, and there is simply no justification for paying less than half 
the TDY travel rate when personal vehicle use is essential.
    Additionally, the government should acknowledge that reassigning 
married servicemembers within the United States (including overseas 
locations) usually requires relocation of two personal vehicles. In 
that regard, the overwhelming majority of service families consist of 
two working spouses, making two privately owned vehicles a necessity. 
Yet the military pays for shipment of only one vehicle on overseas 
moves, including moves to Hawaii and Alaska, which forces relocating 
families into large out-of-pocket expenses, either by shipping a second 
vehicle at their own expense or selling one car before leaving the 
States and buying another upon arrival.
    At a minimum, the Coalition believes military families being 
relocated to Alaska, Hawaii, and U.S. territories should be authorized 
to ship a second personal vehicle, as the subcommittee has rightly 
supported in the past.
    The Coalition recommends the subcommittee:

        <bullet> Further modify the PCS weight allowance tables for 
        personnel in pay grades E-7, E-8, and E-9 to coincide with 
        allowances for officers in grades O-4, O-5, and O-6 
        respectively. While these allowances were increased slightly in 
        the NDAA for Fiscal Year 2010 for E-5 through E-9 personnel, 
        the personal property weight for a senior E-9 enlisted leader 
        without dependents remains the same as for a single O-3, 
        despite the normal accumulation of household goods over the 
        course of a career.
        <bullet> Authorize shipment of a second privately-owned vehicle 
        at government expense to Alaska, Hawaii, and U.S. territories.
        <bullet> Authorize reimbursement of house-hunting expenses 
        commensurate with programs now supporting Federal civilian 
        personnel.
        <bullet> Authorize payment of a dislocation allowance to 
        servicemembers making their final change of station upon 
        retirement from the uniformed services.
        <bullet> Increase PCS mileage rates to more accurately reflect 
        actual transportation costs.
                       national guard and reserve
    Over 91,000 Guard and Reserve service men and women are serving on 
active duty (as of January 2011).
    Since September 11, 2001, more than 793,853 Guard and Reserve 
servicemembers have been called up, including over 250,000 who have 
served multiple tours. There is no precedent in American history for 
this sustained reliance on citizen-soldiers and their families. To 
their credit, Guard and Reserve combat veterans continue to reenlist, 
but the ongoing pace of routine, recurring activations and deployments 
cannot be sustained indefinitely.
    Guard and Reserve members and families face unique challenges in 
their readjustment following active duty service. Unlike active duty 
personnel, many Guard and Reserve members return to employers who 
question their contributions in the civilian workplace, especially as 
multiple deployments have become the norm. Many Guard-Reserve troops 
return with varying degrees of combat-related injuries and stress 
disorders, and encounter additional difficulties after they return that 
can cost them their jobs, careers, and families.
    Despite the continuing efforts of the Services and Congress, most 
Guard and Reserve families do not have access to the same level of 
counseling and support that active duty members have. In short, the 
Reserve components face increasing challenges virtually across the 
board, including major equipment shortages, end strength requirements, 
wounded warrior health care, and pre- and post-deployment assistance 
and counseling.
Operational Reserve Retention and Retirement Reform
    Congress took the first step in modernizing the Reserve 
compensation system with enactment of early retirement eligibility for 
certain reservists activated for at least 90 continuous days served 
since January 28, 2008. This change validates the principle that 
compensation should keep pace with service expectations and serve as an 
inducement to retention and sustainment of the Operational Reserve 
Force.
    Guard/Reserve mission increases and a smaller Active-Duty Force 
mean Guard/Reserve members must devote a much more substantial portion 
of their working lives to military service than ever envisioned when 
the current retirement system was developed in 1948.
    Repeated, extended activations make it more difficult to sustain a 
full civilian career and impede reservists' ability to build a full 
civilian retirement, 401(k), etc. Regardless of statutory protections, 
periodic long-term absences from the civilian workplace can only limit 
Guard/Reserve members' upward mobility, employability and financial 
security. Further, strengthening the Reserve retirement system will 
serve as an incentive to retaining critical mid-career officers and 
NCOs for continued service and thereby enhance readiness.
    As a minimum, the next step in modernizing the Reserve retirement 
system is to provide equal retirement-age-reduction credit for all 
activated service rendered since September 11, 2001. The current law 
that credits only active service since January 28, 2008 disenfranchises 
and devalues the service of hundreds of thousands of Guard/Reserve 
members who served combat tours (multiple tours, in thousands of cases) 
between 2001 and 2008.
    The statute also must be amended to eliminate the inequity inherent 
in the current fiscal year retirement calculation, which only credits 
90 days of active service for early retirement purposes if it occurs 
within the same fiscal year. The current rule significantly penalizes 
members who deploy in July or August vs. those deploying earlier in the 
fiscal year.
    It is patently unfair, as the current law requires, to give 3 
months retirement age credit for a 90-day tour served from January 
through March, but only half credit for a 120-day tour served from 
August through November (because the latter covers 60 days in each of 2 
fiscal years).
    In addition, the law-change authorizing early Reserve retirement 
credit for qualifying active duty served after 28 Jan 2008 severed 
eligibility for TRICARE coverage until the reservist reaches age 60.
    TMC recommends:

        <bullet> Authorizing early retirement credit to all Guard and 
        Reserve members who have served on active duty tours of at 
        least 90 days retroactive to September 11, 2001.
        <bullet> Eliminating the fiscal year limitation which 
        effectively denies full early retirement credit for active duty 
        tours that span the October 1 start date of a fiscal year.
        <bullet> Modernizing the Reserve retirement system to 
        incentivize continued service beyond 20 years and provide fair 
        recognition of increased requirements for active duty service.
Guard and Reserve Health Care Access Options
    The Coalition is very grateful for sustained progress in providing 
reservists' families a continuum of government-sponsored health care 
coverage options throughout their military careers into retirement, but 
key gaps remain.
    For years, TMC has recommended continuous government health care 
coverage options for Guard and Reserve (G-R) families. Operational 
Reserve policy during two protracted wars has only magnified that need.
    DOD took the first step in the 1990s by establishing a policy to 
pay the Federal Health Benefits Program (FEHB) premiums for G-R 
employees of the Department during periods of their active duty 
service.
    Thanks to this subcommittee's efforts, considerable additional 
progress has been made in subsequent years to provide at least some 
form of military health coverage at each stage of a Reserve component 
member's life, including:

        <bullet> TRICARE Reserve Select (TRS) for actively drilling 
        Guard and Reserve families, with premiums set at 28 percent of 
        the actual program cost. The 2011 monthly premiums are $53.16 
        for individual reservists in drill status and $197.76 for 
        member and family coverage.
        <bullet> TRICARE Retired Reserve (TRR) for ``gray area'' 
        reservists who have retired from active drilling status but 
        have not yet attained age 60, with premiums set to cover 100 
        percent of program cost. Rates for 2011 are $408.01 for member-
        only coverage, or $1,020.05 for TRR member-and-family coverage.
        <bullet> TRICARE Standard/Prime for retired reservists with 20 
        or more years of qualifying service, once they attain age 60 
        and retired pay eligibility.
        <bullet> TRICARE for Life as second-payer to Medicare for 
        career reservists with 20 or more years of qualifying service 
        at age 65, provided they enroll in Medicare Part B.

    However, as noted earlier in this statement, early Reserve retirees 
who are in receipt of non-regular retired pay before age 60 are 
ineligible for TRICARE.
    TMC continues to support closing the remaining gaps to establish a 
continuum of health coverage for operational Reserve families, 
including members of the Individual Ready Reserve subject to call-up.
    The Coalition recommends:

        <bullet> Requiring DOD to justify the sevenfold increase in 
        TRICARE rates for individual TRR premiums for reservists who 
        immediately enroll in TRR upon retirement from the Selected 
        Reserve and have TRS coverage until separation.
        <bullet> Authorizing TRICARE for early Reserve retirees who are 
        in receipt of retired pay prior to age 60.
        <bullet> Permitting employers to pay TRS premiums for 
        reservist-employees as a bottom-line incentive for hiring and 
        retaining them.
        <bullet> Authorizing an option for the government to subsidize 
        continuation of a civilian employer's family coverage during 
        periods of activation, similar to FEHBP coverage for activated 
        Guard-Reserve employees of Federal agencies.
        <bullet> Extending corrective dental care following return from 
        a call-up to ensure G-R members meet dental readiness 
        standards.
        <bullet> Allowing eligibility in Continued Health Care Benefits 
        Program (CHCBP) for Selected reservists who are voluntarily 
        separating and subject to disenrollment from TRS.
        <bullet> Allowing beneficiaries of the FEHBP who are Selected 
        reservists the option of participating in TRICARE Reserve 
        Select.
Yellow Ribbon Reintegration Program
    Congress has provided increased resources to support the transition 
of warrior-citizens back into the community. But program execution 
remains spotty from State to State and falls short for returning 
Federal Reserve warriors in widely dispersed regional commands. 
Military and civilian leaders at all levels must improve the 
coordination and delivery of services for the entire operational 
Reserve Force. Many communities are eager to provide support and do it 
well. But Yellow Ribbon efforts in a number of locations amount to 
little more than PowerPoint slides and little or no actual 
implementation.
    DOD must ensure that State-level best practices--such as those in 
Maryland, Minnesota, and New Hampshire--are applied for all operational 
Reserve Force members and their families, and that Federal Reserve 
veterans have equal access to services and support available to 
National Guard veterans. Community groups, employers and service 
organization efforts need to be encouraged and better coordinated to 
supplement unit, component, Service and VA outreach and services.
    The Military Coalition urges the subcommittee to hold oversight 
hearings and direct additional improvements in coordination, 
collaboration and consistency of Yellow Ribbon services between States.
Reserve Compensation System
    The increasing demands of qualifications, mental skills, physical 
fitness, and training readiness on the Guard and Reserve to perform 
national security missions at home and abroad and increased training 
requirements indicate that the compensation system needs to be improved 
to attract and retain individuals into the Guard/Reserve. The added 
responsibility of returning to active duty multiple times over the 
course of a Reserve career require improvements to the compensation 
package and to make it more equitable with the Active component.
    TMC recommends:

        <bullet> Crediting all inactive duty training points earned 
        annually toward Reserve retirement.
        <bullet> Parity in special incentive pay for career enlisted/
        officer special aviation incentive pay, diving special duty 
        pay, and pro-pay for Reserve component medical professionals.
        <bullet> Authorizing recalculation of retirement points after 1 
        year of mobilization. A recent law change allowed certain flag 
        and general officers to recalculate retirement pay after 1 year 
        of mobilization. TMC believes this opportunity should be made 
        available to all ranks.
Guard/Reserve GI Bill
    The Coalition is most grateful to Congress for passage of the Post-
9/11 GI Bill. The Post-9-11 GI Bill incorporates a number of major 
Coalition goals for the GI Bill including benefits that match the cost 
of education, extension of the post-service usage period to 15 years, 
and cumulative credit for Guard-Reserve service on active duty. 
However, volunteers who join the Selected Reserve were left behind in 
this legislation.
    Benefits for joining the Selected Reserve were not upgraded or 
integrated in the Post-9/11 GI Bill as TMC has long recommended. 
Moreover, these benefits are not just about the principle of 
``proportional equity'' but also are essential to successful 
recruitment programs for the Guard and Reserve.
    TMC recommends:

        <bullet> Restoring basic Reserve MGIB benefits for initially 
        joining the Selected Reserve to the historic benchmark of 47-50 
        percent of active duty benefits.
        <bullet> Integrating Reserve and active duty MGIB laws in Title 
        38.
        <bullet> Enacting academic protections for mobilized Guard and 
        Reserve students, including refund guarantees and exemption of 
        Federal student loan payments during activation.
Guard/Reserve Family Support Programs
    We have seen considerable progress in outreach programs and 
services for returning Guard-Reserve warriors and their families. 
Family support programs promote better communication with 
servicemembers. Specialized support and training for geographically 
separated Guard and Reserve families and volunteers are needed.
    TMC recommends:

        <bullet> Ensuring programs are in place to meet the special 
        information and support needs of families of individual 
        augmentees or those who are geographically dispersed.
        <bullet> Funding joint programs among military and community 
        leaders to support servicemembers and families during all 
        phases of deployments.
        <bullet> Providing preventive counseling services for 
        servicemembers and families and training so they know when to 
        seek professional help related to their circumstances.
        <bullet> Authorizing and funding child care, including respite 
        care, family readiness group meetings and drill time.
        <bullet> Improving the joint family readiness program to 
        facilitate understanding and sharing of information between all 
        family members.
                              health care
TRICARE Reimbursement Rates
    Physicians consistently report that TRICARE is virtually the 
lowest-paying insurance plan in America. Other national plans typically 
pay providers 25-33 percent more. In some cases the difference is even 
higher.
    While TRICARE rates are tied to Medicare rates, TRICARE Managed 
Care Support Contractors make concerted efforts to persuade providers 
to participate in TRICARE Prime networks at a further discounted rate. 
Since this is the only information providers receive about TRICARE, 
they see TRICARE as lower-paying than Medicare.
    This is exacerbated by annual threats of further reductions in 
TRICARE rates due to the statutory Medicare rate-setting formula.
    In this regard, unless Congress acts before the end of the year, 
current law will force a 30 percent reduction in Medicare and TRICARE 
payments as of January 1, 2012, which would cause many providers to 
stop seeing military beneficiaries.
    TMC urges reversal of the 30 percent cut in Medicare/TRICARE 
payments scheduled for January 2012 and a permanent fix for the flawed 
formula that mandates these recurring annual threats to seniors' and 
military beneficiaries' health care access.
TRICARE Cost Efficiency Options
    TMC continues to believe strongly that DOD has not sufficiently 
investigated options to make TRICARE more cost-efficient without 
shifting costs to beneficiaries. The Coalition has offered for several 
years a long list of alternative cost-saving possibilities, including:

        <bullet> Positive incentives to encourage beneficiaries to seek 
        care in the most appropriate and cost effective venue;
        <bullet> Encouraging improved collaboration between the direct 
        and purchased care systems and implementing best business 
        practices and effective quality clinical models;
        <bullet> Focusing the military health system, health care 
        providers, and beneficiaries on quality measured outcomes;
        <bullet> Improving MHS financial controls and avoiding overseas 
        fraud by establishing TRICARE networks in areas fraught with 
        fraud;
        <bullet> Promoting retention of other health insurance by 
        making TRICARE a true second-payer to other insurance (far 
        cheaper to pay another insurance's co-pay than have the 
        beneficiary migrate to TRICARE);
        <bullet> Encouraging DOD to effectively utilize data from their 
        electronic health records to better monitor beneficiary 
        utilization patterns to design programs which truly match 
        beneficiaries needs;
        <bullet> Sizing and staffing military treatment facilities to 
        reduce reliance on network providers and develop effective 
        staffing models which support enrolled capacities;
        <bullet> Reducing long-term TRICARE Reserve Select (TRS) costs 
        by allowing servicemembers the option of a government subsidy 
        of civilian employer premiums during periods of mobilization;
        <bullet> Working more closely with the Coalition to better 
        incorporate beneficiary perspectives in encouraging use of 
        mail-order pharmacy system and formulary medications; and
        <bullet> Encouraging retirees to use lowest-cost-venue military 
        pharmacies at no charge, rather than discouraging such use by 
        limiting formularies, curtailing courier initiatives, etc.

    The Coalition is pleased that DOD has begun to act on some of these 
suggestions. We hope for further action to jointly pursue these and 
other options that offer potential for reducing costs.
TRICARE Prime
    The Coalition is very concerned about growing dissatisfaction among 
TRICARE Prime enrollees--which is actually higher among active duty 
families than among retired families. The dissatisfaction arises from 
increasing difficulties experienced by beneficiaries in getting 
appointments, referrals to specialists, and sustaining continuity of 
care from specific providers.
    Increasingly, beneficiaries with a primary care manager in a 
military treatment facility find they are unable to get appointments 
because so many providers have deployed, have been gone PCS, or are 
otherwise understaffed or unavailable.
    The Coalition supports implementation of a pilot study by TMA in 
each of the three TRICARE Regions to study the efficacy of revitalizing 
the resource sharing program used prior to the implementation of the 
TRICARE--The Next Generation (T-NEX) contracts under the current 
Managed Care Support contract program.
    The Coalition supports adoption of the ``Medical Home'' patient-
centered model to help ease such problems.
    The Coalition strongly advocates the transparency of healthcare 
information via the patient electronic record between both the MTF 
provider and network providers. Additionally, institutional and 
provider healthcare quality information should be available to all 
beneficiaries so that they can make better informed decisions.
    We are concerned about the impact on beneficiaries of the 
elimination of some Prime service areas under the new contract. This 
will entail a substantive change in health care delivery for thousands 
of beneficiaries, may require many to find new providers, and will 
change the support system for beneficiaries who have difficulty 
accessing care.
    To date, largely because of the delay in award of the new 
contracts, beneficiaries who live in the areas where Prime service will 
be terminated have not received any information on this and how it may 
affect them.
    The Military Coalition urges the subcommittee to:

        <bullet> Require reports from DOD and the managed care support 
        contractors on actions being taken to improve Prime patient 
        satisfaction, provide assured appointments within Prime access 
        standards, reduce delays in preauthorization and referral 
        appointments, and provide quality information to assist 
        beneficiaries in making informed decisions.
        <bullet> Require increased DOD efforts to ensure consistency 
        between both the MTFs and purchased care sectors in meeting 
        Prime access standards.
        <bullet> Ensure timely notification of and support for 
        beneficiaries affected by elimination of Prime service areas.
TRICARE Standard
    The Coalition appreciates the subcommittee's continuing interest in 
the specific problems unique to TRICARE Standard beneficiaries. TRICARE 
Standard beneficiaries need assistance in finding participating 
providers within a reasonable time and distance from their home. This 
is particularly important with the expansion of TRICARE Reserve Select 
and the upcoming change in the Prime Service Areas, which will place 
thousands more beneficiaries into TRICARE Standard.
    The Coalition is concerned that DOD has not yet established 
benchmarks for adequacy of provider participation, as required by 
section 711(a)(2) of the NDAA for Fiscal Year 2008. Participation by 
half of the providers in a locality may suffice if there is not a large 
Standard beneficiary population, but could severely constrain access in 
other areas with higher beneficiary density. The Coalition hopes to see 
an objective participation standard (perhaps based on the number of 
beneficiaries per provider) that would help shed more light on which 
locations have participation shortfalls of Primary Care Managers and 
Specialists that require positive action.
    The Coalition continues to oppose initiatives that would establish 
an enrollment fee for TRICARE Standard. If a beneficiary is to be 
required to pay an enrollment fee, the beneficiary should gain some 
additional benefit from enrollment. TRICARE Prime features an 
enrollment fee, but in return offers guaranteed access to care. In 
contrast, Standard offers no such guaranteed access, and beneficiaries 
typically are on their own in finding a participating provider who is 
accepting new patients.
    A source of recurring concern is the TRICARE Standard inpatient 
copay for retired members, which now stands at $535 per day. For each 
of the last several years, Congress has had to insert a special 
provision in the Defense Authorization Act to preclude increasing that 
by another $115 per day or more. The Coalition believes the $535 per 
day amount already is excessive, and should be capped at that rate for 
the foreseeable future.
    The Coalition urges the subcommittee to:

        <bullet> Insist on immediate delivery of an adequacy threshold 
        for provider participation, below which additional action is 
        required to improve such participation.
        <bullet> Require a specific report on participation adequacy in 
        the localities where Prime Service Areas will be discontinued 
        under the new TRICARE contracts.
        <bullet> Oppose establishment of a TRICARE Standard enrollment 
        fee, since Standard does not entail any guaranteed access to 
        care.
        <bullet> Increase locator support to TRICARE Standard 
        beneficiaries seeking providers who will accept new Standard 
        patients, particularly for mental health specialties.
        <bullet> Seek legislation to eliminate the limit when TRICARE 
        Standard is second payer to other health insurance (OHI): e.g., 
        return to the policy where TRICARE pays up to the amount it 
        would have paid, had there been no OHI.
        <bullet> Bar any further increase in the TRICARE Standard 
        inpatient copay for the foreseeable future.
TRICARE For Life
    When Congress enacted TRICARE For Life (TFL) in 2000, it explicitly 
recognized that this coverage was fully earned by career 
servicemembers' decades of sacrifice, and that the Medicare Part B 
premium would serve as the cash portion of the beneficiary premium 
payment. The Coalition believes that this remains true today.
    Some have proposed establishing an enrollment fee for TFL. The 
Coalition believes this is inappropriate, since beneficiaries have no 
guarantee of access to Medicare-participating providers.
    The Coalition is aware of the challenges imposed by Congress' 
mandatory spending rules, and appreciates the subcommittee's efforts to 
include TFL-eligibles in the preventive care pilot programs included in 
the NDAA for Fiscal Year 2009. We believe their inclusion would, in 
fact, save the government money and hope the subcommittee will be able 
to find a more certain way to include them than the current 
discretionary authority, which DOD has declined to implement.
    The Coalition also hopes the subcommittee can find a way to resolve 
the discrepancy between Medicare and TRICARE treatment of medications 
such as the shingles vaccine, which Medicare covers under pharmacy 
benefits and TRICARE covers under doctor visits. This mismatch, which 
requires TFL patients to absorb the cost in a TRICARE deductible or 
purchase duplicative Part D coverage, deters beneficiaries from seeking 
this preventive medication.
    The Coalition urges the subcommittee to:

        <bullet> Resist initiatives to establish an enrollment fee for 
        TFL, given that many beneficiaries already experience 
        difficulties finding providers who will accept Medicare 
        patients.
        <bullet> Seek ways to include TFL beneficiaries in DOD programs 
        to incentivize compliance with preventive care and healthy 
        lifestyles.
        <bullet> Resolve the discrepancy between TRICARE and Medicare 
        treatment of the shingles vaccine.
Survivors' Coverage
    When a TRICARE-eligible widow/widower remarries, he/she loses 
TRICARE benefits. When that individual's second marriage ends in death 
or divorce, the individual has eligibility restored for military ID 
card benefits, including SBP coverage, commissary/exchange privileges, 
etc.--with the sole exception that TRICARE eligibility is not restored.
    This is out of line with other Federal health program practices, 
such as the restoration of CHAMPVA eligibility for survivors of 
veterans who died of service-connected causes. In those cases, VA 
survivor benefits and health care are restored upon termination of the 
remarriage. Remarried surviving spouses deserve equal treatment.
    The Coalition recommends restoration of TRICARE benefits to 
previously eligible survivors whose second or subsequent marriage ends 
in death or divorce.
Pharmacy
    The Coalition supports a strong TRICARE pharmacy benefit which is 
affordable and continues to meet the pharmaceutical needs of millions 
of eligible beneficiaries through proper education and trust. The TMC 
will oppose any degradation of current pharmacy benefits, including any 
effort to charge fees or copayments for use of military treatment 
facilities.
    The Coalition notes that due to continued legal maneuvering, 
Federal pricing still has not been implemented by the Executive Branch, 
and this failure is costing DOD tens of millions of dollars with every 
passing month. This is an excellent example of why the Coalition 
objects to basing beneficiary fees on a percentage of DOD costs--
because DOD all-too-frequently does not act, or is not allowed to act, 
in a prudent way to hold costs down.
    The Coalition has volunteered to conduct a joint campaign with DOD 
to promote beneficiary use of lower-cost medications and distribution 
venues--a ``win-win'' opportunity that will reduce costs for 
beneficiaries and the government alike. But this will require 
additional consultation with the Coalition to ensure DOD communications 
effective address legitimate beneficiary concerns that now inhibit 
increased participation.
    The Coalition also believes that positive incentives are the best 
way to encourage beneficiaries to continue medication regimens that are 
proven to hold down long-term health costs. In this regard, TMC 
believes eliminating copays for medications to control chronic 
conditions (e.g., diabetes, asthma, high blood pressure, and 
cholesterol) are more effective than negative ones such as copayment 
increases.
    The Coalition urges the subcommittee to:

        <bullet> Advance the use of the mail order option by lowering 
        or waiving copays, enhancing communication with beneficiaries, 
        and using technological advances to ease initial signup.
        <bullet> Require DOD to include alternate packaging methods for 
        pharmaceuticals to enable nursing home, assisted living, and 
        hospice care beneficiaries to utilize the pharmacy program. 
        Packaging options should additionally include beneficiaries 
        living at home who would benefit from this program because of 
        their medical condition (for example beginning stages of 
        Alzheimer's).
        <bullet> Create incentives to hold down long-term health costs 
        by eliminating copays for medications for chronic conditions, 
        such as asthma, diabetes, and hypertension or keeping copays at 
        the lowest level regardless of drug status, brand or generic.
                             retiree issues
    The Military Coalition remains grateful to the subcommittee for its 
support of maintaining a strong military retirement system to help 
offset the extraordinary demands and sacrifices inherent in a career of 
uniformed service.
Concurrent Receipt
    In the NDAA for Fiscal Year 2003 and Fiscal Year 2004, Congress 
acknowledged the inequity of the disability offset to earned retired 
pay and established a process to end or phase out the offset for many 
disabled retirees. The Coalition is extremely grateful with the 
subcommittee's efforts to continue progress in easing the adverse 
effects of the offset.
    We were very optimistic in 2009 that another very deserving group 
of disabled retirees would become eligible for concurrent receipt when 
the White House included a concurrent receipt proposal in the Budget 
Resolution--the first time in history any administration had ever 
proposed such a fix.
    The administration's proposal would expand concurrent receipt 
eligibility over a 5 year period to all those forced to retire early 
from Service due to a disability, injury, or illness that was service-
connected (chapter 61 retirees).
    The Coalition is dismayed that, despite the subcommittee's 
leadership efforts and White House support, the provision has not yet 
been enacted--an extremely disappointing outcome for a most deserving 
group of disabled retirees.
    Our fervent hope is that the subcommittee will redouble its efforts 
to authorize this initiative for the National Defense Authorization 
Bill for Fiscal Year 2012.
    Additionally, the Coalition is concerned that an inadvertent 
problem exists in the statutory Combat-Related Special Compensation 
(CRSC) computation formula causes many seriously disabled and clearly 
eligible members to receive little or nothing in the way of CRSC. The 
Defense Department has acknowledged the problem in discussions with the 
subcommittee staff, and the Coalition urges the subcommittee to correct 
this technical problem.
    The Coalition believes strongly in the principle that career 
military members earn their retired pay by service alone, and that 
those unfortunate enough to suffer a service-caused disability in the 
process should have any VA disability compensation from the VA added 
to, not subtracted from, their service-earned military retired pay and 
this remains a key goal in 2011.
    The Coalition's continuing goal is to fully eliminate the deduction 
of VA disability compensation from earned military retired pay for all 
disabled retirees. In pursuit of that goal, the Coalition's immediate 
priorities include:

        <bullet> Phasing out the VA disability offset for all chapter 
        61 (disability) retirees, as previously endorsed by the 
        President and the subcommittee;
        <bullet> Clarifying the law to resolve technical disparities 
        that inadvertently cause underpayment of certain eligibles for 
        CRSC; and,
        <bullet> Clarifying the law to ensure a disabled retiree's CRSC 
        payment is not reduced when the retiree's VA disability rating 
        increases, until the retiree is afforded the opportunity to 
        elect between CRSC or CRDP.
Disability Severance Pay
    The Coalition is grateful for the subcommittee's inclusion of a 
provision in the NDAA for Fiscal Year 2008 that ended the VA 
compensation offset of a servicemember's disability severance for 
people injured in the combat zone.
    However, we are concerned that the language of this provision 
imposes much stricter eligibility than that used for Combat-Related 
Special Compensation.
    The Coalition recommends:

        <bullet> Further expanding eligibility to include all combat-
        related injuries, using the same definition as CRSC; and
        <bullet> Expanding eligibility to include all service-connected 
        disabilities, consistent with TMC view that there should not be 
        a distinction between the treatment of members disabled in 
        combat vice members with non-combat, service-caused 
        disabilities.
Former Spouse Issues
    For a decade, the recommendations of the Defense Department's 
September 2001 report to Congress on the Uniformed Services Former 
Spouse Protection Act (USFSPA) have gone nowhere. For several years, 
DOD submitted many of the report's recommendations annually to Congress 
only to have one or two supported by the subcommittee while many others 
were dropped.
    The USFSPA is a very emotional topic with two distinct sides to the 
issue--just as any divorce has two distinct parties affected. The 
Coalition believes strongly that there are several inequities in the 
act that need to be addressed and corrected that could benefit both 
affected parties--the servicemember and the former spouse.
    But in order to make progress, we believe Congress cannot piecemeal 
DOD's recommendations. We support a collective grouping of legislation 
that would provide benefit to both affected parties. Absent this 
approach, the legislation will be perceived as supporting one party 
over the other and go nowhere.
    To fairly address the problems with the act, all affected parties 
need to be heard--and the Coalition would greatly appreciate the 
opportunity to address the inequities in a hearing before the 
subcommittee.
    The Coalition supports legislative action to:

        <bullet> Base the award amount to the former spouse on the 
        grade and years of service of the member at time of divorce 
        (not time of retirement);
        <bullet> Prohibit the award of imputed income while on active 
        duty, which effectively forces active duty members into 
        retirement;
        <bullet> Extend 20/20/20 benefits to 20/20/15 former spouses;
        <bullet> Permit the designation of multiple SBP beneficiaries 
        with the presumption that SBP benefits must be proportionate to 
        the allocation of retired pay;
        <bullet> Eliminate the ``10-year Rule'' for the direct payment 
        of retired pay allocations by the Defense Finance and 
        Accounting Service (DFAS);
        <bullet> Permit SBP premiums to be withheld from the former 
        spouse's share of retired pay if directed by court order;
        <bullet> Permit a former spouse to waive SBP coverage;
        <bullet> Repeal the 1-year deemed election requirement for SBP; 
        and
        <bullet> Assist the DOD and Services with greater outreach and 
        expanded awareness to members and former spouses of their 
        rights, responsibilities, and benefits upon divorce.
                            survivor issues
    The Coalition is grateful to the subcommittee for its significant 
efforts in recent years to improve the SBP, especially its major 
achievement in eliminating the significant benefit reduction previously 
experienced by SBP survivors upon attaining age 62.
SBP-DIC Offset
    The Coalition believes strongly that current law is unfair in 
reducing military SBP annuities by the amount of any survivor benefits 
payable from the DIC program.
    If the surviving spouse of a retiree who dies of a service-
connected cause is entitled to DIC from the Department of Veterans 
Affairs and if the retiree was also enrolled in SBP, the surviving 
spouse's SBP annuity is reduced by the amount of DIC. A pro-rata share 
of the SBP premiums is refunded to the widow upon the member's death in 
a lump sum, but with no interest. This offset also affects all 
survivors of members who are killed on active duty.
    The Coalition believes SBP and DIC payments are paid for different 
reasons. SBP is insurance purchased by the retiree and is intended to 
provide a portion of retired pay to the survivor. DIC is a special 
indemnity compensation paid to the survivor when a member's service 
causes his or her premature death. In such cases, the VA indemnity 
compensation should be added to the SBP annuity the retiree paid for, 
not substituted for it.
    It should be noted as a matter of equity that surviving spouses of 
Federal civilian retirees who are disabled veterans and die of 
military-service-connected causes can receive DIC without losing any of 
their Federal civilian SBP benefits.
    The reality is that, in every SBP-DIC case, active duty or retired, 
the true premium extracted by the service from both the member and the 
survivor was the ultimate one--the very life of the member. This 
reality was underscored by the August 2009 Federal Court of Appeals 
ruling in Sharp v. United States which found, ``After all the 
servicemember paid for both benefits: SBP with premiums; DIC with his 
life.''
    The Veterans Disability Benefits Commission (VDBC) was tasked to 
review the SBP-DIC issue, among other DOD/VA benefit topics. The VDBC's 
final report to Congress agreed with the Coalition in finding that the 
offset is inappropriate and should be eliminated.
    In 2005 then-Speaker Pelosi and other House leaders made repeal of 
the SBP-DIC offset a centerpiece of their GI Bill of Rights for the 
21st Century. Leadership has made great progress in delivering on other 
elements of that plan, but the only progress to date on the SBP-DIC 
offset has been the enactment a small monthly Special Survivor 
Indemnity Allowance (SSIA).
    The Coalition recognizes that the subcommittee's initiative in the 
fiscal year 2008 defense bill to establish the SSIA was intended as a 
first, admittedly very modest, step in a longer-term effort to phase 
out the Dependency and Indemnity Compensation (DIC) offset to SBP.
    We appreciate the subcommittee's subsequent work to extend the SSIA 
to survivors of members who died while on active duty, as well as its 
good-faith effort to increase SSIA payments as part of the Family 
Smoking Prevention and Tobacco Control Act.
    The Coalition was extremely disappointed that the final version of 
that legislation greatly diluted the House-passed provision and 
authorized only very modest increases several years in the future.
    While fully acknowledging the committee's good-faith efforts to win 
more substantive progress, the Coalition shares the extreme 
disappointment and sense of abandonment of the SBP-DIC widows who are 
being forced to sacrifice up to $1,154 each month and being asked to be 
satisfied with a $70 monthly rebate.
    For years, legislative leaders touted elimination of this ``widow's 
tax'' as a top priority. The Coalition understands the mandatory-
spending constraints the subcommittee has faced in seeking redress, but 
also points out that those constraints have been waived for many, many 
far more expensive initiatives. The Coalition believes widows whose 
sponsors' deaths were caused by military service should not be last in 
line for redress.
    The Coalition recommends:

        <bullet> Repeal of the SBP-DIC offset.
        <bullet> Reinstating SBP for survivors who previously 
        transferred payments to their children at such time as the 
        youngest child attains majority, or upon termination of a 
        second or subsequent marriage.
        <bullet> Allowing SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death.
SBP and Special Needs Trusts
    Certain permanently disabled survivors can lose eligibility for 
Supplemental Security Income (SSI) and Medicaid and access to means-
tested State programs because of receipt of SBP. Title 10 currently 
does not authorize DOD to make the payment of a SBP annuity into a 
trust, but only to a ``natural person''.
    As a result, permanently disabled military survivors are unique in 
being unable to take advantage of Special Needs Trust authority 
specifically established by Congress to protect and assist disabled 
persons who are in need of special services.
    The Coalition recommends authorizing payment of SBP annuities for 
disabled survivors into a Special Needs Trust.
Final Retired Paycheck
    Under current law, DFAS recoups from military widows' bank accounts 
all retired pay for the month in which a retiree dies. Subsequently, 
DFAS pays the survivor a pro-rated amount for the number of days of 
that month in which the retiree was alive. This often creates hardships 
for survivors who have already spent that pay on rent, food, et cetera, 
and who routinely are required to wait several months for DFAS to start 
paying SBP benefits.
    The Coalition believes this is an extremely insensitive policy 
imposed by the government at the most traumatic time for a deceased 
member's next of kin. Unlike his or her active duty counterpart, a 
retiree's survivor receives no death gratuity. Many older retirees do 
not have adequate insurance to provide even a moderate financial 
cushion for surviving spouses.
    In contrast to the law governing military retired pay treatment of 
survivors, the title 38 statute requires the VA to make full payment of 
the final month's VA disability compensation to the survivor of a 
disabled veteran.
    The disparity between DOD and VA policy on this matter is 
indefensible. Congress should do for retirees' widows the same thing it 
did 10 years ago to protect veterans' widows.
    TMC urges the subcommittee to authorize survivors of retired 
members to retain the final month's retired pay for the month in which 
the retiree dies.
    morale, welfare, and recreation (mwr) and quality of life (qol) 
                                programs
    MWR activities and QoL programs have become ever more critical in 
helping servicemembers and their families cope with the extended 
deployments and constant changes going on in the force.
    The availability of appropriated funds to support MWR activities is 
an area of continuing concern for the Coalition. We are especially 
apprehensive that additional reductions in funding or support services 
may occur due to slow economic recovery and record budget deficits.
    BRAC actions pose an additional concern, as DOD is struggling to 
meet the September 15, 2011 deadline at many BRAC locations. Two 
reports issued by the Government Accountability Office indicate 
significant challenges remain in areas of funding, facilities, and 
overall management.
    The Coalition is very concerned whether needed infrastructure and 
support programs will be in place in time to meet the needs of 
families.
    TMC urges the subcommittee to:

        <bullet> Direct DOD to report to Congress on all DOD and 
        Service Active and Reserve component MWR Category A, B, and C 
        Programs and Family Support/Readiness (Quality of Life [QoL] 
        Programs), including the Yellow Ribbon Program. The report 
        should include:

                <bullet> A current listing of individual program 
                funding levels by category--actual program expenditures 
                vs. program requirement;
                <bullet> An assessment of the effectiveness of each 
                program, including program standards and metrics; and
                <bullet> A list of recommended changes to policy, 
                including revisions in the current category program 
                listings to more accurately support wartime mission 
                requirements and the needs of the 21st century All-
                Volunteer Force.

        <bullet> Protect recreational and alternative therapy programs 
        that integrate MWR, fitness and other quality of life programs 
        and infrastructure to facilitate warrior treatment and care and 
        to promote psychological health and welfare of troops and their 
        families.
Military Construction (MILCON)
    TMC believes MILCON Programs, including modernization and 
recapitalization, are critical elements to maintaining force, unit, and 
family readiness, and that these programs need immediate attention to 
maintain and sustain a 21st century military force.
    The Coalition recommends the subcommittee:

        <bullet> Support military construction projects that modernize 
        or replace the following infrastructure to meet increased 
        personnel and operational deployment requirements:

                <bullet> child development centers (CDCs) and youth 
                centers;
                <bullet> defense schools;
                <bullet> bachelor and family housing; and,
                <bullet> other traditional QoL program facilities.

        <bullet> Encourage full funding of military housing repair and 
        maintenance accounts to reduce backlogs and provide for safe, 
        well-maintained housing units.
                <bullet> Ensure that military housing privatization 
                initiatives meet expected DOD-Service outcome goals and 
                positively impact servicemember and family needs.
                <bullet> Support a Health Facilities Program that 
                modernizes or replaces Military Treatment Facilities 
                (MTFs) and supports world-class health care delivery 
                capability and capacity for all eligible beneficiaries.
                <bullet> Ensure MWR, MILCON, housing, and family 
                support construction policies and projects improve 
                access for persons with disabilities.

    Senator Webb. Thank you very much.
    Ms. Moakler, welcome.

    STATEMENT OF KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Moakler. Chairman Webb, the NMFA appreciates the 
opportunity to talk to you this afternoon about military 
families, the Nation's families.
    Last week was a rough week for military families, when they 
experienced unnecessary additional stress as the budget debate 
raged. We heard from many family members, and I'm sure your 
offices did, as well. Our Association quickly assembled 
resources and set up a Web page so families could prepare if 
pay was delayed. Our first admonition was to warn 
servicemembers and families to avoid payday lenders and to 
offer financially responsible resources.
    When it was announced that all commissaries would be 
closing, we raised awareness about how military families living 
overseas would be severely impacted. This resulted in, first, 
overseas commissaries being deemed essential, and then having 
this designation expanded to all commissaries.
    When an agreement was reached, military families breathed a 
sigh of relief, but felt as though they had been used as pawns 
in a political chess game. We hope that we never have to 
experience this type of impending crisis again, but our 
Association made sure that the concerns of military families 
were heard.
    We continue to share the concerns of military families with 
policymakers, as we have for over 40 years. In the past several 
years, we have done informal surveys on our Web site, gauging 
the pulse of families. In our most recent survey, when 1,200 
family members responded about their top priorities, over 84 
percent felt it was important that Congress and DOD focus on 
ensuring support programs--that support programs meet the needs 
of families experiencing multiple deployments. Almost 80 
percent felt that helping wounded servicemembers and their 
families should be a top priority, and 78 percent felt that 
helping surviving families was an important priority. Our top 
legislative priority, therefore, is to sustain funding for 
effective, proven military family support programs in order to 
promote readiness. Ten years of war and repeated deployments 
and reintegrations have put inordinate stress on servicemembers 
and their families, of all components.
    We know our Nation faces an austere budget environment, but 
assert that a failure to focus on the well-being of 
servicemembers and their families now will create longer-
lasting and more expensive national security, healthcare, and 
readjustment issues at war's end and beyond.
    While both DOD and the VA continue to work on program and 
transition improvements, our wounded, ill, and injured 
servicemembers and their families face many uncertainties. We 
ask Congress to allow medically-retired servicemembers and 
their families to maintain the Active Duty family TRICARE 
benefit for a transition period of 3 years following the date 
of medical retirement, comparable to the benefit for surviving 
spouses.
    Caregivers of the wounded, ill, and injured must be 
provided with opportunities for training, compensation, and 
other support programs because of the important role they play 
in the successful rehabilitation and care of the servicemember 
and veteran. We are concerned that the implementation of recent 
VA caregiver legislation does not extend eligibility to the 
intended range of caregivers, and that DOD and the service 
training for caregivers does not start soon enough to be 
effective during the transition.
    Our surviving families deserve our support, and I'd like to 
recognize the Gold Star Wives that are here today.
    The Coalition supports S. 260, Senator Nelson's bill, to 
end the Dependency and Indemnity Compensation offset to the 
Survivor Benefit Plan. Additionally, allowing payment of the 
SBP benefit into a special-needs trust in cases of disabled 
beneficiaries will preserve their eligibility for income-based 
support programs.
    We applaud the announcement yesterday of Joining Forces, 
the initiative sponsored by Mrs. Obama and Dr. Biden. Our 
recently released Finding Common Ground, a toolkit for 
communities supporting military families, includes easily 
achievable action items and useful resources to guide anyone 
who wants to support military families, but doesn't know where 
to start. The toolkit can be downloaded for free at our Web 
site.
    Three areas of focus for the Join Forces Initiative are 
education, employment, and wellness. We ask you to join forces 
in support of the education of military children by increasing 
the DOD supplement to impact aid and to allow school districts 
experiencing high growth due to base realignments to apply for 
impact aid funds using current student enrollments.
    Military spouses employed as teachers, nurses, registered 
dieticians, physical therapists, and the like must have a 
State-specific license or credential before working in a State. 
We urge you to help military spouses maintain their careers by 
supporting the Military Spouse Job Continuity Act, S. 697. This 
bill will provide a military spouse with a tax credit to offset 
the cost of obtaining a new license or certificate at their new 
location.
    We urge Congress, DOD, healthcare providers, and 
beneficiaries to work together to sustain quality affordable 
healthcare for all military health system beneficiaries. We 
pledge to work with Congress and DOD to identify additional 
efficiencies to reduce healthcare costs, such as organizational 
streamlining, promotion of lower-cost pharmacy options, disease 
management, and beneficiary education on healthy habits and how 
to access care more effectively.
    Another aspect of wellness is financial wellness. Congress 
has provided the Armed Forces with the authority to establish 
flexible spending accounts, yet the Service Secretaries have 
not established these important tax savings accounts for 
servicemembers. We support S. 387, which presses for the 
Service Secretaries to create----
    Senator Webb. Ms. Moakler, could I ask you summarize the 
rest of your statement? I think you've been----
    Ms. Moakler. Sure.
    Senator Webb.--going for about 10 minutes.
    Ms. Moakler. Thank you and I look forward to your 
questions.
    [The prepared statement of Ms. Moakler follows:]
               Prepared Statement by Kathleen B. Moakler
    Chairman Webb and distinguished members of the subcommittee, the 
National Military Family Association would like to thank you for the 
opportunity to present testimony for the record concerning the quality 
of life of military families--the Nation's families. In the 10th year 
of war, we continue to see the impact of repeated deployments and 
separations on our servicemembers and their families. We appreciate 
your recognition of the service and sacrifice of these families. Your 
response through legislation to the increased need for support as 
situations have arisen has resulted in programs and policies that have 
helped sustain our families through these difficult times.
    We recognize, too, the emphasis that the administration is placing 
on supporting military families. The work of Mrs. Obama and Dr. Biden 
in raising awareness of the sacrifices military families are making has 
been well received by the Nation and appreciated by our families. The 
American people are beginning to understand how 1 percent of our 
population in the United States is being called upon to bear 100 
percent of the burden of defending our Nation, giving up years of 
family life together, and how they need the support of the other 99 
percent of Americans to continue carrying that burden.
    The recent Presidential Study Directive-9, which called on Federal 
agencies to outline how they are presently or could in the future 
support military families, reinforced administration support as well. 
The vision of the study, as contained in the report Strengthening Our 
Military Families, Meeting America's Commitment, is, ``to ensure that:

        <bullet> The U.S. military recruits and retains the highest-
        caliber volunteers to contribute to the Nation's defense and 
        security;
        <bullet> Servicemembers can have strong family lives while 
        maintaining the highest state of readiness;
        <bullet> Civilian family members can live fulfilling lives 
        while supporting their servicemember(s); and
        <bullet> The United States better understands and appreciates 
        the experience, strength, and commitment to service of our 
        military families.''

    This vision resonates with all that our Association has tried to 
work for during our 42 year history. We believe policies and programs 
should provide a firm foundation for families challenged by the 
uncertainties of deployment and transformation. Our Association cares 
about the health and resilience of military families. Innovative and 
evidence based approaches are essential to address the needs of 
military children. We realize support for servicemembers and their 
families is not solely provided by the government. Families promote a 
servicemember's well being. Communities uphold the families.
    Our Nation did not expect to be involved in such a protracted 
conflict. Our military families continue to require effective tools and 
resources to remain strong. We ask Congress, policymakers, and 
communities to remain vigilant and respond in a proactive manner. Our 
Nation can express recognition for their sacrifices by promoting the 
well-being of military families.
    We endorse the recommendations contained in the statement submitted 
by The Military Coalition. In this statement, our Association will 
expand on several issues of importance to military families:

      I.  Family Readiness
     II.  Family Health
    III.  Family Transitions
                          i. family readiness
    Policies, programs, and services must adapt to the changing needs 
of servicemembers and families. Standardization in delivery, 
accessibility, and funding are essential. Educated and resourced 
families are able to take greater responsibility for their own 
readiness. Recognition should be given to the unique challenges facing 
families with special needs. Support should provide for families of all 
components, in every phase of military life, no matter where they live.
    We appreciate provisions in the National Defense Authorization Acts 
(NDAA) and Appropriations legislation in the past several years that 
recognized many of these important issues. Excellent programs exist 
across the Department of Defense (DOD) and the Services to support our 
military families. There are redundancies in some areas, and times when 
a new program was initiated before anyone looked to see if an existing 
program could be adapted to answer an evolving need. We realize all 
Americans will be asked to tighten their belts in this time of tighter 
budgets and some military family programs may need to be downsized or 
eliminated. We ask your support for programs that do work when looking 
for efficiencies, rewarding best practices and programs that are truly 
meeting the needs of families. In this section we will highlight some 
of these best practices and identify needs.
Child Care
    Child care remains a concern for military families, as evidenced by 
a recent Pew Center on the States survey (http://www.preknow.org/
documents/2011--MilitaryFamiliesSurvey.pdf). We are pleased that in 
addition to building new Child Development Centers, DOD and the 
Services are taking innovative steps to address these concerns.
    In December, DOD announced a new pilot initiative in 13 States 
aimed at improving the quality of child care within communities, which 
should translate into increased child care capacity for military 
families living in geographically dispersed areas. Last year, DOD 
contracted with SitterCity.com to help military families find 
caregivers and military subsidized child care providers. The military 
Services and the National Association of Child Care Resource and 
Referral Agencies (NACCRRA) continue to partner to provide subsidized 
childcare to families who cannot access installation based child 
development centers.
    At our Operation Purple Healing Adventures camp for families of 
the wounded, ill, and injured, families continue to tell us there is a 
tremendous need for child care services at or near military treatment 
facilities. Families need child care to attend medical appointments, 
especially mental health appointments. Our Association encourages the 
expansion of drop-in child care for medical appointments on the DOD or 
VA premises or partnerships with other organizations to provide this 
valuable service.
    We appreciate the requirement in the NDAA for Fiscal Year 2010 
calling for a report on financial assistance provided for child care 
costs across the Services and components to support the families of 
servicemembers deployed in support of a contingency operation and we 
look forward to the results.
    Our Association urges Congress to sustain funding and resources to 
meet the child care needs of military families to include hourly, drop-
in, and increased respite care across all Services for families of 
deployed servicemembers and the wounded, ill, and injured, as well as 
those with special needs family members.
Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and must be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we commissioned the RAND 
Corporation to conduct a longitudinal study on the experience of 1,500 
families. RAND followed these families for 1 year, and interviewed the 
nondeployed caregiver/parent and one child per family between 11 and 17 
years of age at three time points over the year. Recruitment of 
participants was extremely successful because families were eager to 
share their experiences. The research addressed three key questions:

        <bullet> How are school-age military children faring?
        <bullet> What types of issues do military children face related 
        to deployment?
        <bullet> How are nondeployed caregivers handling deployment and 
        what challenges do they face?

    In January 2011, RAND released the report, Views from the 
Homefront: The Experience of Youth and Spouses from Military Families 
(http://www.rand.org/pubs/technical--reports/TR913.html),detailing the 
longitudinal research findings. The research showed:

        <bullet> Older teens reported more difficulties during 
        deployment and reintegration.
        <bullet> Girls reported more difficulties during reintegration.
        <bullet> There were few differences on military 
        characteristics, but Reserve component youth reported more 
        difficulties during deployment.
        <bullet> Reserve component caregivers reported more challenges 
        with deployment and reintegration.
        <bullet> The total number of months away mattered more than the 
        number of deployments.
        <bullet> There is a direct correlation between the mental 
        health of the caregiver and the well-being of the child.
        <bullet> Quality of family communication mattered to both 
        children and caregiver well-being.

    What are the implications of these findings? Families facing longer 
deployments need targeted support--especially for older teens, girls 
and the Reserve component. Support needs to be in place across the 
entire deployment cycle, including reintegration, and some non-deployed 
parents may need targeted mental health support. One way to address 
these needs would be to create a safe, supportive environment for older 
youth and teens. Dedicated installation Youth Centers with activities 
for our older youth would go a long way to help with this. Since many 
military families, especially those with older children, live off the 
installation, enhanced partnerships between DOD and national youth-
serving organizations are also essential. DOD's current work with the 
4-H program is an example of this outreach and support of military 
children in the community. DOD can encourage other organizations to 
share outreach strategies and work together to strengthen a network of 
support for military youth in their civilian communities. We must 
ensure, however, that, once we have encouraged these community 
organizations and services to engage with families, we also encourage 
installations and installation services to be collaborative and not set 
up roadblocks to interaction and support.
    To address the issues highlighted by our research, our Association 
hosted a summit in May 2010, where we engaged with experts to develop 
research-based action items. Our Blue Ribbon Panel outlined innovative 
and pragmatic ideas to improve the well-being of military families, 
recognizing it is imperative solutions involve a broad network of 
government agencies, community groups, businesses, and concerned 
citizens.
    We've published the recommendations from the summit in Finding 
Common Ground: A Toolkit for Communities Supporting Military Families. 
The toolkit is organized in a format similar to our Association's well-
received Military Kids and Teens Toolkits. It contains cards for each 
of the intended communities--including Educators, Friends and Family, 
Senior leaders, Employers, and Health Care Providers--whose help is so 
important to military families. It also contains the summary document 
with the recommendations formulated by our Blue Ribbon Panel and summit 
participants.
    Our goal was to create a user-friendly resource, with easily-
achievable action items and pertinent resources to guide everyone who 
wants to support military families but may not know how. The toolkit 
lists concrete actions individuals, organizations, and communities can 
take to assist and support our military families. We hope that when 
someone receives a copy, they will go first to the card that most fits 
their relationship to military families and look for ideas and 
resources. We then hope they will take the time to explore other cards 
and the summit summary. While many of the suggested actions are simple, 
we've also presented some of the tougher things that require the 
building of partnerships and a longer-term focus. These actions are not 
exhaustive. It is our hope this toolkit will start conversations and 
stimulate action. Everyone can contribute--it doesn't need to be 
complicated or expensive. Just remembering to include military families 
in outreach is a start.
    Our Association feels that more dedicated resources, such as youth 
or teen centers and enhanced partnerships with national youth-serving 
organizations, would be important ways to better meet the needs of our 
older youth and teens during deployment.
Families Overseas
    Families stationed overseas face increased challenges when their 
servicemember is deployed into theater. One such challenge we have 
heard from families stationed in EUCOM concerns care for a family 
member, usually the spouse, who may be injured or confined to bed for 
an extended illness during deployment. Instead of pulling the 
servicemember back from theater, why not provide transportation for an 
extended family member or friend to come from the States to care for 
the injured or ill family member? This has been a recommendation from 
the EUCOM Quality of Life conference for several years.
    Our Association asks that transportation be provided for a 
designated caregiver to an overseas duty station to care for an 
incapacitated spouse when a servicemember is deployed.
Military Housing
    In our recent study conducted by RAND, researchers found that 
living in military housing was related to fewer caregiver-reported 
deployment-related challenges. Fewer caregivers who lived in military 
housing reported their children had difficulties adjusting to parent 
absence (e.g., missing school activities, feeling sad, or not having 
peers who understand what their life is like) as compared to caregivers 
who rented homes. The study team explored the factors that determine a 
military family's housing situation in more detail. Among the list of 
potential reasons provided for the question, ``Why did you choose to 
rent?'' researchers found that the top three reasons parents/caregivers 
cited for renting included: military housing was not available (31 
percent), renting was most affordable (28 percent), and preference to 
not to invest in the purchase of a home (26 percent).
    Privatized housing expands the opportunity for families to live on 
the installation and is a welcome change for military families. We are 
pleased with the annual report that addresses the best practices for 
executing privatized housing contracts. As privatized housing evolves, 
the Services are responsible for executing contracts and overseeing the 
contractors on their installations. With more joint basing, more than 
one Service often occupies an installation. The Services must work 
together to create consistent policies not only within their Service, 
but across the Services as well. Pet policies, deposit requirements, 
and utility policies are some examples of differences across 
installations and across Services. How will Commanders address these 
variances under joint basing? Military families face many transitions 
when they move, and navigating the various policies and requirements of 
each contractor is frustrating and confusing. It's time for the 
Services to increase their oversight and work on creating seamless 
transitions by creating consistent policies across the Services.
    We are pleased the NDAA for Fiscal Year 2010 calls for a report on 
housing standards and housing surveys used to determine the Basic 
Allowance for Housing (BAH) and look forward to reviewing the 
recommendations once the report is available. We hope Congress will 
work to address BAH inequities.
    We ask Congress to consider the importance of family well-being by 
addressing BAH inequities.
Commissaries and Exchanges
    Our Association thanks this subcommittee for holding two hearings 
this year to discuss the importance of sustaining Morale, Welfare, and 
Recreation (MWR) programs and the commissary and exchange systems. We 
thank you, Mr. Chairman, for emphasizing the importance of MWR ``as 
essential elements within a healthy military community.'' We agree with 
you that these programs must not ``become easy targets for the budget 
cutters.'' The military resale hearing reinforced the importance of the 
commissary and exchange and stressed the need for them to remain 
fiscally sound without reducing the benefit to military families. Our 
Association couldn't agree more and appreciates the subcommittee's 
commitment to preserving these quality programs for military families, 
especially during this era of increased budget austerity.
    Our Association is concerned about one issue raised at the recent 
resale hearing: the potential negative repercussions of the Tax 
Increase Prevention and Reconciliation Act of 2005 (TIPRA) on the 
military community. This legislation included a provision, Section 511, 
mandating Federal, State, and local governments to withhold 3 percent 
from payments for goods and services to contractors after December 31, 
2010. While the implementation has been delayed until December 31, 
2011, we believe this withholding requirement will have a direct impact 
on military families. We believe vendors who provide products sold in 
exchanges and commissaries will end up passing on the implementation 
costs to patrons and will be less willing to offer deals, allowances, 
promotions, and prompt payment discounts, which will thus diminish the 
value of the benefit for military families. The implementation costs 
for the exchange systems may also result in reduced dividends for MWR 
programs, which already operate on tight budgets. Although our 
Association realizes this tax issue does not fall under the Armed 
Services Committee jurisdiction, we ask Congress to repeal Section 511 
of TIPRA in order to protect this important benefit for military 
families. If full repeal is not possible, we urge Congress to exempt 
the Defense Commissary Agency, Exchanges and MWR programs from the 
withholding requirement. Military families, who have borne the burden 
of this war for nearly 10 years, should not have to incur additional 
costs at commissaries and exchanges due to the effects of this law, 
which will compromise their quality of life programs when they need 
them most.
    The commissary benefit is a vital part of the compensation package 
for servicemembers and retirees, and is valued by them, their families, 
and survivors. Our surveys and those conducted by DOD indicate that 
military families consider the commissary one of their most important 
benefits. In addition to providing average savings of more than 30 
percent over local supermarkets, commissaries provide a sense of 
community. Commissary shoppers gain an opportunity to connect with 
other military families and are provided with information on 
installation programs and activities through bulletin boards and 
publications. Commissary shoppers also receive nutritional information 
through commissary promotions and campaigns, as well as the opportunity 
for educational scholarships for their children.
    Active duty and Reserve component families have benefited greatly 
from the addition of case lot sales. Our Association thanks Congress 
for allowing the use of proceeds from surcharges collected at these 
sales to help defray their costs. Case lot sales continue to be 
extremely well received and attended by family members not located near 
an installation. According to Army Staff Sgt. Jenny Mae Pridemore, 
quoted in the Charleston Daily Mail, ``We don't have easy access to a 
commissary in West Virginia and with the economy the way it is everyone 
is having a tough time. The soldiers and the airmen really need this 
support.'' On average, case lot sales save families between 40 and 50 
percent compared to commercial prices. This provides tremendous 
financial support for our remote families, and is a tangible way to 
thank them for their service to our Nation.
    In addition to commissary benefits, the military exchange system 
provides valuable cost savings to members of the military community, 
while reinvesting their profits in essential MWR programs. Our 
Association strongly believes that every effort must be made to ensure 
that this important benefit and the MWR revenue is preserved, 
especially as facilities are down-sized or closed overseas.
    Our Association urges Congress to continue to protect the 
commissary and exchange benefits, and preserve the MWR revenue all of 
which are vital to maintaining a healthy military community.
    We also ask Congress to repeal Section 511 of TIPRA. If full repeal 
is not achievable, we urge Congress to exempt the Defense Commissary 
Agency, Exchanges and MWR programs from this withholding requirement.
National Guard and Reserve
    Our Association has long recognized the unique challenges our 
National Guard and Reserve families face and their need for additional 
support. Reserve component families are often geographically dispersed, 
live in rural areas, have servicemembers deployed as individual 
augmentees, and do not consistently have the same family support 
programs as their active duty counterparts. According to the research 
conducted for us by the RAND Corporation, spouses of servicemembers in 
the National Guard and Reserves reported poorer emotional well-being 
and greater household challenges than their full-time active duty 
peers. Our Association believes that greater access to resources 
supporting National Guard and Reserve caregivers is needed to further 
strengthen our Reserve component families.
    We appreciate the great strides that have been made in recent years 
by both Congress and the Services to help support our Reserve component 
families. Our Association would like to thank Congress for the NDAA for 
Fiscal Year 2011 provision authorizing travel and transportation for 
members of the Uniformed Services and up to three designees to attend 
Yellow Ribbon Reintegration Program events, and for the provision 
enhancing the Yellow Ribbon Reintegration Program by authorizing 
service and State-based programs to provide access to all 
servicemembers and their families. We appreciate your ongoing support 
of the Yellow Ribbon Reintegration Program and ask that you continue 
funding this quality of life program for Reserve component families.
    Our Association is gratified that family readiness is now seen as a 
critical component to mission readiness. We have long believed that 
robust family programs are integral to maintaining family readiness, 
for both our active duty and Reserve component families. We are pleased 
the Department of Defense Reserve Family Readiness Award recognizes the 
top unit in each of the Reserve components that demonstrate superior 
family readiness and outstanding mission readiness.
    Our Association asks Congress to continue funding the Yellow Ribbon 
Reintegration Program and stresses the need for greater access to 
resources supporting our Reserve component caregivers.
Flexible Spending Accounts
    Congress has provided the Armed Forces with the authority to 
establish Flexible Spending Accounts (FSA), yet the Service Secretaries 
have not established these important tax savings accounts for 
servicemembers. We are pleased H.R. 791 and S. 387 have been introduced 
to press each of the seven Service Secretaries to create a plan to 
implement FSAs for uniformed servicemembers. FSAs were highlighted as a 
key issue presented to the Army Family Action Plan at their 2011 
Department of the Army level conference. FSAs would be especially 
helpful for families with out-of-pocket dependent care and health care 
expenses. It is imperative that FSAs for uniformed servicemembers take 
into account the unique aspects of the military lifestyle, such as 
Permanent Change of Station (PCS) moves and deployments, which are not 
compatible with traditional FSAs. We ask that the flexibility of a 
rollover or transfer of funds to the next year be considered.
    Our Association supports Flexible Spending Accounts for uniformed 
servicemembers that account for the unique aspects of military life 
including deployments and PCS moves.
Financial Readiness
    Ongoing financial literacy and education is critically important 
for today's military families. Military families are not a static 
population; new servicemembers join the military daily. For many, this 
may be their first job with a consistent paycheck. The youthfulness and 
inexperience of junior servicemembers makes them easy targets for 
financial predators. Financial readiness is a crucial component of 
family readiness. The Department of Defense Financial Readiness 
Campaign brings financial literacy to the forefront and it is important 
that financial education endeavors include military families.
    Our Association looks forward to the establishment of the Office of 
Servicemember Affairs this July. We encourage Congress to monitor the 
implementation of this office to ensure it provides adequate support to 
servicemembers and their families. Military families should have a 
mechanism to submit a concern and receive a response. The new office 
must work in partnership with DOD.
    Military families are not immune from the housing crisis. We 
applaud Congress for expanding the Homeowners' Assistance Program to 
wounded, ill, and injured servicemembers, survivors, and servicemembers 
with PCS orders meeting certain parameters. We have heard countless 
stories from families across the Nation who have orders to move and 
cannot sell their home. Due to the mobility of military life, military 
homeowners must be prepared to be a landlord. We encourage DOD to 
continue to track the impact of the housing crisis on military 
families.
    We appreciate the increase to the Family Separation Allowance (FSA) 
that was made at the beginning of the war. In more than 10 years, 
however, there has not been another increase. We ask that the FSA be 
indexed to the Cost-of-Living Allowance (COLA) to better reflect rising 
costs for services.
    Our Association asks Congress to increase the FSA by indexing it to 
COLA.
Continuing Resolution
    As Congress begins the debate over the fiscal year 2012 budget, our 
Association is concerned about the impact of the Continuing Resolution 
and the lack of a fiscal year 2011 Defense Appropriations law on our 
military families. DOD has been forced to operate under Continuing 
Resolutions for more than 5 months. Short extensions do not allow the 
Services to adequately plan to fund upcoming programs or support 
services that are critical to supporting servicemembers and their 
families. In March, Deputy Secretary of Defense William J. Lynn III 
testified before the Senate Appropriations Committee Subcommittee on 
Defense and provided one example of how the Continuing Resolution is 
negatively impacting military families. In his written testimony, he 
stated, ``Because of the [Continuing Resolution], the Navy has had to 
reduce its notice of Permanent Change of Station moves from the usual 6 
months to two, which hurts Navy personnel and puts a greater strain on 
their families.'' Without final orders in hand, a servicemember is not 
able to prepare his family for a move by requesting medical records, 
school transcriptions, arrange the movement of household goods, or put 
their name of the housing waiting list. This is one example of a myriad 
of programs which have been reduced or cut because they do not have 
funds to operate. A series of Continuing Resolutions hurts our military 
families. Our Association recommends Congress work quickly to pass the 
Defense Appropriations Act for Fiscal Year 2011.
    Our Association urges Congress to pass the Defense Appropriations 
Act for Fiscal Year 2011 immediately. Funding delays cause the Services 
to cut essential programs, which negatively impacts military families.
                           ii. family health
    When considering changes to the health care benefit, our 
Association urges policymakers to recognize the unique conditions of 
service and the extraordinary sacrifices demanded of military members 
and families. Repeated deployments, caring for the wounded, and the 
stress of uncertainty create a need for greater access to professional 
behavioral health care for all military family members.
    Family readiness calls for access to quality health care and mental 
health services. Families need to be assured the various elements of 
their military health system are coordinated and working as a 
synergistic system. The direct care system of Military Treatment 
Facilities (MTFs) and the purchased care segment of civilian providers 
under the TRICARE contracts must work in tandem to meet military 
readiness requirements and ensure they meet access standards for all 
military beneficiaries.
Improving Access to Care
    Our Association continues to monitor the experience of military 
families with accessing care within both the direct care and purchased 
care segments of the Military Health System (MHS). We are concerned our 
MTFs are stressed from 10 years of provider deployments, which directly 
affects the quality, access, and cost of health care. We have 
consistently heard from families that their greatest health care 
challenge has been getting timely care in both the direct and the 
purchased care systems. Their main challenges with the direct care 
system are:

        <bullet> access to their Primary Care Managers (PCM)
        <bullet> availability of after-hours care
        <bullet> having appointments available in MTFs for 60, 90, or 
        120-day follow-ups recommended by their providers.

    Beneficiaries' main challenges with the purchased care system, 
according to TRICARE's Health Care Survey of DOD Beneficiaries 2009 
Annual Report, are difficulty in accessing personal doctors and 
specialty care.
    Our Association hears frequent complaints by families regarding the 
referral process. Families are often unfamiliar with the process at 
their MTF and in their TRICARE region and frequently report 
difficulties in obtaining an appointment within access standards. 
Often, they find that a provider on the TRICARE Managed Care Support 
Contractor's list is no longer taking TRICARE or taking new patients. 
The difficulties sometimes cause the beneficiary to give up on the 
referral process and never obtain the specialty appointment their PCM 
believes they need. Our Association is concerned with the impact these 
delays or the lack of even getting the referral is having on the 
quality of care and beneficiary outcome. We cannot stress enough how 
continuity of care is important to maintain our families' quality of 
care. We recommend Congress require a DOD report on the management of 
the referral process--both within the direct care system and between 
the direct care and purchased care sectors--and the impact on 
beneficiaries' access to care.
    We see even more issues ahead that could affect beneficiary access. 
The TRICARE Management Activity (TMA) will roll out the new TRICARE 
Third Generation (T3) contract in the TRICARE North Region beginning 
April 2011. At that time, the remaining two TRICARE Regions will still 
be operating under the existing TRICARE Next Generation (T-Nex) 
contract. Because of the recent announcement of a T3 award change in 
the South Region and subsequent protest filed, full T3 implementation 
will remain in a holding pattern, preventing contractors' renegotiation 
with approximately 66 percent of our civilian TRICARE providers. With 
the demands and uncertainties to providers in regards to health care 
reform's added requirements and expenses along with looming Medicare 
reimbursement rate changes, we are concerned about providers' long-term 
willingness to remain in the TRICARE network and about the contractors' 
ability to recruit new providers. Thus, the combination of factors may 
result in a decreased access to care for military families.
    National Guard and Reserve Member Family Access to Care
    We remain especially concerned about access to care for National 
Guard and Reserve families. These families also need increased 
education about the multiple types of TRICARE health care benefits in 
which they are eligible to participate. We recommend Congress request a 
report to assess the coordination and continuity of health care 
services for National Guard and Reserve families as they frequently 
move from activated TRICARE Prime coverage to non-activated status and 
TRICARE Reserve Select (TRS) or their employer civilian health care 
insurance plans. We also believe that paying a stipend to a mobilized 
National Guard or Reserve member for their family's coverage under 
their employer-sponsored insurance plan while the servicemember is 
mobilized may work out better for many families in areas where the 
TRICARE network may not be robust.
    TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. We are appreciative Congress passed the Medicare and 
Medicaid Extenders Act of 2010 (P.L. 111-309), which provided a 1-year 
extension of current Medicare physician payment rates until December 
31, 2011. As the 112th Congress takes up Medicare legislation this 
year, we ask you to consider how this legislation will impact military 
health care, especially our most vulnerable populations, our families 
living in rural communities, and those needing access to mental health 
services.
    While we have been impressed with the strides TMA and the TRICARE 
contractors are making in adding providers, especially mental health 
providers to the networks, we believe more must be done to persuade 
health care and mental health care providers to participate and remain 
in the TRICARE system, even if that means DOD must raise reimbursement 
rates. We frequently hear from providers who will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. National provider shortages in the mental 
health field, especially in child and adolescent psychology, are 
exacerbated in many cases by low TRICARE reimbursement rates, TRICARE 
rules, or military-unique geographic challenges, such as large military 
beneficiary populations in rural or traditionally-underserved areas. 
Many mental health providers are willing to see military beneficiaries 
on a voluntary status. We need to do more to attract mental health 
providers to join the TRICARE network. Increasing reimbursement rates 
is just one way of enticing them.
    We recommend Congress require a DOD report on the impact on 
beneficiaries of the MHS referral process.
    We ask Congress also to require a report assessing the coordination 
and continuity of health care services for National Guard and Reserve 
families as they transition from one TRICARE status to another.
    Lastly, we ask for a legislative change to allow Reserve component 
families to be given the choice of a stipend to continue their 
employer-provided care during the deployment of the servicemember.
Pharmacy
    For several years now, our Association has cautioned about DOD 
generalizing findings of certain civilian beneficiary pharmacy 
behaviors and automatically applying them to the military population. 
As part of the President's fiscal year 2011 budget proposal, DOD 
recently announced it would adjust certain pharmacy co-payments. DOD's 
intent is to drive beneficiaries away from retail pharmacies and toward 
TRICARE Mail Order Pharmacy (TMOP) utilization, which should lower 
government costs and increase DOD savings. Our Association has long 
championed a zero co-payment for generic Tier 1 medications in TMOP and 
we applaud DOD's proposal to implement this as one of their cost-saving 
measures. While we believe the rationale behind the proposed changes is 
sound, we request that Congress require DOD to report on how these 
changes impact beneficiary behavior and health care quality outcomes.
    We do have some concerns with the proposed increase in co-payments 
for retail formulary and non-formulary medications and the impact this 
increase will have on beneficiaries who have no choice but to rely on 
the retail pharmacy for urgent non-maintenance medications. For 
example, the young families of deployed National Guard or Reserve 
members or recruiters usually do not live close to an MTF pharmacy. 
When their child needs an antibiotic for an urgent medical condition, 
such as pneumonia or an ear infection, they have no other option than 
the retail pharmacy. Currently, they pay $3 for a course of a generic 
antibiotic treatment; under DOD's proposal, they would pay $5. 
Beneficiaries who need certain medications not suited for TMOP because 
they are a narcotic or their chemical compound is not suitable for home 
delivery would also pay more under DOD's proposal.
    We are also concerned about the effect of the proposed co-pay 
changes on our wounded, ill, and injured servicemembers and those 
already medically retired. This population may be adversely affected 
because of the frequent alteration to their medication protocols by 
their health care providers in order to achieve optimum medical 
benefits for their often-changing medical conditions. Their medications 
may appear to be a maintenance drug, but are actually intended to be a 
used only for short-term relief. Sending them to the mail order for a 
90-day supply just because the co-payment is less may in fact cost the 
beneficiary and the government more because of frequent changes in 
doses. Many of the prescriptions needed by the wounded are for newly 
FDA-approved medications, which will most likely place them in non-
Formulary Tier 3 status. This may place an unfair financial burden on 
this population because they tend to utilize a higher number of 
medications.
    Beneficiaries who have no choice in where they must obtain their 
medications should not be subjected to co-payment increases aimed at 
changing the behavior of those who do have choices. DOD must consider 
the possible effects of its co-payment changes as it plans for 
implementation and may need to devise alternative co-payment 
adjustments to protect beneficiaries during these situations. We look 
forward to discussing potential options with Members of Congress and 
DOD.
    In addition to the elimination of the TMOP co-payment for generic 
drugs as an enticement for beneficiaries to switch maintenance 
medications from retail to TMOP, we believe there are additional ways 
DOD could experience increased pharmacy savings. These include:

        <bullet> Make all medications available through TRICARE Retail 
        pharmacy also available through TRICARE Mail Order Pharmacy 
        (TMOP)
        <bullet> Provide medications treating chronic conditions, such 
        as asthma, diabetes, and hypertension at the lowest level of 
        co-payment regardless of brand or generic status
        <bullet> Implement The Task Force on the Future of Military 
        Health Care recommendation to include over-the-counter (OTC) 
        drugs as a covered pharmacy benefit, thus eliminating the need 
        for more costly pharmaceuticals that have the same efficacy as 
        OTC options.

    The new T3 contract will provide TRICARE regional contractors and 
the pharmacy contractor with the ability to link pharmacy data with 
disease management. This will allow for better case management, 
increase adherence/compliance, and decrease cost, especially for 
beneficiaries suffering from chronic illness and multiple conditions. 
However, this valuable tool will only be available this year in the 
TRICARE North Region because the T3 contract still remains under 
protest in the remaining two Regions.
    We applaud the proposed changes to co-payments for TMOP 
participants as a way to drive more beneficiaries to TMOP to increase 
DOD efficiencies. We support the rationale behind proposed changes to 
the co-payments for the Retail pharmacy, but caution that beneficiaries 
should not be penalized for the purchase of urgent, non-maintenance 
drugs or those drugs not available via mail order.
National Health Care Proposal
    Our Association is cautious about the changes contained in the 
Patient Protection and Affordable Care Act (P.L. 111-148) and their 
potential impact on TRICARE and CHAMPVA. We thank Congress for 
including a provision in the NDAA for Fiscal Year 2011 to allow TRICARE 
to provide coverage for TRICARE eligible young adult beneficiaries up 
to the age of 26. Military families have been asking for this added 
benefit. We await its implementation and are appreciative that DOD is 
working hard to ensure TRICARE Young Adult (TYA) Standard/Extra 
coverage is made available before beneficiaries' college age students 
graduate this May. We appreciate the inclusion of a TRICARE Young Adult 
Prime option by Congress and look forward to its implementation this 
fall, as well. We understand DOD is addressing the issue of access to 
MTFs for those eligible TYA Prime non-ID card holders. However, we 
still need congressional action to allow CHAMPVA coverage for eligible 
young adults up to the age of 26.
    Congress needs to act to provide health care coverage to young 
adults, up to the age of 26, who are eligible for CHAMPVA.
Cost Saving Strategies in the 2012 Budget
    We appreciate DOD's continued focus on cost savings strategies in 
the 2012 budget. DOD's proposed TRICARE changes include a change in 
enrollment fees for TRICARE Prime for under age 65 retirees and a 
change in pharmacy co-pays. DOD should also incur savings through 
better management of health care costs. Our Association has always 
supported a mechanism to provide for modest increases to TRICARE Prime 
enrollment fee for retirees under age 65. TRICARE Prime, the managed 
care option for military beneficiaries, provides guaranteed access, low 
out-of-pocket costs, additional coverage, and more continuity of care 
than the basic military health benefit of TRICARE Standard. The annual 
enrollment fee of $230 per year for an individual retiree or $460 for a 
family has not been increased since the start of TRICARE Prime in 1995.
    We agree that DOD's proposed fiscal year 2012 increase of $5 per 
month per family and $2.50 per month per individual plan is indeed 
modest. We applaud DOD for deciding not to make any changes to the 
TRICARE benefit for active duty, active duty family members, medically 
retired servicemembers, and survivors of servicemembers and for not 
making any changes to the TRICARE Standard and TRICARE for Life (TFL) 
benefit.
    We have some concerns regarding DOD's selection of a civilian-based 
index in determining TRICARE Prime retiree enrollment fee increases 
after 2012. Our Association has always supported the use of COLA as a 
yearly index tied to TRICARE Prime retiree enrollment fee increases. We 
believe if DOD thought the rate of $230 for individual and $460 for 
family was appropriate in 1995, then yearly increases tied to COLA 
would maintain that same principle. Our objection to the utilization of 
a civilian index is based on our concern that civilian health care 
experts cannot agree on an accurate index on which to base civilian 
health care yearly cost increases. The Task Force on the Future of 
Military Health Care ``strongly recommended that DOD and Congress 
accept a method for indexing that is annual and automatic.'' However, 
the Task Force recommended ``using a civilian-only rather than total 
cost (including civilian and MTF costs for Prime beneficiaries) because 
the Task Force and DOD have greater confidence in the accuracy of the 
civilian care data and its auditability.'' We ask Congress to adopt the 
Task Force's DOD accountability recommendation and require DOD to 
become more accurate and establish a common cost accounting system 
across the MHS. Until it can do so, however, we believe increases tied 
to COLA are the most fair to beneficiaries and predictable for DOD.
    We do not support DOD's budget proposal to change the U.S. Family 
Health Plan (USFHP) eligibility, asking newly enrolled beneficiaries to 
transition from USFHP once they become Medicare/TRICARE for Life 
eligible. Our Association believes USFHP is already providing TMA's 
medical home model of care, maintaining efficiencies, capturing 
savings, and improving patient outcomes. Every dollar spent in 
preventative medicine is captured later when the onset of beneficiary 
co-morbid and chronic diseases are delayed. It is difficult to quantify 
the long-term savings not only in actual cost to the health care plan--
and thus to the government--but to the improvement in the quality of 
life for the beneficiary. Removing beneficiaries from USFHP at a time 
when they and the system will benefit the most from their preventative 
and disease management programs would greatly impact the continuity and 
quality of care to our beneficiaries and only cost shift the cost of 
their care from one government agency to another. Almost all USFHP 
enrollees already purchase Medicare Part B in case they decide to leave 
the plan or spend long periods of time in warmer parts of the country. 
There must be another mechanism in which beneficiaries would be allowed 
to continue in this patient-centered program. USFHP also meets the 
Patient Protection and Accountability Care Act's definition of an 
Accountable Care Organization. They certainly have the model of care 
desired by civilian health care experts and should be used by DOD as a 
method to test best-practices that can be implemented within the direct 
care system.
    Our Association understands the need for TRICARE to align itself 
with Medicare reimbursement payments. DOD's proposal to implement 
reimbursement payment for Sole Community Hospitals is another example 
of its search for efficiencies. According to TMA, 20 hospitals that 
serve military beneficiaries could be affected by this change. We 
appreciate the 4-year phased-in approach. However, our Association 
recommends Congress encourage TMA to reach out to these hospitals and 
provide waivers if warranted and provide oversight to ensure 
beneficiaries aren't unfairly impacted by this proposal.
    Our Association approves of DOD's modest increase to TRICARE Prime 
enrollment fees for working age retirees.
    We recommend that future increases to TRICARE Prime enrollment fees 
for working age retirees be indexed to retired pay cost-of-living 
adjustments.
    We recommend that Medicare-eligible beneficiaries using the USFHP 
be allowed to remain in the program.
    We recommend Congress encourage TMA to reach out to Sole Community 
hospitals serving large numbers of military beneficiaries and provide 
waivers if warranted.
Other Cost Saving Proposals
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:

        <bullet> Requiring the Comptroller General to audit MTFs on a 
        random basis until all have been examined for their ability to 
        provide quality health care in a cost-effective manner
        <bullet> Creating a committee, similar in nature to the 
        Medicare Payment Advisory Commission, to provide oversight of 
        the DOD Military Health System (MHS) and make annual 
        recommendations to Congress. The Task Force on the Future of 
        Military Health Care often stated it was unable to address 
        certain issues not within their charter or within the timeframe 
        in which they were commissioned to examine the issues. This 
        Commission would have the time to examine every issue in an 
        unbiased manner.
        <bullet> Establishing a Unified ``Joint'' Medical Command 
        structure. This was recommended by the Defense Health Board in 
        2006 and 2009 and included in the U.S. House Armed Service 
        Committee's NDAA for Fiscal Year 2011 proposal and passed by 
        the House of Representatives.

    We are supportive of TMA's movement toward a medical home model of 
patient and family-centered care within the direct and purchase care 
systems. An integrated health care model, where beneficiaries will be 
seen by the same health care team focused on well-being and prevention, 
is a well-known cost saver for health care expenditures. Our concern is 
with the individual Services' interpretation of the medical home model 
and its ability to truly function as designed. Our MTFs are still 
undergoing frequent provider deployments; therefore, the model must be 
staffed well enough to absorb unexpected deployments to theater, normal 
staff rotation, and still maintain continuity of providers within the 
medical home.
    Our Association believes right-sizing to optimize MTF capabilities 
through innovating staffing methods; adopting coordination of care 
models, such as medical home; timely replacement of medical facilities 
utilizing ``world class'' and ``unified construction standards;'' and 
increased funding allocations, would allow more beneficiaries to be 
cared for in the MTFs. This would be a win-win situation because it 
increases MTF capabilities, which DOD asserts is the most cost 
effective. It also allows more families, who state they want to receive 
care within the MTF, the opportunity to do so. The Task Force made 
recommendations to make the DOD MHS more cost-efficient, which we 
support. They conclude the MHS must be appropriately sized, resourced, 
and stabilized and make changes in its business and health care 
practices. We encourage Congress to include the recommendations of the 
Task Force on the Future of Military Health Care in this year's NDAA 
for Fiscal Year 2012. These include:

        <bullet> Restructuring TMA to place greater emphasis on its 
        acquisition role
        <bullet> Examining and implementing strategies to ensure 
        compliance with the principles of value-driven health care
        <bullet> Incorporating health information technology systems 
        and implementing transparency of quality measures and pricing 
        information throughout the MHS (This is also a civilian health 
        care requirement in the recently passed Patient Protection and 
        Affordable Care Act.)
        <bullet> Reassessing requirements for purchased care contracts 
        to determine whether more cost effective strategies can be 
        implemented
        <bullet> Removing systemic obstacles to the use of more 
        efficient and cost-effective contracting strategies.
Behavioral Health Care
    Our Nation must help returning servicemembers and their families 
cope with the aftermath of war. DOD, the Department of Veterans Affairs 
(VA), and State agencies must partner in order to address behavioral 
health issues early in the process and provide transitional mental 
health programs, especially during PCS moves. Partnering will also 
capture the National Guard and Reserve member population, who often 
straddle these agencies' health care systems.
    Full Spectrum of Care
    As the war continues, the call from families who need a full 
spectrum of behavioral health services--from preventative care and 
stress reduction techniques, to counseling and medical mental health 
services--is growing louder. The military offers a variety of 
psychological health services, both preventative and treatment, across 
many agencies and programs. However, as servicemembers and families 
experience numerous lengthy and dangerous deployments, we believe the 
need for confidential, preventative psychological health services will 
continue to rise. More importantly, this need will remain high even 
after military operations scale down.
    The rise in suicides among our Active Duty and Reserve component 
servicemembers demonstrates the need for these mental health services 
are at dangerous levels. In the research they conducted for us, RAND 
found military children reported higher anxiety signs and symptoms than 
their civilian counterparts. A recent study by Gorman, et. al (2010), 
Wartime Military Deployment and Increased Pediatric Mental and 
Behavioral Health Complaints, found an 11 percent increase in 
outpatient mental health and behavioral health visits for children from 
the ages of 3-8 during 2006-2007. There was an 18 percent increase in 
pediatric behavioral health and a 19 percent increase in stress 
disorders when a parent was deployed. They also found an 11 percent 
decrease in all other health care related visits. Additional research 
has found an increase in mental health services by non-deployed spouses 
during deployment. A study of TRICARE claims data from 2003-2006 
published last year by the New England Journal of Medicine showed an 
increase in mental health diagnoses among Army spouses, especially for 
those whose servicemembers had deployed for more than 1 year.
    Our research also found the mental health of the caregiver directly 
affects the overall well-being of the children. Therefore, we need to 
treat the family as a unit as well as individuals. Communication is key 
in maintaining family unit balance, especially during the deployment 
phase. Our study also found a direct correlation between decreased 
communication and an increase in child and/or caregiver issues during 
deployment. Research is beginning to validate the high level of stress 
and mental strain our military families are experiencing.
    Access to Behavioral Health Care
    The body of research focusing on the increased levels of anxiety 
and utilization of mental health services and medication causes our 
Association to be even more concerned about the overall shortage of 
mental health providers in TRICARE's direct and purchased care network. 
DOD's Task Force on Mental Health stated timely access to the proper 
psychological health provider remains one of the greatest barriers to 
quality mental health services for servicemembers and their families. 
The Army Family Action Plan identified mental health issues as their 
number three issue for 2010.
    While TMA reports significant progress by the TRICARE contractors 
in adding to the numbers of mental health providers in the networks, 
these numbers do not automatically translate into a corresponding 
increase in access. A recently published report in the March 2011 issue 
of Military Medicine, ``Access to Mental Health Services for Active 
Duty and National Guard TRICARE Enrollees in Indiana,'' found that only 
25 percent of mental health providers listed in the TRICARE 
contractor's provider list were accepting new TRICARE beneficiaries. 
Researchers stated the number one barrier to Active Duty and Reserve 
component servicemembers, and their families in obtaining mental health 
care in Indiana was the accuracy of the TRICARE mental health provider 
list. Our Association often hears from families about the number of 
times they contact network providers using the TRICARE provider list 
only to find the providers cannot meet access standards, are no longer 
taking TRICARE, or are not taking new TRICARE patients. This study 
validated what the Task Force on Mental Health heard from families 
during their investigation. Provider lists must be up-to-date in order 
to handle real time demands by military families.
    While families are pleased more military mental health providers 
are available in theater to assist their servicemembers, they are 
disappointed with the resulting limited access to providers at home. 
Families report they are being turned away from obtaining appointments 
at their MTFs and clinics and told to seek services elsewhere. The 
military fuels the shortage by deploying its mental health providers, 
even its child and adolescent psychology providers, to combat zones.
    Family members are a key component to a servicemember's 
psychological well-being. They must be included in mental health 
counseling and treatment programs for servicemembers. Families want to 
be able to access care with a mental health provider who understands or 
is sympathetic to the issues they face. We recommend an extended 
outreach program to servicemembers, veterans, and their families of 
available mental health resources through DOD and VA with providers who 
inherently understand military culture. We appreciate the VA allowing 
family member access to Vet Centers; however, we encourage them to 
develop more family-oriented programs. DOD must also look beyond its 
own resources to increase mental health access by working with other 
government agencies, such as the Substance Abuse and Mental Health 
Services Administration (SAMHSA), especially SAMHSA's Military Families 
Strategic Initiative, and encourage State agencies to provide their 
already established services and programs to servicemembers, veterans, 
and family members. DOD must also educate these other agencies about 
military culture to make the providers more effective in their support.
    Frequent and lengthy deployments create a sharp need in mental 
health services by family members and servicemembers as they get ready 
to deploy and after their return. Embedding mental health providers in 
medical home modeled clinics will allow easier access for our families. 
There is also an increase in demand in the wake of natural disasters, 
such as hurricanes and fires. DOD must maintain a flexible pool of 
mental health providers that can increase or decrease rapidly in 
numbers depending on demand on the MHS side. Currently, Military Family 
Life Consultants and Military OneSource counseling are providing this 
type of preventative and entry-level service for military families. The 
web-based TRICARE Assistance Program offers another vehicle for non-
medical counseling, especially for those who live far from counselors. 
The military Services, along with military family members, need to be 
more aware of resources along the continuum of mental health support. 
Families need the flexibility of support in both the MHS and family 
support arenas, as well as coordination of support between these two 
entities.
    There are other barriers to access for some in our population. Many 
already live in rural areas, such as our Guard and Reserve, or they 
will choose to relocate to rural areas lacking available mental health 
providers. We need to address the distance issues families face in 
finding mental health resources and obtaining appropriate care. 
Isolated servicemembers, National Guard and Reserve, veterans, and 
their families do not have the benefit of the safety net of services 
and programs provided by MTFs, military installation based support 
programs, VA facilities, Community-Based Outpatient Centers, and Vet 
Centers. We hear the National Guard Bureau's Psychological Health 
Services (PHS) has not been established in all 50 States and is not 
working as designed to address members' mental health issues. We 
recommend that this program be evaluated to determine its 
effectiveness. We recommend the use of alternative treatment methods, 
such as telemental health; increasing mental health reimbursement rates 
for rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    The Defense Centers of Excellence is providing a transition benefit 
for mental health services for active duty servicemembers, called in 
Transition. Our Association recommends this program be expanded to 
provide the same benefit to active duty spouses and their children. 
Families often complain about the lack of seamless transition of care 
when they PCS. This program will not only provide a warm hand-off 
between mental health providers when moving between and within Regions, 
but more importantly, enable mental health services to begin during the 
move, when families are between duty stations and most venerable.
    The Mental Health Needs of Military Children
    Our Association is concerned about the impact of deployment and/or 
the injury of the servicemember is having on our most vulnerable 
population, children of our military servicemembers and veterans. Our 
study on the impact of the war on caregivers and children found 
deployments are creating layers of stressors, which families are 
experiencing at different stages. Teens especially carry a burden of 
care they are reluctant to share with the non-deployed parent in order 
to not ``rock the boat.'' They are often encumbered by the feeling of 
trying to keep the family going, along with anger over changes in their 
schedules, increased responsibility, and fear for their deployed 
parent. Children of the National Guard and Reserve face unique 
challenges since most do not live near a military installation. Our 
research found they have more difficulty with deployments and 
reintegration than their active duty counterpart.
    Our study respondents stated their communities did not understand 
what it was like to be military, and youth reported feeling 
misunderstood by people in their schools. We hear that school systems 
are generally unaware of this change in focus within these family units 
and are ill prepared to spot potential problems caused by these 
deployments or when an injury occurs.
    Also vulnerable are children who have disabilities that are further 
complicated by deployment or subsequent injury of the servicemembers. 
Their families find stress can be overwhelming, but are afraid to reach 
out for assistance for fear of retribution to the servicemember's 
career. They often choose not to seek care for themselves or their 
families. We appreciate the inclusion of a study on the mental health 
needs of military children in the NDAA for Fiscal Year 2010 and look 
forward to the findings.
    Suicide
    Our Association recognizes the action being taken by the Services 
and the VA to address the rising number of suicides in active duty, 
National Guard and Reserve servicemembers, and veterans. We appreciate 
the Army's recent suicide report and the DOD Suicide Prevention Task 
Force report. However, we are concerned that military and veteran 
families were not included when examining suicides. We have no idea 
whether families are also experiencing a rise in suicides and outpacing 
their civilian counterparts. Therefore, we recommend Congress require a 
DOD report on the number of family members who committed suicide, made 
a suicide attempt, or reported suicidal thoughts.
    We encourage Congress to direct DOD to include a mental health 
screening of military families each time they visit their primary 
health care provider. Providers should inquire about whether or not the 
family is experiencing a loved one's deployment. We also recommend DOD 
offer a pre- and post-deployment mental health screening on family 
members (similar to the PDHA and PDHRA currently being done for 
servicemembers).
    Caregiver Burnout
    In the 10th year of war, care for the caregivers must become a 
priority. There are several levels of caregivers. Our Association hears 
from the senior officer and enlisted spouses who are so often called 
upon to be the strength for others. We hear from the health care 
providers, educators, rear detachment staff, chaplains, and counselors 
who are working long hours to assist servicemembers and their families. 
They tell us they are overburdened, burnt out, and need time to 
recharge so they can continue to serve these families. These caregivers 
must be afforded respite care, given emotional support through their 
command structure, and be provided effective family programs. DOD 
should also take the opportunity to gather lessons learned and identify 
effective resiliency strategies deployed by our senior leaders and 
their spouses for future applications.
    Many providers have just returned home after completing a combat 
tour, only to be overwhelmed by treating active duty members, retirees, 
and their families. It can lead to provider compassion fatigue and 
create burnout. Our Association would like to be assured DOD is 
allowing these providers adequate dwell time and time to reintegrate 
with their families before returning to work. Beneficiaries rely 
heavily on MTF providers for their care, especially mental health, and 
need them to be fully ready to care for them. Providers must also be 
provided the opportunity to sharpen their practice skills, which may 
have not been used while serving in a combat zone. If they are not 
adequately addressed, this situation has the potential to negatively 
impact both the provider's ability to provide quality care and the 
beneficiary to receive quality care. We recommend Congress ask for a 
study to examine the impact the war is having on our MHS active duty 
providers and their families.
    Educating Those Who Care for Servicemembers and Families
    The families of servicemembers and veterans must be educated about 
the effects of Traumatic Brain Injury, Post-Traumatic Stress (PTS), 
Post-Traumatic Stress Disorder (PTSD), and suicide in order to help 
accurately diagnose and treat the servicemember/veteran's condition. 
These families are on the ``sharp end of the spear'' and are more 
likely to pick up on changes attributed to either condition and relay 
this information to their health care providers. Programs are being 
developed by each Service. However, they are narrow in focus targeting 
line leaders and health care providers, but not broad enough to capture 
our military family members and the communities they live in. As 
Services roll out suicide prevention programs, we need to include our 
families, communities, and support personnel.
    The DOD, VA, and State agencies must educate their health care and 
mental health professionals of the effects of mild Traumatic Brain 
Injury (mTBI) in order to help accurately diagnose and treat the 
servicemember's condition. They must be able to deal with polytrauma--
PTS and PTSD in combination with mTBI and multiple physical injuries.
    DOD, working with the TRICARE Managed Care Support Contractors and 
Service medical leadership, must reach out to educate civilian health 
care providers on how to identify signs and symptoms of mTBI, PTS, and 
PTSD. It must educate them about our military culture. We recommend a 
course on military culture be required in all health care and 
behavioral health care college curriculums and to offer a TMA approved 
military culture Continuing Education Unit for providers who have 
already graduated. TMA should incentivize providers to take these 
courses.
    Reintegration
    Reintegration programs become a key ingredient in the family's 
success. Our Association believes we need to focus on treating the 
whole family with programs offering readjustment information, education 
on identifying stress, substance abuse, suicide, and traumatic brain 
injury, and encouraging them to seek assistance when having financial, 
relationship, legal, and occupational difficulties. We appreciate the 
inclusion in the NDAA for Fiscal Year 2010 for education programs 
targeting pain management and substance abuse for families, especially 
as DOD reports an increase in medication-related deaths and 
prescription-related substance use. We recommend Congress request DOD 
report on its outreach and the effectiveness of its educational 
programs in addressing this issue.
    Successful return and reunion programs will require attention over 
the long term, as well as a strong partnership at all levels between 
the various mental health arms of DOD, VA, and State agencies. DOD and 
VA need to provide family and individual counseling to address these 
unique issues. Opportunities for the entire family and for the couple 
to reconnect and bond must also be provided. Our Association has 
recognized this need and established family retreats under our 
Operation Purple program in the National Parks, promoting family 
reintegration following deployment.
    Our Association is noticing a potential impact on the servicemember 
and their families during the 2 week R&R scheduled during a war related 
assignment. DOD's intent is to provide time for the servicemember to 
spend quality time with their family away from the everyday stress of 
war. However, families tell us that, even though they appreciate the 
time together, they find the experience can cause increased anxiety, 
disrupt a family that has already developed successful coping skills 
during deployment, and make it hard for the family to readjust and 
regain family balance after the servicemember has returned to war. 
Families lack important support mechanisms and resources on how to 
prepare for before, during, and after the 2 week R&R. Each family 
anticipates and handles the situation differently, but all say it is 
stressful. Our Association would like a study on the impact of the 2 
week R&R on deployed families and the servicemember. This report will 
help identify what tools our families and servicemembers need to be 
better prepared and determine if the program needs to be modified.
    We recommend an extended outreach program to servicemembers, 
veterans, and their families of available psychological health 
resources, such as DOD, VA, and State agencies.
    We encourage Congress to request DOD to include families in its 
Psychological Health Support survey and perform a pre- and post-
deployment mental health screening on family members (similar to the 
PDHA and PDHRA currently being done for servicemembers).
    Our Association recommends the ``inTransition'' program be expanded 
to provide the same benefit to active duty family members.
    We recommend the use of alternative treatment methods, such as 
telemental health; increasing mental health reimbursement rates for 
rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    We recommend Congress require a DOD report on the number of family 
members who have committed or attempted suicide.
    We recommend Congress ask for a study to examine the impact the war 
is having on our MHS active duty providers and their families.
Wounded Servicemembers Have Wounded Families
    Our Association asserts that behind every wounded servicemember and 
veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured servicemember must also consider the 
needs of the spouse, children, parents of single servicemembers and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately; and 
addressing problems and implementing initiatives upstream while the 
servicemember is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 3 years, we have piloted our Operation Purple 
Healing Adventures camp to help wounded, ill, and injured 
servicemembers and their families learn to play again as a family. We 
hear from the families who participate in this camp, as well as others 
dealing with the recovery of their wounded servicemembers, that, even 
with congressional intervention and implementation of the Services' 
programs, many issues still create difficulties for them well into the 
recovery period. Families find themselves having to redefine their 
roles following the injury of the servicemember. They must learn how to 
parent and become a spouse/lover with an injury. Each member needs to 
understand the unique aspects the injury brings to the family unit. 
Parenting from a wheelchair brings a whole new challenge, especially 
when dealing with teenagers. Parents need opportunities to get together 
with other parents who are in similar situations and share their 
experiences and successful coping methods. Our Association believes all 
must focus on treating the whole family, with DOD and VA programs 
offering skill based training for coping, intervention, resiliency, and 
overcoming adversities. Injury interrupts the normal cycle of 
deployment and the reintegration process. DOD, the VA, and 
nongovernmental organizations must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    DOD and the VA must do more to work together both during the 
treatment phase and the wounded servicemember's transition to ease the 
family's burden. They must break down regulatory barriers to care and 
expand support through the Vet Centers the VA medical centers, and the 
community-based outpatient clinics (CBOCs). We recommend DOD partner 
with the VA to allow military families access to mental health services 
throughout the VA's entire network of care using the TRICARE benefit. 
Before expanding support services to families, however, VA facilities 
must establish a holistic, family-centered approach to care when 
providing mental health counseling and programs to the wounded, ill, 
and injured servicemember or veteran.
    We remain concerned about the transition of wounded, injured, and 
ill servicemembers and their families from active duty status to that 
of the medically-retired. While we are grateful, DOD has proposed to 
exempt medically-retired servicemembers, survivors, and their families 
from the TRICARE Prime enrollment fee increases, we believe wounded 
servicemembers need even more assistance in their transition. We 
continue to recommend that a legislative change be made to create a 3-
year transition period in which medically-retired servicemembers and 
their families would be treated as active duty family members in terms 
of TRICARE fees, benefits, and MTF access. This transition period would 
mirror that currently offered to surviving spouses and would allow the 
medically-retired time to adjust to their new status without having to 
adjust to a different level of TRICARE support.
    Case Management
    Our Association still finds families trying to navigate a variety 
of complex health care systems alone, trying to find the right 
combination of care. Our most seriously wounded, ill, and injured 
servicemembers, veterans, and their families are often assigned 
multiple case managers. Families often wonder which one is the 
``right'' case manager. We believe DOD and the VA must look at whether 
the multiple, layered case managers have streamlined the processor have 
only aggravated it. We know the goal is for a seamless transition of 
care between DOD and the VA. However, we continue to hear from 
families, whose servicemember is still on active duty and meets the 
Federal Recovery Coordinator (FRC) requirement, who have not been told 
FRCs exist or that the family qualifies for one. We are awaiting the 
Government Accountability Office's (GAO) FRC report to determine how 
that program is working in caring for our most seriously wounded, ill, 
and injured servicemembers and veterans and what can be done to improve 
the case management process.
    Caregivers of the Wounded
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded servicemembers and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA health care providers 
because they tend to the needs of the servicemembers and the veterans 
on a regular basis. Their daily involvement saves DOD, VA, and State 
agency health care dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured servicemembers who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services.
    The VA has made a strong effort in supporting veterans' caregivers. 
DOD should follow suit and expand its definition, which still does not 
align with P.L. 111-163. We appreciate the inclusion in NDAA for Fiscal 
Year 2010 of compensation for servicemembers with assistance in 
everyday living and the refinement in NDAA for Fiscal Year 2011. The VA 
recently released their VA Caregiver Implementation Plan. Our 
Association had the opportunity to testify at a recent House Veterans' 
Affairs Committee hearing ``Implementation of Caregiver Assistance: Are 
we getting it right?'' about our concerns related to the VA's caregiver 
implementation plan. We believe the VA is waiting too long to provide 
valuable resources to caregivers of our wounded, ill, and injured 
servicemembers and veterans who had served in Operation Iraqi Freedom/
Operation Enduring Freedom/Operation New Dawn (OIF/OEF/OND). The intent 
of the law was to allow caregivers to receive value-added benefits in a 
timely manner in order to improve the caregiver's overall quality of 
life and train them to provide quality of care to their servicemember 
and veteran. The VA's interpretation also has the potential to impact 
the DOD's Special Compensation for servicemembers law passed as part of 
NDAA for Fiscal Year 2010 and modified in fiscal year 2011. The one 
area of immediate concern is the potential gap in financial 
compensation when the servicemember transitions to veteran status. The 
VA's application process and caregiver validation process appear to be 
very time intensive. The DOD compensation benefit expires at 90-days 
following separation from active duty. Other concerns include:

        <bullet> Narrower eligibility requirements than what the law 
        intended;
        <bullet> Lack of clarity concerning whether an illness is 
        covered, such as cancer from a chemical exposure;
        <bullet> Delay in the caregiver's receipt of health care 
        benefits if currently uninsured, respite care, and training; 
        and
        <bullet> Exclusion of non-medical care from the VA's caregiver 
        stipend.

    The VA's decision to delay access to valuable training may force 
each Service to begin its own training program. Thus, each Service's 
training program will vary in its scope and practice and may not meet 
VA's training objectives. This disconnect could force the caregiver to 
undergo two different training programs in order to provide and care 
and receive benefits.
    Our Association also believes the current laws do not go far 
enough. Compensation of caregivers should be a priority for DOD and the 
Secretary of Homeland Security. Non-medical care should be factored 
into DOD's compensation to servicemembers. The goal is to create a 
seamless transition of caregiver benefit between DOD and the VA. We ask 
Congress to assist in meeting that responsibility.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve health care education and provide needed training 
and resources for caregivers who assist disabled and aging veterans in 
their homes. DOD should evaluate these pilot programs to determine 
whether to adopt them for caregivers of servicemembers still on active 
duty. Caregivers' responsibilities start while the servicemember is 
still on active duty.
    Relocation Allowance and Housing for Medically-Retired Single 
        servicemembers
    Active Duty servicemembers and their spouses qualify through the 
DOD for military orders to move their household goods when they leave 
the military service. Medically retired servicemembers are given a 
final PCS move. Medically retired married servicemembers are allowed to 
move their family; however, medically retired single servicemembers 
only qualify for moving their own personal goods.
    Our Association suggests that legislation be passed to allow 
medically retired single servicemembers the opportunity to have their 
caregiver's household goods moved as a part of the medical retired 
single servicemember's PCS move. This should be allowed for the 
qualified caregiver of the wounded servicemember and the caregiver's 
family (if warranted), such as a sibling who is married with children, 
or mom and dad. This would allow for the entire caregiver's family to 
move, not just the caregiver. The reason for the move is to allow the 
medically retired single servicemember the opportunity to relocate with 
their caregiver to an area offering the best medical care, rather than 
the current option that only allows for the medically retired single 
servicemember to move their belongings to where the caregiver currently 
resides. The current option may not be ideal because the area in which 
the caregiver lives may not be able to provide all the health care 
services required for treating and caring for the medically retired 
servicemember. Instead of trying to create the services in the area, a 
better solution may be to allow the medically retired servicemember, 
their caregiver, and the caregiver's family to relocate to an area 
where services already exist.
    The decision on where to relocate for optimum care should be made 
with the FRC (case manager), the servicemember's medical physician, the 
servicemember, and the caregiver. All aspects of care for the medically 
retired servicemember and their caregiver shall be considered. These 
include a holistic examination of the medically retired servicemember, 
the caregiver, and the caregiver's family for, but not limited to, 
their needs and opportunities for health care, employment, 
transportation, and education. The priority for the relocation should 
be where the best quality of services is readily available for the 
medically retired servicemember and his/her caregiver.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    We ask Congress to allow medically-retired servicemembers and their 
families to maintain the active duty family TRICARE benefit for a 
transition period of 3 years following the date of medical retirement, 
comparable to the benefit for surviving spouses.
    Servicemembers medically discharged from service and their family 
members should be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program if 
needed.
    Caregivers of the wounded, ill, and injured must be provided with 
opportunities for training, compensation and other support programs 
because of the important role they play in the successful 
rehabilitation and care of the servicemember and veteran.
    We request legislation authorizing medically retired single 
servicemembers to have their caregiver's household goods moved as a 
part of their final PCS move.
    Medical Power of Attorney
    We have heard from caregivers of the difficult decisions they have 
to make over their loved one's bedside following an injury. We support 
the Traumatic Brain Injury Task Force recommendation for DOD to require 
each deploying servicemember to execute a Medical Power of Attorney and 
a Living Will.
    DOD should require each deploying servicemember to execute a 
Medical Power of Attorney and a Living Will.
    Senior Oversight Committee
    Our Association is appreciative of the provision in the NDAA for 
Fiscal Year 2009 continuing the DOD and VA Senior Oversight Committee 
(SOC) until December 2010. The DOD established the Office of Wounded 
Warrior Care and Transition Policy to take over the SOC 
responsibilities. The Office has seen frequent leadership and staff 
changes and a narrowing of its mission. We urge Congress to put a 
mechanism in place to continue to monitor this Office for its 
responsibilities in maintaining DOD and VA's partnership and making 
sure joint initiatives create a seamless transition of services and 
benefits for our wounded, ill, and injured servicemembers, veterans, 
their families, and caregivers.
    Defense Centers of Excellence
    A recent GAO report found the Defense Centers of Excellence (DCoE) 
for Psychological Health and Traumatic Brain Injury has been challenged 
by a mission that lacked clarity and by time-consuming hiring 
practices. Other DCoE have experienced a lack of adequate funding 
hampering their ability to hire adequate staff and begin to provide 
care for the patient population as they were created to address. These 
include the Vision Center of Excellence, Hearing Center of Excellence, 
and the Traumatic Extremity Injury and Amputation Center of Excellence. 
We recommend Congress immediately fund these Centers and require DOD to 
provide resources to effectively establish these Centers and meet DOD's 
definition of ``world class'' facilities.
    Our Association encourages all congressional committees with 
jurisdiction over military personnel and veterans matters to talk on 
these important issues. Congress, DOD, and VA can no longer continue to 
create policies in a vacuum and focus on each agency separately because 
our wounded, ill, and injured servicemembers and their families need 
seamless, coordinated support from each.
                        iii. family transitions
    Policies and programs must provide training and support for 
families during the many transitions military families experience. 
Quality education for spouses and children, financial literacy, and 
spouse career progression need attention. When families experience a 
life-changing event, they require a responsive system to support them. 
Our Nation must continue to ensure our surviving family members receive 
the support they deserve.
Survivors
    The Services continue to improve their outreach to surviving 
families. In particular, the Army's SOS (Survivor Outreach Services) 
program makes an effort to remind these families they are not 
forgotten. We most appreciate the special consideration, sensitivity, 
and outreach to the families whose servicemembers have committed 
suicide. We would like to acknowledge the work of the Tragedy 
Assistance Program for Survivors (TAPS) in this area as well. They have 
developed unique outreach to these families and held support 
conferences to help surviving family members navigate what is a very 
difficult time with many unanswered questions. DOD and the VA must work 
together to ensure surviving spouses and their children can receive the 
mental health services they need, through all of VA's venues. We 
believe Congress must grant authority to allow coverage of bereavement 
or grief counseling under the TRICARE behavioral health benefit. The 
goal is the right care at the right time for optimum treatment effect.
    We thank Congress for extending the TRICARE Active Duty Dental 
benefit to all survivors for the first 3 years. Unfortunately, the 
TRICARE Management Activity has not yet fully implemented this 
coverage. We hope a gentle nudge from Congress may speed that process 
along.
    Our Association recommends that grief counseling be more readily 
available to survivors as a TRICARE benefit.
    We also ask that the TRICARE Management Activity implement the 
legislation that expanded eligibility for 3 years of the TRICARE Active 
Duty Dental Benefit to survivors who had not been enrolled in the 
TRICARE Dental Program prior to the servicemember's death.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the servicemember's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service-connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the servicemember was alive 
and on active duty. The percentage of loss is even greater for 
survivors whose servicemembers served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We believe there needs to be DIC equity with other Federal survivor 
benefits. Currently, DIC is set at $1,154 monthly (43 percent of the 
Disabled Retirees Compensation). Survivors of Federal workers have 
their annuity set at 55 percent of their Disabled Retirees 
Compensation. Military survivors should receive 55 percent of VA 
Disability Compensation. We are pleased that the requirement for a 
report to assess the adequacy of DIC payments was included in the NDAA 
for Fiscal Year 2009. We are awaiting the overdue report. We support 
raising DIC payments to 55 percent of VA Disability Compensation. When 
changes are made, we ask Congress to ensure that DIC eligibles under 
the old system receive an equivalent increase.
    Imagine that you have just experienced the death of your spouse, a 
retired servicemember. In your grief, you navigate all the gates you 
must, fill out paperwork, notify all the offices required. Then, the 
overdrawn notices start showing up in your mailbox. Bills that you 
thought had been paid at the beginning of the month suddenly appear 
with ``overdue'' on them. Retirees are paid proactively, that is, they 
receive retired pay for the upcoming month i.e. on May 31, a retiree 
receives retired pay for the month of June. Presently, the government 
has the authority to take back the full month's pay from the retiree's 
checking account when that retiree dies. Payment for the number of days 
the retiree was alive in the month is subsequently returned to the 
surviving spouse. The VA, on the other hand, allows the surviving 
spouse to keep the last month of disability pay. We applaud Congressman 
Walter Jones (R-NC/3rd) for introducing H.R. 493, which would allow the 
surviving spouse or family to keep the last month of retired pay to 
avoid financial penalties caused by the decrease of funds in a checking 
account.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career servicemember and spouse. We 
support H.R. 178 and S. 260, which both provide for that elimination.
    We also request that SBP benefits be allowed to be paid to a 
Special Needs Trust in cases of disabled family members.
    We ask that DIC be increased to 55 percent of VA Disability 
Compensation.
    We support H.R. 493, ``The Military Retiree Survivor Comfort Act'', 
to provide for forgiveness of overpayments of retired pay paid to 
deceased retired members of the Armed Forces following their death.
Implementation of the Repeal of ``Don't Ask, Don't Tell''
    Our Association has long promoted the need for support of all 
families during deployments. Parents, siblings, and significant others 
need access to information about their loved ones and access to 
resources while they undergo their own stresses and worries. Many 
family readiness groups have opened their arms to these non-ID card 
holding family members.
    We hear from families of gay and lesbian servicemembers that their 
loved ones have not sought these resources because of fear of 
disclosure. They deal with deployment alone without the support that 
military families take for granted and rely on. We hear from families 
about the children in these relationships, who many times can't let 
anyone know that Mommy or Daddy is deployed, and may not receive the 
extra support or counseling they may need.
    We hope that the repeal of the ``Don't Ask, Don't Tell'' policy 
will help make resources and support available to all those who support 
their servicemember. We understand that eligibility for many benefits, 
including medical care, housing, and assignment preferences will not be 
extended to partners of servicemembers because of Federal regulations. 
We ask that military family members be provided education and training 
to help them understand the implications of implementation and to help 
them separate fact from fiction.
    We underscore the need for military family members to be provided 
with education and training to help them understand how the repeal of 
``Don't Ask, Don't Tell'' is being implemented and to allay any 
misconceptions and concerns they may have.
Education of Military Children
    Military families place a high value on the quality of their 
children's education. It is a leading factor in determining many 
important family decisions, such as volunteering for duty assignments, 
choosing to accompany the servicemember or staying behind, selecting 
where a family lives within their new community, deciding whether to 
spend their financial resources on private school, or considering home 
schooling options. It can even impact a families' decision to remain in 
the Service.
    Military families want quality education for their children just as 
their civilian counterparts do. It is important to remember that 
military families define ``quality of education'' differently. For 
military families, it is not enough for children to be doing well in 
their current schools, they must also be prepared for the next 
location. Most military children will move at least twice during their 
high school years and most will attend six to nine different schools 
between kindergarten and 12th grade. Although the Interstate Compact on 
Educational Opportunity for Military Children is helping to alleviate 
many of the transition issues our families face when moving, it does 
not address the quality of education in our schools. Though many of our 
civilian schools are already doing an excellent job of educating and 
supporting our military children, we believe military children deserve 
a quality education wherever they may live. That is why our Association 
has spent over 40 years working to improve education for our military 
children and empowering parents to become their children's best 
advocate.
    With more than 90 percent of military-connected students now 
attending civilian schools, our Association is pleased that DOD has 
completed a 90-day preliminary assessment of how to provide a world-
class education for all of the 1.2 million school-aged children, not 
just those under the Department of Defense Education Activity's (DODEA) 
purview. Our Association was invited by Dr. Clifford L. Stanley, Under 
Secretary of Defense for Personnel and Readiness, to participate in the 
Education Review Debriefing and to offer our insights on the way ahead. 
We look forward to the final report and to working with DOD to support 
its implementation. We thank DOD for the educational support programs 
already available to military children, such as the tutoring program 
for deployed servicemember families, and DODEA's virtual high schools. 
Our Association believes these programs are making a difference and 
would be beneficial to all military families.
    We were also pleased the President's landmark directive, 
``Strengthening Our Military Families,'' listed as one of its top 
priorities the need to ensure excellence in military children's 
education and their development. We greatly appreciate the Department 
of Education committing to making military families one of its 
priorities for its discretionary grant programs and for including our 
Association as a military stakeholder in finding ways to strengthen 
military families within the Reauthorization of the Elementary and 
Secondary Education Act.
    Our Association thanks Congress for providing additional funding to 
civilian school districts educating military children through DODEA's 
Educational Partnership Grant Program. We are aware that DODEA's 
expanded authority to share its expertise, experience, and resources to 
assist military children during transitions, to sharpen the expertise 
of teachers and administrators in meeting the needs of military 
children, and to provide assistance to local education agencies on 
deployment support for military children is set to expire in 2013. We 
ask Congress to extend this authority.
    We strongly urge Congress to ensure it is providing appropriate and 
timely funding of Impact Aid through the Department of Education. We 
also ask that you allow school districts experiencing high levels of 
growth, due to military base realignment, to apply for Impact Aid funds 
using current student enrollment numbers rather than the previous year. 
In addition, we call on Congress to increase DOD Impact Aid funding for 
schools educating large numbers of military connected students. Our 
Association has long believed that both Impact Aid programs are 
critical to ensuring that school districts can provide quality 
education for our military children.
    We ask Congress to increase the DOD supplement to Impact Aid and to 
allow school districts experiencing high growth due to base 
realignments to apply for Impact Aid funds using current student 
enrollment numbers. We also ask Congress to extend DODEA's expanded 
authority.
Voting Support for Military Servicemembers and their Families
    Our Association thanks Congress for continuing to shine a light on 
the need to protect and improve absentee voting rights for military 
families. The passage of the Military and Overseas Voter Empowerment 
(MOVE) Act of 2009 was a tremendous victory for our military community. 
The recent hearing held by the Committee on House Administration to 
evaluate the effectiveness of the MOVE Act in the 2010 elections 
demonstrates the ongoing commitment of Congress to upholding voting 
rights for military personnel serving overseas. Our Association greatly 
appreciates this effort. In addition, we want to stress the importance 
of remembering that military servicemembers and their families often 
vote by absentee ballot while stationed within the United States. It is 
not uncommon for military families to be living in one duty location 
with the servicemember and spouse each voting in a separate State, 
further complicating the absentee voting process.
    As a member of The Military Coalition (TMC) and the Alliance for 
Military and Overseas Voting Rights (AMOVR), our Association was 
instrumental in helping to pass the MOVE Act. It was an important step 
toward alleviating many of the voting issues faced by military 
families. However, individual State attempts to comply have not been 
completely effective in overcoming these difficulties. Furthermore, the 
MOVE Act did not encompass State and local elections. We are currently 
working with the Uniformed Law Commission and the DOD State Liaison 
Office to support the passage of the Uniform Military and Overseas 
Voters Act (UMOVA) in the States, to provide a State solution for 
military families and overseas voters. This legislation would assist 
States in meeting the statutory mandates of the MOVE Act and expand 
these important protections and benefits to cover State and local 
elections. Our Association is encouraging State legislatures to build 
on Federal efforts by adopting UMOVA.
Spouse Education and Employment
    We are pleased the NDAA for Fiscal Year 2011 calls for a report on 
military spouse education programs. Our recent surveys and feedback we 
have received from military families indicates they appreciate in-State 
tuition and the Post-9/11 G.I. Bill transferability. Our Association 
would like to thank Congress for the enhancements made to the Post-9/11 
G.I. Bill last session. We are especially pleased that spouses of 
active duty servicemembers are now eligible for the book stipend and 
the authority to grant transferability has been extended to families of 
the Commissioned Corps of NOAA and the U.S. Public Health Service.
    DOD's most-cited program success for military spouses is the 
Military Spouse Career Advance Account (MyCAA)--in its original form. 
In October 2010, MyCAA was significant revised and seasoned spouses who 
are no longer eligible feel their education pursuits are not supported 
by DOD. Many military spouses delay their education to support the 
servicemember's career. Since 2004, our Association has been fortunate 
to sponsor our Joanne Holbrook Patton Military Spouse Scholarship 
Program, with the generosity of donors who wish to help military 
families. Of particular interest, 33.5 percent of applicants from our 
2011 scholarship applicant pool stated their education was interrupted 
because of the military lifestyle (frequent moves, TDYs, moving 
expenses, etc.) and 12.2 percent of those directly attributed the 
interruption to deployment of the servicemember. Military spouses 
remain committed to their education and need assistance from Congress 
to fulfill their educational pursuits. We ask Congress to push DOD to 
fully reinstate the MyCAA program to include all military spouses, 
regardless of their servicemember's rank and to ensure the funding is 
available for this reinstatement. We also ask Congress to work with the 
appropriate Service Secretaries to extend the MyCAA program to spouses 
of the Coast Guard, the Commissioned Corps of NOAA, and the U.S. Public 
Health Service.
    The NDAA for Fiscal Year 2011 report on military spouse education 
programs only addresses one aspect--education. In order to determine if 
the education programs are working, we recommend a report on spouse 
employment programs. The NDAA for Fiscal Year 2010 created a pilot 
program to secure internships for military spouses with Federal 
agencies. Funding for the program continues through fiscal year 2011. A 
report on military spouse employment programs should include an 
assessment of the military spouse Federal internship program. Military 
spouses want more Federal employment opportunities. Should the pilot 
become a permanent program? We urge Congress to monitor the pilot to 
ensure spouses are able to access the program and eligible spouses are 
able to find Federal employment after successful completion of the 
internship. Our Association recommends Congress requests a report on 
military spouse employment programs.
    To further spouse employment opportunities, we recommend an 
expansion to the Work Opportunity Tax Credit for employers who hire 
spouses of active duty and Reserve component servicemembers as proposed 
through the Military Spouse Employment Act, H.R. 687. This employer tax 
credit is one way to encourage corporate America to hire military 
spouses.
    We also recommend providing a tax credit to military spouses to 
offset the expense of obtaining a career license or credential when the 
servicemember is relocated to a new duty station. Military spouses are 
financially disadvantaged by government ordered moves when they are 
required to obtain a career license in a new State to practice in their 
profession. Many military spouses must maintain a career license in 
multiple States, costing hundreds of dollars. For example, a pharmacist 
can only reciprocate to another State from their original license, 
which requires a military spouse pharmacist to maintain a license in 
more than one State. When our Association asked military spouses to 
share their employment challenges with us, a military spouse of 26 
years stated, ``The very most frustrating part about the process, is 
that obtaining a license does not guarantee that I will find 
employment. I have been licensed in [Kentucky] for a full year and in 
that time have gotten ONE 6-hour shift of work. That one shift does not 
even begin to recover the expense of obtaining my license here.'' We 
recommend that Congress pass the Military Spouse Job Continuity Act or 
similar legislation to reduce the financial barrier licensed military 
spouses must overcome with each move in order to find employment.
    Our Association urges Congress to recognize the value of military 
spouses by fully funding the MyCAA program for all military spouses, 
expand the Work Opportunity Tax Credit to include military spouses, and 
provide a tax credit to offset State license and credential fees.
Support for Special Needs Families
    The NDAA for Fiscal Year 2010 established the Office of Community 
Support for Military Families with Special Needs to enhance and improve 
DOD support around the world for military families with special needs, 
whether medical or educational. Our Association remains concerned that 
the Office has not received the proper resources to address the 
medical, educational, relocation, and family support resources our 
special needs families often require. This Office must address these 
various needs in a holistic manner in order to effectively implement 
change. The original intent of the legislation was to have the office 
reside in the office of the Under Secretary of Defense for Personnel 
and Readiness in order to bring together all entities having 
responsibility for the medical, educational, relocation, and family 
support needs of special needs military family member. At present, 
however, the office comes under the jurisdiction of the Deputy 
Assistant Secretary of Defense for Military Community and Family 
Policy.
    Case management for military beneficiaries with special needs is 
not consistent across the Services or the TRICARE Regions because the 
coordination care for the military family is being done by a non-
synergistic health care system. Beneficiaries try to obtain an 
appointment and then find themselves getting partial health care within 
the MTF, while other health care is referred out into the purchased 
care network. Thus, military families end up managing their own care. 
In congruence in the case management process becomes more apparent when 
military family members transfer from one TRICARE Region to another and 
when transferring within the same TRICARE Region. This in congruence is 
further exacerbated when a special needs family member is involved and 
they require not only medical intervention, but non-medical care as 
well. Families need a seamless transition and a warm hand-off between 
and within TRICARE Regions and a universal case management process 
across the MHS. Each TRICARE Managed Care Support Contractor (MCSC) has 
created different case management processes. TRICARE leaders must work 
closely with their family support counterparts through the Office of 
Community Support for Military Families with Special Needs to develop a 
coordinated case management system that takes into account other 
military and community resources.
    We applaud the attention Congress and DOD have given to our special 
needs family members in the past 2 years and their desire to create 
robust health care, educational, and family support services for 
special needs family members. But, these robust services do not follow 
them when they retire. We encourage the Services to allow these 
military families the opportunity to have their final duty station be 
in an area of their choice, preferably in the same State in which they 
plan to live after the servicemember retires, to enable them to begin 
the process of becoming eligible for State and local services while 
still on active duty. We also suggest the Extended Care Health Option 
(ECHO) be extended for 1 year after retirement for those family members 
already enrolled in ECHO prior to retirement. More importantly, our 
Association recommends if the ECHO program is extended, it must be for 
all who are eligible for the program because we should not create a 
different benefit simply based on medical diagnosis.
    The Office of Community Support is beginning a study on Medicaid 
availability for special needs military family members. Our Association 
is anxiously awaiting this report's findings. We will be especially 
interested in the types of value-added services individual State 
Medicaid waivers offer their enrollees and whether State budget 
difficulties are making it more difficult for military families to 
qualify for and participate in waiver programs. This information will 
provide yet another avenue to identify additional services ECHO may 
include in order to help address our families' frequent moves and their 
inability to often qualify for these additional value-added benefits in 
a timely manner.
    There has been discussion over the past several years by Congress 
and military families regarding the ECHO program. The ECHO program was 
originally designed to allow military families with special needs to 
receive additional services to offset their lack of eligibility for 
State or federally provided services impacted by frequent moves. We 
suggest that before making any more adjustments to the ECHO program, 
Congress should request a GAO report to determine if the ECHO program 
is working as it was originally designed and if it has been effective 
in addressing the needs of this population. We also hear from our ECHO 
eligible families that they could benefit from additional programs and 
health care services to address their special needs. We request a DOD 
pilot study to identify what additional service(s), if any, our special 
needs families need to improve their quality of life, such as cooling 
vests, diapers, and some nutritional supplements. We recommend families 
have access to $3,000 of additional funds to purchase self-selected 
items, programs, and/or services not already covered by ECHO. DOD would 
be required to authorize each purchase to verify the requested item, 
program, or service is appropriate. The pilot study will identify gaps 
in coverage and provide DOD and Congress with a list of possible extra 
ECHO benefits for special needs families. We need to make the right 
fixes so we can be assured we apply the correct solutions. Our 
Association believes the Medicaid waiver report, the GAO report, along 
with the pilot study will provide DOD and Congress with the valuable 
information needed to determine if the ECHO program needs to be 
modified in order to provide the right level of extra coverage for our 
special needs families. We also recommend a report examining the impact 
of the war on special needs military families.
    We ask Congress to request a GAO report to determine if the ECHO 
program is working as it was originally designed and if it has been 
effective in addressing the needs of this population.
    We request a DOD pilot study to identify what additional 
service(s), if any, our special needs families need to improve their 
quality of life.
    We also recommend a report examining the impact of the war on our 
special needs families.
Families on the Move
    A PCS move to an overseas location can be especially stressful for 
our families. Military families are faced with the prospect of being 
thousands of miles from extended family and living in a foreign 
culture. At many overseas locations, there are insufficient numbers of 
government quarters resulting in the requirement to live on the local 
economy away from the installation. Family members in these situations 
can feel extremely isolated; for some the only connection to anything 
familiar is the local military installation. Unfortunately, current law 
permits the shipment of only one vehicle to an overseas location, 
including Alaska and Hawaii. Since most families today have two 
vehicles, they sell one of the vehicles.
    Upon arriving at the new duty station, the servicemember requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extracurricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Travel allowances and reimbursement rates have not kept pace with 
the out-of-pocket costs associated with today's moves. In a recent PCS 
survey conducted by our Association, more than 50 percent of survey 
respondents identified uncovered expenses related to the move as their 
top moving challenge. Military families are authorized 10 days for a 
housing hunting trip, but the cost for trip is the responsibility of 
the servicemember. Families with two vehicles may ship one vehicle and 
travel together in the second vehicle. The vehicle will be shipped at 
the servicemember's expense and then the servicemember will be 
reimbursed funds not used to drive the second vehicle to help offset 
the cost of shipping it. Or, families may drive both vehicles and 
receive reimbursement provided by the Monetary Allowance in Lieu of 
Transportation (MALT) rate. MALT is not intended to reimburse for all 
costs of operating a car but is payment in lieu of transportation on a 
commercial carrier. Yet, a TDY mileage rate considers the fixed and 
variable costs to operate a vehicle. Travel allowances and 
reimbursement rates should be brought in line with the actually out-of-
pocket costs borne by military families.
    Our Association supports the servicemembers Permanent Change of 
Station Relief Act, S. 472 and believes it will reduce some of the 
additional moving expenses incurred by many military families.
    Our Association requests that Congress authorize the shipment of a 
second vehicle to an overseas location (at least Alaska and Hawaii) on 
accompanied tours, and that Congress address the out-of-pocket expenses 
military families bear for government ordered moves.
Former Spouses
    On September 10, 2001, DOD released a report containing 
recommendations for improvements to the Uniformed Services Former 
Spouse Protection Act (USFSPA). While Congress has addressed one or two 
of the recommendations from the report in the ensuing 10 years, none of 
them have been passed. We endorse the TMC recommendation for a hearing 
on this important issue.
    We have also heard from a number of spouses who have been abandoned 
physically and financially. There can be many reasons for this, some 
related to behavioral health, some to inability of the families to 
reintegrate after many deployments. We intend to pursue this issue with 
DOD and the Services since it appears not to need a legislative fix. 
However, we do feel it is important enough to mention as a symptom of 
how our families and marriages are suffering after 10 years of war.
    Our Association recommends that legislative action be taken to 
implement recommendations of the DOD Report on the USFSPA including:

        <bullet> Base the award amount to the former spouse on the 
        grade and years of service of the member at time of divorce 
        (not time of retirement);
        <bullet> Prohibit the award of imputed income while on active 
        duty, which effectively forces active duty members into 
        retirement;
        <bullet> Extend 20/20/20 benefits to 20/20/15 former spouses;
        <bullet> Permit the designation of multiple Survivor Benefit 
        Plan (SBP) beneficiaries with the presumption that SBP benefits 
        must be proportionate to the allocation of retired pay;
        <bullet> Eliminate the ``10-year Rule'' for the direct payment 
        of retired pay allocations by the Defense Finance and 
        Accounting Service (DFAS);
        <bullet> Permit SBP premiums to be withheld from the former 
        spouse's share of retired pay if directed by court order;
        <bullet> Permit a former spouse to waive SBP coverage;
        <bullet> Repeal the 1-year deemed election requirement for SBP; 
        and
        <bullet> Assist DOD and the Services with greater outreach and 
        expanded awareness to members and former spouses of their 
        rights, responsibilities, and benefits upon divorce.
Military Families--Our Nation's Families
    Military families have been supporting their warriors in time of 
war for 10 years. DOD and the military Services, with the help and 
guidance of Congress have developed programs and policies to respond to 
their changing and developing needs over this time. Families have come 
to rely on this support. They appreciate the spotlight of recognition 
that has been shone on their experience by the First Lady and Dr. 
Biden. They are heartened by the new sense of cooperation between 
government agencies in coordinating support. They know that it is up to 
them to make use of the tools and programs provided to become more 
resilient with each deployment. Congress provides the authorization and 
funding for these tools and programs. Even in a time of austere 
budgets, our Nation needs to sustain this support in order to maintain 
readiness. Our military families deserve no less.

    Senator Webb. Okay, thank you.
    Captain Puzon, welcome.

            STATEMENT OF CAPT IKE PUZON, USN (RET.)

    Mr. Puzon. Mr. Chairman and members of the subcommittee, 
thank you for your strong support for all servicemembers, their 
families, and survivors. They're serving relentlessly.
    My testimony will focus on a few Reserve component issues.
    First, making retroactive Public Law 110-181, Reserve Early 
Retirement Provision, is a top goal for TMC. The passage of 
legislation establishing September 11, 2001, as the eligibility 
start date for Guard and Reserve early retirement is very 
important to all our members and to those serving.
    Those most at risk from 2001 to 2008 were left out. Since 
2001, more than 800,000 men and women have answered the call to 
Active Duty, putting themselves at the same risk as all 
deployed forces, and many of them serving multiple tours.
    Unfortunately, most of those tours of 2001-2008 will not 
count towards the early retirement provision unless steps are 
taken to retroactively recognize mobilization. I believe it can 
be done through a phased-in approach, and ask that you consider 
that approach.
    Also, I believe it's clear that overseas contingency 
operations will continue as it has for the last 20 years. The 
Reserve component is an affordable, operational Reserve Force 
of choice and has answered the calls and provided the military 
and deployed to war zones when they have asked.
    Second, a continuum of care for Reserve components in the 
Individual Ready Reserve (IRR). We believe healthcare access 
for the Guard and Reserve should continue to improve with their 
increased role in our Nation's defense. We ask that you 
consider legislation to allow these reservists that go into the 
IRR--and they are deployable--that they must have access to, at 
a reasonable premium--TRICARE Reserve Select, perhaps--
healthcare coverage.
    Finally, Reserve components' access to mental health 
professionals. We've heard a lot about that, for all the 
forces. We are all concerned about these increases in military 
suicide rate. The Reserve suicide instances have increased 
dramatically since 2006. Loss of employment, foreclosures, 
divorce, debts all face our Reserve components as they return 
from mobilization. These issues inflict a serious emotional 
toll. We ask that you support S. 325, Senator Murray's bill, 
for embedded mental health providers and to provide mental 
health care for members of the Reserve components during their 
training.
    These are just some of the top issues. With DOD considering 
a new revamping of Reserve Forces to access more operational 
commitments from the Reserve Forces, we have to consider 
addressing these issues now. If it is vital and necessary to 
deploy these forces, then it must be essential to find the 
resources, within the proposed budget, to pay for these issues. 
With efficiencies, I think it can be done.
    I'm extremely grateful for this opportunity, and I look 
forward to any questions.
    [The prepared statement of Mr. Puzon follows:]
          Prepared Statement by CAPT Ike Puzon, USN (Retired)
                                summary
    Mr. Chairman, The Association of the U.S. Navy (AUSN) extends our 
thanks to you and the entire subcommittee for your strong support of 
our Active Duty Navy, Navy Reserve, retired members, and veterans of 
the uniformed services and their families and survivors. Your decisions 
have had a significant and positive impact in the lives of the entire 
uniformed services community.
    This past year was more than arduous, with Navy servicemembers 
still at war on two separate fronts in southwest Asia, several ongoing 
humanitarian operations, the continuous vigilance against piracy, Libya 
operations, and the Nation slowly recovering from the recent economic 
crisis. Congress and the administration have had difficult choices to 
make as they attempted to stimulate the economy while facing 
recordbreaking budget deficits.
    As we enter the 10th year of intense wartime operations, and 
worldwide deployment of the U.S. Navy, AUSN believes that 
prioritization on personnel issues should continue for fiscal year 
2012. Despite the extraordinary demands, men and women in the Navy and 
the Navy Reserve are still answering the call--thanks in no small 
measure to the subcommittee's strong and consistent support--but only 
at the cost of ever-greater sacrifices.
    Dramatic increases in suicide rates, reported divorce rates, and 
unemployment rates reflect the long-term effects of requiring the same 
people to return to combat again and again--and yet again.
    In these times of growing political and economic pressures, AUSN 
relies on the continued good judgment of the Armed Services Committees 
to ensure the Nation allocates the required resources to sustain a 
strong national defense, a sustained National Maritime Strategy, and in 
particular, to properly meet the pressing needs of the less than 1 
percent of the American population--servicemembers and their families--
who protect the freedoms of the 99 percent.
                    executive summary of key issues
End strength
    A major concern and priority for AUSN is the constant budgetary 
cuts to manpower. Since 2001 during war time, Navy and Navy Reserve has 
taken unnecessary cuts due to budget pressure in manpower. Navy and 
Navy Reserve Operational requirements have not subsided and the out 
look for increased usage of Navy and Navy Reserve assets grows. We 
encourage Congress to not take budget driven manpower cuts and review 
the manpower requirements as a cost savings vice a budget equalizer.
Cost-of-Living Adjustments (COLAs)
    A top AUSN priority is to guard against any discriminatory 
treatment of retired members of the uniformed services compared to 
other Federal COLA-eligibles and to ensure continued fulfillment of 
congressional COLA intent ``to provide every military retired member 
the same purchasing power of the retired pay to which he was entitled 
at the time of retirement [and ensure it is] not, at any time in the 
future . . . eroded by subsequent increases in consumer prices.''
Military Pay
    AUSN urges against short-sighted proposals to freeze or cap 
uniformed services pay raises below private sector pay growth, and 
strongly recommends a 2012 raise of at least 1.6 percent to match ECI 
growth.
Military Retirement
    AUSN strongly opposes initiatives that would ``civilianize'' the 
military retirement system and inadequately recognize the unique and 
extraordinary demands and sacrifices inherent in a military career.
    Reducing incentives for serving arduous careers of 20 years or more 
can only undermine long-term retention and readiness, with particularly 
adverse effects in times of war. Simultaneously increasing compensation 
for those who leave short of fulfilling a career would only compound 
those adverse effects.
Heath Care Enrollment Fees
    In response to member feedback on the Department of Defense 
proposal for TRICARE Prime fee increases, AUSN has embraced a policy 
that is congruent with a majority of its members.
    Health care for our serving military and their families is a matter 
of absolute necessity to sustain a fighting force. It is an obligation 
of government with a constitutional basis much higher than other forms 
of public service. When a nation puts its citizens (the military) at 
physical risk from disease, traumatic injury and death it absolutely 
owes them health care not health insurance. The military is not a 
Public Service union looking for a benefit package and should never be 
so equated! An overwhelming majority of AUSN members believe this is 
where all discussion must start.
    By extension, as a guiding principal, a primary entitlement for 
undertaking a career of unique and extraordinary sacrifices that few 
Americans are willing to accept is a range of exceptional retirement 
benefits that a grateful Nation provides for those who choose to 
dedicate a majority of their working lives to the national interest. 
DOD must work in partnership with associations, stakeholders, the 
Department of Veterans Affairs (VA) and other governmental agencies to 
ensure that our past, present and future military members and families 
receive cost effective, high quality health care. Before seeking 
increases in enrollment fees, deductibles or co-payments, the DOD and 
the Services should pursue any and all options to constrain the growth 
of health care spending in ways that do not disadvantage military 
members--past, present, and future--active duty, Reserve and veteran, 
and provide incentives to promote healthy lifestyles. Such options 
should include addressing the duplicative overhead expense of Service 
unique health care programs.
    Our members--Active, retiree, veterans, Reserve, and family--
strongly desire to do their part in controlling the fiscal debt of this 
country. Fiscal realities demand that they do. However, our members, 
along with other servicemembers, have already invested heavily in our 
Nation. They have and continue to sacrifice in ways not recognized by 
the overwhelming majority of the American population. Military members 
and veterans earn, have earned, their health care and other benefits in 
a special way every day.
    AUSN desires to negotiate realistically but we must be very careful 
in our terminology. Bureaucrats want to frame this conversation as a 
benefit package to recruit and retain to meet requirements. We must 
never forget the military and veterans are not civilian contractors 
with the right to quit if they don't like the orders. They are 
different and Congress owes a very different debt to those citizens who 
can be ordered to potentially suffer serious losses, or die for their 
country. A nation that desires to provide guaranteed health care to all 
citizens and non-citizens alike surely can provide an extraordinary 
health care benefit to those who defend that very nation. The last 
dollar of Military Health Care should be funded before the first dollar 
is put into other social programs.
    Therefore, with these guiding principals,

        <bullet> AUSN membership believes the President's fiscal year 
        2012 proposed enrollment fee increase can be accepted as a one 
        time increase of 13 percent. However, AUSN strongly objects to 
        any future open-indexing increases based on civilian health 
        care indices in future years for any TRICARE program including 
        TRICARE Prime for retirees. As a whole, military (Active and 
        Reserve) and former military members are by nature a healthier 
        population.
        <bullet> AUSN urges Congress to make the decisions on future 
        increases based on what the cost-of-living allowances are for 
        veterans. We are asking Congress to reject the proposal of 
        open-ended indexing for future increases and to control future 
        increases, if any--based solely on what the COLA is for 
        retirees.
                          wounded warrior care
DOD and VA Oversight
    AUSN urges joint hearings by the Armed Services and Veterans 
Affairs Committees to assess the effectiveness of current seamless 
transition oversight efforts and systems and to solicit views and 
recommendations from DOD, VA, the military Services, and 
nongovernmental organizations concerning how joint communication, 
cooperation, and oversight could be improved. In addition, the hearings 
should focus on implementation progress concerning:

        <bullet> Single separation physical;
        <bullet> Single disability evaluation system;
        <bullet> Bi-directional electronic medical and personnel 
        records data transfer;
        <bullet> Medical centers of excellence operations and research 
        projects;
        <bullet> Coordination of care and treatment, including DOD-VA 
        Federal/recovery care coordinator clinical and non-clinical 
        services and case management programs; and
        <bullet> Consolidated government agency support services, 
        programs, and benefits.
Continuity of Health Care
        <bullet> Authorizing service-disabled members and their 
        families to receive active-duty level TRICARE benefits, 
        independent of availability of VA care for 3 years after 
        medical retirement to help ease their transition from DOD to 
        VA.
        <bullet> Ensuring Guard and Reserve members have adequate 
        access and treatment in the DOD and VA health systems for Post-
        Traumatic Stress Disorder and Traumatic Brain Injury following 
        separation from active duty service in a theatre of operations.
Caregiver/Family Support Services
    AUSN recommends:

        <bullet> Providing enhanced training of DOD and VA medical and 
        support staff on the vital importance of involving and 
        informing designated caregivers in treatment of and 
        communication with severely ill and injured personnel.
        <bullet> Providing health and respite care for non-dependent 
        caregivers (e.g., parents and siblings) who have had to 
        sacrifice their own employment and health coverage while the 
        injured member remains on active duty, commensurate with what 
        the VA authorizes for medically retired or separated members' 
        caregivers.
        <bullet> Authorizing up to 1 year of continued residence in on-
        base housing facilities for medically retired, severely wounded 
        servicemembers and their families.
                    active forces and their families
End Strength
    AUSN strongly urges the subcommittee to:

        <bullet> Sustain or increase end strength as needed to sustain 
        Navy deployments for war and the continuous operational 
        requirements and ensure dwell time for Navy servicemembers and 
        families.
Family Readiness and Support
    AUSN recommends that the subcommittee:

        <bullet> Encourage DOD to assess the effectiveness of programs 
        and support mechanisms designed to assist military members and 
        their families with deployment readiness, responsiveness, 
        reintegration, and health care.
        <bullet> Expand child care availability and funding to meet the 
        needs of the total force uniformed services community.
        <bullet> Monitor and continue to expand family access to mental 
        health counseling.
        <bullet> Promote expanded opportunities for military spouses to 
        further educational and career goals, such as the My Career 
        Advancement Account (MyCAA) program.
        <bullet> Promote implementation of flexible spending accounts 
        to enable military families to pay health care and child care 
        expenses with pre-tax dollars.
        <bullet> Ensure access to mental health care programs in remote 
        areas
                             retiree issues
Concurrent Receipt
    AUSN's continuing goal is to fully eliminate the deduction of VA 
disability compensation from earned military retired pay for all 
disabled retirees. In pursuit of that goal, AUSN's immediate priorities 
include:

        <bullet> Phasing out the VA disability offset for all chapter 
        61 (disability) retirees, as previously endorsed by the 
        President and the subcommittee;
        <bullet> Clarifying the law to resolve technical disparities 
        that inadvertently cause underpayment of certain eligibles for 
        Combat Related Special Compensation (CRSC); and,
        <bullet> Clarifying the law to ensure a disabled retiree's CRSC 
        payment is not reduced when the retiree's VA disability rating 
        increases, until the retiree is afforded the opportunity to 
        elect between CRSC and CRDP.
Disability Severance Pay
    AUSN recommends:

        <bullet> Further expanding eligibility to include all combat-
        related injuries, using the same definition as CRSC; and 
        ultimately
        <bullet> Expanding eligibility to include all service-connected 
        disabilities, consistent with AUSN view that there should not 
        be a distinction between the treatment of members disabled in 
        combat vice members with non-combat, service-caused 
        disabilities.
                            survivor issues
SBP-DIC Offset
    AUSN recommends:

        <bullet> Repeal of the SBP-DIC offset.
        <bullet> Reinstating SBP for survivors who previously 
        transferred payments to children when the youngest child 
        attains majority, or upon termination of a remarriage.
        <bullet> Allowing SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death.
                              health care
Enrollment Fees
    AUSN accepts the need to increase TRICARE Prime (for retirees 34-
65) fees on a one time basis at 13 percent. However, AUSN objects to 
any future index increase that is solely based on civilian health care. 
Any increase must be controlled by Congress, and based only on the COLA 
for retirees.
TRICARE Reimbursement Rates
    AUSN urges reversal of the 30 percent cut in Medicare/TRICARE 
payments to doctors scheduled for January 2012 and a permanent fix for 
the flawed formula that mandates these recurring annual threats to 
seniors' and military beneficiaries' health care access.
TRICARE Cost Efficiency Options
    AUSN continues to believe strongly that DOD has not sufficiently 
investigated options to make TRICARE more cost-efficient without 
shifting costs to beneficiaries several GAO reports indicates that DOD 
can find more efficiencies.
TRICARE Prime
    AUSN urges the subcommittee to:

        <bullet> Require reports from DOD and the managed care support 
        contractors on actions being taken to improve Prime patient 
        satisfaction, provide assured appointments within Prime access 
        standards, reduce delays in preauthorization and referral 
        appointments, and provide quality information to assist 
        beneficiaries in making informed decisions.
        <bullet> Require increased DOD efforts to ensure consistency 
        between the MTF and purchased care sectors in meeting Prime 
        access standards.
        <bullet> Ensure timely notification of and support for 
        beneficiaries affected by elimination of Prime service areas 
        under the new TRICARE contracts.
TRICARE Standard
    AUSN urges the subcommittee to:

        <bullet> Insist on immediate delivery of an adequacy threshold 
        for provider participation, below which additional action is 
        required to improve such participation.
        <bullet> Require a specific report on participation adequacy in 
        the localities where Prime Service Areas will be discontinued 
        under the new TRICARE contracts.
        <bullet> Oppose establishment of a TRICARE Standard enrollment 
        fee, since Standard does not entail any guaranteed access to 
        care.
        <bullet> Increase locator support to beneficiaries seeking 
        providers who will accept new Standard patients, particularly 
        for mental health specialties.
        <bullet> Seek legislation to eliminate the limit when TRICARE 
        Standard is second payer to other health insurance (OHI): e.g., 
        return to the policy where TRICARE pays up to the amount it 
        would have paid, had there been no OHI.
        <bullet> Bar any further increase in the TRICARE Standard 
        inpatient copay for the foreseeable future.
TRICARE For Life
    AUSN urges the subcommittee to:

        <bullet> Resist initiatives to establish an enrollment fee for 
        TFL, as many beneficiaries already experience difficulties 
        finding providers who will accept Medicare patients.
        <bullet> Seek ways to include TFL beneficiaries in DOD programs 
        to incentivize compliance with preventive care and healthy 
        lifestyles.
        <bullet> Resolve the discrepancy between TRICARE and Medicare 
        treatment of the shingles vaccine.
Survivors' Coverage
    AUSN recommends restoration of TRICARE benefits to previously 
eligible survivors whose second or subsequent marriage ends in death or 
divorce.
Pharmacy
    AUSN urges the subcommittee to:

        <bullet> Advance the use of the mail-order option by lowering 
        or waiving copays, enhancing communication with beneficiaries, 
        and using technological advances to ease initial signup.
        <bullet> Require DOD to include alternate packaging methods for 
        pharmaceuticals to enable nursing home, assisted living, and 
        hospice care beneficiaries to utilize the pharmacy program. 
        Packaging options should additionally include beneficiaries 
        living at home who would benefit from this program because of 
        their medical condition.
        <bullet> Create incentives to hold down long-term health costs 
        by eliminating copays for medications for chronic conditions, 
        such as asthma, diabetes, and hypertension or keeping copays at 
        the lowest level regardless of drug status, brand or generic.
Health Care Fees
    AUSN believes military beneficiaries from whom America has demanded 
decades of extraordinary service and sacrifice have earned health care 
that is the best America has to offer, consistent with their 
extraordinarily high pre-paid premiums of decades of service and 
sacrifice.
    Congress needs to protect military beneficiaries against dramatic 
budget-driven fluctuations in this vital element of servicemembers' 
career compensation incentive package.
    Reducing the value of TRICARE for Life by $3,000 per year ($6,000 
for a couple) as recommended by the Deficit Commission would be 
inconsistent with military beneficiaries' sacrifices and would 
undermine Congress' intent when it authorized TFL in 2001--less than 10 
years ago.
    Reducing military retirement benefits would be particularly ill-
advised when an overstressed force already is at increasing retention 
risk despite the current downturn of the economy and current recruiting 
successes.
    AUSN believes:

        <bullet> All retired servicemembers earned exceptional health 
        care by virtue of their service.
        <bullet> Indexing to civilian medical care and means-testing 
        has no place in setting military health care enrollment.
        <bullet> Congress should direct DOD to pursue any and all 
        options to constrain the growth of health care spending in ways 
        that do not disadvantage beneficiaries.
                              navy reserve
Operational Reserve Retention and Retirement Reform
    AUSN recommends:

        <bullet> Upgrade access--by providing ease to access the 
        Federal Reserve in time of National Emergency or Contingency 
        operations that do not impact the Active components, and 
        provide the appropriate resources to do so.
        <bullet> Authorizing early retirement credit to all Guard and 
        Reserve members who have served active duty tours of at least 
        90 days, retroactive to September 11, 2001.
        <bullet> Eliminating the fiscal year limitation which 
        effectively denies full early retirement credit for active duty 
        tours that span the October 1 start date of a fiscal year.
        <bullet> Modernizing the Reserve retirement system to 
        incentivize continued service beyond 20 years and provide fair 
        recognition of increased requirements for active duty service.
End Strength
    AUSN strongly urges the subcommittee to:

        <bullet> Sustain or increase end strength as needed to sustain 
        Navy Reserve deployments for war and the continuous operational 
        Reserve requirements and ensure dwell time for Navy Reserve 
        servicemembers and families.
Office of Chief of Naval Reserve
    AUSN strongly urges the subcommittee to:

        <bullet> To Maintain the Chief of the Naval Reserve as an 0-9 
        Billet as authorized by public law.
Reserve Compensation System
    AUSN recommends:

        <bullet> Create a Single Pay System--Reserve components need a 
        single pay system that integrates better into the Active 
        component system
        <bullet> Crediting all inactive duty training points earned 
        annually toward Reserve retirement.
        <bullet> Parity in special incentive pay for career enlisted/
        officer special aviation incentive pay, diving special duty 
        pay, and pro-pay for Reserve component medical professionals.
        <bullet> Authorizing recalculation of retirement points after 1 
        year of mobilization. A recent law change allowed certain flag 
        and general officers to recalculate retirement pay after 1 year 
        of mobilization. AUSN believes this opportunity should be made 
        available to all ranks.
Health Care Access Options
    AUSN recommends:

        <bullet> Requiring DOD to justify the seven-fold increase in 
        TRICARE rates for individual TRR premiums for reservists who 
        immediately enroll in TRR upon retirement from the Selected 
        Reserve and have TRS coverage until separation.
        <bullet> Seeking a GAO review of the TRR program premium rates 
        and implementation
        <bullet> Authorizing TRICARE for early Reserve retirees who are 
        in receipt of retired pay prior to age 60
        <bullet> Permitting employers to pay TRS premiums for 
        reservist-employees as a bottom-line incentive for hiring and 
        retaining them.
        <bullet> Authorizing an option for the government to subsidize 
        continuation of a civilian employer's family coverage during 
        periods of activation, similar to FEHBP coverage for activated 
        Guard-Reserve employees of Federal agencies.
        <bullet> Extending corrective dental care following return from 
        a call-up to ensure G-R members meet dental readiness 
        standards.
        <bullet> Allowing eligibility in Continued Health Care Benefits 
        Program (CHCBP) for Selected reservists who are voluntarily 
        separating and subject to disenrollment from TRS.
        <bullet> Allowing beneficiaries of the FEHBP who are Selected 
        reservists the option of participating in TRICARE Reserve 
        Select.

                <bullet> Reserve members must have access to proper 
                mental health care prior to deployment and after 
                deployment. Ensure access to mental health care 
                programs in remote areas

        <bullet> Navy Reserve Member and Retirees that are in the 
        Individual Ready Reserve--need to be recognized as honorable 
        servicemembers and deserve to have access to TRR at reasonable 
        rates or similar rates as TRS due to their being subjected to 
        recall.
Yellow Ribbon Reintegration Program
    AUSN urges the subcommittee to hold oversight hearings and direct 
additional improvements in coordination, collaboration, and consistency 
of Yellow Ribbon services between States and maintain this valuable 
program.
Reserve Family Support Programs
    AUSN recommends:

        <bullet> Ensuring programs are in place to meet the special 
        information and support needs of families of Navy and Navy 
        Reserve individual augmentees or those who are geographically 
        dispersed.
        <bullet> Funding programs between military and community 
        leaders to support servicemembers and families during all 
        phases of deployments, especially demob.
        <bullet> Providing preventive counseling services for 
        servicemembers and families and training so they know when to 
        seek professional help related to their circumstances.
        <bullet> Authorizing and funding child care, including respite 
        care, family readiness group meetings and drill time.
        <bullet> Improving the joint family readiness program to 
        facilitate understanding and sharing of information between all 
        family members and commands.
      morale, welfare, and recreation and quality of life programs
Consolidation of DOD Retail Operations
    AUSN supports continuing efforts to improve commissary and exchange 
program efficiency, but objects to initiatives that reduce benefit 
value for patrons and the associated retention value for the uniformed 
services.
    AUSN urges the subcommittee to:

        <bullet> Seek report updates from DOD and the Services to 
        ensure delivery of needed MWR and quality of life program 
        support at gaining and losing locations affected by BRAC and 
        rebasing.
        <bullet> Direct DOD to report to Congress on all DOD and 
        Service Active and Reserve component MWR Category A, B, and C 
        Programs and Family Support/Readiness (Quality of Life (QoL) 
        Programs), including the Yellow Ribbon Program.
        <bullet> Protect recreational and alternative therapy programs 
        that integrate MWR, fitness and other quality of life programs 
        and infrastructure to facilitate warrior treatment and care and 
        to promote psychological health and welfare of troops and their 
        families.
                         military construction
    AUSN recommends the subcommittee:

        <bullet> Support military construction projects that modernize 
        or replace the following infrastructure to meet increased 
        personnel and operational deployment requirements:

                <bullet> child development centers (CDCs) and youth 
                centers;
                <bullet> bachelor and family housing; and,
                <bullet> other traditional QoL program facilities.

        <bullet> Ensure MWR, Milcon, housing, and family support 
        construction policies and projects improve access for persons 
        with disabilities.
Statement on Deficit Reduction Proposals
    The National Commission on Fiscal Responsibility and Reform and 
several less publicized deficit-reduction panels have proposed a wide 
range of spending cuts, including proposed cutbacks in Federal cost of 
living adjustments (COLAs); defense spending, including military pay 
and retirement; and Federal health care programs, including TRICARE and 
TRICARE for Life. The rapidly growing debt problem facing our country 
is all too real, and there is no easy fix. Solving this problem for the 
long term will involve shared pain by all Americans.
    Congress has improved retention and readiness by addressing a 
number of quality of life issues for the military community over the 
last decade, authorizing TRICARE For Life and TRICARE Senior Pharmacy 
coverage, establishing concurrent receipt for most severely disabled 
and combat-disabled retirees, improving pay and allowances for 
currently serving personnel, upgrading health coverage for the Reserve 
community who have answered the call for war.
    Now, ironically, some critics decry the growth in personnel and 
health care spending since 2000. Twelve years ago, military leaders 
were complaining of retention problems as decades of pay raise caps had 
depressed military pay nearly 14 percent below private sector pay. 
Military retirees and their spouses were being unceremoniously dumped 
from military health coverage at age 65 and all disabled retirees were 
forced to fund their own VA disability compensation from their service-
earned retired pay. Survivor Benefit Program (SBP) widows suffered a 
34-percent benefit cut at age 62, and GI Bill benefits had eroded 
dramatically, among many other challenges. Congress' actions to address 
those problems were spurred in no small part by national concern to 
protect the interests of military people whose severe and extended 
wartime sacrifices have been highlighted on every front page and every 
evening newscast for nearly a decade.
    History demonstrates that public and congressional support for 
protecting military people programs can fade quickly in times of 
strained budgets or when a period of extended military conflict is (or 
is expected to be) coming to an end. That was true in the 1940s, 1950s, 
1970s, 1980s, and 1990s.
    As Congress assesses how to fairly allocate necessary sacrifices 
among the various segments of the population, AUSN urges that you bear 
in mind that:

        <bullet> No segment of the population has been called upon for 
        more sacrifice than the military community. Currently serving 
        military members have been asked to bear 100 percent of our 
        Nation's wartime sacrifice while the broader population was 
        asked to contribute to the war effort by ``going shopping.'' 
        The U.S. Navy has always been a deployed force.
        <bullet> Assertions about personnel and health cost growth 
        since 2000 are highly misleading, because 2000 is not an 
        appropriate baseline for comparison. As mentioned above, that 
        was the nadir of the erosion of benefits era, when military pay 
        was nearly 14 percent below private sector pay, currently 
        serving members had suffered a major retirement cutback, older 
        retirees and their families were being jettisoned from any 
        military health coverage, disabled retirees and survivors were 
        suffering dramatic financial penalties, and retention and 
        readiness were suffering as a result. Congressional action (and 
        spending) to fix those problems was a necessary thing, not a 
        bad thing.
        <bullet> Retired servicemembers, their families, and survivors 
        also have been no stranger to sacrifice. Hundreds of thousands 
        of today's retirees served in multiple wars, including Iraq and 
        Afghanistan, Gulf War I, Vietnam, Korea, and WWII eras, and the 
        multiple conflicts and cold wars in between. Older retirees 
        endured years when the government provided them no military 
        health coverage, and those under 65 already have forfeited an 
        average 10 percent of earned retired pay because they retired 
        under pay tables that were depressed by decades of capping 
        military pay raises below private sector pay growth.
        <bullet> There is a readiness element to military compensation 
        and military health care decisions beyond the budgetary 
        element. Regardless of good or bad budget times, a military 
        career is a unique and arduous calling that cannot be equated 
        to civilian employment. Sufficient numbers of high-quality 
        personnel will choose to pursue a career in uniform only if 
        they perceive that the extreme commitment demanded of them is 
        reciprocated by a grateful nation, and the unique rewards for 
        completing such a career are commensurate with the unique 
        burden of sacrifice that they and their families are required 
        to accept over the course of it.
        <bullet> Military members' and families' sacrifices must not be 
        taken for granted by assuming they will continue to serve and 
        endure regardless of significant changes in their career 
        incentive package.
        <bullet> History shows clearly that there are unacceptable 
        retention and readiness consequences for shortsighted budget 
        decisions that cause servicemembers to believe their steadfast 
        commitment to protecting their nation's interests is poorly 
        reciprocated.
        <bullet> The U.S. Navy has and will be a deployed force world 
        wide. End strengths are critical to maintaining dwell times and 
        deployed forces.
                          wounded warrior care
    AUSN urges joint hearings by the Armed Services and Veterans 
Affairs Committees to assess the effectiveness of current seamless 
transition oversight efforts and systems and to solicit views and 
recommendations from DOD, VA, the military services, and non-
governmental organizations concerning how joint communication, 
cooperation, and oversight could be improved.
    In addition, the hearings should focus on implementation progress 
concerning:

        <bullet> Single separation physical;
        <bullet> Single disability evaluation system;
        <bullet> Bi-directional electronic medical and personnel 
        records data transfer;
        <bullet> Medical centers of excellence responsibilities vs. 
        authority, operations, and research projects;
        <bullet> Coordination of care and treatment, including DOD-VA 
        Federal/recovery care coordinator clinical and non-clinical 
        services and case management programs; and
        <bullet> Consolidated government agency support services, 
        programs, and benefits.
Continuity of Health Care
    Transitioning between DOD and VA health care systems remains 
challenging and confusing to those trying to navigate and use these 
systems. Systemic, cultural, and bureaucratic barriers often prevent 
the servicemember or veteran from receiving the continuity of care they 
need to heal and have productive and a high level of quality of life 
they so desperately need and desire.
    Servicemembers and their families repeatedly tell us that DOD has 
done much to address trauma care, acute rehabilitation, and basic 
short-term rehabilitation. They are less satisfied with their 
transition from the military health care systems to longer-term care 
and support in military and VA medical systems.
    We hear regularly from members who have experienced significant 
disruptions of care upon separation or medical retirement from service.
    One is in the area of cognitive therapy, which is available to 
retired members under TRICARE only if it is not available through the 
VA. Unfortunately, members are caught in the middle because of 
differences between DOD and VA authorities on what constitutes 
cognitive therapy and the degree to which effective, evidenced-based 
therapy is available.
    Action is needed to further protect the wounded and disabled. The 
subcommittee has acted previously to authorize 3 years of active-duty 
level TRICARE coverage for the family members of those who die on 
active duty. AUSN believes we owe equal transition care continuity to 
those whose service-caused illnesses or injuries force their retirement 
from service.
                              navy reserve
    The Navy Reserve has always deployed in support of our Nations wars 
and contingency operations. Currently there are over 5,500 members 
serving in some capacity in OIF/OEF with another 1,500 being prepared 
to deploy. The Navy Reserve has maintained this pace since 2001. Over 
91,000 Guard and Reserve service men and women are serving on active 
duty (as of January 2011).
    Since September 11, 2001, more than 793,853 Guard and Reserve 
servicemembers have been called up, including over 250,000 who have 
served multiple tours. There is no precedent in American history for 
this sustained reliance on citizen-soldiers and their families. To 
their credit, Guard and Reserve combat veterans continue to reenlist, 
but the ongoing pace of routine, recurring activations and deployments 
cannot be sustained indefinitely.
    Guard and Reserve members and families face unique challenges in 
their readjustment following active duty service. Unlike active duty 
personnel, many Guard and Reserve members return to employers who 
question their contributions in the civilian workplace, especially as 
multiple deployments have become the norm. Many Guard-Reserve troops 
return with varying degrees of combat-related injuries and stress 
disorders, and encounter additional difficulties after they return that 
can cost them their jobs, careers and families.
    Despite the continuing efforts of the Services and Congress, most 
Guard and Reserve families do not have access to the same level of 
counseling and support that active duty members have. In short, the 
Reserve components face increasing challenges virtually across the 
board, including major equipment shortages, end-strength requirements, 
wounded-warrior health care, and pre- and post-deployment assistance 
and counseling.
    AUSN strongly urges the subcommittee to:

        <bullet> Not allow SECDEF, the Secretary of the Navy, or Chief 
        of Naval Operations to downsize the Chief of the Naval Reserve 
        office to an 0-8 billet as expressed in SECDEF Memorandum--
        MAR14 2011--OSD 02974-11. This is done solely for the purpose 
        of budgetary concerns and does not reflect the needs and 
        requirements of the Navy Reserve or those that have served this 
        country during the war time of 2001 to 2008. AUSN notes that no 
        other Reserve Chief billet will be denigrated in opposition to 
        Public Law that authorizes 0-9 billet for Reserve Chiefs.
Guard and Reserve Health Care Access Options &
    AUSN is very grateful for sustained progress in providing 
reservists' families a continuum of government-sponsored health care 
coverage options throughout their military careers into retirement, but 
key gaps remain.
    For years, AUSN has recommended continuous government health care 
coverage options for Guard and Reserve (G-R) families. Operational 
Reserve policy during two protracted wars has only magnified that need. 
DOD took the first step in the 1990s by establishing a policy to pay 
the Federal Health Benefits Program (FEHB) premiums for G-R employees 
of the Department during periods of their active duty service.
    Thanks to this subcommittee's efforts, considerable additional 
progress has been made in subsequent years to provide at least some 
form of military health coverage at each stage of a Reserve component 
member's life, including:

        <bullet> TRICARE Reserve Select (TRS) for actively drilling 
        Guard and Reserve families, with premiums set at 28 percent of 
        the actual program cost. The 2011 monthly premiums are $53.16 
        for individual reservists in drill status and $197.76 for 
        member and family coverage.
        <bullet> TRICARE Retired Reserve (TRR) for ``gray area'' 
        reservists who have retired from active drilling status but 
        have not yet attained age 60, with premiums set to cover 100 
        percent of program cost. Rates for 2011 are $408.01 for member-
        only coverage, or $1,020.05 for TRR member-and-family coverage.
        <bullet> TRICARE Standard/Prime for retired reservists with 20 
        or more years of qualifying service, once they attain age 60 
        and retired pay eligibility.
        <bullet> TRICARE for Life as second-payer to Medicare for 
        career reservists with 20 or more years of qualifying service 
        at age 65 provided they enroll in Medicare Part B.

    However, as noted earlier in this statement, early Reserve retirees 
who are in receipt of non-regular retired pay before age 60 are 
ineligible for TRICARE.
    AUSN continues to support closing the remaining gaps to establish a 
continuum of health coverage for operational Reserve families, 
including members of the Individual Ready Reserve subject to call-up.
    AUSN recommends:

        <bullet> Requiring a GAO audit of TRR program
        <bullet> Requiring DOD to justify the seven-fold increase in 
        TRICARE rates for individual TRR premiums for reservists who 
        immediately enroll in TRR upon retirement from the Selected 
        Reserve and have TRS coverage until separation.
        <bullet> Authorizing TRICARE for early Reserve retirees who are 
        in receipt of retired pay prior to age 60
        <bullet> Permitting employers to pay TRS premiums for 
        reservist-employees as a bottom-line incentive for hiring and 
        retaining them.
        <bullet> Authorizing an option for the government to subsidize 
        continuation of a civilian employer's family coverage during 
        periods of activation, similar to FEHBP coverage for activated 
        Guard-Reserve employees of Federal agencies.
        <bullet> Extending corrective dental care following return from 
        a call-up to ensure G-R members meet dental readiness 
        standards.
        <bullet> Allowing eligibility in Continued Health Care Benefits 
        Program (CHCBP) for Selected reservists who are voluntarily 
        separating and subject to disenrollment from TRS.
        <bullet> Allowing beneficiaries of the FEHBP who are Selected 
        reservists the option of participating in TRICARE Reserve 
        Select.
Yellow Ribbon Reintegration Program
    Congress has provided increased resources to support the transition 
of warrior-citizens back into the community. But program execution 
remains spotty from State to State and falls short for returning 
Federal Reserve warriors in widely dispersed regional commands. 
Military and civilian leaders at all levels must improve the 
coordination and delivery of services for the entire operational 
Reserve Force. Many communities are eager to provide support and do it 
well. But yellow ribbon efforts in a number of locations amount to 
little more than PowerPoint slides and little or no actual 
implementation.
    DOD must ensure that State-level best practices--such as those in 
Maryland, Minnesota and New Hampshire--are applied for all operational 
Reserve Force members and their families, and that Federal Reserve 
veterans have equal access to services and support available to 
National Guard veterans. Community groups, employers and service 
organization efforts need to be encouraged and better coordinated to 
supplement unit, component, Service and VA outreach and services.
    AUSN urges the subcommittee to hold oversight hearings and direct 
additional improvements in coordination, collaboration and consistency 
of Yellow Ribbon services between States.
Reserve Family Support Programs
    We have seen considerable progress in outreach programs and 
services for returning Guard-Reserve warriors and their families. 
Family support programs promote better communication with 
servicemembers. Specialized support and training for geographically 
separated Guard and Reserve families and volunteers are needed.
    AUSN recommends:

        <bullet> Ensuring programs are in place to meet the special 
        information and support needs of families of individual 
        augmentees or those who are geographically dispersed.
        <bullet> Funding programs between military and community 
        leaders to support servicemembers and families during all 
        phases of deployments.
        <bullet> Providing preventive counseling services for 
        servicemembers and families and training so they know when to 
        seek professional help related to their circumstances.
        <bullet> Authorizing and funding child care, including respite 
        care, family readiness group meetings and drill time.
        <bullet> Improving the joint family readiness program to 
        facilitate understanding and sharing of information between all 
        family members.
                              health care
TRICARE Reimbursement Rates
    Physicians consistently report that TRICARE is virtually the 
lowest-paying insurance plan in America. Other national plans typically 
pay providers 25-33 percent more. In some cases the difference is even 
higher.
    Unless Congress acts before the end of the year, current law will 
force a 30 percent reduction in Medicare and TRICARE payments as of 
January 1, 2012, which would cause many providers to stop seeing 
military beneficiaries.
    AUSN urges reversal of the 30 percent cut in Medicare/TRICARE 
payments scheduled for January 2012 and a permanent fix for the flawed 
formula that mandates these recurring annual threats to seniors' and 
military beneficiaries' health care access.
TRICARE Cost Efficiency Options
    AUSN continues to believe strongly that DOD has not sufficiently 
investigated options to make TRICARE more cost-efficient without 
shifting costs to beneficiaries. AUSN has offered for several years a 
long list of alternative cost-saving possibilities, including:

        <bullet> Positive incentives to encourage beneficiaries to seek 
        care in the most appropriate and cost effective venue;
        <bullet> Encouraging improved collaboration between the direct 
        and purchased care systems and implementing best business 
        practices and effective quality clinical models;
        <bullet> Focusing the military health system, health care 
        providers, and beneficiaries on quality measured outcomes;
        <bullet> Improving MHS financial controls and avoiding overseas 
        fraud by establishing TRICARE networks in areas fraught with 
        fraud;
        <bullet> Promoting retention of other health insurance by 
        making TRICARE a true second-payer to other insurance (far 
        cheaper to pay another insurance's co-pay than have the 
        beneficiary migrate to TRICARE);
        <bullet> Encouraging DOD to effectively utilize data from their 
        electronic health records to better monitor beneficiary 
        utilization patterns to design programs which truly match 
        beneficiaries needs;
        <bullet> Sizing and staffing military treatment facilities to 
        reduce reliance on network providers and develop effective 
        staffing models which support enrolled capacities;
        <bullet> Reducing long-term TRICARE Reserve Select (TRS) costs 
        by allowing servicemembers the option of a government subsidy 
        of civilian employer premiums during periods of mobilization;
        <bullet> Encouraging retirees to use lowest-cost-venue military 
        pharmacies at no charge, rather than discouraging such use by 
        limiting formularies, curtailing courier initiatives, etc.
        <bullet> Utilizing the current GAO reviews to implement changes 
        to improve efficiencies
TRICARE Prime
    There appears to be growing dissatisfaction among TRICARE Prime 
enrollees--which is actually higher among active duty families than 
among retired families. The dissatisfaction arises from increasing 
difficulties experienced by beneficiaries in getting appointments, 
referrals to specialists, and sustaining continuity of care from 
specific providers.
    AUSN supports implementation of a pilot study by TMA in each of the 
three TRICARE Regions to study the efficacy of revitalizing the 
resource sharing program used prior to the implementation of the 
TRICARE-The Next Generation (T-NEX) contracts under the current Managed 
Care Support contract program.
    AUSN supports adoption of the ``Medical Home'' patient-centered 
model to help ease such problems.
    AUSN strongly advocates the transparency of healthcare information 
via the patient electronic record between both the MTF provider and 
network providers. Additionally, institutional and provider healthcare 
quality information should be available to all beneficiaries so that 
they can make better informed decisions.
    We are concerned about the impact on beneficiaries of the 
elimination of some Prime service areas under the new contract. This 
will entail a substantive change in health care delivery for thousands 
of beneficiaries, may require many to find new providers, and will 
change the support system for beneficiaries who have difficulty 
accessing care.
    AUSN urges the subcommittee to:

        <bullet> Require reports from DOD and the managed care support 
        contractors on actions being taken to improve Prime patient 
        satisfaction, provide assured appointments within Prime access 
        standards, reduce delays in preauthorization and referral 
        appointments, and provide quality information to assist 
        beneficiaries in making informed decisions.
        <bullet> Require increased DOD efforts to ensure consistency 
        between both the MTFs and purchased care sectors in meeting 
        Prime access standards.
        <bullet> Ensure timely notification of and support for 
        beneficiaries affected by elimination of Prime service areas.
TRICARE Standard
    AUSN appreciates the subcommittee's continuing interest in the 
specific problems unique to TRICARE Standard beneficiaries. TRICARE 
Standard beneficiaries need assistance in finding participating 
providers within a reasonable time and distance from their home. This 
is particularly important with the expansion of TRICARE Reserve Select 
and the upcoming change in the Prime Service Areas, which will place 
thousands more beneficiaries into TRICARE Standard.
    AUSN is concerned that DOD has not yet established benchmarks for 
adequacy of provider participation, as required by section 711(a)(2) of 
the NDAA for Fiscal Year 2008. Participation by half of the providers 
in a locality may suffice if there is not a large Standard beneficiary 
population, but could severely constrain access in other areas with 
higher beneficiary density. AUSN hopes to see an objective 
participation standard (perhaps based on the number of beneficiaries 
per provider) that would help shed more light on which locations have 
participation shortfalls of Primary Care Managers and Specialists that 
require positive action.
    AUSN continues to oppose initiatives that would establish an 
enrollment fee for TRICARE Standard. If a beneficiary is to be required 
to pay an enrollment fee, the beneficiary should gain some additional 
benefit from enrollment. TRICARE Prime features an enrollment fee, but 
in return offers guaranteed access to care. In contrast, Standard 
offers no such guaranteed access, and beneficiaries typically are on 
their own in finding a participating provider who is accepting new 
patients.
    A source of recurring concern is the TRICARE Standard inpatient 
copay for retired members, which now stands at $535 per day. For each 
of the last several years, Congress has had to insert a special 
provision in the National Defense Authorization Act to preclude 
increasing that by another $115 per day or more. AUSN believes the $535 
per day amount already is excessive, and should be capped at that rate 
for the foreseeable future.
    AUSN urges the subcommittee to:

        <bullet> Insist on immediate delivery of an adequacy threshold 
        for provider participation, below which additional action is 
        required to improve such participation.
        <bullet> Require a specific report on participation adequacy in 
        the localities where Prime Service Areas will be discontinued 
        under the new TRICARE contracts.
        <bullet> Oppose establishment of a TRICARE Standard enrollment 
        fee, since Standard does not entail any guaranteed access to 
        care.
        <bullet> Increase locator support to TRICARE Standard 
        beneficiaries seeking providers who will accept new Standard 
        patients, particularly for mental health specialties.
        <bullet> Seek legislation to eliminate the limit when TRICARE 
        Standard is second payer to other health insurance (OHI): e.g., 
        return to the policy where TRICARE pays up to the amount it 
        would have paid, had there been no OHI.
        <bullet> Bar any further increase in the TRICARE Standard 
        inpatient copay for the foreseeable future.
TRICARE For Life (TFL)
    When Congress enacted TFL in 2000, it explicitly recognized that 
this coverage was fully earned by career servicemembers' decades of 
sacrifice, and that the Medicare Part B premium would serve as the cash 
portion of the beneficiary premium payment. AUSN believes that this 
remains true today.
    Some have proposed establishing an enrollment fee for TFL. AUSN 
believes this is inappropriate, since beneficiaries have no guarantee 
of access to Medicare-participating providers.
    AUSN is aware of the challenges imposed by Congress' mandatory 
spending rules, and appreciates the subcommittee's efforts to include 
TFL-eligibles in the preventive care pilot programs included in the 
NDAA for Fiscal Year 2009. We believe their inclusion would, in fact, 
save the government money and hope the subcommittee will be able to 
find a more certain way to include them than the current discretionary 
authority, which DOD has declined to implement.
    AUSN also hopes the subcommittee can find a way to resolve the 
discrepancy between Medicare and TRICARE treatment of medications such 
as the shingles vaccine, which Medicare covers under pharmacy benefits 
and TRICARE covers under doctor visits. This mismatch, which requires 
TFL patients to absorb the cost in a TRICARE deductible or purchase 
duplicative Part D coverage, deters beneficiaries from seeking this 
preventive medication.
    AUSN urges the subcommittee to:

        <bullet> Resist initiatives to establish an enrollment fee for 
        TFL, given that many beneficiaries already experience 
        difficulties finding providers who will accept Medicare 
        patients.
        <bullet> Seek ways to include TFL beneficiaries in DOD programs 
        to incentivize compliance with preventive care and healthy 
        lifestyles.
        <bullet> Resolve the discrepancy between TRICARE and Medicare 
        treatment of the shingles vaccine.
Survivors' Coverage
    When a TRICARE-eligible widow/widower remarries, he/she loses 
TRICARE benefits. When that individual's second marriage ends in death 
or divorce, the individual has eligibility restored for military ID 
card benefits, including SBP coverage, commissary/exchange privileges, 
etc.--with the sole exception that TRICARE eligibility is not restored. 
This is out of line with other Federal health program practices, such 
as the restoration of CHAMPVA eligibility for survivors of veterans who 
died of service-connected causes. In those cases, VA survivor benefits 
and health care are restored upon termination of the remarriage. 
Remarried surviving spouses deserve equal treatment.
    AUSN recommends restoration of TRICARE benefits to previously 
eligible survivors whose second or subsequent marriage ends in death or 
divorce.
Pharmacy
    AUSN supports a strong TRICARE pharmacy benefit which is affordable 
and continues to meet the pharmaceutical needs of millions of eligible 
beneficiaries through proper education and trust. The AUSN will oppose 
any degradation of current pharmacy benefits, including any effort to 
charge fees or copayments for use of military treatment facilities.
    AUSN urges the subcommittee to:

        <bullet> Advance the use of the mail-order option by lowering 
        or waiving copays, enhancing communication with beneficiaries, 
        and using technological advances to ease initial signup.
        <bullet> Require DOD to include alternate packaging methods for 
        pharmaceuticals to enable nursing home, assisted living, and 
        hospice care beneficiaries to utilize the pharmacy program. 
        Packaging options should additionally include beneficiaries 
        living at home who would benefit from this program because of 
        their medical condition (for example beginning stages of 
        Alzheimer's).
        <bullet> Create incentives to hold down long-term health costs 
        by eliminating copays for medications for chronic conditions, 
        such as asthma, diabetes, and hypertension or keeping copays at 
        the lowest level regardless of drug status, brand or generic.

    ``A Veteran--AD, Reserve, NG, or Retired is someone who, at one 
point in their life, wrote a blank check made payable to ``The United 
States of America,'' for an amount of ``up to and including my life.''

    Senator Webb. Thank you very much, Captain Puzon.
    Ms. Roth-Douquet, welcome.

 STATEMENT OF KATHY ROTH-DOUQUET, CHAIRMAN, BLUE STAR FAMILIES

    Ms. Roth-Douquet. Thank you, Senator Webb.
    This is my first time testifying, so it's--I'm thrilled to 
be at this very large table.
    Everyone may not be familiar with Blue Star Families. We're 
a nationwide nonprofit of military families from all ranks and 
Services, including Guard and Reserve. We are a chapter-based 
organization, about 2 years old; we have over 50 chapters, so 
far. This past year we have had over 1,000-percent growth. In 
addition to chapters, we're very social-media and online-
oriented.
    We do surveys every year of our members and of other 
military families. Our surveys have consistently shown that pay 
and benefits, the operational tempo, and the effects of 
deployment on children are top concerns for families.
    Some highlights from our survey concerning benefits are 
that military healthcare, both quality and access, rate 
extremely high, and they're also a very high cause of concern. 
We take that to mean both that services vary widely from region 
to region and among the different Services, and whether you're 
in the Guard and Reserve, and the perception of the quality 
varies, perhaps, depending on the age and experience of the 
people who are experiencing the service. So, it's a good and a 
bad story.
    We've asked our members and military families what services 
they're most satisfied with. Top choices are commissary and 
exchange. TRICARE insurance and chaplain services are the 
second most popular. We think that chaplain services are a very 
important thing and a part of some of the mental health 
services that we talk about that isn't often discussed. DOD 
schools are the third most popular, with base housing next.
    I do want to mention that the post-9/11 GI Bill, which we 
thank you for sponsoring, is extremely popular. There is a lot 
of concern among families about maintaining transferability, 
and also among servicemembers who have served careers and for 
whom the education of their children is a very important 
benefit to them.
    What I would really like to highlight with you today, 
however, is a bit different than what we have been talking 
about. It's how we can better help military families and better 
provide benefits outside of DOD and government funding, but 
with government cooperation, through public-private 
partnerships. Government is often the biggest barrier to this, 
and perhaps this is an area where you can help.
    Military families do serve and do suffer burden in this 
long war, but we also believe that the government can't solve 
all ills. Groups like ours play a role, but to play it 
effectively, we have to be able to engage cooperatively with 
the DOD. Our organization started to provide spouses on the 
ground, and other family members, the ability to identify and 
be part of solving the problems that we see in our communities. 
We feel like we're experts and we have something to contribute. 
We listen to our members, to ourselves, to our annual surveys, 
and we use our position as military family members to ask for 
help. We work with government, when possible, to make our 
programs better and more effective, but we also go outside of 
government.
    For instance, we asked museums, last year, to make 
themselves free for military families. Nearly 900 signed up and 
300,000 military family members went for free. We couldn't have 
done it without the support of the National Endowment for the 
Arts and with the support of the First Lady, but this program 
didn't cost the government or military families anything, and 
yet, it provided a benefit.
    The NMFA's Operation Purple Camps are another example of 
this kind of way of providing benefits without impacting the 
budget.
    But, often we are prevented from the very institutions that 
are trying to help our families--by the DOD or other agencies--
from doing this sort of thing.
    RAND issued a study showing that base libraries are 
underfunded. We know, from volunteering in our children's 
schools, that many young military families don't have any books 
at home. I don't want DOD to spend money on books for our 
libraries. We go out to publishers and to nonprofits, and we 
get donations of free new children's books. Our chapters bring 
them to base and National Guard locations, give them directly 
to kids, to the base and community schools and libraries for 
free. Well, on some bases, we can go on base and do that; and 
some bases, we can't. We can do it at Quantico and Little Creek 
and Camp Lejeune, but not at Camp Pendleton. We're not seeking 
any benefit. We're not raising any money. Our membership is 
free, this is just a benefit. But, often we can't provide it.
    Another example is suicide prevention. We know there's a 
big problem; it's been discussed. We know, anecdotally, that 
spouse suicide is a problem; it's not tracked by anyone. But, 
last year four spouses, alone, at Fort Bragg committed suicide.
    We also know from our surveys that families and troops 
prefer to get their information from the popular culture and 
not from government channels. So, taking that experience, we 
went to the entertainment industry, and we asked for their help 
in creating a message that would work. We went to the Sundance 
and to the Oscars, and we filmed celebrities giving messages of 
encouragement and directing servicemembers and families seeking 
help to the DOD and VA Helpline. We worked with DOD and VA 
experts on developing the program and in folding it into their 
helpline. It's not our program. It's using the outside to get 
in.
    But, now we are hearing from some general counsels that 
they can't actually use this Public Service Announcement, which 
we are willing to provide them for free, because there is some 
concern about providing an undue benefit. Well, there's no 
benefit to us, other than the reduction of people committing 
suicide. Again, we're not raising money for it. We raised money 
for it already, and again, I think this is an instance of how 
we're not being able to provide some of the service we need, 
especially in a time of budget restrictions.
    DOD can't do it all, and nor should it. When it comes to 
government budget priorities, my first priority, personally, is 
having my husband properly trained and equipped. Let's use the 
private and the nonprofit sectors intelligently and responsibly 
to help us meet some of our needs, as families. Sometimes 
nongovernmental organizations (NGO) have access or expertise, 
and can act more quickly. If NGO programs prove less effective 
or if needs shift, NGO programs are easier to end than 
government programs.
    I know many people in government are trying. Many of us got 
together, over a year ago, in White Oak, in a conference call 
to Join Forces for Family, including some members of your 
committee staff, and one of the most common complaints we heard 
from nonprofits was about DOD stovepipes, and the inability to 
work with the nonprofit sector caused concern. Doug Wilson and 
Rob Gordon were two of the co-hosts there, and they're at the 
DOD now, trying to enhance cooperation. But, it's a difficult 
thing to do.
    Many of our programs, I know many of NMFA's programs, 
succeed because we leverage the power of public and private 
entities working together. Military families serve and 
sacrifice because we love our servicemembers and we love our 
country, but not because we love the Pentagon. I think it's 
reasonable for us to look outside the Pentagon for some of 
these solutions, and outside of the individual Services. But, 
we need to coordinate with them to make sure that those 
programs are intelligent and effective.
    So, we'd like to ask for your support and leadership in 
helping us to break through some of the stovepipes and 
bureaucracy in DOD and elsewhere in government that prevent 
groups, such as ours and others who testified here today, from 
sharing the responsibility for supporting America's military.
    Thank you for your time.
    [The prepared statement of Ms. Roth-Douquet follows:]
                Prepared Statement by Blue Star Families
    Thank you, Senator Webb, Senator Graham, and members of the 
subcommittee for inviting us here to speak to you today.
    Blue Star Families is a nonprofit of military families from all 
Services and all ranks, including National Guard and Reserve, as well 
as veterans and civilians who strongly support us, with a mission of 
strengthening military families. We support one another through the 
unique challenges of military service and ask the larger civilian 
population to help connect military families regardless of rank, branch 
of service or physical location, and empower military family members to 
create the best personal and family life possible for themselves.
    We currently have over 50 chapters nationwide and are adding more 
regularly. Our online and social media activity is equally important, 
we have thousands of new members joining on-line weekly. We have had 
1,000 percent growth in our second year. Through outreach and 
involvement with national and local organizations, civilian communities 
and government entities, Blue Star Families works hand in hand to share 
the pride of service, promote healthier families, aid in our military 
readiness, and contribute to our country's strength.
    We appreciate the opportunity to speak to the Senate Armed Services 
Committee Personnel Subcommittee on the topic of benefits. Our annual 
Military Family Lifestyles Survey has consistently shown that pay and 
benefits, the current operational tempo, the effects of deployments on 
children, spouse employment, and children's education are the top 
concerns among military families.
    Some highlights from our survey concerning benefits:

        <bullet> Health Care is both an area of high concern and high 
        satisfaction. Almost 39 percent of respondents said they were 
        extremely/very satisfied with the quality of military health 
        care. However, 24 percent said they were extremely/very 
        dissatisfied. Forty-two percent said they were extremely/very 
        satisfied with access to military health care, while 22 percent 
        said they were extremely/very dissatisfied with it. While a 
        majority of respondents (52 percent) were extremely/very 
        satisfied with TRICARE, 18 percent were extremely/very 
        dissatisfied.
        <bullet> That Military Healthcare Access & Quality have 
        relatively high extremely/very satisfied ratings yet rank 
        second and third as areas in need of improvement (Mental Health 
        Services, with 44 percent, was the area chosen as most in need 
        of improvement) and have solid dissatisfied percentages 
        suggests widely varying quality across regions, services, 
        individual installations, etc.
        <bullet> When asked which services they were most satisfied 
        with, the top choice (with 50 percent) was the commissary and 
        exchange benefit, TRICARE insurance and Chaplain services tied 
        for second (with 40 percent), and Department of Defense 
        Education Activity Schools came in third (36 percent). Base 
        Housing came in a close fourth (with 35 percent).
        <bullet> As more and more discussion centers around the post-9/
        11 GI Bill, our membership has continued to voice their support 
        for the option of transferability. Yet many Members of 
        Congress, including members of this panel, have advocated for 
        abolishing transferability, either directly or through the 
        `back door' of requiring the Department of Defense (DOD) to pay 
        for transferred benefits--a requirement DOD has already stated 
        it can't meet. It is unfair to ask those families who have 
        sacrificed the most for the current conflicts to give up a key 
        benefit that is intended to reward servicemembers for their 
        dedication. It also ignores the modern reality that entire 
        families are sacrificing their full potential to serve their 
        country--and that a transferred benefit is still a benefit to 
        the soldier, since the soldier's income is often paying for the 
        spouse's or child's education.

    What I would really like to highlight in with you today, however, 
is a bit different it is how we can better help military families--
provide benefits--outside of DOD or government funding, but with 
government cooperation, through public-private partnerships. The 
government is often the largest barrier to this, and perhaps this is an 
area where you can help.
    Military families do serve, do suffer burdens during this long war. 
But we also believe that government can't solve all ills. Groups like 
ours play a role, but to play it effectively we need to be able to 
engage cooperatively with the DOD.
    Our organization was started to provide the spouse and family 
members on the ground the ability to identify and be part of solving 
the problems they saw in their communities. We listen to our members, 
ourselves, our annual surveys, and we use our position as military 
family members to ask for help. We seek to work with government when 
possible to make our programs better, more effective, and more 
coordinated with government programs. For instance, last year we asked 
museums across the country to make themselves free for military 
families over the summer. Over 900 museums signed on, and 300,000 
troops and family members took part last summer. We couldn't have done 
it without the assistance of Rocco Landesman and the NEA, or the First 
Lady's support. This program cost the government and military families 
nothing, and has been tremendously popular. This year our goal is to 
sign up 1,500 museums and have 500,000 family members take part. 
National Military Family Association's Operation Purple Camps are 
another example of this.
    Sometimes, however, the cooperation has not been smooth, for 
instance, with our Books on Bases program. We know from experience that 
many young military kids have no books at home, maybe because of 
frequent moves or deployment pressures. A RAND survey showed that base 
libraries are under funded. My own at Parris Island seems to have had 
its heyday 40 years ago. But I don't want the DOD to solve that 
problem. I want them doing other things. So we at BSF have gone to book 
publishers and to the nonprofit KIDS and have gotten donations of free 
new children's books that our chapters can bring to give away to their 
kids, and to base and community schools and libraries, over 65,000 to 
date. The only problem is, because of differing expectations and 
requirements for nonprofits to operate on different military 
installations, some installations won't permit it. So, even though our 
chapters include spouses from their installation, even though we are 
not raising money or receiving a benefit, we are only giving away 
books--solving a problem, we can't have an event. We have given away 
books at Quantico, Little Creek, Camp Lejeune, and others, but we can't 
get on Camp Pendleton.
    As another example, recently we got involved with the issue of 
suicide prevention. Our surveys show that many families prefer to get 
their information from popular culture, rather than from official 
channels. We also know from our members that depression and thoughts of 
suicide are a problem not just for troops, but among families 
themselves.'' So working with DOD and the Veterans' Administration (VA) 
experts on the substance, we got the help of the entertainment industry 
and went to Sundance and the Oscars and got celebrities to film PSAs of 
support to help promote the DOD/VA approved help line. This did not 
cost the government anything and we are making it available to anyone 
who wants to use it for free. Many will use it, but we have also heard 
from some that the legal counsel forbids it as something that endorses 
a private program. Well, we have no program, we are just using the 
power of the popular culture to highlight the DOD/VA program. There is 
no competition here--this is the kind of thing we could do a better job 
with.
    This matters because there are tight budgets, and the DOD can't do 
it all. Nor should it. When it comes to government budget priorities, 
my first concern personally is getting my husband properly trained and 
equipped. Let's use the private and the nonprofit sectors intelligently 
and responsibly to help us meet some of these needs. Sometimes the 
nongovernmental players have access or expertise or can act more 
quickly. If nongovernment organization programs prove less effective or 
needs shift, nongovernment organization programs are easier to end than 
a government program.
    I know many people in government are trying. When many of us here 
got together last year, including some of your staff at the Senate 
Armed Services Committee, at White Oak to discuss `joining forces for 
military families' across public and private sectors, we heard over and 
over from nonprofits that DOD stovepipes and inability to work with the 
nonprofit sector caused concern. Doug Wilson was one of the co-hosts of 
that conference, as was Rob Gordon. They are both at the DOD now and 
trying to enhance cooperation, but it's difficult for everyone.
    Most BSF programs succeed because they leverage the power of public 
and private entities working together to support families. Public-
private partnerships are key to BSFs philosophy. Military families 
serve and sacrifice because we parents, spouses, and children love our 
servicemember, and love our country, not because we love the Pentagon. 
In fact, many families prefer not to interact with `official channels.' 
So it is right and fitting that the responsibility for helping families 
falls not only to the Pentagon or the individual Services, but to the 
larger society as well.
    As one respondent said in our survey, ``The most important issue I 
feel is community support of the servicemembers and their families. 
There are many families, more than most people realize, that need that 
support to know they aren't in this war alone. Many do not seek support 
or help because of lack of availability, pride, or any number of 
reasons. Community groups, businesses, and local governments could work 
together to keep a focus on their local military families and provide 
special programs that might be outside of traditional DOD programs. It 
makes such a big difference to know others, besides just our military 
community, care that our loved ones are deploying over and over again 
and want to be part of what we are going through.''
    We'd like to ask for your support and leadership in helping us 
break through some of the stovepipes and bureaucracy at the DOD and 
elsewhere in government that prevent groups such as ours and the others 
who testify here today from sharing the responsibility of supporting 
America's military families.
    Thank you for your time and for your concern for servicemembers and 
their families.

    Senator Webb. Thank you very much.
    All of your recommendations and your full statements will 
be carefully considered by staff on both sides. We'll have 
discussions about these. We've seen these issues, some of them, 
many times before, but they will all get full consideration.
    Just as a quick comment to something that you just said, 
Ms. Roth-Douquet. We have our challenges when it comes to 
family issues. At the same time, it's amazing to me, over the 
course of my life, how much better things are for families than 
when I was a kid.
    Obviously, the first thing all of us want is for the 
serving member to be properly trained and to fulfill their 
mission and those sorts of things. I mean, when I was growing 
up, in the post-World War II military, where the U.S. military 
had expanded so dramatically during World War II, and held a 
good bit of its size, compared to what it looked like previous 
to World War II, just basic things, like family housing and 
schools, did not exist. We went, one period, for 3\1/2\ years, 
where we couldn't live with my dad. He was either deployed or 
on bases where there was no family housing available.
    One of the great memories of my earlier life was when he 
would drive 380 miles every weekend from Scott Air Force Base, 
IL, up to Saint Joseph, MO, where we were living. No 
interstate. He'd get off Friday afternoon; he'd drive, get in 
Saturday morning; come in and raise hell for 2 days; get in the 
car, drive back on Sunday night.
    I went to one school in Vandenberg Air Force Base, when 
they first opened up Vandenberg. We went from zero people to 
12,000 people in 1 year out there. Our school was an old World 
War II hospital where they put a green chalkboard in the front 
of the class and said, ``Now this is a school.'' So, it wasn't 
bad.
    But, at the same time, when I look at where we are right 
now, sometimes you have to pinch yourself to realize how much 
attention is paid to this, despite the challenges that we have. 
Everybody's eyeballs are on it up here. I think, collectively, 
up here, we're doing everything we can for the people who 
serve, which, by the way, is a little bit different than when I 
came up here on the heels of the Vietnam war, when this place 
was very divided about military service.
    I want to get all of your viewpoints, if I might, on this 
issue of medical care. I know, Colonel Strobridge, it was 
probably your assigned area, if there are varying thoughts on 
this, I really would like to hear them, because I personally 
have been struggling with this notion of modest increases, for 
the time being--but increase in TRICARE fees for certain 
retirees and, Colonel Strobridge, as you pointed out, to be 
indexed to, basically, an unknown entity.
    My immediate reaction, and my continuing reaction, has been 
the notion of a moral contract that this is--there's nothing 
written in it, there's nothing in the Constitution. I accept 
Secretary Gates' observation that there's no written guarantee. 
But, there is a notion of a moral contract.
    At the same time, I found what you said to be pretty 
interesting. It's a fresh approach. I hadn't been thinking 
about that. That's why I want to make sure I'm getting 
everybody's viewpoint here. This notion of providing an index 
that goes to the cost of living, as opposed to this unknown of 
a healthcare index--I mean, we can't solve the healthcare 
problem, in DOD. If you look at the growth in healthcare 
expenditures in the country over the past 15 years, they've 
just been off the charts. It's not a DOD management program. 
It's what's happened in healthcare, writ large. I do not think 
that people who served in the military should have that burden, 
in and of itself.
    So, I really would just like to hear from any of you, or 
all of you, on; what do you believe the notion is, in terms of 
this moral contract? What do you think about this proposed 
increase?
    We can start with Master Chief Barnes.
    Mr. Barnes. Thank you, Senator, and thanks for your 
leadership and stand on this issue. I think you're right on the 
mark with regard to your view of this as a moral contract.
    Our Association's biggest concern is the indexing part of 
the DOD proposal. Consistent with our support of past 
legislation in the Senate, sponsored by Senator Lautenberg, we 
believe that the index should be no more than the index used to 
adjust military retired pay, which is the annual Consumer Price 
Index. We've repeatedly asked for clarification from the 
Department about how they arrived at the 6.2-percent assumption 
for the $7 to $8 billion savings over 5 years by the 
Department. But, that's the area where we have the biggest 
concern, with regard to the DOD proposal.
    Again, thank you for your stand on that. I think you're 
right on the mark, particularly with regard to those that have 
served in the past that are retired from the enlisted forces, 
and many were promised free healthcare for life, and that 
remains a key part of their vision, in looking at proposals 
like this, and the more drastic past proposals that have been 
introduced by the Department between 2006 and 2008.
    Senator Webb. Thank you.
    Mr. Strobridge. Sir, if can expand on my previous comments. 
Everybody agrees, I think, that there's a moral contract. The 
issue is, exactly what does that mean? There are some people 
who say, ``Gee, I was promised free healthcare for life.'' 
That's true for people who came in service before December 
1957. But, that was a long time ago. Most people, most of us 
who served, when you're on Active Duty, you have no idea what 
retirees pay. When people say, ``you'll be eligible for 
lifetime healthcare,'' people's reaction is, ``okay, that means 
I'll get what I'm getting today on Active Duty.'' Then when 
they retire, they find out, well, no. If you want to be in 
TRICARE Prime, you'll pay that enrollment fee. When you become 
Medicare-eligible, you will pay Medicare Part B premiums, which 
we've paid for 50 years.
    So, the perspective is, what is the moral contract? To us, 
the moral contract means not that we'll pay whatever civilians 
pay, but that we will recognize where we're starting from, 
number one, and recognize what that means over the years. To 
us, if we have a fee today, of TRICARE Prime, and you retire 
today at age 42 or 52 or whatever, you're going to live another 
30 years or so, plus. Over that time, cost-of-living 
adjustments are going to raise your retired pay, depending on 
what inflation is, by two or three times. We don't think, 
frankly, it's reasonable to expect that you're never going to 
have to pay even $1 more for your healthcare.
    So, to us, the reasonable way to both recognize the moral 
contract and accommodate that reasonable expectation of what 
will happen over your lifetime is that the deal will be that we 
won't raise your fees faster than we raise your compensation. 
Is that better than civilians get? Yes. But, that's because 
civilians don't pay that upfront fee of 20 or 30 years of 
service and sacrifice.
    Senator Webb. Thank you.
    Ms. Moakler?
    Ms. Moakler. I certainly agree with what Joe and Steve have 
said. But, I think it's important--and to address your concern 
about breaking with the contract or raising those fees, those 
retirees who are enrolled in TRICARE Standard are not 
experiencing an increase in fees, because they don't pay an 
enrollment fee. Only those who are enrolled in TRICARE Prime, 
where it's available--and you need to understand that it's not 
available across the entire country--are affected by this 
increase in TRICARE Prime enrollment fees. Those who use 
TRICARE Standard are already being asked to, perhaps, have a 
supplemental insurance; they pay higher cost shares and have a 
cap that they have to look at. So, we're already asking those 
who are just using TRICARE Standard to have a payment, as well. 
It's not as reflected--it's not as easy to track as the TRICARE 
Prime enrollment fee. But, they are already being asked to pay 
extra.
    Our association, when the increases were first introduced, 
4 or 5 years ago, saw the increases as inevitable and something 
that needed to be done in order to keep in line with increasing 
health costs.
    Senator Webb. Thank you.
    Captain Puzon?
    Mr. Puzon. Senator, I believe this moral contract is very 
strong, both ways, from the members and their families. They 
are very distrustful when you start messing around with it and 
mucking it up. Our members were very upset to find out, in the 
past and now recently, that we're going to try to change the 
enrollment fees and leave it alone. They're looking over their 
shoulder, what's next? So, you're actually setting a standard, 
here, of, ``Okay, that sets it, so we're going to do something 
different next time.''
    Especially if you look at the index thing, as my colleagues 
have said; most of their pay, those that are veterans, have 
gone down or not changed at all over the last 2 years, because 
of the situation. But, it remains that they want to do their 
part--they understand the deficit--but they are just not sure 
that, ``Okay, if I do this, then what's next?'' So, our members 
are very upset with us that we even signed on to accept the 
modest fee, although we saw it as a way to make--at least meet, 
halfway, DOD. But, then when you see the indexing, as 
published, they're very upset about that.
    Thank you.
    Senator Webb. Ms. Roth-Douquet?
    Ms. Roth-Douquet. We don't hear about this from our members 
much, and we don't ask about it much. I think, with the Active 
Duty, we're very concerned about resiliency, about tempo, about 
separation, about children. I think it's a sacrifice to serve, 
but it's a privilege also, and we're patriotic. We understand 
the situation our country's in. I think we need to look at the 
budget and how we need to best protect our forces and move--
move, going forward.
    We don't have a policy position on this issue. But, I do 
want to emphasize that the moral duty goes both ways, to us to 
you, and from you to us. We understand we have a country we 
have to help protect budgetarily as well as security-wise.
    Senator Webb. All right.
    Mr. Strobridge. Mr. Chairman, may I make a comment about 
Captain Puzon's concerns about the future, which we certainly 
share? I think all of us share that.
    I think the real concern is, as we said, there's nothing in 
the current law that sets TRICARE fees. Our concern is, leaving 
it that way leaves us increasingly vulnerable every year as the 
budget concerns rise. So, to us, we see our proposal as kind of 
a prophylactic measure to get these principles in the statute, 
even if it's only as a Sense of Congress, the explicit 
statement that military people pay the bulk of their fees 
through service and sacrifice, and that's the way we're 
recognizing that is to put a limit on the fee increase, that is 
not there now. By doing that, that won't guarantee that nothing 
else will ever be done, but it establishes a principle that we 
can then look to in the future to try to keep our commitment to 
that moral contract.
    Senator Webb. That's an interesting point, and certainly 
one that I think we'll consider. It's sort of a fresh approach 
that we haven't been talking about up here.
    I thank all of you for being with us today, and for your 
insights. As I said, all of your recommendations will be 
examined by our staff. Again, thank you very much for being 
here.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
   developing leaders in the noncommissioned officer and chief petty 
                             officer ranks
    1. Senator McCain. Master Chief West, it's difficult it seems to go 
a month without some media story about abusive and failed leadership. 
Most recently, we heard about a group of chief petty officers on U.S.S. 
Stout who, according to the article, ``created an oppressive, feared, 
and hostile work environment/command climate aboard the ship.'' A chief 
petty officer from U.S.S. George H.W. Bush was sentenced last week to 6 
months in the brig for his cruelty and abuses. You have been working at 
this issue for some time. What do you view as the principal source of 
problems for the Navy, particularly the shipboard Navy, in developing 
strong chief petty officers who will lead by example?
    Master Chief Petty Officer West. I do not believe that Navy has a 
``principal source of problems'' that hinders development of leaders at 
the senior enlisted level. We have outstanding development programs 
that produce some of the finest leaders in the world. While there have 
been some public failures of leadership within the chief petty officer 
ranks in the past year, these are isolated instances from among a chief 
petty officer community of approximately 30,000 leaders. In context, 
the vast majority of these men and women are performing an incredible 
span of missions in a highly professional manner, and in every 
operating environment imaginable.
    I believe that increased availability of rapid and transparent 
communications may be contributing to an inaccurate perception of 
increased aberrant behavior among leaders. Nonetheless, even a single 
case of misapplied or abusive authority is one too many and Navy 
leadership remains fully committed to upholding the tenets of 
responsibility, authority, and accountability. In fact, survey results 
suggest a slight upward trend over the last 2 years in response to 
questions about supervisors demonstrating Navy Core Values being 
positive role models and demonstrating ethical behavior.
    We have developed a continuum of training that begins during Chief 
Select Training, and continues with annual Chief's Mess Training at the 
unit level. The senior master chiefs in the Navy are currently 
conducting waterfront leadership seminars among chief petty officers in 
fleet concentration areas supplemented by guidance from senior fleet 
commanders, identifying expectations of those serving in positions of 
authority.
    Last year, Navy produced a video on the proper way for senior 
enlisted to conduct Career Development Boards--the primary method for 
chief petty officers to formally engage subordinates, in a coaching and 
mentoring role, to foster professional development. To support the 
pinnacle of unit-level enlisted leadership, Navy has a 2-week Command 
Master Chief/Chief of the Boat course in Newport, RI, which emphasizes 
principle-based leadership through a wide array of seminars, case study 
discussions, self-assessment tools, and engagement with the officers in 
the prospective executive officer and prospective commanding officer 
courses.

    2. Senator McCain. Sergeant Major Chandler, the Army has been under 
great stress due to its rotational demands. General Chiarelli's report 
last July 2010, ``Health Promotion, Risk Reduction, and Suicide 
Prevention in the Army,'' portrayed a personnel picture that was very 
sobering. What's your assessment about the state of the Army and its 
soldiers since taking over as Sergeant Major of the Army?
    Sergeant Major Chandler. My initial assessment is that our overall 
efforts to develop and maintain a healthy Force are effective. However, 
we are concerned by the growth of specific stress indicators within 
particular populations. The Army will continue to provide the best 
care, support and multi-disciplinary services available and we are 
committed to mitigating risk behaviors to enhance soldiers and family 
fitness.

    3. Senator McCain. Sergeant Major Kent and Chief Master Sergeant 
Roy, what do you see as the key to development of noncommissioned 
officers (NCO) who will provide the leadership needed to younger 
troops?
    Sergeant Major Kent. Staff Noncommissioned Officers (SNCOs) 
empowering NCOs to face leadership challenges is crucial to the 
development of our young marines. While formal education and military 
professional military education provide an initial means of exposure to 
leadership skills and techniques, only through situational application 
will these skills be put into practice. Experience is the key. SNCOs 
must coach, teach, and mentor their NCOs during practical exercises to 
foster leadership learning. Perhaps more importantly, SNCOs must stand 
behind their NCOs during this process and allow NCOs to build 
confidence in their own leadership abilities.
    Chief Master Sergeant Roy. The Air Force takes a deliberate 
approach to enlisted force development, which includes career 
progression with increased levels of supervisory, leadership, and 
managerial responsibilities. The foundation of NCO development is our 
institutional competencies, which otherwise stand on the three pillars 
of experience, education and training.
    Diverse personal and professional developmental paths provide our 
airmen opportunities to undertake varying degrees of challenges and 
build problem solving and resiliency skills derived from new knowledge 
and experiences. Professional Military Education (PME) plays a key role 
in the overall development of our NCOs. PME, which begins just prior to 
earning NCO status and continues throughout their careers, is part of 
the enlisted continuum of education. Additionally, off-duty education 
is essential and provides development by enhancing one's intellectual 
capability, capacity and critical thinking skills.
    Finally, we must develop a joint perspective early in their 
careers. NCOs must know and understand the culture, responsibilities, 
and the shared competencies necessary to build early interoperability 
for immediate success in the joint/deployed environment.

      predatory lending prevention and financial affairs training
    4. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, 
predatory lending was a big problem in the Services 6 or 7 years ago. 
Servicemembers were losing their security clearances as a result of 
financial irresponsibility. How are we doing today in this regard?
    Sergeant Major Chandler. The Army's Central Clearance Facility, 
which has the responsibility to conduct investigations on Army 
personnel in order to grant security clearances, has no method to 
determine and/or verify if an individual is or claims to be a victim of 
predatory lending. However, during the past 3 fiscal years (2008-2010), 
less than 2 percent of clearance revocations or denials were for 
financial considerations.
    The Army, through Garrison Commanders, continues to work with on-
base banks and credit unions to keep a close eye on financial readiness 
(education, predatory lending, and fees) issues. In addition, they work 
with on-base financial counselors who have direct communication and 
contact with soldiers and family members to address these types of 
concerns. Trade associations and their member banks and credit unions 
on base have also developed specialized lending products to directly 
combat predatory lending.
    Master Chief Petty Officer West. In fiscal year 2010, the 
Department of the Navy Central Adjudication Facility (DON CAF) 
adjudicated 199,378 clearances of which 1 percent were either denied or 
revoked. Financial issues were cited in 77.4 percent of the denials/
revocations rendered by DON CAF in fiscal year 2010. This is the trend 
over the past 5 years.
    When an individual experiences extensive financial difficulties, an 
adjudicative decision is made primarily based on actions the person has 
taken to formally address and/or mitigate his/her financial situation. 
Should an individual become the victim of predatory lending practices, 
this would be taken into consideration when making an overall 
adjudicative determination. Typically, there are other issues involved, 
and, if enough evidence is presented to favorably mitigate the 
financial concerns as extenuating circumstances that are credibly 
beyond an individual's control, the individual's security clearance is 
not affected.
    It is important to note that an individual always has the 
opportunity to explain to DON CAF, via their command, the circumstances 
surrounding any financial problem or predicament. This explanation, 
along with steps taken by the individual to address the problem, is 
taken into account when adjudicating clearances.
    The primary reasons for clearances being denied or revoked as it 
pertains to financial issues include the inability or unwillingness to 
resolve debts; recurrent pattern of financial instability; history of 
not meeting financial obligations; living beyond one's means; excessive 
indebtedness; high debt-to-income ratio; unexplained affluence; 
compulsive or addictive gambling; financial problems linked to drug 
abuse, alcoholism or gambling problems; and failure to file taxes.
    Sergeant Major Kent. In the past, predatory lending was a problem. 
However, data obtained from installation-level financial counselors 
indicates that of the reported cases only a small number of marines 
have had issues with predatory lenders.
    Chief Master Sergeant Roy. We are doing well. In fiscal year 2010, 
554 security clearance related consultations were reported Air Force-
wide; thus far in fiscal year 2011, 112 have been held. Although these 
numbers could reflect multiple appointments for the same individual, we 
believe we are making headway with this issue.
    Our Airman and Family Readiness Centers provide financial 
counseling and referral services to airmen who need assistance due to 
anticipated or known security clearance issues related to finances. 
Needs of these airmen vary widely as some are merely anticipating 
problems and want to be pro-active in prevention, while others request 
help only once their clearance is nearing adjudication and/or has been 
suspended. In addition, financial counseling services are also 
publicized to all airmen and family members through briefings, 
Commander's Calls, base websites, pamphlets and flyers.

    5. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, are 
there alternative sources now for short-term loans needed by junior 
personnel, e.g., from on-base credit unions?
    Sergeant Major Chandler. Yes, Army community Services' Financial 
Readiness programs, Army Emergency Relief, Military Banks and Defense 
Credit Unions have established programs and products designed to help 
junior servicemembers and their families resolve their financial 
crises, rebuild their credit ratings, and establish savings.
    Master Chief Petty Officer West. Yes. In 2007, the Navy-Marine 
Corps Relief Society created a $300 Quick Action Loan program to assist 
servicemembers in need and keep them from turning to predatory lenders. 
Some on-base credit unions and banks also now offer small loans that 
were previously not available, to help servicemembers resist using 
payday lenders.
    As a result of leadership focus, the number of sailors using payday 
loans has decreased. The 2011 Financial Health Quick Poll showed that 
only 2 percent of enlisted personnel used a payday loan option compared 
to 8 percent in 2006.
    Sergeant Major Kent. Yes. We worked with the Navy-Marine Corps 
Relief Society to establish a quick assist loan program that offers our 
marines a $300 interest-free loan for emergency basic living expense 
needs. In addition, our base credit unions offer short-term loans.
    Chief Master Sergeant Roy. Yes. The Air Force's primary source for 
safe, short-term, no-interest loans is the Falcon Loan program funded 
by the Air Force Aid Society and administered by an installation's 
Airman and Family Readiness Center.
    In 2008, the Air Force Aid Society (AFAS) created the Falcon Loan 
program in direct response to the alarming predatory lending practices 
for short-term loans. The Falcon Loan is a $500 on-the-spot loan which 
can be made to airmen experiencing financial difficulties. The airman 
has 10 months to repay the loan which is typically done through regular 
allotments from the airman's pay. Loan approval is less stringent than 
other types of AFAS emergency aid, however, a Falcon Loan can be 
received no more than two times in an airman's career. The loan is 
intended to preclude airmen from seeking financial help from other, 
less credible sources. AFAS reported a 20 percent decrease in Falcon 
Loans issued from calendar year 2009 and calendar year 2010. This 
decrease may suggest airmen are improving in their overall financial 
health and ability to manage their personal resources.

    6. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, how 
are the programs aimed at developing financial knowledge working out: 
are they well-received and attended and do you have any recommendations 
on how to improve these programs?
    Sergeant Major Chandler. The Army's Financial Readiness training 
enables soldiers and their families to achieve self-reliance in 
managing their financial responsibilities. The programs aimed at 
developing financial knowledge are well received and attended. In 2010, 
Army Community Service Centers provided financial readiness training to 
more than 60 percent of the junior enlisted population. Program 
improvements may be achieved through seminars conducted for soldiers 
and family members via the Virtual Resiliency Campus (VRC), a virtual 
environment that allows users to interact with each other and 
participate in individual and group activities. Basic Combat Training 
Installations have a program that provided Personal financial 
management in the first three weeks of training.
    Master Chief Petty Officer West. Navy has an effective personal 
financial management education program which appears to be well-
received by sailors throughout their careers. Core financial management 
training subjects are delivered as mandatory training through a 
continuum of learning during a sailor's career and transition back to 
civilian life. Both officer and enlisted receive personal and 
leadership financial management training.
    Personal Financial Management (PFM) training is provided at:

        <bullet> Officer and enlisted accession training sites
        <bullet> Recruit Training Command post-graduation orientation
        <bullet> General military training
        <bullet> Career options and Navy skills evaluation program 
        (mid-career course)
        <bullet> Transition assistance program classes
        <bullet> Local commands by Command financial specialists
        <bullet> Fleet and Family Support Center (spouses invited)
        <bullet> Navy Knowledge Online

    Leadership PFM training is provided at officer accession training 
sites and at key milestones in the officer and enlisted career path. 
Leadership training focuses at all levels is to ensure that leaders 
understand the link between prudent personal financial management and 
mission readiness. A sailor's prudent management of his or her personal 
finances is a cornerstone of personal and unit readiness. Navy 
leadership is also currently evaluating the following initiatives:

        <bullet> Improve family participation in the PFM program 
        through partnerships with the Ombudsman, family readiness 
        groups, child and youth program, and School Liaison Officers to 
        encourage financially fit families.
        <bullet> Increase PFM programs participation in pre- and post-
        deployment events including increasing promotion of Savings 
        Deposit Program for deploying Individual Augmentees (IAs) to 
        achieve guaranteed earnings of 10 percent APR.
        <bullet> Promote resources and services to IA families or 
        families of wounded, ill, or injured servicemembers.
        <bullet> A pilot program to use more junior sailors as Command 
        Financial Specialists to develop a stronger peer-to-peer 
        component in our program.

    Navy has an effective personal financial management education 
program which appears to be well-received by sailors throughout their 
careers. Core financial management training subjects are delivered as 
mandatory training through a continuum of learning during a sailor's 
career and transition back to civilian life. Both officer and enlisted 
receive personal and leadership financial management training.
    Personal Financial Management (PFM) training is provided at:

        <bullet> Officer and enlisted accession training sites
        <bullet> Recruit Training Command post-graduation orientation
        <bullet> General military training
        <bullet> Career options and Navy skills evaluation program 
        (mid-career course)
        <bullet> Transition assistance program classes
        <bullet> Local commands by Command financial specialists
        <bullet> Fleet and Family Support Center (spouses invited)
        <bullet> Navy Knowledge Online

    Leadership PFM training is provided at officer accession training 
sites and at key milestones in the officer and enlisted career path. 
Leadership training focuses at all levels is to ensure that leaders 
understand the link between prudent personal financial management and 
mission readiness. A sailor's prudent management of his or her personal 
finances is a cornerstone of personal and unit readiness. Navy 
leadership is also currently evaluating the following initiatives:

        <bullet> Improve family participation in the PFM program 
        through partnerships with the Ombudsman, family readiness 
        groups, child and youth program, and School Liaison Officers to 
        encourage financially fit families.
        <bullet> Increase PFM programs participation in pre- and post-
        deployment events including increasing promotion of Savings 
        Deposit Program for deploying IAs to achieve guaranteed 
        earnings of 10 percent APR.
        <bullet> Promote resources and services to IA families or 
        families of wounded, ill, or injured servicemembers.
        <bullet> A pilot program to use more junior sailors as Command 
        Financial Specialists to develop a stronger peer-to-peer 
        component in our program.

    Sergeant Major Kent. Marine Corps Community Services (MCCS) 
provides a variety of classes, workshops, and training on personal 
financial management. We also offer financial links on our Marine Corps 
websites, provide one-on-one counseling, and promote Military Saves 
week to assist Marines and their family members who are having 
financial difficulties. In addition, we offer classes on home-buying, 
home selling, renting, and leasing that address current national and 
local economic conditions.
    We are in the process of creating a new Personal Financial 
Management curriculum to improve the information and services we 
provide our marines and their families. This curriculum will cover over 
20 major topics, such as: managing income/expenses/savings/credit; 
credit and debt management; saving and investing; consumer awareness; 
banking and financial services; taxes/insurance/legal issues related to 
personal finances; raising financially-fit children; the time value of 
money; and financial planning for events such as family separation/
reunions, transition, retirement, education costs, large purchases, and 
other major life events.
    Since our personal financial management program classes are not 
mandatory, attendance varies, depending on the installation. However, 
we are in the process of creating a quarterly reporting system to track 
attendance for marines and their family members.
    In September 2011, we will conduct our third Financial Health Quick 
Poll (FHQP) to determine the level of financial stress among marines 
and their families as a result of recent economic changes and refine 
our programs in order to help marines and their families cope with 
financial stress.
    Chief Master Sergeant Roy. We believe they are working out very 
well. The Air Force financial education program is designed to make 
airmen aware of their responsibility in maintaining their personal 
financial matters and offer education and training at key points in 
their career. Newly inducted airmen receive mandatory financial 
training at two points: basic training and their first duty station.
    While at Basic Military Training, all trainees receive 3 hours of 
financial awareness training to assist them in making sound financial 
decisions early. This training focuses on the basics of financial 
management including personal responsibility, budgeting, sound spending 
habits, savings, debt strategies, credit reports, financial 
institutions, insurance, investing and consumer awareness, to include 
predatory lending.
    At their first duty station, both officers and enlisted airmen 
receive financial training within 90 days of their arrival. This 
training is mandatory and standardized across the Air Force. The 
purpose of the training is to increase understanding of pay, 
entitlements and allotments and to increase understanding of banking 
for both checking and savings. Personal financial education and 
training is also available throughout a member's career targeted for 
members and families to develop skills in budgeting and saving, 
insurance, credit management, car buying, relocation moves, investment 
tools, available counseling or assistance, and preparing for life after 
the military.

       progress in implementation of don't ask, don't tell repeal
    7. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, 
training for Repeal Day is currently underway in each of your Services 
that will pave the way for gay and lesbian individuals to serve openly 
in the Armed Forces. What is your assessment of the effectiveness of 
the training for your Service thus far?
    Sergeant Major Chandler. The Army's Chain Teach method has been 
very effective in educating the force on the policy changes that will 
result from implementation of the repeal of Don't Ask, Don't Tell 
(DADT). It puts direct responsibility on commanders/leaders for their 
units' complete education, allowing them to personally engage their 
soldiers, civilians, and interested family members on this important 
policy change and to explain its impact and our expectations of them. 
Feedback to date continues to confirm that Army commanders and senior 
NCOs are fully capable of providing the strong leadership, clear 
instruction and proactive education that are key to successful 
implementation of DADT repeal.
    Master Chief Petty Officer West. Navy continues to assess the 
effectiveness of training. Current efforts focus on the Tier 2 leaders 
who are tasked with delivering Tier 3 training to our sailors and 
include pre and post training assessments. After analyzing assessment 
results, feedback is provided to the Master Mobile Training Teams on 
areas needing additional emphasis. Current feedback on the training 
remains positive. Additionally, Navy's DADT website received over 
100,000 hits to date where sailor questions are addressed. Over the 
past 2 weeks, the number of questions has dropped dramatically possibly 
indicating that member concerns are being adequately addressed. Based 
on these assessment tools, Navy is confident the training has been 
effective.
    Sergeant Major Kent. Feedback from the Force indicates our training 
has been effective. Marines indicate an understanding of the policy 
change and what is expected of them upon repeal. The face-to-face 
training allows marines to engage their leadership and ask those 
questions that are most important to the individual marine. The time 
allotted to prepare and train for the repeal provides the opportunity 
for marines to really consider potential impacts and ensure they are 
aware of the change in policy.
    Chief Master Sergeant Roy. The Air Force is delivering the OSD 
standardized tiered DADT repeal training. As of 6 May, the Air Force 
has trained 49 percent of the total force.
    In order to assess the effectiveness of training, we are soliciting 
subjective feedback from our Major Commands (MAJCOMs) on a bi-monthly 
basis. These reports include feedback in the following areas: policy, 
readiness, effectiveness, unit cohesion, retention, repeal related 
incidents, and barriers to repeal
    To date, the subjective reports from MAJCOMs are positive. MAJCOMs 
are indicating the training is clear, on-target, and effective. The 
standardized slides and script are ensuring a consistent, accurate 
message is provided throughout the force. There has been no significant 
issues regarding policy, effectiveness, unit cohesion, retention, 
repeal related incident, and barriers to repeal. We have addressed only 
minor concerns in readiness with respect to bed down and privacy in 
deployed locations.

    8. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, the 
ground combat forces--soldiers and marines, as well as the Special 
Forces for all Services--registered the greatest concern about the 
effects on readiness and unit cohesion of repealing the DADT policy. 
What problems do you anticipate on ships and in the field when the 
repeal takes effect?
    Sergeant Major Chandler. I do not anticipate significant or 
systematic problems from the repeal of DADT. Feedback from the field 
across all units is that this is not a significant issue to the 
soldiers. We will deal with this issue with the same professionalism 
that has marked our conduct of current operations and has been a 
hallmark of this institution for 236 years. Soldiers are expected to 
treat all others with dignity and respect, consistent with the core 
values that already exist within the Army. Harassment, bullying, or 
victimizing of any kind will not be tolerated.
    The Army is a force of over 1.1 million soldiers, and there will 
likely be inappropriate conduct by a few. Commanders and supervisors at 
all levels have the authority and responsibility to maintain good 
order, discipline and morale within their units; they should use 
existing tools (to include counseling, non-judicial punishment and 
court-martial) to deal with misconduct. Leaders will be educated on how 
to handle certain situations, and support will be provided as needed to 
ensure decisions are lawful, impartial, and promote unit cohesion.
    The Army Guiding Principles for Implementation of the Repeal of 
DADT include: standards of conduct apply to every soldier; treat each 
other with dignity and respect; emphasize our role as professional 
soldiers; and good order and discipline will be maintained at all 
times. The clear message is that respecting each other's rights is 
critical to maintaining good order and discipline. Standards of conduct 
apply equally to all soldiers and inappropriate conduct should be 
corrected appropriately.
    Master Chief Petty Officer West. Navy has seen no adverse effects 
associated with repeal training to date, and there are no significant 
problems anticipated on ships or in the field.
    Sergeant Major Kent. We do not anticipate any post-repeal problems 
that engaged leadership will not be able to successfully address. I 
expect that your marines will faithfully abide by the laws of this 
Nation and conduct themselves in accordance with their core values of 
honor, courage, and commitment. Any issues that may arise post-repeal 
will be immediately addressed upon identification.
    Chief Master Sergeant Roy. Although we cannot completely predict 
the future, we do not anticipate any major concerns or issues. To date, 
we have received only minor issues/concerns regarding bed down and 
privacy in deployed locations. However, the tiered DADT training 
clearly addresses these concerns and we anticipate that as more and 
more folks are trained, there will be fewer concerns and questions 
regarding these issues. Commanders and senior enlisted leaders continue 
to be key players in addressing these concerns and integral to ensuring 
a successful implementation.

    9. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, what 
are you hearing from your senior NCOs and Chief Petty Officers?
    Sergeant Major Chandler. Feedback to date continues to confirm 
confidence that Army commanders and senior NCOs are fully capable of 
providing strong leadership, a clear message and proactive education, 
which are key to successful implementation of DADT repeal. The Army's 
program encourages thoughtful, constructive dialogue on the subject 
between leaders and soldiers. Currently, there are no visible impacts 
on unit readiness, cohesion, or effectiveness. The most frequently 
raised questions concern whether and how implementation of DADT repeal 
might affect Army policy concerning public displays of affection, 
sharing of billeting and showering/bathing facilities, and off-duty 
clothing policies.
    Master Chief Petty Officer West. I have received extremely positive 
feedback from Navy senior enlisted sailors on the progress of our DADT 
training and implementation. The training has produced effective two-
way dialogue at every level, and provided confidence among the force 
that leadership is taking the correct, methodical approach to 
implementing this change. Senior enlisted sailors recognize they will 
play an important role in the successful execution, and take that 
responsibility very seriously. As with all our training, DADT training 
is designed to make us a more proficient and cohesive fighting force; 
one that recognizes and respects the dedication and sacrifice of all 
men and women who serve our Nation. I'm confident we will continue to 
see the same proactive, informed engagement throughout the 
implementation process.
    Sergeant Major Kent. We are progressing well towards our program 
training goals.
    Chief Master Sergeant Roy. The overall feedback from the field is 
the training has been very well received. Our airmen indicate the 
standardized slides and script are ensuring a consistent, accurate 
message is provided throughout the force. There has been no significant 
issues regarding policy, effectiveness, unit cohesion, retention, 
repeal related incident, and barriers to repeal. We have addressed only 
minor concerns regarding bed down and privacy.

                          integration of women
    10. Senator McCain. Sergeant Major Chandler, opportunities for 
women in the Armed Forces have increased significantly during your 
Active Duty service. Some have called for elimination of all 
constraints by gender, including service in infantry and Special Forces 
units. Do you think the current Army restrictions on service by women 
in deployed Army units should be changed?
    Sergeant Major Chandler. We are conducting a review of our current 
assignment policies and regulations to ensure they are relevant and 
meet the needs of the Army. We also want to ensure all soldiers, 
regardless of gender, are provided opportunities to reach their highest 
potential. Once the review is complete, we will be briefed on the 
proposed changes and I will be in a better position to provide an 
informed opinion.

    11. Senator McCain. Master Chief West, you are a veteran 
submariner. Do you support service by women in ballistic missile 
submarines?
    Master Chief Petty Officer West. Yes, I enthusiastically support 
the integration of women on board our ballistic missile submarines. 
There are extremely capable women who have the motivation, talent and 
desire to succeed in the Submarine Force. Those were the same 
attributes I expected of the submariners when I was a Chief of the 
Boat, and the same ones that will dictate our success in the future--
regardless of which gender the sailors happen to be. Drawing from a 
broader pool of talent increases our ability to maintain the world's 
best Submarine Force, just as it has done in other warfare communities.

    12. Senator McCain. Master Chief West, what about service by women 
in the smaller attack boats?
    Master Chief Petty Officer West. As we have done with ballistic 
missile submarines, we will need to study all the factors to understand 
the best approach for our readiness and quality of service for the crew 
on our fast attack submarines. There's no question that the 
professional expertise and motivation of women across the Fleet would 
make them a valuable asset to any type of platform as long as we take 
the necessary steps to prepare them for long-term success, and 
implement the change with due diligence.

    13. Senator McCain. Sergeant Major Kent, do you think women marines 
have been denied opportunities or promotions in the Marine Corps 
because of constraints on assignments?
    Sergeant Major Kent. Analysis of the past 3 fiscal years promotion 
statistics for in-zone officers to the grades of O4 through O6, and all 
SNCO boards, indicate that, on average, female marines were selected at 
a rate equal to or greater than their male counterparts. The Marine 
Corps' overarching selection criteria is ``best and fully qualified'' 
and expectations of future potential at the next higher grade. 
Additionally, Marine Corps promotion selection boards use a ``bloom 
where planted'' philosophy that focuses on performance of duty in a 
billet rather than the assignment itself. Specific guidance, in the 
form of a precept, from the Secretary of the Navy for officer boards 
and the Commandant of the Marine Corps for Staff Noncommissioned 
Officer boards, is provided to each promotion board. Precepts 
specifically address career patterns, utilization policies, and equal 
opportunity. These precepts direct board members to ensure the 
performance of duty of those affected by assignment or utilization 
policies is given the same weight as that given to duty equally 
performed by officers (marines) who were not affected by such policies 
or practices. Additionally, female marines continue to do great things 
both in combat and in garrison. After speaking with numerous female 
marines, and hearing how they do not think it is a good idea for 
females to serve in combat elements, I agree with them and do not 
concur with assigning female marines to combat elements.

    14. Senator McCain. Chief Master Sergeant Roy, what are your views 
about opening up additional career fields for female airmen?
    Chief Master Sergeant Roy. 97 percent of Air Force Specialty Codes 
(AFSCs) are open to women. The few remaining AFSCs closed are due to 
the Secretary of Defense 13 Jan 1994 memorandum defining direct ground 
combat. Due to this Secretary of Defense policy, a select few AFSCs are 
closed and/or restricted.
    The Secretary of Defense 13 Jan 94 memo states, ``women shall be 
excluded from assignment to units below the brigade level whose primary 
mission is to engage in direct combat on the ground, as defined below. 
Direct ground combat is engaging an enemy on the ground with individual 
or crew served weapons, while being exposed to hostile fire and to a 
high probability of direct physical contact with the hostile forces' 
personnel. Direct ground combat takes place well forward on the 
battlefield while locating and closing with the enemy to defeat them by 
fire, maneuver, or shock effect. These policies and regulations may 
include the following restrictions on the assignment of women where 
units are engaged in long range reconnaissance operations and Special 
Operations Forces missions.''
    Currently, OSD has the Women in the Service Review Working Group 
examining this issue in accordance with the NDAA for Fiscal Year 2011, 
section 535, requiring the Secretary of Defense to have military 
Services review their policies and regulations restricting the 
utilization of female servicemembers.
    OSD's final report is due to Congress NLT October 2011.

                  prioritizing quality of life dollars
    15. Senator McCain. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, every 
year Congress authorizes modernization and construction of new 
facilities intended to improve the quality of military life for members 
and their families. Clearly, the improvements in quality of life for 
servicemembers and their families are a factor in the historically high 
retention being seen. What do you consider to be the highest priorities 
for modernization and construction of new facilities--barracks, child 
care centers, family housing, medical clinics, or schools?
    Sergeant Major Chandler. The Army places high priority on 
facilities that support soldiers and families. Accordingly, we fund 
barracks, child care centers, family housing, and medical facilities 
required to support Army missions identified in its five pillars: Grow 
the Army (GTA)/Global Defense Posture and Realignment (GDPR); 
Transformation; Modernization; Training Support; and Strategic 
Readiness. As for schools, which are primarily a State and local 
responsibility, we have relied on local education agencies (LEAs) to 
fund school maintenance and construction. However, the Under Secretary 
of Defense for Personnel and Readiness recognized there are facility 
and capacity deficiencies in many public schools, and surveyed all 
public schools on military installations across the United States in an 
effort to quantify the deficiencies and assist LEAs.
    Master Chief Petty Officer West. The highest priority for 
modernization and construction of new facilities to increase the 
quality of life for members and their families is to invest in 
unaccompanied housing and government owned family housing overseas. 
This includes our Homeport Ashore program to provide single junior 
sailors stationed on ships with quality housing when they are in port.
    Our sailors continue to serve the Nation in front-line operations 
and deserve suitable accommodations when returning ashore all across 
the country. Likewise, investment in family housing, primarily, 
provides suitable, affordable and safe homes for families stationed in 
foreign and overseas locations.
    Sergeant Major Kent. Thanks to the strong support we have received 
from Congress, we have made significant strides in providing more and 
better quality barracks, child development centers, and family housing.
    Since fiscal year 2008, over $2.6 billion has been invested in 
barracks, providing nearly 25,000 barracks spaces. In that same time 
frame, over $154 million has been spent on 3,100 child care spaces. 
Finally, through our private/public ventures, over 24,000 homes have 
been privatized and are providing the highest quality housing that 
Marine families have ever enjoyed. Combined, these three elements have 
significantly improved the quality of life for both married and single 
Marines.
    We are working with the DOD Educational Authority and Tri-Service 
Management Activity (TMA) to provide new and modernized schools and 
hospitals/clinics. A new hospital at Camp Pendleton and a modernized 
and expanded hospital at Camp Lejeune have been funded in recent years. 
Likewise, school improvements at Camp Lejeune and the construction of a 
consolidated elementary school at Marine Corps Base, Quantico, are 
currently in process.
    Chief Master Sergeant Roy. All quality of life-type facilities that 
support our airmen and their families are high priorities for the Air 
Force. But as we live in a fund-constrained environment, we have had to 
prioritize and focus our efforts. One Quality of Life emphasis is 
dormitories . . . getting our youngest airmen into the best housing we 
can. In fiscal year 2011, for example, we requested $213 million in 
dormitories, and in fiscal year 2012 we're requesting $484 million 
(which includes $193 million for our joint-base other Service 
partners). This represents a significantly large proportion of our $1.4 
billion fiscal year 2012 President's budget request. Family housing 
improvement is another significant Quality of Life effort. The fiscal 
year 2012 budget includes $405 million in family housing operations and 
maintenance and $85 million in overseas housing military construction. 
By early 2012, 100 percent of the continental U.S. (CONUS) housing 
inventory will be privatized, representing another significant 
milestone in improving the quality of life for our airmen and their 
families.

                        operation joining forces
    16. Senator McCain. Mr. Strobridge, Mr. Barnes, Ms. Moakler, Mr. 
Puzon, and Ms. Roth-Douquet, the White House recently announced a 
national initiative that focuses on the employment, education, and 
wellness of military personnel and their families. First lady Michelle 
Obama and Second Lady Jill Biden announced the Joining Forces 
initiative, which pulls together a variety of U.S. Government agencies, 
businesses, nonprofit groups, and media organizations in an effort to 
improve the lives of military families. General Stanley McChrystal will 
lead the effort. What role do you anticipate for The Military Coalition 
in this effort and what priority areas do you think General McChrystal 
should focus his attention?
    Mr. Strobridge. The Military Officers Association of America (MOAA) 
(and we believe other members of The Military Coalition) hopes to be an 
active partner in the Joining Forces initiative to assist in General 
McChrystal's efforts to rally U.S. Government agencies and non-
governmental agencies to work collectively to improve the lives of 
military families.
    MOAA believes that General McChrystal should consider several 
recommendations from the recent Department of Defense (DOD) and U.S. 
Department of Agriculture Family Resilience Conference Senior Enlisted 
Advisors (SEA) townhall. When asked what they see as the top three 
military family resilience issues, the SEA responses covered the gamut 
of challenges that military families have and continue to face, such as 
post-traumatic stress disorder (PTSD), quality childcare availability, 
quality education for military children, military spouse career 
options, access to care and quality care under TRICARE, exceptional 
family member advocacy and support, and clear and concise communication 
to access services that are currently available.
    MOAA believes it will be important for the Joining Forces 
Initiative to work with each of the Services and the DOD Military 
Family Readiness Council to identify critical gaps in service. In 
working with nongovernmental organizations, agencies, and communities, 
it will be important to identify where those organizations, agencies, 
and communities can assist in filling the gaps, while educating them 
about the service and sacrifice of the All-Volunteer Force and the 
families supporting the force.
    The First Lady's tagline about Joining Forces is that everyone can 
do something. MOAA believes many nongovernmental organizations, 
agencies, and communities are willing and ready to step up to offer 
support to military families. Creating and sustaining partnerships 
between DOD and these organizations, agencies, and communities will 
benefit the military family community, and is a fiscally responsible 
approach to service and support.
    Mr. Barnes. The Military Coalition (TMC) believes Operation Joining 
Forces (OJF) is an important initiative to expand awareness and support 
of military families and complement the work of individual member 
organizations in providing support and assistance to these families. 
Each TMC organization communicates regularly with its members and can 
help increase support for OJF via these channels--in some cases as an 
adjunct or extension of other initiatives such as Employer Support of 
the Guard and Reserve (ESGR). FRA participated in the May 18, 2011 
teleconference on OJF which focused on support from religious and 
community organizations. In addition, I believe Gen. McCrystal should 
recognize that many organizations are working toward the same goal(s) 
as OJF and focus on establishing contact with TMC organizations and 
provide information and periodic updates on OJF for dissemination to 
these groups.
    Ms. Moakler. As a member of The Military Coalition, which is 
composed of primarily membership organizations with local roots, we 
understand the importance of community support for military families. 
The individual organizations of the TMC are already helping to educate 
community leaders and organizations about military families through the 
work of their chapters, through articles in their national publications 
and through their websites. The National Military Family Association 
has recently published ``Finding Common Ground: A Toolkit for 
Communities Supporting Military Families'' that dovetails nicely with 
the Joining Forces initiative, offering simple, easy to put into 
practice ways that different community groups can support military 
families. It can be found at http://www.militaryfamily.org/
publications/community-toolkit/. The site will also show how 
communities are supporting military families by highlighting best 
practices as they surface to us.
    The three areas highlighted by the Joining Forces initiative are 
all important, however, the wellness of military families should be 
paramount. Our Association has long promoted well-being as a foundation 
for resilience. We stress how access to behavioral health care is 
essential to aid military families in coping with the many challenges 
they face with deployments. It is easy to tie the other two priority 
areas of employment and education into resilience as well. Whether it 
is a Reserve component servicemember who is hoping that his/her job is 
there when returning from deployment or a military spouse who is trying 
to create a portable and fulfilling career, the civilian community 
needs to be aware of the exceptional employee that is available to 
them. The support of the entire education community of teachers, 
counselors and administrators for our military children is essential--
the community just needs the tools and resources to help them help our 
military children deal with the challenges they face.
    Mr. Puzon. The Military Coalition--could and will play a supportive 
role through:

    (1)  Getting the word out to all our members through our 
newsletters, magazines, and electronic means.
    (2)  We have a reach to Veterans and serving military members and 
their families--especially in the Reserve community.

    To improve the lives of military families the priority effort needs 
to be:

    (1)  Parity in pay
    (2)  In family programs that actually do reach the mass of military 
families; 1.3 million active duty, and 1.2 million Guard and Reserve 
members that are currently serving--not to mention the veterans of wars 
that have needs with their families. Needs to be a partnership with 
NGOs, VSOs, MSOs, and media to reach people in remote areas.

    Ms. Roth-Douquet. Our 2010 Military Family Lifestyle Survey, which 
has been quoted in the Presidential Directive, Strengthening our 
Military Families, indicated that the top five areas of concern for 
military families are pay/benefits, OPTEMPO, Spouse Employment and 
Children--both with regard to their ability to get a quality education 
and the effects of deployment. The Joining Forces Initiative largely 
aligns with these areas of concern through the emphasis on wellness, 
education, and employment.
    Based on feedback heard at the recent DOD ``Forging Partnerships'' 
conference, we believe priority should be placed on designating 
personnel who would have a robust boundary-spanning role into the 
community at each post. Many service groups that have existing programs 
that could benefit the lives of military families are having issues 
getting beyond the bureaucracies that are different at each 
installation. Consistent policies coupled with dedicated personnel who 
can maintain and grow programmatic community ties may be a good start 
to opening up new channels of cooperation.

                      disability evaluation system
    17. Senator McCain. Mr. Strobridge, Mr. Barnes, Ms. Moakler, Mr. 
Puzon, and Ms. Roth-Douquet, after almost 10 years of war, the number 
of individuals who are not deployable and who most likely will be 
evaluated for disabilities and discharge are very high and growing. 
While improvements have been made in the system, there simply are not 
enough medical officers, processors, and Department of Veterans Affairs 
(VA) personnel to meet the demand for evaluative services. From the 
perspective of the Coalition, what are the most serious shortfalls in 
the Disability Evaluation System that need to be addressed by the 
Services, DOD, and Congress?
    Mr. Strobridge. In a recent interview, the Under Secretary of 
Defense for Personnel and Readiness, Dr. Clifford Stanley, stated that 
he and the Army's Surgeon General are in agreement that the Integrated 
Disability Evaluation System (IDES) ``remains complex and 
adversarial.''
    The new IDES was intended to streamline the disability process 
making it more understandable and consistent by providing a single 
physical exam used by both DOD and the VA to produce the disability 
rating.
    In one regard, eliminating the Service-unique rating tables and 
requiring the two Departments to use the VA Schedule for Rating 
Disabilities has created a much more consistent rating platform.
    However, the reality remains that DOD and the VA still render 
separate ratings: VA rates all service-connected disabilities/medical 
conditions while DOD rates only those conditions that are considered 
``unfitting.''
    This practice perpetuates two separate and distinct ratings by DOD 
and VA, with the DOD rating being typically lower. MOAA believes this 
dual-rating process counters Congressional intent for the IDES.
    Another practice that remains unchanged from the legacy DES 
continues to allow the Services to subjectively eliminate service-
connected medical conditions from consideration in the Physical 
Evaluation Board (PEB) process, thus creating even greater rating 
inconsistencies in different Services' ratings awards for 
servicemembers having the same medical conditions.
    Even when DOD provides clear guidance to the Services to eliminate 
rating inconsistencies, the Department often does not exercise 
sufficient oversight to ensure the guidance is, in fact, consistently 
applied by each Service. Unfortunately, the Services seem to interpret 
the lack of active oversight as tacit acceptance of their different 
interpretations.
    All of these practices lead to confusion and distrust by the 
wounded, ill, and injured servicemembers going through the IDES (as 
well as the legacy DES)--probably the IDES's most serious shortfall.
    Addressing this shortfall is imperative. Servicemembers cannot 
understand why their medical conditions that are aggravated or incurred 
during their service are rated by the VA as ``service-connected'' are 
subsequently dismissed by the Service's Physical Evaluation Board (PEB) 
and not included in their final rating disposition. They--and we--also 
cannot understand how different Services are allowed to apply different 
rules and award different disability ratings to servicemembers who have 
the same medical condition.
    Providing a single disability rating for servicemembers found unfit 
for duty that includes all service-connected disabilities/medical 
conditions--used by both DOD and VA--would eliminate confusion and 
provide much more consistent ratings between the parent-Services.
    Another significant shortfall is the system's gap when it comes to 
National Guard and Reserve members. We have received several reports 
that identify problems for Guard and Reserve members who were called to 
active duty and subsequently demobilized, and then had a medical 
condition that manifests or worsens after demobilization.
    In many cases, the Guard and Reserve and their parent Services have 
failed to provide their Guardsmen and reservists due process by 
affording them the opportunity to have their disabling conditions 
reviewed by a Medical Evaluation Board and subsequent PEB.
    Too often, the disconnect begins while the Guard and Reserve member 
is still on active duty and told to have any medical ``problems'' taken 
care of by the VA and discouraging them from applying for disability 
before separating.
    Call it a failure of leadership or a shortfall of the Disability 
Evaluation System, but either way this is a significant problem that 
needs to be addressed.
    Mr. Barnes. The most serious shortfalls in the disability 
evaluation system are:

    (1)  Despite significant additional resources and manpower 
authorized and funded in recent years, the backlog of disability claims 
continues to increase. The solution not only requires adequate staffing 
and resources, it also involves more automation of a streamlined 
disability rating system to address this challenge.
    (2)  There is a continuing need to improve collaborative efforts 
between DOD and VA, including strengthening the Senior Oversight 
Committee (SOC) efforts. Despite some progress toward the goal of a 
truly ``seamless transition'' process for transitioning personnel 
instituted since the 2007 Walter Reed Army Medical Center revelations, 
significant challenges remain. There is strong bi-partisan support to 
reform the system and Members of Congress have made clear that they 
want to eliminate delays and improve the antiquated paper claims 
process to eliminate bureaucratic disputes and ensure more uniformity 
between branches of the military and the VA in how they rate 
disabilities.

    The Integrated Disability Evaluation System (IDES) is a major part 
of the claims process and the recently streamlined process which 
initially involved a pilot program in a limited number of sites has 
been established as a standardized program. The IDES requires only one 
physical exam and only one rating, is currently deployed at 73 sites 
and is scheduled to be fully deployed in September 2011. Along with 
Deputy Secretary of Defense William J. Lynn III, Deputy VA Secretary W. 
Scott Gould reported on IDES, SOC and other issues during a May 18, 
2011 Senate Veterans Affairs Committee hearing and noted that the pilot 
program was extended to more sites and officially ended in March 2010 
and was then renamed as IDES. Over 5,800 servicemembers have completely 
transitioned from referral, to IDES to veteran status, and as of April 
30, 2011 there were 13,762 active cases in the IDES process. Prior to 
IDES, it took an average of 540 days for the VA and DOD processes to be 
completed and the goal under IDES is to complete the process within 295 
days, while simultaneously shortening the period until delivery of VA 
disability benefits after separation from approximately 166 days to 30 
days.
    Despite this progress, problems remain including certifying each 
site's operational capabilities and other issues detailed in the 
December 2010 GAO Report citing staffing shortages, and inadequate IT 
solutions. There has been a noticeable improvement over the previous 
processes since only one physical exam is required and there is only 
one rating. The IDES also continues to allow the claimant to receive 
pay and other benefits and has reduced processing time. That said, 
continuing Congressional oversight is essential to this program along 
with improved coordination between DOD and VA bureaucracies.
    There is also strong TMC support for the administration's efforts 
to create a joint Virtual Lifetime Electronic Record (VLER). A VLER for 
every servicemember would be a major step toward the goal of a truly 
seamless transition from military to veteran status for all 
servicemembers and would permit a DOD, VA, or private health care 
provider immediate access to a veteran's health data. There is some 
sharing now between DOD and VA, but information in the private sector 
is invisible to VA. The VLER strategy would utilize secure messaging 
standards, similar to that which is used for email, to securely relay 
information between sources.
    Ms. Moakler. The caring of our wounded warriors is an integral part 
of the cost of war. We can no longer make them languish for months as a 
disability claim works its way through the process. This problem is 
especially acute for members of the Reserve component who are often 
separated from their families during the process. While we know that 
several measures have been adopted to speed the process including the 
hiring of extra claims adjusters and the implementation of the 
Integrated Disability Evaluation System (IDES), claims backlogs still 
exist.
    As an Association focused on military families, we are not experts 
in the Disability Evaluation System. We join with other members of the 
Military Coalition in supporting efforts to create a Joint VLER for 
every servicemember. We also agree on the need for using the most 
modern technology, combined with adequate resources and staffing. While 
there have been great strides, the VA and DOD still need to improve 
cooperation between the departments, working with Congressional 
oversight.
    Mr. Puzon. There is disparity between DOD and VA on disability 
evaluation--that can be solved through serious legislation that 
mandates it to be the same. There seems to be no coordination between 
DOD and VA. There is no coordination on disability evaluation of 
Reserve components! This does need to be addressed now. The problems 
are not necessarily the need for more hires--but, the policy of Reserve 
components vs Active Duty--case in point: Fort Lewis--fiasco on 
approach to returning Guard and Reserve. This also is the case in some 
Navy approach to Navy Reserve members returning. There needs to be 
standardization between DOD, VA, and the Services especially for the 
Reserve components.
    Ms. Roth-Douquet. We haven't specifically polled our membership on 
this issue. Anecdotally, some of the things we hear are that female 
veterans are concerned about their healthcare at veterans facilities. 
In fact, a Veterans Administration Office of Inspector General report 
recently issued found that female military members returning from Iraq 
and Afghanistan are more likely to be diagnosed with mental-health 
conditions than their male counterparts. The report also found that 
women are much more likely to suffer from major depression and to have 
a harder time transitioning back to civilian life after combat service 
than men. Finally, the report found that payment for PTSD claims is 
denied at a higher rate for women than for men, and denies a higher 
rate of male veterans' claims for mental health conditions other than 
PTSD. Blue Star Families was involved in creating awareness about women 
veteran issues in meetings with Senator Mark Warner and were glad to 
see an official study undertaken. Now is the time to follow through on 
these findings to make sure our female veterans are getting the best 
care we can provide them with.

               education of school aged military children
    18. Senator McCain. Mr. Strobridge, Mr. Barnes, Ms. Moakler, Mr. 
Puzon, and Ms. Roth-Douquet, last year, we received testimony from DOD 
witnesses that more than half of the 300 local educational agencies 
serving military children were not meeting academic standards in 
reading/language, arts, and/or math. Are you aware that a DOD grant 
program, which provided grants to improve learning opportunities for 
military kids at 284 local schools, was cut in the DOD efficiencies 
initiatives?
    Mr. Strobridge. The MOAA is not aware that either of the DOD grant 
programs was cut in the DOD efficiencies initiatives.
    Mr. Barnes. I was not aware that the $58 million DOD grant program 
was reduced as part of the department's efficiencies initiatives 
affecting 284 schools beginning in fiscal year 2012. In addition, I 
learned that other TMC organization were likewise unaware of the 
reductions.
    I strongly agree that providing access to quality education for 
military children is very important to the All-Volunteer Force and is a 
key aspect of issues and programs associated with family readiness and 
support. As noted in TMC's 2010 statement to both the HASC and SASC, 
quality education is a top priority to military families and questions 
about the caliber of schools in new duty stations are among the first 
asked upon receipt of PCS orders. In a recent FRA survey of legislative 
priorities (early 2011), quality of schools for dependent children was 
ranked as ``very important'' by 58 percent of active duty respondents 
and came in sixth out of 13 priorities. And related to this issue is 
the importance of adequately funding of the Impact Aid program via the 
Department of Education along with supplemental funding for the program 
via the annual NDAA and Defense Appropriations legislation.
    The best ways to enhance options to ensure that all military 
dependent children receive high quality educations regardless of the 
locale are to:

    (1)  Support expansion of the number of States (currently 39 with 
the latest being Vermont) participating in the Military Interstate 
Children's Compact Commission to help provide for the consistent 
treatment of military children transferring between school districts 
and States in conjunction with frequent moves associated with permanent 
change-of-duty station (PCS) moves.
    (2)  Ensure adequate support for schools educating military 
children via supplemental Impact Aid funding addressed in the annual 
defense authorization and appropriations bills.
    (3)  Sustain support for DOD schools via the Department of Defense 
Education Activity (DODEA) which currently provides education to 84,000 
military and civilian children in 194 schools.

    Ms. Moakler. Our Association was unaware that DOD grant program was 
cut in the DOD efficiencies initiative. We were advocates of the grant 
program which allowed DODEA to award $58 million to 44 school districts 
serving approximately 77,000 military-connected students in over 284 
schools in fiscal year 2009. We are pleased to learn that there will be 
no impact to the 3 year grants awarded to date since the efficiencies 
do not take effect until fiscal year 2012 but are disappointed that the 
program has been cut.
    Mr. Puzon. I was not aware that the DOD grant program was cut in 
efficiencies initiatives. First--the DOD efficiencies that are 
identified are some times just `paper money' cuts--and, never really 
achieve efficiencies as recently reported in press reports. The Senator 
Grassley report shows that DOD can not `police' itself--and achieve 
efficiencies. Therefore cutting people programs--across the board--is 
the only way DOD can realistically say it is cutting. Cutting 
inefficient programs is a good thing. However, as our educational 
system seems to decline--yearly, it seems counter productive to cut any 
educational program that assist our youth.
    Ms. Roth-Douquet. We were not aware of this grant program.

    19. Senator McCain. Mr. Strobridge, Mr. Barnes, Ms. Moakler, Mr. 
Puzon, and Ms. Roth-Douquet, do you agree that providing access to a 
quality education for our kids is a readiness requirement for the All-
Volunteer Force?
    Mr. Strobridge. The MOAA wholeheartedly believes that providing 
access to a quality education for military dependents is a key 
readiness requirement for the All-Volunteer Force. According to the 
Department of Defense State Liaison Office, military dependents attend 
6-9 different schools over the course of a parent's military career. 
Given increased operational tempo and deployments, military children 
are often facing additional stressors associated with the absence of 
one or, in some cases, both parents throughout the school year.
    MOAA is pleased that 36 States have signed on to the Interstate 
Compact on Educational Opportunity for Military Children. We have 
found, however, that due to budget restraints in many States, military 
families, who are changing duty stations, are experiencing a lack of 
quality education and educational services due to inconsistent 
standards and budget shortfalls State by State. The reality remains 
that there are States which do not have the financial means to provide 
comparable course placement and educational services. The amount of 
Impact Aid received by schools with high concentrations of military 
children has become a critical source of funding, and we are concerned 
that delaying Impact Aid payments and/or lowering Impact Aid amounts 
will have a very adverse impact for many military children in public 
school settings. Additionally, in some instances, we are aware that 
military families have made the difficult decision to intentionally 
separate the family from the servicemember's place of duty to allow 
their children to remain in a quality educational environment rather 
than have the family accompany the servicemember to a new duty station. 
MOAA believes that is not a choice that any military family should have 
to make.
    Mr. Barnes. See answer to question #18.
    Ms. Moakler. Our Association has long held the belief that 
providing access to a quality education for our military children is a 
critical readiness issue. As we have stated in testimony, our military 
families place a high value on the quality of their children's 
education. It is a leading factor in determining many important family 
decisions, such as volunteering for duty assignments, choosing to 
accompany the servicemember or staying behind, selecting where a family 
lives within their new community, deciding whether to spend their 
financial resources on private school, or considering homeschooling 
options. It can even impact a family's decision to remain in the 
Service.
    In addition to providing a quality education for our children, 
schools are an integral component of family readiness. Since they are 
the one constant in a military family's life, they often serve as a 
safety net for families who may need assistance. This support has been 
critical for our military families who have endured tremendous stress, 
multiple deployments, and extended separations during these past 10 
years of war.
    Mr. Puzon. I agree providing quality education is a National 
Security issue and is a readiness requirement--however, I do not agree 
that it is going to happen solely through our public education as it is 
today. I support charter schools and voucher systems--nationally, since 
the public education system has declined rapidly in the last 20 years. 
If we agree it is a National Security issue and readiness issue--then, 
we need to do something different than we have done in the last 30 
years. It is not keep assisting the public schools to fail.
    Ms. Roth-Douquet. We absolutely do. Our 2010 Military Family 
Lifestyle Survey showed military child education to be one of the top 
five areas of concern for our military families. Twenty-six percent of 
respondents listed children's education as one of their top three 
concerns Between frequent moves and servicemember time away from home, 
many parents worry about their children getting a good education. A 
full 34 percent were ``least or not confident'' that their children's 
school is responsive to the unique military family life.
    Based on the survey, most spouses are confident that they can make 
decisions regarding their child's future, education and extracurricular 
school activities during the absence of a military parent, yet still 71 
percent indicated that they would like more support for their children 
during a deployment.
    Additionally, there was a high saturation of references to 
transitions and school related topics. For example, for the questions 
relating to military children, including open ended questions, 
``school'' was mentioned 1,008 times and transitions or moving was 
mentioned 1,458 times. Academics, grades, extra-curricular, classes, 
teachers, and education were all prevalent concerns.
    These concerns are well founded. On average, a military student 
transfers to different school divisions more than twice during high 
school. Most military children attend schools in six to nine different 
school divisions from kindergarten to 12th grade. A need for 
standardization across the States was a common theme in open-ended 
questions. Many parents expressed sadness, concern and anger that their 
military children could be penalized or delayed in achieving their 
educational goals because of inflexible and conflicting curricula from 
State to State.

    20. Senator McCain. Mr. Strobridge, Mr. Barnes, Ms. Moakler, Mr. 
Puzon, and Ms. Roth-Douquet, what are the best ways to go about 
enhancing the options to ensure that all military dependent children 
receive highest quality educations, regardless of where they are 
stationed?
    Mr. Strobridge. According to a recent Government Accountability 
Office (GAO) study, Impact Aid played a necessary role for most public 
schools supporting military dependent children. However, delays in 
delivering Impact Aid payments make it extremely burdensome for local 
school districts in planning for and preparing annual budgets. MOAA 
supports reviewing the process of distribution of Impact Aid to 
significantly reduce payment delays and establish reasonable timelines 
for delivery. MOAA also concurs with the GAO recommendation urging the 
Secretary of Education, in partnership with the Secretary of Defense, 
to highly consider requiring school districts to identify military 
dependent students as a reportable subgroup on their academic outcomes, 
to include test scores and high school graduation rates.
    A critical component to ensuring military dependent children 
receive the highest quality education is through a continued 
partnership between the Department of Education and DOD. Persistent and 
effective oversight to the 13 objectives established in the Memorandum 
of Understanding between the Department of Education and DOD will 
ensure this partnership is sustained for the highest quality of 
education, not only for military dependent children, but for all 
school-age children.
    The Domestic Dependent Elementary and Secondary Schools (DDESS) 
operated at 16 military installations continue to play an important 
role for over 26,000 military dependent students. The DDESS provide 
standardized curriculum, allowing for continuity for military dependent 
children who are DODEA students. One venue for ensuring high quality of 
education would be to evaluate public schools aboard installations, and 
those which do not meet or exceed DDESS standards should be transferred 
to the authority of the DODEA and fall under the jurisdiction of the 
Secretary of Defense as provided under Public Law 97-35.
    In some instances, MOAA is aware the public school system is not 
equipped to handle the influx of dependent military children brought on 
by Base Realignment and Closure (BRAC). MCB Camp Lejeune, NC is an 
example of a military installation that has six DODEA schools aboard 
the installation, with approval for one additional DODEA school to open 
in the fall of 2011. Two public elementary schools have also opened in 
Onslow County, NC, in the last 3 years to accommodate the growing 
population of dependent military children. MOAA believes it is 
imperative that all circumstances surrounding the continued existence 
and establishment of DODEA schools are reviewed before reducing or 
eliminating funding, and/or transferring authority of the installation 
schools over to the State's public school system. Additionally, MOAA 
noted that funding was authorized but not appropriated for fiscal years 
2008, 2009, and 2010 for BRAC (GAO report on Impact Aid). Inconsistent 
funding for BRAC continues to have a negative impact on the communities 
involved in the force structure changes, including the education 
community.
    Another recommendation to help ensure high quality education 
regardless of duty station is to open the DODEA Virtual School program 
to all military dependent children (high-school age) who do not reside 
aboard installations. The Virtual School Program was designed to ease 
transition requirements, allowing students to enroll in courses they 
need and filling gaps regardless of their location. MOAA supports 
extending the DODEA Virtual School program to all military dependent 
children enrolled in high school.
    Mr. Barnes. See answer to question #18.
    Ms. Moakler. Ensuring that all military dependent children receive 
a quality education regardless of where they are stationed is one of 
our Association's top priorities. We consistently advocate for 
appropriate and timely funding of Impact Aid through the Department of 
Education. We also believe that school districts experiencing high 
levels of growth, due to military base realignment, should be able to 
apply for Impact Aid funds using current student enrollment numbers 
rather than the previous year. We continue to be a consistent voice on 
increasing DOD Supplemental funding for schools educating large numbers 
of military connected students. Our Association has long believed that 
both Impact Aid and the DOD Supplemental funding are critical to 
ensuring that school districts can provide quality education for our 
military children.
    In addition to Impact Aid, State support of the Interstate Compact 
on Educational Opportunity for Military Children has helped ease many 
of the transition issues facing military families. Although the Compact 
does not specifically address the quality of education our children 
receive, it greatly impacts military children's educational experience 
overall. Our Association continues to advocate for its passage in all 
50 States, territories, and the District of Columbia to ensure that all 
military children will be covered by the Compact.
    Our Association was also pleased that the President's recent 
landmark directive, ``Strengthening Our Military Families,'' listed as 
one of its top priorities the need to ensure excellence in military 
children's education and their development. We appreciate the 
Department of Education committing to making military families one of 
its priorities for its discretionary grant programs and for finding 
ways to strengthen military families within the Reauthorization of the 
Elementary and Secondary Education Act. The Department is also seeking 
new ways to collect and report data pertaining to military connected 
children. We believe that including military children as a reportable 
subgroup will help determine where they attend school, enable 
additional support, and ultimately strengthen the education they 
receive.
    With more than 90 percent of military-connected students now 
attending civilian schools, our Association is pleased that DOD has 
completed a 90-day preliminary assessment of how to provide a world-
class education for all of the 1.2 million school-aged children, not 
just those under the DODEA's purview. We appreciate the educational 
support programs already available to military children through DOD, 
such as the tutoring program for deployed servicemember families, and 
DODEA's virtual high schools. Our Association believes these programs 
are making a difference and would be beneficial to all military 
families.
    Mr. Puzon. I do agree that Congress does need to address military 
dependent children quality education needs. Where they are stationed--
does make a difference.
    Ms. Roth-Douquet. The Council of State Governments (CSG), in 
cooperation with DOD, worked with a variety of stakeholders and drafted 
a model compact, The Interstate Compact on Educational Opportunity for 
Military Children. We strongly support our peer military community 
organizations in efforts to provide standardization and ease of 
transfer of our military children.
    However, in order for this agreement to have a meaningful and 
lasting impact on our local schools, we need strong support from the 
Federal Government to encourage local districts to educate themselves 
and to implement the Compact.
    In spite of the fact that many States have adopted the Compact, due 
to the local nature of education, many military parents are still being 
thrust into the role of individually advocating for their children by 
educating local school officials regarding the rights of their children 
and the purpose of the Compact.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
                      basic allowance for housing
    21. Senator Brown. Sergeant Major Chandler, according to recent 
policy guidance provided by the Army G-1, activated Guard soldiers 
mobilized for deployment collect Basic Allowance for Housing (BAH) 
based upon their Primary Duty Station (PDS), rather than their Primary 
Home of Record (PHOR). Upon mobilization to deploy, these Guardsmen are 
issued orders releasing them from their Title 32, Active Duty status 
and provided orders calling them to Active Duty status under Title 10. 
These orders call them to duty from their PHOR, rather than their PDS 
from which they commute on a regular basis for training. As a result, 
these soldiers stand to lose, in some cases, thousands of dollars. Army 
National Guard (AGR) soldiers on Active Duty under Title 32, receive 
BAH based on their PDS for the purposes of a permanent change of 
station, however, not their PHOR, including shipment of household goods 
and movement of their dependents. These soldiers and their families 
made financial plans based on the higher BAH. Please provide 
clarification on the rational for the change in policy, the possibility 
of providing an exception to policy for the soldiers who were issued 
mobilization orders under the promise of a higher BAH, and the Army's 
way ahead?
    Sergeant Major Chandler. Statute and the Joint Federal Travel 
Regulation (JFTR) provide that the BAH rate for Reserve component 
soldiers will be based on the soldier's primary residence rather than 
the PDS when called/ordered to active duty from their primary residence 
in support of a contingency operation. The Defense Travel Management 
Office, the proponent for the JFTR, directed the Army to amend and 
clarify the BAH paragraph in the Army's Personnel Policy Guidance (PPG) 
to be consistent with the statute and the JFTR.
    OSD has advised the Army that neither the law nor the JFTR provides 
the authority to grant an exception to policy to allow Active Guard and 
Reserve (AGR) soldiers mobilized in support of a contingency operation 
from their primary residence to receive BAH based on their PDS rather 
than their primary residence.
    The National Guard Bureau with the support of the Army G-1 and 
Assistant Secretary of the Army (Manpower and Reserve Affairs) 
submitted a Continuum of Service legislative proposal for the upcoming 
cycle that will allow continuation of benefits for AGR soldiers, to 
include BAH, when ARNG AGR soldiers change status from Title 32 to 
Title 10.

                          unemployment issues
    22. Senator Brown. Sergeant Major Chandler, Master Chief Petty 
Officer West, and Chief Master Sergeant Roy, the Department of Labor's 
Veterans Employment and Training Service runs a 2-day Transition 
Assistance Program for out-processing servicemembers and their spouses 
to help prepare them for the civilian job market. Currently this 
program is mandatory for marines. With veteran unemployment above the 
National average, do you think this training should be mandatory for 
all out-processing soldiers, sailors, and airmen?
    Sergeant Major Chandler. More than 60 percent of soldiers 
separating take advantage of the Transition Assistance Program. 
However, the Army does not intend to make the requirement mandatory at 
this time. The Army will monitor and evaluate the Marine Corps model 
and if warranted make adjustments.
    Master Chief Petty Officer West. Yes. I do believe the Department 
of Labor's 2-day Transition Assistance Program should be mandatory. 
Currently, we strongly encourage all out-processing sailors to take 
advantage of the Department of Labor's Veterans Employment and Training 
Service 2-day program.
    Additionally, Navy sponsors a robust transition assistance program 
(TAP), which is required by Federal law to be available prior to 
retirement or separation for all servicemembers to help them to 
transition smoothly from military to civilian life. Their families are 
also invited to attend. TAP provides a variety of transition services 
including counseling, information on education options, computerized 
job banks, resume writing assistance, and help with the employment 
interviewing process.
    Chief Master Sergeant Roy. Air Force has a mandatory pre-separation 
counseling provided by our installation Airman and Family Readiness 
Center staffs. We also have an outstanding Transition Assistance 
Program. This two and half day Department of Labor Employment Seminar 
is voluntary but well attended. In 2010, participation rate for the 
seminar was a robust 97.5 percent of separating/retiring airmen.

    23. Senator Brown. Sergeant Major Chandler, I am particularly 
concerned about soldiers leaving the Army. During the next 2 years, the 
Army will off-ramp its temporary end-strength increase of 22,000 
soldiers. Most of these soldiers will be junior soldiers. During 
General Dempsey's confirmation hearing, he stated that almost 30 
percent of young soldiers are unemployed after leaving the Service. 
What is the Army doing to ensure these soldiers are prepared for jobs 
in the civilian sector?
    Sergeant Major Chandler. The Army Career and Alumni Program (ACAP) 
has counselors world-wide to ensure that separating soldiers and their 
families are informed about employment assistance, effects of a career 
change, relocation assistance, education and training, health and life 
insurance, finances, Reserve affiliation, veteran benefits, and 
continuation of service. This information is provided through a series 
of workshops over a period of days. Specific to preparing a soldier for 
employment in the civilian sector, ACAP provides Federal Resumes and 
Application Seminar, Interview Preparation and training in Advance 
Resume Writing.

    24. Senator Brown. Sergeant Major Kent, in your prepared testimony 
you discuss new initiatives that the Marine Corps has started to help 
marines transition from the Marine Corps to the private sector. Can you 
share some of these improvements and their effectiveness in preparing 
marines for employment in the civilian workforce?
    Sergeant Major Kent. In his 2010 Planning Guidance, our Commandant 
directed the Marine Corps to conduct a ``bottom-up'' assessment of the 
Transition Assistance Management Program (TAMP) and Personal & 
Professional Development programs and services to revolutionize the 
process, embrace best practices, and ensure we are providing the right 
educational and career assistance to Marines leaving the Corps. In 
response, we have established a goal to make the Marine Corps' TAMP 
more value-added for our Marines. We will transform the current 2-3 day 
workshop from an event-driven to a process-driven program and support 
service. TAMP will have four ``military-to-civilian'' pathways: 
Employment; Career/Technical Education; College/University; and 
Entrepreneurial.
    We have developed a plan which will inventory and assess critical 
components of TAMP, based on the following phases:

        <bullet> Phase I will focus on 180 days pre/post EAS. This 
        phase will include an inventory of capabilities; an assessment 
        of current operations for redundancies and gaps; a requirement 
        that our TAP Workshop core curriculum and electives be 
        standardized (with well-defined learning objectives and exit 
        outcomes); and an adoption of best practices.
        <bullet> Phase II and III are still in development. These 
        phases will be based upon metrics of effectiveness that will be 
        adopted, used, and assessed by Headquarters Marine Corps and 
        all installations to continuously improve TAPs and other 
        services.

                 guard and reserve mental health issues
    25. Senator Brown. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, in 
2010 Active Duty suicides went down, while National Guard and Reserve 
suicides doubled. The Active Army has implemented the Comprehensive 
Soldier Fitness (CSF) program to combat the mental health issues facing 
the Army, with success. What plans do each of your Services have to 
implement these types of programs into the Guard and Reserve training 
to create a more resilient Reserve Force?
    Sergeant Major Chandler. The current focus for Army National Guard 
(ARNG) and Reserve component (RC) soldiers for resilience, risk 
reduction and suicide prevention includes the application of the Army's 
CSF program. Both components are utilizing Master Resilience Trainers 
(MRTs) and Resilience Trainer Assistants (RTAs) to increase assets 
available to commanders to improve soldier resiliency and unit 
readiness. To date, the ARNG has trained 295 MRTs and 326 RTAs; the RC 
has trained 309 MRTs.
    A component of the resilience training is the Global Assessment 
Tool (GAT) which each soldier can take to receive an assessment of 
their strength dimensions (emotional, familial, social and spiritual). 
Over 234,948 ARNG and 172,800 RC soldiers have taken the GAT. 
Additionally, there are various comprehensive resilience modules (CRMs) 
to help improve or enhance their resilience areas based upon their 
results of the GAT. Family members have access to the GAT and also 
family specific CRMs as well.
    Master Chief Petty Officer West. We continue to build a culture of 
support for psychological health and suicide prevention while working 
to overcome the stigma associated with seeking needed care for the 
Total Force, including reservists and their families.
    Enabling a continuum of service, Reserve commands have trained 
Combat/Operational Stress Control (C/OSC) caregivers to provide suicide 
and sexual assault prevention training regularly at all levels and to 
destigmatize and normalize buddy-care and help-seeking behavior to 
address mental health or any other readiness issues as early as 
possible. Reserve Psychological Health Outreach Program (PHOP) teams, 
consisting of licensed mental health providers, are embedded in Navy 
Reserve communities regionally. They support Commanders in identifying 
reservists and family members who may be at risk for stress injuries 
following deployments or other transitions and provide outreach, 
support, mental health screenings, referrals and follow-up to local 
mental health resources to assist with problem resolution, build 
psychological resilience and promote growth. They also participate in 
assessment and training during demobilization and pre-deployment unit 
activities. Along with mental health referrals, many successful 
referrals by the PHOP teams involve helping reservists and their 
families with financial, health, employment and other concerns that can 
affect psychological health and impact performance and unit, individual 
and family readiness. Experts in finding resources for the unique needs 
of individual reservists and their families, both governmental (DOD, 
VA, other Federal and State services) and within the local communities 
where reservists live, these providers make outreach contacts with all 
demobilizing reservists and are available for consultation as needed, 
including providing after hours on-call coverage. Another effective 
tool is the Returning Warrior Workshops (RWW), a two day weekend 
program designed specifically to support the reintegration of returning 
reservists and their families following mobilization. PHOP teams serve 
as facilitators at Yellow Ribbon Reintegration Program (YRRP) signature 
events that provide support as needed and build resilience and promote 
post-traumatic growth. In addition, the DOD Joint Family Assistance 
Program (JFSAP) is available to support geographically isolated 
reservists and Commands with financial and mental health counseling. 
Families OverComing Under Stress (FOCUS), a family-centered resilience 
training program based on evidence-based interventions that enhance 
understanding of combat and operational stress, psychological health 
and developmental outcomes for highly stressed children and families, 
is available for reservists serving in areas with a high active duty 
fleet concentration.
    Sergeant Major Kent. By direction of the Commandant, the Marine 
Corps has developed a resiliency model featuring identified 
vulnerabilities (social, physical, psychological, and spiritual), 
interdependencies (Marine, Unit, Family, and Installation/Community), 
cohesion requirements, and an analytical framework that prescribes 
necessary actions/planning areas to enhance or grow resiliency 
including: (1) strengthen; (2) mitigate; (3) identify, (4) treat; and 
(5) return. With the model complete, we have begun action to inventory 
current capabilities, assess effectiveness and future operations 
utility, and identify gaps/redundancies. We have brought the key 
entities charged with resilience programming together to leverage our 
existing assets in institutionalizing resilience training and program 
offerings across the Corps. Marine and Family Programs is currently 
developing a resiliency measurement that will allow individuals, units 
and the Corps to assess resiliency and, based on that assessment, 
intervene to improve psychological resilience.
    Additionally, the Marine Corps has implemented the following 
programs to create a more resilient total force, which includes our 
reserves:

        <bullet> The Never Leave a Marine Behind suicide prevention and 
        awareness education series trains Active and Reserve marines to 
        recognize the warning signs for suicide, to foster personal and 
        unit resiliency, to know where to go for behavioral health 
        care, to engage helping services early, and in the case of 
        senior leaders, how to manage command climate to reduce the 
        risk of suicide.
        <bullet> The Operational Stress Control and Readiness (OSCAR) 
        program is being implemented at the Battalion/Squadron level, 
        training Marines and medical and religious ministry personnel 
        to prevent, identify, and manage stress problems as early as 
        possible. These unit OSCAR team members are easily accessible, 
        known to the unit members, and know the unit members. They can 
        quickly recognize unusual changes in behavior, and increase the 
        likelihood marines will talk about stress.
        <bullet> A communication skills program, developed by the Army, 
        is being pilot-tested to help families identify strengths they 
        bring to deployment, prepare for experiences they and their 
        marines may have during the deployment, and manage stress 
        reactions after deployment.
        <bullet> The Marine Corps is currently piloting a 24-7 by 
        marine-for-marine counseling line, available to all marines, 
        whether Active, Reserve, or veteran, and their loved ones. The 
        DSTRESS Line is being piloted in the Western United States.
        <bullet> The Marine Corps Behavioral Health Information Network 
        (BHIN) is a web-based clearinghouse for the latest information 
        and tools for Active and Reserve marines on prevention and 
        other resources concerning behavioral health. These free 
        educational materials are excellent tools that will assist 
        units and installation support services in their efforts to 
        educate the military community about building resiliency, 
        recognizing reactions and determining the need for help. The 
        materials, which are available in print and media form, include 
        brochures, wallet cards, posters, workbooks, Quick Series, and 
        DVDs.
        <bullet> In addition, Marine Forces Reserve (MARFORRES) has 
        implemented the Psychological Health Outreach Program (PHOP) 
        which provides Psychological Health professionals at six 
        regional MARFORRES sites to screen and refer Selected Marine 
        Corps Reserve (SMCR) personnel for behavioral health services. 
        Marines who are referred to the program can be screened for 
        behavioral health issues, medically referred, and provided a 
        road to recovery. Outreach members will follow each referred 
        reservist through to the resolution of that member's case, 
        whether it is return to active reserve status, or resolution 
        through the Disability Evaluation System.

    Chief Master Sergeant Roy. The Air Force recently implemented the 
Comprehensive Airman Fitness program. The goal of this program is to 
help our total force and family members better cope with the stresses 
of military life. One of the core components is to incorporate 
``resilience'' principles into all of our training platforms such as 
accessions, PME, and technical training. Reserve and Guard members go 
through the same accession points as active duty, so everyone will have 
the same initial exposure to resilience. Like their active duty 
counterparts, our Guard and Reserve members will receive additional 
resilience training as they progress through their career but it will 
be tailored to their unique situation; geographically dispersed with 
extremely constrained drill time.
    Air Reserve component (ARC) is in the planning stages of an Air 
Force Smart Operation for the 21st century event, ``ARC Access to 
Community Services for Psychological Well-Being.'' The scope of this 
event is to effectively provide a mechanism to refer and connect 
Reserve and Guard airmen and their families to appropriate mental 
health and resiliency resources, and monitor progress in an effort to 
better achieve positive outcomes. We will be considering all 
possibilities in the current resource-limited environment, including 
regional teams, wing-level, ARC-dedicated personnel, and expansion of 
the role of the ARC liaison at Medical Treatment Facilities. Once 
approved, we will press forward with this event.
    We also have a Wingman Day, currently planned twice a year, in 
which Comprehensive Airman Fitness and Resilience is taught and 
practiced. The goal of Wingman Day is to build resilient airmen, 
through activities emphasizing awareness, accountability, team 
building, and communication utilizing interactive discussion.

    26. Senator Brown. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, the 
military has dedicated a lot of time and resources improving the 
quality of life for military families. Reserve and Guard families face 
the unique situation of not being collocated on military bases and near 
other military families. Families become the watchdogs that the command 
structure is for the Active Duty soldiers. While their soldier is 
mobilized, what is being done to educate Guard and Reserve families on 
the signs and symptoms of PTSD and suicide?
    Sergeant Major Chandler. The Army National Guard (ARNG) and the 
Reserve component (RC) have a number of programs to educate family 
members about PTSD and suicide prevention.
    The ARNG has Family Assistance Centers (FACs) and Family Readiness 
Groups (FRGs) which host several events during pre-deployment, 
deployment and redeployment with guest speakers and trainers presenting 
information on suicide prevention, behavioral health, PTSD, mild 
Traumatic Brain Injury (mTBI), resiliency training, coping skills, and 
parenting. The ARNG has FACs located in each State and territory to 
minimize the impact that the geographic dispersed families have in 
accessing service providers. There are currently 381 FACs serving 
military Families.
    The RC recognizes that any solution to assuring our soldiers can 
confidently seek treatment for PTSD and depression must include their 
Families. The RC has included training for Army Reserve Families on 
identifying signs of PTSD and suicide at various Yellow Ribbon events. 
Recently the Army approved 53 Health Promotion, Risk Reduction and 
Suicide Prevention civilian positions that will be geographically 
dispersed throughout the continental United States in support of Army 
Reserve soldiers and their families.
    Master Chief Petty Officer West. When our sailors deploy, families 
are their foothold. Family readiness is force readiness and the 
physical, mental, emotional, spiritual health and fitness of each 
individual is critical to maintaining an effective fighting force. A 
vital aspect of caring for our servicemembers is also caring for their 
families. FOCUS is a family-centered resiliency training program based 
on evidenced-based interventions that enhances understanding, 
psychological health and developmental outcomes for highly stressed 
children and families. FOCUS has been adapted for military families 
facing multiple deployments, combat operational stress, and physical 
injuries in a family member. The program provides community outreach 
and education, resiliency skill building workshops and at the center of 
the program an 8-week, skill-based, trainer-led intervention that 
addresses difficulties which families may have when facing the 
challenges of multiple deployments and parental combat related 
psychological and physical health problems. It has demonstrated that a 
strength-based approach to building child and family resiliency skills 
is well received by servicemembers and their family members. Notably, 
program participation has resulted in statistically significant 
increases in family and child positive coping and significant 
reductions in parent and child distress over time, suggesting longer-
term benefits for military family wellness. To date over 200,000 
servicemembers, families, and community providers have received FOCUS 
services.
    In addition to FOCUS, Navy Reserve Psychological Health Outreach 
Program (PHOP) teams provide training on signs and symptoms and Combat 
and Operational Stress and suicide prevention for Navy reservists and 
their families at predeployment and postdeployment events. They provide 
outreach to returning reservists who may be at risk for stress 
injuries, and provide mental health screening and support and resources 
to assist with problem resolution and to build psychological resilience 
and promote growth. Experts in finding local resources for any needs, 
they make outreach contacts, and are available as needed, including 
after hours on call. Another effective tool is the Returning Warrior 
Workshop (RWW), a 2-day weekend program designed specifically to 
support the reintegration of returning reservists and their families 
following mobilization. It reviews signs and symptoms of stress 
injuries and suicide risk and makes available counselors and Chaplains. 
PHOP team members facilitate at RWWs and provide screening and training 
to families at other YRRPs and Command predeployment events to educate 
family members about combat/operational stress and signs and symptoms 
of suicide risk.
    Sergeant Major Kent. The Marine Corps is implementing the following 
programs to educate Guard and Reserve families on the signs and 
symptoms of post traumatic stress disorder (PTSD) and suicide:

        <bullet> We are piloting a 24-7 by marine-for-marine counseling 
        line, available to all marines, whether Active, Reserve, or 
        veteran, and their loved ones. The DSTRESS Line, which is 
        currently being piloted in the Western United States, provides 
        access to counselors who can help family members identify the 
        warning signs for suicide, and how to intervene to save a life.
        <bullet> The YRRP is a DOD-wide effort that calls for 
        informational events and activities for National Guard and 
        Reserve servicemembers and their families to facilitate access 
        to services supporting their health and well-being throughout 
        the deployment cycle. The informational events and activities, 
        known as Yellow Ribbon Events, take place during all phases of 
        the deployment cycle with post-deployment events conducted at 
        the 30, 60, and 90 day points after the servicemember returns 
        home.

                <bullet> Yellow Ribbon Events provide interactive and 
                informative seminars on communication; stress 
                management; post-military career opportunities; money 
                management; health education; parental skills; suicide 
                prevention; resiliency training; and other life-skills 
                training.
                <bullet> In addition to these seminars, YRRP provides 
                access or referrals, through our relationships with 
                other federal and non-Federal entities, to support 
                services for issues concerning mental health and 
                substance use disorder; traumatic brain injury; housing 
                stabilization; and family support.
                <bullet> YRRP also offers access to employment 
                resources and career counseling to support those 
                servicemembers facing unemployment/underemployment or 
                who have career concerns after being demobilized/
                redeployed.

        <bullet> The Marine Corps Behavioral Health Information Network 
        (BHIN) is a web-based clearinghouse for the latest information 
        and tools for marines, families and professionals on prevention 
        and other resources concerning behavioral health. These free 
        educational materials are excellent tools that will assist 
        units and installation support services in their efforts to 
        educate the military community about building resiliency, 
        recognizing reactions, and determining the need for help. These 
        materials, which are available in print and media form, include 
        brochures, wallet cards, posters, workbooks, Quick Series, and 
        DVDs.
        <bullet> The Marine Corps also delivers Deployment Cycle 
        Training on the normal and expected emotional responses to each 
        phase of the deployment cycle and present an opportunity for 
        family members to have their questions answered. In the post-
        deployment workshop, family members learn about the Combat 
        Operational Stress Continuum. Examples are given of normal 
        stressors, which are expected to resolve on their own. Examples 
        are also given of more serious stress responses, attitudes and 
        behaviors, which are more severe or persistent, along with 
        suggestions of appropriate resources. Signs and symptoms of 
        PTSD are described in the continuum, along with instruction on 
        how and when to take action.

    Chief Master Sergeant Roy. First and foremost, the ARC provides 
education and resources for families on deployment related conditions 
through unit leadership. Air Force regulations specifically direct unit 
commanders and first sergeants to proactively contact and provide 
support for family members of deploying ARC members. The unit commander 
also tasks various support agencies, including Airman and Family 
Readiness, to ensure that families are contacted and provided for. The 
Yellow Ribbon Program offers resources on PTSD and suicide mitigation 
and is offered to ARC members and their families pre-deployment, during 
deployment, and 30 and 60 days post deployment.
    The Air National Guard (ANG) assigns an individual to more than 
half its wings (with plans to eventually cover all wings) to provide 
education on PTSD and suicide prevention through Yellow Ribbon events. 
This individual is available to answer any questions the ANG member or 
family member may have related to PTSD, suicide mitigation, or other 
psychological health related questions or resource availability. Family 
Program Managers also work with ANG family members during a spouse's 
deployment, providing access to information on PTSD and suicide 
awareness.
    The Air Force Reserve Command (AFRC) employs three regional teams 
to locate resources and provide case facilitation for AFRC members and 
their families for psychological health issues, including PTSD and 
suicide. AFRC also has the Wingman Project 
(www.AFRC.WingmanToolkit.org) that provides education about suicide 
prevention. The Wingman Toolkit has been targeted and distributed to 
Air Force Reserve members.
    Finally, Military OneSource and the Military Family Life Consultant 
Program are both available to family members and can provide 
information and guidance on PTSD and suicide. The unit commander is 
responsible for educating families about these services.

                           diversity roadmap
    27. Senator Brown. Chief Master Sergeant Roy, in your prepared 
statement you discuss the Diversity Roadmap that the Air Force 
published last fall. Please provide some of the initiatives the Air 
Force is implementing to address the issue of diversity within the 
force.
    Chief Master Sergeant Roy. In a nation where about only 25 percent 
of our youth are eligible or able to serve in an all-volunteer military 
and a defense department striving to remain connected to the Nation we 
serve, it is necessary to maintain a diverse Air Force to overcome 
today's increasingly complex challenges.
    In the fall of 2010, we published strategic guidance including a 
policy directive and Air Force Diversity Strategic Roadmap, which 
provides priorities, goals and specific actions for implementation of 
diversity initiatives. Formalizing the Roadmap into an Air Force 
Instruction will provide the Total Force its final piece of strategic 
guidance. Woven into the instruction will be vetted recommendations of 
the Military Leadership Diversity Commission. We anticipate completion 
of the instruction by the end of September 2011.
    We furthered the institutionalization of diversity by holding the 
inaugural Diversity Senior Working Group in October 2010. Showcasing 
senior leader commitment, the Chairman of the Joint Chiefs, Secretary 
and Chief of the Air Force along with 60 vice commanders from the major 
commands and senior leaders from the Pentagon participated. 
Participants were given five things they could do to promote diversity 
within their sphere of influence. These include making diversity a 
personal commitment by participating in two outreach events per year, 
adding a diversity message in speeches, identifying key positions and 
implementing hiring practices with a diversity lens, analyzing 
mentoring programs and determining how to resource diversity within the 
major commands and wings.
    Finally, to advocate equity, diversity and inclusion at the U.S. 
Air Force Academy, a Chief Diversity Officer position was created and 
filled in December 2010. Charged with working with Congress on 
diversity issues, promoting institutional and classroom diversity and 
uniting diversity efforts around the Academy to increase various 
agencies' effectiveness, the Chief Diversity Officer serves as the 
strategic leader, diversity advocate and principal adviser to Academy 
leaders.

                            family programs
    28. Senator Brown. Sergeant Major Chandler, from fiscal year 2007 
to fiscal year 2010, the Army has more than doubled its investment into 
family programs. Undoubtedly, families are an integral part of a 
successful military. American Psychologist recently highlighted the 
Army's success in family programs in its special issue on CSF. One of 
the issues and recommendation was that ``many programs for military 
children and families are not evaluated at all.'' What is being done to 
identify the most effective family programs, so as to avoid duplicative 
programs?
    Sergeant Major Chandler. The Army has longstanding annual 
assessment tools that measure the quality and cost of family support 
services, programs, and facilities. The Installation Status Report and 
the Common Levels of Support assessment processes monitor program 
quality, quantity, and applied resources against well-defined 
standards.
    The Army conducts a host of surveys and also benefits from surveys 
conducted by DOD. The Survey of Army Families monitors and assesses 
soldier and family use of and satisfaction with support services and 
programs. Families who use these services tell us they are helpful, 
appreciated, and positively impact their lives. Other surveys, such as 
the Sample Survey of Military Personnel, portray positive correlations 
between soldiers' use of support services and their desire to stay in 
the Army, unit esprit de corps, and satisfaction with Army life. A 2009 
Army-wide assessment of officers and NCOs depicted increasing 
satisfaction with Army life, increasing ability of leaders to balance 
their career and family life, and increasing satisfaction with the 
Army's support for soldiers and families. Overall, these tools inform 
us that Army family programs positively influence job satisfaction, 
family life, resiliency, and readiness.
    The Army recently conducted a ``Holistic Review'' of the Army 
Family Covenant to ensure efficient delivery of programs and services 
to those who need them most. As a result, the Army is transforming Army 
Community Service (ACS) with the goal of ACS becoming the key 
integrator for installation-wide support services.
    Additionally, the Army's 2010 Health Promotion, Risk Reduction, and 
Suicide Prevention Report provided a roadmap to conduct a new 
evaluation of support services. The goal of this analysis is to 
determine the right mix of Army programs to ease soldier and family 
transitions, strengthen resiliency and coping skills, increase help-
seeking behavior, and reduce the stigma of seeking help.
    Army family programs ensure soldiers and family members continue to 
be strong and resilient. The Army continually evaluates the quality, 
cost, and value of these programs. Our efforts ensure a balanced 
portfolio of services that are fiscally sustainable to strengthen 
soldier and family programs for the long term.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                            family programs
    29. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, in 
your written statements, I was struck by the quantity of programs that 
each Service has created to serve troops and their families. These 
programs represent good faith efforts to maintain the readiness of the 
All-Volunteer Force and to help our troops and their families cope with 
the accumulated strain of a decade at war. To what degree are the 
Services methodically and objectively measuring the performance of 
these programs?
    Sergeant Major Chandler. The Survey of Army Families (SAF) is an 
Army-wide survey conducted every 4 to 5 years by the Family and Morale, 
Welfare and Recreation Command (FMWRC). It provides data on the 
attitudes and behaviors of non-military spouses of Active Duty soldiers 
about the quality of life in the Army, identifies emerging family 
issues, assesses progress in resolving Army Family Action Plan issues, 
and supplements other studies on Army families. Additionally, the SAF 
provides data on the effectiveness of family programs including Family 
Readiness Groups, services assisting spouses and Families in preparing 
for a soldier's return, Army Child, Youth & School Services, recreation 
programs, Army Community Service (ACS) programs and services and other 
programs designed to enhance the quality of life for soldiers and 
Families.
    In collaboration with the Family Life Development Center at Cornell 
University, FMWRC has developed logic models and outcome measures for 
each core Family Program area. Monthly data to support outcome measures 
is collected through a centralized online database system, the Central 
Tracking System. In addition, ACS centers are accredited tri-annually 
to ensure compliance with legislative and regulatory requirements. As 
part of the accreditation process, ACS centers survey soldiers and 
their Families regarding their satisfaction level with services 
available to them which provides a unique opportunity to look at the 
relevance and importance of individual programs and services to 
soldiers and family members.
    The Installation Status Report is a performance measurement tool 
used by installation leaders and managers to provide a standardized 
reporting process, view critical planning and management data, serve as 
a baseline of data used at all levels from the installation to Army 
staff to justify funding, assist in the management of installations, 
and identify critical areas in need of attention.
    Master Chief Petty Officer West. Recurring performance measurement 
of Family Readiness Programs is a high priority within the Navy. 
Program performance of Child Development Centers, Child Development 
Homes, and School Age Care programs is accomplished through national 
accreditation and annual inspection by Navy inspectors. Peer-review and 
certification of Navy Fleet and Family Support Programs occurs every 3 
years, with mid-cycle review of installation programs provided by 
regional Fleet and Family Support Program staff. Detailed performance 
standards for both Navy Child and Youth Programs (CYP) and Fleet and 
Family Support Programs (FFSP) are in place, with installation programs 
reporting their performance against these standards on a quarterly 
basis. Joint Base supported and supporting commands report quarterly on 
family readiness program performance against Joint Base Common Output 
Level Standards. Detailed output data is collected for both Navy CYP 
and FFSP and analyzed on a recurring basis to validate installation 
performance.
    A senior level customer survey is conducted annually by Navy 
Installations Command, including senior level satisfaction with the 
performance of Navy CYP and FFSP. Needs assessment and customer 
satisfaction data is collected at least annually by installation CYP 
and FFSP managers. A web-based, Navy-wide CYP and FFSP customer survey 
has been administered for the past 2 years. A quarterly Tone of the 
Force Report is provided to the Chief of Naval Operations that includes 
key sailor and family readiness metrics. Additionally, questions 
regarding use of and satisfaction with family readiness programs are 
included in personnel surveys conducted by the Bureau of Naval 
Personnel.
    Among the most accurate measurements of performance in my 
estimation, is simply talking with sailors to gauge their satisfaction. 
They deliver positive feedback when programs are effective, and provide 
unvarnished honesty when programs miss the mark. It is a continuous and 
evolving dialogue among Navy leadership and the Fleet because both 
groups understand the importance of quality-of-service efforts and 
constantly seek.
    Sergeant Major Kent. In his 2010 Planning Guidance, our Commandant 
directed us to: ``Review and Improve Family Readiness--Evaluate all 
Marine Corps Family Team Building Programs and make recommendations on 
optimum span of control, where we require further assistance to our 
families, and where we should streamline to erase redundancy.'' To 
respond to the Commandant's concerns, we have developed a deliberate 
process which will, in effect, objectively measure the effectiveness 
our programs and services by marines and families who utilize them. As 
part of this process, we are taking the following actions:

        <bullet> Conducting focus groups with unit commanders, 
        associated sergeants major, and respective spouses to obtain 
        their insights on the effectiveness of Marine Corps Family 
        programs; identify unmet needs of marines and families; and 
        acquire recommendations to fix identified deficiencies. A 
        follow-on web-based survey will reach all unit commanders and 
        Sergeants Major who could not participate in the focus groups. 
        This survey will be extended to NCOs to obtain their 
        perspectives as well.
        <bullet> Initiating operational planning teams to review the 
        structure of the Unit, Personal and Family Readiness and Marine 
        Corps Family Team Building Programs to redefine staffing 
        requirements.
        <bullet> Launching a web-based program prioritization tool that 
        will be sent to Active and Reserve unit commanders and 
        sergeants major to ask them to prioritize the utility of our 
        Marine Corps Family Programs based on their contribution to 
        unit and family readiness.

    Chief Master Sergeant Roy. The Air Force uses web-based management 
information systems to track all airmen, family readiness, child and 
youth programs, and services offered to airmen and their families. This 
system also includes participation rates. The data provided by these 
tools is visible to leadership at the installation, major commands and 
Headquarters Air Force levels. The captured data is used to conduct 
trend analysis and provide a vector on focusing our resources where 
they may have the greatest positive impact on airmen and their 
families. Air Force-wide assessments and surveys are also conducted to 
objectively measure performance.
    The Air Force Community Assessment is conducted every 2 years and 
is designed to assist installation helping agencies better meet the 
needs of servicemembers and their families. Topics covered in the 
survey include personal and family adjustment, individual and family 
adaptation, community well-being, deployment, resilience, post-
traumatic stress and help-seeking stigma. This assessment provides a 
means to ensure community interventions are timely, focused and data-
driven and has been instrumental in determining the strengths and needs 
of Air Force communities and tailoring programs at the installation, 
major command and Air Force levels. Previous survey results are 
credited with expanding financial counseling programs to members and 
their families, developing a user-friendly support network for Air 
Force single parents and setting up marriage-support seminars for 
junior enlisted members and their spouses.
    The Caring for People Survey objectively measures the relationship 
between services provided and readiness and retention to effectively 
allocate our resources. The survey was conducted in 2008 and 2010 and 
allowed total-force airmen, civilians, retirees, and spouses an 
opportunity to tell Air Force leaders how they can better address 
services within health and wellness, airmen and family support, 
education and development, and housing and communities. Insights from 
the 2008 survey and subsequent focus groups spurred the development of 
several initiatives for improving fitness facilities, dining 
operations, housing and allocating funds to target single airmen.
    The robust trend analysis and Air Force community-wide surveys we 
conduct serve to gauge the well-being of airmen and their families and 
measures the success of meeting their needs through the programs and 
services offered.

    30. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, to 
what degree do the programs in one Service benefit from the lessons 
learned from programs in another Service?
    Sergeant Major Chandler. The Services benefit from sharing lessons 
learned through two primary joint Services meetings. One is the 
Chairman of the Joint Chiefs of Staff (CJCS) Family Support Meeting and 
the second is the Military Family Readiness Council.
    The CJCS meets regularly with Service Vice Chiefs, Senior Enlisted 
Advisors, and select spouses to address concerns and share best 
practices that will strengthen and enhance servicemember and family 
programs. The meetings cover five major topics:

        <bullet> Child Care
        <bullet> Employment and Empowerment of the Military Spouse
        <bullet> Educational and Developmental Excellence
        <bullet> Family/Community Strategic Communication
        <bullet> Medical

    The Military Family Readiness Council reviews and makes 
recommendations to the Secretary of Defense regarding family readiness 
policy and plans, monitors requirements for support of family 
readiness, evaluates and assesses the effectiveness of family readiness 
programs and activities, and submits reports on family readiness to the 
Secretary of Defense.
    Other venues the Services utilize for sharing lessons learned 
include program manager meetings and various training and conference 
opportunities.
    Master Chief Petty Officer West. Services participate in monthly or 
quarterly in various Joint Family Readiness Working Groups to share 
best practices and lessons learned. The Navy Personal Financial 
Management, Ombudsman and Family Readiness Program initiatives are the 
most current examples of best practices that have been shared with or 
implemented by DOD and the other services. Child and Youth Program 
managers across DOD meet monthly in all functional areas to share 
lessons learned and to air challenges for possible best practice 
solutions. Another example where sharing information among the services 
provided ease in establishing new processes was with the Exceptional 
Family Member Program (EFMP). Navy benefited by reviewing Marine Corps' 
EFMP program practices prior to implementing the Navy EFMP Liaison 
program. Spouse employment is another area where lessons learned from 
another branch of Service have been implemented DOD-Wide (Military 
Spouse Employment Partnership Program).
    Sergeant Major Kent. In his 2010 Planning Guidance, the Commandant 
directed us to institutionalize resiliency across the Marine Corps to 
better prepare our marines for the inevitable stress of combat 
operations and enable them to cope with the challenges and rigor of 
life as a marine, both deployed and in garrison. To do this, we have 
taken lessons learned from the Army Comprehensive Soldier Fitness 
program and applied key principles that fit with the Marine Corps' 
values and ethos. We have also leveraged existing practices occurring 
within the Air Force and capitalized on their work in the resiliency 
field. Moving forward, we are in the process of leveraging existing 
assets in a collaborative process that will combine the ``best 
practices'' of physical, psychological, spiritual, and social fitness 
and instill in our marines the resiliency needed to endure the 
stressors of combat and enhance their ability to perform effectively 
across the range of military operations. This program will ultimately 
provide our marines and their leaders with the best available skills 
and tools to increase individual resiliency training throughout the 
unit forming, training, deployment, and post-deployment phases. We will 
continue to consider other Services' programs and benefit from lessons 
learned to enhance our own overall capability.
    Chief Master Sergeant Roy. The Child, Youth and Family Programs 
representatives from each of the Services headquarters benefit from 
regular forums and working groups intended to benchmark programs and 
share lessons learned. The Office of the Deputy Assistant Secretary of 
Defense, Military Community and Family Policy hosts a monthly working 
group for Child and Youth Program Managers from each Service, in 
addition to a monthly working group for Military and Family Support 
Program Managers from each Service. These forums are used to work 
challenges collectively, share successes and discuss emerging policy. 
Examples of other shared forums include the Joint Transition Assistance 
Program Managers forum, the Joint Spouse Employment forum, the Personal 
and Family Readiness forum, the Military Connected Students and Student 
Liaison Services forum, the Exceptional Family Member Program working 
group, and the Childhood Obesity working group.
    Several programs have been developed as a result of these joint 
forums. One example is the military child care subsidy program 
administered through the National Association for Child Care Resource 
and Referral Agencies. This program provides child care subsidies to 
quality civilian child care programs for military members who cannot 
access on-installation child care programs. Another program, currently 
in development, is a joint military child care waiting list which will 
improve consistency and efficiency in our military child care programs. 
The Services also work jointly on partnerships with the USDA/4-H and 
the Boys and Girls Clubs of America to provide enhanced programming and 
expanded opportunities for military youth.
    Another example is the Military Spouse Employment Program which is 
being adapted from an Army initiative and will be officially launched 
shortly to serve all military spouses. The goal of this ``purple'' 
program is to ``develop partnerships with firms in the private sector 
to enhance employment opportunities for spouses of members of the armed 
forces and to improve job portability.''
    In 2010, the Headquarters Child and Youth Program Managers from the 
Air Force and the Navy partnered to conduct and fund a joint training 
conference for their installation child development and youth programs. 
Over 350 child and youth program managers attended the joint event.
    The 2011 DOD/USDA Family Resilience Conference titled ``Forging the 
Partnership'' was another large scale venue which brought together 
members from every Service for opportunities to share lessons learned. 
Installation staff members presented and attended workshops on current 
and emerging practices and participated in interactive sessions.

    31. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, to 
what degree do the Services share overhead and resources in order to 
reduce the costs of these programs?
    Sergeant Major Chandler. The Services benefit from sharing lessons 
learned through two primary joint Services meetings. One is the 
Chairman of the Joint Chiefs of Staff Family Support Meetings and the 
second is the Military Family Readiness Council. By sharing the lessons 
learned, the Services are able to identify and implement cost savings 
and gain efficiencies. However, the Services do not generally share 
overhead and resources.
    Master Chief Petty Officer West. Fleet Readiness Programs are 
funded, for the most part, through the Services' Operation and 
Maintenance budgets, with each service responsible for providing family 
readiness programs and services for all military members and their 
families within their geographic areas of responsibility. Duplication 
or overlap is relatively low both within and outside the United States. 
In areas where there is overlap between the services at the local level 
or installations with co-located sister service tenant organizations, 
Navy fleet readiness program managers coordinate with their 
counterparts from other services to maximize resources and ensure 
military members and their families are well-served. On programs or 
initiatives of benefit to all the Services, Service and DOD fleet 
readiness program managers coordinate efforts, sharing overhead and 
resources to develop and implement initiatives, thereby reducing cost. 
For example, the Services and DOD are currently coordinating efforts to 
develop a web-based tool for families across DOD to request childcare 
services through the installation nearest to their preferred location, 
regardless of branch of service. Additionally Navy, Army and Marine 
Corps utilize DLA Troop Support Prime Vendor Program for essential food 
services.
    Sergeant Major Kent. Since our program is still in the development 
phase, we have not had an opportunity to share overhead and resources 
with other Services to reduce the costs, but we will look for ways to 
do so in the future.
    Chief Master Sergeant Roy. All family programs located on an Air 
Force installation support any eligible DOD user. Conversely, family 
programming offered by other Services can also be accessed by airmen 
and their families. Base Realignment and Closure (BRAC) and Joint 
Basing have formalized this approach and all Services are working to 
ensure programs, information, and resources are shared and applicable 
to all Services. Additionally, Air Force family support and child and 
youth program managers meet, as a minimum, quarterly with their Sister 
Service counterparts. These meetings allow the cross flow of 
information and sharing of resources and awareness of the total range 
of services available to members and families. The Services also share 
best practices and Office of the Secretary of Defense--Military 
Community and Family Policy resources.
    We have had many examples of opportunities where we have shared 
resources and overhead. One is a series of joint planning sessions to 
create a more comprehensive Exceptional Family Member Program across 
DOD. Another is the Joint Services Military Spouse Employment 
Partnership under development. We are taking an existing Army 
initiative and contract which is being expanded to enhance employment 
opportunities for Air Force, Navy and Marine spouses, with shared cost 
for overhead and program operations. We have also partnered with the 
Navy to co-sponsor Child/Youth Program training which reduced overall 
training costs. Joint Family Support Assistance Centers, funded through 
OSD, provide outreach and support that augments the installation family 
centers and the National Association of Child Care Referral and 
Resource Agency contracts shared with the Navy help reduce costs for 
civilian community child care. The Services also share 4-H grants that 
promote youth development and leadership skills. All of the separating 
and retiring members and their families share Transition Assistance 
Services. And as mentioned, BRAC and Joint Basing are creating more 
opportunities to formalize processes for shared program costs.

                          resiliency programs
    32. Senator Ayotte. Sergeant Major Chandler and Sergeant Major 
Kent, using the Army's CSF program and the Marine Corps' Combat and 
Operational Stress Control (COSC) resiliency training as an example, 
what metrics do you use to measure resiliency and what do those metrics 
tell you about the performance of these two resiliency programs?
    Sergeant Major Chandler. The program of record for resilience 
development within the Army community is the CSF program. The metric 
that the Army uses to measure resilience is the Global Assessment Tool 
(GAT), a 105 item questionnaire required to be completed annually by 
all soldiers, from Private to General. To date, the GAT has been 
completed over 1.2 million times. An ongoing program evaluation will 
give us an idea of the performance of the CSF program, and we 
anticipate having initial results in the next 4-6 months.
    Sergeant Major Kent. The COSC utilizes metrics from external 
evaluations, such as the Joint-Mental Health Advisory Team (JMHAT). 
These metrics include unit factors (small-unit leadership, cohesion and 
readiness), stigma, barriers to care, training, and positive impact of 
deployment.
    The most recent JMHAT, due for public release in May 2011, reports 
that unit cohesion, perceptions of unit readiness, and NCO leadership 
are significantly improved from previous assessments. Significant 
increases in the adequacy of and access to training for suicide 
prevention and stress have reduced stigma and perceived barriers to 
care.
    We believe these indicators show that the COSC program, as well as 
other behavioral health integrated efforts, is having a positive 
influence on resiliency.

    33. Senator Ayotte. Sergeant Major Chandler and Sergeant Major 
Kent, to what degree do your two resiliency programs share overhead and 
resources to reduce costs?
    Sergeant Major Chandler. The Army's CSF program does not share 
overhead with the Marine Corps. However, CSF has allowed several 
marines and sailors to attend the MRT course at the University of 
Pennsylvania on a non-reimbursable basis. Additionally, CSF has a 
memorandum of agreement with the Air Force's Air Combat Command to 
train five airmen per month at the MRT course at the University of 
Pennsylvania.
    Sergeant Major Kent. The COSC program utilizes materials from the 
Army's Comprehensive Soldier Fitness program as well as other Services' 
best practices and resources. The COSC program is utilizing the family 
resiliency training components from Comprehensive Solider Fitness 
program and will be pilot-testing these training components next month 
at Camp Lejeune, NC.
    In April 2011, over 100 Explosive Ordnance Disposal Marines 
attended the Air Force Deployment Transition Center as they returned 
from Operation Enduring Freedom. These marines received critical 
reintegration and decompression time after a difficult deployment.
    Partnerships such as these have significantly reduced costs 
associated with program development, implementation, and sustainment 
and we will continue to do so in the future.

    34. Senator Ayotte. Sergeant Major Chandler and Sergeant Major 
Kent, are lessons learned shared between resiliency programs?
    Sergeant Major Chandler. Yes, lessons learned are shared. 
Specifically, CSF has provided lessons learned to other Services when 
those Services began marshalling resources for their own programs.
    Sergeant Major Kent. Yes. Working with the Defense Centers of 
Excellence (DCOE) for Psychological Health and Traumatic Brain Injury, 
all Services assist in our resiliency efforts. Over the past year, DCOE 
has held quarterly meetings which have allowed the Services' resiliency 
program managers to discuss Service-specific program activities, 
lessons learned, and best practices. These meetings are valuable and 
are utilized heavily in our resiliency efforts.

    35. Senator Ayotte. Sergeant Major Chandler and Sergeant Major 
Kent, can you provide a specific example where a resiliency program 
changed based on input from another Service?
    Sergeant Major Chandler. The Army's CSF program has not changed 
based on input from other military Services.
    Sergeant Major Kent. We are utilizing lessons learned from the 
Army's Comprehensive Soldier Fitness program and are currently pilot-
testing family resiliency training modules for implementation. The Navy 
and the Marine Corps resiliency programs are very similar and now share 
a common doctrine which was released in December 2010. This shared 
doctrine allows the Marine Corps and Navy to better integrated efforts. 
The Marine Corps also recently partnered with the Air Force's 
Deployment Transition Center at Ramstein Air Force Base to support 
reintegration and decompression efforts for marines returning from 
Afghanistan.

    36. Senator Ayotte. Sergeant Major Kent, are you aware of the 
Army's Master Resiliency Trainer Program at the University of 
Pennsylvania, and if so, do you know if the Marine Corps has sent any 
marines to this training?
    Sergeant Major Kent. Yes, we are aware of the Army's Master 
Resiliency Trainer program. In fact, our COSC program just received 
five spaces and we plan to send our Operational Stress Control and 
Readiness (OSCAR) Master Trainers to attend this training within the 
next few months. Although we believe our OSCAR training and the Army's 
Master Resiliency Training are similar, we are excited about the 
opportunity to attend this training and have the goal of implementing 
best practices and lessons learned from this course.

                consolidating medical command structures
    37. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, in 
March 2011, the Government Accountability Office (GAO) released a 
report titled, ``Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue.'' In this 
report, GAO estimated that realigning DOD's military medical command 
structures and consolidating common functions could increase efficiency 
and result in projected savings ranging from $281 million to $460 
million annually. Do you support realigning DOD's military medical 
command structures and consolidating common functions?
    Sergeant Major Chandler. No, not until DOD has reviewed the 
desirability of establishing a unified medical command.
    Master Chief Petty Officer West. I am privileged to have the 
opportunity to see firsthand the outstanding health care being provided 
by our Navy medical personnel to servicemembers, their families and 
retirees and their families. At sea, in theatre and in medical 
treatment facilities, I know our sailors, as well as all 
servicemembers, are receiving the quality health care they need and 
deserve. Regarding the organizational construct of the Military Health 
System and evaluation of the Government Accountability Office 
assessment, I defer to DOD.
    Sergeant Major Kent. I see firsthand the outstanding health care 
being provided by our Navy medical personnel to servicemembers, 
retirees, and their families. At sea, in theater, and in medical 
treatment facilities, I know our marines and sailors, as well as all 
servicemembers, are receiving the quality health care they need and 
deserve. Regarding the organizational construct of the Military Health 
System and evaluation of the Government Accountability Office 
assessment, I defer to DOD.
    Chief Master Sergeant Roy. We do not favor the establishment of a 
unified military medical command.
    The Air Force Medical Service is fully integrated with the Line of 
the Air Force, and medical personnel are key members of the Wing 
commander's team to accomplish the Wing Mission. When Air Force units 
deploy, their medics deploy with them. The unified medical command 
would sever that close relationship at the expense of our existing 
effective organizational structure. We can drive unity of effort within 
current authorities without the expense of establishing a unified 
medical command and disrupting the effective alignment of medics to 
Service oversight. The synergy created by close alignment of Air Force 
medics to our operational mission should not be put at risk in a new 
unified command structure.
    Today's Service oversight of medical assets created the most 
effective system for treatment of casualties in the history of warfare. 
Modular and highly capable medical units such as Expeditionary Medical 
Support (EMEDS) and highly efficient air evacuation operations would 
not exist without the close alignment of our medics to Air Force 
operational missions. Deployed to our theater hospitals and supporting 
our air evacuation system, Air Force medics have safely returned over 
86,000 U.S. casualties to their families from Operations Enduring 
Freedom and Iraqi Freedom. Every day our medics are saving lives of 
soldiers, sailors, marines, airmen, civilians, coalition forces, friend 
and foe alike under the watchful eye of Air Force commanders.

    38. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, would 
consolidation of these medical command structures streamline 
operations, eliminate duplication, and achieve cost savings?
    Sergeant Major Chandler. Without a thorough review by DOD regarding 
Service-unique medical command structures, it is unknown if 
consolidation will streamline operations, eliminate duplication, or 
achieve cost savings.
    Master Chief Petty Officer West. I am privileged to have the 
opportunity to see firsthand the outstanding health care being provided 
by our Navy medical personnel to servicemembers, their families and 
retirees and their families. At sea, in theatre and in medical 
treatment facilities, I know our sailors, as well as all 
servicemembers, are receiving the quality health care they need and 
deserve. Regarding the organizational construct of the Military Health 
System, I defer to DOD.
    Sergeant Major Kent. I see firsthand the outstanding health care 
being provided by our Navy medical personnel to servicemembers, 
retirees, and their families. At sea, in theater, and in medical 
treatment facilities, I know our marines and sailors, as well as all 
servicemembers, are receiving the quality health care they need and 
deserve. Regarding the organizational construct of the Military Health 
System and evaluation of the Government Accountability Office 
assessment, I defer to DOD.
    Chief Master Sergeant Roy. The Air Force does not support 
establishment of a unified military medical command among the military 
departments because of concerns that it would not streamline 
operations, eliminate duplication, and achieve cost savings.
    We believe a more effective and efficient joint medical solution 
can be attained without the expense of establishing a unified medical 
command. Changes to doctrine can be made within current authorities and 
do not require a new unified medical command. Service specific and 
joint medical doctrine must be improved to assure Service capabilities 
are fully interoperable and interdependent to bolster unity of effort. 
The Services should continue integrating common medical platforms to 
reduce redundancy and lower costs.
    A unified medical command may not achieve the intended synergy or 
unity of effort. All models of the unified medical command to date do 
not include medical forces intrinsic (line funded vs. Defense Health 
Program funded manpower authorizations) to Service line units. A 
unified medical command would not oversee medical forces serving in 
these line units. Air Force line funded medics represent 5 percent of 
Air Force medical personnel; Navy shipboard assets represent 25 percent 
of medical personnel; and Army line Tables of Organization and 
Equipment (TOE) funded medics represent 48 percent of Army active duty 
medics. The Air Force ability to meet operational medical requirements 
would be disproportionately compromised in current models for unified 
medical command.
    Any new unified medical command will require new systems and 
structure to oversee component headquarters and assigned forces. This 
will drive even higher costs. If a unified medical command follows the 
example of the current Joint Task Force, National Capitol Region 
Medical (JTF CAPMED), it is highly unlikely there will be cost savings. 
There is no need for a fourth military Service and establishing such in 
the form of a unified medical command, without the discipline and 
historical rule sets that govern existing Services, will likely drive 
costs much higher. Even more critical, a unified medical command may 
not be as responsive to the needs of Service warfighters as is the 
current oversight by the Services.
    BRAC 2005 created many opportunities for joint oversight of medics. 
Given time to mature, these initiatives along with the Service Surgeon 
Generals' efforts to consolidate oversight of common support functions 
(information management, contracting, military health facility 
construction and financial management) in the new co-located medical 
headquarters will reduce redundancies. Adoption of a single Service 
accounting system to allocate Defense Health Program dollars and 
improve accountability would do more to reduce costs than a unified 
medical command.

    39. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, was 
the consolidation of medical command functions considered during the 
development of the efficiencies initiatives?
    Sergeant Major Chandler. Consolidation of Services for medical 
command functions was not a part of the Army's efficiencies 
initiatives.
    Master Chief Petty Officer West. The health care efficiency 
initiatives were developed by DOD. I would necessarily defer questions 
regarding specific considerations contained in the proposals to DOD.
    Sergeant Major Kent. The health care efficiency initiatives were 
developed by DOD. I would necessarily defer questions regarding 
specific considerations contained in the proposals to DOD.
    Chief Master Sergeant Roy. The consolidation of medical command 
functions were not considered during the development of the 
efficiencies initiatives. However, the Air Force has taken considerable 
steps to provide synergy of effort with our sister Services, as well as 
internally to the Air Force Medical Service which maintains Air Force 
unique capabilities in-line with Title 10 responsibilities.
    The Air Force accomplished a major transformation initiative under 
the Secretary of the Air Force and Air Force Chief of Staff Program 
Action Directive 07-13. This mandated a consolidation of management 
headquarters activities that eliminated redundancy across the Air 
Force, and consolidated all management activities related to clinical 
activities to a single ``reach-back'' agency. The establishment of the 
Air Force Medical Operations Agency in San Antonio provides the savings 
in this effort to fully fund direct war-fighting support, eliminate 
redundancy across the Major Command Surgeons Offices, and provides 
capabilities to the Major Commands and Numbered Air Forces.
    In addition, our BRAC-directed co-located headquarters efforts have 
resulted in a Defense Health Headquarters campus of like-type 
headquarters functions that will ensure enhanced cross-talk and synergy 
across the Services medical functions. As a result, the Defense Health 
Headquarters will position joint venture activities for greater success 
and efficiency in the Military Health System.

                         individual augmentees
    40. Senator Ayotte. Sergeant Major Chandler, Master Chief Petty 
Officer West, Sergeant Major Kent, and Chief Master Sergeant Roy, each 
of the Services has developed a variety of personnel programs to help 
troops and their families cope with the stress of repeated deployments. 
Many of these programs focus on the deployment of large u. However, 
every year the Services deploy thousands of individual soldier, 
sailors, airmen, and marines as IAs. These individuals deploy by 
themselves or in small groups to and from theater. Can you discuss the 
challenge that IAs present and describe how your Service has attempted 
to ensure these individuals also receive the pre- and post-deployment 
training and services they need?
    Sergeant Major Chandler. Many of the challenges that existed in the 
war's early years have been mitigated through more effective 
communication early in the process between the deployed individual and 
the Continental U.S. Reception Center (CRC) Battalion. The CRC 
established liaisons within each of the major commands and defense 
contracting companies operating in theater to ensure the deployed 
individual received the necessary information regarding pre- and post-
deployment requirements. Additionally, the CRC Family Readiness 
outreach ensures family support regardless of geographic location.
    Master Chief Petty Officer West. IAs 2A are an integral part of 
Navy's ongoing efforts to support Overseas Contingency Operations. The 
primary challenges of achieving mission proficiency and unit cohesion 
are accomplished through training.
    All IAs attend NMPS/ECRC (Navy Mobilization Processing Site/
Expeditionary Combat Readiness Center) for 5 days for medical, admin 
and uniforms. They also process through NMPS during post-deployment.
    IAs deploying to CENTCOM AOR receive additional training at Navy 
Individual Augmentee Combat Training (NIACT), or an equivalent extended 
combat skills curriculum depending on the requirement, for skills in 
shooting and driving, for a final medical record review, and for weapon 
issue.
    Additional mission specific training may be required as dictated by 
the capability requested.
    In addition, IAs process through the Warrior Transition Center in 
Kuwait, between post-deployment and final out-processing at NMPS, to 
provide combat stress control services and final in-theater 
administrative support.
    Finally, all IAs are afforded the opportunity to attend Returning 
Warrior Workshops at some point following their deployment to 
participate in group discussions about their experiences. The Returning 
Warrior Workshops are conducted in various locations around the 
country, and cost for attendance is borne by the member's command.
    Sergeant Major Kent. The most challenging aspect of IAs is the 
ability to provide the same level of support for deployment education 
as an Active Duty marine. Since IAs mobilize individually, they do not 
have the opportunity to attend pre/post-education classes with their 
entire unit and must be given one-on-one training or connected with the 
Gaining Force Command (GFC) predeployment training. In addition, since 
there is no set ``pre-deployment'' workup timeline for those accepting 
IA volunteer billets, providing the pre-deployment training is 
challenging.
    To address these challenges, the Marine Corps provides support 
through the local Family Readiness Officers (FROs) and/or unit in the 
area and through our Unit, Personal and Family Readiness Program's 
YRRP. Together with the GFC, FROs serve as a resource for IA marines 
and their families that assist them with accessing appropriate YRRP 
courses covering the entire spectrum of pre- to post-deployment 
education support.
    Chief Master Sergeant Roy. We have worked hard to ensure our 
augmentees are cared for before, during, and after their deployment. 
Services for airmen and their families across the four phases of the 
deployment cycle (pre-deployment, deployment, re-deployment and post 
deployment) have been standardized to ensure continuity across the Air 
Force. Deployment is addressed as a process, not an event. Programs and 
services for deployed single and married airmen and their families are 
designed to meet their needs and allow the airmen to keep their minds 
on the mission. These services are provided to those who deploy as 
units, in small groups, or individually. Tasked airmen are identified 
to Airman and Family Readiness Center staff by their unit deployment 
managers and the members are contacted and briefed. Sustainment 
assistance, information and referral resources are made available to 
families while the member is deployed and follow-up is provided during 
redeployment and reintegration.

    [Whereupon, at 3:08 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

 CONTINUATION OF TESTIMONY ON THE ACTIVE, GUARD, RESERVE, AND CIVILIAN 
                           PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 2:03 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Hagan, 
Blumenthal, Graham, Chambliss, Brown, and Ayotte.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Christine 
G. Lang.
    Committee members' assistants present: Juliet Beyler and 
Gordon Peterson, assistants to Senator Webb; William Chapman, 
assistant to Senator McCaskill; Tressa Guenov, assistant to 
Senator McCaskill; Roger Pena, assistant to Senator Hagan; 
Jeremy Bratt, assistant to Senator Blumenthal; Clyde Taylor IV, 
assistant to Senator Chambliss; Charles Prosch, assistant to 
Senator Brown; Brad Bowman, assistant to Senator Ayotte; and 
Taylor Andreae and Sergio Sarkany, assistants to Senator 
Graham.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. The subcommittee will come to order.
    I'm informed that Senator Graham is running about 15 
minutes late this afternoon, so I'm going to go ahead and get 
my opening statement on the record and begin the testimony from 
our guests today. Then when Senator Graham comes, I'll stop and 
see if he wants to say a few words at that time.
    We're meeting today to receive testimony from the 
Department of Defense (DOD) on the Active, Guard, Reserve, and 
civilian personnel programs contained in the administration's 
National Defense Authorization Request for Fiscal Year 2012 and 
Future Years Defense Program.
    With us today are senior DOD leaders, with whom we hope to 
discuss not only DOD personnel policy, but specific budget 
items in furtherance of our subcommittee's oversight 
responsibilities, which I take very seriously.
    There is no greater responsibility for Congress and 
military leaders than to care and provide for our 
servicemembers and their families, but, in doing so, we must 
ensure that we are appropriately managing our taxpayers' 
dollars.
    Our military--Active, Guard, and Reserve--is still engaged 
in the longest sustained period of major conflict in our 
Nation's history. We look forward to learning what programs and 
priorities the Department has identified and implemented to 
make certain that our servicemembers, civilian personnel, 
retirees, and their families receive the support and benefits 
they have earned, commensurate with their service.
    Having grown up in a military family that has a continuing 
tradition of service, I'm well aware of the unique challenges 
facing our military families, both in the Active Duty and 
Reserve components. They're dealing with high operational 
tempos, the stress of multiple deployments, and dwell times 
that still fall short of the Department's goals for many units 
and significant numbers of individuals. I have a special 
appreciation for the obligation to see to the needs of our 
servicemembers and their families.
    The All-Volunteer service has worked well over the past 
quarter century. We must guarantee that the All-Volunteer model 
continues to produce the world's best military. However, as I 
have said in the past, an All-Volunteer Force is not an all-
career force, a fact we must not forget in planning for the 
future and also in taking care of the needs of those who still 
maintain a citizen soldier tradition and return to their home 
communities after one period of service.
    We've also entered a new era in the use of our Guard and 
Reserve Forces, who played critical roles during this period of 
sustained conflict, in ways not envisioned at the inception of 
the All-Volunteer Force.
    This subcommittee will continue to explore changes needed 
to employ our Reserve component forces as an operational force. 
In this regard, I encourage Under Secretary Stanley and 
Assistant Secretary McCarthy to elaborate on their stated views 
on the need for additional tools for force management as we 
draw down our Active Force levels and to obtain additional 
authorities to mobilize Reserve components in the future.
    This subcommittee faces a very clear challenge this year 
with respect to the need to control the increasing costs of our 
personnel. The total personnel-related base budget in the 
Department's fiscal year 2012 request, including the cost of 
providing healthcare to servicemembers, their families, and 
retirees, amounts to $175 billion, or about 32 percent of the 
overall DOD base budget. However, while we must achieve savings 
in our Defense programs, we need to do this in a way that does 
not unfairly impact military benefits for a force that has 
served us so well. To that end, I am pleased that we have the 
DOD comptroller with us today so that we can engage in a more 
detailed budget discussion.
    As I stated at our first subcommittee hearing last month, I 
intend to take a hard look at DOD programs, their 
justification, what they cost, and whether they are achieving 
their stated goals. I've also expressed my own reservations on 
the administration's proposal to increase TRICARE Prime 
enrollment fees for retirees. While I have strong reservations 
regarding the administration's proposed enrollment fee 
increases, based on the fact that retirees have earned this 
healthcare benefit through their years of service--a moral 
contract, in my view--I do plan to keep an open mind about 
initiatives to improve the efficiency and effectiveness of our 
military healthcare benefits.
    To ensure that the Department obtains the greatest return 
on investment for every dollar it spends, Congress must do its 
part to make sure that funded programs are effective and 
efficient, in keeping with our roles as stewards of the public 
trust and of taxpayer dollars.
    I welcome our witnesses to today's hearings: The Honorable 
Clifford Stanley, Under Secretary of Defense for Personnel and 
Readiness; The Honorable Robert Hale, Under Secretary of 
Defense, Comptroller, and Chief Financial Officer; The 
Honorable Dennis M. McCarthy, Assistant Secretary for Reserve 
Affairs; and The Honorable Jonathan Woodson, Assistant 
Secretary for Health Affairs, and director of the TRICARE 
Management Activity.
    I'd like to take a moment to recognize Secretary McCarthy, 
who will be leaving the Department this year after nearly 2 
years serving as Assistant Secretary of Defense for Reserve 
Affairs. I'd like to acknowledge his many contributions, both 
as a civil servant and his long career with the Marine Corps, 
both Active and Reserve.
    Secretary McCarthy, we appreciate your service to your 
country, and look forward to hearing your testimony.
    General McCarthy. Thank you, Mr. Chairman.
    Senator Webb. I look forward to hearing each of your 
testimony about personnel overall, and the health and budget 
status of our military. As always, I encourage you to express 
your views candidly and to tell us what is working well, and to 
raise any concerns and issues you may want to bring to this 
subcommittee's attention. Let us know how we can best assist 
our servicemembers and their families to ensure that our 
military remains steadfast and strong.
    As I mentioned, Senator Graham will be here forthwith. At 
this point, rather than waiting for an opening statement--or 
for him to make an opening statement, we will interrupt the 
hearing when he arrives and ask that he do so.
    So, why don't we just go ahead and begin. Under Secretary 
Stanley, welcome, and we look forward to hearing your 
testimony.

   STATEMENT OF HON. CLIFFORD L. STANLEY, UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Dr. Stanley. Good afternoon, Senator Webb and Senator 
Hagan. I'm looking forward to talking with you this afternoon, 
and I thank you for this opportunity to testify today.
    First, I respectfully request that my written statement be 
made a part of the record.
    I look forward to continuing to work with you on our total 
force of Active, National Guard, and Reserve servicemembers, as 
well as our civilian workforce, and the dedicated families that 
support them.
    Senator Webb. I should point out that each of your full 
written statements will be entered into the record at the 
beginning of the time that you're recognized for your 
testimony. Feel free to give whatever comments you wish.
    Dr. Stanley. Absolutely. Thank you, Senator.
    My focus is total force readiness; it's caring for our 
people and creating a culture of relevance, effectiveness, and 
efficiency. I view total-force readiness as a mental, physical, 
emotional, and spiritual state of preparedness and resilience. 
This involves enabling training, equipping, and supporting the 
total force when they are deployed, and ensuring that they and 
their families have the care and support they need and deserve 
when they're at home.
    As we examine the total and All-Volunteer Force that first 
emerged in 1973, we intend to go beyond the scope of the 
Active, Guard, and Reserve Force. Particularly, we are looking 
at the roles of civilians--that play in serving and supporting 
our force, and most especially how families and volunteers fit 
into the total-force equation.
    We've placed emphasis on our civilian workforce to include 
civilian hiring, career and leadership development, support of 
our civilian expeditionary workforce, and a transition to a 
more systematic approach to fully integrate civilians in total-
force planning and requirements.
    In 2010, the Department made positive and meaningful 
progress toward reforming civilian hiring practices. 
Nevertheless, I continue to push hiring reform, and I actually 
refer to it, more accurately, as ``employment reform,'' towards 
an aggressive reduction in the number of days it takes to hire 
a civilian employee. I'm increasing our emphasis on the 
civilian competency development framework, enhanced leadership 
development programs, and senior executive talent management 
initiatives.
    As a designated proponent of the total force for the 
Department, one of the challenges that I have confronted is to 
assure that I had the proper cognizance over the resources 
necessary to support our workforce, and most especially our 
warfighters and their families. To accomplish this, I have 
undertaken a number of active steps to ensure thorough 
oversight of the resources and financial management of the 
Office of the Under Secretary of Defense for Personnel and 
Readiness level. My financial oversight, as the Under Secretary 
of Defense for Personnel and Readiness, represents nearly $40 
billion in direct DOD resources. With responsibility for the 
management of manpower for the DOD total force, it is also 
critical that I provide effective policy direction that 
supports pay, allowances, and other programs that constitute 
nearly two-thirds of the overall DOD budget.
    I also cannot overemphasize how essential it is that we 
continue to work on providing a quality of life commensurate 
with the quality of service for our military, and most 
especially their families. We'll work to do everything possible 
to support our military families. It is our military families 
who support our servicemembers, who support our Nation.
    I'd like to thank the committee for all you do for our 
dedicated servicemembers and their families. I look forward to 
your questions.
    That concludes my statement.
    [The prepared statement of Dr. Stanley follows:]
             Prepared Statement by Hon. Clifford L. Stanley
    Senator Webb, Senator Graham, and members of this distinguished 
Subcommittee, thank you for inviting us to testify before you on the 
Personnel Overview for the Department of Defense (DOD).
    It has been a year since I appeared before this subcommittee as the 
new Under Secretary of Defense (USD) for Personnel and Readiness, and 
it has been a year of building a team. We now have Dr. Jonathan Woodson 
as the Assistant Secretary of Defense for Health Affairs in place to 
help address the many challenges in the Military Health System, as well 
as some other new key leaders within USD Personnel and Readiness. It 
has also been a year of changing the culture, working on our critical 
thinking, and striving to improve timeliness and the quality of 
products that better inform decisionmaking across the Department and 
enhance relationships with Congress. During this past year, I've 
focused on honoring, protecting and improving the lives of our airmen, 
soldiers, sailors, marines, and their families. This next year will 
show that while my focus has not changed, I've refined my priorities to 
better serve our servicemembers and their loved ones.
    As the Under Secretary of Defense for Personnel and Readiness my 
focus is: Total Force Readiness, Caring for Our People, and creating a 
Culture of Relevance, Effectiveness and Efficiency. I view Total Force 
Readiness as a mental, physical, emotional, and spiritual state of 
preparedness and resilience. This involves enabling training, equipping 
and supporting the Total Force when they are deployed and ensuring that 
they and their families have the care and support they need and deserve 
at home. Caring for Our Total Force and their families are both a 
mission imperative and an ethical responsibility. Our Personnel and 
Readiness organization strives for the same sense of selfless service 
demonstrated by servicemembers and their families. To achieve a Culture 
of Relevance, Effectiveness and Efficiency, we need to prepare the 
force to manage risks, preserve assets and meet the challenges of a 
dynamic operational environment. We need to increase emphasis on 
agility, flexible force structures, responsive force-shaping policies, 
and integrated personnel management processes. We will continue to 
experience global competition for educated, skilled, and an experienced 
workforce. Therefore, it is more imperative than ever for DOD to have 
the right personnel policies to attract, retain, train, educate, and 
sustain the right talent.
    Our Total Force of Active and Reserve military, government 
civilians, and contracted private sector employees must deliver the 
readiness commanders expect, require, and deserve. Under any 
circumstance, readiness is costly, and the Department's resources are 
finite. We must thoughtfully plan with the premise that our uniformed, 
All-Volunteer Force (AVF) is the implicit assumption upon which all our 
commanders' plans are predicated. We cannot fail to provide commanders 
with the numbers and kinds of Active and Reserve personnel that they 
require. To that end, our Total Force Manpower costs must be reduced to 
a level that is consistent with both an acceptable readiness risk and 
the sustainment of the AVF, and we are compelled to do so by addressing 
the Total Force as a whole:

        <bullet> Military: While not the largest single element of 
        Total Force costs, our ``per capita'' uniformed costs are 
        typically (by skill) the greatest and, if we have uniformed 
        members in excess of true needs, we also add unnecessarily to 
        our Health Care expenses. Aside from assuring that personnel 
        related costs, such as targeted compensation, yields the best 
        return on investment, we can also ensure that:

                <bullet> Our uniformed personnel requirements are 
                absolutely military essential; where appropriate, we 
                must assign work to other elements.
                <bullet> Our Active and Reserve Force balance is well-
                reasoned.

    Our military pay request for fiscal year 2012 is $154.05 billion 
for 2,269,700 Active Duty, Guard, and Reserve. This does not, however, 
include other costs required for sustaining the AVF.

        <bullet> Government Civilians: While we are not arbitrarily 
        freezing government civilian positions in any particular area, 
        resource constraints have prompted guidance to the Department 
        that any increase to civilian funding levels must be based upon 
        compelling need. Some increases could also be driven by the 
        resultant net Total Force savings, such as:

                <bullet> In-sourcing services if a cost-analysis 
                demonstrates such action would save the Department 
                money.
                <bullet> The conversion of inherently governmental, but 
                non-military essential, positions from uniformed to 
                less costly civilian performance.

    Our civilian payroll for fiscal year 2012 is projected to be $69.9 
billion for 783,702 full time equivalents.
    Contracted Services: This is currently the largest cost element of 
the Total Force. The Department is committed to enhancing it 
understanding of what we contract for and why. We must also look at 
whether the returns justify the investments, and if alternative Total 
Force solutions are less costly. As we have seen in the last decade, 
expenditures on contracts have steadily increased, and as an element of 
the Total Force, must be comprehensively reviewed to ensure necessary 
reductions do not risk readiness and the delivery of critical 
capabilities. The congressionally-mandated Inventory of Contracts for 
Services must continue to be improved so that it can be used by 
managers for these purposes.
    In accordance with the National Defense Authorization Act (NDAA) 
for Fiscal Year 2011 and recent appropriations bill, OUSD P&R is 
working with all DOD organizations, to move towards collecting data 
from the private sector firms providing services for the Department. 
Preliminary guidance is currently in coordination. In the past few 
years, we have seen the Army make judicious and highly cost-effective 
decisions regarding contracts governance by relying on both their 
inventory process and internally-developed information system. OUSD P&R 
is engaged to assist the Departments of the Navy and Air Force, to 
enhance their service contracting governance ability by leveraging the 
Army system as directed in the fiscal year 2011 appropriations bill; 
and to also assist the Defense Agencies and Field Activities as they 
report their plans to collect this information.
    The components are currently compiling what will be an improved 
fiscal year 2010 Inventory of Contracts for Services that is due to 
Congress by June 30. We will continue to work with Congress to make 
further progress in this important effort.
    The Department is expanding the procedures it uses to determine 
military and DOD civilian manpower requirements to provide a single, 
coherent process for determining ``total force requirements''--i.e., 
requirements for military and DOD civilian manpower and contract 
services. Having visibility of future total force requirements will 
enhance strategic planning throughout the Department.
    To achieve our critical missions in support of the Warfighter, I am 
focused on several key priorities. My top priority is the future 
sustainment and enhancement of the Military Health System and Wounded 
Warrior Support to ensure quality health care for our servicemembers, 
their families and retirees. In addition to the specific initiatives 
included in the Department's fiscal year 2012 budget, I believe we need 
to do a `deeper dive' into healthcare reform, to include Wounded 
Warrior support. The four azimuths for this `deep dive' into healthcare 
reform are to assure readiness; improve population health; enhance the 
patient experience of care; and responsibly manage the cost of care.
    My second priority is to look at how we support our military 
families, with an emphasis on education--both for our children and 
spouses. Given the hardship and stress put on military families due to 
frequent moves, I believe it is imperative that military children and 
spouses have the best educational opportunities. The third priority 
focuses on our civilian workforce, to include civilian hiring, career 
and leadership development, support for our Civilian Expeditionary 
Workforce, and the transition to a more systematic approach to fully 
integrate civilians in Total Force planning and requirements. In 2010, 
the Department made positive and meaningful progress toward reforming 
its civilian hiring practices. Nevertheless, I continue to push hiring 
reform towards an aggressive reduction in the number of days it takes 
to hire a civilian employee. I am increasing our emphasis on a civilian 
competency development framework, enhanced leadership development 
programs, and senior executive talent management initiatives. Also, my 
efforts continue to effectively source expeditionary mission challenges 
with a ready, trained, and cleared civilian workforce. Finally, my 
overarching focus as the USD(P&R) is Readiness and Relevance. Each day 
I strive to work to ensure that we do all we can to gain and maintain 
readiness of the Force, while remaining the most relevant in everything 
we do to help our warfighters and their families.
    As the designated proponent of the Total Force for DOD, and as I 
look across the enterprise within Personnel and Readiness, one of the 
challenges that I have confronted is to ensure that I have the proper 
cognizance over the resources necessary to support our workforce, and 
most especially our warfighters and their families. To accomplish this, 
I have undertaken a number of tangible steps to ensure thorough 
oversight of resource and financial management at the OUSD(P&R) level. 
My financial oversight responsibilities as the USD(P&R) represent 
nearly $40 billion in direct DOD resources. With responsibility for the 
management of manpower for the DOD Total Force (with associated 
military and civilian personnel and contracted services costs) I also 
must ensure that I provide effective policy direction that supports 
pay, allowances, and other programs that constitute nearly two-third of 
the overall DOD budget.
    I will address funding for separate programs under the purview of 
the Office of the Under Secretary of Defense for Personnel and 
Readiness for fiscal year 2010-2012 as appropriate, while allowing the 
Assistant Secretaries of Defense for Reserve Affairs and Health Affairs 
to address Reserve component and the Defense Health Program funding 
levels within their respective written statements. The Under Secretary 
of Defense for Comptroller will address the fiscal year 2012 Military 
Health Care efficiencies within his own statement.
                            active component
Recruiting
    For the second year in a row, all active Services not only met 
their numerical recruiting goals, but also exceeded their recruit 
quality targets--with highest marks since 1992. Previous years were 
marked by a growing economy, low unemployment, reluctance of 
influencers of youth (e.g., parents and teachers) to recommend military 
service, low propensity among youth to serve in the military, and 
increased recruiting goals of the Army and Marine Corps to support 
overseas contingency operations. Even in that demanding recruiting 
environment, the All-Volunteer Force (AVF) proved itself successful, 
with the Services meeting or exceeding recruiting goals since 2005.
    In fiscal year 2010, the Services exceeded their recruiting goal of 
165,000 by 434, accessing 160,601 first-term enlistees and an 
additional 4,833 individuals with previous military service. Thus far 
this year, active duty recruiting efforts show continued success. 
Through March, all Services met or exceeded both quantity and recruit 
quality objectives for the Active-Duty Force. The Army recruited 34,264 
new soldiers, with a 33,600 recruiting goal, for a 102 percent year-to-
date accomplishment rate (Table 1). Notably, for the third year in a 
row, the Army is exceeding the DOD Benchmark of 90 percent of new 
recruits being High School Diploma Graduates, with 100 percent of Army 
recruits holding that credential year to date. Additionally, the Navy, 
Marine Corps, and Air Force are each exceeding these benchmarks as well 
(Table 1.)
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    While we have had, and continue to have, recruiting success, I do 
not take these recent successes for granted, nor do I assume the 
current favorable recruiting environment will continue. Already we are 
seeing growth in the economy and positive changes in the labor market, 
which historically present challenges to recruiting. There also are 
long-term trends that are disturbing. Although the overall youth 
population is large, only a relatively small proportion of American 
youth is qualified to enlist. It is an unfortunate fact that much of 
the contemporary youth population is currently ineligible to serve. 
Medical disqualification, with obesity a large contributing factor, 
removes about 35 percent, drug or alcohol abuse removes about 18 
percent, and almost another 23 percent do not meet our enlistment 
standards for reasons including criminal misbehavior, low aptitude 
scores, or having more dependents than can reliably be accommodated in 
their early career.
    Adding to these, other factors affecting recruiting efforts are 
that only about 75 percent of our young people graduate with a high 
school diploma; high numbers of youth going to college directly from 
high school; and continuing concerns about overseas contingency 
operations with its associated high operations tempo. Acknowledging and 
understanding these factors and the need to expand our recruiting areas 
for the Active and Reserve components, we continue to enhance DOD 
influence in underserved communities by working with local school 
administrators, specifically from Title I school districts, and 
implementing programs like the DOD Science and Technology Academies 
Reinforcing Basic Aviation and Space Exploration (STARBASE) Program 
that have potential long-term impacts on students' on-time high school 
graduation; college enrollment; and interest in learning science, 
technology, engineering and mathematics. DOD STARBASE is an outreach 
and educational program that focuses on science, technology, 
engineering, and mathematics (STEM) by providing students 
underrepresented in the STEM areas of study and careers with 25 hours 
of instruction through an inquiry-based curriculum with ``hands-on, 
minds-on'' experiential activities and exposing them to military's 
technological environment to solidify their attachment to and 
engagement with learning. In addition, we are working collaboratively 
with State Governors by sharing resources and supporting programs like 
the National Guard Youth Challenge Program, to provide at risk youth--
16-18 year old high school dropouts--with the values, life skills, 
education, and self-discipline necessary to succeed as productive 
citizens.
    It is important that we have a military that reflects the society 
it defends, both in the enlisted ranks and our commissioned officers. 
This is particularly important as less than 1 percent of the American 
public serves in uniform. To that end, we are pleased that some of our 
most prestigious colleges and universities are now re-thinking their 
previous positions with regard to Reserve Officers Training Corps 
(ROTC) programs. This will provide more opportunities for college 
students to think about seeking commissions in the U.S. military.
    To meet these challenges, we continually review our recruiting 
programs to align funding and policies with current realities. Each of 
the Services has made significant adjustments to recruiting programs in 
light of our austere fiscal environment, and continues to look for 
additional cost savings--but we must be cautious and resist the 
temptation to cut too deeply and too fast. Stable and adequate 
investments in recruiting resources are necessary to maintain our long-
and force management needs, history has shown that the time required to 
redeploy advertising/marketing campaigns and/or qualified recruiters is 
significant. I cannot emphasize this imperative too much. Additionally, 
the Department and the Services must retain the flexibility to manage 
their recruiting programs with the resources provided. Along with a 
core mission of providing essential market research to the Services, 
Joint Advertising, Market Research and Studies (JAMRS) also projects 
the Department-level message to influencers (parents, teachers, 
counselors, and coaches), a group that serves as a primary source of 
advice for enlistment age youth, a message that needs to continue. I 
feel that JAMRS is one of our most cost-effective recruiting programs.
    The Montgomery GI Bill (MGIB) has been a cornerstone of our active-
duty military recruiting efforts since 1985, and a major contributor to 
the success of the All-Volunteer Force. We are now in the second year 
of the new Post-9/11 GI Bill, the most extensive restructuring of post-
service education benefits since the introduction of the original World 
War II GI Bill. The Post-9/11 GI Bill appears to enhance our recruiting 
efforts even more. We hope that the provision in the new program that 
allows career servicemembers to transfer their unused GI Bill benefits 
to immediate family members, long requested by both members and their 
families, will mitigate negative retention impacts. Early results look 
favorable, with over 180,000 career servicemembers already approved to 
share their earned educational benefits with their family members. We 
are monitoring the effects of this implementation very closely to gauge 
impact on retention, particularly first-term retention.
    As usual, we appreciate this Committee's untiring support of our 
recruiting programs and look forward to working together to ensure 
future success.
Military Decorations and Awards
    The Department continues to work in concert with the Services to 
appropriately recognize and laud the accomplishments, both valorous and 
non-valorous, of our soldiers, sailors, marines, and airmen. In today's 
All-Volunteer Force, appropriately recognizing the accomplishments of 
our servicemembers, while simultaneously maintaining the time-honored 
prestige of our most revered military decorations, is fundamental to 
maintaining esprit-de-corps and a motivated force.
    The Department is committed to recognizing the valorous acts of our 
Service men and women. The President of the United States awarded the 
Medal of Honor to U.S. Army Staff Sergeant Salvatore Guinta last 
November for his conspicuous gallantry during Operation Enduring 
Freedom. The Department is diligently processing additional Medal of 
Honor nominations for the President's consideration, including 
nominations for other living servicemembers. Additionally, the 
Department recently completed its review of the Medal of Honor award 
process as requested by the House Armed Services Committee.
Force Management
    Of the many possible futures that could come to pass in the next 5 
years, the Department may find itself faced with force management 
challenges that are far greater than those we have experienced since 
September 11. Ongoing operations in Iraq, Afghanistan, and elsewhere, 
budgetary pressures, urgent equipment reset and modernization needs, 
economy-driven retention fluctuations, changing acquisition schedules, 
and the turmoil in the Middle East will each contribute to the need for 
a force that is potentially far different from the one that exists 
today. Responsibly managing the required force reduction, while 
ensuring our warriors are properly transitioned to veteran status, is a 
responsibility taken very seriously and one which my organization is 
helping to facilitate. In this instance, more than most, the cliche is 
appropriate; the Department must ensure we have the right people, in 
the right place, at the right time.
    As part of our ongoing efforts, DOD is examining different exit 
strategies to achieve the necessary force drawdown to realize the 
Secretary's and the Services' agreed upon budget reductions, while 
doing so with the full appreciation for the sacrifices of the soldiers, 
sailors, airmen, and marines on behalf of our Nation. Maintaining 
readiness while humanely reducing our force structure will be the major 
challenge in the years ahead.
    The Department has proven itself adept at maintaining the All-
Volunteer Force through two major conflicts. There are significant 
incentives to bring in and retain the right force mix of personnel. The 
area where we could use your help is in creating a system of force 
management tools focused on a means to compassionately reduce the force 
as operations subside. These tools, some of which have previously 
expired in law, provide the necessary flexibilities to transition the 
Department from a fully engaged footing to one of more routine 
engagement around the globe. Drawdown programs and strategies provide 
targets to create a more balanced force and ensure we retain the right 
skills and talent to be a more productive and agile force able to meet 
emerging needs.
    DOD will need to maximize use of existing statutory authorities and 
potentially propose new authorities to surgically shape the force. Our 
current authorities do not provide the level of fidelity required to 
target career fields for early retirement or early discharge boards. 
This will be necessary to address future force shaping needs to meet 
dynamic changes in missions resulting from an ever-changing 
environment. Having a range of options to grow or reduce the force in 
specific skill areas is vital to the full spectrum of missions. The 
large standing armies of the past had an inherent ability to react to 
emerging threats by leveraging mass against new demands. This depth, 
which served to mitigate risk, will not be present in the future force. 
Reduced numbers equates to reduced redundancies. Accession, retention, 
and development decisions will need to be targeted with unprecedented 
fidelity in a constrained budget environment.
    The bottom line is that the Department must aggressively manage a 
precise, surgical drawdown of the force to ensure readiness is not 
impacted, our warriors and their families are protected, and the 
military departments and combatant commands are able to meet their 
missions in a hyper-dynamic global environment.
Retention
    Throughout this force adjustment, retention will be critical. Even 
during peak operations in Iraq and Afghanistan, the Department 
continues to be very successful in attaining enlisted retention goals. 
All Active components met or exceeded their respective retention goals 
in every measurable category. The Services and the Department 
anticipate continued success in the upcoming year and are already 
meeting or exceeding the monthly goals for early fiscal year 2011.
    Despite the overall strength of enlisted retention over the last 
few years, there remain critical shortages in many low density/high 
demand skills and other ``hard-to-retain'' skills, such as explosive 
ordnance disposal specialists, linguists, intelligence and 
counterintelligence analysts, and pararescue operators, that justify 
the continuation and application of the statutory bonus authorities. 
The Selective Reenlistment Bonus (SRB) and the Critical Skills 
Retention Bonus (CSRB), as authorized by 37 U.S.C. 308 and 37 U.S.C. 
355 respectively, are among the most effective as incentives to 
attract/retain qualified personnel in critical military specialties.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The Department's process to manage bonuses is very well defined. A 
skill is critical if it meets one or more of the following: (a) 
technical skills requiring high training and/or replacement costs; (b) 
skills in high demand in the civilian sector; (c) challenging to 
recruit into; (d) crucial to combat readiness or capabilities; and (e) 
low density/high demand (those skills that are in high demand for 
current operations yet are low density due to less requirements during 
peacetime). All requests from the Services must have substantive 
justification that clearly outlines the need for the bonus for that 
skill, payment amount and method, and expected retention results. 
Designations do not exceed 3 years unless provided for by congressional 
extension of the statutory bonus authority. The complementary authority 
of the CSRB is the Selective Reenlistment Bonus (SRB). The SRB is under 
the authority of the Service Secretaries and is not centrally managed 
by the Department. However, applications of the bonus authorities are 
reviewed at the Department level.
Stop Loss
    As of March 18, 2011, all Services reported there are no designated 
specialties being held under the provisions of Stop Loss. There are 
approximately 162 soldiers still receiving ``Stop Loss Special Pay.'' 
These soldiers sustained injuries or illnesses while subject to Stop 
Loss and are currently receiving medical treatment. They are assigned 
or attached to Warrior Transition Units (WTUs).
    Two Stop Loss Special Pays have been enacted, which allow a payment 
of up to $500 per month, for members whose service (retroactive to 
September 11, 2001) has been extended by use of the Stop Loss 
authority. These pays were appropriated and authorized by Congress, and 
enacted by the President to recognize the significant sacrifices made 
by soldiers, sailors, airmen, and marines since September 11. The 
Department implemented both pays, active and retroactive, and 
appreciates the support of Congress to compensate members for the 
unique circumstances presented by the use of this policy, while still 
preserving our ability to react with discretionary authority as 
dictated by future circumstances. The Department estimated 145,000 
individuals are eligible for the Retroactive Stop Loss Special Pay 
Program and, as of April 15, 2011, we have paid approximately 90,000 
personnel, totaling more than $325 million. The Services and the 
Department used the additional time Congress provided to continue to 
engage in extensive and persistent outreach initiatives. Additional 
interviews were conducted with the military interested press and 
national media. The Army sent certified direct letters to remaining 
veterans that did not respond to previous notification efforts. We also 
reached out to recipients of Post-9/11 GI Bill education benefits 
through Veterans Benefit Administration (VBA) and Associate 
Organizations (Joint Hometown News, Guard and Reserve Public Affairs, 
and ROTC detachments). We will continue to seek media coverage 
opportunities to remind those eligible to apply. Additionally, the 
extensions of the 2011 budget Continuing Resolution has allowed the 
Department to receive more than 16,000 additional claims from our brave 
service men and women. The deadline for eligible servicemembers, 
veterans and their beneficiaries to apply for Retroactive Stop Loss 
Special Pay has been extended to October 21, 2011, allowing more time 
to those eligible apply for the benefits they've earned under the 
program guidelines.
    We thank you for your support in recognition of their sacrifices.
End Strength Management
    Meeting end strength is a priority of the Department. The table 
below depicts the fiscal year 2010 Active Duty authorizations 
(prescribed and actual) and fiscal year 2011 authorized levels which 
the Department intends to achieve in order to meet all of its current 
mission requirements. The Secretary of Defense has authority granted 
under the terms of the President's National Emergency declaration to 
increase statutory strength levels prescribed by the NDAA if needed to 
meet a specific mission. The Services have implemented recruiting, 
retention, and force shaping policies and programs to achieve end 
strengths for fiscal year 2011. These end strengths will provide the 
ground forces needed to meet the strategic demands, eliminate the need 
for the use of Stop Loss, and mitigate persistent capability shortfalls 
which will reduce stress and demands on servicemembers and families by 
increasing dwell time.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
Women in Combat
    Another force management issue is Women in Combat. The Department 
is in the process of reviewing, in coordination with the military 
departments, the laws, policies, and regulations, including the 
collocation policies, which restrict the service of female members in 
the Armed Forces. The review is timely, in that the Military Leadership 
Diversity Commission's (MLDC) final report to the President and 
Congress, released earlier this month, included a recommendation 
regarding the Department's combat assignment policy. Additionally, the 
review coincides with the Army's ongoing consideration of its policy 
that precludes collocating female soldiers with units below the brigade 
level whose primary mission is to engage in direct ground combat. Both 
will serve to help inform the Department's judgment on this issue and 
our response to Congress.
    The Department looks forward to providing Congress with the results 
of the extensive review of all gender-restrictive policies upon 
completion, as required. Of course, such a comprehensive and expansive 
review, of such a longstanding time-tested policy, especially during a 
period of ongoing combat operations, must be conducted deliberately and 
methodically, but without delay.
Sexual Assault Prevention and Response (SAPRO)
    The Department's position on sexual assault is clear: One sexual 
assault is one too many.
    The department-wide policy on sexual assault prevention has been in 
place since 2005. In just this past year alone, we have made 
significant strides to prevent and respond to this crime. But we know 
we must do more.
    Since 2006, the rate of reported unwanted sexual contact has been 
reduced by one-third, dozens more investigators, field instructors, 
prosecutors and lab examiners have been hired; more and more victims 
are stepping forward to report assaults and the percentage of alleged 
sexual assault offenders facing court-martial proceedings has 
increased. Funding levels over time for SAPRO are reflected in Table 4, 
below.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    While efforts are beginning to pay off, there is still work to do 
to integrate and improve our efforts. Please know I take this issue 
very personally and am committed to addressing it swiftly and 
comprehensively. Preventing sexual assault within our military is a 
leadership responsibility, and we must all be held accountable for 
eliminating it from our ranks.
Repeal Don't Ask, Don't Tell
    On 22 December 2010, the President signed the enactment of the 
repeal of 10 U.S.C. Sec. 654, ``Policy concerning Homosexuality in the 
Armed Forces.'' Subsequently, the Secretary of Defense directed me to 
lead the implementation process for the Department.
    As the Secretary testified, the Department is committed to 
executing this change in a purposeful and responsible manner. By 
organizing a DOD Repeal Implementation Team, we have been able to 
synchronize the implementation of all the Services' policy changes, 
education and training, and communication strategies. It is important 
that we implement this change in law at once across the Department. 
Directed by the Secretary of Defense's Terms of Reference, the Repeal 
Implementation Team has ``operationalized'' the Comprehensive Working 
Group's Support Plan for Implementation and signed policy changes on 
January 28, 2011, and delivered standardized training materials to all 
Services on February 4, 2011. The predominant form of training will be 
by commanders and leaders, but the Services will also use various forms 
of training including Mobile Training Teams, Chain Teaching, Computer-
Based Training, Digitally Assisted Training, or combinations of these 
techniques. The Department has purposefully told the Services to take 
the time necessary to get this done right, but not 1 minute more. As a 
result, the Services are carefully executing a deliberate and thorough 
roll out of the necessary training. The timing for each will vary due 
to their size, operational schedules and the most efficient and 
effective methods to deliver the training. Of note is the fact that 
each of the Services has completed their review of policies and has 
begun delivering training.
    Rest assured, we are committed to making this historic change in a 
timely manner that is consistent with standards of military readiness, 
effectiveness, unit cohesion, and recruiting and retention of the Armed 
Forces.
Compensation
    The Department continues its strong commitment to provide a secure 
standard of living and quality of life to those who serve in uniform, 
while at the same time balancing the demands of an All-Volunteer Force 
engaged in hostilities around the world. Our budget requests reflect 
this commitment. Soldiers, sailors, airmen, and marines continue to 
express healthy satisfaction with the full pay and benefits the 
Military Services provide. The generosity of current military pay and 
benefits has generated high retention across each of the Military 
Services. This has occurred despite the stresses and burdens associated 
with the high deployment tempo and partially because of the current, 
challenging economy. As a result, today's military compensation 
compares very well with that in the private sector.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Over the past decade, the Department and Congress together have 
faced a host of challenges in ensuring military compensation remains 
adequate to recruit and sustain America's All-Volunteer Force. A little 
over a decade ago, the Department did not always meet its recruiting 
and retention goals. The success of our combined efforts in improving 
the competitiveness of military compensation over the past several 
years resulted in the current and sustained success across each of the 
Services in meeting or exceeding overall recruiting and retention 
goals.
    To ensure tomorrow's military remains as ready and capable as it is 
today, we must not take for granted today's recruiting and retention 
successes. Yet, at the same time, the Department recognizes the intense 
fiscal pressures the country faces and the need to control rising 
personnel costs. The Department is committed to efficient spending of 
the appropriation authorized for personnel. Through a comprehensive, 
holistic approach, the Department intends to leverage its compensation 
tools to sustain recruiting and retention success while also 
restraining entitlement growth.
    Ensuring tomorrow's high-quality military also requires the 
Department to advocate for maintaining military compensation at levels 
competitive with the private sector. Highlighting this commitment to 
our personnel, in the fiscal year 2012 budget the Department requested 
an increase in military basic pay for all servicemembers of 1.6 
percent, which equals the earnings increase seen in the private sector 
as measured by the annual change in the Employment Cost Index.
    In the search for budget cuts and efficiencies, many groups, such 
as the National Commission on Fiscal Responsibility and Reform, the 
Defense Business Board, the Government Accountability Office, and 
others have compared military and private sector compensation, noted 
differences in the structure of compensation packages, and offered 
advice and suggested changes. We know the military is different from 
the private sector. Military compensation has evolved over time and is 
successfully recruiting and retaining today's military force. In the 
search for efficiencies, all areas, including compensation, need to be 
continually reexamined.
    One area we are in the midst of examining is the Department's use 
of Imminent Danger Pay. Together with the Military Services and the 
Joint Staff, we are reviewing all locations currently designated as 
eligible for the pay. As part of that review, we are considering 
alternatives to the current Imminent Danger/Hostile Fire Pay structure 
that differentiate payments based upon varying levels of danger or risk 
as well as proximity to combat.
    As you may already know, the President tasked the 11th Quadrennial 
Review of Military Compensation (11th QRMC) to review four areas: 
combat compensation; compensation and benefits for the National Guard 
and Reserves; compensation for wounded warriors, caregivers and 
survivors; and incentive pays for critical career fields, specifically 
mental health professionals, linguist/translators, remotely piloted 
vehicle operators and Special Operations Forces. Additionally, the QRMC 
is assessing where military compensation ranks compared to the private 
sector.
    This QRMC was given an unusually short period in which to conduct 
its review and develop recommendations. It has 1 year to complete the 
review (which began in May 2010) and is required to preview its 
recommendations with the White House prior to completing the review.
    Although some additional analysis is still required, the research 
institutions supporting the QRMC provided their initial assessments to 
the QRMC. Based on that research, the QRMC has developed its initial 
findings and preliminary recommendations, which are being sent to the 
White House.
    It would be premature for me to discuss possible recommendations 
until they have been delivered to the White House. But I think I can 
safely say that the QRMC is finding that improvements could be made in 
how we compensate those sent into combat and how we compensate the 
Guard and Reserve that is more consistent with their current and future 
use. Once the recommendations have been delivered to the White House, 
the QRMC plans to brief the committee's staff on its findings and 
recommendations, and will be available to answer any questions.
    One area where we have noted success is in targeting special and 
incentive pays and bonuses. Unlike broad and expensive across-the-board 
basic pay increases, these pays provide us the flexibility to narrowly 
and efficiently target specific skills, occupational specialties, 
experience, and the quantity and quality of personnel filling those 
positions. At less than 5 percent of the military personnel budget, 
these efficient, targeted pays provide a significantly greater impact 
on the ability of the Department to meet its personnel needs. The 
amount spent on these pays has declined, especially when compared to 
previous expenditures. As we continue our search for efficiencies, we 
will continue to rely on the effective and efficient use of these pays.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Overall, the state of military compensation is healthy, and it 
contributes mightily to our success in achieving our recruiting and 
retention goals, after almost a decade at war. As we look forward, the 
Department continues to focus on restraining the growth of mandatory 
entitlements while leveraging cost-effective discretionary pays and 
bonuses. The Department is committed to carefully managing both the 
compensation tools and the resources provided by Congress and 
continuing to search for efficiencies throughout the compensation 
system.
Travel Simplification and Transformation
    Although the Military Services and defense agencies attempt to be 
good stewards of taxpayer dollars while meeting their mission 
requirements, their efforts are complicated by layers of law, appellate 
decisions, and regulatory oversight pertaining to travel. Over a period 
of approximately 60 years, title 37 travel authorities have become 
overly detailed and prescriptive, seemingly covering almost every 
travel situation. An unintended consequence is that new legislation is 
required to address new travel situations, such as travel authorities 
for those caring for wounded warriors or for those accompanying 
servicemembers to Yellow Ribbon events.
    To simplify travel, we believe that the travel authorities that 
exist today should be considered for consolidation and reform. This 
will allow us to streamline travel and to look for ways to consolidate 
and replicate rule sets that garner efficiencies for the Department. 
Initiatives such as elimination of receipts, simplifications of 
allowances, and others have the potential to provide the Department 
with efficiencies that will generate a savings without having the 
traveler bear the burden of the cost. Further, travel efficiencies can 
result from both a reduction of direct and indirect costs. Direct costs 
are the outlays for the conduct of travel, such as lodging and 
transportation. Indirect costs include outlays for managing the travel 
enterprise, such as the administrative costs of processing complex 
travel vouchers. With more flexible statutory authorities, the 
Department would be better able to leverage private sector practices. 
We are confident this will result in simplified travel rules for the 
traveler, reduced outlays for the Department, and increase mission 
flexibility for leaders.
    This transformational endeavor is being overseen by the Defense 
Travel Management Office, the single focal point for commercial travel 
within DOD. The DTMO brings visibility and coherence at the enterprise 
level, and partners across the government and private sector to 
maintain an in-depth perspective of the travel industry and to 
determine the best practices and standards for DOD travel.
                           reserve component
Envisioning the Reserve Component as Part of the Operational Force
    During a decade of sustained engagement in combat operations, the 
Reserve components (RC) of our Armed Forces have been transformed, from 
a strategic force of last resort to an operational Reserve Force that 
provides full-spectrum capability to the Nation in addition to its 
traditional role as a Strategic Reserve. Repeated combat deployments, 
as well as peacekeeping and humanitarian relief missions, have produced 
an operationally resilient force that fully expects to be employed on a 
periodic basis. This new force represents a 10-year investment in 
resourcing commitments and the personal sacrifice of servicemembers and 
their families. That investment can reliably provide DOD with essential 
operational capabilities and strategic agility. Good stewardship 
demands that we continue to capitalize on this investment in order to 
maintain Guard and Reserve readiness, relieve stress on the Active 
component, and provide force structure options in a resource 
constrained future. Representing the views of numerous stakeholders 
across the entire Department, the QDR-directed Comprehensive Review of 
the Future Role of the Reserve component provides a foundation upon 
which to build a cohesive execution strategy that preserves current 
Total Force competencies, efficiently integrates multiple capabilities, 
and leverages Reserve component value.
    1. Readiness Requirements
    The fiscal year 2012 budget request supports the Ready Reserve, 
including the Individual Ready Reserve, totaling about 1.1 million 
members, and contributing 43 percent of the total military end strength 
at a cost effective level of 9 percent of the total base budget. To 
maintain the Guard and Reserve as an integral part of the Operational 
Force into the future and ensure these forces are ready and available 
when needed, we must: (1) program the training and use of the Reserve 
components into Service base budgets; (2) continue to use supplemental 
funding to deploy the Reserve component for contingencies; and (3) 
develop a national strategic communication plan that explains to the 
American people why the Guard and Reserve are important to the Nation 
and how the Department plans to use those forces in the future.
    2. Continuum of Service, End Strength and Readiness Management
    Meeting Reserve component end strength objectives is a priority of 
the Department. The table below depicts the current prescribed and 
actual end strengths for the Reserve components. The Department's 
Continuum of Service efforts have contributed to the six DOD Reserve 
components remaining within the variance allowed for their 
congressionally-mandated end strength objective. The Services have 
implemented recruiting, retention, and force shaping policies and 
programs to achieve end strengths for fiscal year 2011. We appreciate 
the congressional support of the fiscal year 2011 end strength levels 
and the legislative initiatives that assist in recruiting and retaining 
Reserve component servicemembers. These end strengths will provide the 
Reserve components the forces necessary to meet strategic demands while 
maintaining a dwell consistent with Departmental policy.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Personnel and medical readiness continue to be a priority for the 
Department. Of the end strength figures outlined above, approximately 
72,000 are in the training pipeline for the Reserve components and are 
not immediately available for mobilization. Additionally, as of the 
first quarter of fiscal year 2011, the RC has a Fully Medically Ready 
rate of 63 percent, which is below the DOD goal of 80 percent. The 
lower RC Medically Ready rate is due to a significant number of members 
who are deemed Not Medically Ready (17 percent)--disqualifying dental 
condition is the principal factor. However, DOD is diligently working 
to make medical and dental services more available to RC members, and 
as of the first quarter of fiscal year 2011, all components have met or 
exceeded the Dental Readiness goal of 75 percent, which will have a 
positive impact on overall medical readiness.
    3. Dwell, Stress on Force
    The RC provides an operational capability and strategic depth in 
support of the national defense strategy. It is imperative that 
predictability in the use of RC forces be maximized. On January 17, 
2007 the Secretary of Defense established planning objectives for 
involuntary mobilization of Guard and Reserve units at 1 year mobilized 
to 5 years dwell time (1:5). Today's global demands require a number of 
selected Guard/Reserve units to be remobilized sooner than this 
standard. The intention is that such exceptions will be temporary and 
that we move to the broad application of 1:5 as soon as possible. 
Exceptions to policy began at the 1:4 threshold and for the past 6 
months 10 percent of the members involuntarily mobilized have had less 
than a 1:4 dwell. This trend has consistently improved since the policy 
was established. This is due in part to widespread volunteerism and 
Service management of deployment cycles.
Training and Recruiting the Reserve Component as Part of the 
        Operational Force
    The Regional Integrated Training Environment (RITE) Concept is a 
joint effort that identifies and matches Services' training 
requirements to a vast network of local training facilities and 
resources. The purpose of the RITE initiative is to help sustain the 
total force readiness posture and surge capability as determined by 
service rotational readiness models while reducing overhead training 
costs through innovative management of facilities, training assets, 
advance simulators and Joint Virtual Live and Constructive (JLVC) 
capability, pooled, shared equipment, and coordinated through a web-
based scheduling/visibility program. As the concept matures, 
collaboration will expand with key internal and external DOD 
stakeholders.
Employing a Rotational Reserve as Part of the Operational Force
    Every day for the past 9 years over 20,000 Reserve component 
servicemembers have served on active duty as volunteers. These 
individuals have the time and life style situation to serve more than 
the 1 weekend per month and 2 weeks per year that have long been 
considered standard for Guard and Reserve personnel. The Department 
should adopt methods to leverage this willingness to serve in order to 
fulfill the part-time and temporary demands of its combatant commands, 
major command headquarters, and the Defense agencies. One of several 
options to institutionalize differentiated service in the Reserve 
component is for DOD to create Reserve component units staffed by 
personnel willing to serve more frequently or for longer periods of 
time in order to support such tasks as Theater Security Cooperation, 
Building Partner Capacity, HD, Defense Support to Civil Authorities, 
and the Services' institutional support missions. Service in these 
units would be voluntary; the member would join knowing full well the 
conditions of service. Realizing a differential service commitment 
would require the development of contracts or agreements that would 
commit willing Guard or Reserve members to serve in units requiring 
higher rates of mobilization or access. This type of differential 
service commitment has been in use successfully in high optempo units 
such as aviation for some time, but with the Reserve component now 
playing a larger role in many ongoing mission areas, expanded 
utilization of differential service contracts would be beneficial. Such 
differentiation within the Reserve component would provide an 
additional sourcing option for units, teams, and personnel for 
contingency operations or emergencies.
    Future planning envisions an era of persistent conflict where some 
type of RC activation authority will be required to augment the AC to 
maximize effectiveness and efficiency of the Total Force. At present, 
we have sufficient authority to mobilize RC forces, however, as 
directed (by the Senate Armed Services Committee conference report S. 
Rept. 111-201, page 138) we have analyzed our access authorities to 
support long-term utilization of the RC as part of the operational 
force. We foresee an authority gap when the Nation is faced with 
persistent demands on the Total Force but does not have specific 
operational missions, a national emergency or war situation. This 
authority gap exists for some, but not all, of the full spectrum of 
military missions, including training, security force assistance and 
building partnership capacity, that our RC is specifically well suited 
to perform as a complementing part of the Total Force. We are reviewing 
potential changes to existing statute to close this authority gap to 
further increase dwell for the Active component while maintaining RC 
readiness.
Reintegrating and Continued Care of the Reserve Component as Part of 
        the Operational Force
    1. Resilience Training & Preparation
    Resiliency is at the core of the Yellow Ribbon Reintegration 
Program (YRRP) mission. Since its inception in 2008, there has been an 
ever increasing focus on resiliency building and training for the 
National Guard and Reserve Forces. In response to growing awareness 
regarding the connection between post-traumatic stress (PTS), substance 
abuse, criminal activity or suicide and ``bounce back'' ability, 
Reserve component (RC) members and their families are being offered 
training to enhance their resiliency skills. The RCs have incorporated 
resiliency skills into their training protocols which are available to 
activated servicemembers. The objective of the YRRP is to ensure the 
readiness and well-being of National Guard and Reserve servicemembers 
and their families by providing dynamic events, information, services, 
referrals, and proactive outreach opportunities throughout the entire 
deployment cycle.
    Resilience training, one component of a comprehensive program, has 
been added to assist members of the Armed Forces with building mental 
and emotional resiliency to successfully meet the demands of the 
deployment cycle. YRRP staff members have attended Service and DOD-wide 
training events and are scheduled to attend additional sessions in 2011 
to ensure the unique requirements of the National Guard and Reserve are 
incorporated into the resilience training approach.
    As part of the YRRP, services and information that foster 
resiliency are provided at the pre-deployment, during deployment, and 
the 30, 60, 90 day post-deployment events. The Yellow Ribbon 
Reintegration Program implemented a Cadre of Speakers program, hiring 
facilitators who specialize in resilience training and who are 
available to YRRP event planners across the country. These facilitators 
also work with Military and Family Life Counselors and chaplains to 
provide critical support around resilience issues at YRRP events, 
ensuring individual assistance is available for each family or 
servicemember as required.
    Additionally, other sessions and resources focus on marriage and 
children, substance abuse awareness, financial counseling, anger 
management, employment assistance and Department of Veterans Affairs' 
information regarding benefits and medical care eligibility. To find an 
event or additional resources, a RC member, commander, planner, or 
family member can access information at http://www.yellowribbon.mil/.
    2. Family Programs
    In both the Active and Reserve components, servicemembers and their 
families have made tremendous sacrifices for our Nation and they 
continue to do so. Guard and Reserve families rely on their local 
leaders and communities for support. DOD and its partners in 
governmental and non-governmental organizations have worked to 
coordinate support systems and communicate available resources to our 
servicemembers and their families. We all know that the work to 
strengthen and support military families is never complete and DOD 
continually strives to identify gaps in our support and to link 
appropriate community resources.
    Throughout a servicemember's continuum of service, DOD strives to 
put in place a viable support system. A coordinated network of support 
with defined processes serves the needs of military families in 
geographic locations closest to where they reside. Additionally, as 
stated in the Presidential Report on Strengthening Our Military 
Families, there have been positive reviews from States successfully 
implementing a one-stop resource to handle State-wide military family 
issues using Inter-Service Family Assistance Committees (ISFACs). These 
locally-based committees work to build community capacity and 
strengthen networks of support. DOD plans to build on these grassroots 
efforts to benefit geographically dispersed Active, Guard, or Reserve 
servicemembers and families.
    3. Employment Initiative Program (EIP)
    One of the greatest challenges facing our Nation right now is 
unemployment and underemployment, and these related problems are 
especially severe for those in the Guard and Reserve or for those 
leaving active military service. Whether they are soldiers, sailors, 
airmen, coast guardsmen, or marines completing active duty, or members 
of the Guard and Reserve returning from deployment, many of these great 
men and women return home to an uncertain future because of the tough 
job market.
    The promise of a secure job provides servicemembers and their 
families with stability and peace of mind. In the December 2009 Status 
of Forces Survey of Reserve Component Members, servicemembers across 
six of the seven Reserve components (Coast Guard Reserves not included) 
self-reported a 12 percent unemployment rate, although the highest 
unemployment rate across all components was 22 percent among junior 
enlisted troops in the rank of E1-E4. As this data is self-reported, 
many of these younger troops are likely to be students. The total 
number of respondents was 20,238 (from an estimated population of 822k) 
RC servicemembers.
    In accordance with NDAA 2011 requirement to provide transitioning 
servicemembers with employment information, the Assistant Secretary of 
Defense for Reserve Affairs has focused resources on ensuring 
servicemembers have a civilian job that provides stability in their 
civilian life and allows them the time and resources to contribute to 
our national defense by serving in the Guard and Reserve. During fiscal 
year 2010, the YRRP aligned with Employer Support of the Guard and 
Reserve (ESGR) and Family Programs. This was accomplished to create 
synergy and realize efficiencies for the servicemembers and families 
served by YRRP, ESGR and Family Programs' missions. Since ESGR's 
creation in 1972, the focus has been on developing and promoting 
employer support for Guard and Reserve service. In fiscal year 2011, 
ESGR placed additional emphasis on the employment arena and now assists 
servicemembers throughout the entire employment cycle. The current 
employment challenges led to the implementation of EIP.
    The overall intent of EIP is to take full advantage of all ESGR, 
Yellow Ribbon, and Family Programs, in partnership with public and 
private entities, to enhance employment opportunities for 
servicemembers and their families, especially focusing on those 
completing active duty tours and our Wounded Warriors. Of note, ESGR 
possesses a very strong network of over 4,700 volunteers located 
throughout the Nation. EIP will leverage the volunteer network to meet 
the requirements of this mission.
    At the national leadership level, DOD is working in a collaborative 
effort with Federal agencies--including the Department of Labor, 
Department of Veterans Affairs, Small Business Administration and the 
Office of Personnel Management--to create efficiencies, enhance the 
employment process and serve as an effective resource for 
servicemembers and employers. In addition, ESGR has worked with 
specific associations to enhance the overall effectiveness of this 
program. One example is ESGR's work with the Society for Human Resource 
Management (SHRM). The more than 263,000 HR professionals of SHRM are 
instrumental in engaging with employers while determining meaningful 
employment opportunities for servicemembers.
    EIP has a high-tech and high-touch approach. The high-tech approach 
is comprised of the Employer Partnership of the Armed Forces Web site 
www.employerpartnership.org which provides employers with the ability 
to post available jobs and allow servicemembers to post resumes and 
make a job connection. The high-touch approach comes through a series 
of employment related events being conducted with YRRP Events and State 
specific job events.
    ESGR is positioned to meet the challenge of ensuring servicemembers 
have quality civilian job opportunities. Pilot programs conducted in 
fiscal year 2010, consisting of job fairs, transition assistance and 
job training sessions, proved valuable in helping servicemembers at the 
local level. This community-based approach will be a pivotal element in 
EIP as it continues to develop.
                      readiness of the total force
    Military readiness is not an abstract concept that can be reduced 
to colors on a chart--it involves a complex series of factors and 
indicators that must be evaluated and managed carefully. For example, 
our Services are achieving or exceeding their recruiting goals and have 
exceptional retention rates. In addition, the Force is combat 
experienced and proficient in a wide range of operations, including 
irregular warfare and stability operations. However, equipment 
readiness and training for conventional warfare have suffered during 
the same period. It is in this complicated environment that Personnel 
and Readiness works to maintain and sustain the Readiness of the Total 
Force through support to the combatant commanders, as well as the 
military Services.
Readiness and Deployments
    Multiple deployments to Iraq and Afghanistan have increased the 
stress on our servicemembers and their families, and some would argue 
have reduced the readiness of the Department. However, our forces are 
combat experienced and proficient in a wide range of real world 
operations. They are no doubt the best trained and equipped force in 
the world. The All-Volunteer Force is healthy, and our Services are 
achieving or exceeding their recruiting and retention goals with 
quality people. In short, our forces remain ready to execute the 
missions assigned to them by the President.
    We have focused on preparing our ground combat forces for the 
operations they face in Iraq and Afghanistan. This means there is less 
focus on the type of training we have done in the past such as large 
scale ground maneuver warfare (i.e. tank on tank). We can and will 
rebalance this training when needed to make certain our forces are 
prepared to meet the needs of our combatant commanders in a complex and 
uncertain security environment.
    We also carefully manage the dwell time of our forces across the 
Department, and have limited unit deployments and mobilizations to 1 
year. We have also balanced the additional forces for Afghanistan 
against those coming available from the draw-down in Iraq. We are 
meeting the Operation New Dawn responsible drawdown plan goals. The 
Army had 25 Brigade Combat Teams (BCTs) deployed to Operation Iraqi 
Freedom and Operation Enduring Freedom in 2008, 21 BCTs deployed in 
2010, and are projecting to have 50 percent fewer BCTs deployed in 2012 
as compared to 2010. The Army projects the average unit boots on the 
ground to dwell ratio to improve to approximately 1:2 for Active 
component units and 1:4 for Reserve component units in 2012. We are 
making excellent progress toward our dwell goal of 2 or more years at 
home for every year deployed with nearly 70 percent of the Active Force 
meeting or exceeding this goal.
Suicide Prevention
    Suicide prevention is a very important issue within the Readiness 
portfolio. The loss of even one life to suicide is heartbreaking; it 
degrades the readiness of the force and has a profound impact on both 
the unit and the family members left behind. Many factors contribute to 
the suicide rate. One factor relates to leadership. Each Service 
acknowledges the important role that leaders, both officer and NCO, 
play in building resiliency among those under their command. In 2010, 
there were 294 servicemembers who committed suicide while on active 
duty, down from a total of 310 in 2009. While this is not a significant 
decrease, we have arrested the steady increases in overall active duty 
suicides that began in 2006. I believe this is due largely to our 
increasing emphasis on resilience across the Department highlighted by 
programs such as the Army's Comprehensive Soldier Fitness. This program 
is designed to develop and institute a holistic fitness program for 
Soldiers, families, and Army civilians in order to enhance performance 
and build resilience. To date, the Army has trained 3, 253 Master 
Resilience Trainers to facilitate this goal. The other Services are 
developing or enhancing similar programs and benchmarking off the 
Army's success.
    There have been several studies and task force reports (DOD, Army 
and RAND) released over the past year each with multiple observations 
and recommendations. The Deputy Assistant Secretary of Defense for 
Readiness is currently leading a team of senior Officers and Executives 
from the Department in an effort to examine these reports and devise an 
implementation plan based on the recommendations that will enhance our 
suicide prevention efforts across the Department.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
Focus/Highlight RC and RC Suicide Prevention Strategy
    The Army National Guard reported 112 suicides in 2010 (145 total 
with Army Reserve added) which was up significantly from the previous 
year (80 total Army Guard/Reserve), which is a cause for concern. This 
already complex issue becomes even more complex when dealing with our 
Reserve component because of their continuous transition from military 
to civilian life. Nevertheless, the Department is committed to 
addressing this issue in our Reserve component. We currently have a 
Director of Psychological Health in each of our 54 States and 
territories who acts as the focal point for coordinating the 
psychological support for Guard members and their families. The NDAA 
mandated that the Department expand suicide prevention and community 
healing and response training under the Yellow Ribbon Reintegration 
Program. We have made some progress here and are in the process of 
reinvigorating this effort with input from a Reserve Component 
Stakeholder Group comprised of all of the Reserve and National Guard 
components, Reserve Affairs Yellow Ribbon representatives and members 
of the Defense Centers of Excellence. Additionally, we are examining 
``peer-to-peer'' programs, such as New Jersey Vet2Vet, to see what role 
these types of programs can play in reducing suicides.
The Suicide Prevention and Risk Reduction Committee
    The Suicide Prevention and Risk Reduction Committee serves as a 
forum for inter-Service and Veterans Affairs partnership and 
coordination. Chaired by the Defense Centers of Excellence, its members 
include the Suicide Prevention Program Managers from all Services, 
representatives from the National Guard and Reserves, the Department of 
Veterans Affairs, and other key governmental organizations. This 
organization has led the way in standardizing suicide reporting and 
data collection, forming key partnerships, growing the DOD/VA Suicide 
Prevention Conference into a nationally recognized event, and 
addressing several key suicide prevention issues. I plan to continue to 
mature this body, making it more inclusive and effective as a venue for 
collaboration across DOD and Veterans Affairs.
Drug Demand Reduction Initiative
    Illegal and prescription drugs remain readily available to DOD 
servicemembers. The use of illegal drugs and the misuse of prescription 
drugs are both a symptom and problem that fuels the worsening of other 
conditions; such as deployment stress, suicides, and workplace safety 
resulting in degradation of unit readiness. Based on a recommendation 
of the Chairman of the Joint Chiefs of Staff, we are taking a new 
systematic approach to counter an emerging drug abuse problem in the 
military. The Department's current demand reduction approach will be 
expanded to include prescription drug testing and integrated with the 
Readiness Office's suicide and accident reduction efforts. As part of 
this effort, we plan to further target applicant testing, improve 
random drug testing in CONUS and in theater, and expand testing to 
include commonly abused prescription drugs.
Military Leadership Diversity Commission
    The MLDC, mandated by the NDAA for Fiscal Year 2009 and referred to 
as the MLDC, is scheduled to release its final report directly to the 
President and Congress in mid-March 2011. The draft final 
recommendations described on the MLDC public web site provide an 
insight into the content of the final report.
    The draft report reflects over 12 months of work performed by 31 
appointed commissioners in response to the MLDC Charter to conduct a 
comprehensive evaluation and assessment of policies that provide 
opportunities for the promotion and advancement of minority members of 
the Armed Forces, including those who are senior officers.
    Specific recommendations define diversity as individual 
characteristics consistent with DOD core values; require diversity to 
become an institutional priority; make leading diverse groups a core 
competency; and call on Congress to mandate annual DOD diversity 
reports. Other key final recommendations address the following areas:

        <bullet> Retention programs for women
        <bullet> Activities that will expand the pool of qualified 
        candidates
        <bullet> Eliminating the ``combat exclusion policy'' for women
        <bullet> Ensuring transparency throughout the promotion system
        <bullet> Conducting senior-level annual accountability reviews, 
        and
        <bullet> Aligning organizational structures to ensure a focus 
        on diversity.

    My staff and I stand ready to accept the decision of the President 
and Congress as relayed by the Secretary of Defense to address the 
findings and recommendations stated in the MLDC report.
Language, Regional, and Cultural Capabilities
    The Department is continuing its work to ensure our Total Force is 
prepared for a full range of varying and complex missions that our 
current and future security environment requires which includes 
building expertise in foreign languages, regional and cultural skills. 
DOD invested $652 million in fiscal year 2010 to support language and 
culture instruction to achieve higher proficiencies for the Total Force 
in these skills. This investment includes: (a) pre-accession training 
and education at the Service Academies and ROTC; (b) improved resident 
and non-resident language and culture training for uniformed language 
professionals and for General Purpose Forces; (c) provided monetary 
incentives to individuals to identify, sustain and enhance for foreign 
language proficiency; and (d) we strengthened foreign language 
proficiency testing and readiness reporting.
    The fiscal year 2011 budget focuses on sustaining gains achieved in 
previous years and continuing to build a solid foundation to meet 
future demands. The baseline funding in fiscal year 2011 is projected 
at $735 million (does not include MILCON). This includes establishing 
Language Training Detachments to provide and sustain commanders' 
requirement for culturally based language training for general purpose 
forces, support the Afghanistan/Pakistan Hands program, and expand the 
role of English language training for partner nation personnel.
    The fiscal year 2012 budget focuses on sustaining gains achieved in 
previous years and continuing to build a solid infrastructure in which 
to meet future demands. The baseline funding request of $792 million in 
fiscal year 2012 supports redirected language and culture instruction 
to achieve higher proficiencies for the Total Force in these skills. 
This includes $46 million in fiscal year 2012 for Language Training 
Detachments to provide and sustain commanders' needs for general 
purpose forces, support the Afghanistan/Pakistan Hands program, and 
expand the role of English language training for partner nation 
personnel. Today, the Department is moving ahead on several fronts to 
develop strategic direction, create effective policies, and refine 
processes for generating language, regional, and cultural capabilities.
    We recently published the Language, Regional and Cultural Strategic 
Plan that sets out our strategic direction in providing our warfighters 
with the capabilities needed to meet the diverse operational needs of 
the 21st century. In January 2011, we convened a DOD Summit on Language 
and Culture. Over 300 leaders from across the DOD, other U.S. 
Government agencies, industry, and academia met to discuss and propose 
innovative solutions to the key challenges facing the Department and 
the greater Nation.
    We also published counterinsurgency training guidance to require 
language and culture training for forces deploying to theater. The 
Department is tracking compliance with this training and tying language 
and cultural preparation of deployed forces to unit readiness 
reporting. This represents an enduring organizational change in how the 
Department views these capabilities. We are implementing a standardized 
requirements identification process. This process will identify the 
capabilities and capacity to ensure that the right mix of language and 
regional skills are developed to meet mission needs. In the past, 
demand signals were incomplete and did not always reach force 
providers.
    The Department supports the efforts of our Nation's educational 
system to produce more graduates with language and culture skills. It 
has established more robust language requirements for our Service 
Academies and established programs and incentives for our Reserve 
Officers' Training Corps. We are expanding the DOD Educational Activity 
foreign language program to provide a model for building foreign 
language skills pre-Kindergarten through 12th grade. These initiatives 
will ensure a strong return on investment. The results will be an 
increased capability in these skills which can be leveraged and 
expanded to meet needs in today's dynamic and complex world.
                         military health system
Health Budgets and Financial Policy
    The Defense Health Program (DHP) budget request reflects that we 
are operating in an environment where financial resources are limited, 
and that specific actions must be undertaken to better manage the rise 
of health care costs. In many respects, our challenges in this area are 
not unlike those experienced by other public and private organizations 
that are similarly experiencing escalating health care costs--driven by 
an aging population, a continued increase in expensive new medical 
technologies and pharmaceuticals, and increased utilization of 
services. In our circumstance, however, we must also be aware that the 
exponential growth in health costs can pose a long-term threat to 
competing defense priorities.
DHP Future Health Care Costs TRICARE--MHS Costs
    In the budget proposed by the Department, we have included a number 
of specific initiatives that both ensure we continue to provide the 
finest health benefit in this country for our active and retired 
servicemembers and their families, and also puts us on a long-term path 
to proper financial stewardship of the taxpayers' dollar. First, we are 
focused on internal efficiencies. From targeted reductions in non-
patient care contractor support to greater optimization of our medical 
supply chain, we are pursuing a range of initiatives that offer real 
reductions in our budget. Second, we are pursuing a more equitable 
management of benefits across all health care programs. We are 
continuing to align civilian provider payment policies with Medicare, 
as Congress has long directed. Finally, for working age retirees, we 
are proposing minor changes to out-of-pocket costs that are 
exceptionally modest and remain well below the inflation-adjusted out-
of-pocket costs enjoyed in 1995, when TRICARE Prime was first 
introduced. We have incorporated numerous safeguards--grandfathering in 
all current enrollees to unique programs; phasing-in new reimbursement 
methodologies for providers; and excepting certain beneficiaries 
(survivors and medically retired servicemembers) from any enrollment 
fee changes--in order to protect our most vulnerable beneficiaries.
Health Affairs/TRICARE Management Activity Strategic Direction
    I am also encouraged by the long-term strategic direction of our 
medical program. The Office of Health Affairs has adopted a strategic 
construct--the Quadruple Aim--that captures the core mission 
requirements of this unique health system of ours: (1) Improved 
Readiness; (2) Improved Health; (3) Enhanced Patient Experience; and 
(4) Responsible Management of Cost. The Health Affairs leadership, 
together with the Service Surgeons General, has put into place a 
sophisticated set of strategic imperatives and quantifiable measures 
that help inform me and the Service Secretaries and Chiefs on our 
progress in meeting the most important goals for our servicemembers and 
families--that includes how we are performing in the areas of 
psychological health and traumatic brain injury, delivery of preventive 
health services, focus on outcomes and overall satisfaction with the 
delivery of health care, to name just a few.
Mental Health Professionals
    The mental health workload has increased across the Military Health 
System (MHS) for both active duty servicemembers and family members. 
Among the reasons for this increased workload are PTSD, TBI, earlier 
identification of mental health issues, increased suicides and suicide 
attempts, and reduced stigma of seeking mental health care. This 
workload has increased the need for mental health providers. Currently, 
throughout the MHS, there are a total of 7,662 military, civilian, and 
contract employees (full-time equivalents) providing mental health 
care. This reflects a shortage of 1,025 which puts the MHS at 88 
percent fill compared to requirements. We are pursuing efforts to 
assist the Services in recruiting and retaining these critical mental 
health provider positions. These efforts include using Direct Hire 
Authority and Expedited Hiring Authority that Congress provided the 
Department to help recruit providers. Additionally, we are implementing 
the Physician and Dentist Pay Plan (PDPP) which will ensure we can pay 
critical shortage specialties, such as psychiatrists, salaries 
competitive with the private sector.
                          dod/va collaboration
    In order to take better care of our servicemembers, in particular, 
our Veterans who have served in combat, it is imperative that DOD and 
VA have a close and collaborative working relationship. While our two 
organizations have different missions, our priority is the same--taking 
care of those who have served and sacrificed for our country.
    In this effort, DOD and VA work together through a governance body, 
created by Congress, to ensure that we are in constant communication 
and work in collaboration. The formal governance council structure put 
in place to oversee development of policy and support DOD/VA joint 
initiatives and resource sharing, including information sharing is the 
Joint Executive Council (JEC), which is co-chaired by the Deputy 
Secretary of VA and the DOD Under Secretary for Personnel and 
Readiness. The JEC is the overarching council, linking the DOD/VA with 
two supporting councils: the Health Executive Council (HEC) and the 
Benefits Executive Council (BEC).
    The Health Executive Council (HEC) is co-chaired by the Assistant 
Secretary of Defense for Health Affairs and the VA Under Secretary for 
Health and reports directly to the Joint Executive Council (JEC). The 
HEC meets bimonthly and is responsible for implementing a coordinated 
health care resource sharing program. The HEC is chartered to oversee 
the development and implementation of health care related issues in the 
VA/DOD Joint Strategic Plan (JSP), oversee working groups and steering 
groups, identify opportunities to enhance mutually beneficial 
collaboration, and submit input to the JEC annual report on progress of 
the JSP for health issues. The HEC has charged 20 groups to focus on 
specific high-priority areas of national interest, achieving 
significant success in improving interagency cooperation.
    Today, most healthcare information captured by the DOD and VA is 
done so electronically and deemed necessary for the continuity of care 
and benefits administration. Currently, this information is being 
shared only as viewable data, not computable. Although both Departments 
utilize electronic health records (EHRs) and have computer systems to 
automate administrative and healthcare functions, there is not a 
widespread adoption of EHRs in the private sector among the many 
providers who deliver care to DOD and VA beneficiaries. Some 
information available in both DOD and VA EHRs is of utmost importance 
to the clinical communities treating and caring for DOD and VA 
beneficiaries. Interoperability of EHRs between the DOD and VA is the 
end-state goal of departmental healthcare information sharing. The 
purpose of EHR interoperability is to achieve a single logical (not 
physical) electronic health record view from the day an individual 
enters military service throughout their military career, and after 
they leave the military.
    The Departments continue to identify opportunities to enhance DOD/
VA electronic health data sharing. After a December 2010 review by the 
Vice Chairman of the Joint Chiefs of Staff, DOD and VA formed six teams 
to create a collaborative approach to the EHR Way Ahead. The teams--
Enterprise Architecture, Data Interoperability, Business Process, 
Systems Capabilities, Presentation Layer, and Missions Requirements/
Functions--cover high-level activities needed to plan, develop and 
deploy final recommended solutions. In-progress reviews of the joint 
EHR modernization collaboration effort have been held with the Deputy 
Secretaries of the two departments and team findings are being elevated 
to the DOD and VA Department Secretaries for discussion and 
consideration.
    We believe this careful, collaborative approach will, in fact, 
enhance our decisionmaking process and lead to a solution that can be 
implemented in a more timely and coordinated manner. The EHR Way Ahead 
addresses specific challenges with the current EHR, including outdated 
legacy technologies; ongoing performance and data availability 
problems; and difficulty in using healthcare industry standards.
World-Class Medical Care in the National Capital Region
    The Base Realignment and Closure (BRAC) construction projects at 
Bethesda and Fort Belvoir will provide nearly 3 million square-feet of 
new world-class clinical and administrative space, cutting-edge 
technology, and Americans with Disability Act lodging to meet the 
rehabilitation needs of wounded, ill, and injured servicemembers. The 
new facilities will improve the infrastructure for casualty care and 
services and better align healthcare delivery with the population 
centers of the National Capital Region (NCR) beneficiaries. The 
projects are on schedule to receive patients and clinical functions 
from Walter Reed Army Medical Center by September 15, 2011, while 
casualty care and patient safety remain the top priorities related to 
the move. The majority of the BRAC construction at both sites is 
complete and patient care is being provided in the new inpatient and 
outpatient pavilions at Bethesda. The Department is paying close 
attention to the timeliness and milestones necessary to achieve the 
final moves.
    The BRAC projects are only part of the larger transformation of 
Military Medicine in the NCR. The NCR contains a mix of nearly 40 Army, 
Navy, and Air Force Medical Treatment Facilities (MTFs), has almost 
550,000 eligible beneficiaries, and runs on an annual operating budget 
of almost $1.5 billion. Its most important patients are the casualties 
returning from the war and their families. The Department is taking the 
opportunity to substantially enhance and transform this multi-Service 
military healthcare market to provide effective and efficient world-
class healthcare. The Joint Task Force National Capital Region Medical 
(JTF CapMed) is a standing JTF that was established to oversee the 
rationalization and realignment of medical infrastructure to achieve 
greater effectiveness and cost efficiency through the integrated 
delivery of healthcare.
    DOD's Comprehensive Master Plan (CMP) for the NCR, provided to 
Congress last year, outlined how JTF CapMed will implement an 
Integrated Healthcare Delivery System (IDS) to provide this world-class 
healthcare cost effectively. The Department has provided JTF CapMed 
with command and fiduciary authorities to manage MTFs in the NCR and 
directed that the new hospitals at Bethesda and Fort Belvoir become 
joint commands subordinate to JTF CapMed to develop best practices, 
enhance interoperability and patient safety, and combine shared 
services such as contracting, personnel, and consolidated information 
technology--ultimately improving the patient and family experience. An 
example of clinical transformation is in the direct care pharmacy 
system that will facilitate prescriptions and refills no matter where 
in the NCR they are presented, provide refills to Six Sigma quality 
standards, and alleviate traffic concerns at NCR BRAC sites.
    The Department has requested $109 million in the President's 2012 
budget ($762 million between fiscal year 2012-fiscal year 2016) to 
recapitalize medical facilities at Bethesda that the BRAC did not 
address and provide the new space required to convert to single patient 
rooms and expand support for the operating suites. These facility 
projects and the implementation of the NCR IDS by JTF CapMed are part 
of the Department's commitment to providing ``world-class'' healthcare 
in the NCR and fulfilling the requirements under section 2714 of the 
NDAA for Fiscal Year 2010.
                            wounded warriors
    Taking care of our wounded, ill, and injured servicemembers is one 
of the highest priorities of the Department, the Service Secretaries, 
and the Service Chiefs. Reforming unnecessary bureaucratic processes is 
crucial to ensuring servicemembers receive, in a timely manner, the 
care and benefits to which they are entitled. The Department's leaders 
are working to achieve the highest level of care and management and to 
standardize care among the Military Services and Federal agencies. Key 
initiatives include:

        <bullet> Establishing an Integrated Disability Evaluation 
        System (IDES)--to create a simpler, faster, more consistent 
        process for determining which members may continue their 
        military service and helping them become as independent and 
        self-supporting as possible. To date, the IDES has been 
        implemented in 78 locations covering over 73 percent of the 
        eligible population. The DOD and VA have a strategic goal of 
        moving 100 percent of eligible servicemembers into the IDES by 
        end of September 2011.
        <bullet> Enhancing the efforts of care coordinators who work 
        closely with wounded, ill, and injured servicemembers, their 
        families and their recovery teams to develop a Recovery Care 
        Plan that identifies servicemember and family goals, and the 
        resources they need to achieve them, such as assistive 
        technology, education, employment, or housing.
        <bullet> Developing and implementing an Education and 
        Employment Initiative for wounded, ill, and injured 
        servicemembers designed to utilize existing education benefits, 
        to prepare and align wounded, ill, and injured servicemembers 
        to DOD civilian positions.
        <bullet> Ensuring a high standard for facilities caring for 
        Wounded Warriors. Especially key are first rate hospitals as 
        well as facilities and trained staff for the Service Wounded 
        Warrior Programs--designed to ensure exemplary support for 
        Wounded Warriors and their families.
        <bullet> Working with the VA to create Virtual Lifetime 
        Electronic Records, a key administration initiative, which is 
        critical to improving veteran care and services by enhancing 
        the availability of administrative and health information.

    The fiscal year 2012 budget request includes $2.3 billion for the 
enduring WII program (Table 9). Of this amount, $415 million provides 
for the continued support of cutting edge Wounded, Ill, and Injured 
medical research, through both the Defense Health Program and the 
Defense Advanced Research Projects Agency. This research is highly 
focused on psychological health/Post Traumatic Stress Disorder (PTSD) 
and Traumatic Brain Injuries (TBI), but also includes prosthetics, 
vision and hearing loss, and other conditions directly relevant to the 
injuries our soldiers are currently receiving on the battlefield.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
Disability Evaluation System/Integrated Disability Evaluation System
    The genesis of the Disability Evaluation System (DES) is the Career 
Compensation Act of 1949. The DES was relatively unchanged until 2007. 
As a result of public concern and congressional interest, the Senior 
Oversight Committee chartered the DES Pilot in November 2007. The SOC 
vision for the DES Pilot was to create a ``Servicemember Centric'' 
seamless and transparent DES, administered jointly by the DOD and VA.
    DOD and VA launched the DES Pilot at the three major military 
treatment facilities (Walter Reed, Bethesda, and Malcolm Grow) in the 
National Capital Region (NCR) on November 21, 2007. The DES Pilot 
successfully created a seamless process that delivers DOD benefits to 
wounded, ill and injured servicemembers and VA benefits to 
servicemembers as soon as possible following release from duty. DOD 
found the DES Pilot to be a faster, fairer, more efficient system and, 
as a result, the SOC Co-chairs (Deputy Secretary of Defense and Deputy 
Secretary of Veterans Affairs) on July 30, 2010, directed worldwide 
implementation of the process beginning in October 2010 and to be 
completed at the end of September 2011. On December 31, 2010, the first 
Integrated Disability Evaluation System (IDES) site became operational, 
which marked the end of the pilot, and the name was formally changed to 
the IDES.
    The IDES, similar to the pilot, streamlines the DES process so that 
the member receives a single set of physical disability examinations 
conducted according to VA examination protocols, proposed disability 
ratings prepared by VA that both DOD and VA can use, and processing by 
both Departments to ensure the earliest possible delivery of disability 
benefits. Both Departments use the VA protocols for disability 
examination and the proposed VA disability rating to make their 
respective determinations. DOD determines fitness for duty and 
compensates for unfitting conditions incurred in the line of duty 
(Title 10), while VA compensates for all disabilities incurred or 
aggravated in line of duty during active military, naval, or air 
service for which a disability rating of 10 percent or higher is 
awarded and also determines eligibility for other VA benefits and 
services (Title 38). The IDES permits both Departments to provide 
disability benefits at the earliest point allowed under both titles. 
Servicemembers who separate or retire (nondisability) may still apply 
to the VA for service-connected disability compensation.
    In summary, the IDES features a servicemember-centric design, 
simpler, faster, and more consistent evaluations and compensation, 
single medical exam and disability rating, seamless transition to 
Veteran status, case management advocacy, and establishment of a 
servicemember relationship with the VA prior to separation. It also 
provides increased transparency through better information flow to 
servicemembers and their families and a reduced gap between separation/
retirement from Service to receipt of VA benefits. Active component 
members completed the program 37 percent faster than a sample of legacy 
DES cases. As of April 11, 2011, cumulative IDES enrollment is 21,328 
servicemembers with 6,893 completing the program by medical separation, 
retirement, or return to duty and 13,473 remaining enrolled.
    DOD is partnering closely with the Department of Veterans Affairs 
as we aggressively move toward IDES implementation at all 139 CONUS and 
OCONUS sites by 30 September 2011.
    The impact of each stage of the IDES expansion and cumulative DES 
population is shown below:

        <bullet> Stage I--West Coast & Southeast (October-December 
        2010)--(completed) 58 percent
        <bullet> Stage II--Rocky Mountain & Southwest Region (January-
        March 2011)--(completed) 73 percent
        <bullet> Stage III--Midwest & Northeast (April-June 2011)--90 
        percent
        <bullet> Stage IV--Outside Continental United States (OCONUS)/
        CONUS (July-September 2011)--100 percent

    IDES constitutes a major improvement over the legacy DES and both 
DOD and VA are fully committed to the Worldwide expansion of IDES. The 
Department is, however, continuously exploring new ways to improve the 
current system. The Secretaries of Defense and Veterans Affairs are 
currently exploring several options to shorten the overall length of 
the disability evaluation process from its current goal of 295 calendar 
days. In addition, the departments are also looking closely at stages 
of the disability evaluation system that are outside of timeliness 
tolerances and developing options to bring these stages within goal. We 
are committed to working closely with Congress in exploring new 
initiatives that can further advance the efficiency and effectiveness 
of the disability evaluation process.
Transition Initiatives
    To strengthen our Transition Assistance Program (TAP) and reinforce 
its value to servicemembers and their families, the Department, in 
collaboration, with our partners at the Departments of Veterans Affairs 
(VA) and Labor (DOL) is committed to moving TAP from a traditional 
event-driven approach to a modern, innovative lifecycle approach. We 
are shifting from an end of military life-cycle event to an outcome 
based model that will measure success not only on the number of 
servicemembers who use the TAP process, but also on the number of 
transitioning servicemembers and their families who find the TAP 
process beneficial in assisting them with their life goals, military 
career progression, and/or new careers/meaningful employment outside of 
uniformed service. We will be implementing this strategic plan with 
focuses on information technology, strategic communications, and 
resources and performance management. The end-state for the TAP 
overhaul will be a population of servicemembers who have the knowledge, 
skills, and abilities to empower themselves to make informed career 
decisions, be competitive in the global work force and become positive 
contributors to their community as they transition from military to 
civilian life.
    As part of this effort, we launched the DOD Career Decision Toolkit 
in August 2010. The Toolkit was developed in collaboration with the 
Military Services and our TAP partners at the Department of Veterans 
Affairs and Department of Labor to help simplify the learning curve for 
transitioning servicemembers with the information, tools, and resources 
they need to succeed in the next phase of their lives. The toolkit uses 
the latest technology to consolidate the very best teaching materials 
from all the Service branches and provides thousands of on-demand 
resources to servicemembers. It is interactive, simple to use and 
portable. The toolkit includes:

        <bullet> More than 3,000 on-demand information and planning 
        resources
        <bullet> Transition subjects such as career exploration, 
        financial planning, resume creation, interviewing skills and 
        compensation negotiation
        <bullet> Tools that enable servicemembers to catalogue their 
        military skills, training, and experience in ways that transfer 
        to civilian sector
        <bullet> Post-Service benefits and resources
        <bullet> Resources that allow users to self-assess individual 
        transition needs and plan personalized options

    We are developing an ``end-to-end'' virtual TAP delivery vehicle 
delivery platform that will provide the back-bone of the transformed 
TAP program, integrating the Guard and Reserve components, as well as 
expanding services available to family members.
    DOD has also played a supporting role with the Office of Personnel 
Management on the initiative to increase hiring veterans in all Federal 
agencies. This is now recognized as President Obama's Veterans 
Employment Initiative that directs all Executive Agencies to increase 
veteran employment. TAP is one of the programs we will use to educate 
and inform servicemembers about Federal Service career opportunities.
                  military family & community support
    The fiscal year 2012 budget continues to reflect the decision to 
shift funding for family support programs that are enduring--i.e., 
programs that will not disappear as combat deployments and war funding 
decline--from the OCO budget to the base budget.
    The fiscal year 2012 budget includes $8.3 billion (Table 13 ) for 
family support programs vital to the morale and well-being of our 
military members and their families. Key programs include:

        <bullet> Child Care and Youth Programs: Includes funding for 
        child care, child and youth development programs, National 
        Guard Youth Challenge Program, and child development centers. 
        The fiscal year 2012 funding provides childcare spaces for over 
        200,000 children.
        <bullet> Morale, Welfare, and Recreation: Includes funding for 
        Community Support activities, recreation programs, voluntary 
        education and tuition assistance, temporary duty lodging, and 
        revenue generating programs.
        <bullet> Warfighter & Family Services: Includes funding for 
        Family Support Centers and for counseling support services for 
        Active Duty, National Guard, and Reserve members and their 
        families.
        <bullet> Commissary: Operations are appropriated with the 
        Defense Commissary Agency (DeCA) Working Capital Fund. The DeCA 
        operates 250 stores at military installations around the world 
        and employ a workforce that consists of over 14,700 civilian 
        full-time equivalents.
        <bullet> Department of Defense Education Activity (DODEA) 
        Schools: fiscal year 2012 budget supports the education of 
        94,503 students in 124 schools in 12 countries and 33,779 
        students in 70 schools in 7 States, Puerto Rico, and Guam.
        <bullet> Spouse Employment: Funds tuition assistance and intern 
        programs to support military spouses' employment opportunities, 
        with full funding for the My Career Advancement Account (MyCAA) 
        Program ($190 million) and funds to support the Military Spouse 
        Federal Intern Program to assist in securing positions in other 
        Federal agencies ($17 million).
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
Family Support--Joint Family Support Assistance Program
    On January 24th of this year at a ceremony held at the White House, 
the President, Mrs. Obama and Dr. Biden formally released the results 
of the Presidential Study Directive on Military Families endorsed by 
all the Cabinet Secretaries. This report was the result of an 
unprecedented level of intense collaboration between Federal agencies 
at the direction of the President, taking a whole of government 
approach to address the needs of military members and families by 
leveraging the collective resources and expertise of the entire 
Cabinet.
    The work reflected in the report was conducted by the Military 
Family Interagency Policy Committee (IPC), which included 
representatives from every cabinet agency, and identified and addressed 
the most pressing military family issues faced by soldiers, sailors, 
airman, marines, and coastguardsmen in the Active, Guard, and Reserve 
ranks, veterans, and especially families of the fallen. The IPC 
identified four priority areas that the Cabinet agencies would rally 
together to address:

        <bullet> The first: improving the well-being and psychological 
        health of military families by expanding access to counseling, 
        protecting families from abusive financial practices and 
        reducing homelessness among our veterans.
        <bullet> The second: ensuring that military children are 
        receiving the support and education they need thrive, 
        especially when a parent is deployed and when making the 
        difficult transition between different communities and schools.
        <bullet> The third: expanding career development and 
        educational opportunities for military spouses, including 
        opportunities for Federal employment and working with the 
        private sector to harness the incredible talents of spouses and 
        veterans.
        <bullet> The fourth: increasing the availability and quality of 
        child care for servicemembers with children, including the many 
        single parents serving the military.

    The IPC has now entered the implementation phase of the report, 
efforts which are now well underway.
    Again, while the Presidential Study Directive and the work of the 
IPC represent an unprecedented level of collaborative effort that 
recognizes the service and sacrifice of our military members, veterans, 
and especially their families, supporting military families in the long 
term simply cannot be the work of government alone.
Child Care
    The Department continues to build child capacity that supports 
Reserve component families while the servicemember is deployed, 
geographically dispersed active duty military families, and 
servicemembers living in areas in the continental United States where 
on-installation military child care is unavailable. An initiative to 
expand the availability of quality child care programs is underway in 
13 pilot States. These States were selected based on multiple factors 
such as residential/demographic information and locations where State's 
efforts to improve the quality of child care are in tandem with DOD. In 
addition, an analysis of State licensing and oversight standards for 
the pilot States will guide efforts to provide training and technical 
assistance to improve quality of child care. Central to the success of 
this strategy is the placement of a Child Care Liaison in each pilot 
State who will work to assist in developing State-specific strategies 
that recognize the unique challenges and assets of the State and local 
communities. This individual will be tasked with developing 
communication strategies among various State partners to reduce 
duplication of effort and ensure resources are effectively utilized.
Youth Programs
    Military youth make tremendous sacrifices and they deserve high 
quality programs and services that meet their needs. The Department has 
been recognized for providing dynamic, innovative and successful youth 
programs to nearly 660,000 military children and youth between the ages 
of 6-18 years on a daily basis around the globe. We are proud of the 
vital programs and services offered for youth during out-of-school 
hours. Today, youth programs are available where military families 
live--whether on military installations or in civilian communities. The 
programs are expanding by developing partnerships with other youth-
serving organizations to augment the DOD programs; thereby offering a 
variety of additional resources to promote positive youth development. 
Military youth programs prepare youth to meet the challenges of 
military life, adolescence, and adulthood with programs and activities 
such as physical fitness and sports, arts and recreation, training in 
leadership, life skills and career/volunteer opportunities, mentoring, 
intervention and support services. DOD's enhanced youth programming 
also supports character and leadership development, sound education 
choices, and healthy life skills.
Family Readiness Programs
    The Department provides family readiness programs through a network 
of Family Centers at installations worldwide that seek to prepare 
military families to effectively navigate the challenges of daily 
living experienced in the unique context of military service. Family 
Centers provide information and referral; training; and counseling 
opportunities to educate families about the potential challenges they 
may face; equip them with the skills to competently function in the 
face of such challenges; and increase awareness of the supportive 
resources available to them. The focus is to assist families with 
deployment; relocation; spouse employment; family life education 
including parenting; personal financial management; volunteer 
opportunities; and non-medical counseling.
    In fiscal year 2007, Congress mandated that the Department 
implement a Joint Family Support Assistance Program (JFSAP) to augment 
existing family programs and provide outreach and support to Active 
Duty, Guard, and Reserve military members and families who are 
geographically separated from military installations. Congress also 
mandated that the JFSAP coordinate family assistance programs and 
activities provided by Military OneSource, Military and Family Life 
Counselor Program, counselors, DOD, other Federal agencies, State and 
local agencies, and non-profit entities. In 2008, the Department 
implemented JFSAP teams at National Guard Joint Force Headquarters in 
all States and Territories to work with military and civilian resources 
to provide support and services to military families in the communities 
where they live.
Family Advocacy Programs
    The DOD Family Advocacy Program (FAP) addresses physical, sexual, 
and emotional abuse and neglect involving Active component military 
personnel and family members who are victims and abusers. On each 
military installation with command-sponsored families, there is a FAP 
that provides services in prevention, identification, intervention, and 
treatment of child abuse and neglect and domestic abuse. We evaluate 
the effectiveness of FAP through rates of family maltreatment and 
outcome measures for prevention and treatment. Through 9 years of high 
stresses on our families due to wartime deployments our rates of such 
family maltreatment have remained relatively stable but we continue to 
monitor this carefully because of the cumulative effects of such 
stresses. For 2 consecutive years 85 percent of our new parents who 
have participated in the New Parent Support Program for at least 6 
months have had no substantiated child abuse or neglect the following 
year, and 90 percent of substantiated spouse abusers who completed FAP 
treatment have had no substantiated spouse abuse the following year, 
and we are working to develop additional outcome measures.
                           military onesource
    Military OneSource offers free, convenient, 24/7/365 days access to 
confidential resource and referral support for servicemembers and their 
families to improve the quality of their lives and the effectiveness of 
military community support efforts. Military OneSource provides over 
22,000 non-medical, short-term, solution focused counseling sessions 
per month delivered face to face, telephonically, and on line. The 
number of counseling sessions provided by Military OneSource has 
increased 930 percent since fiscal year 2005 with customer satisfaction 
consistently remaining well above 90 percent. Other Military OneSource 
services include relocation assistance, financial counseling, free tax 
filing services, document translation, child care and education 
resources, special needs consultation, elder care consultation, on-line 
library resources, and health coaching. Military OneSource Education 
and Career consultants assist almost 3,000 military spouses weekly with 
information regarding portable careers; education, training and 
licensing requirements; resume and interview preparation; and 
identifying employment resources. Additionally, we are increasing 
opportunities for military spouse careers through expansion of the Army 
Spouse Employment Partnership to Marine Corps, Navy, and Air Force 
spouses. Additionally, Military OneSource serves as a conduit to the 
Wounded Warrior Resource Center.
Wounded Warrior Resource Center
    The Wounded Warrior Resource Center (WWRC), accessed via Military 
OneSource, provides immediate assistance to wounded, ill, and injured 
servicemembers, their families, and caregivers with issues related to 
health care, facilities, or benefits. The WWRC works collaboratively 
with the Military Services' wounded warrior programs and the Department 
of Veterans Affairs (VA) to ensure callers are promptly provided a 
specific plan of action to address their concerns within 96 business 
hours of contacting the WWRC. In fiscal year 2010, 2,046 cases for 
wounded warriors were handled. The top three issues concerning callers 
were health care (38 percent), military benefits (20 percent), and VA 
(20 percent) benefits.
Dependents' Education Programs
    DOD is committed to ensuring that all children of military families 
are provided an education that prepares them to be successful in their 
careers, leading contributors in their communities and productive 
citizens in the 21st century. The DODEA provides quality pre-
kindergarten through 12th grade educational opportunities and services 
to eligible military dependents around the globe. DODEA is committed to 
providing a rigorous college preparatory curriculum and closing the 
achievement gap in schools. DODEA schools consistently score very 
highly on the National Assessment of Education Progress, otherwise 
known as the ``Nation's Report Card''.
    Of the approximately 1.2 million military dependent children, DODEA 
educates approximately 86,000 in 195 schools in 12 foreign countries, 7 
States, Guam, and Puerto Rico. Where DODEA schools in overseas 
locations are not an option, DODEA also assists eligible military 
dependent students through a tuition reimbursement program.
    DODEA has a proud history of providing quality education for 
children of military families, the majority of which has been taught in 
traditional classrooms. As an organization dedicated to continually 
improving the education experience for our students DODEA launched its 
Virtual High School in Fall 2010 with approximately 45 course offering 
as a supplemental program in a variety of curriculum areas. The DODEA 
Virtual High School (DVHS) is serving approximately 891 students with 
enrollments totaling 940 thus far. Through the Virtual School Program, 
DODEA has been able to accomplish the mission of addressing secondary 
education needs for students in transition, where courses are not 
offered in a local school setting or when student situations preclude 
enrollment via a local school such as due to medical illness, schedule 
conflicts or other challenges identified by the local schools.
    Because the majority of children of military families are educated 
in public schools across our Nation, DODEA champions world-class 
education for military children in public schools by supporting 
military-connected local education agencies (LEAs). Through an expanded 
authority, set to expire in 2013, DODEA shares its expertise, 
experience and resources to assist military children during 
transitions, to sharpen the expertise of teachers and administrators in 
meeting the needs of military children, and to provide assistance to 
LEAs on deployment support for military children.
    DODEA, through its Partnership Program, has provided grants to over 
60 LEAs school districts, in over 800 schools and serving more than 
540,000, of which the nearly 41 percent are from military families. We 
are approving grants to help improve schools, even some that did not 
make their respective States' adequate yearly progress. All grants 
focus on enhancing student learning opportunities, student achievement, 
and educator professional development at military-connected schools. 
Some grants also have a counseling component that focuses on easing the 
challenges that military students face due to transitions and 
deployments. The grant seeks to build capacity to improve school 
climate as well as social and academic results in schools serving 
military children.
    The demands of extended wartime add to the ever-present challenges 
faced by military families. Research suggests that the children of 
deployed parents collectively experience more stress than their peers. 
While they are often described as a resilient group, the cumulative 
effects of multiple moves and significant parental absences can erode 
this resilience.
    The Department is working collaboratively with the Department of 
Education to improve the understanding of the challenges facing 
military children, and what is necessary to ensure that military-
connected students receive an outstanding education from ``cradle 
through career.'' This effort requires a focus on not only military-
connected students, but on their families, their communities, their 
schools and their teachers.
    Further, performance data that would allow us to identify and 
ultimately make recommendations to improve the educational outcomes for 
military children attending public schools is currently not available. 
Data collection and analysis are critically important to directing 
educational resources to those schools who are most impacted by the 
enrollment of military children. As a result, I worked with the 
Department of Education in support of a new means of collecting and 
reporting performance data of military-connected children as part of 
the reauthorization of the Elementary and Secondary Education Act.
    DOD has extended the Military and Family Life Counselor (MFLC) 
program to support and augment military-connected schools. MFLCs 
provide non-medical support to faculty, staff, parents, and children 
for issues amenable to short-term problem resolution such as school 
adjustment issues, deployment and reunion adjustments, and parent-child 
communications. There are MFLCs serving in 255 military-connected 
public schools and 65 DODEA schools. Since the end of 2009, DOD has 
provided children of active duty military with free, unlimited access 
to online tutoring, academic skills courses, and homework assistance in 
math, science, social studies, and English for kindergarten through 
12th grade (K-12) students through Tutor.com. Professional tutors 
assist military dependent students with completing homework, studying 
for standardized tests, and writing papers. The program provided 
162,570 sessions during fiscal year 2010.
    Recognizing that supporting military children takes a school-wide 
effort, DOD offers professional development to help inform school staff 
of the academic challenges that these children face. These include 
training modules and sessions on special education, as well as 
``Students at the Center,'' an interactive educational resource for 
military families, military leaders, and school leaders.
    Finally, in an effort to ensure all of our students receive an 
education of the highest quality, I have directed two assessments on 
the effectiveness of DOD in meeting the educational needs of all 
military children and on the physical conditions of the public schools 
located on military installations. The first assessment will examine 
the effectiveness of DOD in meeting the educational needs of military 
families, layout the full scope of issues, and develop specific action 
plans for leveraging success and addressing deficiencies. We will pay 
particular attention to ensuring a world class preparatory instruction 
for science, technology, engineering, and mathematics (STEM) and 
foreign language programs. The second assessment will address the 
physical condition of the 160 public schools located on our military 
installations in the United States.
MWR Support to Troops in Combat
    Support is critical to helping troops communicate with family and 
friends, stay physically and mentally fit, and reduce stress and 
boredom. The Department funds over 1,000 free MWR Internet Cafes in 
Iraq and Afghanistan and 135 portable satellite units, known as 
Cheetahs, to support remote locations. Cheetahs run off Humvees and can 
be set up and taken down in 20 minutes. Other MWR support includes 
fitness, sports and recreation equipment, portable movie theaters, and 
large screen televisions with DVD and video projection players and 
professional entertainment. The Department shipped over 264,400 
paperback books and 231,974 Playaways (self-contained digital audio 
books) in fiscal year 2010. Playaways now surpass paperback books in 
popularity with troops citing ease of use, convenience, and ability to 
read at night without electricity. Included in the Playaway inventory 
were 17,678 Dari and Pashto basic language/Afghan culture and 5,535 
Arabic language Playaways. The free DOD MWR Online Library offers free 
downloads of audio and e-books and access to up-to-date data bases 
offering recreation, education and career transition support. The 
ability of injured servicemembers to engage in recreation and sports is 
a very important component of rehabilitation and reintegration. Under a 
contract with Penn State University, MWR specialists are trained to 
work with medical personnel, wounded warrior units, community parks and 
recreation, and non-profits to ensure inclusive and adaptive sports and 
recreation are part of installation MWR and community recreation 
programs. The DOD Paralympics' Program continues to provide 
rehabilitation support and mentoring to injured servicemembers/veterans 
who have sustained various types of injuries. Paralympics' military 
events are conducted at 4 DOD and 14 VA Medical Treatment Facilities, 
29 Army Warrior Transition Units, 7 Marine Corps Wounded Warrior 
Battalions/Detachments, and 3 Navy and 3 Air Force locations. As an 
adjunct, training is well underway for the second annual Warrior Games 
Competition in Colorado Springs in May.
DOD-State Initiatives
    DOD continues to work with State governments to educate their 
policy makers on the life-challenges faced by servicemembers and their 
families and to ensure that State-level policies do not disadvantage 
military families due to their transient life style. States have 
addressed several key quality of life issues, to include the impact of 
frequent school transitions experienced by military children, the loss 
of income by military spouses as a result of military moves, and the 
enforcement of the congressionally-mandated DOD predatory lending 
regulation. The response from States has affirmed their commitment to 
supporting the well-being of the Nation's fighting force. For example, 
35 States have approved the Interstate Compact on Educational 
Opportunity for Military Children, 38 States (plus DC) now provide 
eligibility for unemployment compensation to military spouses, and 32 
States (plus DC) enforce the DOD predatory lending regulation. The 
Department is continuing this effort in the 2011 State legislative 
sessions with strong emphasis on support of military families through 
the issues listed above, plus provisions to protect military parents in 
child custody decisions and provisions that can expedite occupational 
licensure processes to allow military spouses to get to work faster in 
a new State. Additionally, the Department is partnering with the 
Uniform Law Commission and the PEW Trust on the States to inform State 
legislators of the new Uniform Military and Overseas Voters Act which 
simplifies the absentee voting process by making it more uniform, 
convenient, and efficient.
Military Voting Update
    The Department ``rolled out'' three sets of online voting 
assistance tools in the 2010 election: an online registration tool, an 
online Federal Write-In Absentee Ballot (back-up ballot) tool, and, in 
partnership with 17 States, an online absentee ballot delivery tool (up 
from only 8 States in 2008). In fact, 31 States had an online blank 
ballot delivery process in place for the 2010 election, and all States 
provided ballots electronically upon request, providing tens of 
thousands of ballots almost instantaneously. This gave the voter more 
time to return the voted ballot by mail. Online and print advertising 
was used to implement an intensive voter outreach campaign to increase 
awareness and use of the tools on the Federal Voting Assistance Program 
(FVAP) FVAP.gov Web site which stresses direct-to-voter assistance. The 
FVAP.gov website usage almost doubled over the 2006 election cycle, and 
the back-up ballot wizard usage increased three-fold.
    The Department implemented worldwide expedited return of ballots 
for overseas military voters. The Military Postal System Agency and 
U.S. Postal Service (USPS) went beyond requirements of the MOVE Act by 
providing Express Mail return delivery rather than simply expedited 
return. The result was 92 percent of overseas military ballots were 
returned to local election officials from Military Post Offices in less 
than 7 days, with the worldwide average of 5.2 days ballot return 
delivery time.
    The President's fiscal year 2012 budget fully supports the FVAP 
program. Total O&M and RDT&E funding for FVAP was $17.425 million for 
fiscal year 2010, $46.481 million for fiscal year 2011, and the 
President's fiscal year 2012 budget request for FVAP is $32.353 
million. FVAP will build on the success of the 2010 election to improve 
even more the voting opportunity in the 2012 election cycle for 
military and overseas voters.
Special Needs: New DOD Office
    The NDAA for Fiscal Year 2010, Section 563 (10 U.S.C., 1781c) 
required the Secretary to establish an Office of Community Support for 
Military Families with Special Needs (OSN); the Military Departments to 
expand coordination of assignment for military families with special 
needs for assignments to and within the United States, and to expand 
community support to military families with special needs. It also 
required an annual report on the gaps in services, ways to address the 
gaps and future legislation.
    The OSN was officially established in September 2010 within the 
office of the Deputy Assistant Secretary of Defense for Military 
Community and Family Policy that is committed to military families with 
special needs. The Office has nine staff who have experience and 
educational backgrounds in special education, early intervention, 
physical and occupational therapy and communications. The Office 
submitted the first annual report to Congress in 2010 and is currently 
preparing the second report due April 28, 2011. Costs for the new 
office in fiscal year 2010: $1.3 million; in fiscal year 2011: $1.4 
million; and fiscal year 2012 [requested]: $1.4 million.
Voluntary Education Opportunities
    DOD is committed to making educational opportunities available to 
our servicemembers and does this through 350 military education sites 
worldwide to include Iraq, Afghanistan, Kosovo, Sinai, Qatar and 
Kuwait. During fiscal year 2010, our Voluntary Education program helped 
fund 857,786 enrollments by 322,964 servicemembers, which resulted in 
our servicemembers earning 43,510 diplomas and 1,783 certifications/
licensures. Servicemembers are ``blending'' their course work, taking 
both traditional and on-line courses, with approximately 71 percent of 
servicemembers taking some courses on-line. Due to the growth in on-
line enrollments and servicemembers attending schools off our military 
installations, DOD has established a policy requiring all post-
secondary institutions participating in the DOD Tuition Assistance (TA) 
program execute a memorandum of understanding (MOU) with DOD which sets 
certain standards of conduct for all institutions, whether they are on- 
or off-base, traditional or on-line. DOD is also developing an 
automated tracking system to document all concerns and complaints by 
students, DOD personnel and schools. The system will track the 
complaint and record its resolution. DOD is also partnering with the 
Departments of Education and Veterans Affairs to address common issues 
concerning administration of Federal education benefit programs as they 
relate to the three agencies involved and the benefits provided to 
servicemembers and veterans.
Military Commissaries
    The commissary continues to be one of the most popular non-pay 
compensation benefits that our military members (Active, Guard, or 
Reserve,) retirees, and their families enjoy. Operated by the Defense 
Commissary Agency (DeCA), this integral element of the total 
compensation package not only does much to enhance the quality of life 
for military families, but also provides an excellent savings from 
them. Last fiscal year, the commissary provided direct savings to 
commissary customers of $2.69 billion for a taxpayer cost of $1.3 
billion. Providing savings on the patrons' overall purchases of 31.5 
percent, for those patrons who consistently use their commissary, 
savings can amount to nearly $4,400 per year for an average family of 
four, over $2,400 for a couple, and more than $1,500 for a single 
servicemember.
    Perhaps most importantly, the commissary enables troops to focus on 
their mission when deployed, improving retention by providing a ``sense 
of community'' for military personnel and their families, and providing 
access to American products around the world in a safe, secure shopping 
environment.
    As an organization, DeCA is a model for departmental efficiencies. 
DeCA has a proven history of taking cost out of the commissary system 
without decreasing the value of the benefit provided. In fact, when 
measured in constant dollars, DeCA's operating costs are only slightly 
more than one-half of what they were when the Agency activated on 
October 1, 1991. DeCA's efficiency track record continues with a fiscal 
year 2012 budget submission of $1,376.8 million.
                      civilian personnel policies
Strategic Human Capital Management, Competency Management, and 
        Civilians in the Total Force
    The Department is making progress toward developing a more 
systematic approach and enterprise tools for strategic human capital 
planning that covers over 750,000 civilian employees in over 600 
occupations. The total number of DOD civilians has evolved from 777,844 
in fiscal year 2010 to 790,497 in fiscal year 2011 and will stabilize 
at 783,702 in fiscal year 2012. For example, a Competency Management 
Framework has been designed that includes plans for the phased 
development and deployment of a tool for competency assessments 
beginning with mission-critical occupations. A proof-of-concept 
Enterprise Competency Management will undergo validation testing this 
summer and the long-range plan is to replace multiple competency 
assessment tools with a single tool for use across the Department. 
Another example is the integration of strategic workforce planning, 
competency management, hiring improvement, and leadership development 
initiatives to ensure that the Department can recruit, retain, and 
develop an agile, competency-focused civilian workforce throughout the 
employee life-cycle that is responsive to swiftly changing mission 
demands and complex challenges. These are multi-year initiatives that 
are intended to improve the Department's ability to rapidly grow, 
contract, and shift the work force in response to emerging mission and 
capability requirements. The Department also recognizes the need for 
integrated Total Force planning to better assess and manage the mix of 
Active and Reserve military, civilian, and contract requirements in 
order to leverage the best talent source available to provide short-
term, mid-range, and longer capabilities.
Hiring Reform
    In 2010, the Department made positive and meaningful progress 
toward reforming its civilian hiring practices. DOD completed all 
mandates of the President's Hiring Reform Memorandum of May 2010, 
including the following:

        <bullet> Elimination of Knowledge, Skill and Abilities (KSAs)-
        style essays when applicants first apply for Federal 
        employment;
        <bullet> Allowing the submission of resumes and cover letters;
        <bullet> Using the category rating approach to determine best 
        qualified candidates;
        <bullet> Increasing Hiring Manager involvement and 
        accountability;
        <bullet> Improving the speed and quality of the hiring process; 
        and
        <bullet> Informing applicants of their application status at 
        key stages in the process.

    While meeting these mandates, the Department pushed its hiring 
reform efforts in other ways. DOD has reduced the number of days it 
takes to hire an employee by developing a common business process, 
deploying tools to automate key steps in the hiring process, and 
providing manager and human resource specialist training and job aids. 
In addition, the Department's arsenal of hiring-related metrics and 
measurements has grown, thereby enabling transparency and targeted 
improvements to the hiring process.
    In fiscal year 2010, the Department processed nearly 250,000 hiring 
actions. While doing so, DOD reduced its external hiring timeline by 25 
percent from the fiscal year 2009 baseline of 155 days to 116 days. 
This achievement exceeded DOD's fiscal year 2010 goal of 140 days. In 
addition, time to fill for all hiring actions (internal and external) 
was 75 days. As a result of this progress on the external timeline, 
DOD's yearly targets were adjusted aggressively downward to 101 days 
(originally 112 days) in fiscal year 2011, and to 80 days in fiscal 
year 2012, with quarterly goals in place to monitor progress. In the 
first quarter of fiscal year 2011, DOD continued to reduce its external 
hiring timeline to 114 days and DOD expanded its key hiring metrics to 
include tracking time to hire for ``all hires.''
    Another area of improvement is the automation of DOD's hiring 
process. DOD procured an automated staffing tool in late fiscal year 
2010 and is deploying it across DOD as an interim solution to 
approximately 70 percent of the Department in fiscal year 2011, and to 
100 percent in fiscal year 2012. In addition, DOD is working with its 
components to continue improving hiring business processes, and to 
apply enterprise technology where feasible.
    DOD is also partnering with OPM on the re-engineering of USAJOBS, 
the job posting portal used by the Federal Government, with phase 1 (of 
3) scheduled for deployment during calendar year 2011. DOD, along with 
DHS and other agencies large and small, is providing project leadership 
and personnel to OPM to complete this aggressive and ambitious 
undertaking. The USAJOBS 3.0 project is a high visibility project and 
DOD is the largest consumer of USAJOBS services. Major benefits to the 
Department include:

        <bullet> Improved job search functionality and results 
        relevancy
        <bullet> Open architecture that encourages increased 
        interoperability with Human Resource Information Technology 
        (HRIT) products
        <bullet> A common repository for resumes and applicant 
        documentation
        <bullet> Improved functionality in the areas of assessments, 
        recruitment, reporting, and career exploration

    The deployment of an enterprise staffing tool and improvements to 
USAJOBS are critical initiatives; however, without the participation 
and engagement from our Hiring Managers and HR Professionals, these 
efforts have isolated impacts. As such, a primary DOD objective is to 
foster and encourage strong partnerships between Hiring Managers and HR 
Professionals. To assist these key stakeholders, DOD's Hiring Reform 
website (http://www.cpms.osd.mil/HiringReform/) was recently re-
launched with a new look, and includes approximately 24 products in the 
Hiring Managers Toolkit, which was recognized by OPM as a best 
practice. A webinar series is in development, with content based on the 
four phases of the hiring process outlined in the Toolkit.
    The initiatives outlined represent DOD's approach to hiring reform 
implementation, an approach aligned with the Department's overall 
mission, and with its Strategic Human Capital Management objectives. A 
key success criterion is the involvement of senior leadership. As 
reported previously, the Department continues to solicit and utilize 
its cadre of senior leaders to guide its efforts, communicate and 
campaign for process improvements, and provide leadership throughout 
each hiring reform effort. We will continue to monitor these efforts 
closely, as Hiring Reform remains a high priority for the Department.
Civilian Leadership Development
    The Defense Civilian Emerging Leaders Program (DCELP), as 
authorized by the NDAA for Fiscal Year 2010, section 1112, fills a 
critical need, by focusing, for the first time on a corporate scale, on 
developing civilian leaders at the entry and mid-level. The Department 
recognizes the need for an improved model to attract, retain, and 
deliberately develop civilian leaders to support pipeline readiness and 
enhance bench strength. We have conducted a gap analysis between 
existing programs and NDAA, section 1112, and designed a program 
framework to create a new program to recruit and develop new DOD 
civilian leaders, using proven models such as the Presidential 
Management Fellows program. Recognizing the financial environment and 
to ensure we have a sound programmatic framework, we will implement a 
DCELP pilot in September 2011 with up to 100 participants at the 
General Schedule (GS) 7 through 11 level from the Acquisition, 
Financial Management, and Human Resources career fields. The DCELP 
amalgamates leadership and technical proficiency.
    This new program will be additive to the Department's current 
leadership programs, which include the Executive Leadership Development 
Program (ELDP) and the DOD Senior Leader Development Program (DSLDP). 
DSLDP was established in 2008 to meet emergent leadership needs and 
provides a competency-based approach to the deliberate development of 
senior civilian leaders (GS 14 or 15 and equivalent grades) with the 
enterprise-wide perspective needed to lead organizations and programs 
and achieve results in the joint, interagency, and multi-national 
environments. We are pleased to report that DSLDP is entering its third 
annual cohort. DSLDP is a critical feeder pipeline for executive 
talent. Established in 1985, ELDP provides mid-level civilians (GS-12 
through GS-14 and equivalent grades) with an extensive exposure to the 
roles and mission of the DOD and Interagency partners and an increased 
understanding of, and appreciation for, today's warfighters through 
intensive hands-on field experiences. Both programs are aligned with 
the 21st century competency framework and designed to ensure 
application of critical leader competencies and have garnered success 
for their target senior grade populations. These highly competitive 
Department-wide programs will serve as building blocks for the new 
leader development framework.
    In addition to the programs just mentioned, another critical 
building block in this arena is training managers and supervisors. 
Pursuant to the NDAA for Fiscal Year 2010, Section 1113, the Department 
has established a holistic training curriculum and baseline learning 
objectives for each training topic. We are piloting this training in 
the Spring 2011 and will soon be turning our attention to developing 
the curriculum for refresher training, which the NDAA requires occur at 
least every 3 years. Also, we are partnering with OPM and vendors to 
design assessment tools that will help predict interest and success for 
aspiring supervisors, as well as, developmental tools for current 
supervisors. Those assessment tools should be available for use by 
October 2011.
Executive Talent Management Initiatives
    In a demanding year, confronted with cutbacks related to Efficiency 
Initiative directing the drawdown of over 200 Civilian Senior 
Executives, freeze on pay increases and reduced funding for performance 
awards, we continue to seek new and innovative ways to incentivize and 
retain our Senior Executives. This year, the Department focused its 
efforts on Talent Management initiatives that will continue to prove 
our commitment to the Department's senior leadership in ways not tied 
to monetary incentives, but that will provide for career development, 
personal growth, and enhanced readiness of our executives.
    Through Talent Management Panels held in the summer of 2010, DOD 
assessed the readiness of its executives, slated executives for 
critical mission positions and identified developmental and career 
broadening assignments and programs. Through this process, our 
executive cadre received targeted feedback to help identify competency 
gaps and recommend training and development opportunities. At the 
enterprise level, the Department was able to identify and address 
mission critical gaps in its workforce. As a result of the 2010 panels, 
DOD has further refined its automated tool for Talent Management & 
Succession Planning, to include the development of additional 
capabilities for the executive's benefit.
    DOD has also implemented several developmental programs to increase 
an executive's proficiency level on specific competencies. At the 
enterprise level, we concluded a successful pilot of the Joint 
Executive Management course, which focuses on improving business acumen 
in a joint environment for a DOD executive. We also began the design of 
a Department-wide orientation program, entitled ``Vanguard'' which will 
include an emphasized focus on the national security perspective. At 
the individual level, we implemented a 360-assessment and coaching 
program for executives' self-improvement, and a mentoring and coaching 
program targeted at improving executives' personal leadership skills. 
We will continue to look for further ways to improve the entire career 
lifecycle of our executives to ensure DOD possesses a world-class 
executive cadre capable of leading the Department and ensuring its 
readiness to fully support DOD's warfighting efforts.
Civilian Expeditionary Workforce
    The Department is working to better employ the talents of our 
civilian workforce to meet expeditionary mission challenges, especially 
those not directly related to war fighting. Global security challenges 
require adequate civilian capacity to conduct complex operations, 
including those missions that require close military-civilian planning 
and cooperation in theater. Since 2001, more than 43,000 Department 
civilians have been involved in contingency operations around the 
globe. Currently, from all sources, approximately 4,800 civilian 
employees are serving in the Central Command theater.
    In response to these imperatives, the Department institutionalized 
the Civilian Expeditionary Workforce (CEW) to provide deployable 
civilian experts to support military operations, contingencies, 
emergency operations, humanitarian missions, disaster relief, and 
stabilization and reconstruction operations. The CEW is designed to 
enhance the Department's ability to work alongside and help build the 
capacity of partner defense ministries and provide surge support where 
needed. Today, the CEW is a Capability-Based Volunteers program. In the 
future, after the DOD Directive governing CEW is revalidated, the CEW 
will encompass a pre-identified subset of the Department's emergency 
essential and volunteer civilian workforce by skill sets and 
capabilities, who are trained, ready, cleared, and equipped for rapid 
response and quick assimilation into new environments. Since June 2010, 
CEW deployments have increased by 51 percent, from 171 deployed 
civilians to 353 as of the end of February 2011. Civilians deployed 
under the CEW receive general and theatre-specific, urban training, and 
are eligible for the same health care benefits in-theatre as deployed 
military personnel, including medical evacuation and access to hospital 
services.
    With the support of Congress, the Department has obtained important 
incentives and benefits to help compensate for the inherent risks of 
deployment. The Department continues to identify pertinent issues and 
propose fully integrated solutions to ensure force health protection, 
surveillance, deployment benefits, and medical care for civilians who 
have been injured, wounded, or have contracted diseases while deployed 
in support of contingency operations. We have worked in partnership 
with OPM, the Department of State, and the Department of Labor to 
ensure all similarly-situated Federal civilians receive consistent and 
equitable benefits commensurate with the risks of deployment. In this 
endeavor, working with our partner agencies, we developed proposed 
legislation to provide a standard benefits package for all Federal 
employees.
New DOD-wide Performance Management System, Redesigned Hiring, and 
        Workforce Incentives
    The NDAA for Fiscal Year 2010 mandated new DOD-wide personnel 
authorities, including a fair, credible, and transparent performance 
management system that links employee bonuses and other performance-
based actions to performance appraisal, and redesigned appointment 
procedures that will better meet mission needs; and provided 
discretionary authority to establish the DOD Civilian Workforce 
Incentive Fund for incentive payments for individual and team 
performance and to attract applicants or retain employees with 
particular or superior qualifications or abilities. The NDAA requires 
these authorities to be developed in coordination with OPM and that 
their development, design, and implementation are subject to collective 
bargaining obligations. Executive Order 13522, Creating Labor 
Management Forums to Improve Delivery of Government Services, allows 
employees and their union representatives to have pre-decisional 
involvement in decisions relating to all workplace matters to the 
fullest extent practicable.
    The Department has been mindful of its responsibility to work with 
exclusive representatives of DOD employees, involve the workforce, and 
not constrain the development of the new authorities. In the interest 
of building an effective relationship between management and labor, the 
conference originally planned for April 2010 to begin exploring ideas 
for these authorities was postponed to give time for further 
collaborative discussions between labor and management with respect to 
a pre-design conference to help identify broad concepts for the NDAA 
personnel authorities mentioned above. The October 2010 reports to 
Congress covered the jointly designed, planned, and led New Beginnings 
Conference held in September 2010, the first mutually agreeable date.
    Since the September conference, DOD has continued to engage the DOD 
unions on these authorities. A joint planning group met in mid-December 
to identify requirements for the start-up of the design effort. A 
second planning meeting was held January 20, 2011, with follow-up 
teleconferences on February 4 and 11. There are three joint design 
teams--performance management, hiring, and workforce incentive fund--
with equal representation between management and DOD unions. Each team 
has a management and labor co-lead. Team members are from the DOD 
components, OPM, and Federal Managers' Association and include line 
managers, union officials, employees at various grade levels, and human 
resources professionals from the National Capital Region and well 
beyond.
Marketing DOD Employment Opportunities
    The Department values the experience and commitment of our 
servicemembers and places special emphasis on supporting transitioning 
servicemembers, wounded warriors, and veterans in their search for 
employment. We continue our efforts to actively reach out to our 
veterans to assist them in their civilian employment search with 
aggressive marketing and outreach programs, transition assistance 
programs, career fairs, and benefits counseling and assistance.
    The Department continues this tradition in support of Executive 
Order 13518, the Veterans Employment Initiative. In January 2010, the 
Department stood up the DOD Veterans Employment Program Office to 
promote veterans recruitment, training and development throughout the 
Department.
    DOD aggressively promotes/markets veterans hiring through DOD's 
Hiring Heroes Program, veterans outreach events, and assistance to 
veterans with navigating the application process in their search for 
employment.
    To facilitate hiring, the Department manages nationally recognized 
Hiring Heroes Career Fairs, conducting 8 to 10 events throughout the 
United States each year. These events are specifically designed for and 
marketed to wounded, ill, and injured servicemembers, transitioning 
military, veterans, and their families to assist them in their search 
for employment. Since April 2005, 40 Hiring Heroes Career Fairs have 
been conducted, reaching over 13,800 job seekers and 2,388 employers. 
In 2010 alone, 9 career fairs were conducted, resulting in 297 
placements. Six Hiring Heroes Career Fairs are scheduled for fiscal 
year 2011 at Fort Sam Houston, TX (2); Fort Riley, KS; Camp Pendleton, 
CA; Fort Lewis, WA; and Walter Reed Army Medical Center. These events 
are marketed through the military services, Transition Assistance 
Program Offices, Civilian Personnel Centers, Wounded Warrior Transition 
Brigades, Military Treatment Facilities, Department of Labor and 
Veterans Affairs, and numerous Veterans Service Organizations using 
posters, flyers, emails, Facebook, Twitter, Web sites, et cetera.
    The www.DODVets.com Web site provides veterans and transitioning 
servicemembers with information on employment opportunities, veterans' 
preference, special hiring authorities, Q&As, as well as a calendar of 
recruitment events for veterans conducted throughout the United States. 
The Web site also provides Hiring Managers with information on veterans 
hiring authorities.
    The Student Training and Academic Recruitment (STAR) Program is 
another innovative recruitment program developed by the Department. 
Students are hired as on-campus representatives to promote DOD as the 
``Employer of Choice'' and to market (through peer-to-peer interactions 
such as information sessions, special events and one-on-one) DOD's 
various and diverse employment and scholarship opportunities. The 
program is designed to create a cost effective way to market to and 
recruit students in academic studies which mirror DOD's mission 
critical occupations and to provide a year-round DOD presence on 
campus. The main goal of the program is to build a competent, diverse, 
and a highly-skilled civilian workforce, ready to meet 21st century 
global challenges and to support the Department's national security 
mission. The STAR Program is currently active at 5 universities, 
Michigan Technological University, Houghton, MI, University of Puerto 
Rico at Mayaguez, Mayaguez, PR, Tennessee State University, Nashville, 
TN, Morgan State University, Baltimore, MD and Rochester Institute of 
Technology/National Technical Institute for the Deaf, Rochester, NY. To 
date, the STAR program has resulted in permanent Federal career 
opportunities for 10 of the participating students.
National Security Personnel System Transition
    The NDAA for Fiscal Year 2010 repealed the statutory authority for 
the National Security Personnel System (NSPS) and requires that all 
covered employees be transitioned by not later than January 1, 2012, to 
the statutory pay and personnel system that last applied or that would 
have applied if NSPS had never been implemented, as appropriate. The 
law also requires that employees not suffer a loss of or decrease in 
pay upon conversion out of NSPS due to its repeal. The rules of the 
gaining pay and personnel system apply to determine employee placements 
and pay setting.
    The termination of NSPS and the transition of all employees and 
positions are on schedule to be completed by the statutory deadline. 
Before drawdown began in late February 2010, there were approximately 
226,000 employees covered by NSPS. Because 75 percent of them occupied 
positions with origins in the General Schedule (GS) system, the 
Department's goal was to transition most employees back to GS during 
fiscal year 2010. The DOD components assessed their readiness and 
determined NSPS transition schedules based on the following criteria: 
least possible disruption to mission and hardship to employees, 
existence of classified positions under the successor personnel system, 
existence of legacy performance management systems, and information 
technology capability.
    During fiscal year 2010, approximately 172,000 employees 
(representing 76 percent of the NSPS population) were transitioned out 
of NSPS to GS. As of September 30, 2010, approximately 53,000 employees 
remained covered by NSPS and will be transitioned in calenar year 
2011--approximately 44,000 by the end of June, another 8,000 by 
October, and the remaining employees before the statutory deadline. 
Employees are being transitioned in calendar year 2011 to the 
acquisition workforce personnel demonstration project, Navy alternative 
personnel system (``China Lake''), new laboratory personnel 
demonstration projects as required by section 1105 of NDAA, and to GS. 
Employees going to GS during calendar year 2011 include those assigned 
to designated healthcare occupations for which the Department had long 
considered implementing alternative pay and qualification systems under 
special authority and those affected by special situations, including 
employees who were deployed or who were subject to 2011 BRAC actions. A 
report to Congress at the end of April 2010 described steps taken for 
the reclassification of NSPS positions and the initial plan for 
transitioning employees and organizations from NSPS. The first 
semiannual report on transition progress, transmitted in October 2010, 
provided information on the transition of employees to the GS system 
during fiscal year 2010. Reports at the end of April and October 2011 
will include information about the transition of the remaining 
employees covered by NSPS.
Disestablishment Initiatives
    In August 2010, Secretary Gates announced a set of initiatives 
aimed at increasing efficiencies, reducing overhead costs and 
eliminating redundant or low priority functions. These initiatives 
included the decision to disestablish the Office of the Assistant 
Secretary of Defense for Networks and Information Integration, the 
Business Transformation Agency, the Joint Chiefs of Staff J-6 Command, 
Control, Communications, & Computer Systems organization and a 
recommendation for the closure of the United States Joint Forces 
Command.
    Since the announcement, the Department has engaged and met with 
various leaders of the affected organizations to discuss their way 
forward. We also established a Personnel and Readiness Transition Team, 
to work with the affected organizations to help them develop a 
transition strategy that is designed to be attentive to the needs of 
the affected population, transparent, and facilitates access to 
transition programs and tools. For the past 6 months, the team has been 
working closely with the affected organizations by assisting them with 
workforce analysis, timelines, and to identify necessary steps in 
implementing the disestablishment actions. We have leveraged best 
practices and lessons learned from BRAC actions and incorporated those 
lessons into our planning efforts.
    With the final approval of the recommended actions, my staff 
continues to work closely with the leadership in the affected 
organizations by assisting them to develop their final implementation 
plans. We are providing specific human resources policy guidance, 
assistance with outplacement tools and programs and information to 
implement the associated personnel actions. We have launched a web page 
with links to the affected organizations to communicate with the 
affected workforce and to help answer questions and alleviate anxiety. 
We are committed to working with leaders of affected organizations to 
do everything possible to assist their employees in order to facilitate 
a smooth transition and mitigate any adverse impact on the affected 
workforce.
Pay Freeze
    The Department implemented the pay freeze in accordance with 
statute, issued clear guidance, and ensured that the President's intent 
with regard to pay adjustments was applied in a fair and equitable 
manner across the Department. Although the pay freeze legislation 
covers most civilian DOD employees, we recognize that there may be 
exceptions based on extraordinary circumstances. Special rates may be 
approved under extraordinary recruitment or retention evidence and 
availability of funding for particular occupations. In the past couple 
of years, staffing challenges arose in specific medical occupations and 
in highly skilled and qualified blue collar occupations. The DOD pay 
freeze exception policy is currently under review. We have already 
instituted a review process whereby overseas commands can petition DOD 
for exclusions to the pay freeze based on the criteria developed with 
OPM and the State Department.
Insourcing
    We understand that, across the entire department, we must do a 
better job of managing our Total Force of Active and Reserve military, 
government civilians, and contracts for services. Moreover, in the 
absence of change our Total Force costs, and associated health care 
expenses, will become prohibitively more expensive. Predictable 
consequences will include inadequate recapitalization, and a severely 
degraded future readiness.
    To that end, we are changing how we strategically look at the Total 
Force, both as we execute our mission and plan across the Future Years 
Defense Program. This not only includes the development and 
promulgation of policies, but is contingent on providing managers with 
the tools, resources, and information necessary to achieve the outcomes 
we desire in this increasingly austere fiscal environment. Among other 
things, while we must deliver an All-Volunteer Force as a large and as 
capable as our commanders require, we must also ensure that we 
consistently challenge assertions of military essentiality, only 
planning for uniformed personnel if necessary. Similarly, the balance 
between Active and Reserve Forces must be judicious and well-reasoned.
    DOD is committed to meeting its statutory obligations under Title 
10 to annually review its contracted services, identifying those that 
are more appropriately performed by the government workforce and 
should, therefore, be in-sourced. This includes services that are 
inherently governmental and could include services closely associated 
with inherently governmental work; that provide unauthorized personal 
services; or that may otherwise be exempted from private sector 
performance (to mitigate risk, ensure continuity of operations, build 
internal capability, meet and maintain readiness requirements, etc). 
While some contracted services may be identified for in-sourcing, some 
services determined to be no longer required or of low priority may be 
reduced in scope or eliminated, while other required services will 
continue to be provided by the private sector.
    Additionally, partnering with USD (AT&L), the military departments, 
and others, P&R is ready to meet its newly delineated responsibilities 
under Title 10, and improve how the Department accounts for its 
contracted services. Collectively, the actions being taken will improve 
the long-term utility of the inventory of contracts for services; more 
adequately ensure the representation of Total Force management equities 
during the review process; and improve the Department's ability to 
accurately and holistically assess its contracted workload and the 
services being delivered in the context of applicable statutes, 
policies, and regulations. These changes are critical to improve the 
Department's ability, over the next several years, to more effectively 
manage individual contracts and workload associated. This will ensure 
we achieve the right balance in our workforce, aligning inherently 
governmental activities to military and civilian workforces and 
commercial activities to the most cost effective service provider--be 
that military, civilian, or contracted support.
    Those contracted services that meet the necessary criteria 
(consistent with governing statutes, policies, and regulations) will be 
in-sourced, by:

        <bullet> absorbing work into existing government positions by 
        refining duties or requirements;
        <bullet> establishing new positions to perform contracted 
        services by eliminating or shifting equivalent existing 
        manpower resources (personnel) from lower priority activities; 
        and
        <bullet> on a case-by-case basis, requesting an exception to 
        the civilian limits the Secretary has asked the Department to 
        adhere to.

    Our in-sourcing efforts are focused on rebalancing the workforce, 
rebuilding critical internal capabilities (including the acquisition 
workforce), and reducing operational risks and are consistent with the 
reforms to government contracting that President Obama called for in 
March 2009: addressing overreliance on contractors; appropriately 
aligning inherently governmental activities to government performance; 
performing functions efficiently and effectively; and protecting the 
public's interest while providing the best value for taxpayers.
    Lastly, while there has been significant focus over the past few 
years on in-sourcing, the Department recognizes that insourcing is just 
one of many management tools and is not a one-size-fits-all solution. 
Not all in-sourcing is good, just as not all out-sourcing is bad. The 
private sector is, and will continue to be, a vital source of 
expertise, innovation, and support to the Department's Total Force.
    We appreciate Congress' concern related to public-private 
competitions under OMB Circular A-76. I will soon be submitting a 
report that is the result of nearly 18 months of policy and `best 
practice' review. Our report will make recommendations to improve the 
end-to-end public-private competition process. We believe that a 
public-private competition process can be a useful tool for our 
commanders and managers to use to validate an organization's manpower 
and other requirements; drive a more consistent delivery of mission 
critical support and services to our servicemembers and families; and 
deliver readiness while minimizing fiscal opportunity costs to meet the 
compelling needs of the Department.
    In summary, we must have a Total Force that provides our commanders 
the enabling manpower they require. However, we must also ensure that 
its costs do not deprive those same commanders and our forces of the 
technologies, platforms, and systems that will translate into necessary 
capabilities.
                               conclusion
    We are confronted with three fundamental and related challenges as 
we transition the end strength of our forces and execute efficiencies 
within the Department and the Services. First, we must continue to 
attract and retain high quality, motivated individuals for Active and 
Reserve military service and we must maintain an enthusiastic and 
skilled civilian workforce. Second, we need to work together with this 
Congress in creating a system of force management tools focused on a 
means to compassionately reduce the force as operations subside. Third, 
we must constantly weigh sufficiency against the risks of an uncertain 
future. As we invest in our human capital, we must do so judiciously. 
While our future challenges may often seem without bounds, our 
resources are not. We are faced with hard choices, as a Department and 
as a Nation, of allocating our resources the best we can to win the war 
at hand while taking care of our most valuable asset--our men and women 
in uniform. I look forward to working with this Congress to meet these 
challenges over the coming year and beyond.

    Senator Webb. Thank you, Secretary Stanley.
    Mr. Hale, welcome.

 STATEMENT OF HON. ROBERT F. HALE, UNDER SECRETARY OF DEFENSE, 
            COMPTROLLER, AND CHIEF FINANCIAL OFFICER

    Mr. Hale. Well, thank you, Mr. Chairman, Senator Hagan, 
Senator Ayotte. I appreciate the opportunity to be here to 
testify.
    I'm going to focus on our overall budget very briefly, and 
our efficiency proposals. I'll concentrate on the proposed 
healthcare initiatives.
    As you said, I submitted a statement for the record.
    Let me begin with the overview of the budget.
    We asked for $553.1 billion in base budget authority in 
fiscal year 2012, and it is intended to reinforce three 
priorities that Secretary Gates has established. First, it 
reaffirms our commitment to take care of the All-Volunteer 
Force. Secretary Gates has called this a ``national asset.'' I 
couldn't agree more. It is our highest priority. Second, the 
fiscal year 2012 base budget continues to rebalance the 
Department's capabilities to improve our ability to prevail in 
current conflicts. Third, it enhances the capabilities for 
conflicts we may face in the future.
    The budget also furthers the reform agenda that Secretary 
Gates started in fiscal year 2010. For this fiscal year, we 
propose continuing this cost-cutting, with an emphasis on 
business operations. Our plans propose savings of $170 billion 
in fiscal year 2012 through 2016. These savings will be 
achieved in a variety of ways, through a number of 
reorganizations in the departments, through some selected 
termination of weapons systems, through infrastructure changes, 
and particularly by changes in our business processes.
    Included in this package of efficiencies are proposed 
changes in the military health system, and I'll focus on those.
    In 2012, the budget includes $52.5 billion to support the 
military health system and its 9.6 million beneficiaries. We 
take pride in providing beneficiaries the best medical care, 
and we will do nothing to interfere with that goal. I want to 
underscore that commitment. But, the costs of the military 
health system have nearly tripled in the last decade, from $19 
billion in 2001 to the present request for more than $52 
billion.
    Our challenge is daunting, but real. We have to find ways 
to maintain the quality of healthcare, but slow the growth in 
costs. Meeting that challenge begins with streamlining 
operations at our headquarters. Health Affairs, for example, is 
reducing its headquarters staff by more than 700 contractors. I 
think there are people up at this table that can do better than 
I at describing where they're headed in doing that.
    Additional reforms will involve beneficiaries. We are 
proposing a modest increase in TRICARE enrollment fees for 
working-age retirees; those under age 65. Congress introduced 
fees for TRICARE in the mid-1990s, when the program was 
created. Since then, those fees have not been changed, in 
dollar terms, at all. Had they been indexed to a medical index, 
the fee which is, today, $460 for families; and TRICARE Prime 
would have been more than $1,000. Instead, retiree out-of-
pocket-cost expenses have fallen from 27 percent of healthcare 
costs in 1995 to 11 percent today. The administration's 
proposal will increase fees for working-age retirees by a 
modest $5 a month for families and $2.50 a month for 
individuals. Beginning in 2013, future enrollment fees will be 
increased based on growth in the per capita national health 
expenditures.
    Indexing to national health expenditures will stabilize 
cost-sharing in TRICARE, though it will stabilize it at a level 
much more favorable to retirees than what Congress envisioned 
in the 1990s. These modest first-ever increases in TRICARE fees 
will save an estimated $434 million in 2012 through 2016, and 
more than $1 billion through fiscal year 2021. I'll mention a 
number of dollars throughout. But, if we don't, or aren't 
allowed to do this, then we will have to look for other 
changes. We're not going to see increases in the Defense 
budget. We will have to look for other changes in the support 
and training we provide to our military.
    We also plan to change copays for pharmaceuticals to 
provide incentives for beneficiaries to choose the most cost-
effective options for prescriptions; namely, the use of generic 
drugs and the delivery of prescriptions by mail. These reforms 
will save over $2.5 billion between 2012 and 2016. So, they're 
particularly important, both to the quality of healthcare, but 
also to our budget.
    DOD proposes a regulatory change that will eliminate 
special subsidies for sole community hospitals that serve 
military beneficiaries. Current rates to sole community 
hospitals (SCH) are substantially higher than what is paid to 
most other hospitals treating military personnel. Federal law 
requires that we adopt Medicare rates at these hospitals, to 
the extent practical. That's what we're proposing.
    In addition to complying with the law, this change will 
save the health system $395 million between 2012 and 2016. We 
will phase in this change slowly over at least 4 years, in 
order to avoid adverse effects on care provided at the affected 
hospitals.
    Lastly, we propose equitable treatment for all Medicare-
eligible military retirees. Under current law, a few Medicare-
eligible enrollees are allowed to remain in the Uniformed 
Services Family Health Plan (USFHP), a plan involving six 
hospitals, whether they enroll in Medicare Part B, or not. They 
are the only retirees using the military health benefits who do 
not have to enroll in Medicare when they become age eligible. 
This is the one area where we need legislative authority to 
require those who are part of the USFHP to join Medicare, just 
like all the other retirees.
    Moreover, under current law, the six Federal family health 
plans--programs--receive claim payments that exceed Medicare 
rates. We seek legislation that will permit us to reimburse 
those plans in the same manner as we do for most other 
hospitals serving military beneficiaries. We will make these 
USFHP changes very gradually, fully grandfathering all who are 
currently over age-65 and in the Family Health Plan. So, it 
will take place over a number of years.
    The Federal Government, as a whole, would save money under 
this plan; it's not a lot, but there are modest savings. The 
Department savings from this proposal would be very 
substantial. We budget on an accrual basis for these. That is, 
we're looking out over the whole career of an individual and 
setting aside money to pay for it. So, we immediately see major 
effects. Our budget would be reduced by $3.2 billion over the 
5-year period from 2012 to 2016. So, it's very important to us, 
budgetarily.
    I particularly ask the committee's support for provisions 
affecting the sole community hospitals, and for legislation to 
permit changes in the USFHP. These proposals will permit the 
Department to comply with the law and treat all our hospitals 
and retirees equitably.
    Taken together, DOD's healthcare proposals are reasonable 
and fair to all, we believe. None of our proposals would affect 
Active Duty servicemembers. That's an important point. The 
proposals are strongly supported by the Secretary of Defense--
you heard him comment on them in his oral statement when he 
testified before the House Armed Services Committee; also by 
the Chairman of the Joint Chiefs--he also commented on them 
verbally; and indeed, by all our senior military leaders--they 
sent a rare 24-star letter of support to Congress, earlier this 
year, in support of these healthcare changes.
    These proposals generate savings that will help us pay for 
needed training and equipping of the Armed Forces. Indeed, as I 
said, if we don't get authority to do this, we'll face major 
holes in the military budget. So, that may be very hard to 
handle in difficult budgetary times. But, most importantly, the 
congressional support for these proposals will lay the 
groundwork for a sustainable future for the military healthcare 
system.
    Mr. Chairman, that concludes my oral remarks. When my 
colleagues are finished, I'd be glad to hear your questions.
    [The prepared statement of Mr. Hale follows:]
               Prepared Statement by Hon. Robert F. Hale
    Senator Webb, Senator Graham, members of the committee, thank you 
for the opportunity to speak about the budget of the Department of 
Defense and our efficiency proposals, especially our proposed health 
care initiatives.
    I will address these military health care issues with a focus on 
their financial aspects. I appreciate the leadership of the Under 
Secretary of Defense (Personnel and Readiness), and from his staff, on 
broader issues related to personnel in the Department.
    I would like to begin with a brief overview of the President's 
Budget for the entire Department including our overall efficiency 
initiative. I will then focus on our health care proposals.
                          base budget request
    Mr. Chairman, the Department's budget for fiscal year 2012 includes 
$553.1 billion in discretionary budget authority and continues and 
reinforces three priorities laid down by Secretary Gates for the 
Department:

        <bullet> First, it reaffirms our commitment to take care of the 
        all-volunteer force, America's greatest strategic asset. We 
        propose a 1.6 percent military pay raise, $8.3 billion for 
        family support programs, and $52.5 billion for military health 
        care.
        <bullet> Second, the fiscal year 2012 base budget continues the 
        rebalancing of the Department's capabilities in order to 
        improve our ability to prevail in current conflicts, such as 
        the unconventional war in Afghanistan. For example, we plan to 
        invest $4.8 billion to purchase unmanned aerial vehicles and 
        $2.3 billion for cyber activities.
        <bullet> Third, the President's budget for fiscal year 2012 
        maintains and enhances capabilities for the conflicts we may 
        face in the future. Included are a restructured but substantial 
        Joint Strike Fighter program, a new tanker program, an 
        aggressive shipbuilding program, a new ground combat vehicle, 
        and many other initiatives.

    In addition to these three broad priorities, the budget for fiscal 
year 2012 furthers the reform agenda that Secretary Gates launched in 
fiscal year 2010 and which continues in this budget. In fiscal years 
2010 and 2011 that agenda included steps to curtail or eliminate 
programs that have fully satisfied procurement needs, as well as those 
that are seriously troubled or provided capabilities too narrow to 
justify their expense. More than 20 programs were restructured or 
eliminated, among them further production of the F-22 and the C-17 
aircraft, the program for the new VH-71 Presidential helicopter, the 
Navy's DDG-1000 ship program, and the Army's Future Combat System 
(FCS). These difficult decisions resulted in substantial savings.
    For fiscal year 2012, we propose to continue our cost-cutting with 
emphasis on business operations. Our plans save $178 billion in fiscal 
year 2012 to fiscal year 2016 through efficiencies and streamlining of 
programs. The Armed Services identified about $100 billion of savings, 
which they are reinvesting to improve combat capability. The remaining 
$78 billion in Defense-wide savings was used to accommodate reductions 
in the defense topline and to support the administration's efforts to 
reduce the Federal deficit.
    These savings will be achieved through reform of DOD's 
organizational structure, weapons programs, infrastructure, and 
business processes. We propose to terminate or consolidate 
organizations in all the military departments. We will terminate the 
Marine Corps' Expeditionary Fighting Vehicle, end procurement of the 
Army's SLAMRAAM surface-to-air missile, and make other changes in 
weapons programs. Changes in business processes include consolidation 
of data centers, improvements in weapons sustainment, reductions in 
acquisition costs, and elimination or streamlining of lower-priority 
support tasks in order to accommodate a civilian personnel freeze and 
reductions in funding for contractors. Included in this package of 
efficiencies are proposed changes to the Military Health System (MHS).
                        health care efficiencies
    The fiscal year 2012 budget includes $52.5 billion to support the 
MHS and its 9.6 million eligible beneficiaries, including Active Duty 
servicemembers and their families, military retirees and their 
families, dependent survivors, and certain eligible Reserve component 
members and their families. Starting this year, the MHS is adding the 
TRICARE Young Adult Program, which extends benefits for certain 
dependents in accord with the National Defense Authorization Act for 
Fiscal Year 2011.
    We take pride in providing MHS beneficiaries with the best medical 
care, and we will do nothing to reduce the quality of that care. But 
the costs of the Military Health System have nearly tripled in little 
more than a decade, from $19 billion in 2001 to the present request of 
more than $52 billion. The challenge we face: find ways to maintain 
quality health care while slowing the growth in costs.
    Efforts to achieve this are by no means new. To date, more than 
$1.65 billion in annual savings have been implemented. The 2007 
National Defense Authorization Act prohibited employers from offering 
incentives to employees to drop employer-based health insurance in 
favor of TRICARE. Savings of $500 million were achieved thanks to 
rebates from pharmaceutical manufacturers for retail prescriptions. 
Matching payments to Medicare rates for outpatient care in hospitals 
and ambulatory centers will save another $900 million. Enhanced fraud, 
waste, and abuse detection and prosecution are expected to net another 
$137 million. By standardizing medical supplies and equipment, we are 
producing another $30 million in annual savings.
    These achievements are noteworthy, but we must do more. As a 
result, the Department has proposed additional headquarters reforms, 
changes in the TRICARE system that will better balance responsibilities 
for health between DOD and the people we serve, shifts in pharmacy co-
pays designed to encourage efficiency, and changes to ensure that costs 
to individuals and payments to hospitals are consistent throughout the 
military medical care system.
                       headquarters efficiencies
    Greater efficiencies begin with streamlined operations at 
headquarters. Health Affairs is reducing headquarters staff by more 
than 700 contractor positions, as well as promoting greater sharing of 
services and capabilities between the Armed Services. We are currently 
devising specific plans to accommodate these reductions, plans that 
include approaches such as contract consolidation and the efficiencies 
in Information Technology (IT) support. Other efficiencies are 
anticipated with the conclusion of the BRAC process and consolidation 
of medical headquarters for Health Affairs, the TRICARE Management 
Activity, and the Service Surgeons General.
                        tricare enrollment fees
    Additional reforms will involve beneficiaries. We are proposing a 
modest increase in TRICARE enrollment fees for working age retirees. 
Congress introduced fees for TRICARE in the mid-1990s, when the program 
was created. Since then, annual fees have not been changed in dollar 
terms. Had they been indexed to Medicare, fees of $460 for families 
would have grown to more than $1,000 by fiscal year 2010. Instead, 
retiree out-of-pocket expenses actually fell from 27 percent of total 
health care costs in 1995 to 11 percent in fiscal year 2010.
    The administration's proposal will increase fees for working-age 
retirees by a modest $5 per month for families and $2.50 per month for 
individuals, which will raise the annual fee from $460 to $520 for 
families and from $230 to $260 for individuals. Beginning in 2013, 
future enrollment fees will also be increased based on growth in per 
capita National Health Expenditures. Note that the increases will only 
affect the 1.6 million retirees in TRICARE Prime who are younger than 
65 years of age. Disabled retirees and survivors will be exempted.
    These modest, limited, first-ever increases will save an estimated 
$434 million in the fiscal year 2012-2016 period and $1.5 billion 
through fiscal year 2021, money that will help to maintain a strong, 
well-trained military.
                            pharmacy co-pays
    We plan to change co-pays for pharmaceuticals to provide incentives 
for beneficiaries to choose the most cost-effective options for 
prescriptions, namely use of generic drugs and delivery of 
prescriptions by mail. Co-pays are eliminated altogether for generic 
drugs ordered through the mail order program, which will mean a savings 
to beneficiaries of $3 per prescription. Most non-generic drugs are 
available via mail order with no increase in co-pays. For retail 
pharmacies, co-pays are increased by $2 to $3 per prescription. We 
estimate that these reforms will save over $2.5 billion between fiscal 
year 2012 and 2016 and, again, help to maintain a strong military even 
in lean times.
    In addition, changes in co-pays are expected to improve patient 
care. It has been noted that patients with chronic conditions requiring 
regular medications are actually more likely to comply with their 
medical regimen when the prescriptions are delivered to their homes.
                        sole community hospitals
    DOD proposes a TRICARE regulatory change that will eliminate 
special subsidies for Sole Community Hospitals (SCHs) that serve 
military beneficiaries. Current rates for the SCHs are more than twice 
as high as what is paid to other acute TRICARE network and non-network 
hospitals covered under this proposal and 29 percent higher than 
commercial insurers are paying for the same services. Federal law 
requires that we adopt Medicare rates to the extent practicable. By 
implementing this regulatory change at SCHs, we can save the Military 
Health System $395 million between fiscal year 2012 and 2016.
    We realize that this proposal will have an impact on the revenue 
streams of certain hospitals, but that impact should be modest for all 
but a handful of hospitals. TRICARE accounts for less than 1 percent of 
inpatient admissions at the vast majority (81 percent) of SCHs and less 
than 5 percent of inpatient admissions at 95 percent of these 
hospitals. We propose phasing this change in over the next 4 years for 
all affected hospitals, and we will work with those who are most 
affected to minimize disruptions.
                            usfhp enrollees
    Lastly, we propose to provide equitable treatment for all Medicare-
eligible retirees by offering a single program design across the 
country. Under current law, Medicare-eligible enrollees are allowed to 
remain in the Uniformed Services Family Health Plan (USFHP), whether 
they enroll in Medicare Part B or not. They are the only military 
retirees using military health benefits who do not have to enroll in 
Medicare when they become eligible. We seek legislative authority that 
will require those who are part of the USFHP to join Medicare upon 
reaching age 65. Under current law, the six USFHPs receive claims 
payments that exceed Medicare rates. We seek legislation that would 
permit us to reimburse these plans in the same manner as we do for all 
other Medicare-eligible retirees. Our plan will fully grandfather all 
of those who are already in USFHP, but would require future USFHP 
enrollees to transition to Medicare and TRICARE for Life once they 
become Medicare-eligible. Future retirees covered by the proposal would 
still be able to obtain services from providers associated with USFHP 
as long as the providers accept Medicare.
    We believe that it is not appropriate to treat individuals 
differently just because they join a particular plan. Nor is it 
appropriate to provide a few hospitals with special subsidies. This 
proposal is estimated to reduce Federal outlays by $34 million over the 
fiscal year 2012-2016 period and $279 million over the next decade. 
Because DOD budgets for this program on an accrual basis, the 
Department's savings from this proposal would be substantial. Under our 
proposed changes, DOD accrual contributions are reduced by $3.2 billion 
over the 5-year period, fiscal year 2012-2016.
                               conclusion
    I want to emphasize that none of our proposals would affect costs 
to Active Duty servicemembers. Also, there will be no change in 
enrollment fees for medically retired servicemembers or survivors of 
servicemembers.
    These proposals represent a package of incentives and changes in 
payments and benefits that we believe are reasonable and fair to all. 
Most importantly, they lay the groundwork for a strong and sustainable 
future for the military health care system. The proposals generate 
savings that will help to pay for needed training and equipping of the 
Armed Forces.
    Mr. Chairman, that concludes my statement. My colleagues and I 
welcome the committee's questions.

    Senator Webb. Thank you very much, Secretary Hale.
    I would now like to call on Senator Graham, who has 
arrived, as predicted.
    Senator Graham. Thank you.
    Senator Webb. We welcome you to this hearing. I think you 
said you had three hearings going at the same time.
    Senator Graham. Yes. I just met with General Petraeus's 
wife, who is now in charge of protecting our military men and 
women from predatory lending practices. That was something I 
wanted to come and talk to our committee about.

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Mr. Chairman, as always, I have really 
enjoyed our working relationship. I think we've done a pretty 
good job, if I say so myself, of keeping the men and women well 
equipped and well trained.
    On the healthcare front, this is really a difficult 
situation. You're talking about 16.5 percent of the DOD's 
budget, by 2028, being healthcare cost. Now, that's doubling in 
less than 20 years.
    Are you retired?
    Senator Webb. I am a retired marine, yes.
    Senator Graham. Okay. He's a retired marine. I, one day, 
hope to be a retired Air Force officer.
    I guess what I'm going to say is that I understand what the 
administration's trying to do. We have to move this debate 
forward on sustainability. We haven't had a premium increase 
since 1989. Some of the fees to be increased, proposed by the 
administration, I think, is something we should all consider. I 
respect the House. But, eventually you're going to have to make 
some very draconian choices between healthcare and operational 
needs. That's not where we want to find ourselves.
    Secretary Hale, your idea of trying to get a better bang 
for our buck, looking at programs to make them more efficient, 
improving the quality of care while lowering cost, is 
absolutely essential.
    Secretary McCarthy, we're going to miss you. You've been a 
really good, stalwart advisor to this committee.
    To the rest of you, I appreciate your involvement.
    But, Mr. Chairman, somebody eventually is going to have to 
address this. We are just putting the DOD budget in an 
unsustainable Hobson choices here. I am convinced, with a 
little forward thinking, that people in my income level, when I 
retire, could be able to contribute a little bit more to save 
the system and free up some dollars for operational needs and 
the force of the future.
    I look forward to working with you and the administration 
to try to find out a way to make this happen. I support your 
2012 budget.
    Healthcare's important to our men and women; TRICARE for 
the Guard and Reserve was a good move. Worked with Secretary 
Clinton. The GI Bill was a good move. We're seeing astonishing 
results there. People are signing up to be able to transfer 
their benefits to their children. We now need to talk about 
transferring to grandchildren. I know this is not the 
healthcare piece. But, I had a National Guard guy from South 
Carolina say, ``You know, I got three grandkids. Why can't I 
transfer my GI benefits to my grandkids?'' That shows you that, 
in the Guard and the Reserve, you have some people who've been 
around a while. [Laughter.]
    They may not be many, but I want to help them if we can.
    Thank you all. Together maybe we can find some rational way 
to move forward to reform healthcare within DOD.
    Senator Webb. Thank you very much, Senator Graham.
    As always, it's been great working with you on this 
subcommittee.
    Secretary McCarthy, welcome.

 STATEMENT OF HON. DENNIS M. McCARTHY, ASSISTANT SECRETARY OF 
                  DEFENSE FOR RESERVE AFFAIRS

    General McCarthy. Mr. Chairman, Senator Graham, and members 
of the subcommittee, I can say without hesitation that it's 
always an honor to appear before a committee of the U.S. 
Senate, and especially since this is probably my last 
opportunity to do so.
    As always, I thank the committee and your staff for all 
that you've done for the men and women in uniform, especially 
for those whose it's my responsibility to serve, the members of 
the Reserve and National Guard. They have benefited greatly 
from the concern and the expertise that you've brought to bear 
on their behalf.
    As I believe you know, the 2010 Quadrennial Defense Review 
directed what it called a Comprehensive Review of the Future 
Role of the Reserve Component and the Balance Between Active 
and Reserve Forces. That review was completed earlier this 
year. Secretary Gates has just approved the report and directed 
that its analysis be part of the budgetary review for fiscal 
year 2013 and beyond. I believe this report will be extremely 
valuable in describing the ways that the National Guard and 
Reserve can contribute to our defense in coming years.
    Clearly, the Reserve components are at a point of 
transition. The last 10 years have been dominated, as you 
pointed out, Senator, by a demanding period of sustained 
mobilization that was never previously envisioned. Congress, 
DOD, and the military departments, and, most importantly, the 
men and women of the Reserve and Guard, and their families, 
have all adjusted to this reality. But, now as we draw down our 
forces in Iraq, and with a relatively small RC footprint in 
Afghanistan, the demand on Guard and Reserve for combat service 
is declining, at least temporarily.
    We can use this opportunity to move in one of two 
directions. We can return the Reserve and Guard to their pre-
September 11 role as a Strategic Reserve, or we can find ways 
to continue to judiciously use the Reserve component as a part 
of the operational force. Having spent many years in direct and 
personal communication with the men and women serving in the 
post-September 11 Reserve components, I can tell you that most 
of them do not want to go back on the shelf as a purely 
strategic Reserve. Several of the Service Chiefs' posture 
statements indicate that they agree with their troops on this 
issue.
    Everyone serving in the Guard and Reserve today either 
enlisted or reenlisted since September 11, knowing full well 
the demands and expectations flowing from that decision. I 
believe we will all agree they've performed magnificently and 
have become accessible, well trained, and resilient. Their 
families and their employers have also demonstrated resolve and 
perseverance that some once doubted.
    The question before us now is, How can the Nation best 
preserve and utilize this hard-earned capability? Maintaining 
training and equipment readiness, balancing accessibility with 
judicious use, both will be essential. Continuing work on both 
law and policy will be necessary. But, the human capital that's 
resident in the Reserve and Guard is of such high quality that 
any failure to use their talents would be wasteful and 
destructive of the capability that they have achieved.
    Although I'll be leaving active service, I know that the 
team at Personnel and Readiness will continue to support this 
committee's efforts to develop legislative tools that our 
citizen warriors need to succeed.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of General McCarthy follows:]
             Prepared Statement by Hon. Dennis M. McCarthy
                                 exsum
    Chairman Webb, Ranking Member Graham, and members of the 
subcommittee; I thank you for your invitation to participate in this 
hearing. This is my second appearance before this committee in my 
current role, and I welcome the opportunity to give you my perspective 
on what I perceive to be a roadmap to the future of your Reserve 
components (RC).
    After a decade of sustained engagement in combat operations, the 
Reserve components of our Armed Forces have transformed, from a 
strategic force of last resort to a dependable operational force that 
provides full-spectrum capability to the Nation. Today there are over 
100,000 National Guard and Reserve men and women on active duty around 
the world and at home, serving in missions ranging from combat in 
Afghanistan to defending the air space here in Washington, to 
humanitarian relief efforts in Japan.
    In order to best utilize the Nation's 10 year investment in your 
Guard and Reserve Forces, they must be:

         1. Accessible: Expansion of 12304 enables future planning for 
        an era of persistent conflict where augmenting the AC force in 
        specific missions can occur without an authority gap.
         2. Used Judiciously: The RC are highly capable and possess 
        many of the same capabilities as the AC, and have volunteered 
        to serve at an incredible rate. Many of these individuals have 
        the time and desire to serve more than the traditional standard 
        for Guard and Reserve personnel; and the Department should find 
        a way to leverage this willingness. In many cases, the Guard 
        and Reserve Forces should be the first choice for recurring or 
        predictable missions within their capability, which will 
        contribute to the sustainability of both the Active and Reserve 
        components. Putting in use rotational availability models allow 
        for continued movement towards the Department objective of 1 
        year mobilization for 5 years dwell time for the RC.
         3. Ready: Our RC forces need to continue to be maintained at 
        the highest level of readiness, to include not only 
        servicemember training and medical readiness, but also family 
        and employer readiness. Our dedicated Guard and Reserve 
        servicemembers receive support in a holistic manner, and we 
        have worked, through both the Yellow Ribbon Reintegration 
        Program and the Employer Support of Guard & Reserve Programs to 
        give access to community, State, and Federal level assistance 
        programs to servicemembers and their support networks before, 
        during, and after deployments. This includes resilience 
        training.
          Programs like these that ensure support during a 
        servicemember's continuum of service assists our Reserve 
        components in attracting the best and brightest to join. The 
        Services have implemented recruiting, retention, and force 
        shaping policies that you have authorized, and will achieve end 
        strengths for fiscal year 2011, which provide the RC with 
        forces necessary to meet strategic demands and maintain dwell 
        consistent with policy.
          RC readiness also includes being able to work and train in 
        quality facilities, and maintaining the current level of 
        equipment that is available for training and preparation. 
        Current funding for reset and maintenance of RC equipment comes 
        out of Supplemental appropriations, but as we move away from 
        dependence on these funds, it is important to include funding 
        in base budgets to maintain and repair the equipment that is 
        currently accessible to the RC.

    Chairman Webb, Ranking Member Graham, and members of the 
subcommittee; I thank you for your invitation to participate in this 
hearing. This is my second appearance before this committee in my 
current role, and I welcome the opportunity to give you my perspective 
on what I perceive to be a roadmap to the future of your Reserve 
components (RC). The Senate Armed Services Committee has always been 
very supportive of our National Guard and Reserve Forces. On behalf of 
those men and women, our Citizen Warriors, their families and 
employers, I want to thank you for all your help in providing for them 
as they have stepped up to answer the call to duty. We will do 
everything in our power to merit your continued support.
    After a decade of sustained engagement in combat operations, the 
Reserve components of our Armed Forces have transformed, from a 
strategic force of last resort to a dependable operational force that 
provides full-spectrum capability to the Nation. Repeated combat 
deployments, as well as peacekeeping and humanitarian relief missions, 
have produced an operationally resilient force that fully expects to be 
utilized on a periodic basis. This new force represents a 10-year 
investment in resourcing the Nation's commitments and the personal 
sacrifice of servicemembers, their families and employers. That 
investment can reliably provide the Department of Defense (DOD) with 
essential operational capabilities and strategic agility in a cost-
effective manner well into the future. Good stewardship demands that we 
continue to capitalize on this investment in order to maintain Guard 
and Reserve readiness, relieve stress on the Active component, and 
provide the widest array of force structure options in a resource 
constrained future.
                         an indispensable force
    Today there are over 100,000 National Guard and Reserve men and 
women on active duty around the world and at home, serving in missions 
ranging from combat in Afghanistan to defending the air space here in 
Washington. They serve alongside Regular component personnel, 
civilians, and contractors. They are experienced; many having served 
multiple tours in combat and are now leading people in combat. They are 
skilled; bringing many needed civilian skills to the military such as 
cyber, agriculture, law enforcement, and medical. We would not have 
been able to do what we have done over the past 10 years without them 
and I don't believe we can do what lies ahead of us without them.
    There are three key fundamentals going forward for the RC. They 
must be accessible, they must be used judiciously to best advantage, 
and they must be ready.
Accessibility
    With experienced, ready units and individuals, and the prospect of 
persistent conflict access to the RC in the future will be a key 
successful employment of the RC in the Total Force.
                        proposed change to 12304
    Future planning envisions an era of persistent conflict where some 
type of RC activation authority will be required to augment the Active 
component (AC) to maximize effectiveness and efficiency of the Total 
Force. At present, we have sufficient authority to mobilize RC forces 
for current operations. However, as directed (by the Senate Armed 
Services Committee conference report S. Rept. 111-201, page 138), we 
have analyzed our access authorities to support long term utilization 
of the RC as part of the operational force. We foresee an authority gap 
when the Nation is faced with persistent demands on the Total Force but 
does not have specific named operational missions, a national emergency 
or war situation. This authority gap exists for some, but not all, of 
the full spectrum of military missions, including training, 
peacekeeping, and building partnership capacity, that our RC is 
specifically well suited to perform as a complementing part of the 
Total Force. Closure of this authority gap will help increase dwell for 
the Active component while maintaining RC readiness and could be 
accomplished by the following:
    In response to your request and the request of the Services for 
``assured access'' to the RC, we propose expanding the existing 
authority in title 10, U.S.C., section 12304, commonly referred to as 
the Presidential Reserve Call-up statute. Our proposal does not change 
the requirement for Presidential action to invoke the access authority, 
nor does it change the number of personnel affected or the frequency 
and duration of active duty. Our modification enables use of the 
existing statute for the full spectrum of military missions while 
adhering to the existing policy of no more than 1 year activated out of 
every 6. The proposal also limits the number of Reserve personnel who 
can be involuntarily activated for purposes other than an operational 
mission or threat or attack by terrorists or weapons of mass 
destruction. Our proposal includes a requirement for the Department to 
identify the manpower and associated costs of known RC utilization in 
the President's budget justification materials, providing Congress 
final oversight on any implementation of the expanded authority to 
access the RC.
Judicious Use
    With increased use comes an equal demand to make sure we use the RC 
judiciously and to best advantage. Every member of the RC has 
volunteered since September 11 with the expectation that they will be 
judiciously used and given meaningful work to do. DOD and the Services 
should continue to meet this expectation.
    The Reserve components are highly capable and possess many of the 
same capabilities as the AC, but we have to be conscious of family and 
employment obligations. We believe that missions that are predictable 
can be accomplished on a rotational basis, and missions that are more 
enduring are best suited for the RC. We are encouraged by the inclusion 
of the RC in these models and believe it will reduce stress on the 
force overall, AC and RC, preserve readiness gains in the RC, provide a 
cost effective way to maintain Total Force capability, and preserve the 
All-Volunteer Force.
Volunteerism
    Every day for the past several years over 20,000 Reserve component 
servicemembers have served on active duty as volunteers. These 
individuals have the time and desire to serve more than the 1 weekend 
per month and 2 weeks per year that have long been considered standard 
for Guard and Reserve personnel. The Department is investigating 
methods to leverage this willingness to serve in order to fulfill the 
part-time and temporary demands of the combatant commands, major 
command headquarters, and the Defense agencies. One consideration is 
for DOD to create Reserve component units staffed by personnel willing 
to volunteer to serve more frequently or for longer periods of time in 
order to support such tasks as Theater Security Cooperation, Building 
Partner Capacity, Homeland Defense, Defense Support to Civil 
Authorities, and the Services' institutional support missions.
    This type of differential service commitment has been used 
successfully in high OPTEMPO units such as aviation for some time, but 
with the Reserve component now playing a larger role in many ongoing 
mission areas, expanded utilization of differential service contracts 
would be useful. Such differentiation within the Reserve component 
would provide an additional sourcing option for units, teams, and 
personnel for contingency operations or emergencies.
                    all-volunteer total force policy
Dwell
    The RC provides both operational capability and strategic depth in 
support of the national defense strategy. It is imperative that 
predictability in the use of RC forces be maximized. On January 17, 
2007 the Secretary of Defense established planning objectives for 
involuntary mobilization of Guard and Reserve units at 1 year mobilized 
to 5 years dwell time (1:5). Today's global demands require a number of 
selected Guard/Reserve units to be remobilized sooner than this 
standard. The intention is that such exceptions will be temporary, and 
that we move to the broad application of 1:5 as soon as possible.
Reduce Stress
    The processes by which roles and missions are assigned to the 
Nation's Guard and Reserve Forces should be characterized by a belief 
that those forces and individuals can, and in many cases should be, the 
first choice for recurring or predictable missions within their 
capability. Such strategic planning will provide more efficient and 
effective utilization of defense assets.
    Assessing Departmental requirements in this fashion will also 
contribute to the sustainability of both the Active and Reserve 
components. Utilizing the Guard and Reserve in this manner, to best 
advantage, increases the capacity of the Total Force and will reduce 
the burden on all forces by relieving Active-Duty Forces that would 
otherwise execute the mission, by increasing their dwell to deployment 
ratio and by sustaining that force for future use.
    Rotational availability models in use today are essential to 
ensuring that the Guard and Reserve are trained and ready when needed. 
Using the Reserve component on a rotational basis maintains their 
readiness and expands their availability and capabilities. The Services 
should continue to refine rotational availability models to achieve 
improved predictability for the Total Force in accordance with stated 
Department deployment to dwell objectives.
   realigning and provisioning the reserve component as part of the 
                           operational force
Realigning capabilities (High Demand/Low Density Missions)
    Balancing and aligning capabilities within and between components 
is an ongoing process. In recent years, the Department has realigned 
over 180,000 positions and has plans to realign roughly another 120,000 
over the coming years. The RC has been a full partner in this 
realignment, assuming roles in the missions that are currently in 
demand across the Department. The RC is well suited for roles and 
missions that are recurring and predictable, and the typically more 
permanent assignments of RC members lend themselves to missions that 
benefit from establishment of habitual relationships, long-term 
planning and engagement. This approach also helps reduce stress on the 
Active Force while preserving readiness and capability within the Total 
Force.
    The Army, Navy, Marine Corps, and Air Force Reserve are currently 
adding or are planning to add capability to high demand, low density 
areas such as Civil Affairs, Intelligence, Cyber, Special Forces, and 
Military Police. These capabilities have been in high demand over the 
past 10 years, and all indications suggest they will continue to be in 
high demand in the future with Security Cooperation/Building Partner 
Capacity potentially moving to the forefront of Department missions. 
The RC is particularly well suited for these types of missions and 
capabilities.
                               readiness
Readiness Requirements
    One of my key priorities is to preserve the readiness gains made in 
the RC. These gains can be sustained by continued use of the RC as a 
rotational operational force. Periodic, predictable deployments will 
further enhance the RC's capabilities, maintain their readiness over 
time, add value to the Total Force and provide future capability and 
capacity.
    To meet the full spectrum of DOD missions and maintain RC readiness 
gains, the RC needs to be appropriately resourced as requested in the 
fiscal year 2012 budget to provide continued access to training 
equipment, facilities, ranges, and to be recapitalized with the same 
types of equipment and systems that reside in the AC.
Individual Member Readiness
    At the most basic level, readiness starts with the servicemember. 
Our personnel receive the same individual and basic training as all 
military members, so we start out on equal footing. Our members also 
receive effective and efficient skill training matched to their 
mission. We are continuously reviewing and adjusting these training 
requirements in order to make most efficient use of our traditional 
member's limited time during monthly unit training assemblies. Pre-
mobilization training makes RC individuals and units as ready as any AC 
unit going into a deployment. However, now that the department depends 
on RC assets for many missions there is a need to be medically ready to 
serve in any operational capability; whether in an overseas contingency 
or locally in the homeland. Medical and dental readiness levels can be 
maintained with adequate funding, support, facilities, and alternative 
approaches.
Individual Medical Readiness
    We continue to monitor the Individual Medical Readiness of the 
National Guard and Reserve to ensure availability of ready Reserve 
component members for deployment, as it continues to be a priority for 
the Department. Additionally, as of the first quarter of fiscal year 
2011, the RC has a Fully Medically Ready rate of 63 percent, which is 
below the DOD goal of 80 percent. The lower RC Medically Ready rate is 
due to a significant number of members who are deemed Not Medically 
Ready (17 percent) for numerous reasons of which disqualifying dental 
condition is a principal factor. However, DOD is diligently working to 
make medical and dental services more available to RC members. Although 
we still need to improve, as of the first quarter of fiscal year 2011, 
all components have met or exceeded the Dental Readiness goal of 75 
percent, which will have a positive impact on overall medical 
readiness.
    We support the Integrated Disability Evaluation System (IDES) to 
assess the fitness and care of wounded RC members ensuring they are 
appropriately identified and processed in a timely manner. We continue 
to support our RC wounded warriors enabling a swift return to their 
civilian lives.
Reserve Component End Strength
    Meeting Reserve component end strength objectives is a priority of 
the Department. The following table depicts the current prescribed and 
actual end strengths for the Reserve components. The Department's 
Continuum of Service efforts have contributed to the six DOD Reserve 
components remaining within the variance allowed for their 
congressionally-mandated end strength objective. The Services have 
implemented recruiting, retention, and force shaping policies and 
programs to achieve end strengths for fiscal year 2011. We appreciate 
the congressional support of the fiscal year 2011 end strength levels 
and the legislative initiatives that assist in recruiting and retaining 
Reserve component servicemembers. These end strengths will provide the 
Reserve components with the forces necessary to meet strategic demands 
while maintaining a dwell consistent with departmental policy.

       FISCAL YEAR 2011 RESERVE COMPONENT END STRENGTH OBJECTIVES
------------------------------------------------------------------------
                                                           Actual as of
                 Service                     Objective     January 2011
------------------------------------------------------------------------
Army National Guard.....................         358,200         363,995
Army Reserve............................         205,000         205,849
Navy Reserve............................          65,500          64,677
Marine Corps Reserve....................          39,600          39,949
Air National Guard......................         106,700         106,643
Air Force Reserve.......................          71,200          70,359
                                         -------------------------------
  Total.................................         846,200         851,472
------------------------------------------------------------------------

    Of the end strength figures outlined above, there are 
servicemembers in the training pipeline for the Reserve components who 
are not immediately available for mobilization.
Recruit Operational Ready Reserve Strength
    Thus far, for 2011, Reserve recruiting efforts show continued 
success. Through January, all Reserve services have met or exceeded 
both quantity and recruit quality objectives. Notably, for the third 
year in a row, the Reserve components exceeded the DOD Benchmark of 90 
percent of new recruits being High School Diploma Graduates, with 93 
percent of Reserve component recruits holding that credential.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    It is important that we have a military that reflects the society 
it defends, both in the enlisted ranks and our commissioned officers. 
This is particularly important as less than 1 percent of the American 
public serves in uniform. To that end, we are pleased that some of our 
most prestigious colleges and universities are now re-thinking their 
previous positions with regard to ROTC programs. This will provide more 
opportunities for college students to think about seeking commissions 
in the U.S. military.
    We continually review our recruiting programs to align funding and 
policies with current realities. Each of the Services has made 
significant adjustments to recruiting programs in light of our austere 
fiscal environment, and continues to look for additional cost savings--
but we must be cautious and resist the temptation to cut too deeply and 
too fast. Stable adequate investments in recruiting resources are 
necessary to maintain long-term success. Although enlistment incentives 
can be adjusted quickly to meet market fluctuations and force 
management needs, history has shown that the time required to redeploy 
advertising/marketing campaigns and/or qualified recruiters is 
significant. I cannot emphasize this imperative enough.
    The Montgomery GI Bill-Selected Reserve (MGIB-SR) has been a 
cornerstone of our military recruiting efforts since 1985, and a major 
contributor to the success of the All-Volunteer Force. We are now in 
the second year of the new Post-9/11 GI Bill, the most extensive 
restructuring of post-service education benefits since the introduction 
of the original World War II GI Bill. The Post-9/11 GI Bill appears to 
enhance our recruiting efforts even more. We hope that the provision in 
the new program that allows career servicemembers to transfer their 
unused GI Bill benefits to immediate family members, long requested by 
both members and their families, will prove widely beneficial. Although 
full utilization data is not yet complete, early results look 
favorable. For example, through fiscal year 2009, the VA has received 
and processed over 578,000 enrollment certifications and 237,000 
changes to enrollments for Veterans attending school under the Post-9/
11 GI Bill. In 2010, the VA was able to increase its daily completions 
of PGIB enrollment certifications from an average of 1,800 per day 
during October to nearly 7,000 per day.
    As indicated earlier, the benefit may be transferred to the 
member's dependents. As of April 2010, a total of 240,888 dependents 
have been identified for transfer (based on applications submitted by 
servicemembers) since the program began accepting applications in June 
2009. The potential transfer population includes spouses, children, 
stepchildren, and pre-adoptive children. As of February 2011, 
approximately 181,144 Post-9/11 GI Bill transfer applications submitted 
by servicemembers have been approved by their respective Service 
component.
    On January 4, 2011, the President signed the Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010--providing additional 
benefit options that include the eligibility of National Guard and 
Reserve members who were inadvertently omitted from the original Bill, 
vocational and other non-college degree training, and living stipends 
for those enrolled in distance learning programs. This makes the Post-
9/11 GI bill the most comprehensive educational benefit in our Nation's 
history, making it an appropriate benefit for our service men and women 
supporting the ongoing overseas contingency operations.
     training and recruiting the reserve component as part of the 
                           operational force
Initial/Individual Training/Skills Training
    The Reserve components are working with the Services to ensure that 
training institutions and facilities are resourced to meet the needs of 
the total force, with resident, nonresident or distance learning, to 
include RC personnel. Much improvement has occurred in this direction, 
but we will continue to monitor implementation until institutionalized.
Regional Integrated Training Environment
    The Regional Integrated Training Environment (RITE) concept is a 
joint initiative that identifies and matches Service training 
requirements to a network of local training facilities and resources. 
Still in the formative stages, the purpose of the RITE initiative is to 
help sustain the Total Force readiness posture, and surge capability as 
determined by Service rotational readiness models while reducing 
overhead training costs. This is done through innovative management of 
facilities, existing training assets, simulators and Joint Live, 
Virtual, Constructive capability, pools of shared equipment, and 
coordination through a web-based visibility/scheduling system. As the 
concept matures, collaboration will expand with key internal and 
external DOD stakeholders.
Innovative Readiness Training (IRT)
    The Innovative Readiness Training (IRT) program is an outstanding 
volunteer training opportunity for our National Guard and Reserves. 
IRT's focus is to provide varied and challenging training opportunities 
that exercise the Mission Essential Task List (METL) requirements of 
combat support and combat service support units and individuals. Each 
year new training opportunities are presented by Federal, State, or 
local government agencies or nonprofits to the Services. Military units 
are provided METL training in a realistic, hands-on setting while 
providing quality services to underserved communities throughout the 
Nation. Examples of IRT activities include infrastructure development, 
constructing rural roads and runways, small building and warehouse 
construction; and providing medical and dental care to medically 
underserved communities. These opportunities result in interoperability 
and readiness training, ensuring our Nation always has a fully capable 
National Guard and Reserve.
Training and Intelligence
    The Defense Intelligence Agency (DIA) led the Joint Reserve 
Intelligence Program (JRIP) to restructure 398,000 square feet of 
classified workspace and 4,035 workstations in 28 sites throughout the 
United States. These sites enable drilling reservists to provide real 
world operational support to the COCOMs, Combat Support Agencies and 
Service Intelligence Centers, concurrently enabling training to be 
supplanted by real word intelligence support, the highest possible form 
of training. In fiscal year 2010, the JRIP averaged over 4,500 people 
per month using just one of the 28 sites. COCOM support was further 
enhanced by the infusion of $11 million of DIA-man-day funding and $16 
million of COCOM/Service man-day funding for duty at the JRIP sites. 
These efforts resulted in even greater savings in reduced travel and 
per diem costs, coupled with improved quality of life for Reserve 
component members by serving in their local region.
Equipment Procurement, Reset
    Unlike other areas of the Defense budget, there currently is no 
Reserve-specific appropriation for equipment that mirrors the active 
force. The RC relies on the Active procurement account and 
congressional action in the National Guard and Reserve Equipment 
Appropriation (NGREA). Yet it is usually difficult to determine how 
much of the active procurement appropriation is specifically intended 
for the Reserve components and tracking subsequent execution. We 
currently use the Equipment Delivery Report to help us follow the money 
from appropriation to delivery. At that point the DOD Directives should 
ensure equipment movement between the Reserve and Active are 
appropriately documented. Full transparency and accountability can only 
be achieved through a full life cycle, enterprise approach to Reserve 
equipping. The life cycle includes requirements determination, budget 
requests, appropriation, purchase, and delivery of hundreds of 
thousands of pieces of equipment. Plans to return borrowed RC equipment 
are included as key deliverables in this process. All Services have 
made tremendous strides in coming together to equip the Total Force.
Line Item P-1R
    The P-1R is the Reserve component allotment of the overall DOD 
Procurement Program (P-1). Congress requires each P-1 budget submitted 
by the President to Congress to specify amounts requested for 
procurement of equipment for the National Guard and Reserve components. 
However, the P-1R has historically been treated as a non-binding 
projected subset of the service Procurement Programs. To achieve 
Congressional and DOD mandated transparency, the Services should 
develop comprehensive and accurate projected funding and equipment 
quantities in the P-1R and include this as a separate budget line in 
their request.
Resetting
    Currently, funding for reset of equipment returning from theatre 
for the Guard and Reserve comes from a supplemental appropriation. As 
we prepare to move away from reliance on these supplemental funds, it 
is important to have a continued source of funding built into the 
budget for RC equipment reset. It is critical that the Guard & Reserves 
are able to continue to train on high quality equipment for which funds 
have already been allocated.
Military Construction
    There is a direct correlation between readiness and facilities, 
particularly in the Reserve component. The move from a Strategic 
Reserve to an Operational Reserve doesn't change the fact that we owe 
our Guard and Reserve members quality facilities in which to work and 
train. The combined fiscal year 2012 RC Military Construction (MILCON) 
program request of $1.2 billion is less than last year's request; 
however, it will help alleviate some of their most urgent facility 
deficiencies. Despite Congress' generous RC MILCON appropriations in 
the past, future fiscal realities suggest that future budgets will 
decline. Therefore, we must approach future construction with the 
intent to exploit joint use military construction projects as much as 
possible. We are currently leading an effort to revise current DOD 
guidance that will facilitate smarter consolidation and joint use of RC 
facilities.
                     family and employer readiness
Family
    Prepared and resilient family members are a vital support system 
for each servicemember. Our dedicated military men and women require 
support in a holistic manner. Support for our servicemembers should 
come from both the Federal and State levels and this support needs to 
include well-established family support programs. Since September 11, 
over 802,000 Guard and Reserve members have mobilized resulting in 
America's most experienced, best-trained, best-equipped Reserve 
component ever. To sustain this force, we need continued support for 
the families of those in uniform, and their employers. We are working 
aggressively to sustain continued community support from neighbors, 
relatives, churches, local businesses and State-based Federal 
programs--such as those from Department of Labor, Small Business 
Administration, and Veterans Affairs.
    Reserve Affairs is also pleased that the Presidential Report on 
Strengthening Our Military Families highlighted a program for 
implementing a one-stop resource to handle State-wide military family 
issues using Inter-Service Family Assistance Committees (ISFACs). These 
locally-based committees work to build community capacity and 
strengthen networks of support. DOD has built on these grassroots 
efforts to benefit geographically dispersed Active, Guard, or Reserve 
servicemembers and families utilizing the Yellow Ribbon Reintegration 
Program (YRRP).
    Throughout a servicemember's continuum of service, YRRP strives to 
put in place a viable support system. A coordinated network of support 
with defined processes serves the needs of military families in 
geographic locations closest to where they reside. The work to 
strengthen and support military families is never complete and DOD 
continually strives to identify gaps in our support and to link 
appropriate resources from all stakeholders. It is important to note 
that Yellow Ribbon Reintegration Program is not a ``war time only'' 
requirement, but must remain an enduring mission to ensure the 
continued resilience of servicemembers and their families.
Employer
    Employer Support of the Guard and Reserve (ESGR) engagement has 
grown significantly in recent years. The vision is, ``to develop and 
promote a culture in which all American employers support and value the 
military service of their employees with ESGR as the principal advocate 
within DOD.'' ESGR has a footprint in all 50 States, U.S. Territories, 
and DC with over 4,700 volunteers assisting employers and 
servicemembers on a daily basis. In striving to enhance employer 
support, ESGR relies on recognition programs where employers are 
recognized for outstanding support of Guard and Reserve servicemembers 
and their families. One example is the Secretary of Defense Employer 
Support Freedom Award, where 15 employers are honored for their 
outstanding support of Guard and Reserve members and their families 
annually during September at the Reagan Center in Washington, DC. In 
this current year 4,049 employers were nominated by servicemembers or 
their families. This is an increase from the 2,470 that were nominated 
in fiscal year 2010. With current ongoing global operations, combat-
related and humanitarian, the support of employers and families has 
never been more critical to our national defense. The data in the 
following table shows the improving trend of some of ESGR's programs 
and activities over the last 3 fiscal years:
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Despite all of the good work already accomplished by ESGR members, 
I believe more must be done. In 2010, I formed the Family and Employer 
Programs and Policy (FEPP) office within the Office of the Secretary of 
Defense for Reserve Affairs to align ESGR, the Yellow Ribbon 
Reintegration Program and Family Support Office under one directorate 
to ensure we are working together to create synergy and realize 
efficiencies for the servicemembers and families served by YRRP, ESGR 
and Family Programs' missions. In fiscal year 2011, ESGR placed 
additional emphasis on the employment of servicemembers and now assists 
them throughout the entire employment cycle.
    One of the greatest challenges facing our Nation is unemployment 
and underemployment, and these related problems are severe for those in 
the Guard and Reserve, or for those leaving active military service. 
Whether they are soldiers, sailors, airmen, coast guardsmen, or marines 
completing active duty, or members of the Guard and Reserve returning 
from deployment, many of these great men and women return home to an 
uncertain future because of the challenging job market.
    The promise of a secure job provides servicemembers and their 
families with stability and peace of mind. The December 2009 Status of 
Forces Survey of Reserve component members indicated that 
servicemembers across six of the seven Reserve components (Coast Guard 
Reserve not included) self-reported a 12 percent unemployment rate. The 
highest unemployment rate across all components was 22 percent among 
junior enlisted troops in the rank of E1-E4. As this data is self-
reported, many of these younger troops are likely to be students. The 
total number of respondents were 20,238 (from an estimated population 
of 822,000) RC servicemembers.
    The current employment challenges led to the implementation of the 
Employment Initiatives Program (EIP). EIP is now ESGR's highest 
priority and is an outgrowth of ESGR's existing outreach programs 
already in place, with a focus on employment. The overall intent of EIP 
is to take full advantage of all ESGR, Yellow Ribbon, and Family 
Programs, in partnership with public and private entities, to enhance 
employment opportunities for servicemembers and their families, 
especially focusing on those completing active duty tours and our 
Wounded Warriors. During fiscal year 2010, ESGR conducted several Pilot 
Programs to determine the activities and best practices to support the 
EIP. Some examples include but are not limited to: Job Fairs, 
Transition Assistance Programs, Strategic Partnering at the State and 
Local levels.
    The EIP will assist our Citizen Warriors and at the same time it 
will help those American businesses that are looking for employees 
possessing skill-sets, integrity and vast experience resident in the 
U.S. military.
                   resilience training & preparation
Yellow Ribbon--Understand Psychology of Military Service Family 
        Programs
    The objective of the YRRP is to ensure the readiness and well-being 
of National Guard and Reserve servicemembers and their families by 
providing dynamic events, information, services, referrals, and 
proactive outreach opportunities throughout the entire deployment 
cycle. Resiliency is a priority of the YRRP mission. Since its 
inception in 2008, there has been an ever increasing focus on 
resiliency building and training for the National Guard and Reserve 
Forces. In response to growing awareness regarding the connection 
between post-traumatic stress (PTS), substance abuse, criminal activity 
or suicide and ``bounce back'' ability, Reserve component members and 
their families are being offered training to enhance their resiliency 
skills.
    As part of the YRRP, services and information that foster 
resiliency are provided at the pre-deployment, during deployment, and 
the 30, 60, 90 day post-deployment events. The Yellow Ribbon 
Reintegration Program implemented a Cadre of Speakers program, hiring 
facilitators who specialize in resilience training and who are 
available to YRRP event planners across the country. These facilitators 
also work with Military and Family Life Counselors and chaplains to 
provide critical support around resilience issues at YRRP events, 
ensuring individual assistance is available for each family or 
servicemember as required.
    Additionally, other sessions and resources focus on marriage and 
children, substance abuse awareness, financial counseling, anger 
management, employment assistance and Department of Veterans Affairs' 
information regarding benefits and medical care eligibility. To find an 
event or additional resources, an RC member, commander, planner, or 
family member can access information at http://www.yellowribbon.mil/.
Resilience and Suicide Prevention
    Suicide prevention is a very important issue for Reserve Affairs. 
The loss of even one life to suicide is heartbreaking and has a 
profound impact on both the unit and the family members left behind. As 
noted by the DOD Task Force on the Prevention of Suicide by Members of 
the Armed Forces, many factors contribute to the military suicide rate. 
One factor relates to leadership. Each Service acknowledges the 
important role those leaders, both Officers and NCOs play in building 
resiliency among those under their command. In 2010, there were a total 
of 294 active duty servicemembers (including 26 Active Reserve) who 
committed suicide, which is down from 310 in 2009. However, among our 
non-active National Guard and Reserve, there were an additional 178 
suicides in 2010. For the Army National Guard, this was a doubling of 
their suicide rate from 2009. The Services, along with Reserve Affairs, 
have taken these rates very seriously and have committed resources to 
significantly reduce this trend. The National Guard currently has a 
Director of Psychological Health in each of our 54 States and 
territories who acts as the focal point for coordinating the 
psychological support for Guard members and their families. 
Additionally, Reserve Affairs has established a Stakeholder Core Group 
whose mission is to address suicide prevention, intervention, post-
vention and surveillance issues across all of the RC. Reserve Affairs 
has also included training materials on resiliency for Yellow Ribbon 
Reintegration Program events.
                      dod youth outreach programs
Science and Technology Academies Reinforcing Basic Aviation and Space 
        Exploration
    I continue to support the President's education agenda through two 
youth outreach programs in order to achieve our national security 
objectives; the DOD STARBASE and National Guard Youth Challenge 
programs.
    The President has stated that it has never been more important for 
young Americans to be proficient in science and mathematics and he made 
enhancing the learning of science and math a national priority. The DOD 
STARBASE program provides elementary and secondary school students with 
real-world applications of science, technology, engineering and math 
through heuristic learning, simulations and experiments. The strength 
of the program lies in the three-way partnership between the military, 
the local communities and the school districts. Senior military leaders 
such as Admiral Roughead agree that the DOD STARBASE Program is a 
productive investment in the future of our youth, building and 
enlarging the talented recruits we need.
    The fiscal year 2012 budget allows the program to serve over 65,000 
students from approximately 1200 schools and 350 school districts which 
includes schools from American Indian communities in Mississippi, 
Oklahoma, and South Dakota. Over 605,000 youths have attended the 
program and pre and post testing shows a significant improvement in 
student's understanding and interest in math and science and in 
pursuing further education. Currently, there are 60 DOD STARBASE 
Program sites on military facilities in 34 States, the District of 
Columbia, and Puerto Rico.
National Guard Youth Challenge Program
    The President has also addressed the high school dropout crisis. My 
staff and I have been working with the Office of Management and Budget 
to challenge States, industries, and non-profits to invest in 
intervention programs like the National Guard Youth Challenge Program. 
I am also working with General McKinley, Chief of the National Guard 
Bureau, to provide oversight and management of the Program by 
collaborating with Governors to eliminate State resident issues; and to 
ensure every qualified high school dropout has an opportunity to attend 
the program. The Challenge program is currently operating in 27 States 
and Puerto Rico. Its goal is to improve the education, life skills and 
employment potential of America's high school dropouts. We provide 
quasi-military based training, supervised work experience to advance 
the program's core components. The core components include obtaining a 
high school diploma or equivalent, developing leadership, citizenship, 
life coping and job skills and improving physical fitness, health and 
hygiene. Since the program's inception over 100,000 students have 
successfully graduated from the program. The average cost per Challenge 
student is approximately $16,000. The fiscal year 2012 budget will 
support increasing annual enrollment and/or start up new programs in 
States that have the fiscal resources to match the cost-share funding 
requirements and to sustain the program's viability in States that have 
budget limitations.
    These two successful DOD youth outreach programs provide the 
Department a unique connection to the American public and working with 
our most valued resource--our young people.
                               conclusion
    The National Guard and Reserve continue to be a mission-ready 
critical element of our National Security Strategy. The requirement for 
our Reserve components has not, and should not lessen. Our Reserve 
components must continue their expanded role as an Operational Reserve 
in all facets of the Total Force. To lose the training, experience and 
integration of the Reserve components by relegating them to a strategic 
Reserve would squander a resource we can't afford to waste. The nation 
continues to call and the Reserve components continue to answer that 
call. But in answering that call, we shouldn't lose sight of the need 
to balance their commitment to country with their commitment to family 
and civilian employers. That is why relieving stress on the force is 
absolutely essential; utilizing our Guard and Reserve as a component of 
the Total Force is so crucial; and continuing to train and equip the RC 
to maintain our investment and experience is so critical. 
Predictability will enable our families to build resiliency, as well as 
foster understanding with our employers. I realize the path forward 
will not be easy, but together with support of legislative proposals 
mentioned above we can ensure an operational, trained and fully 
prepared Reserve component. I have included in the following annexes 
multi-year (2010-2012) funding levels and justifications for programs 
within my jurisdiction and oversight that will enable the Reserve 
components to achieve these goals. Thank you very much for this 
opportunity to testify on behalf of our great Guard and Reserve Force.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Webb. Thank you, Secretary McCarthy.
    Secretary Woodson, welcome.

 STATEMENT OF HON. JONATHAN WOODSON, M.D., ASSISTANT SECRETARY 
 OF DEFENSE FOR HEALTH AFFAIRS, DIRECTOR OF TRICARE MANAGEMENT 
                            ACTIVITY

    Dr. Woodson. Thank you very much.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today to discuss the future of 
the military health system, and in particular our priorities 
for the coming year.
    This is my first appearance before this committee in my 
role as Assistant Secretary of Defense for Health Affairs. I 
want to first express my deep gratitude for the warm and 
helpful guidance both you and your staffs have privately 
offered me in my first 4 months in this position.
    Our fiscal year 2012 budget for the Defense Health Program 
and related medical activities supports the priorities of our 
strategic framework, the quadruple aim: improving readiness, 
improving population health, the patient care experience, and 
responsibly managing our costs of care.
    First, from the perspective of medical readiness, I want to 
acknowledge the performance and courage of our military medical 
professionals serving in combat theaters. I recently returned 
from Afghanistan, 2 days ago, and can attest to the skill, 
commitment, courage, and patriotism of our medics serving in 
harm's way.
    These attributes were exemplified by Captain Joshua 
McClimans, a 31-year-old nurse, husband, father of two young 
children, on his second deployment, assigned to the 352nd 
Combat Support Hospital. On April 22, he was killed by indirect 
fire and gave his last full measure of devotion to this 
country, as Lincoln once said.
    I attended his memorial service at Forward Operating Base 
Solerno and talked with fellow unit members. Although deeply 
saddened by the events, these true professionals soldiered on 
and continued their medical mission, in support of other 
brothers and sisters in harm's way.
    I ask that we all here today remember Captain McClimans, 
the eight Air Force personnel and the one civilian killed last 
week, as well as their families, in our thoughts and prayers.
    The military health system has achieved historic reductions 
in disease and injuries through improved public health and 
preventative medicine strategies. For servicemembers wounded in 
combat, their likelihood of survival after a medic arrives 
remains at historic and unmatched levels. My responsibility is 
to ensure that we sustain the high level of performance.
    Our budget continues to support the foundation which our 
achievements have been built on: a robust medical research and 
development program that focuses on battlefield illnesses and 
injuries, to include prevention, diagnosis, treatment for 
traumatic brain injury, post-traumatic stress, and depression.
    Second, we improve the health of populations we serve. The 
fiscal year 2012 budget focuses resources on efforts to 
increase our behavioral health providers, both within the 
system and within our private-sector partners. We are also 
targeting funds to improve access to behavioral health 
providers throughout the country. We are investing in 
preventative-care approaches that are intended to lower the 
rates of tobacco use, alcohol abuse, and obesity.
    Third, we must enhance the patient-care experience. We 
propose continued expansion of the patient-centered medical 
home, our central initiative to improve access to care, 
population health, and overall patient satisfaction. We 
continue to invest in modernizing our military hospitals and 
clinics around the world. Thanks to you and your unwavering 
support, our construction programs will allow wounded, ill, and 
injured servicemembers to be treated in the finest medical 
facilities in the world.
    This year, we look forward to opening two showcase 
facilities in the National Capital area: the new Walter Reed 
National Military Medical Center and our new Community Hospital 
at Fort Belvoir.
    Finally, we recognize that emerging Federal fiscal policy, 
combined with the ever increasing healthcare costs, demand that 
we take additional steps to be even more responsible stewards 
of the taxpayers' dollars. As Secretary Gates and Chairman 
Mullen have repeatedly declared, we, the Department, must 
tighten our belts, just as many Americans have done over the 
last several years.
    In our proposed budget, we share the responsibility for 
cost control among all participants. We have first focused on 
internal efficiencies within DOD, the TRICARE Management 
Activity, and Health Affairs, and then the civilian provider 
community, and finally, with our beneficiaries, for whom we've 
proposed a very modest change to select out-of-pocket costs. We 
have gone to great lengths to protect patients enrolled in 
existing programs and beneficiaries who have special needs and 
circumstances that must be considered. We have met with the 
beneficiary organizations on these proposals. I am gratified 
that many have viewed our proposals reasonable and fair.
    Our proposed budget keeps fidelity with our core 
principles. We will never lose our focus on commitment to a 
high quality and world class healthcare system for all members 
of the Armed Forces, and for their families, who served, past 
and present, and who will serve in the future.
    I am both pleased and proud to be here today with you to 
represent the men and women who comprise the military health 
system. I look forward to answering your questions.
    Thank you very much.
    [The prepared statement of Dr. Woodson follows:]
           Prepared Statement by Hon. Jonathan Woodson, M.D.
                           executive summary
    The proposed total funding for the Military Health System (MHS) in 
fiscal year 2012--combining both the Defense Health Program (DHP) and 
other appropriations that fund MHS activities--is $52.5 billion, a 4.8 
percent increase over the fiscal year 2011 request. This request 
reflects investments in the four strategic priorities for the Military 
Health System in the fiscal year 2012 Defense Health Program: Assure 
Readiness; Improve Population Health; Enhance the Patient Experience of 
Care; and Responsibly Manage the Cost of Care.
I. Assure Medical Readiness
    We continue to invest in medical research and development 
supporting the full spectrum of military medical operations and issues. 
Particular emphasis this year supports a comprehensive DOD/VA research 
effort aimed at understanding the interventions that work to prevent 
suicide. We also continue our extensive research into the early 
identification diagnosis, and treatment of traumatic brain injury; 
support for the emerging efforts around regenerative medicine; and 
other research that spans the mental and behavioral health fields.
II. Improve Population Health
    The fiscal year 2012 budget focuses resources on efforts to 
increase our behavioral health providers, both within the direct care 
system and with our private sector partners. We are also targeting 
funds in fiscal year 2012 to lower the rates of tobacco use, alcohol 
abuse, and obesity. This will include initiatives that introduce 
positive patient incentives that reward healthy behaviors.
III. Enhance the Patient Experience of Care
    MHS proposes over $53 million in new spending for its continued 
expansion of the Patient-Centered Medical Home (PCMH)--our central 
initiative to improve access to care; population health and overall 
patient satisfaction. The fiscal year 2012 budget also requests $1.1 
billion in medical military construction funds for 14 patient care and 
3 nonpatient care projects, including replacement of the Landstuhl 
Regional Medical Center in Germany.
IV. Responsibly Manage Costs
    While we maintain that efforts to control the long-term health care 
cost trends in the Department are more appropriately focused on 
encouraging healthy behaviors, and reducing unnecessary utilization of 
health services, there are actions we propose to introduce in fiscal 
year 2012 to begin the process of better managing our spiraling health 
care costs. We have a proposed budget for a set of specific initiatives 
that will save the department almost $7.9 billion in fiscal year 2012-
2016. These initiatives can be grouped as follows (and summarized in 
the Table at the bottom of this Summary):
Internal Efficiencies
    TRICARE Management Activity contractor overhead will be reduced by 
over $183 million in savings in fiscal year 2012 alone. This is in 
addition to other savings from aggressive monitoring and pursuit of 
fraud, waste and abuse; redirection of prescription drug purchases to 
more economically advantageous outlets through mail order or MTF 
pharmacies; and redirection of medical care from Emergency Rooms to 
urgent care centers. A national nurse advice line will also be 
introduced to assist with access and redirection of care where 
appropriate. The MHS will continue to identify and implement 
initiatives that take advantage of joint purchasing, greater 
optimization of the medical supply chain, and increased shared services 
across all of the Service branches.
Equity in Programs and Provider Payment
    The MHS is pursuing a more equitable management of benefits across 
all health care programs by aligning our reimbursement policies with 
Medicare. In fiscal year 2012, payments for care provided by facilities 
designated as Sole Community Hospitals will align with Medicare 
reimbursement levels, saving almost $400 million over 5 years. Payment 
adjustments will be phased-in over 4 years to mitigate the impact.
    Additionally, MHS proposes to amend the Uniformed Services Family 
Health Plan (USFHP) enrollment policies so that they align with all 
other TRICARE providers for dual-eligible Medicare/TRICARE 
beneficiaries. All current enrollees will be grandfathered into the 
current program. Upon reaching age 65, Medicare will become the primary 
payer for these beneficiaries and TRICARE will be second payer. Once 
Medicare-eligible, these beneficiaries may continue to see the same 
providers that they do today; the reimbursement process by which both 
Medicare and TRICARE contribute payments will be the only change.
Modest Changes of Beneficiary Out-of-Pocket Costs
    MHS proposes an increase of $2.50 per month (or $5.00/month per 
retiree family) for enrollment in TRICARE Prime--the first increase in 
enrollment fees proposed since the TRICARE Prime benefit was introduced 
in 1995. For the longer term, MHS proposes to index this enrollment fee 
in order to establish more predictable and modest fee changes over 
time. MHS also recommends minor adjustments in prescription drug 
copayments that include both reductions and increases in copays, the 
increase or decrease dependent upon the outlet selected by 
beneficiaries.
    All of the MHS proposals have been carefully considered and 
numerous safeguards have been incorporated: grandfathering in current 
enrollees to unique programs; phasing-in new reimbursement 
methodologies for providers; and excepting certain beneficiaries 
(survivors and medically retired servicemembers) from any changes--in 
order to protect the most vulnerable beneficiaries and providers.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the future of the 
Military Health System (MHS), and in particular, our priorities for the 
coming year.
    This is my first public appearance before this Subcommittee in my 
role as the Assistant Secretary of Defense for Health Affairs, and I 
want to first express my deep gratitude for the warm and helpful 
guidance both you and your staffs have privately offered to me in my 
first 4 months in this position.
    The people who comprise the MHS have a well-deserved reputation for 
exceptional professional performance and personal courage. I believe 
deeply that military medicine has proven itself time and again as a 
learning organization, capable of self-critical analysis and 
substantive improvement in those areas where it falls short of its own 
and others' expectations.
    We begin 2011 on a strong foundation. Our medical achievements on 
the battlefield, in combat hospitals, and in the air continue to set 
new standards for medical outcomes in war . . . anywhere in the world.
    We are fortunate to have the continued, substantive support of both 
Congress and the White House. This support has been greatly enhanced by 
the very public effort led by the First Lady and Dr. Jill Biden to 
highlight the contributions of military families to our national 
security, and to focus on how the broader American community can 
acknowledge this and support military families on the homefront. Within 
the MHS, we are engaged in this effort, and I will illustrate some of 
our efforts in this testimony.
    Even with our successes, challenges remain. First, we continue to 
provide medical treatment to servicemembers in combat in some of the 
most austere environments on the planet. There is nothing routine about 
this, regardless of how long we have been at war. I will not waver from 
my primary focus to ensure the medical readiness of all of our Armed 
Forces, and the readiness of the MHS to deliver highly trained medical 
professionals to support them.
    International events and ongoing humanitarian crises also remind us 
that we must be prepared to respond to additional events on a moment's 
notice at the direction of national command authorities. Readiness is 
more than the center of our strategic plan; it's our fundamental 
obligation and reason for being.
    A key component of our readiness obligations is to ensure we 
sustain the confidence of the servicemembers who we support here at 
home, and who have borne the greatest burden of war--the servicemembers 
with serious wounds, visible and invisible, along with their families 
who sacrifice, who grieve, and who carry their own wounds from this 
conflict. We will continue to dedicate our time and resources to our 
care for wounded warriors and their families.
    Finally, we must also operate in an environment that recognizes 
financial resources are limited. The Department has put forward 
specific proposals to address the rising costs of military health care. 
But, it is important to note that this is not our first step at cost 
control. Over the last several years, we have taken a number of actions 
that have produced real savings to the Government and the taxpayer, to 
include: introduction of the Outpatient Prospective Payment System 
(OPPS), targeted efforts to increase the use of the TRICARE Mail Order 
Program (TMOP); a TRICARE Pharmacy Fraud and Abuse surveillance system; 
and expanded access to urgent and primary care facilities to redirect 
care away from Emergency Room care whenever clinically appropriate.
    Today, I will explain the actions we are taking to address the 
financial challenges we face, and the process by which we selected the 
proposals put forward in this budget.
    From the broadest overview possible, the proposed total funding for 
the MHS in fiscal year 2012--combining both the Defense Health Program 
(DHP) and other appropriations which fund MHS activities--is over $52 
billion (Table 1). This reflects continued investments in readiness, 
patient care activities, research and development and medical military 
construction.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    In the pages that follow, I will outline our programmatic 
priorities for the fiscal year 2012 Defense Health Program. I have 
organized this testimony and our priorities around the MHS' strategic 
framework--the Quadruple Aim. This framework best captures the core 
mission requirements of our unique system: Assure Readiness; Improve 
Population Health; Enhance the Patient Experience of Care; and 
Responsibly Manage the Cost of Care. Undergirding these four priorities 
are our Learning and Growth requirements, and I will outline our 
efforts in these areas as well.
                      iv. assure medical readiness
    Within the MHS, we have established an Individual Medical Readiness 
(IMR) metric to determine the medical preparedness of each 
servicemember to deploy. Overall, the medical readiness of our forces 
remains sound, and for the last 2 years we have seen continuous 
improvement in readiness each quarter, across both the Active and 
Reserve components (Figure 1). Within the Reserve component, medical 
readiness is below our benchmarks. We find that, in general, the 
individual reservists can quickly be elevated to a prepared status 
during the pre-deployment period (e.g., complete health assessments and 
by ensuring minor dental procedures and immunizations, etc. are quickly 
performed). We are in the process of engaging with commanders, 
particularly in the Reserve component, to focus attention and 
corrective action on these matters within their units.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    In addition to our focus on the medical readiness of our current 
force, we are also building upon our medical research and development 
programs that are essential to our future readiness posture. We are 
advancing our understanding--and the understanding of the broader 
American and global health community--of how to prevent, diagnose, and 
treat scores of military related illnesses and injuries. We are 
transferring our knowledge from the research bench to the battlefield, 
and lives are being saved.
    The MHS medical research and development investment priorities for 
fiscal year 2012 are focused on early Diagnosis and Treatment of Brain 
Injury; Polytrauma and Blast Injury Diagnostics and Treatments; 
Countermeasures against Operational Stressors and Optimizing Health, 
Performance, and Fitness; Definitive and Rehabilitative Care 
Innovations Required to Reset our Wounded Warriors; Psychological 
Health and Well-Being for Military Personnel and Families; Prevention, 
Diagnosis and Treatment of Wound Infections and Militarily Relevant 
Infectious Diseases; and Military Medical Training Systems and Health 
Information Technology Applications.
    It is not possible to reflect on every research project or program 
initiative in our portfolio, but I would like to highlight just a few 
high-interest areas and point out where we are seeing particularly 
promising results and programs that will continue to maintain high-
level interest and oversight in the coming year.
    Our servicemembers continue to incur more than 20,000 cases of 
Traumatic Brain Injury (TBI) every year. Although the vast majority of 
TBI incidents are diagnosed as ``mild'' and resolve with rest, the 
Department of Defense has implemented numerous programs within the last 
3 years to provide early identification, diagnosis and treatment for 
those who sustain a traumatic brain injury.
    TBI research continues to be fast-tracked to bring findings from 
research being done into clinical practice as soon as possible. Key 
areas of promise include understanding injury related blast dynamics, 
rapid field assessment of mild TBI to include identification of 
objective biomarkers to be used in the identification and diagnosis of 
concussion, and TBI innovative treatment modalities such as the ongoing 
clinical trials for neuroprotectants.
    We have recently teamed with the Department of Veterans Affairs and 
academia on the Military Suicide Research Consortium to better 
understand the interventions that are most successful in our suicide 
prevention efforts.
    We are also planning a comprehensive research effort, spread across 
3 fiscal years (fiscal year 2011-2013) to study the indicators/
predictors of violence in servicemembers. We envision a retrospective 
and a prospective effort, that will examine DOD populations and develop 
a scientifically based list of behavioral indicators of potential 
violence.
    Our efforts in regenerative medicine are now starting to focus on 
taking our products out of the science and technology realm and into 
clinical trials. These efforts focus on limb and digit salvage, 
craniofacial reconstruction, scar-less wound healing, burn repair, and 
compartment syndrome.
    Lastly, we are focusing our efforts on innovative combined 
pharmacologic and psychotherapeutic approaches to treat Post Traumatic 
Stress Disorder.
                     v. improving population health
    The Department continues to seek ways to mitigate the development 
of mental health disorders, and to reduce the number of suicides in our 
Armed Forces. We engage in a number of preventive, diagnostic and 
treatment approaches to reduce the incidence of these disorders, if 
possible, and to identify and treat those impacted.
    Together with the line community, both officer and enlisted, we 
have undertaken a Department-wide effort to reduce and eliminate the 
stigma associated with seeking mental health care. There are 
indications that this effort is working. For example, we are seeing 
that significantly more servicemembers who are referred for mental 
health care seek it out, and stay in treatment. We are encouraged by 
this trend and will continue to do our part to ensure that these trends 
continue.
    We know that mental health conditions, like most medical 
conditions, are treatable. Most patients with Post Traumatic Stress 
(PTS) symptoms recover without treatment in a few months, and many 
recover with medication and/or psychotherapy. With your help, over the 
past 2 years we have made a tremendous investment in behavioral health 
care, adding nearly 2,000 behavioral health providers to our military 
hospitals and clinics, and 10,000 more to the networks (Table 2). By 
embedding mental health providers in our primary care clinics, we have 
improved access to mental health services for all of our beneficiaries.
    The mental health workload has increased across the Military Health 
System (MHS) for both active duty servicemembers and family members. 
Among the reasons for this increased workload are PTSD, TBI, earlier 
identification of mental health issues, increased suicides and suicide 
attempts, and reduced stigma of seeking mental health care. This 
workload has increased the need for mental health providers. Currently, 
throughout the MHS, there are a total of 7,662 military, civilian, and 
contract employees (full time equivalents) providing mental health 
care. This reflects a shortage of 1,025 which puts the MHS at 88 
percent fill compared to requirements. We are pursuing efforts to 
assist the Services in recruiting and retaining these critical mental 
health provider positions. These efforts include using Direct Hire 
Authority and Expedited Hiring Authority that Congress provided the 
Department to help recruit providers. Additionally, we are implementing 
the Physician and Dentist Pay Plan (PDPP) which will ensure we can pay 
critical shortage specialties, such as psychiatrists, salaries 
competitive with the private sector.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    To enhance services available to National Guard, Reserve, and 
Active Duty families who live in remote areas without easy access to 
installation-based psychological support, military and civilian 
providers are collaborating to educate local healthcare providers on 
military culture and treatment of psychological problems that military 
families encounter. We have also introduced the TRICARE Assistance 
Program (TRIAP), which offers 24/7 web chat with a licensed counselor, 
recognizing that family stress can often occur outside of normal 
provider hours, or in locations that do not have readily accessible 
counseling services. We continue to fund an initiative with the 
Department of Health and Human Services to place 200 Public Health 
Service officers, who are credentialed mental health clinicians, in our 
military treatment facilities (MTFs).
    We are also working to improve the health and lifestyle behaviors 
of our beneficiaries, and we will be using funds in fiscal year 2012 to 
advance this goal. Our focus is to lower the rate of obesity, tobacco 
usage, and binge drinking, and, more generally, help beneficiaries make 
healthier choices. As an example, obesity efforts will target children, 
active duty members nearing retirement (retirees experience marked 
increases in weight upon separation from the military), and patients 
with identified illness (e.g., diabetes, certain cancers) who will 
benefit from weight management. This effort includes initiatives with 
patient-level incentives to encourage healthy behaviors as well as 
partnerships with military bases and communities to create healthier 
work environments and help motivate other beneficiaries to make the 
healthier choice the preferred choice.
              iii. enhance the patient experience of care
    The MHS is fully engaged in implementing a new approach to primary 
care in our MTFs. Known as the Patient-Centered Medical Home (PCMH), 
the principles focus on developing a cohesive relationship between the 
patient and the provider team. We view the PCMH as a transformative 
effort within our system, with the potential to positively affect all 
aspects of our strategic focus--readiness, population health, patient 
experience and per member cost. With approximately 655,000 patients 
enrolled in developing PCMH practice sites, the results have been very 
promising--various sites have reported improved preventive service 
compliance, reduced use of the emergency room, and more timely care 
provided. Continued investment in and implementation of the PCMH is a 
top priority for the MHS.
    One major new program that emerged from the NDAA for Fiscal Year 
2011 is a new and important benefit in TRICARE--extension of TRICARE 
coverage to adult dependents up to age 26. This provision in the NDAA 
ensures that TRICARE now complies with all elements of the Patient 
Protection and Affordable Care Act, or the national health care reform 
law.
    The MHS continues its important commitment to upgrade our health 
care facilities in the Continental United States and throughout the 
world. Table 2 provides a summary of both appropriated and requested 
military medical construction funds from 2008-2012.
    The new Walter Reed National Military Medical Center, the new San 
Antonio Military Medical Center, and the new community hospital at Fort 
Belvoir will open their doors in 2011. These facilities will serve as 
showcases for leadership in patient-centered care, patient safety 
standards, environmental responsibility and sustainability, and medical 
quality and outcomes. These achievements could not have occurred 
without the sustained interest and investments by Congress.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    This year's budget request includes funding for 14 patient care and 
3 non-patient care projects. It includes the replacement of one of our 
largest, oldest, and most critical overseas hospitals, the Landstuhl 
Regional Medical Center. This project consolidates Landstuhl and 
Ramstein medical facilities into one convenient location, closer to the 
Ramstein flight line. The new facility will support three theaters and 
is sized to serve the peacetime beneficiary population with an 
expansion capability to address surge from medium intensity conflicts 
similar to the current Overseas Contingency Operations.
    Progress continues on vital chemical/bio-defense facilities at Ft. 
Detrick, MD and Aberdeen Proving Ground, MD. The first National Capital 
Region (NCR) Comprehensive Master Plan project in support of world-
class standards begins in fiscal year 2012. All of our new clinical 
construction projects will comply with world-class standards and 
evidence-based design principles.
    I am grateful for your unwavering support of our construction 
program through the last several years that will allow our wounded, 
ill, and injured servicemembers to be treated in the finest medical 
facilities in the world.
                      v. responsibly manage costs
    Today, we are cognizant that the Federal budget deficits and long-
term debt require all Federal agencies to be even more responsible 
stewards of the taxpayers' dollars. As Secretary Gates and Chairman 
Mullen have repeatedly declared, we in this Department must tighten our 
belts just as so many Americans have done over the last several years. 
We share the Secretary's concerns that the exponential growth in DOD 
health care costs can pose a long-term threat to our defense 
capabilities.
    In our proposed budget, we have included a number of specific 
initiatives that, viewed as a whole, can set us on the right path to 
long-term financial health. Secretary Gates, Chairman Mullen and the 
Joint Chiefs have all spoken on this issue consistently and with 
clarity--we will continue to provide the finest health benefit in the 
country for our active and retired servicemembers and their families.
    Table 4 highlights each of the major initiatives we proposed, along 
with their projected savings over the FYDP. Our initiatives acknowledge 
there is a shared responsibility for cost control in our system--
starting with our own internal operational efficiencies, and then 
including both the provider and beneficiary communities. I will explain 
our rationale for each of these provisions below.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
Internal Efficiencies
    We have benefited from lessons learned in previous efforts to 
control rising military health care costs. First, the Department has 
looked internally as our number one priority to find and implement 
efficiencies. In the coming year, we will reduce TRICARE Management 
Activity contractor overhead by a substantial amount--over $183 million 
in savings in fiscal year 2012 alone. Our actions will be carefully 
considered, and will not detract from any activities that directly 
support patient care, although some management programs will either be 
eliminated or significantly reduced.
    This is in addition to other actions we have undertaken that 
include more aggressive monitoring and pursuit of fraud, waste and 
abuse; redirection of prescription drug purchases to more economically 
advantageous outlets through mail order or MTF pharmacies; and 
redirection of medical care from Emergency Rooms to urgent care 
centers. In fiscal year 2012 we plan to introduce a national nurse 
advice line that will further assist us in this effort, and provide an 
alternative access point for information and referral for our 
beneficiaries.
    Together with the Surgeons General, we will continue to identify 
and rapidly implement other initiatives that take advantage of joint 
purchasing, greater optimization of our medical supply chain, and 
increased shared services.
Equity in Programs and Provider Payment
    Second, we are pursuing a more equitable management of benefits 
across all health care programs.
    Congress has long directed us to align our reimbursement policies 
with those of Medicare. We will continue to make the necessary 
regulatory changes to follow the law. In 2012, we will adjust our 
payments for care provided by facilities designated as Sole Community 
Hospitals to also align with Medicare reimbursement levels, saving 
almost $400 million over 5 years. DOD recently adopted a similar change 
with the implementation of the Outpatient Prospective Payment System 
(OPPS), and successfully implemented a phased-in approach to reduce the 
impact on our civilian provider network.
    We recognize that adjustments to payment formulas will have an 
impact on the projected revenue streams of the hospitals covered under 
this rule change and we are sensitive to revenue projections in 
planning for large capital outlays for construction and major medical 
equipment purchases. We determined that 4 years provides a reasonable 
time period for phase-in for the payment adjustments.
    We also seek to ensure all healthcare providers are reimbursed in 
the same manner regardless of their geographic location. We propose to 
amend our Uniformed Services Family Health Plan (USFHP) enrollment 
policies so that they align with all other TRICARE providers. All 
current enrollees will be grandfathered into the current program. In 
our budget, we propose that all future USFHP enrollees will convert to 
TRICARE For Life benefits upon reaching Medicare eligibility.
    Future enrollees will still be eligible to enroll in the USFHP if 
they are not Medicare-eligible.
    Future Medicare-eligible enrollees will be treated the same as all 
other dual-eligible DOD-Medicare beneficiaries in the country. Upon 
reaching age 65, Medicare will become the primary payer for these 
beneficiaries and TRICARE will be second payer. Once Medicare-eligible, 
these beneficiaries may continue to see the same providers that they do 
today; the reimbursement process by which both Medicare and TRICARE 
contribute payments will be the only change.
    Through this proposal DOD will achieve greater equity across the 
TRICARE program--all Medicare-eligible beneficiaries will be treated 
the same. Second, the U.S. Government will save money, not just DOD. 
DOD currently pays more than the U.S. Government will pay jointly under 
our proposed plan.
Modest Changes of Beneficiary Out-of-Pocket Costs
    Finally, for working age retirees, we are proposing minor changes 
to out-of-pocket costs that are exceptionally modest, manageable and 
remain well below the inflation-adjusted out-of-pocket costs enjoyed in 
1995, when TRICARE Prime was first introduced. We have proposed an 
increase of $2.50 per month (or $5.00/month per retiree family) for 
enrollment in TRICARE Prime--the first increase in enrollment fees 
proposed since the TRICARE Prime benefit was introduced in 1995. For 
the longer term, we have also proposed to index this enrollment fee in 
order to establish more predictable and modest fee changes over time.
    When these proposals were first introduced with the submission of 
the President's budget in February, the administration had not yet 
selected the appropriate health care inflation index. As part of this 
process, we met with the beneficiary organizations, and we developed a 
set of criteria that should be used to determine the right index. These 
criteria included:

        <bullet> Relevance--an index that most closely aligned with the 
        health care costs experienced by this population
        <bullet> Independence--an index determined by an independent, 
        external agency rather than internally (DOD) established index
        <bullet> Transparency--an index in which the methodology is 
        publicly available
        <bullet> Clarity--an index in which the calculations are 
        understandable to all
        <bullet> Fairness--an index that, when considering all factors 
        influencing health costs, is determined to be a fair and 
        accurate model for the costs experienced by the Government and 
        the beneficiary for services delivered

    In recent weeks, working closely with the Office of Management and 
Budget, we considered and evaluated six separate indices in this 
process, and believe that the National Health Expenditures (NHE) per 
Capita model as best meeting the criteria we used above. Figure 4 below 
highlights the average annual percentage increases in health costs 
using the various options.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    As part of our proposals, we also recommend minor adjustments in 
prescription drug copayments that include both reductions and increases 
in copays, the increase or decrease dependent upon the outlet selected 
by beneficiaries. We want to offer incentives to use the most 
appropriate and cost-effective outlet for their needs, and believe the 
minor changes to this copayment will be accepted and assist us in this 
goal. I have been heartened by support expressed by leading beneficiary 
organizations for this change. We have made progress in the last few 
years in encouraging beneficiaries to elect prescription drug home 
delivery, and we believe this proposal will accelerate the adoption of 
this option as it has demonstrated greater medication compliance while 
saving on overall costs for the beneficiary.
    Our proposals have been carefully considered. We have incorporated 
numerous safeguards--grandfathering in all current enrollees to unique 
programs; phasing-in new reimbursement methodologies for providers; and 
excepting certain beneficiaries (survivors and medically retired 
servicemembers) from any changes--in order to protect our most 
vulnerable beneficiaries and providers. None of these proposals affect 
the free healthcare we deliver to our active duty servicemembers.
                          learning and growth
    The foundation of our success lies with our training and education 
systems. Chief among these educational institutions is our Nation's 
outstanding medical university--the Uniformed Services University of 
the Health Sciences (USU) located here in Bethesda, MD. Since the first 
class graduated in 1980, USU alumni have become an integral part of our 
military health system and many of USU's graduates are assigned in key 
leadership positions throughout each of our Service Medical 
Departments.
    The value of a USU education was never more evident than following 
the recent tragic shooting that occurred in Tucson. In the aftermath of 
this tragedy, it was the medical education received at USU that laid 
the foundation in medical training that the University of Arizona 
Health Science Center's Chief Trauma Surgeon, Dr. Peter Rhee, called 
upon as he provided the initial care and treatment to Representative 
Gabrielle Giffords. His extensive military experiences proved extremely 
beneficial in providing the best care possible to the Congresswoman. 
When he needed to consult on her care plan to ensure his approach was 
optimal for her condition, he called upon his USU classmate, 
neurosurgeon Dr. James Ecklund and USU's Interim Chief of Neurology, 
Dr. Geoffrey Ling.
    USU is a national treasure and its value to our Nation is seen 
every day in the battlefields of Iraq and Afghanistan, in the care we 
provide worldwide to our very deserving service men and women, in the 
research being carried on in the fields of traumatic brain injury and 
post-traumatic stress disorder, and in the many laboratories conducting 
research on emerging infectious disease and many other public health 
issues.
    Our system is also buttressed by a strong and deepening 
relationship with our Federal partners, particularly in our interaction 
and sharing with the Department of Veterans Affairs. We continue to 
increase the number of sharing agreements between DOD and VA medical 
facilities, facilitated by the DOD/VA Joint Incentive Fund. We 
appreciate that the NDAA for Fiscal Year 2010 extended this very 
valuable program until September 30, 2015.
    We are also working closely with the VA to enhance DOD/VA 
electronic health data sharing, and to create a long-term architectural 
framework that benefits both Departments and the people we serve. 
Beginning with a December 2010 review, led by the Vice Chairman of the 
Joint Chiefs of Staff, DOD and VA have made substantial progress in 
developing a solution that can be implemented in a timely and 
coordinated manner. The Electronic Health Record (EHR) Way Ahead 
addresses specific challenges with the current EHR, including outdated 
legacy technologies; ongoing performance and data availability 
problems; and difficulty in using healthcare industry standards.
    In fiscal year 2012, we plan to introduce elements of the EHR Way 
Ahead, our long-term plan to replace our existing electronic health 
record. The details of the management structure to oversee the Way 
Ahead, the requirements development process and the outreach and 
engagement with the private sector will follow the important work that 
is underway now to finalize the details of our strategy.
                               conclusion
    Our overall proposed budget for fiscal year 2012 reflects our 
commitment to readiness, population health, an enhanced patient 
experience of care, and continued responsible management of costs.
    I will never lose our focus on those members of our Armed Forces in 
combat. I will honor the sacrifices of so many servicemembers and 
families. I have always been personally inspired by the commitment and 
dedication of our soldiers, sailors, airmen, marines, and coast 
guardsmen. The highlight of my career as a surgeon has been caring for 
the wounded warrior on the battlefield. These talented young men and 
women, who have been asked to shoulder the responsibilities for 
defending this Nation and have suffered the consequences of nearly a 
decade of war, deserve the best medical care both at home and abroad.
    I am both pleased and proud to be here with you today to represent 
the men and women who comprise the Military Health System, and I look 
forward to answering your questions.

    Senator Webb. Thank you, Secretary Woodson.
    As I mentioned, all of your full statements will be entered 
into the record. More importantly, they will be useful to us 
and to staff, in terms of evaluating programs and ongoing 
staff-to-staff discussions as we move forward with the 
authorization of the DOD budget this year.
    I'm going to ask a couple of questions, and then I'm going 
to call on Senator Ayotte for any questions that she might 
have. Then depending on who else comes, I know I will have 
other questions. We'll just proceed in that manner.
    Let me start by asking Secretary Stanley--you mentioned, in 
your brief opening statement, your oversight of the civilian 
workforce. Who is in charge of the contracting force? Not just 
defense contractors here inside the Beltway, but contractors 
writ large, such as the hundreds of thousands that we are using 
in places like Iraq and Afghanistan.
    Dr. Stanley. I know that's not under my cognizance here. Is 
that acquisition, technology, and logistics (AT&L)?
    Mr. Hale. Well, they would report to the commanders in the 
installations involved. Oversight of contracting policy would 
be AT&L.
    Senator Webb. So, who hires, fires, and pays?
    Mr. Hale. It would be the commanders----
    Senator Webb. How many contractors are we paying?
    Mr. Hale. I only laugh, because we are much pilloried for 
our lack of full accounting of contractors. We're getting 
better. For operation and maintenance (O&M) contractors who are 
in the 300,000 range, is our best estimate of full time 
equivalents. But, I would tell you that there are----
    Senator Webb. Excuse me, what are the 300,000?
    Mr. Hale. For contractors funded by the Operation and 
Maintenance account, that's the operating costs, and it's the 
main source of funds for them. But, there's around 300,000--
there are others working in the other accounts, as well. We 
haven't got a full count there yet. We were working hard, 
something Congress directed us to do, some years ago. We're 
working on it.
    Senator Webb. Well, we hear wildly varying numbers as to 
how many contractors are being paid each year by DOD, and by 
whom, and how much. Do you know how much of the DOD budget goes 
into independent contracting?
    Mr. Hale. Mr. Chairman, if you want to look at--Ash Carter 
likes to use this number, and I think it's the right one--about 
40 percent of our money pays for all of our employees, that's 
military and civilian. The rest goes to contractors in some 
way, that would include all the weapon system cost, but most of 
that is contracted out, eventually, to private companies. But, 
many people, when they think of contractors, are thinking more 
of what you alluded to, the Kellogg, Brown, and Root (KBR) 
contractors in Afghanistan that are performing those services. 
That would be more--for those funded by Operation and 
Maintenance, more the 300,000.
    Am I helping? I sense not.
    Senator Webb.--kind of--we're kind of getting there. This 
is a really relevant question, in terms of whether or not we 
get the DOD budget under control, as your testimony indicated. 
It's one that people are having a hard time getting an answer 
for.
    When I was Assistant Secretary of Defense for Reserve 
Affairs, many years ago, we talked total force as being Active 
Duty, Guard, and Reserve, and then the civilian workforce. We 
have so many people, who are now contracting force, who are 
doing, at a minimum, quasi-military functions, the types of 
things that military people used to do, who are not actually 
being counted when we talk about the size of the DOD workforce. 
But, they clearly are a part of the DOD workforce. When we 
start looking at how to trim a DOD budget back, I think this is 
a good place to look. Wouldn't you agree?
    Mr. Hale. Yes, and so would the Secretary of Defense. Out 
of the efficiency initiative have come direction to make some 
cuts in particular categories of contractors, staff augmentee 
contractors. But, the Services, as they have looked for 
efficiencies, have chosen to make other cuts, as well. So, I 
think you will see some, I hope, surgical reductions in 
contractors.
    That said, we couldn't fight without them. We are, as you 
suggested, very dependent on contractors for support in the 
wartime theater and many other places. So, we need them to be 
an important part of our team, we just need to make use of them 
economically.
    Senator Webb. Whether or not we could fight without them, 
we deserve to be able to have the same oversight over how they 
are used and the discretion that is put into play, in terms of 
when they're used. As you mentioned, these are O&M accounts, 
and there's a lot of money that floats out to the commanding 
units under O&M accounts, where they have an enormous amount of 
discretion. We're talking about increasing TRICARE, for 
instance and we're at a point here where we have to get from 
the nice-to-haves to the needs-to-have. In my experience, I've 
been up here, now, 4\1/2\ years--that's been eluding the 
oversight of Congress.
    So, we would like to follow up with you on this and see if 
we can't actually get an accurate count as to where they are 
and the functions that they are performing, to see if we can't 
put some of the same sort of stringency in these analyses as we 
do in others.
    Mr. Hale. We'll do our best.
    Senator Webb. Thank you.
    Another question with respect to the healthcare system. I 
believe you made a comment that the cost of the DOD healthcare 
system has tripled in the last 10 years. Is that an accurate 
statement?
    Mr. Hale. Yes, roughly. We went from about $19 billion to 
$52.5.
    Senator Webb. How does that compare, say, per capita, with 
the increase in overall health--national health during that 
period? I say ``per capita'' because the part of it is numbers 
and part of it is per-person numbers.
    Mr. Hale. It would be faster--I don't have that. We added 
some important benefits, during this period, Mr. Chairman. 
TRICARE for Life stands out, and that's quite expensive. I 
mean, it probably was the right thing to do, but it was 
expensive. So, it's clearly grown more quickly. I'll have to 
give you for the record the exact--unless, Jon, do you know?
    Dr. Woodson. We have actually looked at this, and we've 
mapped it against the national healthcare expenditures index, 
which is one of our proposals. It maps directly, so that if you 
look at the rising costs of healthcare in the civilian--it's 
mapping directly. Part of that, of course, is that we pay for 
retirees who receive their care in integrated networks and on 
the economy. So, obviously, we're influenced by those same 
factors, in terms of the rising costs.
    Senator Webb. Right. So, the point could fairly be made 
that this is not the result of inefficiencies; it's the result 
of a national phenomenon.
    Dr. Woodson. You're correct. In fact, we've looked at our 
costs and the buckets that they fall into--and I believe this 
is in my written statement--but, in fact, as a healthcare 
management agency, if you will, we spend far less on 
administrative costs and contribute much more--80 percent of 
our costs or so are for the direct delivery of care, either 
within the network or in integrated networks. So, what happens, 
in terms of the use of technology utilization and the way 
medicine is practiced in our society at large directly reflects 
in our costs, just like it does everywhere else.
    Mr. Hale. Mr. Chairman, I'd like to add to that.
    I think most businesses in America are looking to hold down 
healthcare cost growth. We're in the same situation. Even if 
the growth has been similar, we all need to slow it.
    Senator Webb. Yes. I wouldn't disagree with you at all on 
that. It's just--the way that this has been characterized so 
often in the media has been a DOD issue, and it's a national 
issue in which DOD is attempting put some efficiencies into, in 
my view.
    Senator Ayotte.
    Senator Ayotte. Thank you very much, Mr. Chairman.
    I want to thank our witnesses for their service to our 
country. Really appreciate your being before the committee 
today.
    I just wanted to follow up to the chairman's question, 
Secretary Hale. Have there been any internal DOD analyses or 
external reports comparing the costs of using, for example, a 
full-time military personnel versus a contractor--to look at--
if we needed to perform the same function, does it make more 
sense to expand our force versus use the contractor? I just 
don't know if that's already been worked--work that's been 
done.
    Mr. Hale. I don't know of any overall study. It's going to 
be very dependent on the job. Military personnel are fairly 
costly. They move a lot, there's a lot of training, all of 
which is good; it's one of the reasons we were able to succeed 
this weekend. So we need to continue to do that. But, if it is 
a job that's going to stay put, you're probably better with a 
civilian employee. Contractors are generally, I think probably 
fair to say, for many jobs, more expensive than civilians. But, 
they also provide the benefit that you can hire them and 
terminate them, if you need to, more quickly.
    I know I'm not answering your question. I don't know of any 
simple study that says one is more costly than the other. I 
think it would be quite dependent on the nature of the work.
    Dr. Stanley. Senator, if I might add, one of the things 
that weighs in on this, not necessarily directly, but 
tangentially, is hiring reform. I call it employment reform. 
Because one of the things that's happened is that the 
contracting business, at least in some areas, not necessarily 
in all the areas that Senator Webb was talking about in combat 
or in theater, actually are a direct result, or at least 
tangentially happening, because of the fact that the hiring 
process is so cumbersome. I have to confess to you, that's just 
sort of some of the things that happen. So, we're looking at 
that. But, I haven't seen, as your question asks, any direct 
correlation or studies on this.
    Senator Ayotte. Secretary Stanley, is there a movement 
within DOD to reform that?
    Dr. Stanley. Absolutely.
    Senator Ayotte. Recommend a proposal? I don't know if it 
will require congressional approval, but I think that's an 
excellent thing to make it more efficient, in terms of how 
hiring is done. I also think one of the issues we need to 
address is how contracting is done--both in terms of the 
criteria that are used but also in terms of our efficiency in 
contracting. So, I appreciate that that's something that you're 
already beginning to undertake.
    Dr. Stanley. Yes.
    Dr. Woodson. If----
    Senator Ayotte. Excuse me, Secretary Woodson?
    Dr. Woodson. I just wanted to add to the comments that one 
of the issues around contracting, and of course it depends on 
the specific situation, but you need to look at the tail. So, 
the issue of retirement benefits, and we're talking about 
healthcare here. Sometimes, for limited-purpose projects, it is 
more cost efficient to hire a contractor, because you're not 
paying benefits in perpetuity or after retirement. So, all of 
those factors need to be considered into whether or not a 
contractor is a cost-efficient way of doing business.
    Senator Ayotte. Thank you, Secretary Woodson. I would agree 
with you on that. But, I do think that it would be important to 
have that kind of data as we make these decisions on, number 
one, accountability of contractors, but also whether it makes 
sense, costwise, to either: (a) have more civilian employees; 
or (b) expand our contractor force. I certainly appreciate that 
there are--situations arise where you don't need a permanent 
employee, because it's an immediate short-term project. So, I 
think that flexibility needs to be there. But, reviewing this 
process when we're in a difficult fiscal time is very 
important, in terms of the decisions that we have to make here.
    Secretary Stanley or Secretary McCarthy, whoever you think 
is most appropriate to answer this question--the fiscal year 
2011 Defense appropriation allotted $16 million to outreach and 
reintegration services under the Yellow Ribbon Reintegration 
Program. I understand that this money was actually provided to 
the Office of the Under Secretary of Defense for Reserve 
Affairs rather than the National Guard Bureau. So, in other 
words, as I understand it, it was provided to the Office of the 
Secretary of Defense for Reserve Affairs, as opposed to Guard. 
Can you let me know what the status is of these funds, and 
whether they'll be provided to National Guard programs to focus 
on outreach and reintegration?
    I signed a letter, among 43 Members of Congress, focusing 
on 8 States, 1 of them being New Hampshire. Because, as you've 
already pointed out, Mr. Secretary, we've asked so much of our 
Guard and Reserve, in terms of Active deployment. Making sure 
that the programs are in place for the whole deployment cycle 
and reintegration--particularly with our civilian soldiers, 
though, the challenges are even greater because they don't come 
back to that support system of a base, where everyone's gone 
through the same thing; they go back into a civilian setting. 
In the past, before Armed Services hearings, I've highlighted 
what I think is an excellent program in the State of New 
Hampshire and these funds appropriately should go to that 
purpose.
    So, I wanted to get your take on what will be done with 
them.
    Will the Guard have an opportunity to apply for those? How 
will that move forward?
    General McCarthy. Senator, those funds, recently released 
with the passage of the Appropriation Act, are actively being 
worked. The Yellow Ribbon Reintegration Program Office, which 
reports to me, is actively engaged with those eight particular 
States to fund those programs, through the National Guard, in 
each of those States. So, I checked on that just today. I know 
that----
    Senator Ayotte. Thought I might ask that. [Laughter.]
    General McCarthy. Absolutely.
    But, Ron Young, who leads that effort, is directly 
engaged.He tells me that he expects that, within the next few 
weeks, they will have completed working with each of those 
eight States.
    Senator Ayotte. Well, we really appreciate your efforts in 
that regard. Certainly, as I've said in the past, New Hampshire 
has a program that we've been measuring the metrics of, in 
terms of reintegration. The fact--it's been measurable 
progress. I really appreciate your work on that, given what 
we've asked of our Guard and Reserve.
    General McCarthy. Dr. Stanley and I met with the Adjutant 
General of New Hampshire, about 3 or 4 months ago, and talked 
about that program specifically. So, we're on target with that.
    The Yellow Ribbon Reintegration Program is, frankly, one of 
the most important things that we can do. If we're going to 
continue to use the Reserve component as a part of the 
operational force, that can't be seen just as a wartime-only 
effort. That's something that we have to continue to do, to 
keep faith with the men and women of the Reserve component and 
their families.
    Senator Ayotte. Thank you very much.
    One of the things I do think when you--is going forward, 
how do we handle this reintegration issue with the Guard, that 
I think is important from our program, is that it's a public/
private partnership. So, we're able to actually reduce costs 
because we've engaged the private sector, as well. Because in 
very difficult fiscal times, we have to look at ways we can do 
this. The private sector wants to engage on this. So, I 
appreciate what you've said today.
    Also wanted to follow up, Secretary Stanley, in your 
statement, you say that some of the prestigious universities 
are now rethinking their policies that exclude Reserve Officers 
Training Corps (ROTC) on campus. I think you've said--I noted 
Stanford University recently voted to invite ROTC back. They 
hadn't had them on campus since Vietnam. I'm really please 
about that. Can you tell me, are there any other universities 
that receive Federal funding that--who still prohibit ROTC 
programs or recruiters on campus?
    Dr. Stanley. I have to take the question for the record, in 
terms of the actual universities.
    [The information referred to follows:]

    Currently, no universities are in violation of the Solomon 
Amendment for Reserve Officers Training Corps (ROTC) Program issues. 
However, there are two schools, the Vermont Law School and William 
Mitchell College of Law, which are in violation of the Solomon 
Amendment for denying recruiter access.
    All Ivy League colleges are in compliance with the Solomon 
Amendment and all have ROTC affiliation either through host or cross-
town agreements. DoD is obliged to enforce the Solomon Amendment, which 
denies Federal funding to institutions that either prevent ROTC from 
being on campus or that interfere with participation by their students 
in ROTC on campus or at another institution.

    Dr. Stanley. I have a little history in this, in that, in 
the 1980s, as a major on Active Duty, I actually went around to 
a bunch of schools----
    Senator Ayotte. Oh, were you?
    Dr. Stanley.--trying to get ROTC back on the campuses. Over 
the years, for different reasons, different schools decided not 
to have ROTC on campus. Things have changed, this is a new day, 
and now they're welcoming back.
    So, I'd like to take, for the record, to get the specific 
schools, because I'm certain there are some out there, as they 
start looking at the issues again about service to our Nation.
    Senator Ayotte. I appreciate that and look forward to your 
answer on that, Secretary Stanley.
    I remain very concerned that, I think, that it's really 
important that ROTC be allowed on campuses, and particularly 
campuses that are going to accept Federal funds, because they 
need to allow access to our recruiters, and their students to 
be able to have access to those recruiters. So, I appreciate 
that, very much.
    Thank you very much, Mr. Chairman.
    Senator Webb. Thank you, Senator Ayotte.
    I tend to agree with your comment, too, by the way, on 
ROTC, have for a long time.
    I have a series of questions here. I don't know, would you 
like to rotate? Senator, are you finished or----
    Senator Ayotte. I do have a couple more, but we could----
    Senator Webb. Okay, let me----
    Senator Ayotte. It's up to the chairman.
    Senator Webb. Okay, let me ask a couple, and then I'll give 
back to you, if you like.
    Secretary Hale, what's the size of the accrual accounts now 
in DOD?
    Mr. Hale. The accrual for military retirement would be, I 
think, about $25 billion. You let me fix that for the record.
    There's about $10 billion for the trust fund for TRICARE 
for Life.
    Jon, have I forgotten any?
    Mr. Hale. I think those are the main ones.
    Senator Webb. Are you still at about 51 cents on retirement 
account accruals?
    Mr. Hale. Oh, per dollar of pay?
    Senator Webb. Right.
    Mr. Hale. I don't think it's that high. I think it'd be--
$20-$25 billion, and we got about 100 and--$100 billion. It's 
more like 25 to 30 percent.
    Senator Webb. Okay. It's gone down significantly since I 
was in the Pentagon.
    Mr. Hale. You probably have the numbers sitting there from 
your staff.
    Senator Webb. No, no. [Laughter.]
    Mr. Hale. Okay.
    Senator Webb. Actually, that was just from my time in the 
Pentagon.
    Mr. Hale. I was waiting, Mr. Chairman.
    Senator Webb. I think we were putting 51 cents out on the 
accrual accounts when I was in the Pentagon. So, it was a 
considerable shift, when they decided to do that, back in the 
1980s.
    Mr. Hale. It was 1976, actually.
    Senator Webb. It was pay-as-you-go retirement program, when 
they started requiring the accrual accounts that----
    Mr. Hale. I helped the late Les Aspin, while I was at the 
Congressional Budget Office----
    Senator Webb. Yes, I remember----
    Mr. Hale.--work that out. Twenty-one billion to--$20 
billion--point--$20.9 billion in fiscal 2012 for the retirement 
accrual.
    Senator Webb. This was an Aspin initiative, I remember 
that.
    Mr. Hale. Yes, it was.
    Senator Webb. Secretary McCarthy, I can't resist asking you 
a couple of questions, sort of as you're approaching departure 
in your job, just some thoughts from you on the structuring of 
your office, from the time that I held that same position many 
years ago, I think there were two major differences, and I want 
to get your thoughts on this, from the time that I was 
Assistant Secretary for Reserve Affairs. The first is that 
there was no Under, and I met, every morning, with the 
Secretary of Defense, in a staff meeting, which was very 
valuable, in terms of articulating Guard and Reserve issues.
    The second is that the relationship with the National Guard 
was, I'm sure, different, because the Chief of the National 
Guard had just been elevated to a three-star position and now 
it's a four-star position. If you look at the job description 
of the current Chief of the National Guard and his official 
page, it says he is responsible for formulating, developing, 
and coordinating all policies, programs, and plans for all 
National Guard personnel, principal advisor to the Secretary of 
Defense, through the Chairman of the Joint Chiefs, on National 
Guard matters; principal advisor to the Secretary Chief of 
Staff of Army, Secretary Chief of Staff of Air Force on all 
National Guard issues.
    So, two questions for you. As you are departing, having 
been an incumbent here, how comfortable are you that the policy 
issues, with respect to Guard and Reserve, are under the rubric 
of your office in a line to the Secretary of Defense? What's 
your relationship with the Guard, since that position's been 
elevated to a four-star?
    General McCarthy. If I could, the second one's easier than 
the first, so I'll start with that, if you don't mind.
    The relationship that I've had with General McKinley, in 
his role as the chief of the National Guard Bureau, and, 
frankly, with all of the Reserve component chiefs, has been 
nothing short of spectacular. It's certainly, a part, due to 
personalities, theirs and mine, I guess. But, we've had a 
cordial and professional working relationship, without 
conflict, as I could have imagined. Structurally, you're 
absolutely right, it may not always necessarily be that way, 
but that's certainly the way it's been during my tenure.
    With regard to the larger question of the position of 
Assistant Secretary of Defense, one thing's been very clear to 
me, and that is that, when Congress insisted on having a 
Senate-confirmed civilian appointee with specific 
responsibility for Reserve Affairs, they knew what they were 
doing.
    I'm going to be leaving office in 3 weeks, or something 
like that, and I'm in the process of preparing an out-brief for 
both Secretary Stanley and Secretary Gates. Frankly, I think in 
my duty of loyalty to them, I ought to tell them first what I 
think about that. I intend to. I would like to be able to come 
back to you, either formally or informally, and share my views. 
They'll be exactly the same views that I'll give to the 
Secretary. But, I, frankly, if you will permit me, I would 
prefer to give my report to him first, before I share it even 
with the Senate of the United States.
    Senator Webb. By all means. Again, I appreciate your many 
years of service, in and out of uniform, and wish you well.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Secretary Hale, I was wondering if you could comment on the 
DOD's plan to terminate the USFHP.
    Mr. Hale. Well, Senator, we're not terminating the plan at 
all. It would continue. Those in it would be welcome to 
continue using it. What we propose is to have the same rules 
applied to the USFHP as apply to all other military retirees; 
namely, the retirees would be required to join Medicare, 
Medicare Part B, and the hospitals involved would receive the 
same claims payments. But, the program would continue.
    Senator Brown. Well, it's one of the highest-rated 
healthcare plans, though, in the military health system in 
2010, isn't that right?
    Mr. Hale. I'll accept your word. I hear very good things 
about it, and so we have no reason to terminate it, and have no 
plans to terminate it, that I'm aware, now or in the future. 
I'd ask either Dr. Stanley or Dr. Woodson to speak out.
    Dr. Woodson. That's exactly correct. We don't have any 
plans to terminate it. I think what we plan to do is bring 
payment in line with other beneficiaries. So, for example, the 
average cost for a Medicare-eligible beneficiary in the USFHP 
is about $19,000 there's a range but about $19,000. Other 
beneficiaries that exercise the use of Medicare, we pay about 
$4,500. The real issue is that, over the years, these hospitals 
were given special benefits. They are on solid plans, in terms 
of the delivery of care, so we don't want to lose them. It's 
just that, in 2011, we need to change our business model to 
remain solvent and keep the benefit of health insurance solid 
for the future--future retirees. We can't afford to pay these 
excessive amounts for these Medicare-eligible----
    Senator Brown. So, you're looking at, what, saving $3 
billion over a 5-year period?
    Dr. Woodson. Right.
    Senator Brown. Is that accurate?
    Dr. Woodson. Right.
    Senator Brown. So, if--the proposed legislation, is 
enacted, it would basically force future retired members of the 
military to disenroll from the program that they--apparently is 
the highest-rated healthcare plan in the military health 
system, into, quite frankly, a plan that is not as high rated.
    Dr. Woodson. Well, they could keep their same doctors and 
go to the same hospitals. About 92 percent----
    Senator Brown. Right but they don't get the same plan and 
the same benefits.
    Dr. Woodson. The care should be the same. About 92 percent 
of the doctors in the USFHP do accept Medicare. Of course, they 
may not be accepting new Medicare individuals, but these would 
be old patients. They could keep their doctors and----
    Senator Brown. Are you sure of that? So you're guaranteeing 
the people that are listening that when they're forced to 
disenroll, that they will absolutely be able to enroll and keep 
their same doctors?
    Dr. Woodson. Well, I just came out of practice a few weeks 
ago, before assuming this position, and I would, personally, 
never send a patient who has been with me away after I've 
established a relationship with them over years, because their 
insurance changed. So, the issue is that the payment scheme 
would be different for these doctors, under the proposed 
changes. But, the beneficiaries could keep their same doctors.
    Senator Brown. Well, you're saying there's going to be a 
payment-scale difference between--with the doctors.
    Dr. Woodson. Right.
    Senator Brown. So you're basically saying that you have a 
group of retirees who are getting the best healthcare, 
according to the highest-rated healthcare plan in the military 
health system. They're on that system, they're marching along, 
they're enjoying it. Then, all of a sudden, at age 65, when 
they potentially need it the most, they're going to be forced 
to disenroll and go into a plan, where obviously, you would 
never kick them out, but there are others that would say, ``You 
know, what I'm not going to let them in because I'm not getting 
the reimbursements.'' I mean can you, any of you, guarantee 
that, in fact, every retiree, or the majority of the retirees, 
will get that same care and attention that you would do?
    Dr. Woodson. Well, we would certainly work with them to 
make sure that the beneficiaries were protected. The issue is 
that, actually, the health plans would do fairly well under the 
proposals that we are putting forth because, in fact, TRICARE 
for Life, which would be the copay, would pay 20 percent, 
Medicare would pay 80 percent, so they would get 100 percent of 
the payment. So, I think the incentives for dismissing these 
patients would be extraordinarily small.
    Senator Brown. Mr. Chairman--just to shift a little bit--
well, I have to be honest with you, a lot of the complaints and 
comments I get about Medicare and the care that they get, 
people are, they don't go, and they don't like it, for a 
reason. Whether it's the patient or the doctor--and the fact 
that we're going, from the highest-rated healthcare plan in the 
military system to something that could be dramatically worse, 
it concerns me.
    Dr. Woodson. Yes, and I appreciate your concern, Senator. 
But in 2011, we have to look at all participants, plans, 
providers, and ask, What is the best value? Excessive payments 
to a certain segment, really, in a time of efficiencies----
    Senator Brown. Well, wouldn't you merely just address the 
payment scheme or this payment situation, instead of shifting 
them onto a Federal system that is going to be, I think, quite 
frankly, overburdened at that point in time?
    Mr. Hale. Senator, I'd like to add. I think you have to ask 
yourself, and Congress does, whether or not we want to treat 
one group of retirees totally different than we treat everybody 
else in the military. Is that the right thing to do? We think 
not. We are treating them different
    Senator Brown. Based on what?
    Mr. Hale. We don't require that the people in the Family 
Health Program enroll in Medicare, and we pay the hospitals a 
good deal; the claims payments are much higher. It doesn't seem 
right to us that the care throughout the system is good.
    Senator Brown. Can't you negotiate a better payment 
arrangement with them, instead of closing down, then shutting 
down and transfer----
    Mr. Hale. Well, I don't think we're closing them down. As 
Dr. Woodson said, the doctors would stay there--incidentally, 
we fully grandfather everybody who's currently over 65, or that 
is our proposal, so that it would affect them only as new 
people reached age 65. So, we do this very gradually. We just 
don't think, in this period of time, it's appropriate to single 
out a group and say, ``We're going to treat you better.'' It 
just seems wrong to us.
    Senator Brown. Thank you, Mr. Chairman.
    Senator Webb. Thank you, Senator Brown.
    Senator Ayotte, do you have follow-on questions?
    Senator Ayotte. Two followups, Mr. Chairman.
    One was, Secretary Stanley, in your written statement, 
you've highlighted the large percentage of American youth who 
are ineligible to enlist in the military, due to either a 
medical disqualification or drug and alcohol abuse, a criminal 
background, lack of an education. Going forward, especially as 
the economy improves, how concerned are you about the 
relatively small pool of young Americans to be eligible to 
serve in our armed services?
    Dr. Stanley. Well, thank you, Senator, for the question. 
Very concerned, first of all. Actually, part of our strategic 
plan, as we've been working with the Services, is to actually 
focus early on--I mean, we've already started working, quite 
frankly, from elementary school and on up, in a number of 
areas, from science, technology, engineering, and mathmetics 
education, things like that. Some of the things we've already 
talked about, in terms of programs, even from Yellow Ribbon 
Reintegration, how we take care of our wounded warriors right 
now, that actually fits in part of the picture of taking care 
of our people.
    But, having people in the population that are qualified to 
enlist is a very big concern. So, being able to not only keep 
the people that we have--because one of the things the data 
also tells us is that we have a lot of people in a world or a 
society where so many people don't serve, many of the people 
who are serving actually are prodigy of people who have served. 
So, there are things that we can do on Active Duty or when 
you're dealing with Active or Guard and Reserve that actually 
help that part of the population. So, we're looking at it 
holistically, working closely with the Services--working 
relationship--but definitely working long-term.
    Senator Ayotte. What's your view on the National Guard 
Youth Challenge Program as one of the methods to address some 
of the challenges of reaching out to young people that want to 
enlist?
    Dr. Stanley. I'm going to make one comment and then ask 
Secretary McCarthy to say something.
    What I've heard about the program has been phenomenal. I 
have not seen it personally. But, what it has done, in terms of 
the data points I've seen, it's made a difference and turned 
some lives around.
    Secretary McCarthy.
    General McCarthy. I certainly agree with that. The Youth 
Challenge Program has been a huge success. But, frankly, it's a 
kind of a stopgap. It's getting people very late in the 
process. It's usually best directed toward kids who are already 
in some degree of difficulty. So, it's not the answer, by any 
stretch of the imagination, but what it has done is very 
impressive and very remarkable.
    Senator Ayotte. Thank you.
    Secretary Hale, we've been talking a lot about healthcare 
costs today, which is a big concern, not only within the 
Defense budget, with our overall fiscal state of the country. 
In a GAO report, there was a recommendation that estimated that 
realigning DOD's military medical command structures and 
consolidating common functions could increase efficiencies and 
result in cost savings.
    I would ask, I guess, the whole panel and would start with 
you, Secretary Hale, whether you support realigning the DOD's 
military command structures? Was this something that has 
already been considered during the development of the 
efficiency initiatives?
    Mr. Hale. The answer to both, at least speaking personally, 
is yes. I should say, yes, it was considered. We didn't go 
forward with it at the time. I think it needs to be looked at 
again. Like all organizational changes, it has its contentious 
parts, and we need to work through them and make sure that we 
don't damage the quality of management in the healthcare 
system. But, I think it is something that we need to look at, 
and will look at.
    Dr. Stanley. I'd just make a comment. We are looking at it, 
but to go much further than that statement right now would 
probably not do the process very much good, because we're going 
to work with the Services, work with the Joint Staff, and work 
with the Office of the Secretary of Defense staff as we move 
forward in looking at how we organize, medically.
    Senator Ayotte. I can't help myself, but what are the most 
contentious parts that you have to address, if we were to move 
forward in this?
    Dr. Stanley. What I've seen, personally, has been, Senator, 
actually, we have service cultures differences. When we get 
out--and I was in theater, about 1 week before Secretary 
Woodson. Out there, they're doing it, and they're there. The 
closer you get to Washington, DC, it gets a little bit more 
challenging.
    Senator Ayotte. I can understand that. [Laughter.]
    Dr. Stanley. I was in San Antonio last week, watching, 
looking at what they're doing there.
    We have cultural issues that have built up over the years--
good cultural issues--that have helped align and allow our 
Services to do what they do in theater, in combat, the way it 
should be. What we're looking at now, though, are more 
efficient ways--from pharmacies to not buying duplicate sets of 
equipment, to a doctor. There are a number of different things 
to look at in how we train to do that in our total force. This 
is a part of what we're looking at.
    Senator Ayotte. Well, I would ask all of you really to give 
us close examination of this. I think that's something that we 
would all like to hear about. Because, as we look to the fiscal 
state of where we are right now, if we can consolidate in a way 
that's going to save money and still serve our military 
appropriately, then we need to move forward with that. So, 
thank you.
    Senator Webb. Just as one quick follow-on to what Senator 
Ayotte just said, and I'm going to then yield to Senator Graham 
and Senator Chambliss.
    What percentage of the potential enlistment pool in the 
United States is ineligible to enlist or does not qualify to 
enlist? It's a very high number.
    Dr. Stanley. Of the people who are out there in civilian 
life, right now?
    Senator Webb. Of the age cohort, what percentage does not 
qualify to enlist?
    Dr. Stanley. I heard three-fourths, Senator. It's a 
significant number.
    Senator Webb. I've heard around--up to two-thirds--does not 
meet enlistment----
    Dr. Stanley. I think you're probably right. It's 
significant.
    Senator Webb.--criteria, either because of physical or a 
variety of reasons. I find that astounding.
    Dr. Stanley. Same here.
    Senator Webb. I mean, if you even look at the Vietnam 
cohort, one-third of everyone in that age group served; 9 
million out of 27 million people in that age group actually 
served. We're saying that, of today's cohort, only one-third 
would even fit the profile in order to attempt to enlist? This 
is the number that I've heard. Can anybody verify that?
    Dr. Stanley. We can verify it. I've heard different 
numbers, yes.
    Senator Webb. If so, I mean maybe----
    Dr. Stanley. That number's staggering.
    Senator Webb. I can't believe two-thirds of America's youth 
can't meet the mark. I'm wondering if your might take a look at 
that and see where the impediments are.
    Dr. Stanley. We'll take that for the record.
    [The information referred to follows:]

    We have studied this issue in detail. In 2007, we developed an 
estimator that would project the number of 17-24 year-old youth who are 
qualified and available for service. We focused on this group because 
it comprises about 90 percent of our non-prior service accessions 
annually.
    The number of youth qualified and available for military service 
consists of youth who are mentally, medically, and otherwise eligible 
for service, and who are free of family commitments that would make 
them unavailable for duty.
    To estimate the number of youth that are qualified, we developed 
disqualification filters for those individuals that would be 
disqualified based on Department of Defense standards.
    Youth may be disqualified for more than one reason; however, we 
used a hierarchy of disqualifications so that only one disqualification 
applied to any one person. First, 9 percent of the youth population is 
disqualified due to a low aptitude score on the Armed Forces 
Qualification Test. Next, 35 percent are disqualified for medical 
conditions or physical fitness issues owing mainly to asthma, obesity, 
and other childhood maladies. Of the remaining population, 19 percent 
are disqualified for substance abuse (drugs and alcohol). Finally, 6 
percent are disqualified based on the number of dependents under age 18 
they have, and another 5% for questionable conduct or law violations.
    Combined, the data demonstrate that only about 25 percent of 
today's youth are qualified to serve.
    Data also show that of these 25 percent qualified, 11 percent are 
enrolled in college, and therefore not available to serve. Summed this 
way, only about 15 percent of the youth are qualified and available for 
military service.

    Senator Webb. We may want to reevaluate--I don't want--you 
don't have to lower the standards, but you may want to 
reevaluate the standards that are being used, or at least take 
a look at them.
    Dr. Stanley. Will do, Senator.
    Senator Webb. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    That is a stunning statement. I knew it was high, but two 
out of three, three out of four.
    General McCarthy, what do we need to do, if anything, when 
it comes to mobilization legislation, regarding the Guard? What 
does ``Operational Reserve'' mean in the 21st century?
    General McCarthy. Senator Graham, we kind of lapsed into 
this term ``Operational Reserve.'' One of the problems with it 
has always been there wasn't a----
    Senator Graham. To me, it means you're going to go a lot, 
yes.
    General McCarthy.--there wasn't a consistent definition. 
What I've chosen to say, and what's contained in the report, is 
using the Reserve as a part of the operational force. I think 
that resonates with people that, when a Reserve--either 
individual or a unit--and obviously I mean Guard or Reserve--
either individual or a unit comes on Active Duty, they 
seamlessly integrate with the Active component force. That's 
what we have to shoot for. We have to do that periodically. We 
have to do it in a right balance so that we're not over--we're 
not asking people to do that more than they can manage or that 
they're families and employers can manage. But, that's the 
goal, is to get so that we can use a portion of the Reserve 
component as a part of the operational force.
    I believe we do need a slight modification of our 
authority. The Department has sent over a legislative proposal. 
We've talked about it with the committee staff and with the 
staff in the House. I'm hopeful that we will expand our 
authority so that the President can continue to call some 
number of reservists to Active Duty without the necessity of an 
emergency, because that will enable the Reserve component to 
serve even when there is not a declared emergency.
    Senator Graham. What are the statutory limitations on 
service? Two years?
    General McCarthy. Right now, we can call people only if 
there is an emergency, whether it's a declared war or a 
declaration of national emergency or something less.
    Senator Graham. Right.
    General McCarthy. The period of service is not to exceed 2 
years of consecutive military service.
    Senator Graham. Now, I've been told, at one point during 
the height of the Iraq/Afghanistan engagement, that 55 percent 
of the people flying the tanker force were Guard members or 
reservists, and about three-fourths those people, if they had 
not chosen to volunteer, had exceeded their statutory service 
period, and they just agreed to keep working. Is that true?
    General McCarthy. Well, I can't verify the precise number, 
but the Air Force, in particular, has always preferred--both as 
an institution and the people--always preferred to use 
volunteers. They've done remarkably well with that. They can 
put teams together, allowing people to volunteer as it suits 
their other schedule. So they have made tremendous use of that, 
where as in the Army and the Marine Corps tend more to mobilize 
as units.
    Senator Graham. Okay.
    General McCarthy. But, the high proportion of the tanker 
force from the Air Force Reserve and the Air Guard is a 
longstanding fact.
    Senator Graham. Secretary Hale and Secretary Stanley, the 
idea of drawing the Army down by 40,000, the Navy, 9,000, the 
Marines, 16,000, the Air Force, 10,000, is that a wise decision 
right now, given the uncertainties of where the world is going?
    Dr. Stanley. Well, first of all, Senator, thank you for the 
question. The conditions on the ground will dictate, obviously, 
where they actually go to. So, there have been some planning 
assumptions made, now. The Marine Corps actually stepped up and 
said, ``We want to go to that particular level.''
    Senator Graham. Okay.
    Dr. Stanley. But, what we have to look at now is exactly 
what happens in Afghanistan and Iraq, the timing and pace of 
those.
    Senator Graham. So, this is a work in progress, still.
    Dr. Stanley. This is a work in progress, as we speak. But, 
the planning has to be done.
    Senator Graham. Sure.
    Dr. Stanley. The budget, as we are talking here today, 
actually there are things happening now that will affect the 
budget in the future. This is why it's--you have your planning 
assumptions.
    Mr. Hale. Let me just add, the drawdown on the Marines is 
in fiscal year 2015 and 2016.
    Senator Graham. Right.
    Mr. Hale. It's 15,000 to 20,000. The Army is 27,000, also 
in fiscal year 2015 to 2016. As Dr. Stanley said, it's 
conditions-based. We have several years to reevaluate those 
conditions.
    Senator Graham. Okay.
    Mr. Hale. You mentioned the drawdown in the Air Force. I'm 
not familiar with that one. I don't think, at least from 2011 
to 2012----
    Senator Graham. I'm sorry, it's civilian positions in the 
Air Force.
    Mr. Hale. Oh, civilians. Well, yes, that would----
    Senator Graham. From an Air Force point of view, more and 
more things are being done by civilians, from the time I came 
on Active Duty to now.
    Mr. Hale. Well, we are looking into--the Secretary has 
directed us to find lower-priority missions and activities we 
can do without in order to hold down our support costs. I think 
that's what you're seeing there.
    Senator Graham. One last question. The healthcare component 
of the budget. I know you've made some proposals about fee 
increases. From a political point of view, it's very hard to 
ask men and women in uniform to sacrifice more than they've 
done--the retired force. The way you treat your retirees 
depends how well you can recruit and retain.
    Having said that, there has to be some way forward. I've 
talked to a lot of the service organizations out there. There 
seems to be an understanding, by different service groups, 
that, slowly but surely, we need to adjust the reality that 
this is unsustainable.
    Secretary Hale, how do we get from here to there?
    Mr. Hale. Well, gradually, it seems to me, is the right 
start. That is our proposal. You may remember, 2 to 3 years 
ago, the administration made much more far-reaching proposals 
for changes in the TRICARE fees. They would have doubled, over 
a period of 4 or 5 years. Many hundreds of dollars, over that 
period. We're talking about $5 a month, for those in the Prime, 
family care, and a gradual indexing to a healthcare index.
    So, I think we all respect the service that men and women 
do, and we expect a very generous plan, and I think they have 
the right to expect it. We are providing that. But, I agree 
with the implication of your statement, Senator, if we don't do 
something, as Secretary Gates said, at some point, it will fall 
of its own weight. I think we need a very gradual transition.
    Senator Graham. Secretary Woodson?
    Dr. Woodson. It perhaps is useful to bring some numbers to 
this, just as illustrations. Since the inception of TRICARE and 
no fee increases, benefits and retirements have increased 50 
percent. But, if we go forward--and let's take an example of a 
lieutenant colonel, O-5, whose pension is $48,000 a year in 
2011----
    Senator Graham. What's an O-6 pension? [Laughter.]
    Dr. Woodson. It depends on the years of service.
    Senator Ayotte. I'm married to an O-5, so----
    Dr. Woodson. But, assuming $48,000 a year, in 2012, over 10 
years, assuming a COLA of 3 percent per year, the pension will 
grow by $16,000. At the same time, even if you accept the 
generous increase in prime enrollment fees of 6.25 percent, 
applying the same metrics--the price would only grow by about 
$428.
    So, what we're saying is that, because we're indexing the 
increase in fees to a smaller amount, even if they had a rise, 
it doesn't eat up the COLA, is what I'm saying.
    Senator Graham. Gotcha.
    Dr. Woodson. So, it's about fairness and protecting this 
very generous benefit for the future, for individuals who will 
serve in the future and, in fact, will need healthcare, as 
well.
    Senator Graham. Thank you. I have a letter from a bunch of 
generals who say we need to be thinking about doing exactly 
what you said. I would like to introduce it into the record.
    Thank you all for your service.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Webb. Thank you, Senator Graham.
    Senator Blumenthal, welcome. Since Senator Chambliss has 
been waiting, I'm going to go ahead and call on him.
    Senator Chambliss. Thanks, Mr. Chairman. It's always a 
scary thought, to his friends, that Senator Graham is a colonel 
in the Air Force Reserve. [Laughter.]
    Thank goodness you all don't let him carry a gun. 
[Laughter.]
    Senator Webb. For the record, when my dad was a colonel in 
the Air Force, I think he made $14,000 a year. So, we've come a 
long way, folks. It's been a long time.
    Senator Chambliss. Secretary Stanley and Secretary 
McCarthy, I understand there's been some confusion or lack of 
consistency regarding how the provision authorizing early 
receipt of retired pay is being interpreted at DOD. Since I'm 
the author of that provision, I want to state my intent, for 
the record.
    First, my intent was to reward servicemembers who perform 
Active Duty for significant periods. We had to bound the 
provision somehow, so we set the period during which members 
would be required to serve an aggregate of 90 days of duty to 
be the confines of a single year--fiscal year 2010 or fiscal 
year 2011, whatever. The intent was not that a servicemember 
should be rewarded to any aggregate duty of 90 days that they 
served over their Reserve career. Now, that's what we intended, 
and I'm going to ask you all to comment on that.
    Second, my intent was to reward servicemembers who were 
activated, mobilized, deployed, or called to duty in support of 
a contingency operation. In my view, this should include any 
duty, in the continental United States (CONUS) or outside 
CONUS, that is related to a contingency operation or a national 
emergency, regardless of the specific type of the order the 
member is called to duty under.
    Now, both Secretaries, with that explanation, I'd just like 
for you all to give me your feedback on how DOD is interpreting 
the current statute, what ambiguities you believe may exist in 
that language, and the extent to which the services are 
interpreting the provision differently. Anybody else has a 
comment, you're welcome to, but I think you two would probably 
be the most appropriate.
    Dr. Stanley. Senator Chambliss, I'm not going to say much 
right now, only because I haven't seen it yet. I'm going to be 
openminded when I look at it. Your explanation actually will 
help me when I receive it, because I know it's coming my way.
    General McCarthy. Senator Chambliss, the main problem that 
I am aware of is the first one that you mentioned, bounding the 
90-day period by saying ``within the same fiscal year.'' 
Clearly, the statutory language includes that bounding 
provision.
    Where we've run into a problem is where someone serves, for 
example, 45 days on one side of the fiscal year followed 
immediately, consecutively, by 45 days on the other side of the 
fiscal year. The interpretation of the Office of General 
Counsel has been, that service doesn't meet the standards of 
the statute because it crosses 2 fiscal years. We're trying 
very hard to figure out a way to carry into effect your intent 
of rewarding 90 days of continuous service, and to work around 
this provision of ``within the same fiscal year.'' We have not 
yet found a solution that everybody can live with, in part 
because there's money associated with it, appropriation 
associated with it. But, I think that everybody is working in 
good faith to try to figure out a way to solve that.
    Senator Chambliss. Okay. Actually, Senator Tester and I 
have an amendment that we're going to offer in the 
authorization bill this year that I think will clarify that. 
Because that can happen, and obviously it has happened, and we 
want to try to straighten that out. It's the 90 consecutive 
days that's the most important thing, rather than the fiscal 
year. So, I think, with what he and I are going to try and do 
in the authorization bill this year will get that clarified.
    General McCarthy. Thank you.
    Senator Chambliss. Thanks, Mr. Chairman.
    Senator Webb. Thanks, Senator Chambliss.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I just want to say, at the outset, I thank Senator 
Chambliss for his legislative proposal, which I have supported, 
on Reserve retirement credit.
    Thank you--even more important, thank you gentlemen for 
your service, both now and in your past, and the men and women 
who are sitting behind you in this room and who are serving 
under you, or with you, in DOD. I think all of us in the 
Senate, all of us in the Nation--are grateful for the great 
work that you are doing.
    I want to focus, just briefly, on, first of all, 
homeownership. Secretary Stanley and Secretary McHale, the 
stimulus bill in Congress greatly expanded the resources 
available under the DOD Home Ownership Assistance Program to 
help servicemembers who are changing their duty station, 
particularly in light of the Base Realignment and Closure 
Commission process. I wonder if you could speak, today, to the 
resources available to continue that program, what DOD is 
looking to do to make it more sustainable.
    Also, equally important, I am very concerned about issues 
relating to mortgage fraud and foreclosures, both inside and 
outside of the military community, but particularly as it 
affects the military community. I wonder if you could comment 
on both the home ownership program and the susceptibility of 
the military community to that kind of fraud, whether it's 
related to the homeownership program or not, and what the 
Defense Department is doing to aid the military community.
    Thank you.
    Mr. Hale. Well, I'm going to have to give you specifics for 
the record, Senator, on the HAP Program--homeowner.
    I think we're okay, financially. We were worried, because 
we had no experience, or not much experience, with this kind of 
program, and this is quite extensive. We formulated a set of 
rules which we thought were reasonable and, I believe, have 
kept within the bounds of the money that Congress appropriated. 
I don't know exactly how much has been obligated as of now. 
We'll get it for you, for the record. But, I think we're okay. 
I'm certainly not hearing any financial problems with the 
program.
    [The information referred to follows:]

    Congress appropriated $555 million in the American Recovery and 
Reinvestment Act of 2009 for the Expanded Homeowners Assistance Program 
(HAP). The Department has obligated 100 percent of those funds. 
Additionally, Congress appropriated $300 million in fiscal year 2010 
for Expanded HAP benefits, which the Department continues to execute. 
The Department continues to evaluate the Expanded HAP and may seek 
future appropriations as necessary. As part of the HAP, the Department 
has authority to purchase homes from eligible servicemembers and 
surviving spouses and then re-sell those properties. Proceeds from the 
sale of those homes are then deposited into the HAP in order to provide 
benefits to additional eligible personnel. In fiscal year 2011, the 
Expanded HAP account has received $44.8 million in proceeds from the 
sale of government-owned homes.

    Dr. Stanley. Senator, I've been personally engaged on the 
fraud end of it, even before we got to just the mortgage piece, 
of taking care of our service men and women, and the 
Servicemembers Civil Relief Act, working with Department of 
Treasury, looking at ways to ensure that our service men and 
women are not taken advantage of in lots of different fora, and 
not just homeownership. So, it's a big issue, from the 
readiness standpoint, because if you're not ready at home, you 
are not going to be ready when you go forward. So, it's a 
significant readiness issue that we're focused on. I agree with 
Secretary Hale, we'll get back to you on specifics.
    [The information referred to follows:]

    In order to address the situation, legal protections for military 
personnel were established. Specifically, the Servicemembers Civil 
Relief Act (SCRA) (codified at 50 U.S.C. App. Sec. Sec. 501-597b) 
offers servicemembers protections from the improper foreclosure 
practices that are not available to the general public. This provides 
servicemembers who have a qualifying mortgage obligation (one created 
pre-service) with protections not available to the public at large, at 
least in those States that would allow non-judicial foreclosure.
    Section 533 of SCRA protects against the non-judicial sale, 
foreclosure, or seizure of the property of a servicemember that is 
secured by a mortgage obligation that originated before the period of 
the servicemember's active duty. This means that a court must enter a 
valid order before the sale, foreclosure, or seizure of such property 
can take place, and such an order cannot be entered absent a return of 
service (proof to the court that the servicemember has been served with 
a copy of the foreclosure lawsuit) and an opportunity for the 
servicemember to be heard by the court.
    Furthermore, section 521 of SCRA provides additional protections 
against default judgments when a servicemember does not appear before a 
court, and section 522 provides the servicemember the opportunity to 
delay a proceeding when he or she does appear but cannot proceed 
because of military service. The default judgment protections of 
section 521 are particularly important in the foreclosure context. It 
provides an interlocking protection with section 533.
    As noted above, for a qualifying pre-service mortgage obligation, 
no sale, foreclosure, or seizure can take place against a servicemember 
unless there is a valid court order. To issue a valid order, a court 
must comply with section 521, which indicates that if the respondent 
does not appear and there is reason to believe he or she is a 
servicemember, then the court must appoint an attorney to represent the 
absent servicemember. A key element of that representation is that the 
attorney must try to find the servicemember and attempt to delay the 
proceedings until the servicemember can be located and can appear 
before the court.

    Senator Blumenthal. Well, I appreciate that. Are there 
measures that we can take that would assist you in stopping 
this kind of fraud, or simply the institutions that are pushing 
the envelope in taking advantage of our military men and women, 
perhaps just barely within the law, but exploiting their 
vulnerability at a point when they're trying to get ready to 
serve abroad, and their families being at home, and that kind 
of exigency?
    Dr. Stanley. Senator, my instincts say yes. Then we'd like 
to get back to you and work closely with you on it, because 
this is really important, from a readiness standpoint. If 
you're not ready, as I said, you're not going to fly the plane, 
you're not going to shoot straight. There's a whole lot of 
things that are going to happen. So, I'd like to get back to 
you, on the record, on that and do that.
    [The information referred to follows:]

    Thank you for your offer of assistance. We believe there are areas 
within the Servicemember's Civil Relief Act that could be amended to 
help protect our servicemembers. We will consult with the Office of 
Management and Budget and submit the necessary legislative proposal for 
your consideration.

    Senator Blumenthal. Well, I really appreciate that. I would 
very much like to work with you and other members of this panel 
and your staff on this issue, because I regard it as very 
important. I commend and thank you for your interest.
    Mr. Hale. Senator, I do have facts. We have obligated most 
of the $555 million that was appropriated under the Stimulus 
Act, about 98 percent. I think, in most cases, we have 
completed the periods of time when people could take advantage 
of it. There'll still be outlays, as folks actually move. But, 
it's higher than I thought. So, we'll check.
    I'll stand by my statement, though. To my knowledge, no one 
has come to me and said, ``We're going to run out of money.'' 
So, I think we're okay.
    Senator Blumenthal. If you develop additional facts, please 
feel free to get them to me.
    I just want to say to Secretary Woodson, for some years, as 
you probably know, the Yale Center for Emergency Preparedness 
and Disaster Response has worked with the United States 
Northern Command to develop national strategies and conduct 
training for civilian military collaboration in integrated 
medical and public health preparedness, and these kinds of 
activities. Their preparedness and expertise really align with 
a large number of medical preparedness and response projects 
across the country. I'd like to see that work continue. I think 
it serves the national interest. I ask that you make yourself 
available to meet with my staff, possibly with me, with the 
director of the program, to see what role they may have in 
working with you to jointly address this continuing challenge, 
and the coordination of civilian and medical resources. If you 
would be available, I would greatly appreciate it.
    Dr. Woodson. I'd be very happy to meet with you. In a prior 
life, I had something to do with that. So, I would be very 
happy to meet with you.
    Senator Blumenthal. Great. Let me just ask one last, sort 
of, open-ended question, and you should feel free to get back 
to me on this one, as well. Traumatic brain injury, post-
traumatic stress disorder, there may have been questions about 
it before now, but, obviously, as our Reserve engage in more of 
the front-line battle, they will be susceptible to it. We've 
heard various estimates, from the Chairman of the Joint Chiefs 
of Staff, Admiral Mullen, and others, that there's a very high 
rate of nondiagnosis or misdiagnosis, as high as 30 percent, of 
those two conditions. So, I wonder if you care to comment on 
it.
    General McCarthy. Senator, you're absolutely right. That is 
a challenge for the Reserve component that, in some ways, is 
exactly the same as the Active component but, in some ways, is 
very different, because you get some many Reserve component 
members who, after they complete their service in combat, kind 
of blend back into a civilian community and don't have the day-
to-day association with military leaders and observers that 
they would have if they were still on Active Duty.
    I believe, personally, that we're doing a better job on the 
post-deployment health assessments. Not that we don't have a 
long way to go, but I do think we are doing better than we 
were, some years ago, on that. I also believe that the Yellow 
Ribbon Reintegration Program, which has these recurring 
meetings and recurring opportunities for people to come back 
together and to be exposed to some of the science and some of 
the--frankly, the art of recognizing these kinds of problems, 
is very important, and will remain so. So--I've made the point 
already this afternoon--the Yellow Ribbon Program, we might 
have thought of it, originally, as just a short-term wartime-
only program. I think it's more than that. I think it's 
something that we should view as a longer-term requirement. 
Obviously, we won't be doing it at the same rate we were doing 
it a few years ago, but we will still have the requirement as 
we deploy members of the Guard and Reserve.
    Senator Blumenthal. Well, I appreciate that. I think it's 
very important, again, if there are ways that members of the 
committee can assist you, particularly with the traumatic brain 
injury and the post-traumatic stress disorder aspects. Sitting 
where you are, right now, Sergeant Major Kent of the Marine 
Corps--and I know, as a marine, you are familiar with his 
service--commented on the extent and the seriousness of this 
problem, as did others on that day. So, I appreciate your 
attention to it. Thank you.
    Thank you, again, to all of you for being here today, and 
your very helpful testimony.
    Dr. Woodson. Senator, if I may make a few comments----
    Senator Blumenthal. Sure.
    Dr. Woodson.--in regards to that, because, obviously, in 
Health Affairs, we've been very much involved and concerned 
about the invisible wounds of war and the signature injuries of 
these last 10 years of war.
    I just returned from Afghanistan, and I can tell you we 
have a robust treatment protocol in place to pick up just about 
every concussed soldier who might be within the radius of 50 
meters of a blast injury, to include an evaluation they go 
through to assess for concussion, and referral at the earliest 
possible moment, and to record that data for longitudinal 
followup.
    On the other end of behavioral health, we've added 12,000 
new behavioral health specialists to our integrated TRICARE 
network, and then increased, by 2,000, the number of behavioral 
health specialists on Active Duty.
    We do have some recruitment challenges, particularly in 
psychiatrists, but the Air Force is about 93-percent full. We 
continue to work strategies, in terms of scholarships, et 
cetera, to get the behavioral health specialists trained and on 
Active Duty.
    So, we've done a lot, still need to do more, in terms of 
behavioral health specialists.
    But, as it relates to the Guard and Reserve, every State 
has a behavioral health coordinator. There is abundant outreach 
to identify resources within each State and coordinate the care 
of any reservist or guardsman that might need behavioral 
health. Again, more to do, but we're working vigorously to meet 
the needs.
    Senator Blumenthal. That's very helpful. I'm glad you added 
that comment.
    Again, thank you for your service and for being here today.
    Thank you.
    Senator Webb. Thank you, Senator Blumenthal. Just as a 
follow-on to that line of questioning, I can say things are 
incredibly different than they were in the post-Vietnam period, 
on these issues. I was up here as a committee counsel from 1977 
to 1981, and the casualty flow from Vietnam had been so much 
higher than what we're seeing now. In fact, the 1 year that I 
was in Vietnam, 12,000 Americans died. That's twice as many as 
have died in Iraq and Afghanistan, combined in the entire 10 
years of war, and the mood in the country was different. The 
level of knowledge was so much different. We did a lot of 
pioneering work, in terms of post-traumatic stress disorder, on 
the Veterans Committee up here during that period. It was a new 
concept in terms of what people were trying to examine. It was 
pioneered not by the government, but initially, by the disabled 
American veterans organization, themselves, which had a high 
percentage of Vietnam-disabled soldiers and marines, 
particularly. They funded their own project called the 
Forgotten Warrior Project because they could see that something 
wasn't right and it wasn't being examined. The attention that's 
being given right now, at all levels, is just incredible 
compared to what was going on then.
    The issue of traumatic brain injury is to me something 
completely new. I think so much of it comes from the improvised 
explosive devices, where people are inside vehicles and you 
have this echoing impact that a regular blast, in other wars, 
did not really experience. I'm very committed to seeing more 
research done on this, and continuing to do the sorts of things 
that Secretary Woodson was talking about--monitoring people 
early on and getting some sort of a tracking on that area.
    I have one final question here, and it really goes to how 
we're measuring some of our special pays and incentives. I 
don't know if you all are familiar with an article that was in 
the Washington Post on March 18 by an Iraq and Afghanistan 
veteran named Michael Cummings. It's called, ``I Didn't Deserve 
My Combat Pay.'' Are you familiar with this article? It is not 
a mean-spirited article at all. This is an individual who 
served in hard combat in Afghanistan, and then had a pretty 
relaxed tour in Iraq, and basically was pointing out some 
inconsistencies that I think are fair, in terms of evaluation. 
I'd like to get your thoughts on them. In fact, Secretary 
Stanley, maybe you could take this article and give us a 
response.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Webb. One of the things he points out was that 
people who serve in Bahrain, Qatar, Kuwait earn the same tax-
exempt benefits as troops in Iraq and Afghanistan. I'm reading 
from his article, by the way. ``Sailors in Bahrain can bring 
their families to live with them while still earning $225 a 
month in imminent-danger pay. He mentioned in here a contingent 
that came in from the States for a change-of-command ceremony, 
where they were on the ground for 2 days and they got 2 months 
of combat pay plus all the tax differentials, because it was 
the end of the month and the beginning of the next month.
    I don't know why that happens. I think we have computers 
now--you can figure out how many days people are in theater, if 
you're paying these sorts of benefits. But also, it--I think 
two of you are former marines; I'm a former marine--that's a 
huge leadership question, too, when you turn around to people 
who are out there really having to do the hard work, and you 
can turn around and say somebody came in for a change of 
command for 2 days and got this huge break.
    He says in this article, ``Military commanders say, `Don't 
just complain about the problem. Offer a solution.' '' He has a 
whole paragraph here with his solution. I'm not saying these 
are the answers, but I would like to get your thoughts, 
Secretary Stanley, on where some of these things are. If 
they're justified, fine.
    [The information referred to follows:]

    I'm familiar with the article by Michael G. Cummings, which states 
that members serving in Bahrain, Kuwait, and Qatar earn the same tax-
exempt benefits as troops in Iraq and Afghanistan. He also mentions a 
situation where the dates of visitors to a combat zone for a change of 
command ceremony straddled 2 months and resulted in the payment of 2 
months of imminent danger pay and tax free treatment of salaries, known 
commonly as the combat zone tax exclusion.
    A member serving in any area designated by the President as a 
combat zone is eligible for the combat zone tax exclusion. Currently, 
Bahrain, Kuwait, and Qatar, as well as Iraq and Afghanistan are 
designated as combat zones, and members who serve in these locations 
are eligible for the combat zone tax exclusion. Members serving in 
these locations receive $225 per month.
    In addition to the combat zone tax exclusion, commanders can 
recommend an area as eligible for imminent danger pay based upon 
conditions on the ground. An area may be designated if there is an 
impending danger of members being exposed to hostile fire or 
explosions, or being subject to the threat of physical harm or imminent 
danger on the basis of civil insurrection, civil war, terrorism, or 
wartime conditions.
    The Department and Central Command are both aware of Mr. Cumming's 
concern and have taken steps to prevent or minimize this type of 
potential abuse of combat zone tax exclusion or imminent danger pay. 
From our review, we conclude that the perceptions of widespread abuse 
are not supported by the data. All travel into the Central Command area 
of responsibility is screened, pre-approved and conducted on official 
military orders. Thus we have little reason to believe that the 
identified short duration trips, including their timing, were for 
anything other than mission requirements. The Department is, however, 
currently reviewing policies to ensure the potential for abuse is 
minimized.
    Periodically, the Under Secretary of Defense for Personnel and 
Readiness conducts a world-wide review and solicits updated threat 
assessments from commanders in each of the areas to ensure the 
designation of an area as eligible for imminent danger pay remains 
appropriate. The Department is validating and recertifying all 
worldwide locations designated for HFP/IDP. Decision to continue or 
remove the HFP/IDP designation by area are expected by the end of 2011. 
Furthermore, the Department is on schedule in transitioning the legacy 
Special and Incentive Pay authorities to the new, more flexible 
authorities provided by Congress. The legacy authority authorizing HFP/
IDP is expected to be transitioned to its new authority later in 2011. 
Under the new authority, the Department will be able to prorate HFP/IDP 
based upon time actually spent in the HFP/IDP area and will be able to 
implement a more tiered pay structure for HFP/IDP that differentiates 
pay based upon proximity to danger.

    Senator Webb. But, I think this young veteran deserves an 
answer. I think he deserves a response. It's very fair and very 
supportive of the people who've had to serve, in general.
    I appreciate all of you coming today and spending time with 
us.
    As I said, your full testimony not only will be in the 
record, but will be read carefully by staff. We will probably 
have other staff-to-staff comments, and we appreciate what 
you're doing for our country.
    Secretary McCarthy, my best to you as you depart.
    I look forward to sitting down and talking with him when 
you feel comfortable doing that.
    Thank you very much.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
         army and air national guard--a total force multiplier
    1. Senator McCain. Secretary McCarthy, I'm interested in your view 
of the role of the Army and Air National Guard in your Total Forces. 
There is no question that Guardsmen have been essential contributors in 
Iraq and Afghanistan. We need to have a clear understanding from the 
Office of the Secretary of Defense (OSD), the Army, and the Air Force 
about how the National Guard should best be employed in an era of tight 
budgets.
    Secretary McCarthy. Guardsmen have indeed been essential 
contributors to operations in Iraq and Afghanistan, and will continue 
to play key roles in the future. Continuing to use the Guard and 
Reserve as part of the Total Force will allow the Department to 
maintain capabilities and capacities at less overall cost given the 
increasingly tightened budget environment across the whole of 
government.
    We recently completed, and the Secretary of Defense reviewed, a 
report entitled The Comprehensive Review of the Future Role of the 
Reserve component, which was directed in the 2010 Quadrennial Defense 
Review. The review enjoyed strong participation from offices within 
OSD, the Joint Staff, Services, and combatant commands. The report 
proposes several options in which the Guard and Reserve may be utilized 
to best advantage in the future.
    In general, these include missions that are predictable, relatively 
consistent over time, and whose success can be substantially enabled by 
long-term personal and geographic relationships. Such activities 
include providing forces in support of large-scale conventional 
campaigns, stability operations, steady state engagement activities, 
humanitarian assistance, and disaster relief, homeland defense and 
defense support to civilian authorities, and institutional support 
tasks. Using the Guard and Reserve for these types of missions, within 
the Service's force generation models when applicable, will preserve 
the hard earned experience and training from the past 10 years, 
solidify the country's investment in the Reserve component, and reduce 
the operational stress on the Active Forces.

    2. Senator McCain. Secretary McCarthy, I'd like to hear about the 
objectives of the legislation you support on enhanced involuntary 
mobilization authority.
    Secretary McCarthy. Our intent with the enhanced involuntary 
mobilization authority is to assure access to the Reserve component in 
an era of persistent conflict. Broad authority to order the Reserve 
component to Active Duty in somewhat limited amounts is needed to 
augment the Active component and cost effectively utilize the total 
force as we continue to pursue our national security objectives in the 
near and foreseeable future. Over the last 3 years, Reserve component 
personnel on involuntary Active Duty have declined from around 150,000 
personnel to 90,000 personnel today. As we pursue an end state with 
many of our high demand missions, we expect to see a further decline, 
but not an elimination of, demand for Reserve component personnel. Due 
to the structure of our highly combat experienced total force and the 
expectation that an era of persistent conflict will present the 
military with high demand for limited resources, we project a need for 
significant numbers of Reserve component personnel to serve on active 
duty performing a wide variety of roles to augment the Active 
component, thus generating the necessary forces to shape and respond to 
international events. We anticipate an environment with multiple 
commitments ranging from low intensity military operations against 
hostile forces, presence-based deterrence operations directed towards 
nation states, to the need to engage multiple partners to build theater 
security around the world. We believe the military will have to 
sustain, for the foreseeable future, operations somewhere below the 
level of a national emergency or a contingency operation yet somewhere 
above the intensity level normally associated with peacetime. The 
current involuntary mobilization authorities do not adequately support 
this variety of mission sets, nor is it appropriate for the intensity 
of military operations anticipated.

    3. Senator McCain. Secretary McCarthy, what is your view of the 
appropriate role of the National Guard? Stated differently, what does 
the term ``Operational Reserve'' look like for the National Guard as 
it's implemented in the years ahead? Please describe what the proposed 
legislation will do if enacted.
    Secretary McCarthy. First, it is our view that the term 
``Operational Reserve'' is somewhat misleading and restrictive. The key 
concept is to continue to use the Reserve Component in operational 
roles and missions in the future and effectively manage them as part of 
the operational force. In the 1990s, as Active component and Reserve 
component end strength drew down and the world continued to be a 
dangerous place, we increasingly relied on the National Guard and the 
Reserves to support military mission requirements in Bosnia, Kosovo, 
and MFO Sinai as well as to meet daily operational requirements in 
training and other support roles.
    While not fully implementing an ``Operational Reserve,'' we were 
nonetheless migrating toward a transformation of the way the Reserve 
component was being utilized. Recognizing this change, the Department 
set about transforming the Guard and Reserve from a predominantly 
strategic force to a sustainable Reserve Force with both operational 
and strategic roles. Much like the Active component, it is important to 
note that the Guard and Reserve have strategic forces at one end of the 
spectrum and operational forces at the other end of the spectrum. Our 
policies on mobilization, force structure rebalancing, personnel 
management, training, readiness, equipping, and family and employer 
support have changed significantly to facilitate the increased 
utilization of Reserve component personnel in these operational roles. 
I believe recent history supports the conclusion that proper 
utilization of the National Guard and Reserve reduces the burden on all 
forces--a Presidential priority. The proposed legislation will enhance 
the Department's ability to gain access to Reserve component units and 
personnel in order to meet operational requirements and national 
security objectives.

                     reducing the cost of personnel
    4. Senator McCain. Dr. Stanley and Secretary Hale, the cost of 
manpower in the All-Volunteer Force, not surprisingly, has increased 
significantly over the last 10 years. Other than reducing the numbers 
of Active Duty, Reserve, and civilian personnel in the Department of 
Defense (DOD), we need to understand how you would act to reduce the 
cost of personnel. Do you expect DOD to propose changes to the military 
pay and compensation system, e.g., retirement system, with the 
objective of reducing costs, and what do you consider to be the areas 
most in need of change?
    Dr. Stanley. The Department is seizing upon available opportunities 
to achieve greater efficiency in military pay and compensation in order 
to reduce costs. At the appropriate time we will propose changes to the 
larger components of the military compensation based on a carefully 
analyzed, fully considered, holistic examination of the military 
personnel and compensation systems.
    In light of the fiscal pressures the country faces, the Department 
is pursuing a comprehensive, holistic approach to accomplish more with 
fewer resources. The Department has committed to the following goals:

    (1)  Controlling rising personnel costs
    (2)  Restraining entitlement growth
    (3)  Leveraging its compensation tools to sustain recruiting and 
retention success.

    While we consider possible changes to larger components of military 
compensation, we remain mindful that these types of changes need to be 
carefully analyzed, considered, and studied to ensure that they do not 
adversely impact our ability to maintain a ready force. Additionally, 
any changes must also take into account the military's up or out 
system, the need to grow and develop our own leadership internally, and 
the many additional burdens and sacrifices borne by our military 
members.
    The retirement system is a frequent target to identify cost 
savings, and many groups have suggested alternatives. The retirement 
benefits, by not vesting until the member has 20 years of service, play 
an important role in fostering retention. Members most influenced by 
the draw of the retirement system are those in the critical, mid-career 
grades and years. Retaining these members is critical, as the 
Department has invested significantly in their leadership training and 
professional development. Any changes to the retirement system must 
ensure we continue to retain these members and protect our investment 
in them.
    Secretary Hale. Given the current fiscal crisis facing the Nation, 
and the push to find additional savings and efficiencies across the 
Federal budget, everything, including military compensation, needs to 
be on the table. Since the late 1990s, significant across-the-board and 
targeted pay raises coupled with substantial increases to housing and 
subsistence allowances have dramatically improved military 
compensation. Even without accounting for other cash payments such as 
special/incentive pays and recruiting and retention bonuses or generous 
non-cash and deferred benefits such as healthcare, education benefits, 
retirement, and paid time-off, studies have shown that military members 
across the ranks earn more than at least 70 percent of civilians with 
similar education and experience (i.e., military pay ranks in at least 
the 70th percentile for all experience levels, both officer and 
enlisted).
    Therefore, we believe it is appropriate to conduct a comprehensive 
review of the military pay and benefits structure to include the many 
in-kind and deferred benefits (e.g., retirement system) that are often 
very expensive and which may not be the right answer for today's 
servicemembers. While it may be possible to restructure our military 
pay and benefits in a way that reduces costs, we need to proceed 
carefully with a clear understanding of how any adjustments will impact 
the Department's ability to attract and maintain the All-Volunteer 
Force.

                    reductions in active-duty forces
    5. Senator McCain. Dr. Stanley and Secretary Hale, despite ongoing 
combat operations and concern about dwell time, it appears that 
budgetary pressures are going to force reductions in the number of 
Active Duty military personnel: Army down 49,000; Navy down 9,000; 
Marines down 16,000; and the Air Force will downsize 10,000 civilian 
positions and take reduction-in-force measures to bring down the number 
of Active-Duty airmen. What personnel cuts will be imposed, in your 
opinion, and what will be the time frame to accomplish these cuts?
    Dr. Stanley. In compliance with Secretary of Defense guidance, the 
Department is working closely with the Services to bring down end 
strength as outlined in the table below while maintaining mission 
readiness. My staff, in concert with experts from the Services, is 
carefully managing the way ahead in force management to ensure the 
Services are ready to meet the challenges we face now and in the 
future. The following table indicates Active component end strength 
through fiscal year 2016.

                        ACTIVE COMPONENTS PROJECTED END STRENGTH (FISCAL YEARS 2012-2016)
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal Year
                                                     -----------------------------------------------------------
                                                         2012        2013        2014        2015        2016
----------------------------------------------------------------------------------------------------------------
Army................................................     547,400     547,400     547,400     533,900     520,400
Navy................................................     325,700     322,300     319,900     319,002     320,300
Marine Corps........................................     202,100     202,100     202,100     192,100     182,100
Air Force...........................................     332,800     332,800     332,800     332,800    332,800
----------------------------------------------------------------------------------------------------------------
Source: Defense Resource Data Warehouse March 11, 2011

    As far as the Air Force civilian workforce, it will continue to 
grow but the growth will be less than previously planned due to OSD 
directed efficiencies taken in the fiscal year 2012 President's budget 
request. Currently, the Air Force is conducting a strategic review of 
all civilian positions and this effort is being worked concurrently 
with fiscal year 2013 budget development. Until their strategic review 
is completed, the Air Force recently announced that it will use hiring 
controls as a bridging mechanism in fiscal year 2012. Once the 
strategic review is complete, the Air Force will work to rebalance its 
civilian workforce by realigning resources from lower priority areas to 
higher priority missions to operate within approved funding levels.
    Secretary Hale.
Army
    In July 2009, the Secretary of Defense announced a decision to 
temporarily increase the Army's active-duty end strength by up to 
22,000 from 547,400 to 569,400 for a period of 3 years. This increase 
was necessary in the short-term to ensure deploying units were properly 
manned and to eliminate the routine use of stop-loss authority prior to 
the drawdown of forces in Iraq and as an increase in forces in 
Afghanistan was beginning. As planned, the drawdown of this 22,000 
temporary end strength will begin in the spring of 2012, and the Army 
will return to its permanently authorized end strength by the end of 
fiscal year 2013.
    An additional reduction of 27,000 Active-Duty Army end strength is 
programmed to begin in fiscal year 2015. This reduction is based on the 
President's and NATO's strategy for Afghanistan, which indicates the 
number of troops deployed there will be significantly reduced by the 
end of 2014. If this assumption proves incorrect or global conditions 
change, this reduction will need to be reassessed. However, even with 
these reductions, the Army's end strength will be nearly 40,000 larger 
that it was prior to the war.
Navy
    The Navy currently plans to reduce its Active-Duty end strength by 
approximately 9,000 from the fiscal year 2011 authorized level of 
328,700 by the end of fiscal year 2014. The reductions are planned at 
roughly 3,000 per year for fiscal year 2012 through fiscal year 2014 
and will be achieved through various efficiency actions to streamline 
operations and headquarters elements, as well as realignments of 
additional construction battalions and Maritime Expeditionary Security 
Forces from the Active to the Reserve component.
Marine Corps
    Similar to the Army, current plans call for the Marine Corps to 
begin reducing Active-Duty end strength between 15,000 and 20,000 
starting in fiscal year 2015 based on the strategy for Afghanistan. 
Again, if this assumption proves incorrect or global conditions change, 
this reduction will need to be reassessed. However, even with these 
reductions, the Marine Corps end strength will be 7,000 to 12,000 
larger than it was prior to the war.
Air Force
    The Air Force civilian workforce will actually continue to grow in 
fiscal year 2012 to 182,199 compared to the fiscal year 2010 level of 
179,044; but the growth will be less than was previously planned prior 
to the development of efficiency initiatives included in the fiscal 
year 2012 President's Budget. The Air Force is conducting a strategic 
review of all civilian positions to ensure that their future use of 
civilian resources matches their long-term priorities, and they have 
recently announced hiring controls until their strategic review is 
completed.
    The Air Force officer corps ended fiscal year 2010 2,335 over 
authorized end strength. The Air Force is reducing accessions and using 
voluntary and involuntary separation programs to get the officer force 
back to authorized end strength by the end of fiscal year 2012.

    6. Senator McCain. Dr. Stanley and Secretary Hale, for the Army and 
Marine Corps, how will these reductions affect dwell time, assuming we 
are still deploying units to Afghanistan?
    Dr. Stanley. These end strength reductions should not have 
significant impact on Army or Marine Corps dwell time. We are carefully 
managing the dwell time of our forces across the Department, and have 
limited unit deployments and mobilizations to 1 year. We have balanced 
the forces for Afghanistan against those coming available from the 
draw-down in Iraq. Comparing 2008 to 2010, we have drawn down over 
100,000 personnel from Iraq while deploying an additional 64,000 to 
Afghanistan. The Army is making good progress toward our dwell goal of 
2 or more years at home for every year deployed with nearly 70 percent 
of the Active Force meeting or exceeding this goal. Similarly, the 
Marine Corps has approximately 1,500 fewer personnel deployed in 2010 
as compared to 2008 and their Active component's deployment to dwell 
ratio is close to the 1:2 goal.
    Secretary Hale. If the number of troops and units deployed to 
Afghanistan is not significantly reduced at the end of 2014, as 
currently assumed, then the Department would likely relook at the Army 
and Marine Corps end strength reductions programmed to begin in fiscal 
year 2015 to ensure that dwell times will not return to where they were 
before the grow-the-force initiatives.

    7. Senator McCain. Dr. Stanley and Secretary Hale, how can the Army 
achieve a 1:2 dwell ratio with these kinds of cuts?
    Dr. Stanley. We have met the Operation New Dawn responsible 
drawdown plan goals. In 2008 the Army had 22 Brigade Combat Teams 
(BCTs) deployed, and are projecting to have 36 percent fewer BCTs 
deployed in 2012. The Army projects the average unit boots on the 
ground to dwell ratio to improve to approximately 1:2 for Active 
component units and 1:4 for Reserve component units in 2012.
    Secretary Hale. Achieving the Active Force planning objective of a 
1:2 dwell ratio is highly dependent on the level of demand for 
deploying troops/units. Planned reductions in Army end strength are 
scheduled to follow significant reductions in troop demand in both Iraq 
and Afghanistan based on current assumptions. If the reduction in the 
demand for troop deployments does not occur as planned, the risk to 
individual dwell time will need to be assessed as part of any decision 
to proceed with the end strength drawdowns.

    8. Senator McCain. Dr. Stanley, what do we need to do to avoid 
being accused of breaking faith with servicemembers who have served 
honorably--probably deployed more than once--who would like to stay on 
Active Duty but may be pink-slipped?
    Dr. Stanley. The Department has collaborated with Service Force 
Management experts and submitted several legislative proposals for the 
NDAA for Fiscal Year 2012 that will provide the Services the 
flexibility needed to achieve force reductions while maintaining 
readiness and taking care of our servicemembers. Maintaining readiness, 
while fairly restructuring to a post-conflict force, is our goal.

                integrated disability evaluation system
    9. Senator McCain. Dr. Stanley, DOD and the Department of Veterans' 
Affairs (VA) have greatly improved disability processing with the 
Integrated Disability Evaluation System (IDES). Long delays still exist 
in the Services in performing medical evaluation boards and in 
completing the process. In the Army this is particularly serious 
because of the thousands of non-deployable soldiers who count against 
Army end strength. This looms as a growing risk to Army readiness. What 
is your office doing to address the Army's problem, i.e., growing 
backlog of soldiers in IDES?
    Dr. Stanley. In order to determine the most feasible path forward 
on this issue, the two Secretaries met to directly engage on how to 
reduce the IDES cycle time so the numbers of servicemembers processing 
through the system can be more efficient and effective. The goal is a 
more fit and healthy fighting force and the total well-being of the 
force. The following steps were taken:

    (1)  We convened a joint IDES Tiger Team to explore improvement 
opportunities to delays and processing, including modifying the IDES 
proof of concept to test a process that might streamline and reduce the 
amount of days to get through the process, and long-term strategic 
modifications.
    (2)  We recommended policy adjustments, as identified by the Tiger 
Team, that could help streamline the IDES. We plan to test those during 
the proof of concept.
    (3)  We worked closely with VA to improve Information Technology 
(IT) solutions which will enhance timeliness and efficiency across all 
stages of IDES.

    Most significantly, the Department of the Army is now submitting 
increased budget line items to provide for additional staff, 
facilities, and equipment to organize train, and operate the IDES for 
their soldiers.
    Work continues on all fronts to improve the IDES--and we are 
absolutely committed to improvement. In the end, we are confident that 
a more efficient and effective IDES will emerge, Military Department 
readiness will be enhanced, and all servicemembers will be processed 
through the IDES at a pace which is less than the existing amount of 
days and appropriate for each servicemember.

                  prioritizing quality of life dollars
    10. Senator McCain. Dr. Stanley, every year Congress authorizes 
modernization and construction of new facilities intended to improve 
the quality of military life for members and their families. Along with 
pay and benefit improvements, this clearly has had a positive impact on 
morale and a high retention rate. What do you consider to be the the 
highest priorities for modernization and construction of new 
facilities--barracks, child care centers, family housing, medical 
clinics, or schools?
    Dr. Stanley. I agree with the Secretary that direct support of the 
operations in theater is the Department's highest priority. And only 
second to that is taking care of our wounded, ill, and injured 
servicemembers. While we may not be able to modernize and construct new 
facilities for all barracks, child care center, family housing, medical 
clinics, and schools at any given time, I will prioritize supporting 
the operations and taking care our servicemembers as my top priorities. 
However, we continually identify and address weaknesses or any areas 
that are insufficient or lacking. In short, we are continuously 
examining and assessing our needs and how to best use our limited 
resources to best support the war and improve the quality care for our 
servicemembers and their families.

             sexual assault prevention and response efforts
    11. Senator McCain. Dr. Stanley, preventing and responding properly 
to incidents of sexual assault remains a high priority for each of your 
Services, and progress has been made. Is the military a safer place for 
women to serve than before September 11?
    Dr. Stanley. Yes, we believe the military is a safer place for 
women--and men--to serve than before September 11, 2001. In fact, our 
most recent data indicates that:

    (1)  In 2010, the data collected by the Department suggests that 
there were one third fewer incidents of sexual assault against women, 
and half the number of sexual assault incidents against men, than there 
were in 2006.
    (2)  Servicemembers may now click, call or text for confidential 
assistance, available 24 hours a day/7 days a week, from the 
Department's new victim assistance hotline called DOD Safe Helpline.
    (3)  An overwhelming majority of servicemembers understand the need 
and desire to help prevent fellow servicemembers from harming 
themselves or others in a social setting.
    (4)  Over 90 percent of servicemembers are now able to recognize 
situations that may pose a risk for sexual assault and identify an 
effective action to prevent harm to a potential victim.
    (5)  More than ever, a greater proportion of servicemembers are now 
reporting the sexual assaults committed against them.
    (6)  Sexual Assault Response Coordinators and Victim Advocates are 
stationed in garrison and are forward deployed, providing 24/7 
assistance, at every DOD installation in the world.
    (7)  In 2010, of the cases where DOD has the authority and 
sufficient evidence to take action, over half of alleged offenders had 
court-martial charges preferred against them--up from one-third in 
2007.
    (8)  Secretary Gates has assigned a General/Flag Officer with 
operational experience to provide direct oversight of the Sexual 
Assault Prevention and Response Program office.

    Still there is much work to be done. One sexual assault is one too 
many. Until we achieve our vision, we will continue to integrate sexual 
assault prevention into military culture, improve our assistance to 
victims, encourage reporting and hold offenders appropriately 
accountable.

    12. Senator McCain. Dr. Stanley, do you think that new legislation 
is needed to enhance the Sexual Assault Prevention Programs in DOD? If 
so, what legislation would you propose be enacted?
    Dr. Stanley. At this time, I am firmly of the opinion that we do 
not need new legislation. To date, the Department has received a great 
deal of assistance in improving its sexual assault prevention and 
response programs. For example, since 2004, there have been eight 
congressional hearings, five investigative body reviews, and four 
Government Accountability Office reviews addressing DOD sexual assault 
programs. Each of these activities has provided greater insight and 
information, and has resulted more than one hundred recommendations 
that have been incorporated into six separate National Defense 
Authorization Acts. Additional legislation is not required; we need 
time to implement the recommendations already made and that are in 
progress and would be redundant and duplicative at this time. Moreover, 
the Department tracks its progress against each of the 136 
recommendations, as well as the 744 sub-tasks, required to implement 
those recommendations. The progress has been reported to your 
Committee, at least twice yearly in March and December, in our Annual 
Reports.

       progress in implementation of don't ask, don't tell repeal
    13. Senator McCain. Dr. Stanley, training for Repeal Day is 
currently underway in each of your Services that will pave the way for 
gay and lesbian individuals to serve openly in the Armed Forces. What 
is your assessment of the effectiveness of the training for your 
Service thus far?
    Dr. Stanley. Thus far, training has been very effective, especially 
in emphasizing leadership, professionalism, discipline, and respect. I 
have personally attended this training and believe it is where it needs 
to be to ensure our leaders are ready for repeal. In addition, every 2 
weeks I receive an in-depth analysis of the progress of training.

    14. Senator McCain. Dr. Stanley, the ground combat forces--soldiers 
and marines, as well as the Special Forces for all Services--registered 
the greatest concern about the effects on readiness and unit cohesion 
of repealing the Don't Ask, Don't Tell policy. What problems do you 
anticipate on ships and in the field when the repeal takes effect?
    Dr. Stanley. Because I have great confidence in the commanders in 
the field, I do not anticipate major problems. By emphasizing 
leadership, professionalism, discipline, and respect, we expect that 
our forces will successfully carry out this change in policy.

                       joining forces initiatives
    15. Senator McCain. Dr. Stanley, the White House recently announced 
a national initiative that focuses on the employment, education, and 
wellness of military personnel and their families. First lady Michelle 
Obama and Dr. Jill Biden announced the Joining Forces initiative, which 
pulls a variety of government agencies, businesses, nonprofit groups, 
and media organizations in an effort to improve the lives of military 
families. General Stanley McChrystal will lead the effort. What actions 
is DOD taking in response to the Joining Forces initiative?
    Dr. Stanley. The Department has been coordinating with the White 
House on the Joining Forces initiative since November 2010 and for all 
White House family support initiatives. Actions taken to date have been 
to advise the White House on the key challenges facing military 
families, to help facilitate installation visits and visits with troops 
and families of all components, and to participate in numerous working 
groups and events sponsored by the White House that deal with military 
family support. The Department continues to work closely with the 
Offices of the First Lady and Dr. Biden in an advisory capacity.
    Awareness among Americans who do not wear the uniform about the 
strengths, challenges, and unique needs of our military families and to 
rally our communities to support them in the long-term. Specifically, 
Joining Forces is focusing on key areas impacting our military families 
which include employment, education, and wellness. As DOD cannot 
provide all the resources our military families may need to empower 
them to thrive, partnerships with other government agencies, 
businesses, non-profits, and local community groups are key to 
providing sustained networks of support which in turn will keep our 
families strong and resilient throughout the military lifecycle. 
Joining Forces complements the Presidential Study Directive on Military 
Families, another unprecedented effort where a whole-of-government 
approach was leveraged to identify and resource the most critical needs 
of our military members and families.
    Much in the spirit of Joining Forces, the Department has been 
working one program in particular since Fall 2010 which has been 
socialized with the White House and the Congressional Military Family 
Caucuses and met with great interest: the Military Spouse Employment 
Partnership Program, or MSEP. An extension of the very effective 
program run by the Army since 2003, MSEP will connect corporate America 
to the extremely talented and educated cadre represented by our 
military spouses across all the military Services, including the Coast 
Guard, for jobs and careers. We are looking forward to a mid-summer 
launch of the MSEP program.

    16. Senator McCain. Dr. Stanley, what priority areas do you think 
General McChrystal should focus his attention on?
    Dr. Stanley. The priority areas on which General McChrystal and the 
Center for a New American Security (CNAS) should focus are contained 
within the intersection of the areas of emphasis of the two recent 
White House-directed efforts that highlight military family support 
which resulted from collaboration with the Military Services and the 
Cabinet. The first of the initiatives is the Presidential Study 
Directive on Military Families which points out the following four 
government-wide efforts: enhance the well-being and psychological 
health of the military family, ensure excellence in military children's 
education and their development, develop career and educational 
opportunities for military spouses, and increase child care 
availability and quality for the Armed Forces. The second is the 
Joining Forces initiative which is a comprehensive national initiative 
to mobilize all sectors of society to give our servicemembers and their 
families the opportunities and support they have earned, especially in 
the areas of education, spouse employment, and family wellness. I 
support both initiatives and the key elements of the focus areas that 
the White House has already chosen to emphasize through the Joining 
Forces initiative: military family employment, education, and wellness. 
These are also key elements of my fiscal year 2012-2016 Strategic Plan.
    However, if I were to select one priority area within the 
intersection of these two initiatives on which General McChrystal 
should focus, I would advise that he concentrate on military spouse 
employment. For too long, the challenges of managing a military family 
have prevented many spouses from securing long-term, fulfilling 
employment. Employers must understand that military spouses possess the 
necessary skills and attributes that make them excellent hires, 
especially in management and leadership positions. Offered the right 
kind of positions--those that are flexible, virtual, and portable--in 
growing, 21st century career fields, our military spouses can make an 
immediate impact on any company they may work for. With portable and 
virtual positions--the trend in today's global workforce environment--
they can keep the same job throughout multiple Permanent Change of 
Station (PCS) moves, allowing them to retain seniority, vacation time, 
and positions of management. For our spouses who are teachers and 
health care workers for example, challenges with accreditation and 
certification can prevent seamless movement between school districts 
and states. Addressing these types of issues could allow rapid re-
hiring and re-employment of spouses in their new location after leaving 
a similar job at their old duty station. We stand by to advise and 
assist General McChrystal and the White House on this matter which 
directly impacts spouse, family, and servicemember wellness.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
          dod support for military families in times of crisis
    17. Senator Graham. Dr. Stanley, support for military families 
counts most in times of crisis. We have heard reports that military 
families received little or no assistance or information from DOD in 
the days preceding the potential shutdown of the government last month, 
and also there was confusion regarding evacuation of families and 
support personnel such as teachers in the wake of the tsunami in Japan. 
What role did your office play in planning for these contingencies?
    Dr. Stanley. Though there is specific guidance for continuing 
program operations during times of crisis, each crisis is evaluated 
separately in relation to the gravity of the impact on military 
families.
Support to Military Families During the Potential Government Shutdown
    DOD developed an internal DOD plan in the event a shutdown was to 
occur. Several Principal level staff within the Office of the Secretary 
of Defense were specifically engaged in the plan's development, 
although the Comptroller was assigned the lead. Because the ultimate 
goal was to avoid shutdown, plan details were provided to the workforce 
only as necessary, with the objective to minimize alarm to the 
workforce. In preparation for the shutdown, my Deputy Assistant 
Secretary of Defense for Civilian Personnel Policy (DASD CPP) led the 
planning efforts associated with preparing the Department's civilian 
workforce in the event of a shutdown. The DASD CPP personally 
coordinated extensively with the leadership of the Office of Personnel 
Management (OPM) to ensure DOD's shutdown plan was consistent with OPM 
rules and requirements. The DASD CPP worked in partnership with the 
Office of the USD (Comptroller) to establish guidance to identify 
personnel excepted from the shutdown, and ensured that letters of 
notification to the workforce were properly staged in the event a 
shutdown was to occur. Under the direction of the DASD CPP, the 
Civilian Personnel Management System (CPMS) website (http://
www.cpms.osd.mil) was updated with answers to Frequently Asked 
Questions to keep the DOD workforce informed.
    There was particular concern during the shutdown planning for how 
this may have affected servicemembers and their families--particularly 
the commissaries and the schools. The Office of Military Community & 
Family Policy within P&R ensured that commissaries would be able to 
stay open during a shutdown and careful consideration of all 
consequences of this decision were examined. As soon as the decision 
was made, the information was disseminated immediately.
    Department of Defense Education Activity (DODEA) ensured that 
schools remained opened and military families were routinely advised 
through electronic and print media.
Support to Military Families during the Tsunami in Japan
    During the crisis in Japan, P&R quickly established strong working 
relationships with the Joint Chiefs of Staff, the Defense Continuity & 
Crisis Office, U.S. Forces Japan, the Pacific Command, and the Services 
to provide policies and activities to support servicemembers, DOD 
civilians, and dependants. P&R created a Crisis Management Taskforce as 
well as a Crisis Response Cell to ensure timely and accurate 
information and support to those in the crisis. Specific examples are 
highlighted below:

        <bullet> The CPMS established a website (http://
        www.cpms.osd.mil/disasters/japandisaster.html) for civilian 
        employees that listed information on the authorized voluntary 
        departure, travel assistance for families leaving and returning 
        to Japan, as well as, a compendium of other pertinent web links 
        to Military OneSource, Services Japan information websites, 
        TRICARE, and others.
        <bullet> Military Community & Family Policy (MC&FP) Military 
        OneSource websites were developed for both military and 
        civilian dependants who chose to accept voluntary departure 
        from Japan.
        <bullet> DODEA ensured that the correct information about 
        authorized departures was distributed throughout Japan. The 
        authorized departure was only for dependents of military and 
        civilian employees. It was not for military or civilian 
        employees assigned in Japan. DOD provided the permission to 
        authorize single parent teachers, who had school-aged 
        dependents electing evacuation, to escort their dependents to 
        the United States, and then return to Japan for work.

    A crisis center, which was operational within one day following the 
disaster, was the critical link for sharing information concerning 
families with the Services and involved agencies. Additionally, teams 
were dispatched to every receiving point for incoming aircraft 
containing Japan evacuees. These teams met the families in the terminal 
and began providing immediate assistance to the families concerning 
dependent education.
    DOD provided a wide range of student support to those who transited 
to the United States, from working with school districts to relax 
school boundaries and requirements, to assigning two high school 
assistant principals to the United States to support the students who 
did not return to Japan.

    18. Senator Graham. Dr. Stanley, looking back, what lessons were 
learned?
    Dr. Stanley. The compounded crises of the Japan Earthquake/Tsunami/
Nuclear incident and the potential government shutdown provided 
valuable insight into how we should prepare for future crises. We have 
developed a Continuity of Operations planning document to support any 
potential shutdown of government operations in the future and will 
recommend that other DOD components create a similar plan of action. In 
reference to the Tsunami in Japan, my staff involved in the Japan 
crisis conducted a comprehensive after action review and captured 
several lessons learned that will be included in future internal 
Personnel and Readiness crisis management planning. These lessons 
learned include the need to develop stronger avenues of communication 
with the combatant commands and Services leadership to support their 
needs during a crisis.

    19. Senator Graham. Dr. Woodson, how is DOD ensuring that 
servicemembers and their families are protected from any health risks 
following the devastating tsunami in Japan?
    Dr. Woodson. DOD has initiated a series of coordinated actions to 
protect our servicemembers and their families against possible health 
risks resulting from the tsunami. Specifically:

    (1)  The U.S. Pacific Command (PACOM), with support from 
specialized health surveillance teams from across DOD, continues to 
monitor radiation levels and evaluate possible toxic hazards throughout 
the region.
    (2)  USPACOM implemented force health protection measures, such as 
monitoring installations for excessive radiation levels, distributing 
radiation dosimeters to those who were most likely to experience 
elevated radiation exposures (within 125 nautical miles of the 
Fukushima plants), establishing maximum radiation dose guidelines for 
individuals engaged in the relief effort, and distributing potassium 
iodide to mitigate the absorption of radioactive iodine, if required.
    (3)  Whole body radiation scans are conducted to measure internal 
radiation doses for those servicemembers considered to have the highest 
potential for radiation exposure by virtue of having performed duties 
within the ``hot'' or ``warm zone'' around the nuclear reactor plant.
    (4)  On March 21, 2011, the Under Secretary of Defense (Personnel 
and Readiness) directed the Services and Defense Agencies to report, 
retroactive to March 11, 2011, the specific, once daily location of 
each member of the DOD-affiliated population on the mainland of Japan. 
This population included all servicemembers and their families, DOD 
civilian employees and their families, and DOD contractors.

    DOD will use the above data, in conjunction with data collected 
from monitoring activities, to develop an exposure registry to link 
each individual in the DOD-affiliated population in Japan with 
estimated radiation exposures. The exposure registry will be available 
if needed for diagnosis, treatment, claims adjudication by the 
Department of Veterans Affairs, or if needed to conduct health studies.

                       reducing health care costs
    20. Senator Graham. Dr. Woodson, DOD has proposed five cost-saving 
initiatives which are currently being considered by the subcommittee. 
In your view, are there additional ways to bring health care costs 
down, beyond those that require a larger contribution from 
beneficiaries?
    Dr. Woodson. We believe there are additional ways to bring the 
health care costs down that do not involve a larger contribution from 
the beneficiaries. The Department is currently undertaking a 
comprehensive and thoughtful review to identify additional options to 
reduce health costs while maintaining and improving quality, safety and 
access. For example, we are currently conducting an extensive review 
and analysis of activities across the Military Health System (MHS), 
focusing the reprioritization of critical mission requirements; 
consolidation of like/similar activities or support functions across 
multiple organizational units; opportunities for in-sourcing, if 
appropriate; and elimination of non-value added functions. In addition, 
we are implementing the Patient Centered Medical Home model which 
evidence shows also lowers the overall cost of care through improved 
care delivery, coordination and management of enrolled patients. We 
have recently joined the National Partnership for Patients initiative 
with DHHS and other partners to reduce hospital-acquired conditions and 
readmissions. This initiative is the right thing to do for patients and 
has the potential to save money across all health care systems. We are 
working to provide accessible options for patients, whose conditions 
can be treated in alternative locations, decreasing emergency room 
utilization and associated costs. We are also encouraging increased use 
of mail order pharmacy to simplify access to medications at an overall 
lower cost to the MHS. Finally, we continually assess our patient care 
service contracts to provide best value.

                     mental health and the reserves
    21. Senator Graham. Dr. Woodson and Secretary McCarthy, I am 
impressed by reports of the increased numbers of military and civilian 
mental health providers both within the Services and in the TRICARE 
networks. How much of the increase in mental health capability is 
reflected in the Reserves?
    Dr. Woodson and Secretary McCarthy. Mental health providers have 
always been fully accessible to our Reserve component members. As with 
the active Duty Services, the members of the Reserve component have 
also seen an increase in mental health providers throughout the system. 
The TRICARE network includes 50,000 mental health providers, while 
there are more than 6,000 mental health providers in our military 
treatment facilities. This includes tele-mental health treatment of 
diagnosed mental disorders (medically-supervised, secure audio-visual 
conferencing available online at www.tricare.mil/telementalhealth), as 
well as the web-based TRICARE Assistance Program demonstration project, 
which covers short-term, non-medical issues (www.tricare.mil/triap) and 
uses audiovisual telecommunications systems such as video chat and 
instant messaging to access existing behavioral health centers in the 
Reserve component member's region. reservists can obtain information 
about these benefits and assistance in accessing them from the 
Department's Yellow Ribbon Program which supports reservists and their 
families with information on benefits and referrals before, during, and 
after deployment. Additionally, mental health services provided by 
Department of Veterans Affairs hospitals and clinics have improved 
access to care in areas where the TRICARE and military facilities have 
a lesser presence. Reserve component servicemembers who are on active 
duty for more than 30 consecutive days can access these providers 
through TRICARE Prime, and they also have access to them during 180 
days pre/post deployment coverage and after that while participating in 
TRICARE Reserve Select, which now has more than 74,000 covered 
reservists, and TRICARE Retired Reserve.
    In addition, the TRICARE Management Activity (TMA) and its three 
Regional Offices are in the midst of an initiative to reach out to the 
Psychological Health Directors assigned the Adjutant General Staff in 
each of the 54 states and territories to provide them with current 
information about TRICARE and behavioral health.
    Another resource available to reservists for mental health support 
is Military OneSource. Military OneSource helps Reserve component 
members with a multitude of needs and is private and confidential. In 
addition to 24-hours a day, 7 days a week, toll-free access to a 
consultant, including international calling options, other counseling 
options include face-to-face counseling, telephone, online and email 
consultations, and financial consulting. Military OneSource also links 
to the National Suicide Prevention Lifeline. The National Suicide 
Prevention Lifeline is a 24-hour, toll-free, confidential suicide 
prevention hotline available to anyone in suicidal crisis or emotional 
distress. Those requiring counseling for long-term medical issues will 
be referred to TRICARE or a military treatment facility.
    Further, reservists not on Active Duty, but who have previously 
deployed, have access to mental health benefits provided by the 
Veterans Administration.
    The Defense Centers of Excellence for Psychological Health & 
Traumatic Brain Injury (DCoE) is another source of mental heath support 
for reservists through its Web-based Real Warriors Resilience, 
Recovery, and Reintegration Campaign. In addition, support is also 
available for reservists from DCoE's After Deployment Web-based 
offering and from its smart phone behavioral health applications.

    22. Senator Graham. Dr. Woodson and Secretary McCarthy, who is 
looking at the question of the requirements for mental health support 
within the Reserve components in light of a new operational Reserve?
    Dr. Woodson and Secretary McCarthy. The Department fully intends to 
support the mental health needs of our Reserve component 
servicemembers. It is clear that these needs are not static and will 
arguably increase as continuing operations and the multiple deployments 
that are required by them continue. Reserve and Health Affairs are 
collaboratively reviewing mental health issues and are actively seeking 
ways to meet current and future mental health demands. In addition, the 
Department has provided the Risk-Adjusted Model for Staffing (PHRAMS) 
staffing model to the Services to assist them in estimating the need 
for mental health providers based on the risk of mental health problems 
our servicemembers face due to their deployment experiences.
    To further support reservists' mental health, the Reserve component 
is implementing mental health assessments as prescribed by NDAA 2010, 
Section 708, to identify mental health conditions, including post-
traumatic stress disorder, suicidal tendencies, and other behavior 
health conditions that require additional treatment/care. These 
assessments will be conducted during four time frames: within 2 months 
prior to deployment and three post-deployment assessments, 3-6 months, 
7-12 months, and 16-24 months. The Air Force Reserve and Guard have 
completed 2,268 pre-deployment assessments with 3 members requiring 
referrals. Navy and Marine program will be fully functional by August 
and the Army Reserve/Guard is awaiting Army AD electronic form 
implementation.

            financial systems for the defense health program
    23. Senator Graham. Secretary Hale and Dr. Woodson, improving DOD's 
financial systems has been a priority for DOD but not much progress has 
been made. Does the Defense Health Program, which is a single 
appropriation for all three Services, still utilize separate financial 
accounting systems, and if so, why?
    Secretary Hale. The Department is committed to improving the 
financial systems that supports DOD. Multiple systems are used to 
manage the Defense Health Program (DHP) appropriation because the 
funding and resources are divided and managed by the TMA as well as 
each of the Service components. The DHP funding is not the exclusive 
source of the Military components' resources and funding to support 
healthcare activities within each component. When the Defense Health 
Program was created, it was pulled together from four separate 
appropriations, Army, Navy, Air Force, and DOD. Each of these entities 
had, and continues to have, different accounting and finance systems. 
In order to track expenses in the appropriation, the Department has 
developed a methodology to reconcile, after the fact, an execution of 
funds which is consistent across the Services and TMA. Although we have 
more than one system to manage the DHP via the Service accounting 
systems, having a single appropriation ensures a uniformed benefit. The 
DHP continues to look for ways to unify information, improve resource 
management and this may evolve to single enterprise resource planning 
(accounting) system.
    Dr. Woodson. The Department is committed to improving the financial 
systems that support our defense system. Multiple systems are used to 
manage the DHP appropriation because the funding and resources are 
divided and managed by the TMA as well as each of the Service 
components. The DHP funding is not the exclusive source of the Military 
components' resources and funding to support healthcare activities 
within each component. When the Defense Health Program was created, it 
was pulled together from four separate appropriations, Army, Navy, Air 
Force, and DOD. Each of these entities had, and continues to have, 
different accounting and finance systems. In order to track expenses in 
the appropriation, the Department has developed a methodology to 
reconcile, after the fact, an execution of funds which is consistent 
across the Services and TMA. Although we have more than one system to 
manage the DHP, having a single appropriation ensures a uniformed 
benefit. The DHP continues to look for ways to unify information, 
improve resource management and this may evolve to single enterprise 
resource planning (accounting) system.

                   suicide in the reserve components
    24. Senator Graham. Secretary McCarthy, as you acknowledge in your 
statement, the increase in suicide among non-Active Duty National Guard 
and Reserve is of great concern. According to the Army National Guard, 
for example, the number of suicides increased sharply for 2009 in which 
62 occurred, and 2010 in which 113 occurred. Over half of the Army 
National Guard soldiers who committed suicide had never deployed, and 
only about 15 percent were unemployed. Yellow Ribbon is not solely a 
suicide prevention program, it is only available to members who have 
deployed, and according to your testimony in fiscal year 2012 will be 
the final year of funding. What are your thoughts on the adequacy of 
suicide prevention resources available to the Reserve components, and 
what else needs to be done?
    Secretary McCarthy. Concern remains heightened for the Reserve 
component but I am committed to addressing this issue. National Guard 
and Reserve are given the same suicide prevention and resilience 
training from their respective branches as the active duty. However, 
the ability to take advantage of installation based resources is very 
limited for the Reserve component servicemembers and their families who 
often live in communities far from their units or installations of 
assignment. The National Guard, which operates in 54 States or 
territories, have various programs and services available through State 
or community organizations, but they vary based on geographic 
dispersion, available resources, and staffing levels. Even more 
complicated for servicemembers in the Reserves is that many times they 
do not live in the State in which they drill. So State-based programs, 
which can benefit members of the Guard, might not be readily available 
to the Reserves. Improved alignment and joint sharing of information 
and resources could benefit members across the Reserve component.
    Currently, there is a Director of Psychological Health in our Guard 
and Reserve Headquarters as well as in each of our 54 States and 
territories who acts as the focal point for coordinating the 
psychological support for Guard members and their families. I have 
established a Suicide Prevention Stakeholder Working Group, which has 
identified several items that would improve services and better support 
to the Reserve component and their families and is working toward 
implementing these reforms.
    Further, I believe we need to look harder at ways in which we can 
expand the access to behavioral health treatment for Reserve component 
servicemembers, especially in isolated and remote areas and in 
emergency situations. We also need to work closer with the Department 
of Veterans Affairs to support efforts in suicide prevention, 
intervention, and postvention.
    Finally, we should consider ways in which we can provide behavioral 
health care treatment to Reserve component servicemembers regardless of 
deployment status.

  defense center of excellence for psychological health and traumatic 
                              brain injury
    25. Senator Graham. Dr. Woodson, in February 2011, the Government 
Accountability Office (GAO) published a very disappointing report on 
the DOD Center of Excellence for Psychological Health and Traumatic 
Brain Injury, which was established in the aftermath of Walter Reed to 
develop excellence in response to psychological and brain injuries. It 
found several performance problems as well as lack of a clear mission. 
I understand that a new management team is now in place at the Center 
of Excellence for Psychological Health and Traumatic Brain Injury. What 
improvements do you see in the future at this Center of Excellence?
    Dr. Woodson. To address the concerns of the GAO and Congress, the 
Defense Centers of Excellence for Psychological Health and Traumatic 
Brain Injury (DCoE)'s new leadership is working diligently to ensure 
that it is a functional, disciplined, focused and accountable 
organization that performs at the highest level. The identified 
management priorities, as well as completed improvements are listed 
below.
    DCoE management priorities:
    DCoE's mission and priorities are focused on the following 
parameters of success:

        <bullet> Develop a thorough and comprehensive base of knowledge 
        in the evaluation, diagnosis, treatment and rehabilitation of 
        PH/TBI injuries.
        <bullet> Provide consistent, timely, accurate, comprehensive 
        and focused information on PH/TBI to the military Services and 
        DOD colleagues.
        <bullet> Develop a thorough and comprehensive analysis of gaps 
        in research and aggressively advocate filling those gaps.
        <bullet> Leverage DCoE's knowledge and clinical expertise to 
        improve the system of care.

    Improvements that have been made:

        <bullet> DCoE's new leadership has established or improved upon 
        several planning, monitoring, and execution alignment processes 
        since February 2011. These improvements are fundamental to 
        ensure DCoE's future as a disciplined, focused, and accountable 
        organization.

    Future Service Alignment of DCoE:

        <bullet> In April 2011, the Department submitted the Report to 
        Congress on the DOD Medical Centers of Excellence (CoEs) that 
        described the future strategic direction of the CoEs.
        <bullet> The report outlined a plan to establish a Military 
        Health System (MHS) CoE Advisory Board, which will be 
        responsible for policy guidance and oversight of the CoEs.
        <bullet> The report outlined the decision process to align DCoE 
        under the U.S. Army Medical Research & Material Command (MRMC) 
        through a plan to be established by the MHS CoE Advisory Board 
        and MRMC Commander.

             education opportunities for military children
    26. Senator Graham. Secretary Hale, I commend the priority Dr. 
Stanley has established for improved educational opportunities for 
military children. His testimony describes the Partnership Program in 
which grants are provided to over 60 local educational agencies for 
specific improvements in academic performance of military children. 
According to information provided to the committee, funding for this 
program was lost as a result of DOD efficiencies initiatives. We had 
been assured that family and education programs were protected in the 
efficiencies initiatives. Why was this grant program eliminated?
    Secretary Hale. The Department determined that it would be more 
cost effective to replace grants to local education agencies (LEAs) 
with alternative means of outreach during the Department's Improving 
Business Operations fiscal year 2012 review.
    The first 2 years of the grant program introduced new opportunities 
to military-connected students attending public schools. The projects 
funded through the grants have brought educational support to raise 
student achievement, professional development to teachers, and student 
support services to address the socio-emotional needs of military-
connected children. The data to date demonstrate that grantees are on 
track to achieve their grant project goals. The lessons learned will 
assist DODEA in providing the alternative means of outreach.
    Although DODEA will no longer fund the grants program as a vehicle 
for supporting the education of military-connected students attending 
LEAs, the DODEA has requested $4.9 million in the fiscal year 2012 
President's budget to provide an alternative means of outreach, by 
aligning the needs of military children with education programs with 
proven results. The DODEA will provide targeted support to LEAs by 
building a support and transition team to implement and oversee 
programs that provide targeted support to LEAs and also, whenever 
possible, comprehensive support programs for military children.

                       health care costs savings
    27. Senator Graham. Secretary Hale, you served as a member of a 
Task Force in 2007 created by Congress to examine the future of 
military health care, and one of the recommendations of that task force 
was that DOD should commission a study and possibly a pilot program 
aimed at better coordinating insurance practices among those retirees 
who are eligible for private health insurance as well as TRICARE. What 
was the Task Force's thinking on that approach at the time and was this 
recommendation ever acted upon?
    Secretary Hale. The Task Force believed that resolving issues 
related to the coordination of private insurance and TRICARE offered 
the potential to provide retirees with better health care while also 
helping to control growth in DOD medical costs. They identified two 
general approaches: The government paying all or part of the retiree's 
premium for the employer's health plan or employers paying all or part 
of the TRICARE enrollment fees. The Task Force also emphasized that use 
of either option must be strictly voluntary on the part of the retiree.
    The Department conducted an analysis in October 2008, addressing 
the Task Force's approaches. The analysis looked at four different 
scenarios and found there is a large degree of uncertainty and risk 
involved in DOD providing an ``other health insurance'' (OHI) subsidy 
to retirees. The cost impact from fiscal year 2009 through fiscal year 
2015 was estimated to range from a savings of $4.4 billion to a cost 
increase of $4.7 billion. All scenarios evaluated led to very large 
initial cost increases to achieve net savings.
    The Department also reviewed the results of the Institute of 
Defense Analyses (IDA) study on providing OHI subsidies that was 
prepared in January 2008 for the Tenth Quadrennial Review of Military 
Compensation (QRMC). This study concluded that due to relative cost of 
OHI and the continual decline of TRICARE premiums and copayments in 
real terms, DOD costs would increase under such an initiative no matter 
what subsidy amount was used.
    Based on the results of these analyses, the Department did not 
believe undertaking a pilot program to further explore this issue was 
warranted. However, it was noted that if the TRICARE fee or benefits 
structure changes, and, depending on the impact of national health care 
reform on the availability and cost of OHI, reevaluation may be 
warranted.

    28. Senator Graham. Secretary Hale, has DOD considered ways to 
better coordinate TRICARE and private insurance as a cost saving 
measure, and would DOD be open to ideas to involve civilian employers 
of military dependents and retirees in a shared opportunity to reduce 
DOD health care costs?
    Secretary Hale. The Department implicitly involves civilian 
employers of military dependents and retirees in helping to lower the 
cost of TRICARE by actively identifying those TRICARE beneficiaries who 
have other health insurance and ensuring that the other health 
insurance is the primary payer for the beneficiaries' health care. Our 
contractors have processes in place to periodically validate the 
existence of other health insurance as a part of their double coverage 
plan.
    With respect to subsidies, the QRMC, Volume II, July 2008, issued 
their report in which they considered an ``Other Health Insurance'' 
subsidy. The QRMC conjectured that an ``other health insurance'' 
subsidy may be an innovative way for DOD to encourage individuals with 
other health insurance options to opt out of TRICARE, thereby reducing 
DOD health care costs. However, cost analyses revealed that DOD costs 
would increase under such an initiative, no matter what subsidy amount 
was used. We are, however, continuing to evaluate alternatives that 
would involve civilian employees in our efforts to reduce TRICARE 
costs.

    29. Senator Graham. Dr. Stanley, section 726(b) of the National 
Defense Authorization Act for Fiscal Year 1997 states the following: 
``Total capitation payments for health care services to a designated 
provider shall not exceed an amount equal to the cost that would have 
been incurred by the Government if the enrollees had received such 
health care services through a military treatment facility, the TRICARE 
program, or the Medicare program as the case may be.'' I understand 
that each year DOD, as directed by this law, determines annual payment 
rates to the Uniformed Services Family Health Plan (USFHP) based on a 
variety of factors that measure what the Government would spend if the 
Plan's enrollees were receiving care from the other sources mentioned 
in section 726(b). The methodology that is used includes adjustments 
for such elements as health status and geographic cost differences. I 
understand also that a recent independent analysis commissioned by DOD 
concluded that this rate setting methodology complies with section 
726(b) and is actuarially sound. So it would seem that the President's 
budget proposal simply shifts costs to Medicare without saving the 
Government any money. Is this accurate? If not, please clarify any 
misunderstanding I may have based on what I just described.
    Dr. Stanley. Under this proposal, the administration estimates a 
net savings to the government of $279 million over the next decade. 
While current law precludes DOD from spending more on the USFHP than it 
would cost the government to provide care through TRICARE for Life 
(TFL) and Medicare, the law requires negotiation and mutual agreement 
between the Secretary of Defense and designated providers in 
determining payments to the USFHPs. Since the inception of this program 
in 1995, the rates provided to these plans have been based primarily on 
data from the general Medicare population. However, since the TFL 
program began in 2001, the Department has been able to gather detailed 
data specific to the Medicare-eligible TRICARE beneficiary population. 
The savings estimated for the proposal are based on the difference 
between the historically used rates and estimates derived from the 
actual data accumulated for Medicare-eligible TRICARE beneficiaries.

    30. Senator Graham. Dr. Stanley, recognizing that the ceiling rate 
for designated providers is recalculated annually and that those 
calculations withstand the analysis required by law, it appears there 
would be no future savings. Could you please explain how DOD is 
assuming future savings?
    Dr. Stanley. The administration estimates the proposal will save 
the government $279 million over the next decade. While current law 
precludes DOD from spending more on the USFHP than it would cost the 
government to provide care through TRICARE for Life (TFL) and Medicare, 
the law requires negotiation and mutual agreement between the Secretary 
of Defense and designated providers in determining payments to the 
USFHPs. Since the inception of this program in 1995, the rates provided 
to these plans have been based primarily on data from the general 
Medicare population. However, since the TFL program began in 2001, the 
Department has been able to gather detailed data specific to the 
Medicare-eligible TRICARE beneficiary population. The savings estimated 
for the proposal are based on the difference between the historically 
used rates and estimates derived from the actual data accumulated for 
Medicare-eligible TRICARE beneficiaries.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                    servicemembers civil relief act
    31. Senator Chambliss. Dr. Stanley and Secretary McCarthy, the 
number of service men and women experiencing significant financial 
problems with their mortgage companies and banks is unfortunately well 
known. While the operational tempo of our Armed Forces will hopefully 
decrease following the withdrawal of our combat forces from Iraq, the 
OPTEMPO will likely still remain high and we will continue to rely on 
our Reserve components to meet operational requirements for the 
foreseeable future. With this in mind and if private lenders continue 
to violate or ignore the provisions of the Servicemembers Civil Relief 
Act (SCRA), what adjustments do you believe may be necessary to SCRA to 
protect the interests of our service men and women?
    Dr. Stanley and Secretary McCarthy. The SCRA should be amended in 
two ways:

    (1)  The SCRA (codified at 50 U.S.C. App. Sec. Sec. 501-597b) 
should be amended to make it easier for the lending industry to 
properly apply the 6 percent interest rate cap. Section 527 requires 
the servicemember to provide the lender with a copy of his or her 
official orders to show the period for which the 6 percent interest 
rate cap should apply. These orders, however, can be difficult to 
understand and interpret.

    Section 535 defines military orders to include ``any notification . 
. . from the servicemember's commanding officer, with respect to the 
servicemember's current or future military duty status.'' This 
basically allows the commander to write a letter clearly stating when 
the servicemember is or will be on active duty. This definition, 
however, only applies to section 535, and not to the 6 percent interest 
rate cap section, which, as noted, still requires a copy of the more 
complicated official orders.
    If the definition of military orders found in section 535 were made 
applicable to the entire SCRA by moving it to section 511--the 
definition section, which is applicable to the entire Act--then the 
lending industry could more readily determine when a servicemember was 
eligible for the 6 percent interest rate cap.
    This amendment would also make it easier for the lending industry 
to determine when the interest rate applied to Reserve component 
servicemembers who had received orders but had not yet reported for 
active duty. The SCRA extends some of its protections and benefits 
(including the 6 percent interest rate cap) to those with orders even 
though they have not yet reported for duty. Determining when the orders 
were received can be complicated. But if servicemembers were allowed to 
provide a letter from their commander, the period of applicability 
could be stated clearly.

    (2)  The SCRA should be amended to extend mortgage foreclosure 
protections to all servicemembers' mortgages, not just those secured by 
pre-service obligations. Section 533 provides protections against the 
non-judicial sale, foreclosure, or seizure of the property secured by a 
mortgage obligation that originated before the period of the 
servicemember's active duty.

    This means a court must enter a valid order before the sale, 
foreclosure, or seizure of such property can take place, and such an 
order cannot be entered unless and until the creditor files a lawsuit 
against the servicemember, gets service of the suit on the 
servicemember, and the servicemember has an opportunity to come into 
court and seek relief from the foreclosure. If the property is secured 
by a mortgage obligation created after the period of active duty, then 
the SCRA does not provide these protections.
    Losing one's home to foreclosure almost inevitably leads to a 
cascade of financial complications. If it occurs while on active duty, 
these complications are no less painful and disruptive to mission 
accomplishment just because the obligation was created while on active 
duty, rather than prior to entering active duty.
      To ensure that servicemembers remain focused on the military 
mission, the mortgage foreclosure protection should be extended to 
cover all servicemembers' mortgage obligations, not just pre-service 
ones.
    Such expanded protection would also simplify the process for the 
lending industry. If such an amendment were adopted, the foreclosing 
creditor would only have to determine whether the servicemember is on 
active duty at the time of the proposed sale, foreclosure, or seizure 
(or was on active duty within the 9 months preceding the sale, 
foreclosure, or seizure). The foreclosing creditor would not have to 
sort through a possible series of prior mobilizations to determine the 
status of the servicemember at the origination of the mortgage 
obligation.

       uniformed services employment and reemployment rights act
    32. Senator Chambliss. Dr. Stanley and Secretary McCarthy, the 
Uniformed Services Employment and Reemployment Rights Act (USERRA) 
protects millions of people, largely National Guard and Reserve 
members, as they transition between their Federal duties and civilian 
employment. USERRA is intended to eliminate or minimize civilian 
employment disadvantages resulting from service in the Reserve 
components and protect the rights of those members when they deploy. 
Since September 11, 2001, over 500,000 citizen soldiers have been 
mobilized to fight the war on terrorism. Many American soldiers have 
served more than one tour of duty and may be required to serve more. 
Additionally, the need for American troops in other parts of the world 
and at home continues, whether for conflict management or in response 
to natural disasters. While some would argue that it is statistically 
reasonable for the number of employment discrimination complaints filed 
by service men and women during this time period to have increased--
based on the number of deployments--the data needed to make such a 
judgment remains incomplete. Furthermore, data from a 2004 DOD survey 
showed that at least 72 percent of National Guard and Reserve members 
with USERRA problems never sought assistance for their problems, 
raising questions as to whether complaint numbers alone can fully 
explain USERRA compliance or employer support. Finally, the time it 
takes to process USERRA complaints, while somewhat improved, remains 
unacceptable when you are speaking in terms of whether or not a veteran 
and/or his family will lose their home due to a negligent or willfully 
mistaken foreclosure action. In light of these factors, do you see the 
need for any changes to USERRA to address these issues or provide 
additional protection to our Guard and Reserve members?
    Dr. Stanley and Secretary McCarthy. Yes, there is a need to 
reexamine USERRA to ensure the law protects servicemembers and to 
promote the employer support necessary to sustain the Total Force. 
Based on the heightened operations of the last 10 years and anecdotal 
evidence gathered by ESGR Volunteers and Ombudsman, USERRA in its 
current form should be reviewed. USERRA has not been significantly 
overhauled since 1994 when it was first enacted. There have been minor 
amendments to USERRA, such as those resulting from the Veterans Benefit 
Improvement Act of 2008, to improve and enhance compensation and 
pension, housing, labor and education, and insurance premiums.
    Based on ESGR's view statistically, USERRA complaints and inquiries 
have risen since September 2001, but the number of cases handled by 
ESGR impact less than 0.01 percent of all Reserve component members. 
While the number of USERRA inquiries has increased, the average number 
of cases has remained fairly consistent over the last 3 years. Through 
the second quarter of fiscal year 2011, ESGR has handled 1,470 cases, a 
slight decline from the same quarters in fiscal year 2010. Please refer 
to ESGR's fiscal year 2010 Annual report for further details on the 
metrics that measure USERRA Inquiries (page 30). In part, the increase 
in inquiries may be attributed to:

    (1)  increased deployments and training in response to global 
events
    (2)  the U.S. economy
    (3)  ESGR's proactive Outreach Programs

    While USERRA does not specifically cover or add protections 
involving foreclosures, other Federal acts and programs do. The 
Veterans Benefit Act 2010 addressed some of the concerns associated 
with mortgages, homelessness and insurance for veterans. As for the 
timeliness to resolve a USERRA case, ESGR resolved cases within 10.27 
calendar days during fiscal year 2010. Further details of our 
historical response rates may also be found on page 30 of the ESGR 
fiscal year 2010 Annual Report.
    While the above factors focus on servicemembers, there are some 
indications that employer fatigue from 10 years of continuous combat 
operations may also be driving the need to revisit USERRA. To verify 
the impact on employers, ESGR is sponsoring two efforts:

    (1)  The ``2011 Department of Defense National Survey of 
Employers'' was sent to a cross-section of 80,000 civilian employers 
across America. The survey currently runs through July 6 with results 
expected late in fiscal year 2011.
    (2)  As a companion piece to this survey, ESGR is sponsoring a 
study to examine the results of the survey and incorporate information 
gleaned from four regional focus groups of civilian employers. The 
focus groups will participate in questions formulated based on the 
survey results and used to provide meaningful narrative to a report 
summarizing both efforts. The collective efforts of these employer 
engagements should be available late in calendar year 2011.

    [Whereupon, at 3:43 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

   CONTINUATION OF TESTIMONY ON ACTIVE, GUARD, RESERVE, AND CIVILIAN 
                           PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 1:35 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Blumenthal, 
Graham, and Ayotte.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Breon N. 
Wells.
    Committee members' assistants present: Nick Ikeda, 
assistant to Senator Akaka; Juliet Beyler and Gordon Peterson, 
assistants to Senator Webb; Jeremy Bratt, assistant to Senator 
Blumenthal; Clyde Taylor IV, assistant to Senator Chambliss; 
Brad Bowman and Adam Hechavarria, assistants to Senator Ayotte; 
and Andrew King and Sergio Sarkany, assistants to Senator 
Graham.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. The subcommittee will come to order.
    I'd like to begin by apologizing to Senator Graham for 
knocking his water over when he was on his way. It had nothing 
to do with the delay in his arrival. [Laughter.]
    Senator Graham. I deserve it; I was late.
    Senator Webb. We meet today to receive the testimony from 
the Military Services on their Active, Guard, Reserve, and 
civilian personnel programs, in review of the National Defense 
Authorization Request for Fiscal Year 2012 and the Future Years 
Defense Program.
    I welcome our witnesses to today's hearing. The Army 
witnesses are The Honorable Thomas Lamont, Assistant Secretary 
of the Army for Manpower and Reserve Affairs and Lieutenant 
General Thomas Bostick, the Deputy Chief of Staff, G-1, United 
States Army. The Navy and Marine Corps witnesses are the 
Honorable Juan Garcia III, Assistant Secretary of the Navy for 
Manpower and Reserve Affairs; Vice Admiral Mark Ferguson III, 
Chief of Naval Personnel; and Lieutenant General Robert 
Milstead, Jr., Deputy Commandant for Manpower and Reserve 
Affairs, United States Marine Corps. The Air Force witnesses 
are The Honorable Daniel Ginsberg, Assistant Secretary of the 
Air Force for Manpower Reserve Affairs and Lieutenant General 
Darrell Jones, Deputy Chief of Staff for Manpower, Personnel, 
and Services, United States Air Force.
    Your complete statements have all been received. Without 
objection, all will be included in the record of this hearing, 
at the end of your oral statements.
    This is the third in a series of hearings, as we prepare to 
mark up the National Defense Authorization Act for Fiscal Year 
2012. In our first hearing, we received testimony from the 
senior noncommissioned officer of each Service regarding the 
state of enlisted personnel, force readiness, and family 
readiness. We also received testimony from representatives from 
military service organizations on their views of the needs of 
military personnel and their families.
    In our second hearing, we received testimony from the Under 
Secretary of Defense for Personnel Readiness, the Assistant 
Secretaries of Defense for Reserve Affairs and Health Affairs, 
and the Department of Defense (DOD) Comptroller. These 
officials testified about the personnel programs of DOD, and 
discussed efficiency initiatives included in the DOD budget 
submission.
    During these hearings, it became clear that the contracting 
workforce was not being evaluated as a part of the total force, 
even though contractors are performing many functions 
previously performed by military service personnel. The 
subcommittee has asked for more information about this 
component of the total force.
    Today, we will focus on military personnel policy and 
issues of the military Services, through the testimony of the 
Assistant Secretaries for Manpower and Reserve Affairs and the 
military personnel chiefs of each Service. I expect to discuss 
not only personnel policy programs and policies, but specific 
budget items, in furtherance of our subcommittee's oversight 
responsibilities.
    As I've said in the other two hearings, I take this 
oversight very seriously. There's no greater responsibility for 
Congress, and for our military leaders, than to care and 
provide for our servicemembers and their families. But in doing 
so we must ensure that we are effecting the relationship as 
stewards of the taxpayers' dollars, as well.
    As I've also said in earlier hearings, our military 
continues its engagement in the longest sustained period of 
major conflict in our Nation's history. Military personnel are 
challenged by high operational tempos, the stress of multiple 
deployments, inadequate dwell times, and an inefficient 
disability evaluation system. Our military families, by and 
large, are successfully dealing with the stress associated with 
frequent and lengthy deployments into dangerous war zones, but 
many are experiencing serious challenges. Because of my own 
experience, and my family's tradition of military service, I'm 
well aware of these challenges. I do appreciate our obligations 
to see the needs of servicemembers and their families, and I 
take that responsibility very seriously.
    The All-Volunteer Force has worked remarkably well over the 
past quarter century. We must ensure that the All-Volunteer 
model continues to produce the world's best military. It's 
important to recognize that we have an All-Volunteer Force, not 
an all-career force. We need to ensure that programs and 
policies also support those who serve in the military for a 
period less than a career before returning to their civilian 
communities. The contributions of these individuals are just as 
important as the contributions of career servicemembers.
    We also have entered a new era in the use of our Guard and 
Reserve Forces. They have played critical roles during this 
period in ways never envisioned at the inception of the All-
Volunteer Force. This subcommittee will continue to explore 
changes needed to employ our Reserve component forces as an 
operational force.
    I look forward to hearing your testimony about the 
personnel issues of your Services. I'm aware that each of the 
Services are facing challenges in managing its forces over the 
next few years. Current plans require the Army to reduce end 
strength by 22,000 in fiscal year 2013, and an additional 
27,000 by the end of fiscal year 2016. The Marine Corps is 
planning to reduce end strength by 15,000 to 20,000, during the 
periods 2015 to 2017. Because of unusually high retention 
rates, the Navy and Air Force are implementing mandatory 
separation procedures in an effort to reduce end strength to 
authorized levels by the end of this fiscal year.
    As always, I would request that each of you discuss your 
challenges and how you plan to address these challenges, with 
particular emphasis on any legislative authorities you believe 
would be needed to shape your forces. Reducing the size of the 
force is never easy. It's important that it's done in a manner 
that respects the service of everyone who has given so much 
during this period of continuing conflict. Also, I would 
encourage you to express your views candidly, tell us what's 
working well, and raise any concerns and issues you may want to 
bring to this subcommittee's attention.
    Senator Graham, do you have any opening remarks?

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Mr. Chairman. As always, I enjoy 
conducting these hearings with you. I think our staffs work 
well together, and we have a lot of experience to offer the 
Senate about how to shape the force.
    Last week was about healthcare. We're having, I think, an 
unsustainable increase in healthcare cost in DOD. We're going 
to have to make some hard choices, sooner or later, because it 
affects everything we'd like to do in every other area.
    Disability evaluation systems, General Bostick, Secretary 
Lamont, I don't think you mention it in your written statement, 
if you would talk to us about the 20,000 nondeployable soldiers 
that are waiting some type of evaluation. What can we do to 
expedite their decision? How do we deal with the fact--not only 
are we going to reduce the Army, as Senator Webb indicated, but 
also, if you have 20,000 nondeployable, that goes into who can 
go to the fight. To me, that is a personnel issue we need to 
come to grips with.
    As many of you know, I'm a member of the Air Force Judge 
Advocate General (JAG) Corps. The recommendation to take three 
brigadier-general positions out of key major commands was 
opposed by General Schwartz and Secretary Donley. Secretary 
Ginsberg, I just want you to know, from my point of view, 
that's a decision that I think I have to push back on, because 
I'm fairly familiar with how the Air Force legal community 
operates. I think it would do more harm than good to reduce 
those brigadier general spots that serve the Air Force well.
    On the Navy-Marine side, we have a manning of 830 military 
attorneys. An independent review said we need 950. I'd like to 
know how we solve that problem.
    Basically, we're going to reduce the force, with the view 
that there must be some peace dividend that I don't see coming 
anytime soon. I do hope we can reduce our forces in 
Afghanistan, slowly but surely. We're going to withdraw most of 
our forces from Iraq. But, at the same time, just because of 
the operational tempo that we've experienced in the last 
decade, when you draw your forces down, that means those who 
are left are going to have to do more. I just really question, 
is that a wise decision? I'd like to get comments from each of 
you about how you think that affects retention and recruiting. 
How do we reduce this force? What kind of system do we come up 
with to reduce? Do we tell people they can't retire at 15 
years? What do we do?
    So, with that, I look forward to hearing your testimony.
    I really appreciate working with you Senator Webb.
    Senator Webb. Thank you very much, Senator Graham.
    We will begin with Secretary Lamont and just move across 
the table, from my left to my right.
    Secretary Lamont, welcome back, and we're very interested 
in hearing your testimony.

STATEMENT OF HON. THOMAS R. LAMONT, ASSISTANT SECRETARY OF THE 
             ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Lamont. Thank you, Mr. Chairman, Senator Graham, other 
members of the subcommittee. I'm glad to be here. Thank you for 
taking the time to explore these very important topics, so 
crucial to our Nation's defense today and in the future.
    For nearly 2 years, I've served as the Army Assistant 
Secretary for Manpower and Reserve Affairs. During that time, 
we have worked hard to meet the challenges facing the Army and 
to prepare our force for the future. Our Army is stretched and 
strained. However, the resilience, determination, and values 
displayed by our soldiers, Army civilians, and families is 
remarkable. I am honored to serve such a committed group of 
individuals.
    To lessen the strain on our soldiers, we need to make the 
most of the force we have. Maintaining appropriate strength and 
developing the proper force mix in our Active and Reserve 
components will be critical to the future of our force. Our 
effort to create a more appropriate total force policy 
continues. We want to partner with you and all the other 
stakeholders to codify the Reserve component as an operational 
force and to develop better career models for our soldiers and 
civilians.
    We will make the changes necessary regarding the realities 
of our fiscal situation as well. We are moving forward with 
personnel efficiencies and aggressively enacting cost-saving 
measures throughout our Army. We are committed to the work 
associated with managing our resources properly, even as we 
conduct the largest transformation since World War II, the 2005 
base realignment and closure initiative, as well as fighting 
two major conflicts and completing our modular conversions. The 
Army personnel community is focused on maintaining the 
unprecedented quality of the All-Volunteer Force in order to 
accomplish the missions at hand and to prepare the Army for the 
challenges of tomorrow.
    Please know that the Army is filled with devoted civilian 
and military leaders, committed soldiers, and dedicated 
families. We certainly have challenges, but we have significant 
opportunities, as well. One of our most significant 
opportunities is to capitalize on lessons learned over the past 
10 years to create a force that is the right size with the 
right capabilities with the best-developed military and 
civilian leadership.
    In closing, our Army is a total force that has been tested. 
We've been successful, and now we are focused on planning for 
the future while maintaining our strength. We appreciate the 
subcommittee's support in accomplishing all we've done, and we 
look forward to your support in the future.
    Thank you very much. I look forward to your questions.
    [The joint prepared statement of Mr. Lamont and General 
Bostick follows:]
  Joint Prepared Statement by Hon. Thomas R. Lamont and LTG Thomas P. 
                              Bostick, USA
                              introduction
    Chairman Webb, Senator Graham, distinguished members of this 
subcommittee, thank you for the opportunity to appear before you on 
behalf of America's Army. The U.S. Army exists to serve the American 
people, and defend the Nation.
    After nearly 10 years at war, our soldiers, civilians, and families 
are stretched and strained, yet still resilient. Their dedicated 
service and sacrifice deserve the very best services, programs, 
equipment, training, benefits, lifestyle, and leadership available. 
With Congress' help, the Army has reached its objective end strength, 
which combines ``Grow the Army'' and Temporary End Strength Increase 
(TESI). This enabled our success in Iraq and Afghanistan.
    With the reduction in forces in Iraq and Afghanistan, the Army must 
prepare to draw down our forces in a deliberate and careful manner. 
Thank you for your steadfast commitment to our soldiers, their 
families, and our civilian workforce. By supporting our personnel 
initiatives you ensured sustainment and well-being of our All-Volunteer 
Force.
                           strategic overview
    More than 1.1 million soldiers have deployed to combat, impacting 
not only those soldiers, but their families and employers as well. 
Additionally, Army civilians shoulder a majority of the Generating 
Force mission, and 30,000 civilians have deployed into harm's way.
    Despite this unprecedented operational demand, the Army is on track 
to achieve a sustainable deployment tempo for our forces and restore 
balance to the Army beginning in fiscal year 2012. We will continue to 
face challenges on multiple fronts including an ever increasing 
nondeployable population resulting from multiple deployments. This 
problem, coupled with an inefficient disability system, does not 
effectively support Army Readiness, our soldiers, and their families.
    We must continue to work a solution between the Services, the 
Department of Defense (DOD), and VA to streamline the disability system 
with improved coordination for health care, compensation, and benefits. 
We remain aware of the difficult economic conditions at home. These 
conditions will give greater impetus to our efforts to seek ways to 
improve efficiency and reduce overhead expenditures that demonstrate 
wise stewardship of our taxpayers' dollars. With the continued support 
of the American people and Congress, we remain committed to the 
readiness, health, and well-being of our soldiers, civilians, and 
family members. As the strength of the Nation, the American soldier is 
the centerpiece of everything we do. Our efforts must remain focused on 
the preservation of our most precious resource, our people.
    In fiscal year 2012, the base military personnel appropriation 
comprises the largest portion of the Army's budget at $60.68 million or 
42 percent. The table below shows the fiscal year 2010 execution 
(excluding OCO) and the fiscal year 2011 and fiscal year 2012 base 
budget requests for military personnel for all three components. The 
increase from fiscal year 2011 to fiscal year 2012 is due primarily to 
changes in inflation rates for military basic pay and personnel 
allowances.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                  Fiscal Year
     Military Personnel Account      -----------------------------------
                                       2010 \1\      2011        2012
------------------------------------------------------------------------
Personnel (AC, NGB, and USAR).......     $53,381     $53,994     $55,606
Medicare-Eligible Retiree Health           5,035       5,057       4,972
 Care...............................
                                     -----------------------------------
  Total.............................     $58,416     $59,050     $60,578
------------------------------------------------------------------------
\1\ Not depicted in fiscal year 2010 Military Personnel Cost of War was
  $12.2 billion.
Fiscal year 2011 OCO request is $11.9 billion and fiscal year 2012 OCO
  request is $8.1 billion.
Fiscal year 2010 figures represent execution amounts.

                              end strength
    The congressionally-approved growth of the Army was completed ahead 
of schedule in 2009. However, after a decade of persistent conflict, a 
number of other factors--nondeployable soldiers, temporary requirements 
in various headquarters and transition teams, our wounded warriors, and 
elimination of Stop-Loss--have impacted our ability to adequately man 
units for deployment. As a result, the Secretary of Defense approved an 
additional temporary end strength increase of 22,000 soldiers, 7,000 of 
whom joined us in early fiscal year 2011. Army end strength will return 
to the congressionally-approved Active component end strength of 
547,400 by the end of fiscal year 2013. For fiscal year 2012, the Army 
National Guard end strength will remain 358,200 and the USAR will 
maintain 205,000.
    As of April 2011, the last soldier retained under Stop Loss for 
deployment purposes was separated. This reflects an overall reduction 
from the January 2009 baseline of 13,217 stop-lossed soldiers. TESI and 
the implementation of voluntary stabilization programs for each 
component enabled us to eliminate Stop Loss, while minimizing the 
impact on unit readiness.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                  Fiscal Year
                                     -----------------------------------
                                         2010        2011        2012
------------------------------------------------------------------------
Temporary End Strength Increase       $1,108 \1\      $1,245      $1,143
 Request............................
------------------------------------------------------------------------
\1\ Fiscal year 2010 includes TESI and overstrength execution. Fiscal
  year 2010 figures represent execution amounts.

    We continue to make significant progress in our efforts to restore 
balance. Increasing time between deployments for our soldiers and 
building greater predictability for soldiers and families continues to 
be one of our key concerns. Despite the short-term impact of the recent 
surge of troops to Afghanistan, we expect the ratio of Boots on Ground 
(BOG) time to dwell time to improve as demand decreases. This will ease 
the constant pressures on our forces as they move through the 
rotational cycle of the Army Forces Generation (ARFORGEN) model.
            recruiting and retention (officer and enlisted)
    Our soldiers are the Army's most important resource, and our 
ability to meet the challenges of the current and future operational 
environment depends on our ability to sustain the All-Volunteer Force. 
The pace and demand of the operational environment over the last 
several years has caused us to focus on high-volume recruiting with an 
emphasis on quality benchmarks. The shift in the economy combined with 
our initiatives in marketing, advertising, and hard work of our 
recruiters has allowed us to be more selective.
    Despite the challenges of an Army engaged in two protracted 
conflicts, the Army exceeded its enlisted recruiting and retention 
missions for fiscal year 2010 and is confident it will meet its goals 
for fiscal year 2011. The Army National Guard reduced their accessions 
in fiscal year 2010 to remain under the congressionally-mandated end 
strength ceiling. The Army met its quality benchmarks for new recruits 
in fiscal year 2010. We are projected to build the fiscal year 2012 
entry pool to as much as 50 percent of the fiscal year 2012 mission by 
the end of fiscal year 2011. We will continue to monitor trends and 
make adjustments as required.
    In fiscal year 2010, with congressional support, the Army spent 
$4.4 billion on recruiting and retention. In fiscal year 2011, the Army 
plans to spend $4.4 billion to fund contracts written between fiscal 
year 2007 and fiscal year 2010 due to continued obligations of 
anniversary payments to soldiers.
    Recently, incentive contracts have dropped dramatically for new 
accessions. Average recruiting bonuses dropped from over $13,000 in 
fiscal year 2009 to just under $3,000 in fiscal year 2011, and are only 
used to incentivize longer-term enlistments in a small percentage of 
critical skills. These incentives are only used to ensure the success 
of the total Army recruiting and retention missions and to shape the 
force to meet specific grade and skill requirements.
    Our fiscal year 2012 request of $3.7 billion reflects the 
efficiencies undertaken in these activities based on a more favorable 
recruiting and retention environment with a high percentage of the 
budget dedicated to prior year payments. The amount budgeted for 
contractual payments is anticipated to decrease until fiscal year 2015, 
when requirements will likely increase due to a stronger economy.
    The reductions/efficiencies taken in recruiting and retention are 
in support of the Secretary of Defense's plan to reallocate funding to 
more critical programs. These reductions went primarily to resource the 
increased number of field grade officers that the Army is currently 
growing. Additionally, increases were made to medical special pays to 
ensure that shortages in high demand specialties were addressed, and 
finally, resources were aligned to fully fund the more senior force 
structure that the Army is experiencing.
    In fiscal year 2010, the Active Army accessed the highest 
percentage of high school diploma graduates since fiscal year 1992 
(increasing from 94.7 percent in fiscal year 2009 to 98.3 percent in 
fiscal year 2010). The Army met its skill-set needs, achieving over 99 
percent Military Occupational Specialty (MOS) precision. We entered 
fiscal year 2011 positioned for continued success, with 33,276 future 
soldiers in the delayed entry pool. The last time the delayed entry 
pool topped 33,200 was in 1996.
    The Army also has developed valuable new tools to screen non-high 
school graduates and other applicants for attributes indicating 
potential for success in a military career. Assessment tools such as 
the Army's Tailored Adaptive Personality Assessment System (TAPAS) 
offer the Army the option to consider high potential soldiers 
regardless of their educational background. The TAPAS instrument 
enhances the selection of soldiers regardless of their education 
credentials by screening out low motivated, high attrition risk 
applicants and provides a scoring of applicants to predict the 
likelihood of success as a soldier. The TAPAS is under development by 
the Army but has already been used as a screening tool to evaluate and 
screen out a small number of low motivated CAT IV Army applicants. To 
date, more than 157,000 Army and Air Force applicants have been tested 
with the Army's TAPAS instrument and the Navy expects to begin to use 
the instrument with their recruits before the end of the second quarter 
of fiscal year 2011.
    Additionally, recruits scoring in the upper range (50-99 percent) 
on the Armed Forces Qualification Test (AFQT) remain well above the 
Department of Defense (DOD) policy (DODI 1145.01, September 20, 2005) 
on quality marks of 60 percent, and recruits who scored in the lower 
range (30 percent and below) on the AFQT decreased 0.7 percent. The 
Army collectively decreased the number of ineligibility waivers 
provided for enlistments and appointments by 4.20 percent from the 
previous fiscal year.
    Despite our success in recruiting, the Army and the Nation face a 
silent epidemic with increased obesity and decreased graduation rates 
in certain parts of the country. Currently, less than one in four 17-24 
year-olds are eligible, primarily due to physical and educational 
requirements. One in five youths fails to graduate high school. 
Increased obesity rates among young people also provide fewer potential 
recruits that are eligible to serve. One in five youths, 12-19 years 
old, is currently overweight, compared to 1 in 20 in the 1960s. This 
trend is projected to grow to 1 in 4 by 2015.
    The Army continues to retain soldiers at tremendously high levels, 
while engaged in the longest period of conflict for our All-Volunteer 
Force. The Army surpassed the total Army retention goal, each year, 
since 2002. Soldiers reenlist for three top reasons which include their 
current command climate, job satisfaction, and the quality of life in 
the Service.
    Additionally, retention rates within the last 12 months are 
slightly higher due to the current state of the economy. In fiscal year 
2010, the Active Army reenlisted 68,105 soldiers towards an annual 
mission of 60,000. Soldiers extending to complete deployments with 
their units represented 8,100 of the total. The Army Reserve reenlisted 
10,921 soldiers, exceeding their annual goals by 6 percent. The Army 
National Guard accomplished their mission as well by achieving 106 
percent of their assigned mission; a total of 32,156 soldiers.
    During fiscal year 2010 and into fiscal year 2011, retention 
bonuses were carefully monitored and adjusted to ensure that the Army 
met its retention goals while remaining fiscally responsible. As we 
posture for future reductions in the size of our force, the Army is 
using lessons learned from past reductions to ensure that today's 
decisions maintain the viability of tomorrow's All-Volunteer Force. 
Retention policies will emphasize retention of soldiers with high 
potential coupled with appropriate force alignment and structure.
    The Army's programs to recruit and retain both officers and 
enlisted soldiers with critical skills have been effective. For 
enlisted soldiers, the Enlistment Bonus, the Selective Reenlistment 
Bonus, Critical Skills Retention Bonus (CSRB), and the Student Loan 
Repayment Program (SLRP) are proven tools that remain effective for 
filling critical skills. The SLRP is especially effective in attracting 
high potential recruits who have some college experience or plan to 
attend college after the Army. All bonuses are being used very 
selectively. Projected spending in Army enlistment recruiting, 
retention, and education incentives will decrease 26 percent in 2012.
    The U.S. Military Academy (USMA) and ROTC both continue to offer 
precommissioning incentives. These consist of offering new officers 
their post, branch of choice or graduate schooling. From fiscal year 
2006 through fiscal year 2010, there were approximately 7,500 
participants. These incentives have increased longevity by 40 percent 
for newly-commissioned, high-performing USMA and ROTC officers, and 
have improved the historical loss rates of recent years by adding 3 
guaranteed years of active service to these officers' initial obligated 
service. This specific gain is based on rates for Army Competitive 
Category officers remaining on active duty after 8 years of service 
from their commissioning date. The historical rate for continued 
service beyond the obligatory 8-year point is 47 percent of officers. 
The projected rates for year groups 2006-2010 who took the incentives 
cited are between 62 percent and 69 percent across all commissioning 
sources. In absolute terms we are retaining an additional 7,500 
officers across these groups. When considering USMA alone, our 
improvements across these year groups range from the historical average 
of 40 percent (beyond the 8 year obligation) of West Point officers to 
between 54 percent and 59 percent. Again, in absolute terms we will 
retain an additional 1,700 West Point graduates through these 
initiatives.
    The rapid growth of the Army over the past 10 years to meet the 
needs of a new modular and expeditionary force combined with the 
requirements of Overseas Contingency Operations in two combat theaters 
have resulted in an officer structure that is not optimally balanced to 
meet Army needs. Our accelerated growth of personnel to match the 
manning requirements of new unit designs has been very successful, but 
we are still working to achieve a balanced inventory of skills and 
grades for the force in a steady state operating environment.
    The Army's use of the CSRB for captains contributed significantly 
to officer retention over the past several years. Retention rates 
within company grade officers, as well as majors, allowed the Army to 
keep pace with officer requirements as we grew the force. Our under-
accession in the mid-1990's officer year groups left the Army with too 
few officers in these year groups to attain full manning strength at 
major. Our adjustment of officer force structure, combined with high 
retention and mandated end strength reductions, will allow us to 
achieve full manning at Major grade much sooner than we originally 
predicted. The Reserve component continues to maximize their use of the 
CSRB, while the Active component has reduced the overall usage as 
officer target levels are met.
    In response to adjustments to officer structure, the Army will 
balance modest reductions in officer accessions across all cohorts over 
the next 4 years. Both these actions will help to mitigate the effects 
of downsizing on the officers currently in career development at 
company grades, There will be opportunities to cross level skills in 
the Active component, change components from Active to Reserve, and 
employ some company grade officers in field grade positions wherever 
there is potential for return on that investment. Involuntary 
separations will likely be used in force reductions; however, the Army 
is committed to utilizing voluntary or incentivized separations as 
available.

                        [In billions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
             Program Description              --------------------------
                                                 2010     2011     2012
------------------------------------------------------------------------
Enlisted Army Incentives.....................     $2.1     $2.1     $1.5
Other Military Recruiting and Retention            2.3      2.3      2.2
 Programs....................................
Army Recruiting and Retention................      4.4      4.4      3.7
------------------------------------------------------------------------
Fiscal Year 2010 figures represent execution amounts.

   transforming the army's reserve components into an ``operational 
                     force'' (operational reserve)
    The war-time experiences of the past decade validate the need to 
institutionalize the policies, procedures and legislation conducive to 
achieving the most efficient utilization of the Total Force, by 
transitioning the Reserve components into an operational force. 
Transitioning to an Operational Reserve will require policy decisions 
on additional resources for the two Army Reserve components (RC) within 
the base budget, including additional resources for RC collective 
training, full-time manning and medical/dental readiness.
    The Reserve components make up 51 percent of the Army's manpower. 
Moreover, many of the capabilities that the combatant command would 
prefer to use in Theater Security Cooperation either do not exist in 
sufficient quantities in the Active component, but reside in the RC. 
For example, approximately 90 percent of the Army's Civil Affairs 
forces are in the USAR.
    In the near term, we must ensure that the RC is capable of 
providing enduring proportional support to the Army's force generation 
supply model: 1 Corps, 5 Divisions, 20 Brigade Combat Teams, and 90,000 
enablers (1/5/20/90) through fiscal year 2014.
    Transforming the Army's Reserve components into an operational 
force provides an historic opportunity for the Army to achieve the most 
cost effective use of its Total Force through investing in and relying 
on the Army's Reserve components to take on a greater role in our 
Nation's defense. Investing in the RC as an operational force will 
position the Army to better manage the risks of declining resources for 
the Army.
                        army total force policy
    The ASA (M&RA) is developing an ``Army Total Force Policy'' for the 
Secretary of the Army. The policy will define the role of the Army 
National Guard and Army Reserve as an operational force;

          ``The ARNG and USAR provide operational capabilities and 
        depth to rapidly expand and sustain the Army's capacity to 
        support U.S. defense requirements across the spectrum of 
        conflict (peace to war).'' (Draft Army Total Force Policy)

    The Army Total Force Policy will promote a balanced and integrated 
Total Force. The ARFORGEN process will ensure operating forces are 
employed as ``integrated expeditionary force packages''.
    Integrating Active and Reserve Forces for training and deployment 
requires a common Active and Reserve ``boots-on-the-ground'' policy, to 
be approved by the Secretary of the Army.
    Procedures, processes and authorities for validating pre-deployment 
readiness of Army forces should be consistent and uniform for Active 
and Reserve Forces.
    Manpower programs will promote a continuum of service, cross-
component assignments, and common standards and provide equal 
opportunities for professional development, regardless of component.
    Training programs will promote common standards and equal 
opportunity via a revised ``One Army'' school system, while 
capitalizing on capabilities and investments made in the Reserve 
component training facilities over the past decade.
    The Army has a historic opportunity to achieve the most cost-
effective Total Force through transitioning the RC into an operational 
force. The ``Army Total Force Policy'' will promote an operational 
environment in which Active and Reserve Forces are able to serve 
together in peacetime and train and deploy together as an integrated 
Total Force for operations.
                 individual ready reserve mobilization
    The Individual Ready Reserve (IRR) is a category of the Ready 
Reserve, and is composed of those members of the Ready Reserve who are 
not serving in Selected Reserve units or assignments, or in the 
Inactive National Guard. The availability of IRR soldiers is important 
to the Army's mission of providing properly trained and equipped units 
of sufficient strength to meet contingency operations or mobilization 
requirements.
    Since September 11, 2001, approximately 538,000 soldiers were 
members of the IRR. Of that total population 31,885 soldiers were 
mobilized and a total of 12,524 soldiers deployed to the Central 
Command (CENTCOM) Area of Responsibility after No Shows, Exemptions, 
and Early Release from Active Duty were factored.
    An effective IRR program is based on several factors, including the 
soldiers' understanding of their obligations, access to benefits and 
support, and time to adjust personal affairs prior to mobilizations.
    In an ongoing effort to validate the readiness of the IRR, the Army 
continues to implement the IRR Muster program, and is piloting a new 
IRR affiliation program.
    Approximately 5 months after entering the IRR program, soldiers 
will be ordered to muster duty. Afterward, soldiers are required to 
muster each year they remain in the IRR.
    Through the muster program, the Army established a partnership with 
the Department of Veterans Affairs to use VA medical centers as muster 
sites for the added opportunity of connecting soldiers to VA services. 
During fiscal year 2010, the Army spent approximately $2.57 million to 
muster 12,500 soldiers, contributing 2,100 soldiers returning to Army 
Reserve formations. The Army plans to muster 14,000 IRR soldiers at an 
estimated cost of $3.01 million in fiscal year 2011 and expects to 
impact 2,500 soldiers returning to Army Reserve formations. In fiscal 
year 2012, the Army plans to muster approximately 20,000 soldiers for a 
total program cost of $4.8 million.
    The IRR affiliation program affiliates a soldier with a local Army 
Reserve unit (and will potentially include Army National Guard units). 
While there is no obligation for the IRR soldier to engage with the 
unit, the potential benefit of established communication between the 
unit and the soldier will enhance HRC's ability to maintain 
accountability and reliable contact information on IRR soldiers. 
Advantages to JRR soldiers include the opportunity to participate in 
unit drills for retirement points, SRP annually, and use the unit's 
support structure to assist the soldier and family as needed while in 
the IRR.
                            quality of life
    The strength of our Army is tied to the strength of Army families. 
We must provide our Army the best possible care, support and services 
by establishing a cohesive holistic Army-wide strategy to synchronize 
and integrate programs, processes and governance. One of the programs 
designed to accomplish this is the Army Family Covenant.
    The Covenant institutionalizes the Army's commitment to provide 
soldiers and families a quality of life commensurate with the quality 
of service they provide to our Nation. The Army Family Covenant 
incorporates programs designed to build strength and resilience in our 
Families. These services and programs help mitigate stress from 
multiple deployments and frequent military moves.
    The Covenant focuses on the following: standardizing soldier and 
family programs; increasing access to and quality of health care; 
improving soldier and family housing; ensuring excellence in our 
schools and, youth and child care services; expanding education and 
employment opportunities for family members; improving soldier quality 
of life in recreation, travel, and the Better Opportunities for Single 
Soldiers (BOSS) program; and improving relationships with local 
communities and marketplaces. From fiscal year 2007 to fiscal year 
2010, the Army more than doubled its investment in Family programs. 
These various programs are intended to provide a broad spectrum of 
support and include important programs as Mobilization and Deployment 
Readiness, Family Advocacy, New Parent Support, Army Spouse Employment 
Partnership, Survivor Outreach Services, Family Assistance Centers 
(ARNG), Yellow Ribbon Reintegration, Army Reserve Teen Panel, Army 
Affiliated Child Care & Youth Programs and Core Community Recreation 
Programs and Services.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                  Fiscal Year
          Convenant Program          -----------------------------------
                                         2010        2011        2012
------------------------------------------------------------------------
Family MWR Command (FAPC)...........    $   60.3    $   38.9    $   35.1
Army Community Service (QACS/VFRA/         373.5       434.9       371.9
 QPSG)..............................
Child Care Services (QCYS)..........       426.5       410.1       411.0
Youth Programs (QCYS)...............       134.5       163.8       154.0
Community Recreation (QDPC).........       292.4       275.9       257.4
------------------------------------------------------------------------
Family Programs.....................     1,287.2     1,323.6     1,229.2
------------------------------------------------------------------------
Voluntary Ed/Tuition Asst (VACE/           395.4       377.4       355.4
 VATA)..............................
Supplemental/OCO....................        47.7        53.5        53.5
                                     -----------------------------------
  Total Family Programs.............    $1,730.3    $1,754.5   $41,638.1
------------------------------------------------------------------------
Fiscal year 2010 figures represent execution amounts.

              civilian personnel and workforce development
    Department of the Army civilian employees provide vital support to 
soldiers and families in this era of persistent conflict. They share 
responsibility for mission accomplishment by delivering combat support 
and combat service support--at home and abroad. Civilians comprise 23 
percent of the Army Force, yet are 60 percent of the generating force. 
This generating force performs support missions of training, supplying 
and engineering the force. Today, the Army Civilian Corps has over 
311,000 appropriated fund employees with 4,130 currently serving in 
harm's way in the CENTCOM area of operations.

                        [In billions of dollars]
------------------------------------------------------------------------
                                                  Fiscal Year
            Civilian Pay             -----------------------------------
                                         2010        2011        2012
------------------------------------------------------------------------
                                           $24.4       $23.8       $23.3
------------------------------------------------------------------------
Fiscal year 2010 figures represent execution amounts.


------------------------------------------------------------------------
                                                  Fiscal Year
     Full-Time Equivalents (FTE)     -----------------------------------
                                       2010 \1\    2011 \1\    2012 \1\
------------------------------------------------------------------------
Army funded.........................    $173,142    $180,107    $178,918
External funded.....................      47,505      57,267      55,133
Revolving fund......................      29,824      27,947      23,317
                                     -----------------------------------
  Total.............................    $250,471    $265,321   $257,368
------------------------------------------------------------------------
\1\ Civilians funded by OCO and Civil Works appropriations which are not
  captured as any part of the Army's budget submission.

    Since September 11, 2001, we increased the civilian workforce in 
military functions from 222,000 to 286,654 (plus 24,694 Civil Works) 
due to overseas contingency operations, Defense Health Program 
increases, Family and Soldier Support initiatives, acquisition 
workforce growth, in-sourcing functions performed by contractors, 
military technician increases, and military-to-civilian conversions. In 
fiscal year 2009, the Army saved significant resources by in-sourcing 
949 contractor positions to Army civilian positions. Overall, 7,736 
civilian positions were filled by in-sourcing, as of February 1, 2011.
    Approximately 25,000 Army civilian positions are affected by BRAC 
2005. We expect a large number of transfers and some separations to 
occur between now and September 2011. In fiscal year 2010 over 3,200 
employees relocated with their positions; 1,920 employees were eligible 
for some type of retirement and chose to retire; 680 employees were 
placed in positions via the DOD Priority Placement Program (PPP); and 
800 employees left their positions because they applied and were 
selected for positions within the DOD or other Federal agencies. For 
those employees who are being displaced or separated as a result of 
BRAC, Army offers an outplacement service program to assist them in 
their transition to other jobs either within the Federal service or to 
the private sector.
    The Department of the Army implemented a Civilian Workforce 
Transformation plan that will invigorate development of the Civilian 
Workforce by addressing critical issues of structure, accession, 
development, retention and succession planning to ease the transition 
from one generation to the next. Examples of the Army's initiatives in 
the area of Civilian Workforce Transformation include:

        <bullet> Structure. Introduction of an enterprise-based, 
        requirements-driven, civilian structure that will better 
        support all phases on the Civilian Human Capital Life-cycle.
        <bullet> Acquire. An accessions program for all new Army 
        civilians provided through acculturation training, program 
        evaluation and adjustments tailored to requirements.
        <bullet> Develop. Progressive, sequential functional/leadership 
        development training for civilians consistent with Army values.
        <bullet> Distribute. Central selection and placement of high 
        performing civilians against required Army Enterprise 
        positions.
        <bullet> Sustain. Fully integrated IT structures that support 
        Army Career Tracker and Civilian Development Programs.

    By the end of fiscal year 2011, the Army will document and 
promulgate a reformed civilian hiring process, and will implement a 
comprehensive executive competency-based leadership development 
program. By second quarter fiscal year 2011 the path and resource 
requirements for 100 percent of the workforce will be covered by 
professional career program management. Additionally, by first quarter 
fiscal year 2012, the Army will initiate education, training, and an 
experiential development program for its enterprise leadership cohort. 
The Army will also fully deploy a competency-based management system 
for SES talent acquisition, development and succession planning. Thus 
far, funding in support of CWT is executed with current year funding. 
Beyond that remains pre-decisional.
    The Civilian Workforce Transformation will provide civilian 
employees with a defined ``roadmap'' for success with training and 
development opportunities to assist achievement of career goals. It 
will provide commanders the right workforce with the right skills to 
meet current and future mission needs. It will provide the Army a 
predictable and rational method to articulate requirements and make 
decisions about resourcing in a fluid environment. It will provide the 
Nation with the investment in human capital required to effectively 
manage the Institutional Army.
                 army military equal opportunity policy
    The Army is the leader in Military Equal Opportunity (MEO) policy 
and practice. Commanders at all levels are responsible for sustaining 
positive MEO climates within their organizations, enhancing Army 
Readiness. To remain relevant within the ever-changing environment in 
which we operate, the Army is revising its MEO policy by integrating 
and institutionalizing equal opportunity goals, objectives and training 
practices. This effort will strengthen the foundation of the Army's 
Human Capital Strategy. Since fiscal year 2009, the Army has invested 
$3.2 million to include $O.8 million in fiscal year 2011, and expects 
to invest another $2.0 million in fiscal year 2012 for MEO personnel 
services support, database and survey systems, outreach support, and 
training contracts for implementation.
                sexual assault and harassment prevention
    The Army's goal is to eliminate sexual assault and harassment by 
creating a climate that respects the dignity of every soldier. The Army 
Sexual Harassment/Assault Response and Prevention (SHARP) Program 
reinforces the Army's commitment to eliminate incidents of sexual 
harassment and assault. This will be accomplished through a 
comprehensive policy that centers on awareness and prevention; training 
and education; victim advocacy; and response, reporting, accountability 
and program assessment. The Secretary of the Army and the Chief of 
Staff of the Army remain personally involved and reinforce to all 
soldiers and leaders the importance of preventing sexual assault and 
harassment.
    The Army launched a comprehensive sexual assault prevention 
strategy that requires leaders to establish a positive command climate 
where sexual assault is clearly not acceptable. The strategy further 
encourages soldiers to execute peer-to-peer intervention personally, 
and to not tolerate behavior that could lead to sexual assault.
    This strategy consists of four integrated phases and extends 
through calendar year 2016 as we work to be the Nation's leader in 
sexual harassment and sexual assault prevention.
    Phase I (Committed Army Leadership) provides training on best 
practices and allows commands the opportunity to develop prevention 
plans to support the Army strategy.
    Phase II (Army-wide Conviction) includes educating soldiers to 
understand their moral responsibility to intervene and stop sexual 
assault and harassment. This phase has been delivered to installations 
worldwide.
    Phase III, which the Army is now focused on, is dedicated to 
``Achieving Cultural Change'' and fosters an environment free from 
sexual harassment and sexual assault.
    The final phase is ``Sustainment, Refinement, and Sharing.'' Here, 
the prevention program continues to grow while motivating national 
partners to support our efforts to change generally accepted negative 
social behaviors. The end state is the total elimination of the crime 
of sexual assault.
    A key component of I.A.M. Strong is a comprehensive effort to 
improve the investigation and prosecution of sexual assault cases. The 
Army formally investigates every allegation of sexual assault reported 
through an unrestricted report. Although this practice may contribute 
to a seemingly high number of investigations, more importantly, it 
demonstrates the Army's commitment to eradicate this crime within its 
ranks.
    The Army enhanced its investigation and prosecution capabilities by 
hiring 30 additional special investigators and adding 15 special 
prosecutors; and hired 33 of 35 additional lab examiners at the U.S. 
Army Criminal Investigation Laboratory which supports all of DOD and 
the military Services in processing forensic evidence.
    During fiscal year 2010, the Army conducted trial advocacy training 
for approximately 500-600 Judge Advocates responsible for the 
prosecution and defense of sexual assault cases. This training is 
delivered to Judge Advocates in the United States and in deployed 
environments. During fiscal year 2011, the Army's Office of the Judge 
Advocate General (OTJAG) will execute 38 training programs with 
emphasis on the prosecution of sexual assault cases.
    The Army has approximately 774 collateral duty personnel serving as 
Deployable Sexual Assault Response Coordinators (SARCs) in brigades and 
higher and approximately 17,000 collateral duty personnel serving as 
unit victim advocates in battalions and below. In addition, the Army 
has 38 full-time civilian SARC and 171 collateral duty civilian 
installation victim advocates.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
                                              --------------------------
                                                 2010     2011     2012
------------------------------------------------------------------------
SHARP (Sexual Harrassment)...................    $53.3    $28.6    $24.8
------------------------------------------------------------------------
Fiscal year 2010 figures represent execution amounts.

                       suicide prevention program
    The loss of any soldier is a tragedy, particularly when it could 
have been prevented. One suicide is too many and we are working hard to 
address the suicides across the total force. There were 156 suicides by 
Active-Duty soldiers during 2010, a slight decrease from 162 suicides 
in 2009. However, there were 147 suicides by Non-Active Duty members of 
the Army Reserve and National Guard. This represents an increase of 80 
suicides over the 2009 report. The surveillance, detection and 
intervention systems that we use to monitor the Active-Duty Force have 
limited abilities to assist our soldier/citizens--who are not full-time 
and reside in civilian communities away from their units. Approximately 
50 percent of these ARNG and USAR suicide deaths have no deployment 
history.
    The Army Health Promotion, Risk Reduction and Suicide Prevention 
(HP/RR/SP) Report 2010 is the foundation for a systemic effort to 
address suicide. This report has identified critical gaps throughout 
the system that resulted in increased high risk behavior and adverse 
outcomes. Additionally, partnering with national mental health 
professionals refines and improves our programs, including the Army 
Study to Assess Risk and Resilience in Servicemembers. This is the 
largest study of suicide and mental health among military personnel 
ever undertaken.
    Leaders across the Army are using all of these efforts to improve 
the health of the force, decrease high risk behavior and stem the rate 
of suicides. Only through increased vigilance and attention to each 
soldier will this problem within our ranks cease to exist.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
                                              --------------------------
                                                 2010     2011     2012
------------------------------------------------------------------------
HP/RR/SP (suicide)...........................    $29.4    $54.6  $52.4 \
                                                                      1\
------------------------------------------------------------------------
\1\ Fiscal year 2010 figures represent execution amounts.

                      army substance abuse program
    The Nation's persistent conflict has created symptoms of stress for 
our soldiers, including an increase in alcohol and drug abuse. The Army 
Substance Abuse Program (ASAP) is a commander's program that uses 
prevention, education, deterrence, detection, and rehabilitation, to 
reduce and eliminate alcohol and drug abuse. It is based on the 
expectations of readiness and personal responsibility.
    In March 2010, the Army conducted a counselor requirements analysis 
based on each installation's average daily client census with a ratio 
of 1 counselor: 30 patients. Patient caseload was as high as 60/
counselor at some installations. The 1:30 ratio is an accepted ratio 
based on literature and counselor input. Applying this ratio yielded a 
requirement of 562 counselors assuming a 20 percent growth in number of 
patients.
    An Army priority in this area includes the hiring of more 
counselors. There is a finite pool of qualified substance abuse 
counselors nationwide and the Army is competing with private industry, 
the Department of Veterans Affairs, and State and local governments. 
The Army currently has hired 384 of the 562 counselors needed. The Army 
is increasing the use of recruiting, relocation, and student loan 
reimbursement incentives to attract more qualified candidates, and are 
developing a ASAP Counselor Internship Program which will allow 
students with Masters degrees to work in a supervised internship for up 
to 2 years as they attain their licenses and substance abuse counselor 
certifications.
    The Confidential Alcohol Treatment and Education Program (CATEP), 
began in July 2009 and offers confidential alcohol treatment to 
qualified soldiers. For these soldiers, the chain of command is not 
informed of the soldiers enrollment as was previously customary. This 
pilot program was initially offered at Fort Lewis, Fort Richardson, and 
Schofield Barracks. An initial assessment was conducted in March 2010, 
and the Secretary of the Army directed that the pilot be expanded to 
include Forts Carson, Riley, and Leonard Wood. The initial assessment 
showed moderate success in attracting soldiers and placed more career 
NCOs and younger officers into treatment. Soldiers who participated in 
CATEP were very positive about the opportunity to take care of their 
issues without commander knowledge and were more motivated as patients. 
Some soldiers informed their commanders about their enrollment and 
these commanders had a high acceptance of the program. The program will 
be assessed again during April and May 2011 and a decision will be made 
by the Secretary regarding expansion of the confidential treatment and 
education to the remainder of the Army. As of April 8, 2011, 743 
soldiers sought CATEP treatment and 519 were/are enrolled, and 150 were 
referred to alcohol education or other services. The increase in 
funding depicted In the table below is attributable to two events:

    (1)  transfer of dollars from MEDCOM to IMCOM to pay for 
counselors, and
    (2)  a $41.3 million increase during POM 12-16 for counselor hires, 
prevention coordinators, and prevention initiatives.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                      Fiscal Year
                                              --------------------------
                                                 2010     2011     2012
------------------------------------------------------------------------
ACSAP........................................    $34.6    $36.4   $109.5
------------------------------------------------------------------------
Fiscal year 2010 figures represent execution amounts.

                           women in the army
    On January 13, 1994, the Secretary of Defense issued the Direct 
Ground Combat Definition and Assignment Rule. The rule remains in 
effect today and prohibits the assignment of women to units below the 
brigade level whose primary mission is to engage in direct combat on 
the ground.
    The Army's current assignment policy (Army Regulation 600-13, 27 
Mar 92) allows women to serve in any officer or enlisted specialty or 
position except in those specialties, positions, or units (battalion 
size or smaller) which are assigned a routine mission to engage in 
direct combat, or which collocate routinely with units assigned a 
direct combat mission.
    On March 2, 2010, in the context of a changing operational 
environment, with emerging requirements and missions, the Army 
initiated a routine cyclic review of its assignment policy for female 
soldiers. The purpose of the review was to assess the current Army 
policy alignment with DOD policy. The Army recently completed the 
``assessment'' phase of the cyclic review and will submit results and 
recommendations to Army Senior Leadership for decision. If approved, 
the Secretary of Defense will be the final authority to implement these 
changes. Congress will be notified prior to any implementation.
    Women in the Army have and continue to serve this Nation with honor 
and distinction in the roles, positions, units, and specialties in 
which they are allowed to serve. They are vital to the readiness and 
success of the Army, DOD, and the Nation. The Army will continue to 
honor this service, and move forward as required to meet the needs of 
the Nation and of the Total Force.
                        congressional assistance
    As the Army prepares for reductions in the force, we will need 
appropriate legislative authorities to drawdown accurately and 
appropriately. Reformation of the physical disability system will 
require continued dialogue and possibly statutory change to provide our 
service members the transition they deserve. Once the economic 
environment improves, the Army will need to make greater use of 
incentives, and will need congressional help to do so. The continued 
support of Congress for competitive military benefits and compensation, 
along with incentives and bonuses for soldiers, families, and for the 
civilian workforce are critical in helping the Army be the employer of 
choice.
                               conclusion
    With your help, we have invested a tremendous amount of resources 
and deliberate planning to preserve the All-Volunteer Force. This 
includes transforming the RC into an Operational Reserve. We must 
maintain vigilance to protect these investitures for the future of the 
force. We need to sustain the quality of life of our force now and in 
the future. While we begin to transform to a smaller Army, we remain 
dedicated to improving readiness, building resilience and rebalancing 
the force by fiscal year 2012. The well-being and balance of our force 
are absolutely dependent upon your tremendous support. The Army is 
proud of the high caliber men and women whose willingness to serve, is 
a credit to this great Nation.
    To conclude, I wish to thank all of you for your continued support, 
which has been vital in sustaining our All-Volunteer Army through an 
unprecedented period of continuous combat operations. With your 
support, we will continue to work toward restoring balance and 
sustaining the high quality of our Army for the duration of the current 
fight, and Into the foreseeable future. Chairman Webb, and members of 
the subcommittee, I thank you again for your generous and unwavering 
support of our outstanding soldiers, civilian professionals, and their 
families.
                                 ______
                                 
  Joint Executive Summary by Hon. Thomas R. Lamont and LTG Thomas P. 
                              Bostick, USA
    After nearly 10 years at war, our soldiers, civilians, and families 
are stretched and strained, yet still resilient. The Army reached its 
objective end strength, which combines ``Grow the Army'' and Temporary 
End Strength Increase. Now the Army must prepare to drawdown this force 
in a deliberate and careful manner. Army end strength will return to 
the congressionally-approved active component end strength of 547,400 
by the end of fiscal year 2013. For fiscal year 2012, the Army National 
Guard end strength will remain 358,200 and the U.S. Army Reserve will 
maintain 205,000. The Army is on track to achieve a sustainable 
deployment tempo for our forces and restore balance to the Army 
beginning in fiscal year 2012. We will continue to face multiple 
challenges on multiple fronts including an ever increasing non 
deployable population resulting from multiple deployments. This 
problem, coupled with an inefficient disability system, does not 
effectively support Army Readiness, our soldiers and their families.
    In fiscal year 2012, the base military personnel appropriation 
comprises the largest portion of the Army's budget at $60.6 billion or 
42 percent. In fiscal year 2010, with congressional support, the Army 
spent $4.4 billion on recruiting and retention. In fiscal year 2011, 
the Army plans to spend $4.4B to fund contracts written between fiscal 
year 2007 and fiscal year 2010 due to continued obligations of 
anniversary payments to soldiers. Recently, incentive contracts have 
dropped dramatically for new accessions. Average recruiting bonuses 
dropped from over $13,000 in fiscal year 2009 to just under $3,000 in 
fiscal year 2011, and are only used to incentivize longer term 
enlistments in a small percentage of critical skills. In fiscal year 
2010, the active Army experienced the highest percentage of high school 
diploma graduates since fiscal year 1992 (increasing from 94.7 percent 
in fiscal year 2009 to 98.3 percent in fiscal year 2010). The Army met 
its skillset needs, achieving over 99 percent Military Occupational 
Specialty precision. We entered fiscal year 2011 positioned for 
continued success, with 33,276 future soldiers in the delayed entry 
pool. The last time the delayed entry pool topped 33,200 was in 1996. 
The Army collectively decreased the number of ineligibility waivers 
provided for enlistments and appointments by 4.20 percent from the 
previous fiscal year.
    In fiscal year 2010, the Active Army reenlisted 68,105 soldiers 
towards an annual mission of 60,000. Soldiers extending to complete 
deployments with their units represented 8,100 of the total. The Army 
Reserve reenlisted 10,921 soldiers, exceeding their annual goals by 6 
percent. The Army National Guard accomplished their mission as well by 
achieving 106 percent of their assigned mission; a total of 32,156 
soldiers. During fiscal year 2010 and into fiscal year 2011, retention 
bonuses were carefully monitored and adjusted to ensure that the Army 
met its retention goals while remaining fiscally responsible.
    From fiscal year 2007 to fiscal year 2010, the Army more than 
doubled its investment in Family programs. These various programs are 
intended to provide a broad spectrum of support and include important 
programs as Mobilization and Deployment Readiness, Family Advocacy, New 
Parent Support, Army Spouse Employment Partnership, Survivor Outreach 
Services, Family Assistance Centers (ARNG), Yellow Ribbon Reintegrate, 
Army Reserve Teen Panel, Army Affiliated Child Care & Youth Programs, 
and Core Community Recreation Programs and Services.
    Since September 11, 2001, we increased the civilian workforce in 
military functions from 222,000 to 286,654 (plus 24,694 Civil Works) 
due to overseas contingency operations, Defense Health Program 
increases, Family and Soldier Support initiatives, acquisition 
workforce growth, in-sourcing functions performed by contractors, 
military technician increases, and military-to-civilian conversions.
    The Department of the Army implemented a Civilian Workforce 
Transformation plan that will invigorate development of the Civilian 
Workforce by addressing critical issues of structure, accession, 
development, retention and succession planning to ease the transition 
from one generation to the next.
    While we begin to transform to a smaller Army, we remain dedicated 
to improving readiness, building resilience and rebalancing the force 
by fiscal year 2012. The well-being and balance of our force are 
absolutely dependent upon congressional support.

    Senator Webb. Thank you very much, Secretary Lamont.
    General, welcome. General Bostick?

STATEMENT OF LTG THOMAS P. BOSTICK, USA, DEPUTY CHIEF OF STAFF 
                         G-1, U.S. ARMY

    General Bostick. Chairman Webb, Senator Graham, members of 
the Subcommittee on Personnel, thank you for this opportunity 
to appear before you to represent the 1.1 million soldiers 
serving around the globe, as well as over 300,000 civilians and 
their families.
    Our All-Volunteer Army is now in its 10th year of 
continuous combat operations. More than 1.1 million soldiers 
have deployed, and over 30,000 Army civilian have also deployed 
into combat. This impacts not only the soldiers and the 
civilians, but their families, as well.
    Our soldiers and families are feeling the stress of 
repeated deployments, but they remain extraordinarily 
resilient. The programs, that you have supported, aimed at the 
health of the force and quality of life, are helping to 
preserve the All-Volunteer Force.
    Despite this unprecedented operational tempo, the Army is 
on track to restore balance by 2012. Increasing dwell time is 
the most important thing we can do to improve the health of the 
force. Beginning with units that deploy this October and later, 
they can expect to return home for 2 years, for the Active 
component, and 4 years, for the Reserve component.
    As the Army prepares for reducing its end strength, we must 
prevail in ongoing combat operations, prevent and deter 
conflict, prepare for future threats, and preserve and enhance 
the All-Volunteer Force. There is no doubt that the Army of the 
future will be, and should be, different than the Army of 
today. There are changes in the environment, different threats, 
and emerging technology that we need to take advantage of, and 
we must be adaptable enough to do so. We must continue to 
provide the quality of care and support that our Army requires. 
We will work with this Congress as we move forward on a broad 
front to address the challenges of 10 years of war.
    With this subcommittee's help, your Army was able to 
attract, recruit, and retain very talented and committed young 
men and women, and exceeded our recruiting and retention goals 
once again.
    To conclude, I want to thank you for your continued 
support, which remains vital to sustain our All-Volunteer Force 
through unprecedented periods of continuous combat operations.
    I look forward to answering your questions.
    Senator Webb. Thanks very much, General Bostick.

 STATEMENT OF HON. JUAN M. GARCIA III, ASSISTANT SECRETARY OF 
           THE NAVY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Garcia. Thank you, Mr. Chairman, Senator Graham. Thank 
you for the opportunity to speak about the sailors, marines, 
and civilians who comprise the Department of the Navy.
    At any given time, approximately 75,000 sailors and marines 
are underway aboard ships or forward-deployed. When counting 
those deployed, those actively training and preparing to 
deploy, and those supporting forward operations, 40 percent of 
the Navy and nearly a third of the marines are in involved in 
maintaining our forward presence and supporting contingencies.
    In developing our budget request, we added 6,800 billets to 
the operational forces of the Navy. To source these billets 
without increasing Navy's end strength, we reduced or 
consolidated 8,400 billets, streamlining many staffs and shore 
activities. The marines will face different challenges as they 
reduce end strength by more than 15,000 while ensuring that 
current missions, particularly in Afghanistan, continue to be 
fully supported.
    Our fiscal year 2012 budget request for recruiting and 
retention represents a reduction from fiscal year 2011. Both 
Services are performing well in officer and enlisted 
recruiting. However, accession bonuses remain critical to 
achieving Navy and Marine Corps goals for health professionals, 
nuclear operators, and Special Warfare/Special Operations 
personnel. Because we're experiencing historic retention rates, 
we've made selected reductions in retention bonuses, although 
retention behavior indicates we must apply bonus programs to 
critical skill areas that remain relatively insulated from 
changes in the economic environment.
    At a time when 1 percent of this Nation has served in 
uniform, we're expanding the number universities and campuses 
with Reserve Officer Training Corps (ROTC) presence, to ensure 
that the office ranks are open to young men and women from all 
segments and all regions of the country. Our fiscal year 2012 
education and training budget represents an increase from 
fiscal year 2011. However, the majority of this increase 
represents investments in critical mission areas, such as 
missile defense, antisubmarine warfare, and the National 
Aeronautics and Space Administration (NASA) and cyberwarfare--
cyberforce.
    Our fiscal year 2012 budget request for servicemember and 
family programs is an increase from fiscal year 2011 to support 
our continuum of care and address the physical, psychological, 
and family readiness of our sailors and marines. We continue to 
emphasize suicide and sexual assault prevention programs.
    In the past 12 months, the Navy and Marine Corps have 
mobilized approximately 12,000 reservists in support of 
operational requirements. Recognizing the personnel costs are 
the largest part of the Department of the Navy's budget, we're 
collaborating with the Office of the Secretary of Defense (OSD) 
and our sister Services to review the future role of the 
Reserve component as part of our integrated total force.
    The Department of the Navy is leading the way in both 
innovative therapeutic treatments and in civilian hiring of our 
wounded warriors. Naval Sea Systems Command has excelled in 
bringing disabled veterans on board, hired 282 in calendar year 
2011 and, to date, are half way to their current goal of hiring 
a wounded warrior per day.
    Despite the challenges, we can think of no more rewarding 
job than to represent and advocate for the nearly 630,000 
sailors and marines and 190,000 civilian employees.
    To that end, we wish to thank the committee members for 
their support of our great men and women in our Navy and Marine 
Corps, and look forward to your questions.
    Thank you.
    [The joint prepared statement of Mr. Garcia, Admiral 
Ferguson, and General Milstead follows:]
 Prepared Statement by Hon. Juan M. Garcia, VADM Mark E. Ferguson III, 
            USN, and Lt. Gen. Robert E. Milstead, Jr., USMC
                           executive summary
    The Department of the Navy's fiscal year 2012 manpower and 
personnel budget request appropriately balances risk in supporting the 
readiness requirements of the fleet and joint force, growth in emerging 
mission areas, and essential programs that provide for the care of our 
sailors and marines and their families. Our active budget request will 
support an active end strength of 325,700 within the Navy and 202,100 
within the Marine Corps.
Personnel Efficiencies
    In developing our budget request, we reviewed current operations, 
our procurement profile, and readiness requirements. This review 
indicated a requirement to add a total of approximately 6,800 billets 
to the operational forces of the Navy across the Future Years Defense 
Program (FYDP) to support new and current warfighting platforms. To 
source these billets without additions to the Navy's overall end 
strength, we identified efficiencies in staff structure and shore 
activities, and reduced capacity in other areas of the force. This 
review resulted in a reduction or consolidation of approximately 8,400 
billets in the Fleet, squadron staffs, and shore activities.
    The Marine Corps will continue to shape its force to meet ongoing 
requirements, fill critical military occupational specialties and 
retain vital leadership with combat experience. Bonuses will remain 
critical to this effort, allowing the Marine Corps to fill hard-to-
recruit positions such as crypto-linguists and reconnaissance marines. 
It is important to note that only 8 percent of new recruits receive an 
enlistment bonus and the Marine Corps budget for enlistment bonuses has 
decreased from $75 million in fiscal year 2008 to $14.7 million in 
fiscal year 2012. In addition, Selective Reenlistment Bonus funding has 
decreased from $468 million in fiscal year 2009 to $108.6 million in 
fiscal year 2012.
Sailor, Marine, and Family Care
    Our fiscal year 2012 budget request represents an increase from 
fiscal year 2011. This increase supports expansion of our comprehensive 
continuum of care to more effectively address the medical, physical, 
psychological, and family readiness needs of sailors and marines and 
their families, and our continued emphasis on suicide and sexual 
assault prevention programs.
Recruiting
    Both the Navy and Marine Corps continue to experience strong 
performance in our recruiting programs across both the officer and 
enlisted force. Our fiscal year 2012 budget request for recruiting 
represents a reduction from fiscal year 2011. These programs include 
accession incentives, advertising and recruiter support. Accession 
bonuses remain critical to achieving our goals for health 
professionals, nuclear operators, and special warfare/special 
operations within the Navy. However, a favorable recruiting environment 
has enabled us to reduce the number of those eligible for accession 
bonuses.
Retention
    Along with current economic conditions, our new policies are 
encouraging longer-term career behavior, contributing to high retention 
across the force. Our fiscal year 2012 budget request represents a 
decrease from fiscal year 2011. While we have been able to make 
selected reductions in retention bonuses, retention behavior indicates 
we must continue to apply bonus programs to critical skill areas that 
require significant investments in training and education and remain 
relatively insulated from changes in the economic environment.
Learning and Development
    Our fiscal year 2012 education and training budget represents an 
overall increase from fiscal year 2011. The majority of this increase 
represents investments in curricula, training technology, and 
instructors for critical mission areas such as missile defense, cyber 
and anti-submarine warfare.
    Chairman Webb, Senator Graham, and distinguished members of the 
subcommittee, thank you for the opportunity to speak about the sailors, 
marines, and civilians who comprise the Department of the Navy.
    These are difficult and stressful times for the Sea Services, but 
our people continue to rise to the challenges. We are pleased to report 
that both the Navy and the Marine Corps are recruiting and retaining 
high-quality individuals who are excelling at meeting our global 
commitments whether they are combat operations, or humanitarian 
assistance. It is our distinct honor and privilege to represent and 
advocate for the nearly 630,000 sailors and marines, both Active Duty 
and Reserve, and 190,000 civilian employees who are always prepared to 
respond to whatever our Nation demands.
    This statement provides details of service-specific initiatives and 
various supporting data, but it is important to note the Department of 
the Navy as a whole faces many common challenges and shared solutions 
that we wish to highlight for your attention.
    The Sea Services will continue to face myriad operational 
requirements even as we strive to achieve greater efficiency. The Navy, 
after a decade of declining strength, will level out its active duty 
end strength at 320,300 by fiscal year 2016, 6,800 billets of which the 
Navy plans to move from shore support functions to sea duty to enhance 
our operational readiness. This restructuring includes administrative 
consolidations to eliminate headquarters staffs of a destroyer 
squadron, three submarine squadrons, a strike group, and a carrier air 
wing. Not only will those shifts mean that the important work ashore 
must be performed by fewer sailors, but also that sailors will likely 
spend more time at sea away from their families. The marines will face 
different but equally challenging issues as they take the initial steps 
toward a reduction in end-strength of more than 15,000 while ensuring 
that current missions, particularly in Afghanistan, continue to be 
fully supported.
    All of these changes must occur while both Services continue to 
meet evolving national security threats and complete their many 
assigned missions. At any given time, approximately 75,000 sailors and 
marines are either underway aboard ships or forward-deployed. In fact, 
including those deployed and those actively training/preparing to 
deploy or supporting forward operations, 40 percent of the Navy and 
nearly 33 percent of the marines are involved in maintaining our 
forward presence and supporting contingencies, as we speak.
    While these changes will prove difficult, they must be accomplished 
without sacrificing our highest priorities including the care and the 
recovery of our wounded, ill, and injured servicemembers. The 
Department of the Navy is leading the way in both innovative 
therapeutic treatments and in civilian hiring of our Wounded Warriors. 
The Naval Sea Systems Command has excelled in bringing disabled 
veterans on board; hiring 282 disabled veterans in the past year, with 
a current goal of one new hire a day. Both our Safe Harbor Program and 
our Wounded Warrior Regiments continue to build on lessons learned and 
to improve the support they provide. Along with this top priority, the 
Department of the Navy is engaged in a wide range of other initiatives 
and projects we would like to highlight for you.
    At a time when 1 percent of the Nation has served in uniform, we 
are expanding the number of ROTC units to ensure that the officer ranks 
are open to young men and women from all segments and all regions of 
the country. Our two newest host programs at Arizona State and Rutgers 
Universities reach geographic areas not previously covered, and are at 
large schools with recognized technical and engineering programs. At 
the same time, the anticipated repeal of Don't Ask, Don't Tell is 
providing the opportunity to expand ROTC participation at various Ivy 
League schools. In the area of quality of life for our active duty 
families, we are giving special attention to expanding spouse-
employment opportunities and to supporting our exceptional family 
members. We are also moving forward on the introduction of women in 
submarines. Eighteen female officers have commenced their 15-month 
nuclear training and will report to Ohio-class submarines by the end of 
this year.
    These and many other initiatives are occurring during a period of 
intense activity for the Sea Services. Not since World War II has the 
Department of the Navy been actively engaged in as many areas of the 
globe as we are today. In addition to ongoing efforts in Iraq and 
Afghanistan, we continue to confront pirates in the Indian Ocean and 
drug traffickers in the Caribbean. The recent Japan earthquake and 
tsunami highlighted the Navy's ability to quickly execute humanitarian 
assistance/disaster relief operations while simultaneously evacuating 
over four thousand dependents and civilian employees to various safe 
havens. The events comprising what's been called the ``Arab Spring'' 
have raised the profile and highlighted the capabilities of our 
constant presence in that part of the world. However, equally important 
as winning wars, is preventing wars. We are committed to engaging our 
global partners. DON personnel are executing a variety of humanitarian 
missions, such as Provide Comfort; and are building multi-national 
coalitions to improve maritime safety and security, as in the Pacific 
Partnership, Africa Partnership Station and UNITAS. Our Service men and 
women have responded professionally and bravely to all these 
challenges, but the operating tempo is taking a toll. In the past 12 
months the Navy and Marine Corps have mobilized 11,675 reservists and 
filled 468 Individual Augmentee assignments to keep up with operational 
requirements.
    We must plan for the future while conducting today's missions, and 
anticipating emerging threats. In an exceptionally tight fiscal 
environment, we must find efficiencies and other opportunities to save 
scarce resources. Recognizing that personnel costs are the largest part 
of the Department of the Navy's budget, we are collaborating with OSD 
and our sister Services to review the future role of the Reserve 
component as part of our integrated Total Force.
    An emerging threat that requires new thinking in workforce 
development is cyber warfare. The Department of the Navy is creating 
small and highly capable communities of military and civilian personnel 
to serve in our cyber workforce. Given the unique nature and pace of 
cyber warfare, the Department is exploring innovative approaches to 
hiring and retaining active, Reserve and civilian employees.
    We constantly explore manpower efficiencies and cost savings across 
the Department. Some savings will be difficult, but are needed to 
ensure the Department can focus its limited resources on operational 
priorities. We have reduced the eligibility for and size of bonuses and 
special pays for our servicemembers; have instituted a 2-year salary 
freeze for civilian employees, and have reduced the number of Flag and 
General Officers, and Civilian Executive positions. We are exploring 
options to reduce healthcare cost to the Department without reducing 
benefits or increasing costs to our servicemembers, their families and 
our retirees. Initial study into options for providing medication via 
mail order indicates significant savings can be achieved.
    Finally, let me touch on a topic of great concern throughout the 
Sea Services and the Department of Defense as a whole. Simply put, the 
rate of suicide among our active duty members remains unacceptably 
high. While we know that in a population as large as ours it will be 
impossible to prevent every case, our position remains firm that even a 
single suicide is one too many. The Navy and Marine Corps are focusing 
their efforts on early intervention and in adapting the military 
culture to encourage seeking needed help early. The entire Department 
of Navy leadership team remains committed to finding the most effective 
ways of preventing suicides among our servicemembers.
    Despite the challenges, we can think of no more rewarding job than 
serving our brave sailors and marines. To that end, we wish to thank 
the committee members for their continuous and unwavering commitment to 
the support of our great men and women in our Navy and Marine Corps 
who, each day, unhesitatingly answer the call to duty simply because 
their nation has asked, and it is the right thing to do.
    The following service specific information is provided for the 
committee. We look forward to your questions.
                    a ready and capable global navy
    On a given day, more than 44,000 sailors are deployed and nearly 
half of our 288 ships are underway around the globe. Our Navy has more 
than 14,000 Active and Reserve sailors on the ground and approximately 
10,000 at sea in the Central Command (CENTCOM) Area of Responsibility 
(AOR) supporting joint and coalition operations.
    Overall, the tone of our force remains positive. Our 2010 Navy 
Total Force Survey results revealed sailors are generally satisfied 
with the quality of their leadership, benefits, compensation, and the 
opportunities Navy provides for personal growth and development. With 
our sustained operational tempo, we remain vigilant concerning stress 
on our sailors and their families and continue to carefully monitor the 
health of the force. The results of our 2010 Behavioral Poll indicate 
the majority of sailors are coping with stress in positive ways by 
talking to family members and friends, taking advantage of the 
resources provided by chaplains and Fleet and Family Support Centers, 
and using their chain of command to proactively address concerns. 
Additionally, the majority of sailors report being satisfied with the 
level of support provided by their leadership to help them and their 
families effectively cope with stress, to include both pre-deployment 
and post-deployment assistance.
    Our fiscal year 2012 budget request will enable us to continue to 
meet the operational demands of the fleet and the joint force while 
optimizing personnel readiness. Our active budget request of $29 
billion consists of $27.2 billion for Military Personnel Navy (MPN) and 
$1.85 billion in related Operations and Maintenance Navy (OMN). Our 
Reserve budget request consists of $1.96 billion for Reserve Personnel 
Navy (RPN) and $6.4 million in related Operations and Maintenance Navy 
Reserve (OMNR). Our budget request supports Active end strength of 
325,700 and Reserve end strength of 66,200.
    To address critical manning challenges for our ships, squadrons, 
submarines, and other operational units, our fiscal year 2012 budget 
increases manpower at sea and reduces manpower assigned to our shore 
infrastructure. While we believe this transition is manageable, it will 
present challenges to our ability to maintain sea-shore flow for some 
of our enlisted sailors and sustain manning levels across the force in 
the near-term as we execute these billet shifts.
    Additionally, Navy has placed end strength previously funded by the 
Overseas Contingency Operations (OCO) appropriation into our baseline 
program for fiscal year 2012. We are also projecting a gradual 
reduction of Individual Augmentee (IA) demand in Iraq and Afghanistan 
as ground forces withdraw.
                      navy personnel efficiencies
    In developing our budget request, we reviewed current operations, 
our procurement profile, and readiness requirements. This review 
indicated a requirement to add a total of approximately 6,800 billets 
to the operational forces across the Future Years Defense Program 
(FYDP). This requirement includes the addition of 3,900 billets across 
the FYDP to support new warfighting platforms. In fiscal year 2012 
alone, we are adding billets for a new Riverine Squadron, Littoral 
Combat Ship (LCS) manning, and the E-2D Advanced Hawkeye.
    Our review also indicated a requirement to add approximately 2,900 
billets across the FYDP to support current warfighting platforms. In 
fiscal year 2012, we are adding approximately 1,800 billets to existing 
platforms. For the submarine force, we are adding billets to support 
information technology, nuclear plant operations, and strategic weapons 
management. For the surface force, we are adding billets to support 
Ballistic Missile Defense and returning billets at sea to support 
damage control and firefighting capabilities, safety of navigation, 
preservation, material condition, and underway watch-standing. 
Additionally, this budget adds billets at Regional Maintenance Centers 
for sailors with sea-intensive specialties in response to the Fleet 
Review Panel. These assignments will provide sailors the opportunity to 
further develop critical craftsmen skills, particularly in the areas of 
surface engineering, combat systems, and deck ratings.
    To source these billets without additions to our overall end 
strength, we identified efficiencies in staff structure and shore 
activities, and reduced capacity in areas of the force commensurate 
with anticipated reductions in future demand for ground force enablers. 
This review resulted in a reduction or consolidation of approximately 
8,400 billets in the Fleet, squadron staffs, and shore activities 
across the FYDP. Specific efficiencies will include:

        <bullet> Disestablishment of a destroyer squadron staff, three 
        submarine squadron staffs, a strike group staff, and a carrier 
        air wing staff
        <bullet> Consolidation of the staff of Commander, Second Fleet 
        with U.S. Fleet Forces Command
        <bullet> Horizontal staffing reductions across Navy shore 
        activities
        <bullet> Disestablishment of a helicopter anti-submarine 
        squadron and consolidation of two patrol squadron special 
        projects units and two Fleet air reconnaissance squadrons
        <bullet> Reductions in recruiting, education, and training 
        staffs, bands and NJROTC units.

    Additionally, we reduced both billet seniority and structure in 
selected Restricted Line and Staff Corps communities. This efficiency 
produced additional billets for the operational forces. As part of the 
Office of the Secretary of Defense flag and general officer review, we 
proposed to eliminate 9 and reduce the seniority of 15 flag officer 
billets, affecting 15 percent of our flag officer billet structure.
     building resilience through a comprehensive continuum of care
    Our fiscal year 2012 budget request of $164.2 million for sailor 
and family care supports expansion of our comprehensive continuum of 
care to address the medical, physical, psychological, and family 
readiness needs of sailors and their families. Navy's Operational 
Stress Control Program, Navy Reserve Psychological Health Outreach 
Program, Warrior Transition Program, Returning Warrior Workshop, Navy 
Safe Harbor, and our Medical Home Port Program continue to be the 
critical elements of this continuum.
    Navy's Operational Stress Control (OSC) program addresses the 
psychological health of sailors and their families by encouraging 
sailors to seek help for stress reactions before they become stress 
problems, promoting strong leadership involvement, and increasing 
awareness of support programs and resources. The fiscal year 2012 
budget request supports our continuing focus of helping Navy leaders 
recognize and respond to stress reactions among our sailors.
    The Navy Reserve Psychological Health Outreach program was 
established to improve the psychological health and resiliency of 
Reserve component (RC) sailors and their families. Teams of 
psychological health outreach coordinators and outreach team members 
located at the five regional Reserve commands provide psychological 
health assessments, education, and referrals to mental health 
specialists. In fiscal year 2010, these teams conducted mental health 
assessments for more than 1,600 RC sailors, made outreach calls to over 
2,400 returning RC sailors, and conducted approximately 300 visits to 
Navy Operational Support Centers (NOSCs) around the country, providing 
basic OSC awareness training to more than 23,000 RC sailors and staff 
members.
    The Warrior Transition Program (WTP) provides a place and time for 
sailors serving as Individual Augmentees to decompress and transition 
from the war zone to life back home. Small group discussions 
facilitated by chaplains and medical personnel prepare sailors for 
resumption of family and social obligations, return to civilian 
employment, and reintegration with the community. In fiscal year 2010, 
376 WTP workshops for 7,056 sailors were conducted in Kuwait.
    Returning home impacts the sailor, his or her family, employer, and 
community. Returning Warrior Workshops (RWWs) are reintegration events 
that honor returning warriors and their families for their service, 
provide information about resources available to assist them with 
reintegration, and raise awareness of symptoms associated with combat 
stress. Returning Warrior Workshops fulfill the Yellow Ribbon 
Reintegration Program statutory requirement for an activity 60 days 
post-mobilization that focuses on reconnecting members and their 
families with service providers from the Initial Reintegration Activity 
to ensure that members and their families understand the benefits to 
which they are entitled and resources available to help them overcome 
the challenges of reintegration. RWWs are designed to remove stigma 
that may prevent people from seeking appropriate support during the 
potentially challenging demobilization and reintegration process. More 
than 34 RWWs are planned through fiscal year 2012 to direct sailors and 
their families to the support programs that best address their needs.
    Navy Safe Harbor remains the Navy's lead organization for 
coordinating the non-medical care of wounded, ill, and injured sailors, 
coastguardsmen, and their families. Through its network of Recovery 
Care Coordinators and Non-Medical Care Managers at 12 locations across 
the country, Safe Harbor provides exceptional, individually tailored 
assistance to an enrolled population of over 600 wounded, ill, and 
injured. Over the past year, we have increased our support for 
community reintegration through the Anchor Program, which pairs members 
with volunteer RC sailors in their communities, and initiated the 
Adaptive Athletics Program, designed to support long-term recovery and 
rehabilitation through whole-body training and education. Additionally, 
we signed Memoranda of Agreement with the Departments of Labor and 
Veterans Affairs (VA) to ensure greater access to employment services 
and support programs and provide assistance in navigating the 
transition from military medical care to VA medical care. The fiscal 
year 2012 budget request supports our enduring goal to provide the 
highest quality care to our wounded, ill, and injured.
    We remain committed to ensuring our sailors and their families have 
ready access to high quality health care services. Our Medical Home 
Port Program is a team-based model focused on optimizing the 
relationship between patients, their providers, and the broader 
healthcare team. Mental health providers are embedded within our 
Medical Home Ports to facilitate regular assessment and early mental 
health intervention. This model enables sailors to be treated in the 
settings in which they feel most comfortable and reduces the stigma 
associated with the care they receive. Additionally, improving early 
detection and intervention in the primary care setting reduces the 
demand for time-intensive intervention in our mental health specialty 
clinics.
             suicide prevention: all hands, all of the time
    Our sailors face challenges while deployed and at home making 
suicide prevention an ``all-hands--all of the time'' effort, involving 
the sailor, family members, peers, and leadership. The results of our 
2010 Behavioral Quick Poll indicate the majority of sailors are 
confident in their ability to effectively respond to a sailor who talks 
about suicide and the ability of their commands to support sailors 
seeking help for suicidal thoughts or actions.
    In 2010, we conducted more than 25 unit level suicide prevention 
coordinator briefings and training workshops around the world and 
provided training to more than 200 installation suicide prevention 
coordinators at our first Navy Suicide Prevention Coordinator Training 
Conference. We remain committed to creating an environment in which 
stress and other suicide-related factors can be more openly recognized, 
discussed, and addressed, and where seeking help is a sign of strength. 
This includes maintaining a solid foundation of suicide prevention 
coordinators, refreshing mental health provider skills, providing 
installation first responders with the skills necessary to respond to 
behavioral emergencies, and raising family awareness of suicide risk, 
warning signs, and support resources.
    Navy's calendar year 2010 suicide rate of 10.9 per 100,000 sailors 
represents a decrease from the 2009 suicide rate of 13.3 per 100,000 
sailors. Though we recognize any loss of life to suicide is a tragedy, 
this rate is below the national rate for the same age and gender 
demographic of 18.7 per 100,000 \1\ individuals.
---------------------------------------------------------------------------
    \1\ National Center for Injury Prevention and Control (2007). 
Standardized U.S. suicide rates are adjusted for Navy demographics.
---------------------------------------------------------------------------
                     sexual assault: not in my navy
    The goal of Navy's Sexual Assault Prevention and Response (SAPR) 
program is to eliminate sexual assault by fostering a culture of 
prevention, response, and accountability. This includes comprehensive 
education and training, collaboration with the Naval Safety Center on 
messaging that emphasizes the negative relationship between alcohol and 
sexual assaults, 24/7 response capability for victim support, 
standardized worldwide reporting procedures, and a system of 
accountability that protects all sailors. We have also issued 
additional reporting guidance to commanding officers to ensure the 
first flag officer in their chain of command is aware of every sexual 
assault that occurs, as well as command actions taken to prevent future 
incidents. Although Navy reports of sexual assault increased in fiscal 
year 2010, it is possible that this increase in reporting is the result 
of more sailors coming forward to seek help, providing a preliminary 
indication that our outreach and education efforts are resonating with 
the force. We continue to monitor this trend closely and focus our 
education efforts on prevention and bystander intervention.
    Our fiscal year 2012 budget request supports an emphasis on sexual 
assault prevention while continuing compassionate support for victims. 
This prevention emphasis includes 12 SAPR workshops in fleet 
concentration areas worldwide, execution of a pilot prevention program 
focusing on young sailors, our most at-risk demographic, and most 
importantly, a clear and consistent message from leadership at all 
levels that sexual assault will not be tolerated in the U.S. Navy.
                 shaping manpower for the future force
    Our force stabilization efforts remain focused on maintaining a 
balanced force in terms of seniority, experience, and skills to meet 
Fleet and joint requirements while staying within our authorized end 
strength. We continue to execute the following measures:

        <bullet> ``High-Year Tenure'' separations for sailors at 
        selected pay grades and years of service
        <bullet> ``Perform-to-Serve (PTS)'' reenlistment review process 
        that requires conversion to undermanned specialties or 
        separation in Zone A (0-6 years), Zone B (6-10 years), and Zone 
        C (10-14 years)
        <bullet> One-year time-in-grade retirement waivers for select 
        senior enlisted and officers
        <bullet> Early transition for enlisted, allowing them to 
        separate up to 12 months before the end of their active 
        obligated service
        <bullet> Monthly probationary officer continuation and 
        redesignation boards
        <bullet> Annual performance-based continuation boards for 
        senior enlisted in pay grades E7-E9 with more than 20 years of 
        service

    Due to high retention, we are experiencing an excess of active 
senior Unrestricted Line (URL) officers. To balance the force and 
ensure sufficient senior officers are available at the right time in 
their careers to serve in critical fleet billets, we will conduct in 
July 2011 an active Unrestricted Line Captain and Commander Selective 
Early Retirement Board (SERB). This board will consider URL Captains 
with at least 4 years time in grade and commanders who have twice 
failed to select for promotion to captain. At this time, we project 
approximately 120 URL Captains and 120 URL commanders will be selected 
for early retirement.
    We are projected to meet our fiscal year 2011 authorized Active end 
strength of 328,700 and Reserve end strength of 65,500 by the end of 
the fiscal year.
          recruiting and retaining a highly-skilled workforce
    Last year marked the third consecutive year that we achieved 
officer recruiting goals in the active component and enlisted 
recruiting goals in both the Active and Reserve components. The Reserve 
component achieved 95 percent of our fiscal year 2010 officer goal. 
While we anticipate that we will meet our aggregate recruiting goals 
this year, the increased demand for critical specialties in support of 
operations in Iraq and Afghanistan will present a challenge, 
particularly within the Reserve component.
    The fiscal year 2012 budget requests $292 million for our 
recruiting programs, a reduction of $41.8 million from fiscal year 
2011. These programs include accession incentives, advertising, and 
recruiter support for our active and Reserve recruiters. To offset 
reductions in paid media advertising, we continue to expand our use of 
social media and other technologies to broaden our outreach efforts and 
generate recruiting leads. Navy Recruiting Command has over 135,000 
active followers across 19 prominent social media sites, to include 15 
Facebook communities of interest. However, it is the face-to-face 
contact with recruiters in the field that is the cornerstone of our 
sustained recruiting success in attracting high-quality, diverse 
individuals, particularly as the economy begins to improve. Our budget 
request ensures that the recruiting force remains appropriately sized 
and has the necessary resources to achieve continued success.
    Accession bonuses remain critical to achieving our goals for health 
professionals, nuclear operators, and special warfare/special 
operations. To meet increased demands for these skills, we maintained 
bonus levels for nuclear officers and health professionals and continue 
to offer enlisted accession bonuses to special warfare/special 
operations and other critical ratings. A favorable recruiting 
environment has enabled us to reduce the number of ratings eligible for 
an accession bonus from 67 in 2008 to 6 in 2011. The fiscal year 2012 
active budget request of $76.1 million for accession incentives 
represents a decrease of $39.0 million from fiscal year 2011.
    We continue to closely monitor retention behavior across the force 
and project we will meet our fiscal year 2011 overall officer and 
enlisted retention goals. While we have been able to make selected 
reductions in retention bonuses, sailor retention behavior indicates we 
must continue to apply bonus programs to critical skill areas that 
require significant investments in training and education and are less 
responsive to changes in the economic environment.
                          recruiting--enlisted
    In this fiscal year to date, we have met or exceeded our Active and 
Reserve recruiting goals each month. We continue to exceed Department 
of Defense (DOD) quality standards in all recruit categories as shown 
in Table 1.

                          TABLE 1. ACTIVE AND RESERVE COMPONENT ACCESSIONS AND QUALITY
----------------------------------------------------------------------------------------------------------------
                                                 Fiscal Year 2010              FYTD 2011  (as of 30 April 2011)
                                         -----------------------------------------------------------------------
                                           Attained      Goal       Percent    Attained      Goal       Percent
----------------------------------------------------------------------------------------------------------------
Total Active............................      34,180      34,140       100.1      18,482      18,453       100.2
Total Reserve...........................       6,669       6,654       100.2       4,685       4,659       100.6
HSDG \1\................................      35,995  95 percent        97.4      20,006  95 percent        98.5
TSC \2\ I-IIIA..........................      30,653  70 percent        83.0      17,818  75 percent       87.8
----------------------------------------------------------------------------------------------------------------
\1\ HSDG--High School Diploma Graduate; DOD standard is 90 percent; Navy standard is 95 percent.
\2\ TSC--Test Score Category (Aptitude Level); DOD standard is 60 percent; Navy standard is 75 percent.

    Last year, we were successful in meeting our recruiting goals for 
nuclear and special warfare/special operations ratings and are well-
positioned to meet this year's targets as shown in Table 2. These 
ratings remain our top enlisted recruiting priorities.

                             TABLE 2. NUCLEAR AND SPECIAL WARFARE/SPECIAL OPERATIONS
----------------------------------------------------------------------------------------------------------------
                                                 Fiscal Year 2010              FYTD 2011  (as of 30 April 2011)
                                         -----------------------------------------------------------------------
                                           Attained      Goal       Percent    Attained      Goal       Percent
----------------------------------------------------------------------------------------------------------------
Nuclear Field...........................       2,981       2,981       100.0       1,603       1,601       100.1
SPECWAR/SPECOPS.........................       2,153       2,144       100.4       1,034       1,022       101.2
----------------------------------------------------------------------------------------------------------------

                          recruiting--officer
    We achieved our general and medical officer recruiting goals in the 
active component, but fell short of meeting these goals in the Reserve 
component as shown in Table 3. Although we accessed more Reserve 
officers in fiscal year 2010 than fiscal year 2009, a 13 percent 
increase in fiscal year 2011 goals and high officer retention in the 
Active component will continue to challenge Reserve officer recruiting.

                                 TABLE 3. ACTIVE AND RESERVE OFFICER ACCESSIONS
----------------------------------------------------------------------------------------------------------------
                                                 Fiscal Year 2010              FYTD 2011  (as of 30 April 2011)
                                         -----------------------------------------------------------------------
                                           Attained      Goal       Percent    Attained      Goal       Percent
----------------------------------------------------------------------------------------------------------------
Active General Officer \1\..............       1,538       1,518       101.3       1,268       1,359        93.3
Reserve General Officer \1\.............       1,171       1,213        96.5         629       1,414        44.5
Active Medical Officer \2\..............         876         866       101.3         570         843        67.6
Reserve Medical Officer \2\.............         349         387        90.2         203         395        51.4
----------------------------------------------------------------------------------------------------------------
\1\ Does not include accessions from the U.S. Naval Academy or Naval Reserve Officer Training Corps.
\2\ Medical Officer includes Medical Corps, Nurse Corps, Dental Corps, and Medical Service Corps.

    Health care professionals remain a recruiting priority through 
fiscal year 2012, especially within the Reserve component where several 
specialties are undermanned. To address shortfalls among Reserve health 
professionals, the fiscal year 2012 budget request supports an 
affiliation bonus for prior service medical department officers, as 
well as an accession bonus for direct commission nurse corps officers 
with specific qualifications. Additionally, certain health 
professionals are eligible for special pays, school loan repayment, and 
a monthly stipend while pursuing a critical wartime specialty.
                          retention--enlisted
    We continue to experience high retention across the force as shown 
in Table 4.

                                 TABLE 4. FISCAL YEAR 2010 ACTIVE NAVY RETENTION
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal Year 2010 Achievement
                                                                 -----------------------------------------------
                      Active Navy Retention                                                         Fiscal Year
                                                                    Reenlisted       Benchmark         2010
                                                                                                     (Percent)
----------------------------------------------------------------------------------------------------------------
Zone A (0-6 yrs)................................................          16,930          12,600             134
Zone B (6-10 yrs)...............................................          10,845           8,300             131
Zone C (10-14 yrs)..............................................           7,750           5,800             134
----------------------------------------------------------------------------------------------------------------

    Along with current economic conditions, our new policies are 
encouraging longer-term career behavior. Sailors are committing sooner 
to stay for longer periods of time. In addition, we are experiencing 
higher retention of female servicemembers, especially within our 
critical technical and warfighting skilled areas. Although this 
behavior affords Navy increased predictability of future personnel 
readiness, higher retention also contributes to increasing competition 
for reenlistment opportunities.
    Attrition, defined as sailors who are discharged prior to the end 
of their contract, declined for both Active and Reserve. For active 
duty in fiscal year 2010, we saw declines in misconduct-related 
discharges by 10 percent and training-related discharges by 12 percent 
from the previous year. Reserve enlisted attrition rates also continue 
to trend lower than the historical average of 28 percent. This is 
evidence of the higher quality force we are recruiting.
    We remain challenged in meeting nuclear retention goals as a result 
of what we assess to be a growing demand for Navy's highly trained 
nuclear-qualified sailors in the civilian industrial base. We remain 
focused on retaining sailors with critical skills in high demand in the 
civilian sector, as well as sailors in specialties that continue to 
experience high operational tempo in support of OCO, such as special 
warfare/special operations and independent duty corpsmen. Our Selective 
Reenlistment Bonus (SRB) programs remain an important tool to retain 
these highly-skilled sailors.
    We continue to closely monitor retention behavior and adjust SRB 
levels in response to observed behavior. Over the past 16 months, we 
adjusted SRB levels five times, reducing the number of skill areas 
eligible for SRB by 31 percent compared to fiscal year 2010, and 
adjusting or maintaining existing bonus levels for those skills 
eligible for SRB. In fiscal year 2011, only 34 ratings of 84 receive 
SRB, and the pool of eligible sailors is 6.5 percent of our active 
enlisted force. This represents a reduction of over 54 percent in the 
pool of SRB eligible sailors from fiscal year 2009. We continue to 
structure our award plan to target high-demand skill sets that remain 
relatively insulated from changes in the economic environment, to 
include special warfare/special operations, intelligence, medical, 
cryptology, and nuclear ratings. Our fiscal year 2012 active budget 
request includes $95.9 million for new SRB contracts, a reduction of 
$35.7 million from fiscal year 2011.
    The SRB budget for Selected Reserve sailors was reduced by 31 
percent in fiscal year 2011, and further reduced by another 10 percent 
in our fiscal year 2012 budget request, reflecting a total decrease of 
$875,000. This reduction is the result of a realignment of resources 
within the Navy Reserve Comprehensive Bonus Strategy to target RC 
officers and enlisted personnel in our most critical specialties.
                           retention--officer
    Overall, Active and Reserve officer retention rates continue to 
increase in part due to targeted incentive pays, improved mentoring, 
more flexible career options, and increased emphasis on life-work 
initiatives. Female unrestricted line (URL) retention past the initial 
minimum service requirement (MSR) has increased in the last 4 years in 
both the surface warfare (from 19 percent for Year Group 2001 to 33 
percent for Year Group 2004) and aviation communities (from 14 percent 
for Year Group 1998 to 27 percent for Year Group 2001).\2\ We continue 
our efforts to improve the health of Selected Reserve (SELRES) officer 
communities by 2014 through initiatives such as targeted officer 
affiliation and retention bonuses, increased accession goals, and 
Continuum of Service programs focused on ``Recruit Once, Retain for 
Life.''
---------------------------------------------------------------------------
    \2\ Because Minimum Service Requirement (MSR) is different for 
Surface Warfare (5 years) and Aviation (7 years), two comparable year 
groups (i.e., includes women who are past their initial service 
obligation) were examined to more accurately capture overall URL female 
retention.
---------------------------------------------------------------------------
    We remain focused on junior officer retention, especially within 
select communities where we are challenged to meet our retention goals. 
Retention of junior officers for operational department head tours is a 
critical metric for monitoring the health of these communities. 
Although the overall loss rate for junior officers increased slightly 
from fiscal year 2009 to fiscal year 2010, the surface and submarine 
communities met their retention goals for the second year in a row.
    After more than 10 years of war, we are seeing increased stress on 
our Naval Special Warfare community. Sustained operational tempo, 
decreased dwell time, and deployment unpredictability have contributed 
to a decrease in junior officer retention, particularly at the 
lieutenant commander (O-4) level. Mentorship and increased access to 
family support programs and operational stress control resources remain 
our primary tools to mitigate the effects of stress on these sailors 
and their families. Additionally, our fiscal year 2012 budget request 
includes $7.4 million for targeted incentive pays to retain these 
critical officers.
    We have experienced slight improvements in medical community loss 
rates trends, largely due to competitive incentives and bonuses. Select 
subspecialties continue to require attention, to include dentistry, 
clinical psychology, social work, physician assistants, general 
surgery, preventive medicine, family medicine, and nurse anesthetists. 
Our fiscal year 2012 budget request includes $253.7 million for special 
and incentive pays to retain these critical medical professionals.
    We continue to conduct comprehensive reviews of many of our special 
and incentive pay and bonus programs to adjust bonus levels in response 
to retention behavior. In addition to adjustments to enlisted Special 
Duty Assignment Pay (SDAP) and SRB, we reduced officer bonuses in the 
aviation, surface warfare, and intelligence communities over the last 
year. Additionally, we restructured our Submarine Support Incentive Pay 
program to more efficiently address shortfalls at specific career 
points. We anticipate further reductions to retention bonuses for 
selected officer communities in fiscal year 2011 in response to strong 
retention behavior. As we execute these actions, we will continue to 
monitor retention rates and adjust our incentive programs as necessary.
         learning and development: navy's asymmetric advantage
    Education and training are strategic investments, enabling us to 
develop a highly-skilled force to meet the demands of the Maritime 
Strategy and the joint force. Our fiscal year 2012 education and 
training budget of $1.5 billion supports increased investments in 
curricula, training technology, and instructors for critical mission 
areas such as missile defense, cyber, and anti-submarine warfare. 
Additionally, we continue to focus training investments in LCS to 
include the Virtual Ship Centric Training Strategy. Initiated in 2010, 
this strategy includes a series of seaframe variant unique and common 
simulators combined with actual seaframes to address multiple training 
needs for LCS. Simulators continue to present significant opportunities 
for increasing training capability, capacity, and effectiveness across 
the fleet, while minimizing stress on equipment and risk to the safety 
of our sailors. The fiscal year 2012 budget request supports continued 
investments in simulator technologies.
    We remain committed to the professional development of our enlisted 
and officers. Navy offers several college-focused incentives, including 
the Navy College Fund, the Navy College Program for Afloat College 
Education (NCPACE), and tuition assistance (TA). We continue to use 
management controls to remain within our fiscal authority. As part of 
the transformation of our Voluntary Education Program, we established 
the Virtual Education Center (VEC) in July 2010. Prior to the VEC, 
requests for TA were processed at local Navy College Offices around the 
country. The VEC provides centralized management of TA requests, 
sailors' academic transcripts, and virtual counseling. This 
transformation has decreased paperwork and processing time while 
increasing the accessibility of educational opportunities for sailors.
    To guide sailors in their professional development, we created 
learning and development roadmaps that provide detailed information 
about required training, education, qualifications, and assignments 
throughout their careers. Last year, we completed all 86 enlisted 
roadmaps, and officer roadmaps for 4 subspecialties: financial 
management, operations research, education and training management, and 
foreign area officer. We continue to leverage civilian credentialing 
programs through Navy Credentialing Opportunities Online, bolstering 
the professional qualifications of sailors in all ratings and 
increasing sailor equity in their professional advancement.
    To develop leaders who are strategically-minded, capable of 
critical thinking, and adept in naval and joint warfare, Navy has a 
progressive continuum of professional military education for E1 to O9. 
Junior enlisted personnel are able to pursue professional military 
education through distance learning while senior enlisted personnel are 
afforded the opportunity to attend the Senior Enlisted Academy (SEA) 
which graduated 455 senior enlisted sailors in fiscal year 2010.
    Officers have the opportunity to pursue advanced education through 
the Naval Postgraduate School (NPS), the Naval War College (NWC), other 
service and joint colleges, and several Navy fellowship and scholarship 
programs. For the 2010-2011 academic year, more than 1,700 Active and 
Reserve officers (resident and non-resident) are enrolled in NPS 
graduate degree programs, including 245 international students from 46 
countries. We expect that about 304 officers will complete Joint 
Professional Military Education (JPME) Phase I and 235 officers JPME 
Phase II through in-resident courses in 2011. More than 3,000 non-
resident opportunities to receive joint education are planned for 
fiscal year 2011 through courses delivered in conjunction with graduate 
degree programs at NPS, Fleet seminar programs offered in 20 fleet 
concentration areas, and electronically via the web or CD-ROM. We 
continue to increase opportunities for Reserve officers to pursue JPME 
through Fleet seminars and Advanced Joint Professional Military 
Education (AJPME), a 40-week blended academic program to obtain JPME 
Phase II credit. These non-resident opportunities provide the 
flexibility necessary for Active and Reserve officers to balance joint 
education requirements with personal and operational demands.
    Cultural, historical, and linguistic expertise remain essential to 
fostering strong relationships with our global partners and enhancing 
our ability to effectively execute missions in multinational 
environments. In fiscal year 2010, Navy's Language, Regional Expertise, 
and Culture (LREC) program provided language and cultural training to 
over 100,000 sailors and 36 flag officers heading to overseas 
assignments. In addition, we recently expanded the Navy Reserve 
Language Culture and Pilot Program to include all Selected Reserve 
personnel. The fiscal year 2012 budget request supports continuing 
efforts to enhance foreign language capabilities and regional expertise 
to include $24.5 million in fiscal year 2012 and $134.9 million across 
the FYDP for Navy Foreign Language Proficiency Bonuses to incentivize 
proficiency in languages critical to Navy's missions. Our request also 
supports expansion of opportunities for overseas study, language and 
cultural immersion, and professional exchanges with foreign navies for 
Naval Academy midshipmen and full implementation of an in-country 
language immersion training program for Foreign Area Officers. 
Additionally, we will continue to participate in Maritime Security 
Cooperation activities and support the joint force in Afghanistan and 
Pakistan with enhanced language and cultural capabilities through the 
AFPAK Hands Program.
                     competing for the best talent
    We continue our efforts to attract, recruit, and retain the 
Nation's best talent to meet Navy's mission through recognition of Navy 
as a Top 50 organization. Top 50 organizations encourage innovation and 
focus on performance, while taking care of their people through 
programs and policies that support a culture of trust, respect, and 
collaboration. In December 2010, Navy received several awards for 
Business Excellence in Workplace Flexibility from the Alfred P. Sloan 
Foundation, recognizing initiatives introduced in nine different 
organizations across the Navy to promote flexible work options while 
achieving business goals. For the second year in a row, Navy received a 
prestigious Workforce Management Magazine Optimas Award for its ``Navy 
for Moms'' program, becoming the first organization to have won back-
to-back awards in the 20-year history of this award and one of only 
eight organizations to have received an Optimas Award twice.
    Navy continues to receive recognition for its high quality training 
and development programs. In the 2 years since Navy began participating 
in the American Society for Training and Development (ASTD) awards 
program, no organization has won more awards for ``Excellence in 
Practice.'' Most recently, Navy was honored by Training Magazine as one 
of the premiere training organizations in the country, ranking seventh 
out of 125 organizations that were recognized. We remain committed to 
seeking out best practices across industry and benchmarking our 
programs against the best in the Nation.
    We continue to compete for the best talent in our Nation's colleges 
and universities. The Naval Reserve Officers Training Corps (NROTC) 
program has 60 units located at 73 host institutions with 86 cross-town 
institution agreements. Of the total 159 NROTC affiliated colleges and 
universities, 16 schools rank in the top 25 of U.S. News and World 
Report's Best National Universities of 2011, including three Ivy League 
affiliations. While the NROTC program has more than sufficient capacity 
for our current requirements, the Navy recognizes the value of 
engagement and presence on the campuses of American's elite colleges 
and universities and appreciates the high quality educational 
experience provided to our future military leaders at these 
institutions.
    We recognize the value of diverse ideas, perspectives, and 
experiences to remaining competitive in an increasingly global 
environment, and our Navy draws strength and innovation from this 
diversity. NROTC made significant increases in diversity enrollment 
over the past 2 years. As a result, the NROTC class of 2014 joins the 
U.S. Naval Academy class of 2014 as the most diverse classes in our 
history. In recognition of our efforts, Navy received DiversityInc's 
Top Federal Agency for Diversity Award, ranking number 5 of 30 agencies 
for excellence in leadership commitment, human capital, communications 
and supplier diversity. Additionally, Navy's Strategic Diversity 
Working Group (SDWG) was recognized as one of the Nation's top ten 
national Diversity Councils by the Association of Diversity Councils.
    Our internal survey data show that organizational support of life-
work integration and the availability of flexible career options are 
key to attracting, recruiting, and retaining the talent of a new 
generation entering the workplace. Our sailors and their families 
continue to benefit from comprehensive parental support programs, to 
include paternity and adoption leave, extended operational deferment 
for new mothers, and expanded childcare. We thank Congress for their 
support of these programs. We continue to assess innovative ways to 
support life-work integration while meeting mission requirements 
through initiatives such as Career Intermission, telework, and other 
flexible work options.
                          women in submarines
    This past year, the Secretary of the Navy and Chief of Naval 
Operations authorized the integration of female officers into the 
submarine force. This will enable our submarine force to leverage the 
tremendous talent and potential of the women serving in our Navy. For 
the first phase of integration, female officers will be assigned to two 
ballistic missile (SSBN) submarines and two guided missile (SSGN) 
submarines, which have the space to accommodate female officers without 
structural modifications. The first 18 female submarine officers 
commenced the standard 15-month nuclear and submarine training pipeline 
in 2010, and will begin arriving at their submarines at the end of this 
year. The plan also integrates female supply corps officers onto SSBNs 
and SSGNs at the department head level.
    We continue to examine the cost effectiveness of design 
modifications to all classes of submarines to accommodate mixed-gender 
crews without adversely impacting habitability standards or operational 
capabilities, as well as the manning policies necessary to maintain a 
stable and sustainable population of women in the submarine force.
                    repeal of don't ask, don't tell
    Following the President's signature of the statute authorizing the 
repeal of section 654 of Title 10, U.S.C., commonly referred to as 
``Don't Ask, Don't Tell'' (DADT), Navy is actively preparing for final 
repeal. We will carry out the implementation process in a prompt, 
thorough, and deliberate manner. We are preparing the necessary 
policies and regulations to implement this change in the law and will 
provide training to sailors and leaders at all levels. The central 
message of this training will emphasize the principles of leadership, 
professionalism, discipline, and respect. Training will be provided 
using a tiered approach to ensure all personnel receive the appropriate 
level of training:

        <bullet> Tier 1 training will be provided to experts who may 
        deal frequently with repeal issues, such as chaplains, judge 
        advocates, military law enforcement personnel, fleet and family 
        support center personnel, personnel support professionals, 
        equal opportunity advisors, recruiters, senior human resource 
        officers, and public affairs officers. Community leaders within 
        each of these disciplines will develop and deliver the required 
        training.
        <bullet> Tier 2 training will be provided to senior leaders and 
        command leadership.
        <bullet> Tier 3 training will be provided to Active and Reserve 
        sailors, Navy civilians who supervise military personnel, and 
        Department of Defense contractors, as required by their 
        position and responsibilities.

    We are providing regular updates to the Office of the Secretary of 
Defense as we execute this training.
                          continuum of service
    We continue to strive for a continuum of service approach to 
retention. Our goal for the continuum of service initiative is to 
achieve a seamless transition between the Active and Reserve 
components, and the civilian workforce, to meet mission requirements 
and encourage a lifetime of service. We are making progress in 
addressing the barriers impeding a quick and efficient transition 
between components to meet changing workforce demands. Since the 
establishment of the Career Transition Office (CTO) in May 2009, 
average transition time has decreased from more than 30 days to 5 days. 
We recently integrated our Fleet Rating Identification Engine (Fleet 
RIDE) application, a tool that provides a comprehensive assessment of 
sailors' qualifications for Navy enlisted ratings, with our Perform to 
Serve initiative. This further facilitates the Reserve affiliation 
process by providing each Active component sailor with information 
about Reserve opportunities and the ability to apply for a Reserve 
component quota. Additionally, we established an Intermediate Stop (I-
Stop) to enable transitioning sailors to report directly to their 
gaining Navy Operational Support Center once they have made the 
decision to transition from active duty to the Reserve component. 
Finally, we continue to work towards implementing a Total Force 
Integrated Pay and Personnel System. Our goal remains to transition 
sailors between the Active and Reserve components within 72 hours.
                               conclusion
    Our mission remains to attract, recruit, develop, assign, and 
retain a highly-skilled workforce for the Navy. We continue to:

        <bullet> Align the personal and professional goals of our 
        workforce with the needs of the joint force, while ensuring the 
        welfare of our sailors and their families.
        <bullet> Deliver a high-performing, competency-based, and 
        mission-focused force to meet the full spectrum of joint 
        operations.
        <bullet> Provide the right person with the right skills at the 
        right time at the best value to the joint force.

    Our fiscal year 2012 Active and Reserve budget requests support the 
critical programs that will ensure continued success in delivering the 
human component of the Maritime Strategy and key capabilities for the 
joint force.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              your marines
    Americans expect their marines to be ready to respond when our 
country is threatened; to arrive on the scene anywhere in the world 
with minimal notice; and to fight and win our Nation's battles. To this 
end, the individual marine is the Corps' most sacred resource and, as 
Deputy Commandant for Manpower & Reserve Affairs, marines are my 
mission.
    The young men and women who fill our ranks today recognize the 
global, protracted, and lethal nature of the challenges facing our 
Nation, and their dedicated service and sacrifice rival that of any 
generation preceding them. Marines and their families know that their 
sacrifices are making a difference, that they are part of something 
much larger than themselves, and that their Nation stands behind them.
                              end strength
    In fiscal year 2010, the Marine Corps achieved both its accession 
and retention missions and maintained its 202,100 Active component end 
strength. For fiscal year 2011, we continue with this success, meeting 
all recruiting and retention missions, and the quality of our force has 
never been higher.
    Even with our retention and overall end strength successes, the 
Marine Corps must continue to shape our force to meet continuing 
requirements, fill critical military occupational specialties (MOSs), 
and retain vital leadership with combat experience. Bonuses remain 
critical to this effort, allowing the Marine Corps to fill hard to 
recruit positions, such as crypto linguists and reconnaissance. 
Enlistment bonuses also allow us to ship new recruits at critical times 
to balance recruit loads at the depots and meet school seat 
requirements. Finally, it is important to note that only 8 percent of 
new recruits receive an enlistment bonus, and the Marine Corps budget 
for enlistment bonuses has decreased from $75 million in fiscal year 
2008 to $14.7 million in fiscal year 2012.
    Selective Reenlistment Bonuses (SRBs) similarly allow us to shape 
our career force. SRBs target critical MOSs and allow us to laterally 
move marines to these MOSs. There are currently 14 of 211 occupational 
specialties where the on-hand number of marines is less than 90 percent 
of what is required. It is critical that we meet our first-term 
retention goals. It should be noted that our SRB funding has decreased 
from $468 million in fiscal year 2009 to $108.6 million in fiscal year 
2012.
    Your Marine Corps already provides the ``best value'' for the 
defense dollar. At any given time, approximately 30,000 marines are 
forward-deployed in operations supporting our Nation's defense.
                          marine corps reserve
    Our Reserves continue to make essential contributions to our Total 
Force efforts in Overseas Contingency Operations. Over the last few 
years, as we concentrated on building our Active component to 202,100, 
we fell short of our Reserve component authorized end strength of 
39,600. In 2009 and 2010, we refocused our recruiting and retention 
efforts toward achieving this end strength. These efforts included 
increasing our Reserve non-prior service recruiting mission, lowering 
our attrition, doubling our incentives budget from $12 million to $24 
million, and expanding the population eligible to receive incentives. 
As a result, we achieved over 99 percent of our authorized end strength 
in fiscal year 2010. Though our incentives budget has been reduced to 
$8.7 million in fiscal year 2011, we project an end strength of 39,589, 
less than 1 percent below our authorized level.
    Our focus has now shifted to targeting our incentives to critically 
short specialties and grades within units identified for future 
deployments in support of operational requirements.
    Company grade officer recruiting remains our most challenging area. 
Historically, our Active component has been the exclusive source of 
senior lieutenants and captains for the Marine Corps Reserve, and it 
remains a center of gravity in meeting our company grade requirements. 
Through our transition assistance and educational outreach programs, we 
continue to ensure that each transitioning Active component marine is 
educated on opportunities to continue their service in the Marine Corps 
Reserve.
    To compliment the Active-to-Reserve component company grade 
accessions, we continue to offer three recently implemented Reserve 
commissioning initiatives: the Reserve Enlisted Commissioning Program; 
the Meritorious Commissioning Program--Reserve; and the Officer 
Candidate Course--Reserve (OCC-R). Since 2004, these 3 programs have 
produced a total of 379 lieutenants for the Marine Corps Reserve. The 
OCC-R program has been the most successful of the three Reserve 
commissioning initiatives. It focuses on ground billets with an 
emphasis on ground combat and combat service support within specific 
Reserve units that are scheduled for mobilization. The Reserve Officer 
Commissioning Programs and affiliation bonuses are keys to meeting 
grade strength requirements in critical billets by the end of fiscal 
year 2015. We are also looking at increasing the ceiling for officer 
affiliation bonuses to attract officers to chronically hard-to-fill 
units.
    Altogether, these programs, combined with our prior service 
recruiting efforts, should provide for at least 90 percent manning of 
critical combat arms and engineer company grade officer billets by 
September 30, 2015.
                               recruiting
    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the direction 
of the Marine Corps Recruiting Command. Operationally, this provides us 
with tremendous flexibility and unity of command in order to annually 
meet our objectives.
    Our recruiters continue to make their recruiting goals in all areas 
in support of our Total Force. Our focus is always to recruit quality 
men and women with the right character, commitment, and drive. To meet 
the challenges in today's recruiting environment, it is imperative that 
we maintain our high standards both for our recruiters and those who 
volunteer to serve in our Corps. We also remain mindful that the Marine 
Corps should reflect the diverse face of our Nation and be 
representative of those we serve.
    In fiscal year 2010, we achieved over 100 percent of our enlisted 
and officer recruiting goals for both the Active and Reserve 
components. We accessed over 99 percent Tier 1 high school diploma 
graduates and over 72 percent in the upper Mental Groups of I-IIIAs, 
both exceeding Department of Defense quality standards.
    In fiscal year 2011, we will again meet our annual recruiting 
mission, to include all quality goals. Additionally, we expect to have 
a strong population of qualified individuals ready to ship to recruit 
training as we enter fiscal year 2012.
    Filling company grade officer billets for our Selected Marine Corps 
Reserve units is traditionally our greatest challenge. As mentioned 
above, the OCC-R has proven to be the most successful of our Reserve 
officer recruiting programs.
    We thank you for the generous support you have provided to us and 
look forward to working with you to ensure success in the future.
                               retention
    Retention complements recruiting as one of the vital elements of 
building and sustaining the Marine Corps. For enlisted retention, we 
seek to retain the best and brightest marines in both our first-term 
and career force to provide proven technical skills, experience, and 
noncommissioned officer and staff noncommissioned officer leadership 
needed to meet our demanding mission.
    In fiscal year 2010, the Marine Corps reenlisted 14,265 marines. 
This achievement represented a 28 percent retention rate among the 
eligible First-Term Alignment Plan (FTAP) population compared to a 
historical average of 24 percent. We also achieved an unprecedented 79 
percent retention rate among the career Subsequent Term Alignment Plan 
(STAP) population, the highest ever, while maintaining all quality 
standards.
    For fiscal year 2011, retention achievement remains on track and 
exceptionally strong. As of April 12, 2011, we have achieved 
approximately 96 percent of our FTAP and 112 percent of our STAP goals, 
respectively.
    Our continuing retention success remains largely attributable to 
two important, enduring themes. First, marines are truly motivated to 
``stay marine'' because they are doing what they signed up to do--
fighting for and protecting our Nation. Second, they understand our 
service culture is one that rewards proven performance and takes care 
of its own.
                               diversity
    The Marine Corps is committed to making concerted efforts to 
attract, mentor and retain the most talented men and women who bring a 
diversity of background, culture, and skill in service to our Nation. 
Our diversity effort is structured with the understanding that the 
objective of diversity is not merely to achieve representational 
parity, but to raise total capability through leveraging the strengths 
and talents of each and every marine. The success of our pioneering 
Female Engagement Team program in Afghanistan, which is an offshoot of 
a similar effort we employed in Iraq, is one way that the Marine Corps 
utilizes diversity within our ranks for operational benefit.
    We are currently developing a comprehensive, Service-wide strategy 
on diversity, an effort facilitated through our standing Diversity 
Review Board and a Diversity Executive Steering Committee chartered to 
establish the foundations for diversity success in the Total Force. The 
Marine Corps has established minority officer recruiting and mentoring 
as the highest priority in our recruiting efforts. Along with the other 
Services, we have provided timely input to the congressionally 
sanctioned Military Leadership Diversity Commission and look forward to 
release of the Commission's final report scheduled for March 2011.
            keeping faith with marines, sailors and families
    Just as our marines are required to be in a constant state of 
readiness, so must our families. Our Nation has been at war for a 
decade, placing unprecedented burdens on marines, sailors, families, 
wounded warriors and the dependents of the fallen. We know that in 
order to develop, maintain, and sustain their personal and family 
readiness and resiliency, we must provide innovative programs and 
services that are timely and relevant. Our approach to caring for 
marines, families and relatives of our fallen marines is based on our 
unwavering loyalty. This concept also applies to single and married 
marines, families, wounded warriors and marines transitioning from the 
Service.
    In his 2010 Planning Guidance, our Commandant directed us to ``look 
across the entire institution and identify areas that need improvement 
and effect positive change.'' Specifically, he directed us to evaluate 
all of our family readiness programs to determine which require 
enhancement and/or expansion and which can be streamlined to reduce 
redundancy. This is not just about efficiencies; it is also about 
effectiveness. As part of that mandate, we have been directed to 
continue our behavioral health program integration, institutionalize 
resiliency training, and reorganize and improve our Transition 
Assistance Management Program.
Family Readiness
    In 2010, the Marine Corps increased baseline funding for family 
support programs by $110 million to ensure an appropriate wartime 
footing. Programs benefitting from this measure include: Unit, Personal 
and Family Readiness Program; Marine Corps Family Team Building 
Program; Exceptional Family Member Program; School Liaison Program; and 
other miscellaneous Marine Corps Community Services Programs supporting 
remote and isolated commands, deployed marines, and independent duty 
marines and families. As we continue the process of providing marines 
and their families with the most effective and relevant services, we 
are assessing all of our family support programs, identifying gaps and 
overlapping or duplicative efforts, and looking for opportunities to 
develop partnership programs and share resources with other agencies.
    Some of our notable accomplishments include the following:

        <bullet> Established over 400 full-time civilian Family 
        Readiness Officers to facilitate family contact and provide 
        critical information and referral services to support the 
        resiliency needs of marines and their families.
        <bullet> Developed an inventory of Deployed Support and 
        LifeSkills Education and Training courses to address the 
        challenges of military, personal, and family life.
        <bullet> Transformed the Exceptional Family Member Program to 
        ensure that enrolled family members are provided a continuum of 
        care, while providing the sponsor the opportunity for a 
        successful career.
        <bullet> Established school liaisons that form strong 
        partnerships with schools and other supporting agencies to 
        improve access and availability to quality education.
        <bullet> Implemented program and infrastructure enhancements at 
        remote and isolated commands, including investments in child 
        care, single marine programming, fitness and recreation 
        centers, and recreational equipment to support deployed 
        marines.
        <bullet> Increased Marine Corps child care capability from 64 
        percent to 73 percent with projection to meet 80 percent of 
        potential need by fiscal year 2012.
        <bullet> Partnered with the Marine Corps Recruiting Command 
        (MCRC) to conduct the first online survey of all MCRC personnel 
        and their spouses in order to assess their views on key quality 
        of life issues (financial, housing, health care, communication, 
        and services) and to determine any perceived gaps in support.
Deployed and Warrior Support
    Deployed support is one of the most important services we provide. 
Our Exchange, Recreation and Fitness, and Communication services not 
only boost and maintain morale but also help to reduce mission-related 
stress.

        <bullet> Exchange. Ongoing missions in Afghanistan include the 
        operation of two Direct Operation Exchanges at Camps 
        Leatherneck and Dwyer, and one Tactical Field Exchange at Camp 
        Delaram II.
        <bullet> Recreation and Fitness. We assist in providing sports, 
        recreational, and fitness equipment to units throughout Helmand 
        Province with the joint support of USFOR-AJI. This 
        transportable equipment includes sports/recreation cooler kits 
        filled with sports gear and board games, electronic game kits, 
        Theater-in-a-Box kits, and fitness equipment for use in austere 
        environments.
        <bullet> Communication. Morale satellite services are available 
        to forward operating bases, combat outposts, and other austere 
        locations. We have delivered 13 satellite communications 
        systems to units in Afghanistan. Each system has two phones 
        that provide 6,000 free minutes per month and five laptops that 
        allow internet browsing, social networking and chat/video 
        capabilities to deployed marines.
                          family care programs
Exceptional Family Member Program (EFMP)
    The most tender of our families, those enrolled in the Marine Corps 
EFMP, have strongly endorsed the improvements we have made to their 
level of support and to providing a continuum of care. Year after year 
since our program expansion, we have gained the trust of our families. 
This is demonstrated through increasing enrollments and reduction in 
issues experienced by families relocating to new duty stations. I am 
proud to state that DOD and the other Services recognize our EFMP as a 
premier, full-service program based on the quality and efficiency of 
program operations.
    Our EFMP sponsors will always be an advocate for their special 
needs family member, but when families need legal help, our EFMP 
attorneys are ready to assist with obtaining benefits and services 
under Federal and State education and disability laws, special needs 
trusts, landlord-tenant issues, and other legal areas.
    In 2001, EFMP had 4,500 enrolled family members. This number has 
grown to over 10,000 today. We believe our enrollments will continue to 
increase.
    In the past year, we have taken multiple actions to transform the 
program, including:

        <bullet> Utilizing Family Case Workers to support families 
        during relocation, deployments, and life events and to assist 
        families with gaining access to medical, educational, and 
        financial support services.
        <bullet> Establishing installation-level Training Education 
        Outreach specialists to provide training and support for 
        families and the programs that support them.
        <bullet> Utilizing a Continuation on Location policy that 
        ensures the assignment and relocation process is sensitive to 
        EFMP family needs and meets statutory stabilization 
        requirements.

    In addition, the Marine Corps continues to underwrite the cost of 
up to 40 hours of short-term respite care per month for enrolled 
families. To date, we have provided more than 450,000 hours of respite 
care. Since the cost is underwritten by the Marine Corps, families are 
able to use their TRICARE Extended Care Health Option benefit for 
needed therapies and equipment. Nevertheless, challenges remain, such 
as:

        <bullet> the lack of portability of services for adults with 
        autism;
        <bullet> the inability of military families to gain access to 
        Medicaid;
        <bullet> the difficulty in accessing therapeutic and mental 
        health support, such as adult and pediatric care; and
        <bullet> national economic impacts and subsequent State budget 
        cuts, particularly at local and State levels, which may impede 
        school districts' abilities to provide special education 
        services.

    To address some of the State access issues, we have partnered with 
the National Council on Disability to study this problem. Results are 
under review.
Children, Youth, and Teen Programs
    Whether parents are working, experiencing family emergencies, or 
needing respite from single parent responsibilities connected to 
deployments, child care services remain a high priority quality of life 
requirement. In 2010, we provided 13,431 child care spaces and met 73 
percent of potential need requirements. Within these totals, we are 
caring for approximately 2,500 special needs children.
    The Marine Corps, with your support, is executing an aggressive 
military construction program and is opening six new child development 
centers in fiscal year 2011 and five more in fiscal year 2012. 
Nevertheless, as you might expect, the demand for quality child care 
on-and-off installation continues to grow. To address this growing 
demand and help further define requirements, we are working on a Child 
Development Program and Facility Master Plan. This plan will evaluate 
on-and-off-base access, unmet need, and will provide prioritized 
recommendations for meeting the need across the Marine Corps. We 
anticipate results this summer.
    In 2011, we will work with Marine Forces Reserve and MCRC to 
identify opportunities to enhance availability of child care for 
marines and their families serving on independent duty and at locations 
that are separated from military bases and stations. In addition, we 
are partnering with the Boys & Girls Clubs of America for developmental 
youth programs, and working to identify ways to better support our 
youth and teens affected by a parent's deployment. We have reviewed the 
results of the National Military Family Association and RAND Study 
related to impacts on youth from deployments and are considering ways 
to address this situation.
School Liaison Program
    To help school-aged children of marines flourish in new school 
environments, our School Liaison Program partners with Local 
Educational Agencies (LEAs) to raise the educational capacity and 
academic performance of our military children. Supporting more than 80 
school districts surrounding major Marine Corps installations, our 
school liaisons provide LEAs with information on Marine Corps families' 
needs and access to beneficial training and counseling services. Marine 
parents have the comfort of talking with and being supported by a local 
education expert who provides meaningful insight and support to new 
transfers and those with questions on local education policies. In 
addition, school liaisons provide Marine parents with connections to 
online curricular resources that are linked to State standards, 
permanent change-of-station checklists to assist with pre-relocation 
planning and registration in the receiving school districts, online 
tutoring and other resources.
Personal and Professional Development
    Our Commandant has directed the Marine Corps to conduct a ``bottom 
up'' assessment of our Transition Assistance Management Program and our 
Lifelong Learning Program to revolutionize the process, embrace best 
practices, and ensure we are providing the right educational and career 
assistance to marines leaving the Corps. Today, our program is 
primarily a training event. We have established a goal to transform 
this from an event into a process and to make the Marine Corps' 
Transition Assistance Management Program a model for DOD.
    From 2009 to 2010, the Marine Corps conducted functionality 
assessments of the Transition Assistance Management Program and the 
Lifelong Learning Program and noted many deficiencies. In response, we 
established two Transition Assistance Operational Planning Teams in 
2010 to assess existing programs. These teams identified issues, 
stakeholders and a conceptual framework for improved services and ways 
to integrate Marine Corps Community Services transition assets. Key 
stakeholders involved in this process include servicemember recruiters, 
commanders, Unit Transition Coordinators, and most importantly--our 
marines and their family members.
    With our predominately first-term force, we are committed to 
reaching our marines at designated touch points, helping them develop 
roadmaps that support their Marine careers, and better equipping them 
to reintegrate back into civilian life upon leaving active duty 
service. We have developed an end-to-end process improvement plan, are 
initiating actions, and are integrating existing capabilities that 
directly improve the quality of support provided to our marines. In the 
future, our transition assistance will become a personal and 
professional development process that will reintegrate marines into the 
civilian sector with the knowledge, skills, and abilities to better 
leverage their Marine Corps time and experience into meaningful 
careers. Some of our actions include:

        <bullet> Establishing the new Personal and Professional 
        Development program and incorporating ``transition assistance'' 
        with a continuum of services designed to fully exploit the 
        potential of all marines and prepare them to transition to 
        civilian life.
        <bullet> Establishing formal processes to initiate periodic 
        lifecycle contact to offer education, career, and financial 
        advice/counseling to marines and their families.
        <bullet> Creating an Individual Development Plan, with 
        execution and delivery of required transition services.
        <bullet> Assisting marines with navigating the Department of 
        Veterans Affairs benefit process. Based on feedback from 
        surveyed marines, we know they want and need this kind of 
        assistance. To address this issue, we will modify existing 
        websites to improve access and enhance opportunities for 
        separating marines to speak directly to Marine Corps support 
        personnel who are trained to remove benefit processing 
        barriers.
        <bullet> Expanding public and private sector employment 
        opportunities. We know from our surveys that marines do not 
        expect a ``job handout''. Rather, they want to be leaders and 
        strong contributors to our Nation. They have told us that they 
        want to improve their networking skills and learn how to 
        connect with employers and mentors. We are in the process of 
        revamping our transition workshops to focus on these needs and 
        are working on ways to incorporate more networking 
        opportunities into our job fairs.
        <bullet> Connecting and expanding available educational 
        opportunities. The Post-9/11 GI Bill provides marines a 
        wonderful educational opportunity. In an effort to expand this 
        opportunity, we have initiated a Leader Scholar Program on the 
        west coast which includes academic institutions who value 
        Marines' service commitment and pledge to provide them special 
        enrollment consideration; we now have 75 participating 
        institutions and have a goal of 100 by the end of this year.
        <bullet> Assisting marines with education enrollment processes 
        to enable them to gain access to academic institutions that 
        provide business education skills that private industry 
        demands.
        <bullet> Improving the current Active-to-Reserve transition 
        process to better educate marines on Reserve opportunities to 
        retain the best talent. An enhanced, streamlined transition 
        process will increase the number of valuable, trained marines 
        who consciously choose to affiliate with the Reserves.

    We believe our efforts will result in an innovative program that 
addresses the Commandant's concerns, assists our families with their 
education and career goals, and meets the needs of our marines as they 
progress through their military life cycle, whether a single enlistment 
or a lifetime of military service, and transition to a successful post-
military career.
Behavioral Health Integration
    Sixty-four percent of our marines are under 25 years-old. 
Associated with this young force are inherent high-risk factors that 
include relationship and coping skills, isolation, combat-related 
wounds, and substance abuse. Furthermore, since September 11, 
behavioral health needs have become increasingly complex with 
individuals often requiring assistance in a number of areas at one 
time. The anticipated drawdown of marines deployed to Afghanistan will 
likely result in additional behavioral healthcare requirements as 
marines return and readjust to the garrison environment.
    Marines with three or more deployments have been identified as 
particularly at risk. As a result, our Combat Operational Stress 
Control (COSC) Program is currently developing a policy that will 
direct commanders to conduct face-to-face interviews with marines who 
have had three or more deployments. These commanders' interviews will 
identify marines at some level of elevated risk, allow commanders to 
engage their marines (pre- and post-deployment), and provide an 
opportunity for intervention (medical and non-medical).
    As directed by the Commandant, we continue to move forward with 
fully integrating our Marine Corps behavioral health programs--Family 
Advocacy, Combat Operational Stress Control, Suicide Prevention, Sexual 
Assault Prevention and Response, and Substance Abuse. We have 
established a Behavioral Health Branch at our headquarters for Marine 
and Family Programs, Manpower & Reserve Affairs, and are working to 
ensure that the programs and services that stem from this integration 
will be seamlessly woven into the larger support network of command 
structures and the health and human services across the Corps and are 
in concert with building resilience and strengthening marines and 
families.
Sexual Assault Prevention and Response
    Marine Corps' leadership has initiated aggressive actions to 
elevate and highlight the importance of the Sexual Assault Prevention 
and Response (SAPR) Program and institutionalize a zero-tolerance 
policy. SAPR is focused on several key initiatives:

        <bullet> Prevention: Commanders are accountable for creating a 
        climate in which sexual assault will not be tolerated and 
        building trust within their units that enables victims of 
        sexual assault to report the crime. Bystander intervention 
        training has been identified as an evidence-based best practice 
        for engaging marines in their role in sexual assault 
        prevention. New video-based bystander intervention training is 
        in development with a completion date of April 2011.
        <bullet> Risk Reduction: Alcohol has a tremendous impact on the 
        prevalence of sexual assault. Research on best practices for 
        addressing risk reduction, consent, and raising awareness 
        within the Marine Corps is forthcoming in 2011.
        <bullet> Offender Accountability: The Trial Counsel Assistance 
        Program and a Joint Mobile Training Team were implemented in 
        2010 to provide training for 40 Marine Corps investigators and 
        prosecutors on best practices in handling sex crimes. 
        Following-up on the success of the Case Review Project in 2009, 
        the Judge Advocate Division Military Law Branch is reviewing 
        closed cases of sexual assault to develop lessons learned. This 
        information will be disseminated in the form of training 
        techniques for investigators and prosecutors.
        <bullet> Victim Advocacy: During 2010, SAPR Program Managers 
        were hired at 18 installations to heighten sexual assault 
        prevention efforts by serving as master trainers and reporting 
        coordinators. A 24/7 Helpline was established across all 
        installations to provide victims with emotional support, 
        information on reporting options, and critical resources.
Suicide Prevention
    During calendar year 2010, we saw a nearly 30 percent decrease in 
the number of suicides within our Total Force (52 in calendar year 
2009; 37 in calendar year 2010). Yet even one suicide is still one too 
many. It is premature for us to be able to identify what specific 
initiative(s) have resulted in this decrease. For the past several 
years, we have been, and will continue to be, engaged on multiple 
fronts:

        <bullet> Established a DSTRESS Line pilot in TRICARE Region 
        West for all our marines, sailors, and families which provides 
        24/7, anonymous counseling designed to assist with problems at 
        an early stage. The phones are manned by veteran marines, our 
        former corpsmen, and by licensed counselors specifically 
        trained in our culture.
        <bullet> Leadership engagement and discussion of issues at 
        senior leader forums and Executive Force Preservation Boards.
        <bullet> Our ``Never Leave a Marine Behind'' suicide prevention 
        training series is being expanded. In November 2010, we 
        provided a junior marine module as well as an update to the 
        existing award-winning NCO module. In development for release 
        in March 2011 are SNCO and officer modules that will help 
        leaders to manage command climate in a way that builds 
        resilience and encourages help-seeking in their marines.
        <bullet> Working with the American Association of Suicidology 
        to develop training programs for unit-level prevention 
        officers.

    We believe our training and other prevention efforts will help our 
marines and their family members maintain readiness and win their 
personal battles.
Combat and Operational Stress Control (COSC)--Resiliency Training
    Stress issues affect all marines and families regardless of 
deployment. Assisting marines who show signs of stress and preventing 
combat and operational stress is one of our highest leadership 
priorities. To improve their resilience, we are working aggressively 
and creatively to build a training continuum that better prepares them 
for the inevitable stress of combat operations and to equip them with 
the necessary skills required in coping with the challenges of life as 
a marine.
    Instruction founded and focused on our core values helps provide 
some of this resilience and enables effective operations, especially in 
irregular warfare and complex environments. A program combining the 
``best practices'' of mental, spiritual and physical fitness will 
instill in our marines the resiliency to better endure the stressors of 
combat.
    Our COSC program's goal is to help Commanders and Marine leaders 
maintain their warfighting capabilities and, with assistance from 
medical personnel, reduce the impact of negative stress reactions. By 
providing tools and resources to assist marines with coping with the 
challenges of combat and the rigor of life as a marine, our COSC 
program implements activities focusing on force preservation and 
readiness and the long-term health and well-being of our marines and 
their families. COSC, with other behavioral health initiatives, 
aggressively combats these problems by strengthening marines, 
mitigating stress, identifying those who are at risk, and providing 
treatment when necessary, with the overall goal of reintegrating 
marines back into the force.
    Our Operational Stress Control and Readiness Program (OSCAR) embeds 
mental health professionals in operational units and provides training 
that helps the OSCAR team identify and mitigate negative stress 
reactions. The OSCAR team is comprised of three groups: Providers 
(mental health professionals), Extenders (other medical and religious 
personnel), and Mentors (selected unit marines) who are trained to 
quickly intervene when marines show signs of stress reactions. 
Currently over 1,900 marines are trained as mentors.
    In fiscal year 2011, COSC will sustain and improve OSCAR training 
by conducting a RAND evaluation, working with units who utilized OSCAR 
training while in combat environments, and providing refresher training 
to OSCAR trainers. Extenders are receiving formal OSCAR training at 
Field Medical Schools, which began in January 2011 and which also 
supports institutionalizing OSCAR enhancing resiliency training.
    Our COSC program continues to show positive results as indicated by 
outside evaluations and assessments. Despite increased exposure to 
heavy combat, marines surveyed in Afghanistan in July 2010 indicated 
increased protective factors including unit resilience, small-unit 
cohesion, perceived readiness, and improved climate towards asking for 
help. This assessment also revealed increased training effectiveness in 
managing combat/deployment stress and significant reduction in stigma 
associated with seeking behavioral health treatment.
Casualty Assistance
    The Marine Corps' Casualty Assistance Program is committed to 
ensuring that families of our fallen marines are always treated with 
the utmost compassion, dignity, and honor. Our Casualty Assistance 
Program actively seeks opportunities to improve survivor assistance and 
has a demonstrated record of taking quick, effective action as needed.
    The Headquarters Casualty Section is a 24-hour-per-day operation 
manned by marines trained in casualty reporting, notification, and 
casualty assistance procedures. Next-of-kin (NOK) are notified in-
person by a marine in uniform--a Casualty Assistance Calls Officer 
(CACO)--and a chaplain whenever possible. Notifications are typically 
completed within 4 hours of receipt of the casualty report. Marine 
CACOs are there for the NOK--to assist with burial arrangements, 
applications for benefits and entitlements, contact with benevolent and 
philanthropic organizations, and obtaining reports of investigation.
    Within days of the incident, families are connected to 
representatives from the Tragedy Assistance Program for Survivors 
(TAPS), a nationally recognized provider of comfort and care to those 
who have suffered the loss of a military loved one and are experts at 
``taking care of the heart''. TAPS services are no-cost and available 
24/7.
    Approximately 60 days following the death, we reach out to the NOK 
to help resolve any residual issues and let them know we are available 
to them for as long as they need us.
                        wounded warrior regiment
    In his 2010 Planning Guidance, our Commandant reiterated his 
commitment to ``enhance the capabilities of the Wounded Warrior 
Regiment to provide added care and support to our wounded, injured, and 
ill (WII).'' Moreover, he affirmed the need to sustain the Regiment for 
the long-term given the wounds of the war and that the Regiment also 
provides care for our marines who are not combat wounded, but are 
injured in training or other accidents, suffer from diseases, and other 
tragedies. Congress and the Nation may rest assure that the Marine 
Corps, through the Regiment, will continue to meet the Commandant's 
intent and the needs of this Nation's wounded, ill, and injured (WII) 
marines.
    The Regiment serves the Marine Corps Total Force--active duty, 
Reserve, retired and veteran marines. It is positioned in locations 
around the country and abroad in order to establish a personal 
relationship with WII marines and their families. Its strategic reach 
allows for resources and services to be delivered to WII marines and 
their families regardless of their recovery location. The Regiment 
maintains administrative and operational control of two Wounded Warrior 
Battalions located at Camp Pendleton, CA, and Camp Lejeune, NC. Each 
battalion has detachments located at military treatment facilities and 
Department of Veterans Affairs Polytrauma Rehabilitation Centers. The 
span of the Regiment extends across the globe from Landstuhl, Germany, 
to Okinawa, Japan, and throughout the continental United States.
    The complexity of WII marines' care requires a heightened level of 
coordination between various medical and non-medical care providers. 
There is no ``one-size-fits-all'' approach to care and the Regiment 
delivers a cross-section of services and resources to WII marines and 
families. We continue to refine our support capabilities and grow our 
care model to ensure we promote healing the ``whole'' marine. Through 
synchronization of our programs and resources and external programs, we 
strive to help each WII marine focus on their abilities to heal 
medically while strengthening their mind, body, spirit, and family 
through mandatory participation in programs covering a wide range of 
activities, such as academic endeavors, internships, physical fitness, 
and community service. Highlights of our program include:

        <bullet> Marine Section Leaders. The Section Leader combines 
        the discipline and standards of the Marine Corps with an 
        understanding of the obstacles WII marines face, while serving 
        as their advocate to ensure coordinated medical and non-medical 
        recovery efforts. Section Leaders are key to the recovery 
        process as they oversee the integration of the Marine's medical 
        recovery process with productive and meaningful non-medical 
        activities that build strong minds, bodies, and spirits.
        <bullet> Recovery Care Coordinators. The Regiment has a fully 
        operational Recovery Coordination Program. Recovery Care 
        Coordinators (RCCs) are assigned to certain active duty WII 
        marines to help them and their families develop Comprehensive 
        Transition Plans to define and meet their individual goals for 
        recovery, rehabilitation, and reintegration. RCCs and section 
        leaders work together to help WII marines transition. RCCs 
        serve as the ultimate point of contact for WII marines to help 
        them identify needs, define goals, and meet their goals.
        <bullet> Medical Section. The Regiment's Medical Section 
        includes a Regimental Surgeon, Nurse Case Manager, and Clinical 
        Services staff who work with public and private medical 
        providers to ensure the best care for WII marines, particularly 
        in the areas of Post-Traumatic Stress (PTS) and Traumatic Brain 
        Injury (TBI). They also work hand-in-hand with the Bureau of 
        Navy Medicine to environmentally scan for new and emerging 
        treatment protocols and advise the commanding officer regarding 
        medical issues and emerging technologies and treatments 
        impacting WII marines.
        <bullet> Warrior Athlete Reconditioning (WAR) Program. The 
        Regiment's WAR Program strengthens the marine's body through 
        physical activity and nutrition to develop lifelong healthy 
        habits. Under this program, marines engage in both physical and 
        cognitive activities outside the traditional therapy setting. 
        Activities are individualized to the WII marines' needs, and 
        encompass over 18 areas--from aquatic training to yoga.
        <bullet> Family Support. Support for WII marines and families 
        is unique and staff often perform non-traditional family 
        support roles at all of its locations. Family support staff 
        often work in hospital-type environments and rely on 
        nontraditional resources, such as charitable organizations, 
        Veterans Service Organizations, and Federal and State agencies.
        <bullet> Reserve Support. Our Reserve Medical Entitlements 
        Determination Section maintains oversight of all cases 
        involving reservists who require medical care beyond their 
        contract period for service-connected ailments. The Regiment 
        also has Reserve-specific RCCs who provide one-on-one support 
        and resource identification for reservists who often residing 
        in remote and isolated locations.
        <bullet> Transition Support. To enhance community 
        reintegration, the Regiment's Transition Support Cell, manned 
        by marines and representatives from the Departments of Labor 
        and Veterans Affairs, proactively reaches out to identify 
        employers and job-training programs that help WII marines 
        obtain positions in which they are most likely to succeed and 
        enjoy promising and fulfilling careers.
        <bullet> District Injured Support Cells. Our District Injured 
        Support Cells are mobilized Reserve marines located throughout 
        the country to conduct face-to-face visits and telephone 
        outreach to WII marines and their families. They maintain 
        oversight of the welfare and quality of life of all WII marines 
        convalescing at home and all OEF/OIF WII marine veterans.
        <bullet> Sergeant Merlin German Wounded Warrior Call Center. 
        Our Sergeant Merlin German Wounded Warrior Call Center extends 
        support to marines and families through advocacy, resource 
        identification and referral, information distribution, and care 
        coordination. The Call Center has clinical services staff that 
        provide immediate assistance and referral for marines with 
        psychological health issues and/or PTS/TBI. Outreach is an 
        important aspect of our non-medical care delivery and 
        management. The Call Center also conducts outreach calls to 
        offer assistance on a wide variety of issues, such as service 
        disability ratings, awards, employment, financial assistance, 
        education, and benevolent organizations. A recent feature to 
        the Call Center is the addition of social media experts who 
        actively manage the Regiment's Facebook page.

    The Marine Corps is committed to the long-term care of its wounded 
warriors and their families and will continue to provide for their 
care. As warrior care evolves and innovates, we will continue to adjust 
to ensure we are providing the best support possible. Your WII marines 
are highly motivated, focused on their abilities, and remain in the 
fight. The Marine Corps is grateful for the exceptional support that 
you have provided to our marines and the families who support them.
                            civilian marines
    Civilian marines provide an invaluable service to the Corps as an 
integral component of our Total Force. With a population of 35,000, the 
civilian workforce is as lean and efficient as our Active-Duty Forces. 
The ratio of civilians to marines is 1:6, compared to about 1:2 in the 
other Services and DOD-wide. Civilian marines work in true partnership 
with our marines and play an important role in current combat 
operations, research and development, and acquisition. They are 
critical assets which provide support to the Total Force, especially 
our marines returning from deployment and their families, and to Base 
and Station operations. Civilians are the ``force multiplier,'' 
enabling our marines to accomplish missions across all aspects of 
expeditionary operations and warfare. Dozens of civilians are currently 
forward deployed supporting combat operations. The civilian labor 
budget represents less than 5 percent of the Marine Corps fiscal year 
2012 budgetary submission, demonstrating that our ``best value'' for 
the defense dollar applies to our civilians as well as our marines.
                               conclusion
    As we continue to deploy and fight in Afghanistan and other parts 
of the world, the Marine Corps will be required to meet many 
commitments, both at home and abroad. To continue to be successful, we 
must always remember that our individual marines are our most precious 
asset, and we must continue to attract and retain the best and 
brightest into our ranks. Marines are proud of what they do. They are 
proud of the ``Eagle, Globe, and Anchor'' and what it represents to our 
country. With your support, a vibrant Marine Corps will continue to 
meet our Nation's call.
    Thank you for the opportunity to present this testimony.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Webb. Thank you, Secretary Garcia.
    Admiral Ferguson, welcome.

  STATEMENT OF VADM MARK E. FERGUSON III, USN, CHIEF OF NAVAL 
                      PERSONNEL, U.S. NAVY

    Admiral Ferguson. Thank you. Chairman Webb, Senator Graham, 
and distinguished members of the subcommittee, thank you for 
the opportunity to review our fiscal year 2012 budget request.
    We believe our request appropriately balances risk in 
supporting the readiness requirements of the fleet, growth in 
new mission areas, and the essential programs that provide for 
the care of our sailors and their families. The extraordinary 
people of our Navy are serving around the globe, with nearly 50 
percent of our ships underway or deployed.
    Our forward-deployed naval forces give us the flexibility 
to respond rapidly around the globe. We have witnessed this 
unique capability over the past few months, where naval forces 
on scheduled deployments were quickly on hand in the waters off 
Japan, after the devastating earthquake and tsunami, to deliver 
humanitarian assistance to the Japanese people. Simultaneously, 
halfway around the globe, our ships, submarines, and aircraft 
were on station in the Mediterranean to set the conditions for 
a multinational no-fly zone over Libya. In the central command 
region, naval forces remained on call to support our ground 
troops and Special Operations Forces.
    To sustain this force, we continue to adapt our family 
support programs to meets the needs of our sailors and their 
families. We monitor the health of the force through surveys 
and retention data, which indicate sailors are satisfied with 
their leadership, benefits, and compensation.
    Your support has made this possible.
    In developing our fiscal year 2012 budget request, we 
review current operations, our procurement profile, and 
readiness requirements. This review indicated the need to add 
approximately 6,800 billets to the operating forces. To source 
these billets without additions to our overall end strength, we 
reduced or consolidated approximately 8,400 billets in the 
fleet, squadron staffs, and shore activities.
    Additionally, the Navy has placed end strength, previously 
funded by supplemental appropriation, into our baseline program 
for fiscal year 2012 and beyond. We assess that our Active and 
Reserve end-strength request will meet our 2012 projected 
requirements.
    We continue to attract, recruit, and retain the Nation's 
best talent. Your Navy's received over 20 national awards, over 
the past year, recognizing accomplishments in workplace 
flexibility, management, training, recruiting, and workforce 
development.
    On behalf of the men and women of the U.S. Navy and their 
families, I extend my sincere appreciation to the committee and 
Congress for your support. I look forward to your questions.
    Thank you.
    Senator Webb. Thank you, Admiral Ferguson.
    General Milstead, welcome.

  STATEMENT OF LT. GEN. ROBERT E. MILSTEAD, JR., USMC, DEPUTY 
 COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

    General Milstead. Chairman Webb and Ranking Member Graham, 
it's my privilege to appear before you today.
    The Marine Corps is our Nation's expeditionary force in 
readiness, and we're ready to respond to today's crisis with 
today's force, today. The individual marine is our Corps' most 
sacred asset. The quality of our force has never been better. 
Part of my job is to make sure it stays that way.
    Regardless of any future force-structure changes, the 
challenge of shaping our force with the right grades, combat 
experience, and skills to fulfill operational requirements will 
remain. We appreciate your continued support for the tools and 
the funding to succeed.
    A top priority of our Commandant is to keep faith with our 
marines, sailors, and their families; and, through program 
improvements, and with your continued support, we are doing 
just that. Marines are proud of their eagle, globe, and anchor 
and what it represents to our country. With your support, a 
vibrant Marine Corps will continue to meet our Nation's call.
    I look forward to answering your questions.
    Senator Webb. Thank you, General.
    Secretary Ginsberg, welcome.

 STATEMENT OF HON. DANIEL B. GINSBERG, ASSISTANT SECRETARY OF 
         THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Ginsberg. Thank you, Chairman Webb and Ranking Member 
Graham. I appreciate the opportunity to come and testify before 
you today. Your committee plays a vital role in overseeing the 
DOD, and we deeply appreciate your support, in the Air Force.
    I begin with Secretary of the Air Force Donley's recent 
words that our most valuable asset is our people. I recently 
returned from a trip to Afghanistan with Secretary Lamont and 
can report that your airmen are making an incredible 
contribution to the joint and coalition warfight. Whether in 
the realm of air medical evacuation, forward airbase resupply, 
close air support, or intelligence, surveillance, and 
reconnaissance, the Nation's airmen are applying every ounce of 
their skills, talents, and energy to support their partners.
    We have a total force that is indeed fully engaged in 
today's fight. We have deployed more than 42,000 airmen, and 
engaged significant stateside forces in support of global 
operations. There are approximately 10,000 deployed Guard and 
Reserve airmen supporting every combatant commander.
    Under Secretary Donley's leadership, we are building on our 
longstanding commitment to taking care of our airmen and their 
families by establishing the Air Force Sense of Community, 
which is an outgrowth of last year's highly successful Year of 
the Air Force Family Initiative. This plan will strengthen our 
ties to one another, increase our operational abilities, and 
ensure our Air Force community is best positioned to meet 
future commitments and requirements.
    In the all-important realm of wounded warrior and survivor 
care, we have significantly improved the Air Force Survivor 
Assistance, Recovery Care, and Air Force Wounded Warrior 
Programs. Our family liaison officers, recovery care 
coordinators, medical caseworkers, Air Force wounded-warrior 
consultants, and community readiness consultants provide 
immediate and direct care for our airmen and their families 
through recovery, rehabilitation, and reintegration into the 
Air Force or into the civilian community.
    Also, at the direction of Secretary Donley, we developed a 
plan to integrate the three Air Force component personnel 
management systems into one system. The strategic intent of 
this effort, which we call ``3-in-1 integration,'' is to 
establish a single, uniform system for Air Force personnel 
management, optimizing existing systems already in place. This 
effort will greatly improve efficiency, personnel management, 
and promote uniformity in policies and processes, to the extent 
practicable.
    I look forward to answering your questions, and thank you 
for your continued support of the Air Force.
    [The joint prepared statement of Mr. Ginsberg and General 
Jones follows:]
   Joint Prepared Statement by Hon. Daniel B. Ginsberg and Lt. Gen. 
                         Darrell D. Jones, USAF
                              introduction
    Chairman Webb, Senator Graham, and distinguished members of the 
subcommittee, we thank you for the opportunity to appear before you on 
behalf of America's airmen. In an era of evolving requirements, diverse 
mission sets, and constrained budgets, our Air Force faces an ever 
increasing set of challenges as we seek balance between winning today's 
fight and countering the threats of tomorrow. This objective will not 
be achieved easily and will increase in complexity as we realize the 
cumulative impact of being at war continuously for the past decade. As 
the Air Force's Assistant Secretary for Manpower and Reserve Affairs 
and Deputy Chief of Staff for Manpower, Personnel and Services, it is 
our mandate to help deliver fully-qualified and ready airmen for the 
Joint Warfighter while meeting the essential needs of these airmen and 
their families. As part of this charge, we remain dedicated to ensuring 
we organize and develop our Total Force so we are prepared to meet the 
challenges of the 21st century.
                 military and civilian personnel budget
    Towards this end, our personnel budget submission reflects this 
focus as we have requested $30.5 billion in MilPers and $7.8 billion 
for CivPers for the regular component in fiscal year 2012. This 
decrease of $600 million in CivPers from fiscal year 2011 levels is 
primarily due to a return to fiscal year 2010 manning levels. For the 
Air National Guard, we have requested $2.2 billion for CivPers to pay 
our Title V and Title 32 (dual status military technicians) civilians 
and $3.1 billion for MilPers. This is a $10 million increase over 
fiscal year 2011 primarily due to price growth in pay, BAH, incentives, 
and Retired Pay Accruals, alleviated to a degree by targeted program 
reductions. For the Air Force Reserve we have requested $1.7 billion 
for MilPers and $1.2 billion for CivPers.
    As part of our overall focus on efficiencies, the Air Force will 
not increase our civilian workforce to planned levels and will follow 
the Secretary of Defense's intent to maintain civilian full-time 
equivalents near the fiscal year 2010 levels. This will require some 
workforce rebalancing and we are conducting a strategic review to 
determine areas where we most need our valuable civilian personnel in 
the future. We are conducting this review concurrent with the 
development of our fiscal year 2013 budget. In order to maintain 
alignment of our workforce against our most critical missions and take 
care of our current workforce as we determine our long-term needs, we 
have recently instituted hiring controls to ensure the size of our 
workforce is consistent with our available civilian pay dollars. We 
will monitor the size of our workforce closely over the next months and 
adjust controls accordingly, but we'll continually focus on maintaining 
the right skillsets for our missions and taking care of our civil 
servants.
                airmen in the joint and coalition fight
    More than 97,000 Total Force airmen are currently forward stationed 
or deployed worldwide supporting combatant commanders. Another 133,000 
provide daily strategic mobility, space and missile capabilities, 
command and control, and intelligence, surveillance, and reconnaissance 
to joint warfighters. In all, 43 percent of the Total Force directly 
supports combatant commander requirements every day.
                              end strength
    The fiscal year 2011 programmed Total Force end strength is 702,367 
which is comprised of 332,200 active duty, 192,267 civilians, 71,200 
Reserve, and 106,700 Air National Guard personnel. In the fiscal year 
2012 budget, we have requested a Total Force end strength that will 
actually decrease to 693,099. Active duty end strength will increase by 
600 airmen to 332,800, and our civilian end strength will decrease by 
just over 10,000 to 182,199 civilians. We will also increase the 
Reserve end strength by 200 to 71,400 while the Air National Guard 
remains unchanged at 106,700. Additionally, the fiscal year 2012 budget 
captures efficiency efforts through reducing overhead and support 
functions which will allow us to shift manpower resources to our 
warfighter and readiness programs.
                            force management
    Fiscal constraints and 16-year record high retention rates compel 
the Air Force to develop voluntary and involuntary programs to manage 
our end strength. At the end of fiscal year 2010, the Air Force 
exceeded its end strength of 331,700 by approximately 2,300 officers 
while meeting enlisted end strength levels. We expect to exceed our 
fiscal year 2011 end strength by approximately 900 officers and could 
reach well above this level by fiscal year 2012 if we do not continue 
efforts to manage attrition. We have reduced and delayed officer and 
enlisted accessions to help manage our total end strength. Since its 
implementation, nearly 13,000 reservists have become trained and 
available. For fiscal year 2011, we will conduct a Force Shaping Board 
for junior officers, a Reduction in Force (RIF) board for mid-grade 
officers, and Selective Early Retirement Boards (SERB) for lieutenant 
colonels and colonels. Mid-grade officers eligible for the RIF board 
will have the opportunity to apply for voluntary separation pay in lieu 
of meeting the board. Likewise, lieutenant colonels and colonels will 
have the opportunity to voluntarily retire in lieu of meeting the SERB. 
Our force management strategy is not a rapid resolution, but a 
carefully tailored, multi-year effort designed to manage the force 
along a 30-year Continuum of Service in a manner that makes required 
efficiencies while still keeping faith with our career force.
                               accessions
    For fiscal year 2011, planned enlisted accession reductions are 
2,135 but may be adjusted before the end of the year based on losses 
and retention rates. Planned officer reductions have been adjusted to 
approximately 300, down from 439. Reductions are realized in all 
officer competitive categories, with our rated force at 97 percent 
sustainment; non-rated line at 93 percent sustainment; and non-line at 
93 percent sustainment. In fiscal year 2012, we anticipate few 
reductions in officer accessions. However, enlisted accession 
reductions are currently set for 2,037 but may be readjusted before the 
end of the year. In the past year, the Air Force Reserve experienced 
the most accessions in 16 years and the highest amount of non-prior 
service recruits in over 20 years.
           recruiting, retention, bonuses, and incentive pays
    We are completely committed to retaining high quality airmen in 
order to successfully carry out today's missions as well as our new and 
emerging missions. America has the very best Air Force in the world, 
and it takes recruiting, developing, and retaining the highest quality 
airmen to maintain that status. To do so, our fiscal year 2012 budget 
request includes $30.5 billion in military personnel funding, including 
a 1.6 percent pay increase. Although our recruiting quality and 
retention levels are at the highest in 16 years, we are allocating $630 
million for bonuses to recruit the right skill sets and retain 
experienced Airmen for today's fight and tomorrow's emerging missions.
    Our fiscal year 2012 recruiting activities budget request includes 
$65.5 million for recruiting activities and $70.6 million for 
advertising efforts, including a strategic marketing campaign which 
focuses on diversity and science, technology, engineering, and math.
    Similarly, the Air National Guard (ANG) is focusing its recruiting 
efforts on precision recruiting to fill existing vacancies. The Air 
Force Reserve has programmed $31.3 million for bonus incentives in 
fiscal year 2012 and continues to show positive gains in all retention 
categories. The Air Force Reserve uses its bonus program to meet the 
demand for critical skills deemed vital to its mission. Its bonus 
program has been pivotal to recruiting and retaining the right people 
to meet combatant commander requirements. Members with these skills are 
normally in high demand within the private sector. With continued 
funding, the Reserve will be able to offer the appropriate combination 
of bonuses for enlistment, reenlistment, affiliation and health 
professionals. To improve our chances of success, we have increased the 
number of recruiters working in the field to attract quality 
candidates.
    Even with high retention for the active duty officer force as a 
whole, there are still manning shortfalls and retention deficits in 
high-demand and new and emerging specialties that require bonuses as a 
part of a gap-closing strategy. These specialties, which contribute 
significantly to the joint fight, include contracting, control and 
recovery, public affairs, civil engineering, intelligence, logistics 
readiness, and many of our medical professionals, including mental 
health and other critical wartime skills.
    The overall Air Force budget for initial enlistment bonuses for 
fiscal year 2012 is $14.5 million, providing 4 and 6 year bonuses 
ranging from $1,000 to $17,000. This helps us target hard-to-fill, 
chronically critical, and battlefield airmen occupational specialties, 
including airborne cryptologic language analyst; combat control; 
tactical air control party; survival, evasion, resistance, and escape; 
pararescue; special operations weather; explosive ordnance disposal; 
and security forces.
    The remainder of the Air Force's recruiting bonuses attracts 
experienced health professionals in critical wartime specialties, such 
as physicians, dentists, nursing, pharmacy, public health, clinical 
psychology, and social work in order to more effectively meet validated 
health care needs. Increased operations tempo and outside competition 
are also impacting our ability to retain Health Professions Officers. 
To mitigate this situation, the Air Force Recruiting Service recruits 
Fully Qualified (FQ) Health Profession (HP) officers and Health 
Professional Scholarship Program (HPSP) candidates.
    While active duty officer retention as a whole remained strong 
through fiscal year 2010, we still need higher retention in targeted 
year groups for specific specialties including contracting; control and 
recovery; public affairs; civil engineering; intelligence; logistics 
readiness; and certain medical specialties. In order to address officer 
retention concerns, contracting, control and recovery were approved by 
OUSD(P&R) in fiscal year 2009 as critical skills and are currently 
receiving a critical skills retention bonus (CSRB). The projected CSRB 
costs for fiscal year 2012 are approximately $9 million ($2.8 million 
budgeted for control and recovery and $6.2 million for contracting). 
The Air Force also uses Cumulative Continuation Rates (CCR) to track 
retention by Air Force Specialty Code and by reenlistment zones. The 
CCR shows the expected rate an airman is likely to remain in the 
Service from year-to-year or zone-to-zone. Skills Retention Bonus (SRB) 
are also an effective tool for measuring targeted retention by AFSC and 
by zone.
                              deployments
    As of 25 April 2011, we have more than 40,000 personnel deployed, 
approximately 5,000 of whom are fulfilling Joint Expeditionary and 
Individual Augmentee taskings working with our sister services. In 
order to meet the growing demands of combatant commanders, Air Force 6 
month tours increased from 12 percent of all deployments in calendar 
year 2004 to 65 percent of all deployments today. In October 2010, the 
Chief of Staff of the Air Force established the Air Force's baseline 
deployment tour length to be 6 months, which will be normalized for all 
airmen by October 2012. Approximately 2,700 of our deployment 
requirements, or 7 percent of all deployments, require members to be 
away for 365 days. We are committed to ensuring we fulfill deployment 
commitments while taking the greatest care of our airmen and their 
families.
    As we continue to provide air, space, and cyberspace support to 
combatant commanders, we are leveraging the capabilities resident 
within the Active, Guard, Reserve, and civilian forces, to include 
deployments and mobilization. Reserve airmen support our Nation's 
needs, providing operational capabilities around the globe.
    Today, Air Force reservists are serving in every area of 
responsibility, and there are approximately 4,300 Air Force reservists 
activated to support operational missions. Likewise there are 5,554 Air 
National Guard members deployed. In calendar year 2010, 3,739 National 
Guard airmen performed domestic missions under Title 32 including U.S. 
air defense, border security, counterdrug operations, and search and 
rescue.
    Through our Overseas Contingency Operations (OCO), we have budgeted 
$1.5 billion in fiscal year 2012 and we invest in it as an equal 
partner with our sister services and coalition team members to 
effectively pursue national security objectives around the globe. We 
have a validation process for all OCO requirements and just recently 
implemented a prioritization system to ensure our Reserve component 
man-days meet the greatest need while remaining within our appropriated 
funds.
    As the Department of Defense builds its civilian expeditionary 
workforce, Air Force civilians continue to be a significant part of the 
capability we offer to the combatant commander. For example, deployed 
civilians are currently augmenting our Office of Security 
Investigations, intelligence, logistics, comptroller, as well as 
various headquarters support positions worldwide. In addition, civilian 
employees throughout the Air Force provide vital support on a daily 
basis such as aircraft repair, purchase of equipment and supplies for 
troops, continuity at home station for deployed military, and support 
for Air Force families.
                               diversity
    In a nation where about 75 percent of our youth are ineligible or 
unable to serve in an all-volunteer military due to educational or 
health issues, it is a military necessity to maintain a diverse Air 
Force to overcome today's increasingly complex challenges. Our Active, 
Guard, and Reserve units throughout the country this year will 
participate in symposiums, career fairs, and expositions such as the 
Joint Women's Symposium and Air Force in the Community.
    In the fall of 2010, we published strategic guidance to include a 
diversity policy directive and Diversity Roadmap, which provides 
priorities, goals, and specific actions for implementing diversity 
initiatives. Formalizing the Diversity Roadmap into an Air Force 
Instruction will provide the Total Force its final piece of strategic 
guidance. The vetted recommendations of the congressional-mandated 
Military Leadership Diversity Commission will be woven into the 
instruction. We anticipate completion of the instruction by the end of 
September 2011.
    We furthered the institutionalization of diversity by holding a 
Diversity Senior Working Group in October 2010. Showcasing senior 
leader commitment, we had participation from the Chairman of the Joint 
Chiefs, Secretary and Chief of Staff of the Air Force, in addition to 
60 senior leaders from the major commands and the Pentagon. They were 
challenged to promote diversity within their spheres of influence. The 
Air National Guard has championed this effort and created a diversity 
position, reporting directly to the Director, Air National Guard.
    As a result of our commitment to advocate equity, diversity, and 
inclusion at the U.S. Air Force Academy (USAFA), a Chief Diversity 
Officer (CDO) position was created and filled in December 2010. The CDO 
directs all diversity initiatives, policies, and programs at USAFA to 
advance inclusion as a core institutional value and increase diversity 
in all dimensions across its faculty, staff, and cadets.
    Air Force diversity is interwoven into our rich culture, heritage, 
and traditions and we will continue to emphasize the necessity to 
attract and recruit the best-qualified citizens to serve on our team, 
America's Air Force.
                     nuclear human capital strategy
    Airmen must be specifically trained, educated, and experienced 
through professional development initiatives designed to create the 
capabilities and culture this no-fail mission demands, and our Nation 
deserves. We implemented several new initiatives to enhance the 
development of our nuclear airmen and improve the management of their 
assignments. Central to our efforts is the shift to assigning the most 
``qualified'' airman versus the most ``eligible'' airman for our key 
nuclear billets.
    Our new approach to managing enlisted talent gives us the 
capability to evaluate the entire pool of nuclear Senior 
Noncommissioned Officers (SNCOs) and select the right airmen for 
critical jobs, while also ensuring our nuclear SNCOs are vectored in 
the proper career sequence and that we are preparing them for future 
leadership roles in the Nuclear Enterprise. Our 2W2 (Nuclear Weapons 
Maintenance) and 21M (Munitions, Missile Maintenance) career fields 
have developed prioritization lists to ensure we assign the most 
qualified airmen to positions by order of importance within the Nuclear 
Enterprise.
    We also moved the screening of qualifications to serve in nuclear 
billets to earlier in our pipeline for our most stressed career fields. 
This led to greater efficiency in initial selection and training for 
nuclear-related positions, and more timely backfills for open 
positions.
                      airman and family resilience
    We are totally committed to strengthening the resilience of our 
airmen and their families. Our leadership is committed toward building 
resilient airmen who have the ability to withstand, recover, and grow 
in the face of stressors and changing demands, regardless of time, 
challenge, or location. To heighten the focus on this area, the Air 
Force established a Resilience Division within Headquarters Air Force. 
This division will build a corporate program with two distinct yet 
integrated focus areas: Airman Resilience and Family Resilience. In 
addition, we established the Deployment Transition Center at Ramstein 
Air Base, Germany in July 2010. Since the Center's inception, more than 
1,420 selected airmen have participated in this 2-day reintegration and 
decompression program while enroute to their homes from deployment.
    We are also working with the RAND Corporation to develop a 
longitudinal study on families that will begin in summer 2011. This 
study will follow more than 5,000 active duty families while tracking 
their resilience across a full deployment cycle, before, during, and 
after deployment. The information received from this study will be 
invaluable on how we treat and provide care for airmen and their 
families in the future.
    In concert with The First Lady's ``Let's Move'' family fitness 
initiative, we launched Air Force ``FitFamily,'' which meets two of 
four goals of the ``Let's Move'' initiative. FitFamily raises the 
awareness of the importance of physical fitness and healthy meals for 
the entire family. FitFamily encourages everyone to ``Get Up, Get Out 
and Get Fit--Together'' by registering online as teams, and achieving 
various participation levels through family fun activities, sports and 
fitness events, and healthy food selections.
                           suicide prevention
    Since 1997, Air Force has worked resolutely to decrease the number 
of suicides among airmen, civilian employees, and families. The Air 
Force suicide prevention program uses a multi-faceted approach to 
address the needs of a variety of individuals from different 
backgrounds and in different career fields. Air Force programs involve 
the entire Air Force community, including leaders, airmen, families, 
chaplains, and health professionals in preventing suicide. Recent 
suicide prevention initiatives include the addition of mental health 
providers in primary care clinics where airmen can obtain care without 
concern about the perceived stigma associated with mental health care.
    The annual Department of Defense/Department of Veterans Affairs 
Suicide Prevention Conference is another means by which our 
organizations and communities share research efforts, identify 
effective tools, discuss risk factors, and describe innovative 
programs. As our shared knowledge of the causes and risk factors 
associated with suicide increase, we are better prepared to create and 
tailor programs that afford our servicemembers, families, and employees 
the coping skills and help-seeking skills that minimize their 
susceptibility to suicide.
                   exceptional family member program
    Over the last 2 years we assessed available community and family 
support services for our special needs families, uncovering 
inconsistencies in service delivery. With Secretary Donley's approval, 
we implemented a new policy building an Exceptional Family Member 
Program (EFMP) which integrates enrollment and health care assistance, 
assignment coordination, and family support components into one 
seamless program.
    In fiscal year 2010, the Secretary of Defense provided $4.7 million 
in start-up funding, enabling the immediate hiring of 35 Air Force EFMP 
Coordinators to serve families at locations serving the majority of our 
17,000 airmen with special needs family members. The Air Force is 
committed to funding these positions from fiscal year 2012 forward. All 
of our active duty remaining locations have a designated staff member 
at the Airman and Family Readiness Center to provide community/family 
support assistance to families with special needs.
    Additionally, beginning in fiscal year 2012, the Air Force will add 
36 active duty social work billets which will manage enrollment and 
assistance with health care responsibilities in order to improve 
coordination of care for high-risk families.
                           sense of belonging
    The Air Force developed an actionable plan to institutionalize our 
commitments to Fostering and Maintaining a Strong Air Force Community; 
Strengthening a Sense of Belonging to the Air Force; and Improving 
Airman and Family Resiliency. These three objectives will be achieved 
and maintained through four key strategic focus areas: Housing and 
Communities, Airman and Family Support, Education and Development, and 
Health and Wellness. Policy and process priorities have been translated 
into actions and tasks that will be accomplished over the next few 
years, perpetuating the Air Force's commitment to strengthening our 
ties to one another, improving our operational abilities, and ensuring 
our Air Force Community is best positioned to meet future commitments 
and requirements.
    We are delivering on this commitment by expanding child care 
through different programs such as the Extended Duty program, Home 
Community Care, and the new Supplemental Child Care initiative to 
provide flexibility in meeting child care needs. Through our Extended 
Duty Program, we are able to provide 14,000 free hours of child care 
each month, assisting members who work nonstandard duty hour shifts, 
weekends and evenings. Additionally, Air Force Reserve and Guard 
members are able to obtain free child care during drill weekends 
through our Home Community Care Program. Consequently, our Youth 
Program serves nearly 68,000 youths in our before and after summer 
programs, part-day preschools, and youth development camps.
    Within our Airman and Family Readiness Centers, Spouse Employment 
Assistance is one of several areas where we have concentrated our 
efforts. We continue to work closely with our Service partners on the 
advancement of the Military Spouse Employment Partnership to increase 
portable career opportunities for all of our spouses. This year we 
completed six major Morale, Welfare, and Recreation construction 
projects valued at $29 million and three major lodging construction 
projects valued at more than $207 million.
    These projects and upgrades not only greatly improve our airmen and 
their families' quality of life but also increase the readiness of our 
warriors to fulfill ongoing deployment commitments across the world.
                 sexual assault prevention and response
    Sexual assault is a crime that violates our core values. It 
undermines the environment of professionalism, respect, and discipline 
that we need to succeed. It impacts the victim, the unit, the mission, 
friends, and family. In order to better understand the extent of and 
circumstances surrounding the crime, we commissioned Gallup to conduct 
a confidential survey to measure the incidence (past 12 months) and 
prevalence (lifetime in the Air Force) of sexual assault in the Air 
Force.We provided a copy of this report to this committee in March 
2011.
    At the direction of the Secretary of the Air Force, we did a top-
to-bottom assessment of our Sexual Assault Prevention and Response 
(SAPR) program, looking at everything from leadership steps to 
prevention, response, and accountability. Our assessment included 
recommendations from Gallup subject matter experts, the Defense Task 
Force on Sexual Assault in the Military Services, and direction from 
Congress. We are currently moving forward with improvements to the 
program.
    The Air Force projected $35.1 million to execute the Air Force 
Sexual Assault Prevention and Response program for fiscal year 2011. 
The budget funds 199 fulltime positions and program funding for 
operational expenses for all first-responder agencies and field level 
activities. The manpower positions include 175 military and civilians 
serving as Sexual Assault Response Coordinators and assistants, and 24 
dedicated investigative agents specializing in sexual assault 
investigations.
    We are committed to a strong prevention program, victim safety and 
care, and holding assailants accountable for their actions.
                  yellow ribbon reintegration program
    In addition to other Air Force programs designed to support our Air 
Force families, the Yellow Ribbon Program is a venue in which wing 
leadership, community, and State partners can address challenges facing 
airmen and their families during the deployment cycle. Through their 
Yellow Ribbon events, the Air Force effectively works partnerships with 
community organizations to ensure attendees receive information and 
counseling on a wide variety of issues through programs designed to 
help them during pre-deployment, deployment, and demobilization. These 
include programs on marriage counseling; services for children; 
substance abuse awareness and treatment; mental health awareness and 
treatment; financial counseling; anger management counseling; domestic 
violence awareness and prevention; employment assistance; and preparing 
and updating family plans. All these programs have tangible benefit for 
our airmen and their families as well as significant intangibles for 
the Reserve components. As Yellow Ribbon evolves our primary objective 
is to make a strong program even more robust and effective for those it 
serves.
                       warrior and survivor care
    Our Military Health and Non-Medical Care system achievements have 
significantly changed the face of war. We can now deploy and set up 
hospitals in 12 hours of arrival almost anywhere in the world. We move 
wounded warriors from the battlefield to an operating room within 
minutes leading to a sustained less than 10 percent died-of-wounds 
rate. This includes moving our sickest patients in less than 24 hours 
of injury to be near their loved ones within 3 days to hasten their 
recovery. Since October 2001, we safely evacuated more than 86,000 
patients. Our Centers for the Sustainment of Trauma and Readiness 
provide our medics with state-of-the-art training required for treating 
combat casualties.
    As to non-medical care, the Air Force is fully committed to caring 
for our brave wounded ill and injured airmen and their families. In 
fiscal year 2010, we programmed $13.3 million to provide non-medical 
case management, support, and assistance through the Air Force Survivor 
Assistance Program, the Recovery Care Program, and the Air Force 
Wounded Warrior Program.
    Our Wounded Warrior population has increased by 329 members to 
1,043 as of March 31, 2011. The current breakdown by component 
includes: Regular, 762; Reserve, 131; and Air National Guard, 150. Of 
this total population, 635 or 61 percent suffer from psychological 
(PTSD) illness and the remaining 408 are recovering from injuries, 
including Traumatic Brain Injury. In this regard, we place heavy 
emphasis on the performance of our Recovery Care Coordinators and their 
ability to reach our airmen in all components regardless of location. 
In keeping pace with our growing population, the Air Force has hired 32 
Recovery Care Coordinators to support 30 locations across the Air Force 
and we have increased our Air Force Wounded Warrior Care Managers from 
12 to 21 positions.
                integrated disability evaluation system
    The Integrated Disability Evaluation System (IDES) provides support 
to our servicemembers who have potentially disabling conditions. To 
date, approximately 40 Air Force installations have implemented 
disability processing under IDES. Under IDES, there is a 5.3 percent 
rate of appeal of informal physical evaluation board decisions, 
compared to a 15.4 percent rate of appeal under the legacy process. For 
these individuals, IDES has the potential for retaining them in an 
active status for considerably longer periods of time compared to the 
legacy disability evaluation system. As a result, the Air Force is 
especially pleased to be working with the Office of Wounded Warrior 
Care and Transition Policy in developing the IDES Remodel to 
incorporate streamlined processes within the medical evaluation phase 
of IDES.
                  physical disability board of review
    As a result of the 2008 NDAA Wounded Warrior legislation, the 
Department of Defense was directed to establish the DOD Physical 
Disability Board of Review (PDBR). OSD designated Air Force as the Lead 
Component to operate and manage this congressionally directed Wounded 
Warrior program. The Air Force operates the board on behalf of the 
Secretary of Defense and provides critical reviews for all uniformed 
services, including Army, Navy, Air Force, Marine Corps, Coast Guard, 
and their Guard and Reserve components. Since its inception, the board 
has received 2,296 applications and adjudicated nearly 800 cases with 
an overall recharacterization rate of 58 percent to a disability 
retirement.
    The Department of Justice remanded a Post Traumatic Stress Disorder 
Class Action Lawsuit Litigation (Sabo, et al, v. United States) to the 
board for remediation. Nearly 1,200 individuals who were board eligible 
chose to join the suit. Since July 2010, the board has made 
recommendations to the Service Secretaries on more than 200 Sabo cases. 
Ninety-four percent of these cases have resulted in recharacterization 
recommendations to retirement.
    Since the Physical Disability Board of Review is a DOD board, OSD 
programmed the funding to the Air Force for the board's standup and 
operations through fiscal year 2012. However, due to the extended 
operational requirement of the board and existing DOD policy, the Air 
Force will now pursue proportional reimbursement from each Service to 
fund current and future year operating costs.
                         total force enterprise
    We are diligently working to develop a requirements-based 
analytical model which we hope will enable us to more effectively 
balance the mix of regular and Reserve component forces across the 
Total Force Enterprise (TFE) and put them to their most effective use. 
The end state we seek is equilibrium between demand, requirements, 
inventory, manpower, costs, and employment guidance in the new 
strategic reality of today's dynamic operational environment. As we 
continue to utilize the Reserve component as an operational force, our 
goal is to design a process that will assure we are approaching force 
structure from a total force frame of reference and achieving the 
optimal balance of capabilities in a manner that is repeatable and 
transparent.
                          continuum of service
    Continuum of Service is a personnel management construct supporting 
the most efficient use of human capital to accommodate varying levels 
of individual services commensurate with a member's ability to serve 
either part-time or full-time to effectively meet Air Force 
requirements. This will allow the Air Force enterprise to more 
efficiently meet its human capital needs. In a collaborative effort, 
the Air Force Secretariat, Air Staff, Air Force Reserve, and Air 
National Guard staffs are developing and implementing Continuum of 
Service personnel policies, guidance, programs, and initiatives in 
support of Air Force Strategic guidance and Air Force priorities such 
as modernizing organizations and developing and caring for airmen and 
their families.
    integration of air force component personnel management systems
    In late 2010, the Secretary of the Air Force directed a team of 
cross-functional leaders from across the Air Staff to develop a work 
plan to integrate the three Air Force Component Personnel Management 
Systems into a single system. This effort is charged to review, analyze 
and integrate not only data systems, but also organizations, laws, 
regulations and policies, processes, technology, and performance 
management. Our strategic intent is to establish a single, uniform 
system for Air Force personnel management optimizing existing systems 
already in place. This effort is known as the Integration of Air Force 
Component Personnel Management Systems, commonly referred to as 3-1 
Integration, with a targeted initial implementation date of calendar 
year 2012, with follow-on actions through the Future Years Defense 
Plan.
    The integration of personnel management systems across the Air 
Force is intended to improve efficiency in Air Force personnel 
management; promote uniformity in policies, processes, and regulations 
to the extent practicable across the Active Duty, Air National Guard, 
and Air Force Reserve; reduce barriers across the components; enhance 
career opportunities for a Continuum of Service; and provide better 
service to our airmen.
                         don't ask, don't tell
    We are responsible for many Don't Ask, Don't Tell repeal actions, 
including the education and training of our Total Force. Every airman 
must understand what is expected in the post-repeal environment, 
including the continuation of the Air Force's high standards of 
professional and personal conduct. To achieve this goal, we are 
aggressively implementing a systematic training program and updating 
numerous Air Force Instructions to implement policy changes on 
separations, accessions, recruiting, and sexual orientation. The 
dignity and respect of our airmen will remain a top priority, as 
always. In the Air Force, all airmen receive the opportunity to reach 
their highest potential in an environment free from personal, social or 
institutional barriers.
                               conclusion
    Today's airmen possess an unsurpassed commitment and dedication to 
service and are a credit to the Joint Warfighter and the U.S. Air 
Force. They enable our competitive advantage against our adversaries 
and deliver dominance in air, space, and cyberspace. For these reasons, 
we will continue to recruit, train, and retain America's finest to 
serve our great Nation, and for their solemn devotion we have an 
obligation to provide the care and service they and their families 
deserve.

    Senator Webb. Thank you very much, Secretary Ginsberg.
    General Jones, welcome.

 STATEMENT OF LT. GEN. DARRELL D. JONES, USAF, DEPUTY CHIEF OF 
   STAFF FOR MANPOWER, PERSONNEL AND SERVICES, U.S. AIR FORCE

    General Jones. Thank you, sir. Chairman Webb, Ranking 
Member Graham, thank you for the opportunity to appear before 
you today and represent the men and women of your U.S. Air 
Force.
    These tremendously talented men and women--officers, 
enlisted, and Air Force civilians of the total force--are the 
backbone of our Service in an era of evolving requirements, 
constrained budgets, our Air Force faces increasing set of 
challenges. As the Deputy Chief of Staff for Manpower, 
Personnel, and Services, I'll do everything I can to help 
deliver fully qualified and ready airmen to the joint 
warfighter, while meeting the essential needs of these airmen 
and their families.
    We are dedicated to properly managing our end strength. 
Unfortunately, with retention at a 16-year high, we are 
compelled to use voluntary and involuntary programs. We expect 
to exceed our end strength in fiscal year 2011, and could 
experience additional growth in fiscal year 2012, if we do not 
actively manage our force levels.
    Our force management strategy is not a quick fix, but a 
tailored, multi-year effort. Beyond existing force management 
legislative authorities, we are working with the Office of 
Secretary of Defense to seek additional legislative authorities 
to provide us the tools to better manage our end strength.
    America deserves the very best Air Force in the world, and 
that is what you have. We must recruit, develop, and retain the 
highest quality airmen from the broadest landscape to maintain 
that status. Even though quality and retention are high, we are 
obligating a portion of our budget for bonuses to recruit the 
right skill sets and retain experienced airmen in our critical 
warfighting skills. Without these funds, we will handicap our 
commanders and their ability to carry out the full range of 
missions America demands of its Air Force.
    We are committed to strengthening the resilience of our 
airmen and their families. Our goal is to build resilient 
airmen who have the ability to withstand, recover, and grow in 
the face of stressors and changing demands.
    We remain fully committed to caring for our wounded airmen. 
We continue to provide support and assistance to the Air Force 
Survivor Assistance Program, the Recovery Care Program, and the 
Air Force Wounded Warrior Program, and will do so for as long 
as needed.
    In closing, today's airmen have an unsurpassed dedication. 
They enable our competitive advantage against our adversaries 
and deliver dominance in air, space, and cyberspace. We will 
continue to recruit, train, and retain America's finest, and we 
will provide the care and service that they and their families 
need.
    To that end, we would like to thank you for championing the 
post-9/11 GI Bill and the opportunities it has provided to many 
of our airmen and their families, including my youngest, who's 
in his first year at Texas A&M University in computer science.
    On behalf of the Chief of Staff of the Air Force, we 
appreciate your unfailing support of our airmen, and we look 
forward to answering your questions today.
    Senator Webb. Thank you very much, General.
    As I mentioned at the beginning of the hearing, your full 
statements will be entered into the record immediately after 
your oral statements. They have been, and they will be again, 
thoroughly examined by staff. There may be a number of follow-
on questions, staff-to-staff, after this hearing. All of the 
information that you provided is valuable to us as we looking 
forward to marking up the defense bill this year.
    I have a number of questions. I think what I'm going to do, 
because of the nature of the subcommittee, is, I will ask one 
and then ask Senator Graham to go ahead and ask one. Welcome, 
Senator Blumenthal. We can just rotate, rather than any one of 
us taking up a block of time the way that it's normally done on 
full committee.
    I'd like to start with this. Last week, I raised the issue, 
with Under Secretary Stanley, and also with the Defense 
Comptroller, about the nature of the contracting force, the 
civilian contractors. Many years ago, I was Assistant Secretary 
of Defense for Reserve Affairs. At that time, we were flushing 
out the structure of what we then called the ``total force,'' 
which was the Active, Guard, and Reserve, and--shall we say, 
the formal civilian component of DOD. Since the post-September 
11 buildups, we have had an enormous growth in civilian 
contractors, many of whom perform what, in the past, were 
military functions. We're having a hard time getting an actual 
number from DOD as to how many civilian contractors really are 
on board at any one given time. So, I would like to ask each of 
you, however you want to do this, by service component, how you 
take into account civilian contractors when you build your 
manpower models.
    Secretary Lamont.
    Mr. Lamont. It's all part of our total force mix. Each Army 
military organization is required to maintain an inventory of 
all their functions to assess whether those functions are 
inherently governmental, closely associated, or not at all. 
From that, we determine, then, which positions can be converted 
to internal full-time employees. As we look at our total force 
policy, though, we look at all mix of all components, be it the 
Active Duty, be it the Guard and Reserve, be they civilians in 
our contractor mix--trying to create the most balanced and 
integrated total force that we have.
    On the Army side, you will find in excess of 200,000 
contractors at any given time. Like you, we have some issues 
determining precisely how many contractors we have at any given 
time. Given our drawdown that's looming----
    Senator Webb. Let me ask you one question----
    Mr. Lamont. Yes, sir.
    Senator Webb.--on that, because this is one of the issues 
that came up last week. When you say ``200,000,'' does that 
include contractors that are brought on board through block 
operations and maintenance funding that goes out to the various 
combatant commanders?
    Mr. Lamont. Yes, it does.
    Senator Webb. It does? Okay.
    Secretary Garcia?
    Mr. Garcia. A year and a half into my tenure, I shared the 
frustration with the challenge of putting a headcount on the 
contractor force. As we've wrestled with it, what we learn is 
that oftentimes a contract is let, and it's up to that 
contractor, as an entity, to determine how many folks they'll 
employ in that effort, ranging from folks operating in theater, 
obviously full-time, to part-time work, mowing the grass on 
bases.
    It came to a head during the end game of this year's budget 
process, when the remaining variable, at the end of the 
process, was that contractor figure. What we found was that it 
was a less-than-strategic effort to meet our numbers; instead, 
was applied, salami-slice style, for lack of a better term, 
across the BSOs.
    We started a 2-month initiative, a total force effort to 
drill down to ensure that each of the BSOs has a strategic 
voice in ensuring what their contractor force should be, and 
that it does not become an afterthought. In the meantime, we 
continue to drill down and put a headcount on the number of 
contractors out there, acknowledging that it's a challenge, in 
that how a given entity deploys their personnel is up to them.
    Senator Webb. So, do you know how many contractors are in 
the Department of the Navy?
    Mr. Garcia. Candidly, we do not, Mr. Chairman.
    Senator Webb. It's kind of difficult to place----
    Senator Graham. Within 50,000, can you tell us?
    Senator Webb. It's kind of difficult to place cost-
effectiveness on the use of a contractor if you don't know how 
many you're using.
    Mr. Garcia. We concur. What we do know is what we're paying 
in--for contractors and for those services. What we're trying 
to do with this 2-month initiative is, across the BSOs, make an 
assessment of whether we're using them wisely across each one.
    Senator Webb. So, you're working toward finding a number.
    Mr. Garcia. That's right.
    Senator Webb. Okay.
    Secretary Ginsberg?
    Mr. Ginsberg. Senator, we of course recognize that, in 
addition to all Active, Guard, Reserve, and civilian manpower, 
we have a great amount of work that's being undertaken by 
contractors. One of the major muscle movements that we've been 
engaged in over the past couple years is a great deal of 
insourcing, where we took a look at some of the work that was 
being done by our contractors, and we saw that it actually 
would save money and did get the work done as effectively by 
bringing it back in house. We've been undertaking that process.
    In terms of tracking the amounts, we have a general idea. 
It's around 215,000 over the next few years. But, in terms of 
the specific granularity, that's a challenge that we're going 
to work on with our fellow Services, as well as the Office of 
the Secretary of Defense (OSD), in trying to get that 
granularity that we need.
    But, we definitely recognize, of course, that there's great 
deal of work that has contributed to the Service, and that--
fluctuations in that realm have an impact, and that we need to 
address.
    Senator Webb. For the record, we'd like to see your best 
estimates on those numbers, as we move toward the Defense bill 
this year, which means fairly soon.
    [The information referred to follows:]

    Mr. Lamont. Army has 237,000 contractor full-time equivalents.
    Mr. Garcia. The Department of the Navy (DON) (Navy and Marine 
Corps) contracts for services and/or deliverables. The majority of 
these contracts are based on outcome and/or performance. As such, 
current contractual practices do not require the reporting of 
contractor headcount or workforce full-time equivalent (FTE) work-
years. As required in 10 U.S.C. 2330a, the DON developed a methodology 
for estimating FTEs (due to performance based contracting) that 
reported 249,821 FTEs of contracted workload in fiscal year 2009. As 
directed in the National Defense Authorization Act for Fiscal Year 
2011, the DON is currently working with the Department of Defense (DOD) 
to adopt the Army methodology for estimating contractor FTE work years.
    Mr. Ginsberg. The Air Force contracts with private companies for 
the performance of commercial activities--we do not ``maintain'' any 
contractors. The size of this workforce is dependent on the definition 
used, but we have quantified three basic full-time equialvent 
definitions as found below:

----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal Year
                 Definition                  -------------------------------------------------------------------
                                                    2009             2010             2011             2012
----------------------------------------------------------------------------------------------------------------
All Service Contract........................                          230,000          215,000          219,000
Title 10, Section 235.......................                          132,000          127,000          129,000
Title 10, Section 2330a.....................         190,000            Under
                                                                  Development
----------------------------------------------------------------------------------------------------------------
Definition Notes:
1. Title 10 Section 235, Procurement of contract services: specification of amounts requested in budget excludes
  services related to research and development and services related to military construction via statue.
2. Title 10, section 2330a, Procurement of services: tracking of purchases excluded portions of R&D Contracts
  (1, 2, and 3), leasing of equipment/facilities, and construction (OSD Direction in consultation with Congress)

    These amounts were quantified using a derived average cost 
calculation methodology to document the number of contractor full-time 
equialvents similiar to that the DOD used in the fiscal year 2009 
Service Contract Inventory per USD(AT&L), Compliance Instruction for 
Inventories of Contracts for Services, dated 10 May 2010. 
Unfortunately, this is our only alternative since we do not have a data 
collection system in place that captures this contractor full-time 
equivalent information.

    Senator Webb. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. That was an 
excellent question.
    I know it may be difficult to count, but as we try to 
figure out what force we can afford and pay for, and where's 
the best investment of taxpayer dollars, I think is very 
important that we understand, generally speaking, how many 
contractors we have.
    That gets us back to numbers of people available for the 
fight. Secretary Lamont and General Bostick, I understand there 
are 20,000 Army personnel awaiting disability evaluation 
boards, or in that system. We're supposed to draw the Army down 
by 22,000 over the next couple of years. What are we doing to 
get the people through the system? That's 42,000 people, over 
the next couple years, that will be lost to the fight. How does 
that impact the Army? Nondeployable really means you can't go 
to the fight. Doesn't mean you can't contribute, but it does 
take away.
    General Bostick. Yes, Senator. The nondeployable situation 
is just one factor in our overall challenges in manning the 
force. Congress helped us with the 22,000 temporary end 
strength increase, and that allowed us to account for not only 
the nondeployables, but the wounded warriors, and the fact that 
we had to stop using stop-loss. So, all of that 22,0000 is 
being utilized today.
    Additionally, we were supposed to stand up three additional 
brigade combat teams, and we did not do that. We did not apply 
structure to it. So, that gave us another 10,000 or so to work 
with.
    Having said that, it's bigger than the nondeployable issue, 
which we're working. It's also the fact that we're going to 
come down the 22,000, then come down 27,000. We're going to do 
that in an environment where we're still fighting a war. But, 
the physical disability evaluation system (DES), in the 
process, despite all of our efforts and despite all of the 
leadership that has gone into it--it is not functioning at a 
pace that is keeping up with the number of soldiers that go in 
there. So, it grows every month, as opposed to--the input is 
much higher than the output.
    So, we are working very closely with OSD to figure out how 
we can streamline it. We've worked closely with the VA on the 
integrated DES. So, instead of doing two physicals, we now do 
one physical. But, it takes more time on the Army time.
    But, the bottom line is, I think we have an antiquated 
medical, physical DES that needs to be revamped for the war 
that we're in, and to really meet the needs of Active, Guard, 
and Reserve soldiers and other military needs.
    Mr. Lamont. If I might just add the DES is complex, 
disjointed, hard to understand, and takes way too long. That's 
the good news.
    On top of that, it is, as you say, highly inefficient and 
truly does impact our readiness. We have to get a grip on this, 
and we are making every effort to do that, as we move hopefully 
to get to a single----
    Senator Graham. I understand it's frustrating. It's a 
balance here. You just can't throw people out. Most people want 
to stay. Being told you're disabled and unable to serve is a 
dramatic event. Some people obviously can't, and they need to 
be separated with dignity and quickly, and given the best 
treatment possible. You need a process that will convince 
people, who are challenging their decision, that they're not 
able to stay in--fair renderings of evaluations. Just let us 
know what we can do to help. This is a major problem for the 
country.
    Mr. Lamont. It's not all medical-related. We will find 
legal, being a fellow JAG--our legal issues, particularly on 
the due-process side, have expanded over the past 10 years. 
There are various other slices that contribute to the problem. 
But, medical is our largest.
    Thank you.
    Senator Webb. Let me, if I may, add something on this--but 
the disability evaluation process--is much more complex than 
any civilian model that people may try to use. I say this as 
someone who worked for 4 years as committee counsel on the 
House Veterans Affairs Committee, years ago, and represented 
many veterans--pro bono, by the way--on their disability 
claims. It's not simply people who are trying to stay in, and 
want to stay in; there are a lot of people who want to get on 
with their lives and, at the same time, have suffered some sort 
of permanent disability, with respect to having served their 
country.
    Disability law evolved out of the old private bills in 
Congress, where people who would have in other wars, would have 
had no recourse except for to get a Member of Congress to come 
in and say, ``My constituent lost a leg and we'd like the 
government to sort of help him out.'' So, part of it is whether 
an individual is able to stay on Active Duty. Another part of 
it is simply compensating people--citizen soldiers, who have 
served--for any injuries and disabilities that they incurred 
when they stepped forward to serve their country.
    I'm a little worried here. This is the reason that I'm 
raising this. I'm a little worried with this joint single-
disability evaluation, because, in history, there are always 
two separate evaluations. There was the evaluation as to 
whether or not someone was fit to remain on Active Duty, and 
then, the second one, with the Veterans Administration (VA), 
was a lifetime evaluation. You could leave the military with a 
10-percent incurred disability during your military service, 
but that disability could get worse as you get older; and when 
you're 55, 60, 65 years old, the VA, appropriately, could rate 
you as, say, 60-percent disabled.
    What we're seeing right now, first of all, is a logjam, 
which is what Senator Graham is talking about. A lot of people 
who want to get out, who are ready to move on, who've done 
their time, can't get out. They're stuck on Active Duty until 
this process unwinds. Then, the second one is, there are people 
who are going to leave the military with a fairly small 
incurred disability that, over their lifetime, is going to 
grow. It's appropriate for us to take that into account, as 
well.
    Do you want to add anything, Senator?
    Senator Graham. I agree.
    Senator Webb. Yes. All right.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Webb.
    Thank every one of you, for your service to the Nation, and 
to the people who serve with you, and particularly your work on 
recruiting and training the best-qualified people who are 
entering the military, and people given such talent and skills, 
as we've just seen over the last couple of weeks. The briefings 
that we've received have emphasized that the triumph was an 
all-service triumph, truly. Although the Navy Seals are the 
ones in the spotlight, the training and the qualifications that 
you are instilling, I think, are seen not only at the tip of 
the spear, but throughout the armed services. This leads me to 
the question, focusing on the end, when these folks leave the 
military; among them, the most talented and dedicated in their 
age group, receiving tremendous training, and those skills may 
not be directly applicable to civilian needs, but they then 
become among the highest unemployed in the whole country. 
Depending on which numbers you pick, or which ages and so 
forth, their rates are multiples of the civilian populace, 
which seems to me not only unjust and unfair, but unproductive.
    I have a general question, which I'd like to pose to you. I 
know time may not permit, and you may not have been fully 
prepared for this question. So, I would welcome anything you 
have, to follow in writing later. But, I think this is 
profoundly important for the whole Nation.
    Why is it that the unemployment rates are so high among 
that 20- to 30-year age group? What can we do about it? I've 
looked at the testimony, and there's not a lot in here, but I 
would welcome any comments that you have.
    Secretary Garcia?
    Mr. Garcia. Thank you, Senator. Thanks for raising the 
issue, and I speak for the Navy and the Marine Corps when I say 
that, candidly, our Transition Assistance Program (TAP) has not 
been sufficient. A 3- to 4-day evolution, required on the 
Marine side; but, the reality is, it's not been sophisticated 
enough, it's not been tailored for the individual. At a time 
when your Marine Corps is 60 percent under 25 years old, 40 
percent lance corporal or junior, when that junior marine gets 
out--it's highly likely that he or she enlisted right out of 
high school, has never put a resume together, and he's in the 
same room, going through the same seminar as O-5, O-6, who has 
a different set of needs as he or she makes their transition.
    What my colleagues and I are in the process of rolling out, 
a focused effort, a joint effort with the VA, with the 
Department of Labor. It's a TAP 2.0, if you will, a new TAP 
that'll roll out, Veterans Day, this November--that instead of 
being a 3- to 4-day generic slice of what one could expect, 
it'll be focused and tailored for the individual, not just a 1-
week evolution, but one that a member can reach back to in the 
weeks and months to come, that will address what we know to be 
a major chokepoint in hiring, that is, translating the skills 
that a member learned in the Navy or the Marine Corps into 
terms that are applicable for industry, that will have avenues 
for spouse engagement, as well. In many cases, we know that 
these days, they're the principal breadwinner. It will be an 
ongoing engagement. It'll also, at the same time, address 
veterans' benefits, access to the Reserves, and be an all-
around, 360 revisitation or reformation of the TAP experience.
    Senator Blumenthal. I was actually going to ask whether a 
sort of re-TAP, or second-round TAP, once somebody gets home, 
or where that person is going to call home, might make some 
sense. But, it sounds like you're pursuing that approach.
    Mr. Garcia. I think it's going to be productive, Senator.
    Senator Blumenthal. Thank you very much.
    Senator Webb. Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all the witnesses who are here, for your 
testimony and for your leadership, for your service to our 
country, and to all of those that serve underneath you.
    Lieutenant General Bostick and the other panel members, I'm 
pleased to see, in your written statements, your repeated 
recognition of the critical contributions that our guardsmen 
and women have been playing, in terms of our national security. 
As we all know now, they are an operational force. We've needed 
their assistance to conduct the wars in Afghanistan and Iraq, 
and it's been critical.
    I want to follow up on actually a question that Senator 
Blumenthal asked you about. In the Guard and Reserve, the issue 
of unemployment--when you get back from a deployment, go back 
into your community, you're in a setting where you are not 
necessarily on a base, where you might get put right back in a 
civilian setting, where others might not understand or 
appreciate the experience you've gone through, and then also 
with the unique challenges of dealing with employment in a 
context where you're a civilian worker, and then you're called 
away and come back.
    We have a program in New Hampshire called the Deployment 
Cycle Support Program, that's been a great public-private 
partnership that I've talked to many of your colleagues before 
our Armed Services Committee about. In the fiscal year 2011 
Defense appropriation, there was $16 million allotted for 
outreach and reintegration services under the Yellow Ribbon 
Reintegration Program. I spoke with Secretary McCarthy last 
week about this program.
    Last week, Secretary McCarthy assured me that critical 
funds to continue, in our State, this Deployment Cycle Support 
Program, which has been very successful, in terms of measurable 
metrics, on reducing unemployment, on making sure that our 
guardsmen and women get the appropriate support on the mental 
health end and other services they need when they return, to 
cover the whole deployment cycle, are there. There were many of 
us that joined on a letter. There were eight States that have 
these types of programs. Secretary McCarthy assured me that 
these funds that were allocated in fiscal year 2011 were making 
their way through the system to the National Guard Bureau and 
then to the eight States, including New Hampshire.
    A week has passed, and many of the States--I can speak for 
my own, New Hampshire--are approaching the deadlines for 
putting this funding in place. If we delay any longer, we're 
going to risk a gap in service that will directly hurt our 
troops and our families.
    So, I would like to ask either Assistant Secretary Lamont 
or Lieutenant General Bostick, or whoever is the most 
appropriate individual to answer this question, Can you tell me 
the status of where these funds are and when these funds will 
be provided to the National Guard Bureau and distributed the 
eight States who have these model programs?
    We need a national way to address this. I'm proud that my 
State has a model that I think is a good one for everyone to 
examine, it's an efficient use of funds. It also brings the 
private sector in, which I think is very important. So I would 
urge you all to look at that on a national basis.
    But, right now, I'm concerned about New Hampshire, and 
wondered where we were at in getting those funds to continue 
that program.
    Mr. Lamont. I'll take the first stab at it.
    Senator Ayotte. Thank you.
    Mr. Lamont. Which--it's a very serious question, and we 
appreciate the question. But, quite candidly, I cannot tell you 
the status of those funds right now. We will try to get you an 
appropriate answer as soon as we can.
    [The information referred to follows:]

    On May 13, 2011, the State of New Hampshire received $2 million 
from the $16 million outreach funding that was appropriated by Congress 
in the fiscal year 2011 budget.

    Mr. Lamont. As a 26-year guardsman, I can tell you I share 
your concern, here. As we do any kind of transition with 
Reserve component forces, it's always considerably different 
because of their location, the geographic differences from an 
installation which has quite a bit more service and support 
available to the returning veterans on the active side--we're 
very concerned about our transition efforts for our Reserve 
component.
    We have a Yellow Ribbon Integration Program. We do try very 
hard to have employer-support relationships. We do have a 
regional service, medical centers.
    The employment situation really is a great concern. This 
goes, also, to Senator Blumenthal's question. That cohort is 
not an easy one to help right now. We're making every effort, 
as I say, to bring in these employer relationships, set them up 
into our Yellow Ribbon Programs, to have them on the ground, 
there, to meet with them.
    Also, I think the Reserves has a new program--it's called a 
``Helmets to Hardhats Program''--in which we have any number of 
skills--for instance, if you're a military police soldier, do 
you need to go back and requalify in your State to be a law 
enforcement officer? Do you need to take that over-the-road 
test for a commercial driver's license if you are fully 
qualified in the transportation end? We are trying to find any 
number of those partnership linkages where it will assist them 
in going forward, back in their home States.
    Senator Ayotte. I very much appreciate what you're saying. 
We would love to have you up to our State to take a look at it 
and--because we've bridged those partnerships, and we're 
keeping metrics on issues like deployment retention, 
homelessness, unemployment, mental health. We've had instances 
where we've actually saved someone from committing suicide. So, 
I think that things always start, hopefully, as a pilot. You 
get measurable metrics and go forward. So, please come to visit 
New Hampshire.
    I would also say, I'm hoping, in the short term--I would 
very much like an answer on where we are on the status of the 
funds. So, if you could follow up, or if--unless someone else 
on the panel has the answer--with the status of that, it's 
something that's an immediate need. We know it's there, and 
Secretary McCarthy is committed to getting those funds where 
they're needed. So, I would appreciate that.
    Mr. Lamont. Thank you.
    General Bostick. Senator, we'll follow up. We don't have 
the answer to that today.
    [The information referred to follows:]

    On May 13, 2011, the State of New Hampshire received $2 million 
from the $16 million outreach funding that was appropriated by Congress 
in the fiscal year 2011 budget.

    General Bostick. But, I did want to say that in our own 
Army Career and Alumni Program, our Vice Chief, General 
Chiarelli, asked us to relook at that program. That report's 
coming in this May. So, we've worked that with West Point and 
with the Guard, Reserve, the VA, and Secretary Ray Jefferson, 
over at Labor. That's going to be helpful to us.
    What I would also say is that the 20- to 30-year-old age 
group is that same group that is having tough time with 
unemployment across the country. Our military reflects society, 
and where we differ is, they're part of the 1 percent that have 
worn the uniform. While the government and the military can 
help work a lot of these issues, after 4 years in recruiting, 
what I learned is that a lot of America wants to help, but they 
don't know how. Part of what I would offer is that our soldiers 
coming out may not be certified in the areas that they need. A 
truckdriver may not have the certifications, but can drive a 
truck anywhere. A medic may not have the exact certifications 
that they need, but can work anywhere.
    An educator on our platforms, or an instructor at West 
Point, coming out, may not have the certifications to go into 
an elementary school or high school. But, what can the country 
do to accept those military without those certifications, get 
them into jobs, and then allow them to work on the 
certifications as they go along?
    We're doing the same in reverse, because we are desperately 
short of alcohol and substance abuse counselors. The one thing 
that those counselors really need to be independent counselors 
is they need 2 years of study and tutelage under a supervisor. 
No one on the outside really has the time to deal with folks 
that need 2 years of study. So, we are bringing them on. We're 
making them commit to moving with us when we tell them that 
they have to move to a part of the country that is not a big 
city, and that they have to stay with us for a certain amount 
of time. But, we'd ask the country, What can you do to take our 
soldiers on?
    Senator Blumenthal. Mr. Chairman, if I could just add a 
quick footnote to that----
    Senator Webb. Sure.
    Senator Blumenthal.--really excellent question. When you 
compile those numbers for New Hampshire, could you please get 
them for the other States, as well? I recommend visiting New 
Hampshire or New England, including Connecticut. This time of 
year, it's a beautiful time to be there.
    Senator Webb. Thank you, Senator Ayotte.
    I don't think there are many issues in the military 
personnel that are more emotional or controversial than the 
issue of diversity.
    Secretary Garcia, during your confirmation hearing 2 years 
ago, there was a debate going on at the Naval Academy about 
standards. I asked you about it during the confirmation 
hearing. There were allegations that there was basically a two-
track admissions system--one for athletes and minorities and 
the other for other folks. You indicated you were going to get 
your arms around that.
    Let me just say, I am aware, at least from the 1970s, that 
there have been DOD policies with respect to diversity. When I 
was Secretary of the Navy--every promotion board, there was a 
precept that went into the promotion board saying, ``You will 
examine issues relating to diversity.'' At the same time, we 
just had a diversity commission come out recommending more--
different kinds of policies. I know, in the Air Force 
statement, there was some observation in there that there's 
actually an officer in charge of diversity at the Air Force 
Academy, or something to that effect.
    I'm just wondering what's going on. Secretary Garcia, why 
don't you start with the question that we had during your 
confirmation hearing?
    Mr. Garcia. Sure. Thanks for the opportunity, Mr. Chairman.
    There's been a lot of coverage, a lot of ink spilled, on 
what's been depicted as a most diverse Academy class in its 
history, and the most diverse ROTC class in its history. I 
think the real significance is that, what is the largest is the 
most number of applications from minority Americans across the 
country, in Academy history, over the last 4 to 5 years. The 
same with ROTC. If the argument goes that if you cast a wider 
net, you'll get a better candidate, that, in the mission that 
the Nation now requires of our Navy and Marine Corps, that we 
can't afford to overlook talent anywhere, I think it follows 
that recruiting and looking for candidates in regions where we 
haven't had applicants before, drawing from congressional 
districts where we haven't had applicants before--the number of 
congressional districts who send less than three qualified 
applicants, within the recruiting year, has been cut in half 
over the last 4 years. We've gone to places we just haven't 
gone before. If that's the premise, I think you can draw a 
linkage between casting that wider net and the superior 
candidate we're getting now.
    Tightly correlated with a spike in minority applications is 
a greater presence of minority midshipmen on the meritorious 
academic honor roles and a discorrelation, less of an 
appearance on attrition roles--greater graduation among 
Hispanic midshipmen. In less than a decade, it's gone from 68 
to 81 percent.
    I continue to wrestle with this, specifically in the Naval 
Academy Prep School application. But, my guiding light, my 
northern star, remains in--I guess the academy position is that 
if we continue to recruit in places we haven't been before, 
cast a wider net, we'll continue to get the best of the best.
    Senator Webb. What are your findings with respect to the 
allegations about different standards?
    Mr. Garcia. The Academy employs a whole-person structure. 
It is documented that there are midshipmen who are accepted, 
who do not have traditionally as high a board scores, 
Scholastic Aptitute Test (SAT) scores as others. But, because 
of the whole-person structure, that takes into account other 
things--less quantifiable, perhaps; life experiences--they are 
admitted. I continue to wrestle with that and the results at 
the other end; that is, the graduation end, performance end, 
retention end, performance in the fleet--to ensure that we're 
getting the best we can get.
    Senator Webb. Let me make one other suggestion. If you're 
following that formula, there are a lot of differences among 
white cultures in this country. That's something that's not 
frequently talked about. I wrote a piece in the Wall Street 
Journal about this last July. When I was in law school, the 
University of Chicago did a study of white ethnic groups, and 
they broke them down into 17 different ethnic strata, and the 
difference between the top and the bottom, in white America, 
was greater than the difference between white America and black 
America at that time, in the 1970s.
    So, if you're looking for places where people perhaps 
haven't been applying, you may want to examine areas like the 
Appalachian Mountains and areas like that.
    Mr. Garcia. Point taken, Mr. Chairman, and know that when I 
alluded to ``regions'' we disproportionally haven't heard from, 
that also includes Montana, the upper Midwest. I saw your 
Journal piece, and I take your point.
    Senator Webb. All right. Secretary Ginsberg?
    Mr. Ginsberg. Senator, I appreciate the opportunity to talk 
about our diversity initiative in the Air Force. For us, we 
consider diversity a military necessity. It's not diversity in 
the way that you would think about in, sort of, legally-defined 
equal opportunity programs--race, ethnicity, gender. It's part 
of that. It's really, like you were talking about, as Secretary 
Garcia was mentioning--making sure we're not cutting ourselves 
off from any person who is capable of contributing to the Air 
Force, whether it could be somebody from inner-city or somebody 
from a region where we don't have as many recruits coming in as 
the past.
    So, we see this as sort of a broad-reaching initiative to 
make sure we get the very best people, especially in a time 
when so many young people are not eligible to join the 
military. So, when we've looked at this, and when you can 
almost mathematically show this, that when you get people with 
different perspectives coming together and they look at a 
problem, and they look at it, time and time and time again, 
from those different angles, you get better outcomes.
    Also, there are certain career areas where we have to 
retain people. If somebody who can contribute looks in and 
doesn't see somebody like them, in whatever way, then they're 
not going to want to join the Air Force.
    This is something that the Chairman, Admiral Mullen, has 
talked about, as well as the Secretary of Defense. There are 
some dangers when the country starts looking significantly 
different--and again--not just in race, ethnicity, and gender, 
but a whole broad set of characteristics.
    So, that's really what we have a diversity policy directive 
for, and the Academy has gone out and engaged a really super 
diversity officer. That's really what we're driving for. It's 
something distinct from equal opportunity, and it's certainly 
something distinct from affirmative action, if you will.
    Senator Webb. General Bostick.
    General Bostick. Mr. Chairman, I'd say diversity is 
extremely important in the U.S. Army, as it is with the other 
Services. We compete for the talent that is out there. It's a 
broader definition, I would agree with the Air Force, of 
diversity.
    In the Army, we are experiencing some challenges as--
minorities in our combat arms, if you're just looking at the 
minority part of it.
    But, we did meet with General Lyles, Air Force (Retired), 
and Lieutenant General Becton, Army (Retired), after they did 
the Military Leadership Diversity Commission. We understand we 
have work to do. We're looking at that commission's report. We 
also published our own diversity roadmap that the Secretary and 
the Chief of Staff signed on, and it's guiding the way ahead 
for Army.
    What we have also found in our enlisted force, that is now 
helping in our officer force--and it just gets back to what 
Secretary Garcia said, that it's really a whole-person concept. 
This notion of quality being a test score or some other metric 
has not proven successful in many universities across the 
country and, in some cases, at our Academy and in our enlisted 
force. Our Army Research Institute has developed a number of 
unique tools for us to look at our enlisted soldiers, and now 
our officers, to try to predict their behavior and whether they 
will stay with the Army for the long haul, and whether they'll 
get promoted and serve as a leader. It's a personality 
assessment, an adaptive personality assessment tool that we 
have started; I think the Navy and the other Services are 
using. What we've found out is that there are some that don't 
test as high as those on the top rung, but perform 
extraordinarily well, even better, and then they stay with the 
military. That's important for ROTC. It's important for the 
academies, and we're looking at that as well.
    Senator Webb. Thank you. This is not a question that is 
openly discussed often enough, in my view. I want to be really 
clear here. I grew up in the U.S. military, the first 
institution in this country to be racially integrated, in 1948. 
I believe very strongly that there is strength in different 
cultures working together.
    At the same time, the warning that I would have is, please 
be very careful when you lump so-called white America into one 
monolith in order to create your statistics. There are so many 
different cultures in white America that you run the risk of 
undoing the very thing you want to construct, if you're not 
careful.
    Senator Blumenthal
    Senator Blumenthal. Thank you. Thank you, Senator Webb.
    I want to go a little further in the line of questioning I 
was pursuing regarding the TAP, and focus on another area which 
may not directly link to unemployment. But, I've asked a number 
of panels about traumatic brain injury (TBI), post-traumatic 
stress disorder (PTSD), which obviously is tied to 
unemployment, and wondered if any of you would share your 
thoughts or observation about how the outreach to young men and 
women, who may not even recognize that they should be seeking 
some kind of treatment, can be done, either through the TAP 
program or through something like it.
    Mr. Garcia. Let me start out with that, if I could, 
Senator.
    Senator Ayotte referred to the use of the Guard and 
Reserve. While we don't have a Guard or Reserve that played 
heavily in a decade's worth of combat, on the Navy side, alone, 
we've deployed some 60,000 individual augmentees (IA) for year-
long deployments. What we found, early on in the war, was that 
the reluctance--a fear of a stigma to identify--for an 
individual to stand up and to recognize--verbalize that they 
were wrestling with demons and may need some help.
    What we've done since is initiate what we call a Post-
Deployment Health Assessment (PDHA) that no longer requires 
raising a hand. Everyone gets it, removing that stigma.
    An IA, coming back, takes a PDHA within 30 days, and then 
takes another one within 90 days, a followup. We think, in that 
sense, we've removed the challenge of raising your hand in a 
group of your buddies, taking the stigma out. We think it's 
reaped a benefit.
    Senator Blumenthal. I thank you for that answer. Commandant 
Amos and Sergeant Major Kent have spoken very persuasively and 
eloquently on this issue. I'm thinking not only of Active Duty 
members, but--and not only those as they transition out, but a 
year or so later.
    I spoke, just coincidentally, this morning to a young 
marine who has been out for probably more than a year and 
called me because he'd had an unfortunate brush with the law. 
Nothing serious, but just sort of explosive behavior when 
stopped for speeding. He got himself into more difficulty. 
Then, with his Service experience in Iraq some things clicked 
in my mind. This young man really should be seeing someone 
before he gets himself deeper into trouble.
    If there was some way to reach out to people who have been 
through these experiences and may not have been diagnosed, 
because so many of the cases are undiagnosed. That is just a 
suggestion or an observation.
    General Milstead. Senator, let me jump in here since you're 
using a marine as an example. We're very much involved in the 
PDHA, but your point is a good one. For those marines that have 
already separated from the Service and have gone on--and we've 
spoken about this--we've put our behavioral health--under the 
behavioral health umbrella, we put our combat operational 
stress, our family advocacy, our suicide prevention, our sexual 
assault prevention, substance abuse. They're all connected in 
many, many ways. But for a young marine--and this kind of goes 
back to the TAP, and I won't spend a great deal of time on what 
we're trying to do with the TAP--but, we have a de-stress line, 
we have the means that a young marine can call someone, we have 
our Marine for Life Program, that is distributed in the towns 
across America. That's one of the things in our transition 
assistance, is making sure that we turn this transition 
assistance from an event--from a 3- or 4-day event--into, as 
we've discussed, a process, something that will take care of a 
marine. We like to say, ``You're a marine for life,'' and to 
take care of marines for life, so that they can come back to us 
and they can reach back, if they begin to dance with the 
demons, something that they didn't have, that it has been 
postponed, and that they can come back and we can take care of 
them. I think that's important. We need to do a better job--and 
we're working at that--of making sure that those marines, 
before they go ashore and before they depart the Service, 
understand all those sorts of ways that they can come back. 
There are thousands of people out there, thousands of 
organizations, that want to help and we just have to connect 
them. They're all points of light, and we're working very hard 
on that.
    Senator Blumenthal. I think that's an excellent answer, and 
I thank you, General Milstead. I didn't mean to single out the 
marine. It just happened to be the one who called me this 
morning, and so it occurred to me. But, I thank you for that 
answer.
    General Jones. Senator, I think, from the Air Force 
perspective, identification, obviously, of PTSD and TBI are 
very important. As we start bringing our airmen back from the 
fight, especially those outside the wire, we've started 
utilizing the Deployment Transition Center at U.S. Air Forces 
in Europe where it allows our airmen to decompress, to talk 
about their experiences with professionals, of what they saw, 
what they experienced, and start identifying some of those 
traumatic events early on.
    Then a recent change we've also done, that I'm sure many of 
the Services also utilize, is, anyone being discharged, who has 
deployed within the last 2 years, who had any incident of PTSD 
or TBI, who is being discharged for anything less than an 
honorable discharge, is required to be evaluated by highly, 
highly skilled mental health professionals and psychiatrists. 
By doing that, we've realized that a lot of the misconduct 
that--maybe in the past, have gotten someone discharged for 
personality disorder or adjustment disorder, is really related 
back to the TBI. 61 percent of all of our airmen who we follow 
in the Wounded Warrior Program experience some portion, or some 
manifestation, of TBI or PTSD syndrome. Some, that's all that 
they experience, and that's why they're in the Wounded Warrior 
Program. Others obviously have other issues, along with that.
    So, I think the identification, through the Deployment 
Transition Center, as they roll back. I know, the marines 
recently evaluated our program at Ramstein, and have wanted to 
use that for a lot of their marines that were outside the wire, 
dealing with conflict every day. It's a great program. I'd 
encourage you to come over and see it if you ever have an 
opportunity to pass through Ramstein.
    Senator Blumenthal. Thank you. I hope to do that. Thank 
you.
    Senator Webb. Thank you, Senator.
    What percentages of your discharges are honorable these 
days, as opposed to general or other than honorable?
    General Jones. Senator, I'd have to get the for the record.
    It's obviously the great, overwhelming majority of them.
    Senator Webb. You don't have any idea?
    General Jones. I can get that for you.
    [The information referred to follows:]

    Air Force officer separations from fiscal year 2001 to fiscal year 
2011 (year-to-date):
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Air Force enlisted separations from fiscal year 2001 to fiscal year 
2011 (year-to-date):

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    General Milstead. For the Marine Corps, sir, we'd like to 
take that for the record and come back to you so that you get a 
precise answer on it.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Milstead. Of course, the vast majority----
    Senator Webb. I'd be curious to see it.
    General Milstead. Yes sir. We'll come back to you with it.
    Senator Webb. I can tell you, it was 97 percent, during the 
Vietnam era. That's a readily available piece of information 
I'd like to look at, honorable versus general versus unsuitable 
versus court-martial, bad conduct, or dishonorable discharge 
just for the record.
    I'd like to throw a question out, here. I mentioned it last 
week. We've had testimony estimating that around 25 percent of 
the 17- to 24-year-olds in this country are eligible for 
enlistment, the disqualifying reasons being, generally, 
educational/physical requirements. I just find that mind-
boggling. I know this is an enlistment-rich environment, for 
many reasons, right now. But, it's an issue that I think may 
come up, depending on circumstances in the future, and 
certainly for the health of the country, if we're talking about 
cross-sections of people coming in. Again, I go back to the 
Vietnam era because it was an era where there was conscription 
and there were a lot of people who didn't want to go in. But, 
still, one-third of the draft-eligible males during the Vietnam 
era, actually served, either on Active Duty or in the Guard and 
Reserve. Now we're saying 75 percent in this pool wouldn't even 
be able to, if these numbers are correct.
    So I'm wondering, first of all, if this really is an 
accurate figure. Second, if there's some sort of evaluation of 
the disqualifying features that could be undertaken, or should 
be undertaken.
    General Bostick.
    General Bostick. Mr. Chairman, I'd be happy to start off.
    The figure that I often use is less than 3 out of 10 are 
fully qualified to serve in the military. They're ``not 
qualified'' for several reasons, but it's education and 
aptitude. They don't have a high school diploma or they don't 
score high enough on the Armed Services Vocational Aptitude 
Battery (ASVAB); medical reasons, which include all sorts of 
things, from asthma, eyesight, hearing, bad knees; and lately, 
some of types of psychological drugs that they may have had to 
take for attention deficit disorder and that sort of thing; and 
then, finally, conduct, or misconduct--misdemeanors and 
felonies of that sort.
    So what can we do? In the area of weight, for example--I 
think weight and education are two areas that the country needs 
to go after. I think we--all the educators--and my wife is a 
principal at an elementary school here in Arlington--but, 
education is something the country needs to help us with. We're 
doing our part in the military. Education is very important if 
you're going to come into the military service. I think the GI 
Bill, tuition assistance, the emphasis of the military to say, 
``We don't just want you in uniform. We don't want you to just 
deploy. We want you to earn your education, from high school 
all the way up to the Ph.D., if it works for you.''
    The other area is medical. Over the years, we've just 
gotten more and more overweight. One of the things that we have 
tried to do in the Army--again, working with our Army Research 
Institute--is to find those young men and women who have grown 
up eating hamburgers and other things all their life, and not 
doing the fitness kind of things that they need to do, but they 
have the motivation and strength to come in the Army. So we've 
created the Assessment of [Recruit] Motivation and Strength 
program. That would take a youngster who might be a little bit 
overweight--body mass index--but, we are assured based on this 
test that we give, that they can get through basic training. It 
has been a wonderful success. They come in. They graduate at 
the same levels as others that don't have a weight issue. Then 
they lose the weight while they're in the Army. But, I think 
the country has to take that on, and we're trying to do our 
best in the military.
    Senator Webb. Thank you. Anyone else have a thought on 
that?
    Admiral Ferguson. Senator, I would just offer that there 
was a DOD study on this issue several years ago which we can 
provide to the subcommittee which breaks down the various 
factors and reasons. But I echo General Bostick's comments that 
what we're seeing is increased disqualification rates--health 
and education seem to be the primary factors.
    [The information referred to follows:]

    The accompanying report, Estimating the Qualified Military 
Available, was developed in November 2007, by the Lewin Group, Inc., at 
the request of the Director of Accession Policy, Office of the Under 
Secretary of Defense (Personnel & Readiness).
    Estimating the Qualified Military Available Final Report reflects a 
count of youth who are mentally, medically, and otherwise eligible for 
service without requiring a waiver, and who are free of family 
commitments that would make them unavailable for duty. The Lewin Group 
developed an estimator that projected the number of 17- to 24-year-old 
youth who are qualified and available for service. This 17- to 24-year-
old group comprises about 90 percent of non-prior service accessions 
annually. To estimate the number qualified, disqualification filters 
were developed for those who would be disqualified based on the 
Department of Defense standards. Data for developing medical/physical, 
conduct, and dependent filters came primarily from three sources:

        <bullet> National Longitudinal Survey of Youth 1997 (NLSY97),
        <bullet> National Health and Nutrition Examination Survey 
        (NHANES), 1999-2002
        <bullet> Substance Abuse and Mental Health Services 
        Administration

    Youth may be disqualified for more than one reason; however, a 
hierarchy of disqualifications was used so that only one 
disqualification applied to any one person.

        <bullet> 9 percent are disqualified due to a low aptitude score 
        on the Armed Forces Qualification Test.
        <bullet> 35 percent are disqualified for medical conditions or 
        physical fitness issues owing mainly to asthma, obesity, and 
        other childhood maladies.
        <bullet> 19 percent are disqualified for substance abuse (drugs 
        and alcohol).
        <bullet> 6 percent are disqualified based on the number of 
        dependents under age 18 they have.
        <bullet> 5 percent are disqualified for questionable conduct or 
        law violations.

    Combined, the data show that only about 26 percent of today's youth 
are qualified to serve without obtaining a waiver. Data also show that, 
11 percent, although qualified, are enrolled in college, and therefore 
not available to serve. Subtracting for those in college, only 15 
percent of the 17 to 24 youth population are both qualified and 
available for military service without requiring a waiver for one or 
more sources of disqualification.
    [The Report ``Estimating the Qualified Military Available'' 
follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The Report ``Ready, Willing, and Unable To Serve'' 
follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The Report ``Too Fat Too Fight'' follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Milstead. I'll just jump in here, Senator. After 
commanding the Marine Corps Recruiting Command for about 2\1/2\ 
years, the quality of young men and women that are coming in to 
the military today, is the finest that I've seen in my 35 years 
of service. I'll just use the Marine Corps' figures from last 
year. 99.7 percent of the young men and women that joined were 
at tier I; 73 percent, mental category three-alpha [3A]. You 
kind of hit it on the head. Right now, it's a buyer's market.
    But to echo what was said, it is a national issue. It's a 
national problem. It's not a military problem, per se, but it's 
a national problem. It's something that--like education, like 
suicides--that we need to take on, on a national level. I'll 
just offer that.
    Mr. Garcia. If I could just put a punctuation point on 
General Milstead's point. We're seeing the same data that you 
are, Senator, in terms of one in four of the 17- to 24-year-old 
traditional recruiting demographic is either morally, 
medically, or legally ineligible for service. But, as the 
General said, by any objective metric, ASVAB, technical 
background, traditional academic diploma holders, we're off the 
charts; we haven't been here before. The same goes in the 
officer ranks. It's never been more competitive, at least 
academically, for ROTC scholarships and academy admission.
    I would just leave with the point that every one of those 
kids who goes and stands on the yellow footprints or goes to 
Great Lakes does so knowing nothing but combat for their entire 
adult lives. So, out of that 25 percent that's left, we're 
getting an incredible cadre to raise their right hand.
    General Jones. Senator, our quality in the Air Force is 
extremely high. But, I echo what my colleagues say; it is a 
national issue with having all Americans fit for military 
service. I think the biggest thing is the physical attributes 
that we have, not because we've gotten tougher, but because the 
country's gotten softer. In the Air Force, we need to make sure 
90 percent of all of our recruits are in the top three mental 
categories. We have 60 percent as the goal for DOD. So, we're 
all experiencing, really, a high-quality standard. But, what 
that allows us to do is reduce our training costs. We used to 
program 10.5 percent attrition for basic military training. 
We're now down to 5 percent, because our recruits that come in 
are such high quality.
    But, the number of recruits, as you pointed out, the number 
of people eligible to be recruited in the military is a 
significant concern for the future.
    Senator Webb. Certainly not as I said when I started this 
question, not a question of the quality of the military today. 
That is something that could well come up in the future. I'm 
not thinking that it will, in the way we are sizing our 
military and the way that we have been taking care of, in an 
appropriate way, our military members and their families, 
including post-military assistance, such as the GI Bill. But, 
it certainly is a stunning statistic, when you look out at the 
rest of the country. Perhaps going to what Secretary Garcia, 
you were saying, being more ``embracive'' in society.
    I remember years ago, in the Marine Corps, they used to 
have a platoon down in Parris Island for the overweights. 
They'd just work them to death until they hit the weight marks, 
and then they would go on and begin their regular basic 
training. As far as I could tell, they weren't any different 
than any other marine when they came out of all that. Right 
now, I guess you don't have the need to be doing those things, 
in terms of the quality of the force. But it's just a stunning 
statistic.
    You talked about in your testimony--many of you did and I 
don't have all your testimony in front of me--but, the 
reduction in enlistment and reenlistment bonuses that are now 
being paid, what happens to that money when it's not paid? Is 
it reprogrammed into other personnel accounts?
    Secretary Lamont.
    Mr. Lamont. As an ability to reshape the force in other 
ways. What we don't need in our incentive for recruiting, for 
instance, we will look for the critical skill needs--so that we 
can add to our bonus situation there, for instance--as well as 
in our retention area, where we want to maintain those high-
quality new captains coming out of there. So, we will provide 
any number of incentives, be it in terms of graduate school, be 
it in terms of bonus, be it in terms of assignment.
    But, yes, we reallocate those funds primarily, as I say, to 
shape the force for our critical skill needs.
    Mr. Ginsberg. Mr. Chairman, of course, in the Air Force, we 
want to make sure the budget requests that come up here are as 
accurate as possible, and that we project, in the future, how 
much we are going to need in recruiting and retention bonuses. 
So, of course, once the money's been appropriated, as the year 
goes on, we monitor it closely.
    I would say that recruiting and retention bonuses are 
absolutely vital right now, especially for filling some of our 
stressed career areas that we are having--particularly in the 
realm of retention--having some challenges.
    But we, of course, monitor it closely. We tailor it, 
because given, obviously, how scarce resources are right now, 
and that we do need to be good stewards of taxpayers' dollars, 
we want to target those as much as possible.
    Senator Webb. Thank you again for being here today, all of 
you, and for your continued dedication to the well-being of the 
people of the U.S. military and the others who are making our 
military posture successful in the total force. I appreciate 
the candor in which we've been able to conduct our discussions 
today. We will have some follow-on questions on some of these 
other areas.
    This hearing is now adjourned. Thank you.
    [Questions for the record with answers supplied follow:]
            Question Submitted by Senator Richard Blumenthal
                           prescription drugs
    1. Senator Blumenthal. Secretary Lamont, I believe that the ability 
to utilize a local pharmacy to fill prescriptions contributes to the 
quality of life for military families, by providing them crucial face-
to-face consultations and advice on filling prescriptions and 
medication safety. This relationship has many benefits, including 
reducing the likelihood of substance abuse or using prescription drugs 
outside of their intended guidelines. Military families recognize this 
value. In 2009, more than half of TRICARE prescriptions were filled at 
pharmacies, and only 8 percent were filled by mail order. As you know, 
the Department of Defense (DOD) has proposed an increase to the co-pay 
for prescriptions filled at a beneficiary's local pharmacy in order to 
incentivize the use of mail-order prescriptions. Requiring 
beneficiaries to pay more to be able to speak to a pharmacist about how 
to properly take their medication or to fill urgently needed 
prescriptions is, I believe, inappropriate and would actually hamper 
the ability of beneficiaries to take charge of their own health. What 
are the Army's views on the importance of pharmacists in preventing 
substance abuse and do you have any concerns that by incentivizing 
military families towards a mail-order system the contribution of 
pharmacists in the fight against substance abuse may be diminished?
    Secretary Lamont. The Army views pharmacists as vitally important 
in the fight against substance abuse. At each point of service, 
pharmacists have medication profiles and can personally discuss any 
medication related issues with all beneficiaries. Mail-order 
prescriptions are intended for medications taken on a regular basis for 
chronic conditions and not intended for medications prescribed for 
acute illness or injury. Incentivizing military families towards a 
mail-order system for routine medications will not diminish the 
contribution pharmacists make to fight substance abuse.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                      tour normalization in korea
    2. Senator McCain. Secretary Lamont and General Bostick, on 
September 23, 2010, the Secretary of Defense directed U.S. Forces Korea 
and the Services to proceed with full tour normalization for Korea, as 
affordable, but not according to any specific timeline. This new policy 
will require the DOD to build facilities and infrastructure to support 
up to 14,000 families who will be stationed in Korea for up to 3 years. 
DOD's cost assessment office was directed to provide a plan by March 
31, 2011, detailing schedules and costs for this policy decision. A 
major part of the plan involved committing funds allocated for overseas 
housing allowances (OHA) as the government's contribution to a public/
private venture called the ``Humphreys Housing Opportunity Program 
(HHOP)'' for the construction and leasing of multiple high-rise towers 
containing thousands of housing units at Camp Humphries, Korea. Are you 
aware of any cost estimates for this proposal? If so, can you provide 
them?
    Secretary Lamont and General Bostick. As directed in the September 
2010 memorandum, the Director of the Cost Assessment and Program 
Evaluation office provided a report to the Secretary of Defense that 
contained very broad options to normalize tours in Korea. To date no 
implementation decision or costing formulas have been released from 
OSD. The U.S. Forces Korea is in the process of relocating from Seoul 
to U.S. Air Guard (USAG) Humphreys under the Yongsan Relocation Plan 
(YRP). Under YRP, the United States provides housing at USAG Humphreys 
through the HHOP to support the relocation of families. The HHOP units 
deliver 1,400 family homes and support both YRP and the 3,198 Command 
Sponsored Families at USAG Humphreys during Phase I.

    3. Senator McCain. Secretary Lamont and General Bostick, at one 
time we heard the monthly OHA needed to finance this program would 
exceed $4,000 a month paid as rent, not including utilities. What is 
the projected monthly OHA rate to support the Army's housing plan at 
Camp Humphreys and has this been approved by the Secretary of Defense?
    Secretary Lamont and General Bostick. On 18 October 2010, the 
Secretary of Defense directed the Army to execute the HHOP. Currently 
the fiscal year 2011 base HHOP rate is set at $4,200 plus utilities, 
and is used as the basis for programming and cost analysis. 
Implementation of HHOP is currently under review by the Office of the 
Secretary of Defense.

    4. Senator McCain. Secretary Lamont and General Bostick, are any of 
these costs included in the President's budget request for fiscal year 
2012 or in the current 5-year plan for DOD or the Army? If so, how much 
and in what account?
    Secretary Lamont and General Bostick. The funding has not been 
annotated in the President's budget for fiscal year 2012 or the out 
years. As no decision was made to support the action, it was not 
included in the budget.

        enlisted recruiting and alternate high school education
    5. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, a high school diploma from a brick-and-
mortar high school has been the preferred qualification for recruits 
for many years. Graduates of such high schools are designated Tier 1 
recruits. In recent years, many alternate forms of education have 
become popular, including distance learning and online public and 
private schools that are, nonetheless, fully accredited by States. 
These graduates are designated Tier 2 candidates, and, with the 
recruiting success you are having in this economy, Tier 2s are having a 
much harder time being recruited. Recognizing that DOD policies control 
in this area, what are your views about whether the Tier 1/Tier 2 
system works as advertised to reduce attrition while producing the best 
candidates your Service can get?
    General Bostick. The Army agrees the Tier 1/Tier 2 systems are 
valid predictors of trainability, knowledge, and job skill based on 
over 20 years of evidence-based analysis. To date, there has been 
limited research completed on enlistees who hold nontraditional 
alternate high school credentials such as online and distance learning 
certificates. As we study these credential holders to assess their 
trainability, attrition, and performance in comparison to GED holders, 
home school graduates, National Guard Youth Challenge graduates, the 
Army has considerable hope that research instruments such as the 
Tailored Adaptive Personality Assessment System (TAPAS) will offer a 
tool that can predict higher performance from alternate credential 
holders. Although still in its infancy, the Army has begun collecting 
data on the distance learners and online graduates to assess their 
training and first-term attrition rates.
    Admiral Ferguson. The DOD Three-Tier System has proven effective in 
selecting applicants with the greatest likelihood of completing their 
initial service obligation. Navy focus is on quality Tier I applicants 
with a corresponding correlation to lower attrition rates during 
initial enlistment.
    Of note, current Navy policy does allow for home school graduates 
to be considered as Tier I applicants, provided that they attain an 
Armed Forces Qualification Test (AFQT) score of 50 or higher on the 
Armed Services Vocational Aptitude Battery (ASVAB) and complete an 
Assessment of Individual Motivation (AIM). The AIM and ASVAB are 
utilized to assess the individual's aptitude for Navy service, and 
assists the applicant in job selection.
    General Milstead. The Marine Corps has found, through numerous 
studies over the years, the DOD Tier classification system is a very 
accurate predictor of the likely success an applicant will have in 
their first enlistment. The Marine Corps has focused on the high school 
market as our primary recruiting source for quality applicants since 
that is the educational credentialed cohort that has the lowest 
attrition. We recognize there are deserving applicants that are 
classified Tier 2, and in order for the Marine Corps to accommodate 
these applicants, we allow up to five percent of our annual accessions 
to enlist with these education credentials.
    General Jones. At this time, the Air Force embraces the DOD tier 
system as a valid screening methodology for our recruits. The Air Force 
has always been a recipient of very high quality recruits, even during 
lean times. However, we believe that additional non-cognitive measures 
could be added to improve the screening process along with proactive 
evaluation of alternative credential holders. If there are validated 
options to identify other types of graduates that will be successful 
airmen, then we fully support a modification or change to the current 
system.

    6. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, is the traditional high school experience, 
in your view, what's important? Or is it the achievement of the high 
school diploma?
    General Bostick. We believe it is a combination of both experience 
and achievement. A diploma from a traditional high school program 
offers proof that an applicant attended and completed a 12 year graded 
program of classroom instruction. Applicants who have completed these 
programs successfully have a long history of demonstrating that the 
combination of experience and achievement they have gained are 
significant indicators of the type of personal commitment which proves 
to be an asset in adjusting to Army life. A high percentage of 
individuals who do not complete a traditional high school experience 
are more apt to demonstrate lower trainability, and performance and 
higher attrition and other problems in comparison to traditional high 
school diploma graduates.
    Admiral Ferguson. Both. While a high school diploma and equivalent 
credentials are measures of academic achievement, completion of a 
brick-and-mortar high school curriculum, in itself, is also a strong 
predictor for program completion success. The traits exemplified 
through completion of a traditional high school education are similar 
to those needed to complete Navy recruit and skill level training.
    The motives behind a student's preference for alternative forms of 
education vary widely. While most of these reasons are in the best 
interest of an individual student's graduation prospects or personal 
education desires, analysis has shown non-traditional high school 
graduates to be less successful than the ``traditional'' brick and 
mortar students in completing basic military training. Experience has 
shown that, in general, students who participate in non-traditional 
forms of education have less exposure to varied social experiences and 
interaction that promote the growth and adaptability that strongly 
indicate success at Recruit Training Center (RTC). However, recognizing 
that completion of high school is not the sole indicator of success at 
RTC, alternate education students who display academic excellence are 
eligible for Tier reassignment as previously stated.
    General Milstead. We believe the traditional high school 
experience, not just a diploma, is a better indicator of how an 
individual will adapt to military life. A candidate who receives a 
diploma through the traditional high school experience has demonstrated 
the ability to succeed in a structured environment and to work at 
length in pursuit of a goal, traits that will serve them well in future 
military service. The Marine Corps remains focused on the traditional 
high school market for recruiting and appreciates the assistance of 
Congress in ensuring our recruiters have access to high schools and 
student directory information.
    General Jones. Currently, the high school diploma is our critical 
benchmark for Air Force recruiting. We know that our most successful 
first-term airmen are high school graduates. The traditional high 
school experience develops a well-rounded graduate from both a social 
and educational standpoint. The attrition data and analysis is 
conclusive-high school graduates have significantly lower attrition 
rates in training and are more likely to serve their entire first 
enlistment term. This saves valuable recruiting and training resources, 
and provides airmen with the skills and aptitude needed to perform well 
in Air Force jobs.

    7. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, would you support a pilot program to 
evaluate whether graduates of nontraditional, online public schools 
perform as well as graduates of traditional high schools?
    General Bostick. Yes, the Army would be highly supportive of such 
pilot. We think it is imperative that we begin studying applicants with 
these kind of educational credentials to assess their trainability, 
attrition, and performance in comparison to other non-traditional, 
alternate high school credentials, such as GEDs, home school graduates, 
and National Guard Youth Challenge graduates as well as in comparison 
with traditional high school diploma graduates.
    Admiral Ferguson. Navy would support a pilot program to evaluate 
whether graduates of nontraditional, online public schools perform as 
well as graduates of traditional high schools. We support evaluating 
pilot programs based on changing trends in education and their impact 
on the recruitable population.
    General Milstead. DOD provides oversight in the evaluation and 
classification of whether graduates of non-traditional or online public 
schools perform as traditional high school graduates. A standing 
military accession education committee, including representatives from 
all of the services, reviews and modifies the policies that evaluate 
whether graduates of nontraditional or online public schools perform as 
traditional high school graduates. We recommend the military accession 
education committee evaluate and recommend whether such a pilot program 
should be initiated.
    General Jones. Yes, the Air Force is supportive of pilot programs 
or studies that could valildate new options for increasing the 
potential talent pool of future airmen.

    8. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, should we retain the current system, or 
move to a new ``whole man'' evaluation of some kind that does away with 
the Tier system?
    General Bostick. The Army maintains that the current Tier systems 
are valid predictors of trainability, knowledge, and job skill and 
should be retained until a better system can be developed, studied, and 
has proven to be more credible than the current system. To date, there 
has been very limited research conducted on enlistees who hold 
nontraditional alternate high school credentials such as online and 
distance learning certificates to assess their training base and first 
term attrition rates. The Army is willing to revisit this issue after a 
study of empirical data has been conducted to determine the feasibility 
of transitioning to a different system.
    Admiral Ferguson. Until current research projects can validate a 
proven method to measure an individual's potential for success in the 
military, we recommend retaining the current Three-Tier system, since 
it has proven extremely successful in selecting individuals with the 
highest likelihood for success in the military service.
    The Navy and Army have been working on developing and fielding Non-
Cognitive Testing Instruments to assist the Services in improving the 
selection process. While the ASVAB is a very good predictor for a 
person's aptitude, it does not provide an assessment of an individual's 
probability for success in military.
    Army has been administering its TAPAS test to potential Army 
recruits for more than 2 years, and preliminary results have indicated 
that soldiers who performed well on the TAPAS test, but scored less 
than 50 on the AFQT have attrition rates comparable to soldiers who 
scored greater than 50 on the AFQT. Based on Army's preliminary 
research findings, Navy has begun to use the Military Entrance 
Processing Centers to administer the TAPAS test to all potential future 
sailors, to determine if Army's TAPAS test is a viable predictor for 
success in the Navy.
    General Milstead. We do not recommend abandoning the Tier system. 
DOD established the current Tier system so that all of the services 
classify applicant education credentials in the same manner. This 
system has proven to be a very accurate predictor of military applicant 
attrition for well over 3 decades.
    General Jones. The current tier system has proven to be a valid 
predictor of attrition. Our position supports that of the department to 
retain the current tier system. If results from new studies and 
analyses indicate that changes are supported, then the Air Force would 
be amenable to considering alternatives.
                      disability evaluation system
    9. Senator McCain. Secretary Lamont and General Bostick, after 
almost 10 years of war, the Army is trying to move about 20,000 
nondeployable soldiers through the Disability Evaluation System (DES). 
When considered against the requirement to cut 22,000 Active Duty 
soldiers from the Temporary End Strength Increase over the next 2 
years, this looms as a significant readiness issue. What are you doing 
and what recommendations do you have to address the Army's problem with 
this large and growing backlog of soldiers in the DES?
    Secretary Lamont and General Bostick. The Army remains convinced 
statutory reform is the only sustainable way to achieve a system worthy 
of the sacrifices of our volunteer force in this era of persistent 
conflict. Although the DES is better than it was 4 years ago, the 
process remains complex, disjointed, hard to understand, and processing 
has become embarrassingly slow and unpredictable. While DOD and the 
Department of Veterans Affairs (VA) have integrated their separate 
disability systems, the laws, legal opinions, and policies specific to 
each department result in differing outcomes for the same type of 
determination; this duality creates confusion, a lack of trust, and a 
belief the Army is not being loyal to or fair with its soldiers.
    The current DES is 60 years old and was designed for a draft-based 
military in an industrial/agricultural America; its focus on disability 
and compensation is inadequate for the needs of today's professional 
military. The unintended effects of disability compensation reduce 
incentives to participate in rehabilitation or to return to work. Some 
of our soldier's believe if they get better, they will receive less 
disability compensation; they may want to work, but they also need to 
maintain their income for themselves and their families. We need to 
reform the system--our soldiers deserve a more comprehensive system 
that promotes resilience, self-reliance, re-education, and employment, 
while ensuring enduring benefits for the soldier and their families.
    The Army's current backlog is related to an inherently inefficient 
process. For perspective, a rapid improvement effort conducted at Fort 
Carson last year identified 155 distinct processing handoffs, organized 
into 10 sub-processes crossing 8 functional activities in 2 
departments. At present, the Joint DOD/VA Integrated process takes 
nearly 400 days to complete, but our soldiers active participation in 
the process is less than 30 days. More to the point, even if we were 
meeting the DOD's 295-day goal, 10 months is simply too long for our 
soldiers to wait while their future hangs in the balance.
    Although we fully support current efforts to redesign the 
Integrated Disability Evaluation System (IDES) to realize a 150-day 
process, we believe any effort to redesign the process within the 
constraints of legislation will likely have low payoff as it did in 
2007, and more importantly, these efforts divert leadership away from 
real reform. As our Surgeon General argued in 2007, attempting to speed 
up a bad system will do little more than turn a bad process into ``a 
fast bad process.'' However, we are not suggesting we do not; we 
understand effective reform will take time, and in the mean time we 
have to do what we can with the process we have. Therefore, the Army 
will continue to commit resources and leadership energy to improve our 
DES. Since 2007 the Army has increased resources dedicated to DES 
activities, conducted over 30 improvement projects, and increased 
command/leadership focus on the process. Ongoing improvement efforts 
include:

        <bullet> Holding quarterly Video Teleconferences (VTC) with 
        senior Army and VA leadership to identify and resolve systemic 
        issues hindering efficient processing and share Best Practices/
        lessons learned.
        <bullet> Simplifying Medical Evaluation Board requirements to 
        reduce variability, improve quality, facilitate training of new 
        examiners, and decrease redundancies.
        <bullet> Providing additional resourcing to increase Medical 
        and Physical Evaluation Board capacity to meet current and 
        anticipated demands.
        <bullet> Testing new medical evaluation and referral procedures 
        at RC Soldier Medical Support Center (RC SMSC) in Pinellas 
        Park, FL with the initial supporting Medical Treatment Facility 
        (MTF) at Fort Gordon.
        <bullet> Published a directive outlining the roles, 
        responsibilities, and expectations for preparing an 
        installation to transition from the Army's legacy Physical DES 
        to the Joint DOD/VA Integrated DES.
        <bullet> Continue to enforce existing standards for processing 
        and adjudicating non-deployable soldiers.
        <bullet> Continue to review and revise policies, processes and 
        systems that have caused the non-deployable rate to increase.

    Finally, we believe the rehabilitation and DESs required to sustain 
an All-Volunteer Force deserve a broader national and interagency 
discussion. This discussion must focus on the Nation's responsibilities 
to the less than 1 percent of the American population who volunteer to 
ensure our Nation's security, and through no fault of their own except 
for doing their duty become Wounded, Injured, or Ill and can no longer 
serve.

 independent review panel to study the judge advocate requirements of 
                       the department of the navy
    10. Senator McCain. Secretary Garcia, the Report of the Independent 
Review Panel to Study the Judge Advocate Requirements of the Department 
of the Navy (the Panel) was completed on February 22, 2011. The Panel 
recommended that the Navy's Judge Advocate General (JAG) Corps be 
manned at a level of 950 judge advocates. The Navy JAG testified to the 
Panel that his assessment was that there should be 926 JAG on Active 
Duty to meet current demands in missions including Office of Military 
Commissions and individual augmentees assignments. What is the 
Department of the Navy's plan with respect to responding to the report 
and recommendations of the Panel?
    Secretary Garcia. The Navy plans to fund 31 JAG Corps officer 
billets currently detailed to the Office of Military Commissions until 
the end of fiscal year 2015, and continue increasing the number of JAG 
Corps billets to 821 over the Future Years Defense Program (FYDP). This 
is consistent with the number of active-duty JAG Corps officer billets 
the JAG, VADM James Houck, testified before the 506 Panel are needed to 
meet baseline mission requirements (Individual Augmentee and the Office 
of Military Commissions assignments are not included in the baseline 
requirement). We have also begun to train enlisted members of the 
Legalman rating to obtain certification through the American Bar 
Association as paralegals, which will gradually ease much of the 
administrative burdens currently levied on JAG Corps officers.

    11. Senator McCain. Secretary Garcia, what is your assessment of 
the appropriate level of Active Duty JAG in the Navy and Marine Corps 
and what actions do you plan to take in this regard?
    Secretary Garcia. We have experienced increased demand for JAG 
Corps officers in areas such as operational law and support for sailors 
and their families. However, I believe the panel's estimate of the 
number of JAG Corps officers necessary to meet future requirements is 
high. For Navy Active Duty JAG Corps officers, I concur with VADM 
Houck's testimony before the 506 Panel that the number of Active Duty 
JAG Corps officers necessary to meet baseline mission requirements is 
821 (Individual Augmentee and the Office of Military Commissions 
assignments are not included in the baseline requirement). To meet 
these requirements, the Navy intends to increase the number of JAG 
Corps billets to 821 across the FYDP. This increase, coupled with our 
ongoing initiative to train enlisted members of the Legalman rating to 
obtain certification through the American Bar Association as 
paralegals, will ease much of the administrative burdens currently 
levied on JAG Corps officers.

             sexual assault prevention and response efforts
    12. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, preventing and responding properly to 
incidents of sexual assault remains a high priority for each of your 
Services, and progress has been made. Is the military a safer place for 
women to serve than before September 11?
    General Bostick. The comprehensive Sexual Assault Prevention and 
Response (SAPR) Programs implemented across DOD and within all the 
Services have undoubtedly helped make the military safer for all 
servicemembers, female and male.
    Although Army statistics show a significant increase in the number 
of reports of sexual assault since 2001, those statistics are 
misleading as sexual assault was and is the most under-reported crime 
in the Nation. Since the Army SAPR Program began in 2004, there has 
been a steady increase in the percentage of Army victims who break 
their silence and come forward to report a sexual assault. More victims 
are reporting because they feel safer and more confident with the 
response they will receive from their chain of command, criminal 
investigators, medical personnel and prosecutors.
    Additionally, the Army has increased its focus on prevention by 
implementing a comprehensive sexual assault prevention strategy. The 
cornerstone of the Army's strategy is the ``I. A.M. Strong'' Sexual 
Harassment/Assault Prevention Campaign where the letters I-A-M stand 
for Intervene-Act-Motivate. The ``I. A.M. Strong'' messaging features 
soldiers as influential role models and outlines the Army's intent for 
all team members to personally take action and set a respectful 
standard of conduct, thereby providing a safe environment for all 
community members.
    Admiral Ferguson. Although measuring success in prevention is 
difficult, it appears that Navy's SAPR program may be contributing to a 
decrease in the incidence of sexual assault against servicemembers, as 
measured by the Defense Manpower Data Center (DMDC) 2010 Workplace and 
Gender Relations Survey of Active Duty Members. In 2006, 7.1 percent of 
active duty women, and 2.3 percent of active duty men, indicated they 
experienced unwanted sexual contact in the 12 months before the survey. 
In 2010, 4.4 percent of active duty women, and 1.1 percent of active 
duty men, indicated they experienced unwanted sexual contact in the 
prior 12 months.
    General Milstead. The Marine Corps SAPR program is focused on the 
safety, dignity, and the well-being of all marines. Our leadership has 
elevated and highlighted the importance of the SAPR Program by 
institutionalizing a zero tolerance policy, holding commanders 
accountable for establishing an environment of trust and respect, and 
developing ``Bystander Intervention'' training, an evidence-based best 
practice for engaging marines on their role in sexual assault 
prevention.
    Although not conclusive, there was a slight decrease in the 
reported number of sexual assaults from fiscal year09 to fiscal year 
2010. In addition, command actions taken on sexual assaults (e.g. 
courts-martial, non-judicial punishments, and other administrative 
actions) increased from 41 in fiscal year 2009 to 52 in fiscal year 
2010, which may correlate to greater offender accountability.
    Since September 11, the Corps has taken a comprehensive look at the 
behavioral health needs of marines. The Commandant directed the 
integration of all Behavioral Health programs, including SAPR, in order 
to provide services that are responsive to the needs of victims and 
offer evidence-based practices to marines and their families. The SAPR 
program will continue its efforts to improve overall education and 
training on the need to prevent sexual assaults.
    General Jones. Yes, we are confident that since the implementation 
of the SAPR program in June 2005, significant strides have been made to 
provide a safer environment for military women and men regarding 
preventing and responding to incidents of sexual assault. We also 
recognize that there is more to be done and will continue our efforts 
to enhance our program and aggressively work towards eliminating a 
crime that has no place in our Air Force.

    13. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, do you think that additional legislation 
is needed to enhance the sexual assault prevention programs in DOD and 
your Service?
    General Bostick. Additional legislation for sexual assault 
prevention programs is not needed at this time. The National Defense 
Authorization Act (NDAA) for Fiscal Year 2005 provided the necessary 
legislative impetus to create SAPR programs in DOD and the Military 
Services. Since then, DOD and the Services have worked very closely 
with each other and Congress to implement, assess and improve SAPR in 
the military.
    For example, three GAO reviews, the congressionally mandated 
Defense Task Force on Sexual Assault in the Military Services (DTF-
SAMS), as well as continuous internal assessments by DOD and the 
Services have identified ways to improve how we can prevent and respond 
to incidents of sexual assault.
    This collaborative relationship among DOD, the Services and 
Congress facilitates identifying and implementing changes and 
enhancements, without the need for additional legislation.
    Admiral Ferguson. Existing laws have helped to achieve an enhanced 
and more efficient SAPR program. Navy continues to comprehensively 
evaluate our SAPR program and implement appropriate steps to eliminate 
sexual assault from the Navy. As our program evolves, we continuously 
monitor our efforts, and assess the impact of our initiatives, which 
will allow us to determine if additional legislation is required. 
Should new legislation be deemed necessary, we will recommend its 
inclusion in a future Defense Authorization request.
    General Milstead. The Marine Corps is currently working with DOD to 
implement the SAPR requirements set forth in the NDAA for Fiscal Year 
2010. We do not believe additional legislation is needed at this time.
    General Jones. Prior legislation initiated with the Ronald Reagan 
NDAA of 2005 and subsequent public laws have provided us with a robust 
framework to establish a SAPR program, while allowing integration with 
overall military readiness. We appreciate the attention Congress has 
brought to bear on this issue and the ongoing efforts to provide for 
strong prevention and response programs within the Department. For 
example, we support the recent Senate Armed Services Committee 
inclusion in the mark up of legislation to amend section 920 of title 
10, U.S.C. (article 120 of the Uniform Code of Military Justice) to 
clarify the separate sexual assault offenses. This legislation was 
requested by the Joint Services Committee on Military Justice and the 
Secretary of Defense to address deficiencies in existing law that have 
been identified by military courts and which were addressed in the 
report of the Defense Task Force on Sexual Assault in the Military 
(December 2009).

       progress of implementation of don't ask, don't tell repeal
    14. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, training for Repeal Day is currently 
underway in each of your Services that will pave the way for gay and 
lesbian individuals to serve openly in the Armed Forces. What is your 
assessment of the effectiveness of the training for your Service thus 
far?
    General Bostick. The Army's Chain Teach method has been very 
effective in educating the force on the policy changes that will result 
from implementation of the repeal of Don't Ask, Don't Tell. It puts 
direct responsibility on commanders/leaders for their units' complete 
education, allowing them to personally engage their soldiers, 
civilians, and interested family members on this important policy 
change and to explain its impact and our expectations of them. Feedback 
to date continues to confirm confidence that Army commanders and senior 
noncommissioned officers are fully capable of providing strong 
leadership, a clear message and proactive education that are keys to 
successful implementation of DADT repeal.
    Admiral Ferguson. Navy assesses the training conducted to date to 
be effective and training remains on track for completion by July 1, 
2011. The effectiveness of training is accomplished through objective 
and subjective measures. We are accounting for the number of 
individuals and units that complete training through a web-based Navy 
Family Accountability and Assessment System to preclude gaps in any 
major commands or regions.
    To measure retention of training content, we administered 
knowledge-based tests to Command Leadership teams after completion of 
Tier 2 training with results showing over 90 percent comprehension. 
Training leadership teams provide feedback on questions and concerns 
that arise during training sessions.
    Sailors also have the opportunity to submit individual questions or 
feedback about their training experiences through our Don't Ask, Don't 
Tell repeal web site. Questions posed during training sessions or 
submitted online are reviewed and responses are added to the 
``Frequently Asked Questions'' section of the web site. Sailor feedback 
indicates the training is comprehensive, well-delivered, and effective. 
Additionally, we have observed no negative impacts to readiness, 
effectiveness, cohesion, recruiting, or retention.
    Navy is confident that the training assessment measures we have in 
place, coupled with the overall positive feedback from the force, 
indicate that the training is effective.
    General Milstead. Feedback from the force indicates our training 
has been effective. Marines indicate an understanding of the policy 
change and what is expected of them upon repeal. The face-to-face 
training allows marines to engage their leadership and ask those 
questions that are most important to the individual marine. The time 
allotted to prepare and train for the repeal provides the opportunity 
for marines to really consider potential impacts and ensure they are 
aware of the change in policy.
    General Jones. The Air Force is delivering the Office of the 
Secretary of Defense standardized tiered DADT repeal training. As of 1 
Jun 11, the AF has trained 66 percent of the total force.
    In order to assess the effectiveness of training, we're soliciting 
subjective feedback from our Major Commands (MAJCOMs) on a bimonthly 
basis. These reports include feedback in the following areas: policy, 
readiness, effectiveness, unit cohesion, retention, repeal related 
incidents, and barriers to repeal
    To date, the subjective reports from MAJCOMs are positive. MAJCOMs 
are indicating that the training is clear, on-target, and effective. 
The standardized slides and script are ensuring a consistent, accurate 
message is provided throughout the force. There has been no significant 
issues regarding policy, effectiveness, unit cohesion, retention, 
repeal related incident, and barriers to repeal.

    15. Senator McCain. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the ground combat forces--soldiers and 
marines, as well as the Special Forces for all Services--registered the 
greatest concern about the effects on readiness and unit cohesion of 
repealing the Don't Ask, Don't Tell policy. What problems do you 
anticipate on ships and in the field when the repeal takes effect?
    General Bostick. I do not anticipate significant or systematic 
problems from the repeal of Don't Ask, Don't Tell. Feedback from the 
field across all units is that this is not a significant issue to the 
soldiers. We will deal with this issue with the same professionalism 
that has marked our conduct of current operations and has been a 
hallmark of this institution for 236 years. Soldiers are expected to 
treat all others with dignity and respect, consistent with the core 
values that already exist within the Army. Harassment, bullying or 
victimizing of any kind will not be tolerated.
    The Army is a force of over 1.1 million soldiers, and there will 
likely be inappropriate conduct by a few. Commanders and supervisors at 
all levels have the authority and responsibility to maintain good 
order, discipline and morale within their units; they should use 
existing tools (to include counseling, non-judicial punishment and 
court-martial) to deal with misconduct. Leaders will be educated on how 
to handle certain situations, and support will be provided as needed to 
ensure decisions are lawful, impartial, and promote unit cohesion.
    The Army Guiding Principles for Implementation of the Repeal of 
DADT include: standards of conduct apply to every soldier; treat each 
other with dignity and respect; emphasize our role as professional 
soldiers; and good order and discipline will be maintained at all 
times. The clear message is that respecting each other's rights is 
critical to maintaining good order and discipline. Standards of conduct 
apply equally to all soldiers and inappropriate conduct should be 
corrected appropriately.
    Admiral Ferguson. We have seen no adverse effects associated with 
repeal training to date, and no significant problems are anticipated on 
ships or in the field when repeal takes effect. The Comprehensive 
Review Working Group (CRWG) study anticipated some limited and isolated 
disruption to unit cohesion and retention and concluded that the risks 
of repeal within warfighting units in a field environment or at sea, 
would remain within acceptable levels when coupled with a sustained 
commitment to core values of leadership, professionalism, and respect 
for all. While the CRWG identified potential areas of friction, Navy 
has focused its DADT Repeal training on preparing leaders with an in 
depth understanding of policy changes and discussions on 
implementation. Using informed leadership to present training to 
sailors has ensured appropriate emphasis is being placed on 
professionalism and mutual respect.
    General Milstead. We do not anticipate post-repeal problems that 
engaged leadership will not be able to successfully address. I expect 
that your marines will faithfully abide by the laws of this Nation and 
conduct themselves in accordance with their core values of honor, 
courage, and commitment. Any issues that may arise post-repeal will be 
immediately addressed upon identification.
    General Jones. Air Force is satisfied that education and training 
policies and regulations adequately address concerns of our deployed 
forces.
    Although 10 U.S.C. 654 has not yet been repealed, we have not 
received any reports from the field indicating negative operational 
impacts since legislation was passed allowing for repeal.
    Reports of concerns regarding privacy in berthing and bathroom 
areas have been limited and thus are not considered a major concern. As 
we approach completion of training, we expect fewer questions regarding 
privacy concerns; however, we will continue to closely monitor 
feedback. We also believe existing standards of conduct already are in 
place, and commanders have sufficient authority and flexibility to 
address issues arising in the future.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
         mental health assessments for deployed servicemembers
    16. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the NDAA for 2010 required person-to-
person mental health assessments at regular intervals before and after 
deployment for any member of the Armed Forces who is deployed in 
connection with a contingency operation. How is your Service 
implementing this requirement for members of the Reserve and National 
Guard?
    General Bostick. The Army is implementing this requirement through 
its Comprehensive Behavioral Health System of Care. This campaign plan 
was launched in February 2010 to standardize, synchronize, and 
coordinate behavioral healthcare across the Army and through the Army 
Force Generation cycle. Included in this initiative is the 
identification of five touch points throughout the soldier's deployment 
cycle that will provide enhanced behavioral health screening in 
compliance with section 708 of the 2010 NDAA. For Reserve and National 
Guard soldiers, three of the five screening points will occur while the 
soldier is activated and transitioning through existing deployment 
processing centers. The Army is closely working with the Reserve and 
National Guard components to implement the required Post Deployment 
Reassessment and annual screening requirements. Additionally, the Army 
is exceeding the NDAA requirements by providing in-theater assessments, 
immediate redeployment screening for returning soldiers, and annual 
enhanced screening for all soldiers regardless of deployment status.
    Admiral Ferguson. The DOD force health protection strategy already 
requires servicemembers to participate in several deployment and 
nondeployment related health screenings to include: the Pre-Deployment 
Health Assessment (DD Form 2795), the Post-Deployment Health Assessment 
(DD Form 2796), the Post-Deployment Health Re-Assessment (DD Form 
2900), and the Periodic Health Assessment (PHA). To the extent that the 
time frames for the additional mental health assessments correspond to 
those of existing health assessments, performing the assessments 
concurrently is desirable. In support of the Navy and Marine Corps, 
Navy Medicine has developed an electronic application of the mental 
health assessment and reconfigured the DD Forms 2795 and 2900 to 
streamline the process and capture the mental health assessments during 
existing processes. The Navy and Marine Corps Reserve Components (RC) 
complete these existing requirements by using organic medical assets as 
well as contract services under the Reserve Health Readiness Program 
(RHRP). RC representatives are working with the RHRP representatives at 
ASD (HA) to expand services and augment existing resources to meet the 
additional mental health assessment requirement. Implementation is 
expected to begin in July 2011.
    General Milstead. The DOD Force Health Protection Strategy already 
requires servicemembers to participate in several deployment and non-
deployment related health screenings, to include: Pre-Deployment Health 
Assessment (DD Form 2795), Post-Deployment Health Assessment (DD Form 
2796), Post-Deployment Health Re-Assessment (DD Form 2900), and 
Periodic Health Assessment (PHA). To the extent that the time frames 
for the additional mental health assessments correspond to those of 
existing health assessments, performing the assessments concurrently is 
desirable. In support of the Navy and Marine Corps, Navy Medicine has 
developed an electronic application for the mental health assessment 
and reconfigured the DD Forms 2795 and 2900 to streamline the process 
and capture the mental health assessments during existing processes. 
The Navy and Marine Corps Reserve components complete these existing 
requirements by using organic medical assets as well as contract 
services under DOD's Reserve Health Readiness Program (RHRP). Reserve 
components representatives are working with DOD to expand services and 
augment existing resources to meet the additional mental health 
assessment requirement. Implementation is expected to begin in July 
2011.
    General Jones. As of 1 April 2011, all Air National Guard (ANG) 
Wings began conducting Deployment Resiliency Assessments (DRA) in 
compliance with the four regular intervals required by the NDAA for 
Fiscal Year 2010, section 708: 60-days pre-deployment; 90-180 days 
post-deployment; 7-12 months post-deployment; 16-24 months post-
deployment.
    A contracted service offered by Logistics Health Incorporated (LHI) 
has been used to conduct the person-to-person DRAs. The option for 
unit-level privileged providers to conduct the person-to-person 
encounters is open to all ANG units and four ANG Wings have conducted 
DRAs locally. The ANG DRAs are tracked as part of the ANG deployment 
schedule initiated by the Pre-Deployment Health Assessment process.
    Post-Deployment DRAs are scheduled to coincide with the Post-
Deployment Health Reassessment and the member's annual Periodic Health 
Assessment (PHA). Due dates are tracked via the Air Force's PHA and 
Individual Medical Readiness program.
    AFRC is using LHI to fulfill the requirements of the NDAA for 
Fiscal Year 2010 mental health assessments. This organization was 
already being used to contact servicemembers who have completed a post-
deployment health re-assessment questionnaire. Implementation of the 
mental health assessments began on April 1, 2011 and is running 
smoothly, with minor changes being made to adjust for lessons learned 
during implementation.

                        unified medical command
    17. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, the Government Accountability Office (GAO) issued a 
report earlier this year stating that DOD could save $400 million by 
realigning medical assets into a single military command. I guess the 
House Armed Services Subcommittee on Personnel was listening, because 
they put it in their mark. Do you support a unified medical command, 
headed by a 4 star, with 3 subordinate commands each headed by a 3 star 
surgeon general, as a substitute for the current organization of the 
Military Health System (MHS)? If so, why? If not, why not?
    Secretary Lamont. No, not until DOD has reviewed the desirability 
of establishing a unified medical command and ensures that this new 
command will maintain and improve the care to our soldiers and their 
families.
    Secretary Garcia. Our sailors, marines, as well as all 
servicemembers and their families, are receiving the outstanding health 
care they need and deserve. I am privileged to have the opportunity to 
see firsthand the care being provided by our Navy medical personnel 
around the world--at sea, deployed with the Marines and at our medical 
treatment facilities. I have also had the opportunity to visit the 
Medical Education and Training Campus in San Antonio where our corpsmen 
are training together with their Army and Air Force counterparts in a 
joint learning environment. We have outstanding examples of our medical 
personnel working together to keep our servicemembers healthy and 
mission ready.
    The Secretary of Defense has been resolute in his commitment to 
implement efficiencies within the Department, including the MHS. DOD 
will be carefully studying potential organizational constructs that 
allow for the delivery of high quality medical care in an efficient and 
cost-effective manner. As such, we defer specific comment on any MHS 
organizational changes until the assessments have been conducted and 
evaluated by DOD and the Services.
    Secretary Ginsberg. We do not support a unified medical command. We 
do not agree there would be cost savings by the creation of a unified 
medical command.
    We believe a more effective and efficient joint medical solution 
can be attained without the expense of establishing a unified medical 
command. Changes to doctrine can be made within current authorities and 
do not require a new unified medical command. Service specific and 
joint medical doctrine must be improved to assure Service capabilities 
are fully interoperable and interdependent to bolster unity of effort. 
The Services should continue integrating common medical platforms to 
reduce redundancy and lower costs.
    A unified medical command may not achieve the intended synergy or 
unity of effort. All models of the unified medical command to date do 
not include medical forces intrinsic (line funded vs. Defense Health 
Program funded manpower authorizations) to Service line units. A 
unified medical command would not oversee medical forces serving in 
these line units. Air Force line funded medics represent 5 percent of 
Air Force medical personnel; Navy shipboard assets represent 25 percent 
of medical personnel; and Army line Tables of Organization and 
Equipment (TOE) funded medics represent 48 percent of Army active duty 
medics. Air Force ability to meet operational medical requirements 
would be disproportionately compromised in current models for unified 
medical command.
    Any new unified medical command will require new systems and 
structure to oversee component headquarters and assigned forces. This 
will drive even higher costs. If a unified medical command follows the 
example of the current JTF CAPMED (Joint Task Force, National Capitol 
Region Medical), it is highly unlikely there will be cost savings. 
There is no need for a fourth military Service and establishing such in 
the form of a unified medical command, without the discipline and 
historical rule sets that govern existing Services, will likely drive 
costs much higher. Even more critical, a unified medical command may 
not be as responsive to the needs of Service warfighters as is the 
current oversight by the Services.
    BRAC 2005 created many opportunities for joint oversight of medics. 
Given time to mature, these initiatives along with the Service Surgeon 
Generals' efforts to consolidate oversight of common support functions 
(information management, contracting, military health facility 
construction and financial management) in the new co-located medical 
headquarters will reduce redundancies. Adoption of a single Service 
accounting system to allocate Defense Health Program dollars and 
improve accountability would do more to reduce costs than a unified 
medical command.

    18. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, would establishment of a unified medical command 
help or hurt recruitment and retention of medical personnel?
    Secretary Lamont. Without a thorough study and analysis by DOD, it 
is unknown if establishment of a unified medical command would help or 
hurt recruitment and retention of medical personnel or more 
importantly, why.
    Secretary Garcia. We know how important the health care benefit is 
to our sailors, Marines and their families. Access to quality care is 
vital to force readiness as well as recruiting and retention. Our 
personnel deserve outstanding medical care and I believe we are 
providing it--around the world, each and every day.
    The Secretary of Defense has been resolute in his commitment to 
implement efficiencies within the Department, including the MHS. The 
DOD will be carefully studying potential organizational constructs that 
allow for the delivery of high quality medical care in an efficient and 
cost-effective manner. As such, we defer specific comment on any MHS 
organizational changes until the assessments have been conducted and 
evaluated by DOD and the Services.
    Secretary Ginsberg. The establishment of a unified medical command 
creates an uncertain environment for recruitment and retention of 
medical personnel. Currently, each Service offers unique opportunities 
and a Service specific culture which attracts and retains healthcare 
professionals to the Service of their choice. There are candidates who 
elect to serve in any military branch, however, most seek to be part of 
a specific Service culture. The establishment of a unified medical 
command could result in significant changes to Service culture, 
perceived quality of life (Sea, Land, or Air), Service specific 
initiatives, and professional development opportunities.
    Like the other Services, the Air Force Medical Service competes for 
fully qualified health care professionals from the private sector and 
other Federal agencies such as the Department of Veterans Affairs and 
the Public Health Service. We attract fully qualified specialists and 
retain them through competitive compensation using accession bonuses 
and other financial incentives. If accession bonuses and special pays 
were funded through a unified medical command, special attention would 
be necessary to ensure all Service operational support requirements 
were adequately covered.
    Without additional data, it remains unclear if the establishment of 
a unified medical command would help or hurt recruitment and retention 
of medical personnel.

               education of school aged military children
    19. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, last year, we received testimony from DOD that more 
than half of the 300 local educational agencies serving military 
children were not meeting academic standards in reading/ language arts 
and/or math. Are you aware that a DOD grant program, which provided 
grants to improve learning opportunities for military kids at 284 local 
schools, was cut in the DOD efficiencies initiative?
    Secretary Lamont. Yes, the Army is aware that DOD determined it 
would be more cost effective to replace grants to local education 
agencies with an alternative means of outreach. I would defer to the 
Office of the Secretary of Defense for details on their decision to 
discontinue the program and their planned way ahead.
    Secretary Garcia. Yes, the DoN has received confirmation from the 
Department of Defense Education Activity (DODEA) that although the 
grant program is still in law, the funding to operate the entire DODEA 
Partnership Branch (which administers the grant program and other 
initiatives involving stateside local education agencies that support 
military-connected students) has been cut significantly starting in 
fiscal year 2012.
    Secretary Ginsberg. Yes, these grants effectively targeted 
assistance to school districts serving military children, particularly 
districts with the greatest needs. We had hoped to see OSD continue its 
funding of this initiative. Air Force will work closely with OSD to get 
the remaining grant funds used to the fullest extent possible.
    We have funded School Liaison Officers (SLOs) at every base to 
serve as a key resource for parents as they navigate education 
information and they also serve as a central resource for area school 
districts to help provide orientation and assistance to new teachers 
and staff on the unique needs of military children affected by PCS 
moves and deployments. In addition, we have required military leader 
participation in local school boards to voice the issues pertinent to 
military children. In March 11, we brought together our SLOs, along 
with our new Exceptional Family Member Program (EFMP) Coordinators and 
key education leaders and experts to build the partnerships to create 
optimal educational settings and opportunities for our children. 
Training our staffs and leaders in conjunction with the school 
districts and community educational resources will remain a priority 
for Air Force.
    We greatly appreciate the Congress providing $250 million this 
fiscal year for school construction which will significantly improve 
the condition and capacity of public schools on military installations. 
This core support improves the educational environments for large 
numbers of our military children. We are committed to sustaining a 
close relationship with the school districts, OSD and Sister Services, 
and the community organizations to continually improve the educational 
opportunities of military children, a critical quality of life issue.

    20. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, do you agree that providing access to a quality 
education for our kids is a readiness requirement for the All-Volunteer 
Force?
    Secretary Lamont. Yes, the Army wholeheartedly agrees that 
providing access to a quality education for our children is a readiness 
requirement for the All-Volunteer Force. Since 1999, the Army has 
undertaken many initiatives to demonstrate to families its commitment 
to ensuring that schools, communities, and military installations 
respond confidently to the complexities of frequent transitions and 
parental separations and provide families the assurance that their 
children's academic well being is a high priority. The Army actively 
collaborates with the Department of Education; DODEA; national, State, 
and local education agencies; public and private sector youth serving 
organizations; community groups; and Army and Defense Department 
agencies to build effective and enduring partnerships in support of our 
children's education.
    Secretary Garcia. I agree that quality education programs for 
children are valuable to the readiness of military families whether a 
servicemember is at home or deployed.
    Secretary Ginsberg. Absolutely. We recognize that the integration 
of children into local education systems is a major influence on morale 
and propensity to remain in the Air Force. Senior wing leadership 
involvement, as military School Liaison Officers (SLO), is required to 
ensure Air Force children are successfully integrated into local school 
systems. In saying that, we have established civilian SLO positions to 
provide even greater levels of support. Recently, the Air Force 
reemphasized the continued need for all senior leaders to stay involved 
in support of military child education issues.

    21. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what initiatives do you have underway to address 
this?
    Secretary Lamont. Army Child, Youth & School Services programs 
exist to support military readiness by reducing the conflict between a 
soldier's mission requirements and his or her parental 
responsibilities. The Army School Support Services Strategic Plan 
addresses students' learning environments, academic skills, and 
personal management skills to produce a military school support system 
that ensures positive outcomes for military students by:

        <bullet> Using community resources to reduce the impact of 
        relocations and transitions of Army children
        <bullet> Providing predictable support services that assist 
        children with relocation, life transitions, and achieving 
        academic success
        <bullet> Helping parents, children, school, commanders and 
        communities to access resources that facilitate school 
        transitions
        <bullet> Identifying barriers and developing solutions to 
        ensure academic success
        <bullet> Promoting parent and community involvement by 
        providing tools to overcome obstacles
        <bullet> Educating schools and communities on the needs of Army 
        children and the impact that a military lifestyle has on 
        academic success and school adjustment

    Secretary Garcia. The School Liaison program has been implemented 
within the Navy and Marine Corps to help support transitioning families 
in obtaining educational information and assistance from local school 
districts. The mission of School Liaisons is to mobilize and use 
community resources to reduce the impact of the mobile military life 
style on military school-age children and families, and to implement 
predictable support services that assist school-age children with 
relocations, life transitions and achieving academic success.
    School Liaisons provide expertise, experience and resources to 
assist military children in their transitions to different schools; to 
improve the ability of teachers and administrators in meeting the needs 
of military children; and to educate parents on the Local Education 
Agency's (LEA) academic requirements, and to provide assistance to LEAs 
on deployment support for military children.
    Additionally, we value DODEA's grant program which provides LEAs 
with financial assistance to improve academic programs for military 
children.
    We also support the Defense-State Liaison Office collaborations 
with the Council of State Governments to develop Interstate Compacts on 
Educational Opportunity for Military Children. The purpose of the 
Compact is to remove barriers to educational success imposed on 
children of military families because of frequent moves and deployment 
of their parents. Some of the issues addressed include: timely 
enrollment; student placement process; qualification and eligibility 
for enrollment, educational programs, and participation in 
extracurricular academic, athletic, and social activities; on-time 
graduation; and promoting flexibility and cooperation between 
educational systems, parents and students.
    Secretary Ginsberg. Our major initiative is the authorization of 53 
additional civilian School Liaison Officer positions, to have Air 
Force-wide coverage. The school liaisons work with parents and families 
who face the challenges of the mobile military lifestyle and associated 
transition and parental separation issues. Other initiatives include: 
Providing MAJCOM and installation guidance/emphasis on support for 
military child education issues and a comprehensive Desk Guide for 
School Liaison Officers (SLO). Also, we have funded Air Force 
membership in the Military Child Education Coalition and the Military 
Impacted Schools Association. Finally, we have standardized training 
for all SLOs as well as EFMP-Family Support Coordinators and have added 
Military Family Life Consultants for schools at selected installations.

                        special education pilot
    22. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, testimony from the Marine Corps today 
points out something important with respect to military families who 
have kids with special needs that is important: ``National economic 
impacts and subsequent State budget cuts . . . may impede school 
districts' abilities to provide special education services.'' Last year 
I proposed a pilot program to see if scholarships would help kids with 
special educational needs achieve their goals when local schools could 
not meet their Federal obligation to do so. Unfortunately, that 
provision was not agreed to in the final agreement for the NDAA. From 
your perspective, what are some of the best practices in support of 
families with kids with special needs and what more can Congress do to 
help?
    General Bostick. Army School Liaison Officers and EFMP managers 
continually collaborate with local education agencies to provide 
military children, including those with special needs, with the best 
possible education. The Interstate Compact on Educational Opportunity 
for Military Children is a best practice that removes barriers to 
educational success imposed on children of military families because of 
frequent moves and deployment of their parents by:

        <bullet> Facilitating timely enrollment for children of 
        military families and ensuring they are not disadvantaged due 
        to difficulty in the transfer of education records from the 
        previous schools or variations in age requirements
        <bullet> Facilitating student placement through which children 
        of military families are not disadvantaged by variations in 
        attendance requirements, scheduling, sequencing, grading, 
        course content, or assessment
        <bullet> Facilitating qualification and eligibility for 
        enrollment, educational programs, and participation in 
        extracurricular academic, athletic, and social activities
        <bullet> Facilitating on-time graduation for children of 
        military families
        <bullet> Providing for the uniform collection and sharing of 
        information among States, schools, and military families
        <bullet> Promoting flexibility and cooperation among 
        educational systems, parents, and students to help students 
        achieve educational success

    Thirty-six States have signed the Interstate Compact on Education 
Opportunity for Military Children.
    Congress can support the education of all military children by 
providing full and timely funding for the President's budget request.
    Admiral Ferguson. Navy's recent Exceptional Family Member (EFM) 
Quick Poll, conducted in March 2011, indicated that families found 
TRICARE, family support services, information and referral services, 
TRICARE Extended Care Health Option, early intervention services both 
in CONUS and OCONUS, and EFM Respite Care to be most helpful.
    The program with the highest participant satisfaction was EFM 
Respite Care. Respite Care provides specialized care to Navy families 
who have children with special needs, so they can leave the house, go 
to an appointment, or just rest, knowing that their child is being 
cared for by a qualified provider. This program provides families with 
a qualifying family member (birth to age 18), who live in designated 
areas up to 40 hours of respite care a month. Navy's EFM Respite Care 
program is currently funded with Overseas Contingency Operations 
funding.
    School Liaisons also play an important role. Although the primary 
role of the School Liaison is to empower parents to be advocates for 
their children, they also help connect families of children with 
special needs to academic support and resources that will enhance their 
success in the classroom. Resources include the Parent Handbook on 
Special Education; Special Needs Parents Toolkit, Specialized Training 
of Military Parents (STOMP); and Medicaid to assist in payment for 
services not covered by TRICARE. School Liaisons also keep our 
installation commanders updated about policies that affect children 
with special needs.
    The NDAA for Fiscal Year 2011 directs the OSD Office of Community 
Support for Military Families with Special Needs to develop a report on 
DOD educational programs and childcare provided for military dependent 
children with special needs, and whether those programs comply with 
applicable disability law. The report will address obstacles in 
obtaining special education, evidence based research, and feasibility/
costs of enhancing and expediting special education services. We expect 
this report to provide significant information for Congress' 
consideration.
    General Milstead. Families enrolled in the Marine Corps EFMP are 
provided multiple layers of support, to include:

        <bullet> Family Case Workers provide non-medical case 
        management and serve as liaisons to medical, State, or 
        educational providers. These case workers may attend school 
        special education meetings with parents to ensure the adequate 
        provision of educational services. The case workers also 
        coordinate with school liaisons to address special education 
        concerns that are systemic to the local education agency. This 
        coordination is critical for families who are relocating and 
        provides a family training to increase their understanding of 
        disability-specific information and help them connect with 
        other families who have similar requirements.
        <bullet> EFMP attorneys provide legal advice and representation 
        to families seeking Federal and/or State benefits and services 
        for an exceptional family member.
        <bullet> EFMP Assignment Coordinators individually screen each 
        EFMP enrolled dependent to ensure that the medical and/or 
        educational services can be provided at the sponsor's next duty 
        station.
        <bullet> Respite Care is available to all enrolled EFMP 
        families and is funded by the Marine Corps. Respite care is 
        intended to reduce stress on sponsor families by providing 
        temporary rest periods for up to 40 hours per month.
        <bullet> EFMP also provides outreach, family training, forums, 
        support groups and referrals.

    General Jones. The Air Force EFMP was developed to educate and 
increase special needs awareness of service personnel in a timely, 
clear and credible format for our more than 17,000 airman enrolled in 
the EFMP, with one or more special needs family members.
    In March 2011, a joint training of EFMP-Family Support Coordinators 
and School Liaison Officers (SLO) set the stage for a collaborative, 
working relationship between these key installation education 
advocates. Training topics ranged from navigating resources, TRICARE 
services, the assignment process, medical and legal information, 
deployment support, homeschooling and the interstate compact. During 
the training, several installations presented their best practices: 
Exceptional Fitness, Sensory Movie Program, In School Support Group for 
Children with Deployed Family Members, Military Child Education Guide 
and the EFMP Multi-Disciplinary Team.
    The NDAA for Fiscal Year 2011 requires the OSD Office of Community 
Support for Military Families with Special Needs to provide Congress an 
in depth report on obstacles obtaining special education, evidence 
based research, and feasibility/costs of enhancing and expediting 
special education services.
    We expect the outcome of the report to provide significant 
information for Congress' consideration for future legislative courses 
of action. We currently do not know the extent of problems, whether 
they require intervention or further training for military families 
about the Individuals with Disabilities Education Act. A system that 
requires States and school districts to report complaints regarding 
special education issues by military families would provide valuable 
data on the extent of the problems.

                increases in support for family programs
    23. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, all of the Services have indicated vastly 
increased support of family programs, which our families need. Are 
these enduring increases in the base budget for fiscal year 2012, or 
are these contingent on war-time funding?
    General Bostick. The enduring increases for Army Family Programs 
are in the base budget for fiscal year 2012. To divest itself from 
dependence on war-time funding, the Army identified enduring family 
program requirements while developing the fiscal year 2010 budget, and 
placed the increases in the fiscal year 2010 and future base budgets.
    Admiral Ferguson. fiscal year 2012 funding for Navy Fleet and 
Family Support Programs is in the base budget and not contingent on 
war-time funding. War-time funding of family programs is limited to 
support of forward-deployed active duty members in Africa and Southwest 
Asia.
    General Milstead. Yes, these enduring increases for family programs 
have been added to the baseline budget for fiscal year 2012.
    General Jones. Out-year funding requests include spend plans for 
Airman & Family Readiness (A&FR) Programs. To align services and 
resources that support and enhance mission and family readiness 
appropriately, all A&FR efforts are geared toward resource and service 
provision that enhance stability of members, making them war-ready and 
confident that the needs of their families are met. War-time funding 
would provide program enhancements.

                  yellow ribbon reintegration program
    24. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, many of our witnesses this year have testified 
about the importance of the Yellow Ribbon Reintegration Program (YRRP) 
which is funded in the President's budget request for fiscal year 2012 
at nearly $250 million. In last week's Personnel Subcommittee hearing, 
Assistant Secretary McCarthy voiced his strong support for continuation 
of this program, yet we have since learned that it may not be included 
in next year's budget request. Do you agree that the YRRP is an 
important resource for servicemembers and their families returning from 
deployment?
    Secretary Lamont. Yes, the reintegration our servicemembers and 
their families experience has second and third order repercussions in 
nearly all aspects of their military and civilian lives. Servicemembers 
and their families must understand how to access the support network 
that is available to them. Reintegration is as significant as any other 
part of the deployment cycle and must be resourced as such. The YRRP 
has been refined through lessons learned over a decade of hard 
deployments. It is imperative to identify the most effective and 
efficient models, institutionalize them in much the same way as we 
institutionalize the other areas of the deployment experience.
    Secretary Garcia. Yes, YRRP is very important and has been 
successful in providing transitional support services for 
servicemembers and their families. Though the majority of focus falls 
on post-deployment services, YRRP supports the military family through 
all phases of deployment, including but not limited to pre-deployment, 
deployment, demobilization, and post-deployment and reconstitution 
phases. It's designed to provide the operational reservist with as 
equitable levels of support as possible to what we provide to our 
Active Component personnel.
    Secretary Ginsberg. Yes. Today airmen are deployed abroad to 
numerous locations around the globe. Operations tempo in the deployed 
environment remains high and the rate of operations at home is higher 
than ever as airmen, both deployed in-place and in-between deployments 
dutifully perform their missions while balancing their home life. 
Support to airmen (whether they are Active Duty, Air National Guard or 
Air Force Reserve), civilians, and their families, is more critical now 
than at any point in the history of the U.S. Air Force.
    The YRRP provides for the physical, emotional, and cognitive well-
being of airmen and families.
    The importance of the YRRP cannot be overstated. The goal is to 
provide servicemembers and their families with a delivery structure 
ensuring a continuum of care, with specific emphasis on the Deployment 
Cycle Support (DCS) so they are better prepared and sustained 
throughout the entire deployment cycle. The National Guard YRRP 
provides sufficient information, services, referral and proactive 
outreach opportunities for servicemembers and their families. The 
National Guard recognizes that each servicemember and family is part of 
a support structure and a network of protection that helps them cope 
and even thrive in the face of life's challenges.
    If YRRP is not funded or not fully funded for fiscal year 2012, ARC 
servicemembers and their families will be put at a disadvantage for 
receiving information and resources throughout the deployment cycle. 
Before this program was created, many ARC servicemembers and their 
families received partial information before and after deploying. This 
increased stress level places undue burden on them, which affected both 
their home and professional lives. There is no other funding stream or 
program like this available to ARC members. Cutting this would be a 
detriment to the Air National Guard and the Air Force Reserve.

    25. Senator Graham. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg what would replace it if budget cuts forced its 
cancellation in future years?
    Secretary Lamont. The YRRP is one of several programs that provide 
an important service to our soldiers. Some of the other programs are 
Strong Bonds, Army Strong Community Centers, Employer Partnership of 
the Armed Forces, Transitional Health Care and RC Soldier Medical 
Support.
    Secretary Garcia. It would be most unfortunate if YRRP were to be 
cancelled. However, were that to be the situation, the Department of 
the Navy would continue to provide its Returning Warrior Workshop 
program designed to reduce combat stress and other personal issues 
associated with a servicemember's deployment. These workshops are made 
available to the servicemember, their spouse, or if unmarried, 
significant other or close family member.
    Secretary Ginsberg. There is no replacement for the YRRP. It is a 
DOD-wide effort, mandated in Public Law 110-181, section 582. Before 
the onset of the National Guard YRRP, substantial funding and resources 
were not available to assist Air National Guard (ANG) servicemembers 
and their families throughout the entire deployment cycle. ANG 
servicemembers received counseling sessions by the ANG Airmen and 
Family Readiness Program Managers (A&FRPMs) that may or may not have 
included their families. These A&FRPMs provided Family Program 
counseling and information on each ANG installation. Despite the one-
deep position, A&FRPMs manage as many programs as their active duty 
counterparts; therefore, not allowing the opportunity to provide the 
same level of service provided by YRRP.
    The YRRP has made a difference in the lives of thousands of 
servicemembers and their families with informational events and 
activities to facilitate access to services supporting their health and 
well-being throughout the deployment cycle. If the YRRP is not 
supported with appropriate funding, servicemembers and their families 
would be at a disadvantage on receiving information and resources. 
Continuing support from Congress, the Military Departments, the 
National Guard and Reserve, Federal agencies, nongovernmental agencies, 
and State and local partners will ensure our National Guard and Reserve 
servicemembers and their families remain strong and ready!
    The Air Force Reserve has always taken great pride in the level and 
quality of support and services provided for airmen and families. YRRP 
provides a one stop shop for military members and their families 
through all phases of the deployment cycle with information, services, 
referral, and proactive outreach programs.
    Many of the programs mentioned exist and with future budget cuts 
will require leaders to identify and prioritize where the needs are 
greatest to ensure the wisest use of critical financial resources while 
focusing toward meeting the needs of the Air Force Community.
    The work of strengthening the Air Force family and building a 
stronger Air Force community will continue. It is a priority because it 
is the right thing to do for our airmen and the smart thing to do to 
ensure America's Air Force accomplishes its mission and continues to be 
the world's best air, space, and cyber force.

                    suicide in the guard and reserve
    26. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, our committee has overseen a significant 
expansion of resources and programs by the Services in recent years to 
prevent suicide. I know that none of us is yet satisfied with our 
results. Recently we have seen reports of rising numbers of suicide in 
the Reserve components, and that is the focus of my questions today. We 
all agree that the Reserve components, including the National Guard, 
will continue to be operational assets of the armed forces, is that 
correct?
    General Bostick. Yes, over the past 15 years our military has 
become increasingly reliant on the Reserve components including the 
National Guard to perform title 10 missions. Although the operational 
tempo is expected to be less intense than it has been, the National 
Guard is uniquely suited to fulfill both military support to domestic 
civil authorities as well as integrating with Active and service 
Reserve components to perform full spectrum operations.
    Admiral Ferguson. Yes, the Navy Reserve will continue to be a vital 
operational asset of Navy's Total Force.
    General Milstead. That is correct. The Marine Corps is developing 
our concept of how to employ the Reserves as an operational force after 
current contingency operations have concluded.
    General Jones. The Reserve Component (RC) will continue to be an 
operational asset. There is significant capability in the RC, and in 
some cases the preponderance of key capabilities are in the RC. The AF 
has also embraced the concept of ``Total Force'' with very close 
integration of the Active (AC) and Reserve components. The AF uses 
various organizational constructs to augment and integrate the RC to 
ensure operations are seamless when called upon. With the Total Force 
construct and capacity within the RC, the RC will remain an operational 
asset for the foreseeable future.
    We know of no evidence that supports a link between the operational 
demands of the ARC and ARC suicides. The Army's 2010 Health Promotion, 
Risk Reduction and Suicide Prevention report found no direct 
correlation between military suicides and deployments. Rather, the 
report identified a correlation of suicide with high-risk behaviors and 
increased life stressors. In the Air National Guard (ANG), data also 
shows no direct correlation with deployments, though with the complex 
issue of suicide, it is difficult to know how much each factor and life 
event impacts someone's eventual decision to take their own life. The 
ANG sees a need to help airmen improve their protective factors, 
deployed or not.

    27. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the majority of suicides reported in 
Reserve components are carried out by servicemembers who have never 
deployed, is that correct?
    General Bostick. Yes, in general the Reserve components deployment 
profile of suicide deaths is different from the active duty deployment 
profile, and the majority of Reserve component soldiers have not 
deployed. However, this difference is consistent with overall 
deployment profile of the Army Reserve and Army National Guard where 
less than 50 percent of the force has a deployment history.
    In 2010, 79 of the 145 (54 percent) confirmed and pending (final 
medical examiner determination) suicide deaths for those who were not 
serving on active duty at the time of their death had no deployment 
history. Thus far in 2011, 24 of 48 (50 percent) of the confirmed and 
pending suicide deaths for non-active duty soldiers had no deployment 
history.
    Eight of the 16 (50 percent) Reserve component soldiers who died of 
suicide while on active duty in 2010 had no deployment history, and in 
2011 two of the four (50 percent) soldiers had no deployment history.
    Admiral Ferguson. The vast majority of Navy Reserve suicide victims 
have deployed. Of the seven Navy Reserve sailors who died by suicide in 
2010 and year to date 2011, one had never deployed, two had deployed 
within 2 years of their deaths, the remaining four had deployed earlier 
in their career.
    General Milstead. According to our records, suicides by Reserve 
Component Marines do not significantly vary between those with and 
those without a history of deployment. On 1 Jan 2009, DOD began 
requiring the reporting of suicides by members of the Select Reserve 
(SELRES) who were not on active duty or in a drilling status. From 1 
Jan 2009 to 31 Mar 2011, there were 20 suicides by SELRES marines not 
on active duty or drilling. Ten of those had no history of deployment 
and 10 had a history of deployment. From 1 Jan 2002 to 31 Mar 2011, 
there were 18 suicides by SELRES Marines on active duty or drilling. 
Eight of those had no history of deployment and 10 had a history of 
deployment.
    General Jones. The answer to this question depends on what is coded 
as a deployment. Analysis of the available data revealed that 67 
percent of the reservists and 60 percent of ANG members who committed 
suicide had not served on orders in support of a contingency.

    28. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, we have been inconsistent in our tracking 
of suicide, mental health care, and follow-up medical care for members 
of the Reserve components who have deployed, especially those in the 
Individual Ready Reserve, is correct?
    General Bostick. Significant effort is being made to track the 
suicide deaths of soldiers who are assigned to the Individual Ready 
Reserve. However, the Army relies on the family to notify the Army of 
the death. Because those assigned to the Individual Ready Reserve have 
chosen to not become members of an Army Reserve unit, they do not have 
the same leadership oversight that is provided to member of the Army 
Reserves in troop units.
    Admiral Ferguson. The Reserve component (RC) uses the same suicide 
tracking system (DOD suicide event report) system as the Active 
component (AC). They also have suicide prevention coordinators at each 
Navy Operational Support Center (NOSC) who conduct the same peer-to-
peer prevention training provided to the AC. The Deployment Health 
Assessment (DHA) process is also in place in the RC, in addition to 
required annual Periodic Health Assessments (PHA) which are tracked in 
the same data base as the AC. The NDAA for Fiscal Year 2010 added a 
mental health assessment requirement that we are currently integrating 
into the DHA process to be assessed as part of pre-deployment (PDA), 
immediate post-deployment (PDHA) and later post-deployment--3 to 6 
months following return (PDHRA). These are performed by primary care 
providers, either as group events or partially on-line, with follow-up 
at a Reserve Health Readiness Program (RHRP) center within 50 miles of 
the reservist's residence. The PDHA process does track individuals who 
have deployed and are no longer on active duty. Selected Reserve 
personnel are tracked for suicides in the same manner as the AC. There 
is no consistent tracking of deaths or specific suicide prevention 
outreach for members of the individual Ready Reserve (IRR), who have no 
unit affiliation.
    Additionally the Reserve Psychological Health Outreach Program 
(PHOP) teams--five to six full-time licensed mental health providers, 
are embedded within each geographic Navy Reserve Region to help 
commands, their families and to help RC personnel meet their care 
needs. This support includes manning a 24/7 watch bill. They provide 
screening, find local affordable resources, make referrals, and follow-
up to ensure that the care was effective. They are also charged with 
contacting all returning personnel and attend unit events to provide 
training and assessment. They have helped many find appropriate care 
for medical and mental health needs by connecting them with available 
and accessible Federal and State programs as well as with local 
programs and services.
    Members who had mobilized and were subsequently transferred to the 
IRR are still required to complete the PDHRA requirements which include 
psychological/mental health screenings. Navy has identified 316 IRR 
members who are due for this post-deployment evaluative tool. Navy's 
contracted PDHRA administrator, Logistics Health, Inc., is currently 
conducting call center events designed to drive PDHRA completion for 
this group of sailors. As of 1 June, three members have been referred 
to the VA for additional care as a result of this initiative.
    For our wounded personnel, Navy works closely with the Department 
of Veterans Affairs to provide transitional support for case management 
of medical and nonmedical care recipients. Navy's Safe Harbor program 
supports nonmedical case management for wounded, and seriously ill and 
injured sailors.
    General Milstead. The Reserve component (RC) uses the same suicide 
tracking system as the Active component (AC). The Deployment Health 
Assessment (DHA) process is also in place in the RC, in addition to the 
required annual Periodic Health Assessments (PHA). Reserve personnel 
affiliated as SELRES are tracked for suicides in the same manner as the 
AC. There is no consistent tracking of deaths or specific suicide 
prevention outreach for Individual Ready Reserve (IRR), who have no 
unit affiliation.
    Members who had mobilized and were subsequently transferred to the 
Individual Ready Reserve are still required to complete the PDHRA 
requirements which include psychological/mental health screenings.
    For our wounded personnel, the Marine Corps works closely with the 
Department of Veterans Affairs to provide transitional support for case 
management of medical and non-medical care recipients. The Marine 
Corps' Wounded Warrior Regiment supports non-medical case management of 
our seriously wounded, ill, and injured sailors.
    General Jones. Tracking of participating ARC members is consistent 
and reliable.
    Tracking of mental health care and follow-up medical care for AFR 
members who have deployed is tracked two ways. Servicemembers, with an 
identified need, who have received medical services through the 
military healthcare system (to include official referrals to non-
military providers), are tracked using the same process as Active Duty. 
Second, AFR members who return to civilian status, and receive 
healthcare outside of the military system and not through TRICARE, are 
required to report that care to their respective Reserve medical unit 
(RMU). Reports may be made while in any status and include completion 
of well-known screening instruments (e.g., PHA and DD forms 2795, 2796, 
and 2900).
    Active Guard members (i.e., Title 10 and Title 32) are also 
monitored by multiple means. The new Wing Directors of Psychological 
Health (DPH) work closely with the ANG medical units in providing 
referral and case management when pre- and post-deployment assessments 
reveal mental health concerns. A primary goal of this program is to 
help ANG members, regardless of the genesis of the mental health issue, 
navigate the mental health system and follow through with care. 
Continuity of post-deployment medical care is addressed by the Medical 
Continuation process, wherein members are kept on Active Duty orders 
with full pay and benefits in order to continue care for deployment 
related conditions. An enhancement planned for the Medical Continuation 
program is the institution of a case management structure to ensure 
members are assisted throughout the medical care process.
    When an ANG member becomes an Individual Ready reservist, they fall 
under the Air Force Reserve Center and are not tracked by the Guard. 
Currently AFR does not track suicides, mental health care or follow-up 
medical care of members in the IRR because we don't typically mobilize 
AFR members out of the IRR. Since 2001, we have not mobilized any of 
our AFR members from the IRR.

    29. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, continuity of health care can be a 
significant problem for members of the Guard and Reserve, is that 
correct?
    General Bostick. Yes, continuity of care is a complex issue for 
members of the Reserve components as they may be eligible for care from 
multiple sources. Reserve soldiers may be eligible for health care 
insurance from either TRICARE or non-TRICARE sources depending on where 
they are in the deployment life cycle. Additionally, their chosen 
civilian providers may or may not participate in TRICARE for which the 
soldier is eligible. Hence, continuity of both health care coverage and 
health care providers can be a significant problem for members of the 
Reserve Components throughout their deployment life cycle.
    Admiral Ferguson. Given the mobile nature of our military force and 
the fact that many Reserve component (RC) sailors reside outside of a 
Military Treatment Facility (MTF) catchment areas, continuity of care 
can be challenging. RC servicemembers transition between civilian 
healthcare providers and military providers over the course of their 
military service. However, Navy, in partnership with the entire MHS and 
the Department of Veterans Affairs (VA), is fully committed to ensuring 
the health and well-being of sailors as they make this transition. 
Continuity of care is maintained through a combination of the TRICARE 
benefit, Navy-specific outreach and entitlement programs, and the 
support and resources of the VA.
    From the time a RC sailor receives their early TRICARE eligibility 
entitlement, in advance of mobilization through actual demobilization, 
they receive the same level of care and access to services as any other 
member of the Active Force. Once demobilized, they maintain eligibility 
for TRICARE through the Transitional Assistance Management Program 
(TAMP) and may receive care at an MTF or through civilian providers. 
Following the 180-day TAMP eligibility period, these members may elect 
to purchase TRICARE Reserve Select, if they qualify through their 
Reserve affiliation. Those who do not qualify may elect to purchase the 
Continued Health Care Benefit Program. As these Reserve component 
servicemembers retire, they may elect to purchase TRICARE Retired 
Reserve coverage until age 60, when they become eligible for TRICARE 
retired benefits.
    The Reserve Component Medical Programs System is available to 
provide continued medical care and financial support for Reserve 
component members who incur or aggravate an injury, illness, or 
disease, in the course of their military duties. Members may be 
retained on active duty through the Medical Hold Program or they may 
receive a Line of Duty (LOD) Determination. The LOD allows them to 
receive care for that condition in a non-activated status. LOD care may 
be provided within an MTF catchment area or, in remote areas, through 
civilian providers, with authorization from the TRICARE Management 
Activity Military Medical Support Office (MMSO). Oversight of these 
Reserve Component members is maintained by their unit or Navy 
Operational Support Center, Navy Personnel Command, as well as an MTF 
or the MMSO. The program provides incapacitation pay in those instances 
in which a member's condition prevents them from working in their 
civilian occupation.
    The Deployment Health Assessment process is designed to reach out 
to Reserve Component members who have returned from deployment and 
demobilized. These members are assessed at established intervals from 
pre-deployment through up to 24 months post deployment, to evaluate 
both their physical and mental health.
    The Navy Bureau of Medicine and Surgery's PHOP teams, which are 
embedded within each Navy geographical Reserve Region, also assist 
commands, Reserve component members and their families. This can 
include helping with the LOD process when necessary, finding local 
resources, and obtaining other health care services when personnel do 
not have access to military medical benefits, or have limited, or no, 
health insurance. The PHOP teams can also provide screening, follow-up 
and referrals to Federal, State, local, and nongovernmental resources.
    Finally, the VA offers medical and psychological health services, 
including treatment for sexual assault, for RC servicemembers who have 
served in combat areas, whether they are still in the Reserves, 
separated or retired. Veteran Centers, with additional psychological 
and family support services, including marital counseling, are found in 
many local areas in which current and former Reserve component 
servicemembers reside.
    General Milstead. Given the more mobile nature of our military 
force and the fact that many of our reservists reside outside the 
catchment area of a Military Treatment Facility (MTF), continuity of 
care can be challenging. Reserve component members transition between 
their civilian healthcare providers and military providers over the 
course of their military service. However, the Department of the Navy, 
in partnership with the entire MHS and the Department of Veterans 
Affairs (VA), is fully committed to ensuring the health and well being 
of our servicemembers as they make this transition. Continuity of care 
is maintained through a combination of the TRICARE benefit, Navy-
specific outreach and entitlement programs, as well as VA support and 
resources.
    From the time a reservists receives their early TRICARE eligibility 
entitlement in advance of mobilization through actual demobilization, 
they receive the same level of care and access to services as members 
of the Active Force. Once demobilized, they maintain eligibility for 
TRICARE through the Transitional Assistance Management Program (TAMP) 
and may receive care at an MTF or through civilian providers. Following 
the 180 day TAMP eligibility period, these members may elect to 
purchase TRICARE Reserve Select, if they qualify through their Reserve 
affiliation. For those who do not qualify, they may elect to purchase 
the Continued Health Care Benefit Program. As these same members 
retire, they may elect to purchase TRICARE Retired Reserve coverage 
until age 60, when they then become eligible for TRICARE retired 
benefits.
    The Reserve Component Medical Programs System is available to 
provide continued medical care and financial support for reservists who 
incur or aggravate an injury, illness or disease in the course of their 
military duties. Members may be retained on active duty through the 
Medical Hold Program or they may receive a Line of Duty (LOD) 
Determination. The LOD then allows them to receive care for that 
condition in a non-activated status. LOD care may be provided within an 
MTF catchment area or in remote areas through civilian providers.
    General Jones. Continuity of care can be a challenge in the Guard 
and Reserve due to many factors, including changes in status and 
geographic dispersement.
    The ANG is in the process of placing a Director of Psychological 
Health (DPH) in each Wing to promote and support the psychological 
health and continuity of care of servicemembers. The Wing DPHs work 
closely with the ANG medical units in providing referral and case 
management when pre- and post-deployment assessments reveal mental 
health concerns. Wing DPHs can work closely with their State DPH 
counterparts when additional support is required.
    Additionally, if a member chooses to participate in Tricare Reserve 
Select or has private health insurance, there should not be a problem 
with continuity of care.

    30. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, stigma and confidentiality in mental 
health are uniquely significant for servicemembers who live and work in 
small towns all over our country, is that correct?
    General Bostick. Stigma is a concern for those seeking behavioral 
health care across the entire Army community. Over the last few years, 
the Army has focused significant attention, with a great deal of 
success, at reducing soldier unwillingness to seek behavioral health 
support attributed to stigma. Behavioral health care utilization has 
increased across the Army. The Army established the Health Promotion, 
Risk Reduction and Suicide Prevention Task Force to further understand 
and mitigate the effects stigma has in extending care to the Army 
family.
    Admiral Ferguson. We are continuing to address such concerns for 
Reserve Component personnel, whether they reside and work in small 
towns or in communities with larger populations, through our suicide 
prevention and psychological health programs, including Operational 
Stress Control (OSC), which is integrated into the Navy career training 
continuum. DOD and Navy have made policy changes to support this 
development over the past few years, and to encourage sailors to seek 
help. We are fully committed to reducing the stigma associated with 
mental health care and to raising awareness within the Reserve 
community that there is confidentiality for mental health care, 
especially when self-initiated.
    General Milstead. We are not aware of any professional literature 
that addresses the significance of stigma and confidentiality rates in 
small towns versus more populated areas in America. However, we are 
continuing to address these concerns for Reserve Component personnel 
who may live and work in either small towns or in communities with 
larger populations through our suicide prevention and psychological 
health programs, including Operational Stress Control (OSC) which is 
integrated into the Marine career training continuum.
    DOD and the Marine Corps have made policy changes to support this 
development over the past few years and to encourage help-seeking by 
marines. We are fully committed to reducing the stigma associated with 
mental health care and to raising the awareness within the Reserve 
community that there is confidentiality for mental health care, 
especially when self-initiated.
    General Jones. There is some evidence to support this conclusion, 
likely due to the lack of anonymity in small towns.

    31. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, prevention programs that work in one State 
or community, may or may not be the right approach in another one--in 
other words, one-size-does-not-fit-all, is that correct?
    General Bostick. There are numerous studies that suggest there are 
``universal'' aspects of suicide prevention programs. Resources such as 
the Suicide Prevention Resource Center (http://www.sprc.org/about--
sprc/index.asp) acknowledge there are some cultural differences in how 
programs and services are provided (e.g., appropriate language, etc.). 
The observed differences in the effectiveness of a program has less to 
do with the differences in communities and is more influenced by the 
behavioral health condition the program is attempting to address (e.g., 
a program targeted towards those with depression are less effective in 
helping someone who has a substance abuse problem).
    Admiral Ferguson. Many complex and individual pathways lead both 
toward and away from suicidal ideation and attempts. No single message, 
training, intervention, or approach will intercept everyone on a deadly 
path. Intuitively it makes sense that different populations would 
respond in a non-uniform manner to various intervention attempts, given 
cultural differences between communities. Lessons from research and 
years of program efforts have shown that multiple approaches working 
within a strategic framework are required to reduce suicide risk.
    Each of the Services has developed unique programs designed to fit 
their communities/cultures, including their respective Reserve 
Components. These programs are based on the best evidence available, 
including accepted professional models and best practices. Each Service 
takes many measures to prevent suicide, including: mandated annual 
peer-to-peer training; regular safety briefings; large-scale social 
marketing campaigns to encourage members to seek help and promote 
suicide prevention; and offer programs that include suicide prevention 
at accession points, schoolhouses, and at critical career decision 
points and milestones. Also inherent to all of the Services' programs 
is emphasis on the broader concepts of buddy care, leaving no one 
behind and bystander intervention.
    General Milstead. Suicide prevention relies primarily on Marine 
Corps leadership, regardless of location. Beginning at the non-
commissioned officer level and extending up through the ranks, leaders 
prevent suicide by fostering individual and unit resilience, 
encouraging self-care and peer-intervention, and managing command 
climate in a way that encourages Marines to engage helping services 
early, before problems worsen to the point of suicide.
    General Jones. One size certainly does not fit all especially when 
it comes to the Reserve Components. ANG and AFR units are very unique 
based on their population, geographic diversity, economic 
circumstances, and a number of other critical factors. Because of this 
reality, the recent National Guard Bureau Warrior Care Initiative 
focused on researching and recommending a toolbox of resilience-
building programs so that each State/Territory can choose the programs 
that best fit its unique needs. In this instance, all programs fit into 
the Comprehensive Soldier Fitness/Comprehensive Airman Fitness pillars 
of wellness. Thus, prevention programs do need to be tailored for their 
recipients, and can be based upon certain principles and guiding 
theories. Programs should provide some latitude for local factors (e.g. 
culture, resources, etc.) and demands of the wing missions, but should 
also be proven effective prior to widespread implementation.

    32. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, community involvement is essential for the 
Reserve components--even more so than the Active component, is that 
correct?
    General Bostick. Community involvement is equally important for all 
components. Many of the soldiers serving as recruiters and supporting 
Reserve component are stationed away from military installations and 
require the support of the local community. Many of the medical 
professionals return from deployments and return to work in community 
hospitals, where they are no longer around the soldiers with whom they 
deployed and on whom they learned to rely for support during that 
deployment. Reserve component soldiers also experience this sense of 
isolation when they return to their hometown and lack ``peer to peer'' 
support. It is impossible to say if community support is more important 
for one component versus another.
    Admiral Ferguson. Yes, community involvement is essential for the 
Reserve Components. Reserve sailors typically have limited access to 
resources available on base and may only interact with members of their 
unit when drilling. On-line and telephone resources, such as the Navy 
help-line and Military OneSource, are available to all military 
servicemembers and their families. However, due to the distance between 
some RC sailors and face-to-face services, accessing available civilian 
community resources is important to their quality of life. Active 
component sailors are typically more rooted in the associated military 
community, while Reserve component sailors are more closely connected 
to their civilian communities, in part because they tend to relocate 
less frequently.
    Regarding suicide prevention, however, military involvement remains 
essential for Reserve sailors so they may benefit from all DOD 
resources designed to promote resiliency and prevent suicide, including 
effective peer-to-peer suicide prevention training. Our PHOP offers 
five counselors in each Navy Region responsible for reaching out to 
sailors returning from mobilization and for being readily available 
when leadership or shipmates sense a need for a sailor to speak with a 
professional.
    General Milstead. Community involvement is equally important to 
suicide prevention in the Reserve and Active components. A marine's 
community must recognize signs of distress, know where to turn for 
help, and be willing to assure that the marine gets the needed help.
    General Jones. Absolutely. Citizen airmen are more engrained in 
their communities. Traditional Guard members and reservist in 
particular spend much more time in their communities and at their 
civilian jobs than with their unit. The member and their families, 
although eligible for some military services, are often geographically 
separated from, or otherwise not exposed to, the unique aspects of an 
active duty lifestyle, which readily offers more assistance, 
accountability and oversight. Because of this, it is critical that 
leadership and policymakers begin to engage with the community in 
efforts to prevent suicide in airmen. This would help educate community 
providers and other community supporting agencies about the unique 
stressors faced by our Guard and Reserve members. Partnering with 
community initiatives in suicide prevention and educating agencies that 
assist citizen airmen about their unique stressors could prove to be 
helpful in reducing suicide rates. The ANG anticipates the newly-placed 
ANG Wing Directors of Psychological Health (WDPHs) will be instrumental 
in assisting with this effort. They are best able to impact the 
immediate community in which the wing is located.

    33. Senator Graham. General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the YRRP is funded in fiscal year 2012, 
but may not be funded in fiscal year 2013. It's part of the solution 
but not the entire solution, is that correct?
    General Bostick. The YRRP is one of several programs that provide 
an important service to our soldiers. Some of the other programs 
include:

        <bullet> Strong Bonds

                <bullet> The Strong Bonds mission is to increase 
                soldier and family readiness through relationship 
                education and skills training.
                <bullet> Strong Bonds helps single soldiers, couples, 
                and families thrive in the turbulence of the military 
                environment.

        <bullet> Army Strong Community Centers

                <bullet> The Army Strong Community Center (ASCC) 
                program was established by the Army Reserve to support 
                military members and their families who live away from 
                the larger military installations where support is 
                readily available.
                <bullet> The ASCC aims to connect geographically 
                dispersed families with support resources in their own 
                community.
                <bullet> The ASCC is an information and referral office 
                dedicated to assisting and supporting servicemembers, 
                retirees, veterans, and family members.
                <bullet> The ASCC serves all branches of the military, 
                Active and Reserve.
                <bullet> There are currently three ASCC locations in 
                Rochester, NY; Brevard, NC; and Coraopolis, PA.

        <bullet> Employer Partnership of the Armed Forces

                <bullet> The Employer Partnership (EP) is a key program 
                to help mitigate economic stress on Reserve component 
                soldiers.
                <bullet> EP was created as a way to provide America's 
                employers with a direct link to some of America's 
                finest employees--servicemembers and their families.
                <bullet> EP's partner with over 1,000 employers who 
                include 96 of the 2010 Forbes Fortune 500 Companies, 
                and the list is growing.
                <bullet> There are 500,000 jobs available online on the 
                EP website (employerparternship.org).
                <bullet> Nearly 4,000 soldiers, family members, wounded 
                warriors, and veterans have been hired through the 
                program.
                <bullet> EP launched a powerful new online job search 
                portal on Veterans Day 2010.

        <bullet> Transitional Health Care Program

                <bullet> The Transitional Health Care Program provides 
                180 days of transitional health care benefits, 
                including psychological health care, to demobilized 
                Reserve soldiers and their families.
                <bullet> TRICARE Reserve Select (TRS) is a premium-
                based health plan that qualified RC soldiers may 
                purchase; the monthly premium for TRS individual 
                coverage is $47.51, and the monthly premium for TRS 
                family coverage is $180.17.
                <bullet> Military OneSource. Military OneSource is an 
                information and referral clearinghouse that can guide 
                AR members to the right resources. Through Military 
                OneSource, the soldier and each family member has 
                access to up to 12 in-person counseling sessions with a 
                licensed counselor at no cost.

        <bullet> RC Soldier Medical Support Center

                <bullet> Its purpose is to ensure continuity of care/VA 
                benefits by integrating and streamlining the medical 
                review process across all States and territories.

    Admiral Ferguson. Yes, that is correct. The YRRP is an invaluable 
program that benefits sailors in many ways. However, it is just one of 
a number of tools available to ensure returning reservists successfully 
and seamlessly reintegrate into their communities. Navy also 
administers a comprehensive and highly effective suicide prevention, 
intervention, and response program, to address the challenges and 
stressors with which Active and Reserve sailors contend, particularly 
upon returning from prolonged absences and assignments in combat zones.
    General Milstead. Reserve suicide prevention relies in part, but 
not entirely on the YRRP. The Marine Corps has several other programs 
focused on Reserve suicide prevention, to include:

        <bullet> The Never Leave a Marine Behind suicide prevention and 
        awareness education series trains Active and Reserve marines to 
        recognize the warning signs for suicide, foster personal and 
        unit resiliency, know where to go for behavioral health care, 
        engage helping services early, and in the case of senior 
        leaders, how to manage command climate to reduce the risk of 
        suicide.
        <bullet> The Operational Stress Control and Readiness (OSCAR) 
        program is being implemented at the Battalion/Squadron level to 
        train marines and medical and religious ministry personnel to 
        prevent, identify, and manage stress problems as early as 
        possible. OSCAR team members know their unit members and can 
        quickly recognize any unusual changes. Since the Marines are 
        familiar with their team members, it is more likely that 
        marines will talk about their stress.
        <bullet> The Marine Corps is currently piloting a 24-7 by-
        Marine-for-Marine counseling line, available to all Marines, 
        whether Active, Reserve, or veteran, and their loved ones. The 
        DSTRESS Line is being piloted in the Western U.S.
        <bullet> The Marine Corps Behavioral Health Information Network 
        (BHIN) is a web-based clearinghouse for the latest information 
        and tools for Reserve and Active marines on prevention and 
        other resources concerning behavioral health. These free 
        educational materials are excellent tools that will assist 
        units and installation support services in their efforts to 
        educate the military community about building resiliency, 
        recognizing reactions and determining the need for help.
        <bullet> The PHOP provides psychological health professionals 
        at six regional Marine Forces Reserve sites to screen and refer 
        members for behavioral health services. Marines that are 
        referred to the program can be screened for behavioral health 
        issues, medically referred, and provided a road to recovery. 
        Outreach specialists will follow each referred reservist 
        through the resolution of that member's case, whether it is 
        return to active Reserve status, or resolution through the DES.

    General Jones. The YRRP provides information, services and 
referrals to servicemembers and their families. While suicide 
prevention briefings, information and counseling referrals are made at 
YRRP events, it is not the entire answer to suicide prevention in part 
because YRRP focuses only on supporting members who have deployed and 
because the events are based on voluntary attendance. The majority of 
reservists requiring behavioral health support has never deployed and 
thus would not be eligible or even exposed to these YRRP programs.
    The Air National Guard continues efforts to create and help 
implement strategies for suicide prevention with the development of 
outreach programs such as the ANG Wingman Project, whose goal is to 
eliminate warfighter and family member suicide through human outreach, 
media and training. Chaplains, Military Family Life Consultants, DPHs, 
and Military OneSource are just some of the resources available for 
anyone considering suicide. Suicide prevention success is driven by the 
collective action of individuals and communities across the Nation.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                    servicemembers civil relief act
    34. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the number of service men and women 
experiencing significant financial problems with their mortgage 
companies and banks is unfortunately well known. While the operational 
tempo of our Armed Forces will hopefully decrease following the 
withdrawal of our combat forces from Iraq, the OPTEMPO will likely 
still remain high and we will continue to rely on our Reserve 
components to meet operational requirements for the foreseeable future. 
With this in mind and if private lenders continue to violate or ignore 
the provisions of the Servicemembers Civil Relief Act (SCRA), what 
adjustments do you believe may be necessary to that SCRA to protect the 
interests of our service men and women?
    Secretary Lamont and General Bostick. The Servicemember's Civil 
Relief Act (SCRA) should be amended in two ways:

    (1)  The SCRA (codified at 50 U.S.C. App. Sec. Sec. 501-597b) 
should be amended to make it easier for the lending industry to 
properly apply the 6 percent interest rate cap. Section 527 requires 
the servicemember to provide the lender with a copy of his or her 
official orders to show the period for which the 6 percent interest 
rate cap should apply. These orders, however, can be difficult to 
understand and interpret.

    Section 535 defines military orders to include ``any notification . 
. . from the servicemember's commanding officer, with respect to the 
servicemember's current or future military duty status.'' This 
basically allows the commander to write a letter clearly stating when 
the servicemember is or will be on active duty. This definition, 
however, only applies to section 535, and not to the 6 percent interest 
rate cap section, which, as noted, still requires a copy of the more 
complicated official orders.
    If the definition of military orders found in section 535 were made 
applicable to the entire SCRA by moving it to section 511--the 
definition section, which is applicable to the entire Act--then the 
lending industry could more readily determine when a servicemember was 
eligible for the 6 percent interest rate cap.
    This amendment would also make it easier for the lending industry 
to determine when the interest rate applied to Reserve component 
servicemembers who had received orders but had not yet reported for 
active duty. The SCRA extends some of its protections and benefits 
(including the 6 percent interest rate cap) to those with orders even 
though they have not yet reported for duty. Determining when the orders 
were received can be complicated. But if servicemembers were allowed to 
provide a letter from their commander, the period of applicability 
could be stated clearly.

    (2)  The SCRA should be amended to extend mortgage foreclosure 
protections to all servicemembers' mortgages, not just those secured by 
pre-service obligations. Section 533 provides protections against the 
non-judicial sale, foreclosure, or seizure of the property secured by a 
mortgage obligation that originated before the period of the 
servicemember's active duty. This means a court must enter a valid 
order before the sale, foreclosure, or seizure of such property can 
take place, and such an order cannot be entered unless and until the 
creditor files a lawsuit against the servicemember, gets service of the 
suit on the servicemember, and the servicemember has an opportunity to 
come into court and seek relief from the foreclosure. If the property 
is secured by a mortgage obligation created after the period of active 
duty, then the SCRA does not provide these protections.

    Losing one's home to foreclosure almost inevitably leads to a 
cascade of financial complications. If it occurs while on active duty, 
these complications are no less painful and disruptive to mission 
accomplishment just because the obligation was created while on active 
duty, rather than prior to entering active duty.
    To ensure that servicemembers remain focused on the military 
mission, the mortgage foreclosure protection should be extended to 
cover all servicemembers' mortgage obligations, not just pre-service 
ones.
    Such expanded protection would also simplify the process for the 
lending industry. If such an amendment were adopted, the foreclosing 
creditor would only have to determine whether the servicemember is on 
active duty at the time of the proposed sale, foreclosure, or seizure 
(or was on active duty within the nine months preceding the sale, 
foreclosure, or seizure). The foreclosing creditor would not have to 
sort through a possible series of prior mobilizations to determine the 
status of the servicemember at the origination of the mortgage 
obligation.
    Secretary Garcia and Admiral Ferguson. DOD is currently evaluating 
the need for three amendments to the Servicemembers Civil Relief Act 
(SCRA) (50 U.S.C. App. Sec. Sec. 501-597b), which may warrant 
consideration by Congress:

        <bullet> Amend the SCRA to ease eligibility determination and 
        proper application of the 6 percent interest rate cap by the 
        lending industry. Under section 527, a servicemember can secure 
        an interest rate cap of 6 percent per year on all loans 
        incurred before entering active duty if military service 
        affects the member's ability to meet the obligation. To 
        qualify, the member must provide the lender with a copy of 
        official orders to show that he or she is on active duty. 
        However, military orders can be difficult for lenders to 
        interpret. Section 535 provides a broader definition of 
        military orders to include ``any notification . . . from the 
        servicemember's commanding officer, with respect to the 
        servicemember's current or future military duty status.'' 
        Applying section 535 definition of ``military orders'' to the 
        entire SCRA would allow lending institutions to more readily 
        determine eligibility for SCRA protections, including the 6 
        percent interest rate cap provision.
        <bullet> Amend the SCRA to extend mortgage foreclosure 
        protections to all servicemember mortgages, vice only those 
        secured by pre-service obligations. Section 533 requires a 
        valid court order before sale, foreclosure, or seizure of a 
        servicemembers mortgage-secured property, but only if the 
        mortgage obligation of the servicemember was created before the 
        period of active duty began; consequently, servicemembers who 
        incur mortgage obligations after commencing active duty are not 
        protected. Expanding protections to all servicemembers would 
        ease lending institution compliance by removing the burden of 
        determining whether the debt was incurred pre-active duty or 
        after entry on active duty. Providing foreclosure protections 
        for all servicemembers would ensure court oversight, help 
        servicemembers remain mission-focused knowing they have this 
        judicial supervision, and help them avoid or mitigate financial 
        complications that often follow a foreclosure.
        <bullet> Increase penalty provisions for SCRA violations to 
        enhance financial compliance with the act.

    Secretary Ginsberg and General Jones. We commend the Department of 
Justice for their recent investigations into violations of the SCRA. 
This Act is an important protection offered to our servicemembers, 
particularly those who are deployed, or have been deployed multiple 
times over the past 10 years. Enforcing this act greatly contributes to 
peace of mind many of our personnel appreciate when they are deployed 
for extended time periods. The recent examples of nationally known 
mortgage companies being held accountable for violating SCRA should 
sound a clarion call to the industry. Lenders must ensure 
servicemembers are not harmed by their lack of due diligence in meeting 
the requirements of SCRA and working with our servicemembers to avoid 
home foreclosures. SCRA makes clear that lender's responsibility to 
work with servicemembers is not negotiable. When a violation occurs, 
impacting the credit and financial status of any servicemember, the 
financial institution must take action to remedy negative consequences 
and ensure the servicemember's credit rating is restored to pre-
foreclosure value.
    General Milstead. I do not currently foresee any necessary 
adjustments to the SCRA. The SCRA was completely rewritten in 2003 and 
substantially amended again in 2008. The SCRA currently offers 
expansive protections to servicemembers in the areas of default 
judgments, civil stay provisions, maximum interest rates (to include 
mortgages), eviction and foreclosure protection.

       uniformed services employment and reemployment rights act
    35. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) protect millions of people, largely 
National Guard and Reserve members, as they transition between their 
Federal duties and civilian employment. USERRA is intended to eliminate 
or minimize civilian employment disadvantages resulting from service in 
the Reserve components and protect the rights of those members when 
they deploy. Since September 11, 2001, over 500,000 citizen soldiers 
have been mobilized to fight the war on terrorism. Many American 
soldiers have served more than one tour of duty and may be required to 
serve more. While some would argue that it is statistically reasonable 
for the number of employment discrimination complaints filed by service 
men and women during this time period to have increased--based on the 
number of deployments--the data needed to make such a judgment remains 
incomplete. Furthermore, data from a 2004 DOD survey showed that at 
least 72 percent of National Guard and Reserve members with USERRA 
problems never sought assistance for their problems, raising questions 
as to whether complaint numbers alone can fully explain USERRA 
compliance or employer support. Finally, the time it takes to process 
USERRA complaints, while somewhat improved, remains unacceptable when 
you are speaking in terms of whether or not a veteran and/or his family 
will lose their home due to a negligent or willfully mistaken 
foreclosure action. In light of these factors, do you see the need for 
any changes to USERRA to address these issues or provide additional 
protection to our Guard and Reserve members?
    Secretary Lamont and General Bostick. Yes, based on the heightened 
operations of the last 10 years and anecdotal evidence gathered by ESGR 
Volunteers and Ombudsman, USERRA should be reviewed. Aside from minor 
amendments, USERRA has not been holistically reviewed since 1994.
    Based on information from the ESGR office, USERRA complaints and 
inquiries have risen statistically since September 2001, but the number 
of cases requiring ESGR intervention represents less than 0.01 percent 
of all Reserve component members.
    There are also some indications of employer fatigue from 10 years 
of continuous mobilizations. To verify the impact on employers, ESGR is 
sponsoring two efforts:

    (1)  The ``2011 Department of Defense National Survey of 
Employers'' was sent to a cross-section of 80K civilian employers 
across America. The survey runs through July 6 with the results 
expected late in fiscal year 2011.
    (2)  As a companion piece to this survey, ESGR is sponsoring a 
study to examine the results of the survey and incorporate information 
gleaned from four regional focus groups of civilian employers. The 
focus groups will participate in questions formulated based on the 
survey results and used to provide meaningful narrative to a report 
summarizing both efforts. The collective efforts of these employer 
engagements should be available late in CY 11.

    Secretary Garcia and Admiral Ferguson. I currently do not see a 
need to amend the USERRA. We continue to monitor the effects of 
continued and persistent usage of the Reserve component on sailors, 
marines, and their families. The DON has found that engaged leadership 
throughout the chain of command and use of Employer Support of the 
Guard and Reserve (ESGR) representatives coupled with existing USERRA 
legislation meets the challenges faced by Reserve component sailors and 
marines.
    Secretary Ginsberg and General Jones. USERRA is crucial to protect 
the employment rights of our citizen airmen. We are not currently 
proposing changes to USERRA, but with the increased reliance on the 
National Guard and Reserve since September 11, it might be time for 
Department of Labor to reevaluate the authority. Regardless, the 
statute has served us well since its inception. Within the Air Force, 
we have experienced tremendous support from our civilian employers when 
we have asked our airmen to support their military commitments. 
Moreover, the Air Force has received a limited number of USERRA 
complaints. We believe this attests to the tremendous support our 
civilian employers extend to our citizen airmen while they are 
performing their military duties. The Air Reserve Components (ARC) 
conduct a number of ongoing employer out-reach programs to bring 
civilian employers into the fold of local Reserve component 
installations and provide them the opportunity to experience the 
military commitments of their employees. Additionally, through a number 
of ARC and Employer Support of Guard and Reserve (ESGR) awards 
programs, the Air Force recognizes the outstanding support of the 
employers to the military community. Finally, we provide relevant 
USERRA education to our citizen airmen on the benefits of this law to 
include points of contact should they experience concerns or issues. It 
should also be noted the ESGR has expanded its mission to provide a 
stronger advocate role for civilian employers by ``developing and 
promoting a culture in which all American employers support and value 
the military service of their employees''. The support of ESGR is a key 
component of maintaining good relations between our airmen and their 
employers.
    General Milstead. I currently do not see a need to amend the 
USERRA. We continue to monitor the effects of continued and persistent 
usage of the Reserve component on our marines and their families. The 
Marine Corps has found that engaged leadership throughout the chain of 
command and use of Employer Support of the Guard and Reserve (ESGR) 
representatives, coupled with existing USERRA legislation, meets the 
challenges faced by Reserve Component Marines.

                           reserve retirement
    36. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, the 2008 NDAA included a provision which I 
authored which authorized members of the Reserve component who perform 
Active Duty for significant periods in support of contingency 
operations to collect retired pay early. Feedback I have gotten on how 
this provision is affecting the troops so far has been very positive. 
What feedback have you received on this issue?
    Secretary Lamont and General Bostick. Overall, we have received 
positive feedback. Soldiers like the retirement as outlined in the NDAA 
2008. We believe that it has been a very positive incentive in support 
of contingency operations.
    Secretary Garcia and Admiral Ferguson. Feedback from the Reserve 
Force on the early collection of retired pay for the performance of 
Active Duty in support of contingency operations is uniformly positive.
    Secretary Ginsberg and General Jones. The Air Force has received 
overall positive feedback from the ARC regarding this statute change. 
The provision is not only an incentive to support volunteerism for 
contingency operations; it may also be viewed as a retention tool for 
the Reserve components.
    General Milstead. We have not received any negative feedback and 
believe the law has been successful in incentivizing and rewarding 
Reserve marines who mobilize in support of contingency operations.

    37. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, how could Congress modify this provision 
to further incentivize and appropriately reward members of the Reserve 
components who deploy for significant periods of time?
    Secretary Lamont and General Bostick. Currently, a Reserve 
component soldier who retires prior to age 60 under the 2008 NDAA 
provision receives retired pay, but no other benefits, e.g. medical 
care. At age 60, the retired Reserve soldiers receive the remainder of 
their retirement benefits. This benefit was established in the NDAA for 
Fiscal Year 2008 and supports the expanded role of Reserve component 
soldiers.
    Secretary Garcia and Admiral Ferguson. Thank you for the 
opportunity to provide my thoughts on provisions that may further 
incentivize and reward members of the Reserve components. Remaining 
consistent with administration policy and established budget 
guidelines, I believe that Congress would be best served if DOD uses 
the standard authorization and budget process to request changes to 
existing authorities, if the Department determines that changes are 
needed.
    Secretary Ginsberg and General Jones. Our Reserve component has a 
longstanding heritage of selflessly supporting our national security, 
and we recognize the expanded role Air Force Reserve and Air National 
Guard airmen are fulfilling in accomplishing the mission. We are also 
keenly aware of the significant costs associated with incentives 
offered to our Reserve airmen and appreciate the generous support 
provided by legislative leadership. If after careful analysis it is 
determined a modificiation is needed to current Reserve benefits or 
entitlements, we will submit a proposal through the standard budget and 
authorization process.
    General Milstead. There are several potential ways the provision 
could be modified if it is determined that the Services need to amend 
the retirement structure for reservists who serve on Active Duty for 
significant periods of time. This is an issue for further study, 
including within the context of the recent military retirement reform 
review.

                           reserve retirement
    38. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, I understand that there is some confusion 
or lack of consistency regarding how the provision authorizing early 
receipt of retired pay is being interpreted within DOD. As the primary 
author of that provision, I would like to state my original intent for 
the record. First, my intent was to reward servicemembers who perform 
Active Duty for significant periods. We had to bind the provision 
somehow so we set the period during which members would be required to 
serve an aggregate of 90 days of duty to be the confines of a single 
fiscal year, fiscal year 2010, or fiscal year 2011, and so forth. The 
intent was not that a servicemember should be rewarded for any 
aggregate duty of 90 days that they served over their Reserve career. 
Second, my intent was to reward servicemembers who were activated, 
mobilized, deployed, or called to duty in support of a contingency 
operation. In my view this should include any duty, in the continental 
United States (CONUS) or outside the continental United States 
(OCONUS), which is related to a contingency operation or national 
emergency, regardless of the specific order type is utilized to call 
the member to duty. With that explanation, I would appreciate your 
feedback on how DOD is interpreting the current statute, what 
ambiguities you believe may exist in the language, and the extent to 
which the Services are interpreting the provision differently.
    Secretary Lamont and General Bostick. The Army follows the DOD 
interpretation of the NDAA for Fiscal Year 2008 provision that is based 
on the fiscal year restriction. I am unable to comment on how the other 
Services interpret the NDAA for Fiscal Year 2008 provision.
    Secretary Garcia and Admiral Ferguson. DOD implementing 
instructions limit accrual of 90-day aggregate increments to service 
performed during a fiscal year. Given this interpretation, with which 
Navy agrees, an inequity exists by not permitting credit toward 
otherwise qualifying 90-day periods of Active Duty that happen to cross 
fiscal years. There also appears to be ambiguity regarding the types of 
active duty orders for which credit may be awarded. For instance, it is 
unclear whether periods of operational support duty performed while on 
Annual Training under title 10, U.S.C., sections 10147 or 12301(b) 
qualify. Navy reservists provide significant operational support while 
on Annual Training; thereby, contributing to contingency operations in 
ways which warrant the awarding of credit towards the 90-day aggregate. 
My understanding is that some of the other Services may not be awarding 
credit for early receipt of retired pay for reservists on Annual 
Training orders.
    Secretary Ginsberg and General Jones. We believe DOD has 
interpreted and subsequently issued implementation guidance based on 
the intent you have identified. We further believe the current language 
is written as `generic' as it can in order to not constrain the 
department and services in implementation. Each of the services, are 
complying with the intent of acknowledging those called to duty in 
support of contingency operations. The OSD guidance is written in a 
manner to permit service secretaries latitude to establish service 
policy to implement the `full intent' of this provision in rewarding 
our servicemembers for their continued sacrifices. There does not 
appear to be any discrepancy in the interpretation and application of 
this law by ARPC between the two Air Force Reserve components.
    General Milstead. The Marine Corps adheres to the DOD policy, 
``Service Credit for Reserve Retirement'' with the exception that, 
based on the clarifying language found in the NDAA for Fiscal Year 
2011, we no longer limit qualifying Active Duty to periods wholly 
served within the same fiscal year.

    39. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, what sort of clarity could Congress 
provide to eliminate some of the ambiguity and inconsistency between 
the Services in this area?
    Secretary Lamont and General Bostick. DOD Instructions that 
implement the 2008 NDAA provision provide clear guidance to the 
Services, so the Army requires no additional guidance.
    Secretary Garcia and Admiral Ferguson. To eliminate ambiguity and 
uncertainty, Congress could amend title 10, U.S.C., to eliminate the 
per-fiscal year calculation of days of certain Active Duty or active 
service used to reduce the minimum age at which a member of a Reserve 
component of the uniformed services may retire for non-regular service, 
as proposed in S. 3406, introduced in the 111th Congress. Such an 
amendment will codify the intent expressed in the Sense of Congress 
enacted in section 635 of the NDAA for Fiscal Year 2011, by expanding 
the authority to permit credit when an otherwise qualifying 90-day 
period of Active Duty or active service crosses between 2 fiscal years. 
Additionally, amending the language to clarify that all types of active 
duty orders are to be included in calculations for early receipt of 
non-regular retired pay under title 10, U.S.C., section 12731, would 
ensure greater consistency in awarding credit under this law.
    Secretary Ginsberg and General Jones. There does not appear to be 
any discrepancy in the interpretation and application of this law by 
ARPC between the two Air Force Reserve components.
    General Milstead. Given the clarification provided in the NDAA for 
Fiscal Year 2011, we are not aware that ambiguity and inconsistency 
currently exists between the Services.

    40. Senator Chambliss. Secretary Lamont, Secretary Garcia, 
Secretary Ginsberg, General Bostick, Admiral Ferguson, General 
Milstead, and General Jones, Senator Tester and I recently filed a bill 
which would change the requirement for the duty to be performed within 
``any fiscal year'' and instead allow it to fall within ``any 2 
consecutive fiscal years.'' This would allow individuals who mobilize 
for 90 days to receive credit if the mobilization or deployment 
happened to span 2 fiscal years, which is often the case. I would 
appreciate your feedback on that proposed change and if you believe it 
might eliminate some of the confusion and inequity in the current 
provision.
    Secretary Lamont and General Bostick. The Army would support a bill 
that removes the fiscal year constraints imposed by the original law, 
and believes such a provision would eliminate the confusion and 
inequity resulting from the current law.
    Secretary Garcia and Admiral Ferguson. I greatly appreciate your 
commitment to reward members of the Reserve component who perform 
Active Duty in support of contingency operations. As written, however, 
the ``Reserve Retirement Deployment Credit Correction Act'' (S. 866) 
would establish eligibility for early receipt of non-regular retired 
pay credit for certain Reserve personnel who complete an aggregate of 
90 days Active Duty or active service which occurs across 2 fiscal 
years, which Navy supports, but would remove eligibility for reservists 
who currently qualify for early receipt of non-regular retired pay 
credit by completing 90-day increments of qualifying Active Duty or 
active service within a single fiscal year. We surmise that the latter 
is not intended and would clearly not be a desirable outcome of the 
legislation. As an alternative, Navy would support amendment of S. 866 
to adopt the language reflected in S. 3406, 111th Congress, which would 
retain credit for all those currently eligible, while expanding the 
authority to permit credit when an otherwise qualifying 90-day period 
of active duty or active service crosses between 2 fiscal years.
    Secretary Ginsberg and General Jones. The proposed change will have 
positive impact. A number of deployments cross fiscal years as the 
member is on site to support the mission requirement. Allowing for the 
duty to be performed within any 2 consecutive fiscal years will provide 
more Reserve component members the benefit of this provision. Finally, 
this action will support recruiting and retention in the Reserve 
components.
    General Milstead. Given the clarification provided in the NDAA for 
Fiscal Year 2011, we are not aware that ambiguity and inconsistency 
currently exists between the Services and do not believe an ``any 2 
consecutive fiscal years'' change is warranted.

                navy chaplains performing gay marriages
    41. Senator Chambliss. Secretary Garcia, yesterday May 10th, the 
Navy suspended their decision to allow chaplains to perform same-sex 
unions. I applaud the Navy for that course of action. Regarding the 
Navy's initial decision--once Don't Ask Don't Tell policy is repealed--
to authorize chaplains to perform same-sex marriages on military bases 
located in States that permit same-sex marriage or union, did the Navy 
seek a ruling from the Navy and/or DOD General Counsel regarding how 
the Navy's proposed policy may or may not conflict with the Defense of 
Marriage Act? If so, what ruling did the Navy and/or DOD General 
Counsel provide?
    Secretary Garcia. Prior to the issuance of that guidance, the 
Office of the Judge Advocate General of the Navy discussed the issue 
with the Offices of the Judge Advocates Generals of the Army, the Air 
Force, and the Office of the General Counsel of DOD. Navy's guidance 
was then developed and issued only after this discussion. Following the 
receipt of a letter from several Members of Congress questioning this 
guidance, the DOD General Counsel and the Navy General Counsel together 
personally decided that further legal review was warranted.

    42. Senator Chambliss. Secretary Garcia, do you agree that, 
regardless of the Navy or the administration's views on the Defense of 
Marriage Act, that it is, in fact--law--and therefore should be 
followed until it is repealed or deemed unconstitutional?
    Secretary Garcia. Yes, the Navy will follow the law, including the 
Defense of Marriage Act, until such time as it ceases being the law.

                            women in combat
    43. Senator Chambliss. General Bostick, the Army's current policy 
for female soldiers allows women to serve in any officer or enlisted 
specialty or position except those in specialties, positions, or units 
(battalion or smaller) which are assigned a routine mission to engage 
in direct combat or which collocate routinely with units assigned a 
direct combat mission. I understand this policy is undergoing a routine 
review. I also understand that a military advisory commission known as 
the Military Leadership Diversity Commission recently released a report 
recommending that DOD create an equal playing field for women. At this 
time, do you personally support a change in the current Army policy in 
this area?
    General Bostick. I do personally support a change to current Army 
policy in this area at this time. The Army recently completed a routine 
cyclic review of its current assignment policy for female soldiers. As 
a result of this review, the Army is prepared to align its policy with 
that of DOD by adopting DOD terminology and definitions and by 
eliminating its collocation restriction. However, the Army does not 
intend to take action to change Army policy until after the 
comprehensive NDAA for Fiscal Year 2011 mandated review is completed, 
as this review may generate changes that extend well beyond the scope 
of our routine cyclic review. Any change in policy will increase 
further career opportunities for female soldiers and provide a larger 
pool of qualified soldiers.
    Women will continue to be assigned to units and positions that may 
necessitate combat actions within the scope of their restricted 
positioning--situations for which they are fully trained and equipped 
to respond.

                     reserve component integration
    44. Senator Chambliss. General Bostick, during a decade of 
sustained engagement in combat operations, the Reserve components of 
our Armed Forces have been transformed from a strategic force of last 
resort to an Operational Reserve Force that provides full-spectrum 
capability to the Nation. While DOD and the military Services have come 
a long way in realizing the vision of an Operational Reserve, more work 
needs to be done to fully implement this concept. In addition to the 
items you mention in your written statement, what additional steps are 
required to truly make the Reserve components the Operational Force of 
the future?
    General Bostick. As DOD continues to transform the National Guard 
and Reserves from a strategic to an operational force, a revised 
``limited'' title 10 U.S.C. authority is needed to provide the 
Secretary of Defense and the Military Departments an authority for 
employing the Reserves and National Guard to support peace-time (non-
emergency) force generation requirements. Such authority, would allow 
DOD components to program and budget for a greater use of the Reserves 
and National Guard to meet steady-state requirements within our base 
budget, such as theater security cooperation missions, rotational 
forces to Europe and/or Korea, and other force generation requirements 
that are longer than 29 days in duration. The President has requested 
that Congress consider amending 10 U.S.C., section 12304, to permit the 
use of the Reserve components for non-emergency requirements. We ask 
for your consideration of this request. Ideally, the Army would like an 
authority to permit the Secretary to begin programming and budgeting 
for involuntary use of the RC to perform missions vital to U.S. 
national interests at home and abroad as part of a flexible, 
accessible, cost effective Total Force.

                      force balance--civil affairs
    45. Senator Chambliss. General Bostick, in your written statement 
you note that ``the Reserve components make up 51 percent of the Army's 
manpower. Moreover, many of the capabilities that the combatant command 
would prefer to use in theater security cooperation activities do not 
exist in sufficient quantities in the Active component. For example, 
approximately 90 percent of the Army's Civil Affairs forces are in the 
USAR.'' Given that the majority of Civil Affairs personnel will 
continue to reside in the Army Reserve and continue to deploy primarily 
in support of conventional forces, why should Special Operations 
Command retain proponent responsibility for all Civil Affairs forces, 
Active and Reserve?
    General Bostick. Civil Affair Operations are a core activity of 
Special Operation Forces.

    46. Senator Chambliss. General Bostick, is Civil Affairs an Army or 
a Special Operations capability?
    General Bostick. Civil Affairs is an Army capability that is housed 
within U.S. Army Special Operations Command.

    47. Senator Chambliss. General Bostick, if the Army maintained 
proponent responsibility for Civil Affairs, how would you recommend 
better integration of the Active and Reserve Civil Affairs forces in 
support of the overall war effort?
    General Bostick. As the 2010 QDR noted, Civil Affairs forces serve 
as the vanguard of DOD's support to partner nations in the fields of 
rule of law, economic stability, governance, public health and welfare, 
infrastructure, and public education and information. The Army's 
current plan for Civil Affairs force modernization at U.S. Army John F. 
Kennedy Special Warfare Center and School is no longer tenable, given 
the recent decision by the Secretary of Defense to transfer proponent 
responsibility for U.S. Army Reserve (USAR) Civil Affairs forces from 
Commander, U.S. Special Operations Command (SOCOM) to the Department of 
the Army. The Commander, SOCOM is tasked with developing options for 
transferring proponent responsibilities for USAR Civil Affairs to the 
Department of the Army. The Army should establish a new force 
modernization and branch proponent for Civil Affairs within the U.S. 
Army Training and Doctrine Command that supports the Army's total 
force, with common standards between the Active and Reserve Forces.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                  yellow ribbon reintegration program
    48. Senator Collins. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, Reserve component members returning from combat to 
civilian communities are often geographically dispersed from military 
bases. The additional pressures of finding or resuming civilian 
employment and finding behavioral health support make it more difficult 
to provide them with an effective reintegration experience. The 
National Guard Bureau's YRRP and the Office of Secretary of Defense's 
Military and Family Life Counseling (MFLC) programs are designed to 
help assist these servicemembers and their families in making this 
transition. Do you have metrics that demonstrate whether or not these 
programs are meeting their objective?
    Secretary Lamont. The Defense Management Data Center (DMDC) 
conducted a web-based survey in fiscal year 2010. This survey, Status 
of Forces Survey of Reserve Component Members: Reunion and 
Reintegration, solicited input from 86,000 Reserve component members 
(31,815 responded). DMDC findings show respondents found YRRP to be 
very effective compared with other DOD programs with which they were 
familiar in the following areas: Overall effectiveness of reunion and 
reintegration support; Helpfulness of support services for members 
dealing with deployment related stress; Overall satisfaction with 
reunion and reintegration support; Helpfulness of support services for 
spouse or significant other dealing with deployment related stress; and 
Overall assessment of readjustment.
    The success of YRRP is largely predicated on the effectiveness of 
its events. It is for that reason Yellow Ribbon event planners are 
required to submit an After Action Report (AAR) following every Yellow 
Ribbon event. These AARs allow the National Guard and Reserve program 
leadership and the YRRP office to identify the needs and gauge the 
effectiveness of the program. Based on the reports from the Services, 
it is evident that YRRP is meeting the needs of its Service and family 
members and community partners.
    The National Guard will continue to work with The Yellow Ribbon 
Center for Excellence which is the analytical element of the YRRP to 
enhance and improve the development of data collection, analysis and 
distribution systems to provide best practices and measures of 
performance and effectiveness of YRRP.
    Although National Guard servicemembers and their families utilize 
MFLC programs offered within the States, the National Guard Bureau does 
not manage this program or track metrics that demonstrate their 
effectiveness.
    Secretary Garcia. The Navy and Marine Corps YRRPs have consistently 
received praise for its ability to smooth the process for reservists 
transitioning from mobilized service to the civilian sector. However, 
it remains voluntary and feedback is provided on a case-by-case basis. 
Exit surveys have been utilized which indicate a strong approval rating 
for both the workshop, as a whole and the material presented. In an 
effort to gain greater metrics, the Center for Naval Analysis (CNA) has 
been requested to conduct a comprehensive study of Navy's 
implementation of the YRRP. Reserve component members also are 
protected from the pressures of finding and resuming civilian 
employment by current laws such as the USERRA.
    There are metrics that demonstrate whether or not these programs 
meet their objective. OSD(P&R) coordinated an independent third party 
evaluation of the MFLC Program by Virginia Tech University. OSD(P&R) 
can provide the specific results of the evaluation as they apply to 
DOD.
    Secretary Ginsberg. In fiscal year 2011, YRRP will continue to 
build on its successes by pursuing a number of objectives including 
publishing the DOD Instruction and developing a plan to execute Joint 
events. These objectives and others will allow for the most efficient 
use of resources when conducting events.
    For fiscal year 2011, approximately 1,700 Yellow Ribbon Events are 
scheduled across the country. This level of commitment, in terms of 
fiscal resources and service provider support being spread thin, 
appears unsustainable based on feedback from YRRP Advisory Board, YRRP 
Conference attendees, and service providers. In addition, an increased 
emphasis on the role YRRP will play in terms of decreasing 
unemployment/underemployment must be addressed.
    YRRP continues to work diligently to enhance and improve the 
Program by finding new and innovative ways to communicate and deliver 
information to servicemembers and their families. In addition, the 
Program has also placed more emphasis on Service collaboration to 
better serve servicemembers and their families. These efforts provide 
the foundation for the Program's growth and achieving its mission to 
help, support, and ultimately increase the readiness of Service and 
family members throughout the deployment cycle.
    YRRP has made a difference in the lives of thousands of our 
soldiers, sailors, marines, airmen, and their families. Continuing 
support from Congress, the Military Departments, the National Guard and 
Reserve, Federal agencies, nongovernmental agencies, and State and 
local partners will ensure our National Guard and Reserve 
servicemembers and their families will remain strong and ready!

    49. Senator Collins. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, what is the projected funding for the next 5 years 
for the YRRP and the Military and Family Counseling programs?
    Secretary Lamont. The Army National Guard (ARNG) uses the Army 
Community Services budget line for Base funding of all of their quality 
of life programs which include Yellow Ribbon, Family Programs, Survivor 
Outreach Services and Joint Staff. The Fiscal Year 2012 Operation/
Maintenance (O&M) funding amount is $82.317 million; the Army is still 
working the numbers for the out years.
    The Air National Guard (ANG) funds their Yellow Ribbon program 
through Overseas Contingency Operations (OCO) funding. The fiscal year 
2012 funding includes both O&M at $17.4 million and Military Personnel 
(MILPERS) at $9.4 million for a total of $26.8 million. The Army is 
still working the numbers for the out years.
    National Guard servicemembers and their families utilize MFLC 
programs offered within their States. However, the National Guard 
Bureau does not manage funding for this program or track metrics that 
demonstrate their effectiveness.
    Secretary Garcia. The YRRP is currently funded through fiscal year 
2012. No additional funding has been sourced to support the program 
beyond fiscal year 2013.
    Secretary Ginsberg. YRRP currently remains adequately resourced to 
carry out the mission as mandated by law. The AFR fully supports the 
YRRP and will continue to work with the Service YRRP Managers, 
Liaisons, General Counsel, OSD Comptroller, and other OSD Offices to 
resolve issues that impact the ability to execute funds in support of 
servicemembers and their families. We anticipate funding for the next 5 
years of approximately $75 million.

    50. Senator Collins. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, do you believe you have adequate mental health and 
behavioral health personnel in the appropriate locations to reach all 
of the returning Reserve and National Guard servicemembers?
    Secretary Lamont. The U.S. Army Medical Command has sufficient 
behavioral health personnel to provide behavioral health screening to 
returning National Guard and Army Reserve soldiers. However, across the 
Army, we do not have sufficient numbers of behavioral health care 
providers in the appropriate locations to treat all of our returning 
soldiers with behavioral health care issues resulting from deployment. 
The Army is using numerous mechanisms, including bonuses, scholarships, 
and expansions in training programs, to recruit and retain both 
civilian and uniformed behavioral health providers.
    Secretary Garcia. We are committed to improving the psychological 
health, resiliency and well-being of all our sailors, marines, and 
their family members, both Active and Reserve component. Our priority 
remains ensuring that our personnel and their families have access to 
the providers, programs and services they need. We recognize that 
shortfalls within the market of qualified mental health providers has 
led to challenges in contracting and filling provider and support staff 
positions; however, recruitment and retention of uniformed personnel 
have improved. We are also working hard to ensure that required 
civilian and contracted personnel positions are filled to meet the 
needs our personnel, regardless of location. Our programs are designed 
to make best use of our trained mental health personnel and resources 
including:

        <bullet> Reserve  commands  have  trained  Combat/Operational  
        Stress  Control  (C/OSC) caregivers and C/OSC training is 
        conducted regularly in order to prevent suicide, sexual assault 
        and family violence, and to normalize buddy-care and help-
        seeking behavior as early as possible. Like the Active 
        component, these OSC concepts are integrated into all sailor 
        and family programs in the RC, including alcohol awareness and 
        SAPR--which also highlight the importance of bystander 
        intervention. Together these efforts combine to create a 
        culture of caring among shipmates, where seeking help for 
        oneself or someone else in need is fast becoming the new social 
        norm.
        <bullet> These efforts are further supported by trained Suicide 
        Prevention Coordinators within each Reserve Command who provide 
        effective interactive peer-to-peer training as part of an 
        ongoing social media campaign to de-stigmatize help-seeking.
        <bullet> Reserve PHOP teams of five to six full-time licensed 
        mental health providers are embedded within each geographic 
        Navy Reserve Region or Marine Forces Reserve Region to help 
        commands, reservists and their families, to meet their care 
        needs. Each Region's team provides a 24/7 on-call service. They 
        also contact every reservist returning from a combat 
        deployment, and provide mental health screening, find local, 
        affordable resources, make referrals and then follow-up to 
        ensure that the care was effective. This program continues to 
        help RC personnel with finding appropriate care for medical and 
        mental health needs by connecting them with available and 
        accessible state-of-the-art face to face, telephonic and web-
        based Federal and State programs, including those offered by 
        TRICARE, Military OneSource, Military and Family Life 
        Consultants serving in the Joint Family Support and Assistance 
        Programs and the VA. PHOP teams conduct local Navy Operational 
        Support Center (NOSC) visits at least annually and have 
        participated in the YRRP Warrior and Family Support pre-
        deployment family readiness conferences and annual Periodic 
        Health Assessments at NOSCs. They also receive referrals for 
        assistance as a result of Post Deployment Health Assessments 
        conducted by health care providers for reservists returning 
        from deployments.
        <bullet> Returning Warrior Workshops (RWWs), a 2-day weekend 
        program designed specifically to support the successful 
        reintegration of returning reservists and their families 
        following mobilization are conducted within each Region usually 
        each quarter. The PHOP teams serve as facilitators at these 
        YRRP signature events which normalize the impact of combat 
        stress, provide support and opportunities to assess mental 
        health needs, destigmatize help-seeking, and provide resources 
        for identified issues or concerns.
        <bullet> Families OverComing Under Stress, a family-centered 
        resilience training program based on evidence-based 
        interventions that enhance understanding of combat and 
        operational stress, psychological health and developmental 
        outcomes for highly stressed children and families, is 
        available for RC personnel serving in areas with a high active 
        duty fleet concentration.

    Secretary Ginsberg. ANG implemented the Psychological Health 
Program (PHP) during this fiscal year. The ANG PHP places licensed 
mental health professionals as DPHs into each wing to provide subject 
matter expertise on psychological health to wing commanders and to 
provide consultation, information, referral, and case management for 
airmen and their family members in need of assistance. Though the ANG 
does not provide treatment, these professionals help distressed airmen 
navigate the complex mental health system in order to obtain the help 
they need. They support airmen throughout the deployment cycle and are 
a resource when post-deployment assessments determine an airman is 
experiencing difficulties.
    The Wing DPHs work collaboratively with other wing helping 
agencies, such as Chaplains and Airman and Family Readiness Program 
Managers. Additionally, they partner with State DPHs, Joint Family 
Support Assistance Program Military and Family Life Consultants, and 
others who support Guard members and their families. Wing DPHs serve as 
consultants to medical personnel conducting pre- and post-deployment 
assessments of airmen, providing further screening, referral and case 
management as appropriate. Wing DPHs are involved in the YRRP to 
provide support for Guard members and their families throughout the 
deployment cycle.
    The Wing DPHs play a critical role in addressing the mental health 
needs of returning Reserve and National Guard servicemembers. However, 
the ANG would benefit from additional resources, as a single asset 
cannot possibly meet all needs. For example, as members of the Reserve 
component return from deployments, they undergo assessments at multiple 
locations, and changes in their Federal/State status. The ANG has begun 
to address this issue using the Deployment Resiliency Assessment.

    51. Senator Collins. Secretary Lamont, Secretary Garcia, and 
Secretary Ginsberg, if there are additional resources or programs that 
must be implemented to ensure the behavioral and mental health needs of 
reservists and guardsmen returning from war and their families are 
fully met, please describe those proposals.
    Secretary Lamont. Returning reservists and guardsmen are authorized 
extended care through the VA, TRICARE network, and direct care system 
as they transition from their combat experiences. However, they must be 
located near participating healthcare facilities or network providers 
to obtain such care. The Army is expanding a tele-behavioral health 
system that will greatly increase access for returning soldiers by 
enabling them to seek and receive care in remote locations. We are 
currently addressing the issues inherent in this expansion, with State 
licensure limitations of behavioral health professionals being one of 
the most critical challenges.
    Secretary Garcia. We maintain a culture of continuous improvement 
in critically evaluating our programs of support for all our sailors, 
marines, and their families. At the same time, the leadership within 
the Navy and Marine Corps is committed to eliminating any stigma 
associated with seeking care or assistance. We continue to make 
progress in providing better care, as well as seamless services and 
support to our personnel and their families and believe we have the 
resources necessary to meet our requirements moving forward.
    Secretary Ginsberg. Air Force Reserve proposes to adding wing-level 
personnel who will focus specifically on increasing access to services, 
improving the psychological health needs and resilience of AFR 
personnel and their families, and, when possible, mitigating the 
negative effects of community risk factors.
    The challenges of serving as a citizen airman are many. To attempt 
to meet this challenge, ANG implemented the PHP during this fiscal 
year. This program supports the force health protection of airmen by 
promoting resilience and psychological health. The ANG PHP places 
licensed mental health professionals as DPHs into each wing to provide 
subject matter expertise on psychological health to wing commanders and 
to provide consultation, information, referral, and case management for 
airmen and their family members in need of assistance. Though the ANG 
does not provide treatment, these professionals help distressed airmen 
navigate the complex mental health system in order to obtain the help 
they need. They also support the psychological health of wing members 
by providing psychoeducational presentations on topics such as post-
traumatic stress, improving sleep, communication, and relationships.
    Mental health care of citizen airmen is complicated by geographic 
dispersal. Many members live in remote areas where access to care is 
limited. Continuing to expand funding for and availability of 
telehealth services, community mental health services and other 
population health efforts will be beneficial.
    Ongoing funding of the ANG PHP is essential. Funding is needed to 
continue the program beyond fiscal year 2012. The PHP is critical to 
ensuring the continuum or continuity of care for the Guard member.

    [Whereupon, at 2:59 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
